<html>
<title> - WELFARE REFORM REAUTHORIZATION PROPOSALS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                             WELFARE REFORM
                       REAUTHORIZATION PROPOSALS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 10, 2005

                               __________

                            Serial No. 109-5

                               __________

         Printed for the use of the Committee on Ways and Means



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
36-658                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

E. CLAY SHAW, JR., Florida           CHARLES B. RANGEL, New York
NANCY L. JOHNSON, Connecticut        FORTNEY PETE STARK, California
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM MCCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
ROB PORTMAN, Ohio                    WILLIAM J. JEFFERSON, Louisiana
PHIL ENGLISH, Pennsylvania           JOHN S. TANNER, Tennessee
J.D. HAYWORTH, Arizona               XAVIER BECERRA, California
JERRY WELLER, Illinois               LLOYD DOGGETT, Texas
KENNY C. HULSHOF, Missouri           EARL POMEROY, North Dakota
RON LEWIS, Kentucky                  STEPHANIE TUBBS JONES, Ohio
MARK FOLEY, Florida                  MIKE THOMPSON, California
KEVIN BRADY, Texas                   JOHN B. LARSON, Connecticut
THOMAS M. REYNOLDS, New York         RAHM EMANUEL, Illinois
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia
JOHN LINDER, Georgia
BOB BEAUPREZ, Colorado
MELISSA A. HART, Pennsylvania
CHRIS CHOCOLA, Indiana

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        JIM MCDERMOTT, Washington
BOB BEAUPREZ, Colorado               BENJAMIN L. CARDIN, Maryland
MELISSA A. HART, Pennsylvania        FORTNEY PETE STARK, California
CHRIS CHOCOLA, Indiana               XAVIER BECERRA, California
JIM MCCRERY, Louisiana               RAHM EMANUEL, Illinois
DAVE CAMP, Michigan
PHIL ENGLISH, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 2, 2005, announcing the hearing.............     2

                               WITNESSES

The Honorable Lynn C. Woolsey, a Representative in Congress from 
  the State of California........................................    10

                                 ______

U.S. Department of Health and Human Services, Hon. Wade F. Horn, 
  Ph.D., Assistant Secretary for Children and Families...........    13

                                 ______

Maryland Department of Human Resources, Kevin M. McGuire, 
  Baltimore, MD..................................................    32
Heritage Foundation, Robert Rector...............................    38
Brookings Institution, Ronald Haskins............................    48
National Partnership for Community Leadership, Jeffery M. 
  Johnson; accompanied by Yovani Rivera..........................    55
Center for Self-Sufficiency, Jason A. Turner, Milwaukee, WI......    61

                                 ______

New York City Human Resources Administration, David Hansell, New 
  York, NY.......................................................    77
Legal Momentum, Lisalyn R. Jacobs................................    83
U.S. Conference of Catholic Bishops, Kathleen A. Curran..........    96
Boston Medical Center, Deborah A. Frank, Boston, MA..............   102
The Alliance for Children and Families, Peter Goldberg...........   106

                       SUBMISSIONS FOR THE RECORD

Advocates for Human Potential, Inc...............................   116
American Association of University Women, Lisa Maatz, statement..   119
American Civil Liberties Union, Laura W. Murphy, statement.......   121
American Institute for Full Employment, Klamath Falls, OR, Jon 
  Hobbs, statement...............................................   128
American Psychological Association, Lori Valencia Greene, 
  statement......................................................   130
Annie E. Casey Foundation, Baltimore, MD, Douglas W. Nelson, 
  statement......................................................   132
Boston Medical Center, Boston, MA, Deborah A. Frank, statement...   134
Burg, Fred, West Long Branch, NJ, statement......................   136
Call to Renewal, Yonce Shelton, statement........................   139
Cato Institute, Jenifer Zeigler, statement.......................   142
Center for Community Change, Sean Thomas-Breitfeld, joint letter 
  and attachment.................................................   149
Center for Economic and Policy Research, Heather Boushey, 
  statement......................................................   151
Center for Fathers, Families and Workforce Development, 
  Baltimore, MD, Joseph T. Jones, Jr., statement.................   153
Center for Law and Social Policy, Vicki Anne Turetsky, Mark H. 
  Greenberg, Nisha Patel, and Hedieh Rahmanou, joint statement...   154
Center for Parental Responsibility, Roseville, MN, Molly K. 
  Olson, statement and attachment................................   162
Center for Women Policy Studies, Leslie R. Wolfe, statement......   166
Chicago Jobs Council, Chicago, IL, Rose Karasti and Robert E. 
  Wordlaw, joint statement.......................................   169
Children's Defense Fund, Carolyn Wylie, statement................   173
Consortium for Citizens with Disabilities, Sharon McDonald, 
  statement......................................................   179
County Welfare Directors Association of California, Sacramento, 
  CA, Frank J. Mecca, statement..................................   183
Family Violence Prevention Fund, San Francisco, CA, Esta Soler, 
  statement......................................................   187
Goodwill Industries of Sacramento Valley, Inc., Sacramento, CA, 
  Joseph Mendez, statement.......................................   194
Iowa Coalition Against Domestic Violence, Des Moines, IA, Amy 
  Correia, statement.............................................   195
National Child Support Enforcement Association, statement........   197
National Coalition for Literacy, Albany, NY, and National Council 
  of State Directors of Adult Education, Garrett Murphy, joint 
  statement......................................................   200
National Women's Law Center, Helen Blank, statement..............   202
New York State Coalition Against Domestic Violence, Albany, NY, 
  Sherri A. Salvione, statement..................................   207
New York State Office of Temporary and Disability Assistance, 
  Albany, NY, Robert Doar, statement.............................   212
Occupational Training Institute of the Foothill-De Azna Community 
  College District, Cupertino, CA, Daniel W. Dishno, statement...   216
Oregon Human Rights Coalition, North Bend, OR, Maggie Bagon, 
  statement......................................................   217
Palomar College, San Marcos, CA, Brenda Ann Wright, M.A., letter.   217
Presbyterian Church, Carolynn Race, joint statement..............   218
Presbytery of Philadelphia, Philadelphia, PA, Schaunel Lynn 
  Steinnagel, letter and attachment..............................   220
Public/Private Ventures, New York, NY, Mark Elliott, statement...   222
State University of New York at Potsdam, Potsdam, NY, George 
  Gonos, statement and attachment................................   225
Texas Council on Family Violence, Austin, TX, Sheryl Cates, 
  statement......................................................   231


                             WELFARE REFORM
                       REAUTHORIZATION PROPOSALS

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2005

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:09 p.m., in 
room B-318, Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
February 02, 2005
No. HR-1

                      Herger Announces Hearing on

                Welfare Reform Reauthorization Proposals

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on welfare reform reauthorization 
proposals. The hearing will take place on Thursday, February 10, 2005, 
in room B-318 Rayburn House Office Building, beginning at 1:00 p.m.
      
    Oral testimony at this hearing will be from both invited and public 
witnesses. Invited witnesses will include welfare experts and program 
administrators, among others. Any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Subcommittee for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    The Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (P.L. 104-193), commonly referred to as the 1996 Welfare Reform 
Law, made dramatic changes in the Federal-State welfare system designed 
to aid low-income American families. The legislation repealed the 
individual entitlement to cash welfare benefits and created the 
Temporary Assistance for Needy Families (TANF) block grant, which 
provides fixed funding to States to operate programs designed to 
achieve several purposes: (1) provide assistance to needy families, (2) 
end the dependence of needy parents on government benefits by promoting 
job preparation, work, and marriage, (3) prevent and reduce the 
incidence of out-of-wedlock pregnancies, and (4) encourage the 
formation and maintenance of healthy two-parent families.
      
    Since State and Federal welfare reforms were enacted in the mid-
1990s, national figures point to remarkable progress in combating 
welfare dependence and poverty. The number of children living in 
poverty has dropped by more than 1 million and the African-American 
child poverty rate fell to and remains near record lows. Welfare 
caseloads have fallen by 60 percent nationwide as 3 million families 
and 9 million recipients have left welfare, and record numbers of 
current and former welfare recipients are working.
      
    As originally authorized by the 1996 Welfare Reform Law, TANF and 
related programs expired on September 30, 2002. The House passed 
comprehensive welfare reauthorization bills in 2002 and 2003; however 
the Senate did not act, resulting in a series of short-term extension 
bills. On January 4, 2005, senior Members of the House introduced the 
Personal Responsibility, Work, and Family Promotion Act of 2005 (H.R. 
240). This legislation is nearly identical to legislation which passed 
the House in 2002 and 2003, which would promote more work as well as 
provide funding for TANF and related programs beyond the current 
expiration date of March 31, 2005.
      
    In announcing the hearing, Chairman Herger stated: ``The House has 
twice passed legislation providing full funding for welfare-to-work 
programs, increased funding for child care, and specific funds designed 
to promote stronger families and healthy marriages. We will continue to 
push for passage of legislation that represents the next step in our 
Nation's efforts to reform welfare, promote work, and strengthen 
families. This hearing will give us the opportunity to hear from a 
variety of interested individuals and groups about ideas for further 
positive reform.''
      

FOCUS OF THE HEARING:

      
    The focus of the hearing is to review welfare reform 
reauthorization proposals.
      

DETAILS FOR SUBMISSIONS OF REQUESTS TO BE HEARD:

      
    Requests to be heard at the hearing must be made by telephone to 
Michael Morrow or Kevin Herms at (202) 225-1721 no later than 5:00 p.m. 
on Friday, February 4, 2005. The telephone request should be followed 
by a formal written request faxed to Allison Giles, Chief of Staff, 
Committee on Ways and Means, U.S. House of Representatives, 1102 
Longworth House Office Building, Washington, D.C. 20515, at (202) 225-
2610. The staff of the Subcommittee will notify by telephone those 
scheduled to appear as soon as possible after the filing deadline. Any 
questions concerning a scheduled appearance should be directed to the 
Subcommittee staff at (202) 225-1025.
      
    In view of the limited time available to hear witnesses, the 
Subcommittee may not be able to accommodate all requests to be heard. 
Those persons and organizations not scheduled for an oral appearance 
are encouraged to submit written statements for the record of the 
hearing in lieu of a personal appearance. All persons requesting to be 
heard, whether they are scheduled for oral testimony or not, will be 
notified as soon as possible after the filing deadline.
      
    Witnesses scheduled to present oral testimony are required to 
summarize briefly their written statements in no more than five 
minutes. THE FIVE-MINUTE RULE WILL BE STRICTLY ENFORCED. The full 
written statement of each witness will be included in the printed 
record, in accordance with House Rules.
      
    In order to assure the most productive use of the limited amount of 
time available to question witnesses, all witnesses scheduled to appear 
before the Subcommittee are required to submit 200 copies, along with 
an IBM compatible 3.5-inch diskette in WordPerfect or MS Word format, 
of their prepared statement for review by Members prior to the hearing. 
Testimony should arrive at the Subcommittee office, B-317 Rayburn House 
Office Building, no later than 1:00 p.m. on Tuesday, February 8, 2005. 
The 200 copies can be delivered to the Subcommittee staff in one of two 
ways: (1) Government agency employees can deliver their copies to B-317 
Rayburn House Office Building in an open and searchable box, but must 
carry with them their respective government issued identification to 
show the U.S. Capitol Police, or (2) for non-government officials, the 
copies must be sent to the new Congressional Courier Acceptance Site at 
the location of 2nd and D Streets, N.E., at least 48 hours prior to the 
hearing date. Please ensure that you have the address of the 
Subcommittee, B-317 Rayburn House Office Building, on your package, and 
contact the staff of the Subcommittee at (202) 225-1025 of its 
impending arrival. Due to new House mailing procedures, please avoid 
using mail couriers such as the U.S. Postal Service, UPS, and FedEx. 
When a couriered item arrives at this facility, it will be opened, 
screened, and then delivered to the Subcommittee office, within one of 
the following two time frames: (1) expected or confirmed deliveries 
will be delivered in approximately 2 to 3 hours, and (2) unexpected 
items, or items not approved by the Subcommittee office, will be 
delivered the morning of the next business day. The U.S. Capitol Police 
will refuse all non-governmental courier deliveries to all House Office 
Buildings.
      

WRITTEN STATEMENTS IN LIEU OF PERSONAL APPEARANCE:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``109th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=17). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business Thursday, 
February 24, 2005. Finally, please note that due to the change in House 
mail policy, the U.S. Capitol Police will refuse sealed-package 
deliveries to all House Office Buildings. Those filing written 
statements who wish to have their statements considered for 
distribution to the press and interested public at the hearing can 
follow the same procedure listed above for those who are testifying and 
making an oral presentation. For questions, or if you encounter 
technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. I would now like to begin today's hearing 
on welfare reauthorization proposals and welcome our witnesses. 
Ms. Woolsey, as you will be our first witness, please have a 
seat at the table. The purpose of today's hearing is to review 
what has been accomplished since the historic 1996 welfare 
reform law was enacted and to listen to some of the best ideas 
for making further progress. Welfare reform has been an 
enormous success. Since enactment in 1996, work among welfare 
recipients has more than doubled. Welfare dependence has been 
cut in half, and more than 1 million children have been removed 
from poverty. We want to continue and expand those gains to 
help more single parents move toward financial stability and 
independence and a brighter future. Despite these gains, we 
have seen less progress in recent years. The intent of the 1996 
law was to have 50 percent of the parents working while 
receiving welfare benefits--not 100 percent of parents, just 
half of them. The reality is we are not meeting this modest 
goal. Today, less than one in three parents on welfare is 
working or training--a rate that has declined in 3 of the past 
4 years. At the same time, progress on reducing dependence has 
slowed, and poverty rates have started to edge up again.
    In 2002 and 2003, the House passed comprehensive 
legislation to extend and improve the welfare reform law so it 
will continue to meet our goals of reducing poverty, increasing 
independence, and prioritizing work. Each bill would have 
provided additional funds to help more parents work and pay for 
child care costs. Each bill would have given States new 
flexibility and other tools to help more parents find jobs and 
achieve self-sufficiency. Each bill would have focused the 
Temporary Assistance for Needy Families (TANF) program on 
reducing poverty. Each bill would have provided States the 
assurance of Federal funds for the coming 5 years. Each bill 
included child support program improvements that would have 
provided millions more dollars to families.
    Three years after the House first passed such legislation, 
we are still marking time. It is a disgrace that a successful 
program is languishing through eight short term extensions of 
current law. Had our 2002 bill been enacted, by now States 
would have received $1.8 billion more in additional child care 
funds. Instead, child care funding has stayed the same, and 
work by welfare recipients has actually dropped. Looking ahead, 
there is no assurance of maintaining the same level of Federal 
funding, even though the President's budget proposes level 
funding for TANF and child care. That is the starting point for 
our deliberations, not the final word. In today's budget 
climate, it is not guaranteed that we can match the support 
these programs might have been provided if Congress had acted 
anytime since 2002. The longer we delay, the more funding will 
be at risk.
    On January 4th, my colleagues and I reintroduced 
comprehensive welfare reauthorization legislation. This bill, 
H.R. 240, expresses our continued support for more work, 
stronger families, and better outcomes for children. Those are 
values we all can support. I welcome Dr. Wade Horn here to 
discuss the Administration's welfare reauthorization proposals 
and what we have learned over the past few years. I look 
forward to the testimony from our witnesses today, starting 
with my colleague Representative Lynn Woolsey of California. I 
especially appreciate the interest in today's topic expressed 
by a range of groups and individuals who have submitted 
testimony for the record. We have invited several of those 
groups to testify before us today. Without objection, each 
Member will have the opportunity to submit a written statement 
and have it included in the record at this point. Mr. 
McDermott, would you care to make a statement?
    [The opening statement of Chairman Herger follows:]
   Opening Statement of The Honorable Wally Herger, Chairman, and a 
        Representative in Congress from the State of California
    Welcome to today's hearing on welfare reauthorization proposals.
    The purpose of today's hearing is to review what has been 
accomplished since the historic 1996 welfare reform law was enacted, 
and to listen to some of the best ideas for making further progress.
    Welfare reform has been an enormous success. Since enactment in 
1996, work among welfare recipients has more than doubled. Welfare 
dependence has been cut in half, and more than one million children 
have been removed from poverty. We want to continue and expand those 
gainsto help more single parents move toward financial stability and 
independence and a brighter future.
    Despite these gains, we've seen less progress in recent years. The 
intent of the 1996 law was to have 50 percent of parents working while 
receiving welfare benefits. Not 100 percent of parents--just half.
    The reality is we're not meeting this modest goal. Today, less than 
one in three parents on welfare is working or training today--a rate 
that has declined in three of the past four years. At the same time, 
progress on reducing dependence has slowed, and poverty rates have 
started to edge up again.
    In 2002 and 2003, the House passed comprehensive legislation to 
extend and improve the welfare reform law so it will meet our goal to 
continue reducing poverty, increasing independence and prioritizing 
work.
    Each bill would have provided additional funds to help transition 
to higher work goals and to address child care costs. Each bill would 
have given states new flexibility and other tools to help more parents 
on welfare find jobs and achieve self-sufficiency. Each bill would have 
focused the TANF program on reducing poverty. Each bill would have 
provided States the assurance of Federal funds for the coming five 
years. And each bill included child support program improvements that 
would have provided millions more dollars to families.
    Three years after the House first passed such legislation we are 
still marking time. It is a disgrace that a successful program is 
languishing through eight short-term extensions of current law. Had our 
2002 bill been enacted, by now States would have received $1.8 billion 
in additional child care funds. Instead, child care funding has stayed 
the same, and work by welfare recipients has actually dropped.
    Looking ahead, there is no assurance of maintaining the same levels 
of Federal funding, even though the President's Budget proposes level 
funding for TANF and child care. That's the starting point for our 
deliberations, not the final word. In today's budget climate it is not 
guaranteed that we can match the support these programs might have been 
provided if Congress had acted anytime since 2002. The longer we delay 
the more we jeopardize level-funding of the program.
    On January 4, my colleagues and I reintroduced comprehensive 
welfare reauthorization legislation. This bill, H.R. 240, expresses our 
continued support for more work, stronger families and better outcomes 
for children. Those are values we all can support.
    I welcome Dr. Wade Horn here to discuss the Administration's 
welfare reauthorization proposals and what we have learned over the 
past few years. I look forward to the testimony from our other 
witnesses today, starting with my colleague Rep. Lynn Woolsey from 
California. I especially appreciate the interest in today's topic 
expressed by a range of groups and individuals who have submitted 
testimony for the record. We have invited a representative sample of 
those groups to testify before us today.

                                 <F-dash>

    Mr. MCDERMOTT. Yes, thank you, Mr. Chairman. I am sorry, 
Ms. Woolsey, that you are going to have to listen to another 
Congressman read a speech at you, but I want to say at the 
outset that I am looking forward to working with Wally in this 
Committee. I hope that we can lead this Committee in a way that 
will be done in a bipartisan way, that will put America's 
interests really above political interests. I really think that 
we are at a crossroads. The gap between the rich and the poor 
in America continues to grow, and economic mobility is 
diminishing. Economic insecurity is growing.
    The number of people in poverty, including millions of 
children who do not have enough to eat, continues to rise year 
after year. The number of Americans without health care 
continues to grow. We are now over 44 million in this country. 
Every 30 seconds in America, in the richest, most powerful 
Nation on Earth, someone declares bankruptcy because they have 
simply fallen sick and cannot pay their bills. As a nation and 
as people, we are not taking care of each other.
    Now, with the party in power running the House and the 
Senate, America is turning from a nation, in my view, of ``we'' 
to a country of ``me,'' where citizens are rewarded for looking 
out for themselves. I regret to say that under this rule the 
Federal Government is turning really a blind eye to America's 
most needy and most vulnerable citizens, even as they fall 
deeper into poverty. The President's budget priorities are as 
clear as they are disturbing, in my view. They tender lucrative 
deals to defense contractors for unnecessary weapons systems. 
They enrich America's top 1 percent with tax cuts that increase 
their personal gain and increase America's deficits. The 
President's number one domestic goal is to turn Social Security 
into social insecurity. He proposes to remove the safety net 
under senior citizens that keeps millions of our elderly out of 
poverty when they retire.
    Make no mistake: The President and his supporters are 
attacking the very means by which you and me value our 
responsibility to each other. America was founded on the 
bedrock principle ``we,'' not ``me.'' We are duty-bound not 
only ourselves but to each other. We have always been proud of 
this. It has made America stand so tall in the world. Today 
this hearing really focuses on Temporary Assistance for Needy 
Families. The TANF goal should be to provide vulnerable 
Americans with the opportunity to reach economic security and 
self-sufficiency. TANF ought to stand for ``Toward a New 
Future'' because that is what I want for these people . . . a 
path to skills and new economic opportunity.
    Despite what confronts us, the Republican refrain so far is 
the same: under-fund and under-concern. The result--the 
children go missing in the foster care system, are placed in 
unsafe child care settings, and consistently go without a 
nourishing meal. Just when you think it cannot get any worse, 
well, they propose something new. H.R. 240, recently introduced 
in the House, is a perfect example. It is the same bill that 
was introduced 3 years ago. The bill was bad policy then, and 
it remains the wrong approach today. Rather than focusing on 
moving welfare recipients into wage-paying jobs, this 
legislation emphasizes putting them into unpaid make-work. 
Instead of increasing State flexibility to move welfare 
recipients toward self-sufficiency, Republicans stick the 
States with huge unfunded mandates. Rather than empowering the 
welfare recipients to climb out of poverty, they are restricted 
in their access to education and training.
    Incredibly, the proposal is funding only 10 percent of the 
urgent need for child care so that working mothers can work 
without fearing for the safety of their children. They offer $1 
billion in this budget. Now, the nonpartisan Congressional 
Budget Office (CBO) says the real figure is $11 billion. Those 
are not my numbers. Those come out of CBO. On the issue of 
child care, I want to highlight three charts that expose some 
troubling facts, if someone will put those charts up. The first 
shows that our current effort to provide child care to needy 
families is grossly insufficient. According to the data from 
the U.S. Department of Health and Human Services (HHS), only 
about one quarter of the children who are eligible for child 
care under State eligibility criteria actually receive 
assistance. That is not a high level. Many States are very low, 
but even those do not have it. The fraction drops to roughly 1 
out of 7 if you use Federal eligibility requirements. These 
numbers clearly show we are falling short, and the proposal 
that we have before us makes it worse.
    The budget released on Monday by the Bush Administration 
leaves no doubt, as illustrated by the second chart, the 
Administration budget projects the number of people receiving 
child care assistance will decline by over 300,000 over the 
next 5 years. There is only one conclusion you can draw from 
that chart: the President supports and intends to cut child 
care coverage, even as his Administration proposes tougher 
requirements that will keep working mothers away from the home 
longer. Make longer hours that the mother has got to be out of 
the home, but do not provide the child care.
    My friends on the other side of the aisle might suggest 
that this bill is minimally more generous on child care than 
the Administration's budget. The CBO makes quick work of that 
fiction and CBO ran the numbers, and you can see the results in 
the third chart. The calculation simply looks at the cost of 
the work requirement proposed in the Republican bill plus the 
cost of keeping Federal child care funding constant with 
inflation. The bottom line is a deficit--that red block at the 
bottom--of $10.6 billion.
    Now, the question you have to ask yourself and we have to 
ask ourselves is: How are the States going to respond to this 
huge shortfall? I fear the answer will be deeper cuts in child 
care assistance for the working poor. Many of us believe there 
is a better way, and along with my Democratic colleagues on 
this Subcommittee, I am introducing legislation today that 
squarely focuses on moving welfare recipients into real jobs 
and ultimately out of poverty. The bill has meaningful work 
requirements along with necessary resources to implement them.
    One unique feature of our bill is a provision that would 
allow States at their option to be judged solely on their 
progress in moving welfare recipients into employment, into 
jobs. Other improvements in our bill include increasing access 
to skills training and restoring benefits to immigrants who 
have come to this country legally. ``Toward a New Future,'' 
that is what TANF means to Democrats, and that is where 
Americans will end up under our bill.
    I invite all of our witnesses today to look at our bill, 
submit any thoughts and suggestions you have to me in writing, 
and beginning today we can discuss what is needed to do truly 
welfare reform. We can develop an action plan. We can better 
care for each other. Thank you.
    [The opening statement of Mr. McDermott follows:]

 Opening Statement of The Honorable Jim McDermott, a Representative in 
                 Congress from the State of Washington

    Mr. Chairman, I want to say at the outset that I look forward to 
working with you. I hope that, together, we can lead the HR 
Subcommittee in a bi-partisan spirit that puts America's interests 
ahead of political interests.
    I believe that we are at a crossroads. The gap between rich and 
poor Americans continues to grow. Economic mobility is diminishing. 
Economic insecurity is growing. The number of people in poverty--
including millions of children who don't have enough to eat--continues 
to rise year after year.
    The number of Americans without health care continues to grow--now 
over 44 million.
    Every 30 seconds in America, the richest, most powerful nation on 
earth, someone declares bankruptcy because they have simply fallen 
sick.
    As a nation, and as a people, we are not taking care of each other.
    With Republicans running the House, Senate, and White House, 
America is turning from a nation of ``we'' to a country of ``me'' where 
citizens are rewarded for looking out only for themselves.
    I regret to say that under Republican Rule, the federal government 
is turning a blind eye to America's most needy and most vulnerable 
citizens, even as they fall deeper into poverty.
    The President's budget priorities are as clear as they are 
disturbing:
    Tender lucrative deals to defense contractors for unnecessary 
weapons systems;
    Enrich America's top 1% with tax cuts that increase their personal 
gain and increase America's deficit pain.
    The President's number one domestic goal is to turn Social Security 
into Social Insecurity. He proposes to remove the safety net under 
senior citizens that keeps millions of our elderly out of poverty when 
they retire.
    Make no mistake, the President and his supporters are attacking the 
very means by which we--you and me--value our responsibility to each 
other.
    America was founded on a bedrock principle--``We'' not me. We are 
duty-bound not only ourselves, but to each other. We've always been 
proud of this. It's what made America stand so tall in the world.
    Today, this hearing will focus on the Temporary Assistance for 
Needy Families program. TANF's goal should be to provide vulnerable 
Americans with the opportunity to reach economic security and self-
sufficiency. TANF ought to stand for: Toward A New Future, because 
that's what I want for these people . . . a path to skills and new 
economic opportunity.
    Despite what confronts us, the Republican refrain, so far, is the 
same.
    Under fund and unconcerned.
    The result: children go missing in foster care systems, are placed 
in unsafe childcare settings, and consistently go without a nourishing 
meal.
    Just when you think it can't get any worse, Republicans propose 
something new.
    H.R. 240 recently introduced by House Republicans is a perfect 
example. It is the same bill that was introduced three years ago. The 
bill was bad policy then, and it remains the wrong approach today.
    Rather than focusing on moving welfare recipients into wage-paying 
jobs, the Republican legislation emphasizes putting them into unpaid 
make-work.
    Instead of increasing State flexibility to move welfare recipients 
towards self-sufficiency, Republicans stick the States with huge 
unfunded mandates. Rather than empowering welfare recipients to climb 
out of poverty, Republicans restrict access to education and training. 
And, incredibly, Republicans propose funding only 10% of the urgent 
need for the childcare, so that working mothers can work without 
fearing for the safety of their children. Republicans offer $1 billion. 
The non-partisan Congressional Budget Office says the real number is 
$11 billion.
    On the issue of childcare I want to highlight three charts that 
expose some troubling facts. The first shows that our current efforts 
to provide childcare to needy families are grossly insufficient.
    According to data from HHS, only about one-quarter of the children 
who are eligible for child care subsidies under state eligibility 
criteria actually receive assistance. This fraction drops to roughly 
one out of every seven children if you use the federal eligibility 
standard for day care assistance. These numbers clearly show we are 
falling short. And Republicans propose to make it much worse.
    The budget released on Monday by the Bush Administration leaves no 
doubt.
    As illustrated by the second chart, the Administration's budget 
projects the number of people receiving child assistance will decline 
by 300,000 over the next five years.
    There's only one conclusion to draw: The President supports and 
intends to cut childcare coverage--even as his Administration proposes 
tougher requirements that will keep working mothers away from home 
longer.
    My friends on the other side of the aisle might suggest their bill 
is minimally more generous on childcare than the Administration's 
budget. The CBO makes quick work of that fiction. CBO ran the numbers 
and you can see the result in the third chart. The calculation simply 
looks at the cost of the work requirements proposed in the Republican 
bill, plus the cost of keeping federal childcare funding constant with 
inflation. The bottom line: a deficit of $10.6 billion.
    How are States going to respond to this huge shortfall? I fear the 
answer will be deep cuts in child care assistance for the working poor.
    Mr. Chairman, many of us believe there is a better way.
    Along with my Democratic colleagues on this subcommittee, I am 
introducing legislation today that squarely focuses on moving welfare 
recipients into real jobs, and ultimately out of poverty.
    The bill has meaningful work requirements, along with the necessary 
resources to implement them.
    One unique feature of our bill is a provision that would allow 
States, at their option, to be judged solely on their progress in 
moving welfare recipients into employment--into jobs.
    Other improvements in our bill include increased access to skills-
training, and restored benefits to immigrants who have come to this 
country legally.
    Toward A New Future. That's what TANF means to Democrats and that's 
where Americans will end up under our bill.
    I invite all of today's witnesses to look at our bill and submit 
any thoughts or suggestions to me in writing.
    Beginning today, we can discuss what is needed to truly reform 
welfare. We can develop an action plan. We can better care for each 
other. Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. McDermott. Before we move 
on to our testimony, I want to remind our witnesses to limit 
their oral statements to 5 minutes. However, without objection, 
all of the written testimony will be made a part of the 
permanent record. Additionally, as today's hearing will 
conclude by 4:30 p.m., we will have one round of questions per 
panel. Members are welcome to submit additional written 
questions to the witnesses for inclusion in the hearing record. 
I would like to thank the Honorable Lynn Woolsey from 
California for joining us. Please proceed with your testimony.

STATEMENT OF HON. LYNN C. WOOLSEY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. WOOLSEY. Chairman Herger, Ranking Member McDermott, and 
Subcommittee Members, thank you very much for the opportunity 
to testify today on this absolutely critical issue of welfare 
reform. I come to you today not just as a concerned legislator, 
but as someone who knows firsthand what it is like to depend on 
public assistance for the very survival of my family. I was 29 
years old when my husband left and did not leave a time to help 
me raise and support my three children. They were 1, 3, and 5 
years old at the time.
    I had a job, but it did not pay nearly enough to support 
us. I had no choice but to go on welfare--Aid to Families with 
Dependent Children--in order to afford child care, health care 
coverage, and the food stamps that we needed. I continued in my 
job, however. It was very difficult. I cannot tell you what a 
painful period it was, but eventually I was able to work my way 
out of poverty and achieve self-sufficiency. I would not be 
here today if it were not for the generous, compassionate 
welfare system that was in place 36 years ago, and you know I 
have paid back to the system.
    I tell you this story in part to combat the crude 
stereotype of welfare recipients as hopeless cases who are 
leeching off the system. There are thousands and thousands of 
success stories like mine, or more. At its best, welfare is a 
lifeline, not a lifestyle. It is to be an emergency support 
that helps people until they are able to put their lives 
together and stand on their own two feet. Believe me, no one 
wants to be on welfare. Anybody that thinks they do has to be 
on welfare themselves for just a year.
    The enemy is not welfare. The enemy is poverty. Too often, 
when I hear people brag about welfare reform, the statistic 
cited is the number of people who have been dropped from the 
rolls, but that should not be the measure of success. What we 
should be talking about is the number of people who have been 
able to move out of poverty. As we prepare to again reauthorize 
welfare reform, I sincerely hope that we will remember the 
lessons learned over the past 8 years. One lesson, of course, 
is that a strong economy can make some of the complexities of 
welfare reform go away. During the boom of the mid-1990s, there 
were jobs for people when they left welfare. Today, many of 
those people are going back onto welfare because the economy is 
no longer creating the same opportunities.
    Which leads me to my first priority--education and 
training. These priorities are key to successful welfare 
reform. I believe strongly that going to school--getting 
General Educational Development (GED), learning English as a 
second language, attending a community college, getting an 
advanced degree--must satisfy the work requirements under this 
or any new bill. We need to give people the chance to receive 
an education and to learn the skills that will allow them to 
earn a living that will support their families. My second 
priority is adjusted benefits based on the cost of living in a 
particular community. Welfare recipients in my district of 
Marin and Sonoma counties in California--where rents can begin 
at $1,000 a month at the very bottom--need more to get by than 
welfare recipients in less expensive parts of the country. 
Third, this new bill must address the shortage of safe, 
affordable child care. If we truly believe in family values, 
then we cannot punish single parents for choosing not to work 
if it means leaving their children in a dangerous care 
situation.
    Child care--instructor training and facility construction 
among other things--is actually a centerpiece of a legislative 
package I introduced last Congress called the Balancing Act. 
You see, I do not think we should be satisfied with passing a 
mediocre welfare reform bill. I believe we need an ambitious, 
comprehensive effort to help families balance work and family. 
In addition to child care provisions, the Balancing Act 
includes expanded family and medical leave, universal voluntary 
preschool, improved school nutrition, better after-school 
programs and benefits for part-time and temporary workers. 
There is no ``ownership society'' without these integral 
building blocks. With that, I urge Members of the Subcommittee 
and all of my congressional colleagues to remember our 
obligation to those who have been dealt a poor hand and need a 
``leg up'' with their government's help. We can start by 
passing a welfare reform bill that empowers people rather than 
punishing them. I thank you very much.
    [The prepared statement of Ms. Woolsey follows:]

    Statement of The Honorable Lynn C. Woolsey, a Representative in 
                 Congress from the State of California

    Chairman Herger and Subcommittee members . . . thank you for the 
opportunity to testify today on this critical issue of welfare reform.
    I come to you today not just as a concerned legislator, but as 
someone who knows firsthand what it's like to depend on public 
assistance for the very survival of your family. I was 29 years old 
when my husband left and didn't leave a dime to help support our three 
children ages 1, 3, and 5.
    I had a job, but it didn't pay nearly enough to support us. I had 
no choice but to go on welfare (Aid to Families with Dependent 
Children) in order to afford childcare, health coverage and food 
stamps. It was a difficult, painful period, but eventually I was able 
to work my way out of poverty and achieve self-sufficiency. But I 
wouldn't be here today if it weren't for a generous, compassionate 
welfare system--and certainly 36 years later I have paid back the 
system.
    I tell you this story in part to combat the crude stereotype of 
welfare recipients as hopeless cases who are leeching off the system. 
There are a lot of success stories like mine. At its best, welfare is a 
lifeline, not a lifestyle . . . as an emergency support that helps 
people until they can put their lives together and stand on their own 
two feet. Believe me, no one wants to be on welfare.
    The enemy is not welfare; the enemy is poverty. Too often, when I 
hear people brag about welfare reform, the statistic they cite is the 
number of people who have been dropped from the rolls. But that 
shouldn't be the measure of success. What we should be talking about is 
the number of people who have been able to move out of poverty.
    As we prepare to again reauthorize welfare reform, I sincerely hope 
that we will remember the lessons learned over the past eight and a 
half years. One lesson, of course, is that a strong economy can mask 
some of the complexities of welfare reform.
    During the boom of the mid-1990s, there were jobs for people when 
they left welfare. Today, many of those people are going back onto 
welfare because the economy is no longer creating the same 
opportunities.
    Which leads me to my first priority--education and training, which 
are key to successful welfare reform. I believe strongly that going to 
school--GED Studies, English as a Second Language, community college, 
and advanced degrees--must satisfy the work requirement under any new 
bill. We need to give people the chance to receive an education and to 
learn the skills that will allow them to earn a living that supports a 
family.
    My second priority is adjusted benefits based on the cost-of-living 
in your community. Welfare recipients in my district of Marin and 
Sonoma Counties in California--where rents can begin at $1000 a month--
need more to get by than welfare recipients in less expensive parts of 
the country.
    Third, this new bill must address the shortage of safe, affordable 
childcare. If we truly believe in family values, then we cannot punish 
single parents for choosing not to work if it means leaving their 
children in a dangerous care situation.
    Childcare--instructor training and facility construction among 
other things--is actually a centerpiece of a legislative package I 
introduced last Congress called The Balancing Act. You see, I don't 
think we should be satisfied with passing a mediocre welfare reform 
bill. I believe we need an ambitious, comprehensive effort to help 
families balance work and family. In addition to childcare provisions, 
the Balancing Act includes expanded family and medical leave, universal 
voluntary preschool, improved school nutrition, better after-school 
programs and benefits for part-time and temporary workers. There is no 
``ownership society'' without these integral building blocks.
    With that, I urge members of the subcommittee and all of my 
congressional colleagues to remember our obligation to those who've 
been dealt a poor hand and need a ``leg up'' with their government's 
help. And we can start by passing a welfare reform bill that empowers 
people rather than punishes them. Thank you very much.

                                 <F-dash>

    Chairman HERGER. I thank you for your testimony. Are there 
any questions?
    Mr. CARDIN. I would just like to point out----
    Chairman HERGER. The gentleman from Maryland.
    Mr. CARDIN. Thank you. I appreciate it. I have had the 
opportunity to be the ranking Democrat on this Committee for 
the last couple Congresses, and I just really want to thank 
Lynn Woolsey for her help and input into the work of this 
Committee. She has been a real leader in trying to understand 
the importance of welfare, the sensitivity to people that go on 
welfare, and our objective to try to help children 
particularly. I just really wanted to thank her for her help 
and leadership in this area.
    Ms. WOOLSEY. Thank you very much, Mr. Cardin. Actually, as 
the Ranking Member on one of the Education and Workforce 
Committees, I will be working with you hand in hand through 
this process, too, and I look forward to that.
    Chairman HERGER. The gentleman from Washington is 
recognized.
    Mr. MCDERMOTT. I listened to your speech, and I thought I 
was hearing the agenda of the Workforce Committee. [Laughter.] 
We are going to hear testimony from a number of Republicans in 
administrative spots--mayors, Governors--that say that the 
problems are not fixed by the bills we have before us. We have 
got some work to do between now and----
    Ms. WOOLSEY. I look forward to working with you, Mr. 
McDermott, and you, Mr. Chairman.
    Chairman HERGER. Thank you, Ms. Woolsey, for your 
testimony. With that, we will move to our next witness. I would 
like to welcome Dr. Wade Horn, Assistant Secretary for Children 
and Families at HHS. Dr. Horn, please proceed with your 
testimony.

   STATEMENT OF THE HONORABLE WADE F. HORN, PH.D., ASSISTANT 
   SECRETARY, ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. HORN. Thank you, Mr. Chairman, Mr. McDermott, and the 
rest of the Members of the Committee. I am very pleased to 
appear before you today to discuss the next phase of welfare 
reform. I want to particularly take a moment to congratulate 
you, Mr. McDermott, for assuming the Ranking Member position on 
this Subcommittee. I look forward to finding common ground for 
us to work together, small as that may be at the outset, but I 
am convinced that we can find places where we can work 
together, and I look forward to that.
    I also would like to take the opportunity to express my 
thanks to everyone on this Committee for their leadership and 
their unceasing efforts to further improve the lives of low-
income Americans. Your initial work in enacting the Personal 
Responsibility and Work Opportunity Reconciliation Act (PRWORA) 
has had a profound, positive effect on our Nation's vulnerable 
families. Building on this success, President Bush laid out a 
clear path for the next phase of welfare reform. I would like 
to briefly highlight key provisions of the President's welfare 
reform package and update you on the important progress we have 
made in strengthening families. I will begin with TANF, the 
cornerstone of our welfare reform efforts.
    TANF is a remarkable example of a successful Federal-State 
partnership. States effectively emphasized work while providing 
families with needed training, job opportunities, and work 
supports. As a result, welfare caseloads have decline by over 
60 percent. Employment among never-married mothers has grown to 
unprecedented levels. Child poverty rates have declined about 
14 percent, and birth rates for teenagers continue to decline. 
States still face many challenges. A majority of adult TANF 
recipients are not engaged in employment-related activity. 
States have been less effective in placing clients with 
multiple barriers in work. More effective models of post-
employment supports that lead to career development and wage 
progression are needed.
    In addition, given what the research tells us about the 
benefits of healthy marriages to children and adults, we need 
to promote policies that support the formation and stability of 
healthy marriages and that provide a strong and nurturing 
environment for raising children. Consequently, our efforts to 
reauthorize TANF buildupon our past success and address current 
challenges by: strengthening the Federal-State partnership; by 
requiring States to help every family they serve achieve the 
greatest degree of self-sufficiency possible; by helping States 
find effective ways to improve child well-being through 
programs aimed at promoting healthy marriages and encouraging 
responsible fatherhood; and by permitting States to better 
integrate welfare and workforce assistance programs.
    I would also like to briefly recognize the importance of 
other programs embraced by the President's proposal in 
improving a family's ability to achieve and maintain self-
sufficient: child support enforcement, child care, and 
abstinence education. Like TANF, PRWORA has had an enormous 
impact on the success of child support. Collections in fiscal 
year 2003 were more than $21 billion, and the number of 
paternities established or acknowledged reached over 1.5 
million. The child support enforcement proposals being 
considered as part of this welfare reform reauthorization build 
on that success by strengthening enforcement tools and 
directing more of the support collected to the families. Under 
the proposal, families and children will benefit financially. 
Equally important, children will see that their parents support 
and care for them. The pass-through and disregard proposal and 
the proposal to revise and simplify distribution rules will 
increase the amount of collections going to families by more 
than $1 billion over the next 5 years.
    Access to child care assistance also can make a critical 
difference in helping low-income families retain employment. 
Therefore, our proposal maintains the underlying structure and 
financing of these essential child care programs at the 
historically high level of funding. Specifically, $2.1 billion 
is proposed for the Child Care and Development Block Grant and 
$2.7 billion for the child care entitlement program, a total of 
$4.8 billion. In addition, States continue to have the 
flexibility to use TANF funds for child care, both by 
transferring up to 30 percent of TANF funds to child care 
programs and by spending additional TANF money directly on 
child care. When TANF funds are considered, as well as Head 
Start and other State and Federal funding sources, over $18 
billion is available annually for child care and related 
services for kids.
    The final piece of our strategy supports the 
reauthorization of the State Abstinence Education Program. In 
2000, there were almost 19 million new cases of sexually 
transmitted diseases in the U.S., and historically about one 
quarter of those cases have been teenagers. We know without any 
doubt that those teens who choose to abstain from sex will not 
contract such diseases and will not become pregnant. We have 
seen the benefits of a strong abstinence message, and it is 
clear that the State program needs to be reauthorized. Mr. 
Chairman, I come before you today with a spirit of willingness 
to work on a bipartisan basis with this Committee to ensure 
that this year we take the opportunity before us and 
reauthorize these very important programs.
    [The prepared statement of Dr. Horn follows:]

 Statement of The Honorable Wade F. Horn, Ph.D., Assistant Secretary, 
Administration for Children and Families, U.S. Department of Health and 
                             Human Services

    Mr. Chairman, Mr. McDermott, and members of the Committee, I am 
pleased to appear before you today to discuss the next phase of welfare 
reform. Shortly after the President outlined his reauthorization 
proposal ``Working Toward Independence'' in February of 2002, and again 
early in 2003, this Committee and the House passed bills that would 
achieve the necessary next steps outlined by the President. Most 
recently you affirmed your commitment to America's families by 
introducing H.R. 240 the very first day that this Congress convened. I 
would like to take this opportunity to express my heartfelt thanks to 
you, Mr. Chairman, for your leadership and to the Committee for your 
unceasing efforts to enact the next phase of welfare reform to further 
improve the lives of low-income Americans.
    It has been three years since President Bush first proposed his 
strategy for reauthorizing TANF and the other critical programs 
included in welfare reform. During this time, the issues have been 
debated thoroughly but the work has not been completed and States have 
been left to wonder how they should proceed. We believe it is extremely 
important to finish this work as soon as possible and set a strong, 
positive course for helping America's families. Secretary Leavitt and I 
are convinced that working together with you, we will be successful.
    Your initial work, the enactment of the Personal Responsibility and 
Work Opportunity Reconciliation Act of 1996, has had a profound, 
positive impact on our nation's vulnerable families. With our State 
partners, our accomplishments have far surpassed even the most 
optimistic goals. With heightened expectations of personal 
responsibility and greater opportunities, millions of families have 
moved from dependence on welfare to the independence of work. We have 
provided the necessary work supports, child care, and transportation to 
ensure that parents can get to work and stay there without worrying 
about the safety and well-being of their children. We also have 
collected record amounts of child support on behalf of children with a 
parent absent from the home.
    Building on these successes, President Bush laid out a clear path 
for the next phase of welfare reform. The proposal is guided by four 
critical goals that will transform the lives of low-income families: 
strengthen work, promote healthy families, give States greater 
flexibility, and demonstrate compassion to those in need. These are the 
guideposts that shaped the Administration's proposal for TANF, child 
support, child care and abstinence education. This framework has not 
changed.
    As we prepare jointly to move forward on making the President's 
welfare reform proposals a reality, I would like to use my time today 
to highlight the key provisions of the President's welfare reform 
package and update you on the important progress we have made in 
strengthening families since the President's proposal was unveiled. I 
will begin with TANF, the cornerstone of our welfare reform efforts.
Temporary Assistance for Needy Families
    As the Assistant Secretary for Children and Families, I have heard 
one consistent theme about the Temporary Assistance for Needy Families 
program--TANF is a remarkable example of a successful Federal-State 
partnership. This Committee and Congress granted States tremendous 
flexibility to reform, design, and operate their welfare programs. 
Initially, some questioned the wisdom of this course of action and 
expressed concern about a potential ``race-to-the-bottom.'' Instead, 
States effectively emphasized work, while providing families with 
needed training, job opportunities and work supports. In looking at 
State reported data on TANF recipients for FY 1998-FY 2003, States have 
reported an average of 843,000 newjob entries each year. As a result, 
millions of families have been able to end their dependency on welfare 
and achieve self-sufficiency. The welfare caseload has declined by 61.4 
percent and the total number of families receiving assistance is now 
lower than at any time since 1970.
    Some other positive outcomes we have seen since the law's passage 
include:

    <bullet>  Employment among never-married mothers has grown to 
unprecedented levels. For example, between 1996 and 2003, the 
employment rate for never-married mothers increased 28 percent, from 
49.3 percent to 63.2 percent.
    <bullet>  Contrary to critics who claimed that welfare reform would 
impoverish one million children, the child poverty rate declined about 
14 percent, with 1.6 million fewer children in poverty. Overall child 
poverty rates declined from 20.5 percent in 1996 to 17.6 percent in 
2003. Over this same period, the poverty rate among African American 
children declined from 39.9 percent to 33.6 percent--lower than at any 
time before welfare reform was enacted, when child poverty rates for 
African American children were 40 percent or higher. Similarly, the 
poverty rate among Hispanic children declined from 40.3 percent to 29.7 
percent. Although the poverty rate has increased some since 2000 as a 
result of the recent recession, the surge in job creation over the past 
20 months portends renewed improvement in poverty rates.
    <bullet>  The birth rate for teenagers continues to decline, as 
does the number of births to unmarried teens.

    But even with this notable progress, much remains to be done, and 
States still face many challenges. While the basic structure and goals 
of TANF remain strong, we are concerned about some unfavorable trends. 
Despite the success in moving families from welfare to work, a majority 
of adult TANF recipients are not engaged in employment-related 
activities. In FY 2003, States reported that only 31 percent of 
families with an adult recipient participated in the required 30 hours 
of TANF work activities. We need to reverse this trend so that all TANF 
recipients are given the opportunity to become self-sufficient.
    States also have been less effective in placing clients with 
multiple barriers (such as mental health issues, addiction, learning 
disabilities, and limited English proficiency) in work. We need to 
ensure that these barriers are addressed and that every family is given 
work opportunities leading to self-sufficiency. But our efforts cannot 
stop there. We also need to develop more effective models of post-
employment supports that lead to career development and wage 
progression, programs that sustain and keep families together, and 
programs that enable low-income, non-custodial fathers to help their 
families both financially and in non-financial ways.
    In addition, given what the research literature tells us about the 
benefits healthy marriages confer on both children and adults, we need 
to promote policies that support the formation and stability of healthy 
marriage, and provide a strong and nurturing environment for raising 
children.
    Consequently, our efforts to reauthorize TANF build upon our past 
success and address current challenges by:

    <bullet>  strengthening the Federal-State partnership;
    <bullet>  requiring States to help every family they serve achieve 
the greatest degree of self-sufficiency possible through a creative mix 
of work and additional constructive activities;
    <bullet>  helping States find effective ways to improve child well-
being through programs aimed at promoting healthy marriages and 
encouraging responsible fatherhood;
    <bullet>  improving program performance and, therefore, the quality 
of programs and services made available to families; and
    <bullet>  permitting States to integrate the various welfare and 
workforce assistance programs operating in their States.

    I would like to offer some detail on each of these elements.
Strengthen the Federal-State Partnership
    Although national caseloads are now less than half of what they 
were when the TANF block grant was first established, we propose to 
maintain the current level of support for TANF of $16.5 billion each 
year for block grants to States and Tribes and an additional $319 
million for annual Supplemental Grants to States that have experienced 
high population growth and have historically low funding levels. This 
will allow States to maintain investments they have made in supporting 
families' transition from welfare to work, strengthening families, and 
providing other benefits and services that support the goals of the 
TANF program. It also will permit them to develop innovative programs 
to address remaining challenges.
    Other key policy changes that will increase State flexibility 
include: eliminating limitations on services for the unemployed by 
defining ``assistance'' so that rules tied to such spending will not 
apply to child care, transportation and other support services; 
allowing States to designate and obligate ``rainy day funds''; and 
revising current restrictions on funds carried over from one year to 
the next by allowing such funds to be spent on any service or benefit 
that achieves a TANF purpose.
Maximize Self-Sufficiency Through Work
    A key component of our reauthorization proposal is to maximize 
self-sufficiency through work. States will be required over time to 
make certain that the percentage of TANF recipients engaged in work and 
productive activities grows and that the primary focus is on 
participation in work--subsidized or unsubsidized employment, on-the-
job training, and supervised work experience or community service. 
States also will be required to engage all TANF families with an adult 
in self-sufficiency activities and they must develop, and regularly 
monitor progress on, individual plans for each family that include 
appropriate activities leading to self-sufficiency.
    The current caseload reduction credit, the effect of which has been 
the elimination of the participation rate requirement in most States, 
will be phased out and replaced by an employment credit. The result of 
these policy changes will be to reinstitute a meaningful work 
participation rate requirement while increasing flexibility in how 
States can achieve that standard.
Promote Child Well-Being, Responsible Fatherhood and Healthy Marrages
    Our proposal seeks to improve child well-being through programs 
aimed at encouraging responsible fatherhood and healthy marriages. 
Indeed, we establish improving the well-being of children as the 
overarching purpose of TANF, recognizing that the four goals of TANF 
are important strategies for achieving this purpose. In support of this 
overarching goal, we target $100 million from the discontinued Out of 
Wedlock Birth Reduction Bonus for broad research, evaluation, 
demonstration and technical assistance, focused primarily on healthy 
marriage and family formation activities. These demonstration efforts 
will be carefully evaluated and information about successful programs 
will be broadly disseminated. Our proposal also redirects $100 million 
from the current law High Performance Bonus to establish a competitive 
matching grant program for States and Tribes to develop innovative 
approaches to promoting healthy marriages and reducing out-of-wedlock 
births.
    Additionally, we will provide $40 million in mandatory funding for 
the promotion and support of responsible fatherhood and healthy 
marriage programs to reverse the rise in father absence and its 
subsequent impact on our nation's children. This funding will provide 
for demonstration projects to test promising approaches to promote and 
support involved, committed and responsible fatherhood, and to 
encourage and support healthy marriages between parents raising 
children. Funds also will be used to identify, test, and publicize 
community-based programs and activities that effectively encourage and 
support responsible fatherhood and that can be replicated in other 
communities, including two multi-city, multi-State projects.
Improve Program Performance
    Under TANF, States have become great innovators. But, the shift in 
focus to a work and family support program has presented management 
challenges. Therefore, our fourth reauthorization component highlights 
improving program performance and accountability. For example, we 
replace the current High Performance Bonus with a $100 million Bonus to 
Reward Employment Achievement. Targeted on meeting the employment goals 
of TANF, it will reward States for successful job placements, sustained 
work and wage growth.
Program Intergration
    For any organization to succeed, it must never stop asking how it 
can do things better. Using the flexibility under programs such as TANF 
and the One-Stop Career Center system, States have made great strides 
towards transforming and integrating their public assistance programs 
into innovative and comprehensive workforce assistance programs. But, 
with greater flexibility even more can be accomplished. The final key 
element of our TANF proposal, therefore, seeks to enable far broader 
State welfare and workforce program integration through the 
establishment of new State program integration demonstrations to show 
the mutual benefit that could result from broad flexibility in program 
integration. The proposed demonstrations could modify all aspects of 
selected Federal programs, including funding and program eligibility 
and reporting rules, enabling States to design fully integrated welfare 
and workforce investment systems that could revolutionize service 
delivery.
    I would like to turn now to another program that offers a vital 
connection to a family's ability to achieve self-sufficiency: child 
support enforcement.
Child Support Enforcement
    Child support is a critical component of Federal and State efforts 
to promote family self-sufficiency and to provide for the well-being of 
children. Like TANF, the child support program has been very 
successful. On a national basis, the program's effectiveness in 
collecting support has greatly improved. Total collections have 
increased 47.6 percent in just five years, and the number of cases for 
which child support was collected has increased by 78.7 percent. In FY 
2003, we collected more than $21 billion of support for children--an 
all-time high and a 5 percent increase over FY 2002, even while the 
caseload decreased.
    The child support enforcement program uses a number of tools to 
ensure that children receive the support they deserve--many of which 
were implemented as a result of the original welfare reform 
legislation. Tools such as the National Directory of New Hires and the 
Federal Case Registry, the passport denial program, the financial 
institution data match, and license revocation have made a tremendous 
difference in improving State performance and strengthening child 
support collection efforts. Equally important, PRWORA streamlined 
paternity establishment, particularly voluntary paternity 
establishment, to encourage fathers to take the first step toward 
providing their children with financial and emotional support. The 
impact of these changes has been dramatic. The number of paternities 
established or acknowledged has reached over 1.5 million. Of these, 
over 860,000 paternities were established through in-hospital 
acknowledgement programs.
    The child support enforcement proposals being considered as part of 
welfare reform reauthorization build on our success by focusing on 
increasing child support collections and directing more of the support 
collected to families. This focus on families represents a major shift 
away from the historic purpose of the child support enforcement program 
which was heretofore aimed at recouping Federal and State welfare 
outlays.
Directing More Support to Families
    Under current law, States and the Federal government can keep some 
of the child support collected on behalf of current or former TANF 
recipients to defray costs of welfare. We are proposing a change to 
give States an incentive to send more child support directly to the 
family. Families and children will benefit financially and, equally 
important, the children will see that their parents support and care 
for them.
    Currently, almost half the States pass through a portion of child 
support collections to TANF families. Under our proposal, the Federal 
government will share in the cost of amounts passed through to families 
and disregarded for purposes of determining TANF eligibility of up to 
the greater of $100 per month or $50 over current State efforts. 
Federal contributions to the pass-through of collections to TANF 
families will provide a strong incentive to States to begin to pass-
through additional support to these families, or increase the amount of 
the current pass-through. Moreover, these increased pass through 
amounts will be disregarded in determining TANF eligibility, thus 
providing greater financial resources to help children in need. This 
proposal will increase collections going to families by $169 million 
over five years.
    States also will be given the option to adopt simplified 
distribution rules under which families that have transitioned from 
welfare will receive all of their child support collections. This 
proposal will increase collections going to families by $984 million 
over five years and eliminate the need for States to use complex 
distribution rules.
Increasing the Amount of Child Support Collected
    The second prong of our strategy for child support enforcement is 
to increase the amount of support collected by adding to our existing 
cadre of enforcement tools. For example, we will expand our successful 
program for denying passports to parents so that it covers parents 
owing $2,500 or more in past-due support. The passport denial program, 
run jointly by HHS and the Department of State, currently works to deny 
passports to delinquent parents owing more than $5,000 in past due 
support. In FY 2004 alone, individuals with child support arrearages 
paid $12.5 million in lump sum child support payments in order to renew 
or obtain their passports. Under the current threshold of $5,000, there 
are approximately 3.5 million cases certified at the Department of 
State for passport denial. Lowering the threshold to $2,500 will likely 
add an additional 500,000 cases.
    Also, to ensure that child support orders are fair to both 
custodial parents and children as well as noncustodial parents, we will 
require States to review and adjust as appropriate, child support 
orders in TANF cases every three years. These reviews will ensure that 
orders reflect any changes in the needs of the child and/or the ability 
of the non-custodial parent to pay.
    In addition to proposals to enhance State efforts to secure child 
support collections we are seeking to improve children's access to 
health insurance. For example, we will require States to look to either 
parent when considering the health care coverage needs of a child 
rather than focusing solely on non-custodial parents as under current 
law. Research shows that more health insurance is provided by custodial 
parents and stepparents than is provided by non-custodial parents. 
Under this proposal, States could improve their efforts to place 
responsibility on parents, rather than the government, for meeting 
their children's health care needs.
User Fee
    In addition to our proposals for increasing support and directing 
more of the support collected to families, State agencies will be 
required to collect a $25 user fee for families that have never 
received welfare when child support enforcement efforts on their behalf 
are successful. Because the fee is collected only when the State is 
successful in collecting support and represents a fraction of the cost 
of the services families receive, we are confident it will not pose a 
barrier to families seeking child support enforcement services.
Access and Visitation Program
    Finally, in keeping with the President's commitment to strengthen 
families, funding for access and visitation grant programs will double 
over time, from $10 million to $20 million annually and for the first 
time will be available to Indian Tribes that operate Title IV-D child 
support programs. Studies have shown that when non-custodial parent/
child relationships are improved, non-custodial parents are more likely 
to meet their financial responsibility to their children.
    I would like to turn now to child care, a key support service for 
low-income families.
Child Care
    Access to child care assistance can make a critical difference in 
helping low-income families retain employment. Therefore, the 
Administration remains committed to preserving the key aspects of the 
child care program: parental choice, administrative flexibility for 
States and Tribes, inclusion of faith-based and community-based 
organizations, and development of literacy, numeracy, and other early 
learning skills for children in care; while maintaining the underlying 
structure and financing of these essential child care programs.
    Our proposal supports maintaining the historically high level of 
funding for child care, including $2.1 billion for the Child Care and 
Development Block Grant and $2.7 billion for Child Care Entitlement--a 
total of $4.8 billion for what is referred to as the Child Care and 
Development Fund or CCDF. In addition, States continue to have the 
flexibility to use TANF funds for child care both by transferring up to 
30 percent of TANF funds to CCDF, and by spending additional TANF money 
directly for child care. When TANF funds are considered, as well as 
Head Start and other State and Federal funding sources, over $18 
billion currently is available for child care and related services for 
children.
    Funding available through child care programs and TANF transfers 
alone will provide child care assistance to an estimated 2.2 million 
children this year. This is a significant increase over the number 
served just a few years ago; in 1998 about 1.8 million children 
received subsidized care.
    These substantial child care resources support our expectation that 
all families will be fully engaged in work and other meaningful 
activities by ensuring that safe, affordable child care is available 
when necessary.
Abstinence Education
    In 2000, there were almost 19 million new cases of sexually 
transmitted diseases in the U.S., and historically, about one-quarter 
of these cases have been teenagers. We know that for many of the 
diseases there is no cure. We also know, without a doubt, that those 
teens who choose to abstain from sex will not contract such diseases 
and will not become pregnant. The goal of abstinence education is to 
encourage our nation's youth to make the healthiest decisions for 
themselves.
    Therefore, the final piece of our welfare reform strategy supports 
reauthorization of the State Abstinence Education Program. Recently, 
the State Abstinence Education Program contained in PRWORA and the 
discretionary Community-Based Abstinence program were transferred to 
the Administration for Children and Families. This move provided 
important linkages to community-based and faith-based positive youth 
development programs which connect youth to caring adults, thereby 
empowering them in their schools and communities. Such programs can be 
effective in protecting young people not only against early sexual 
behavior but also from illegal drugs, alcohol, tobacco, and violence.
    One of the great success stories in recent years is the progress in 
lowering the out of wedlock birth rate, especially among teen mothers. 
The State Abstinence Education Program and Community-Based Abstinence 
Education grants have helped people to develop the self-discipline to 
say ``no'' to sex. They help people develop inner strength, help them 
take charge of their lives, and redirect their energies into healthy 
and productive choices. While the evidence is still being collected, we 
are seeing the benefits of a strong abstinence message, and it is clear 
that the State program needs to be reauthorized.
Conclusion
    Mr. Chairman, the proposal I bring before you today contains many 
different elements. What binds these fundamental elements together is 
the desire to improve the lives of the families who otherwise would 
become dependent on welfare. In his second inaugural address, the 
President stated that in America's ideal of freedom, citizens find the 
dignity and security of economic independence. He expressed the vision 
of an ownership society, making every citizen an agent of his or her 
own destiny. These ideals certainly fit the President's concept of 
welfare reform as well as those embodied in H.R. 240. The Secretary and 
I stand ready to work with you on the next steps to making economic 
independence within the reach of America's neediest families. I would 
be happy to answer any questions you have.

                                 <F-dash>

    Chairman HERGER. Thank you for your testimony, Dr. Horn. 
With that, we will proceed and turn to questions. Would the 
gentleman from Colorado, Mr. Beauprez, like to inquire?
    Mr. BEAUPREZ. Thank you, Mr. Chairman. Yes, I would. Dr. 
Horn, thank you for being with us. It is my first year on the 
Committee, and I am delighted to be here. Tell me, I know that 
Congress has passed a TANF reauthorization I believe in both 
the 107th and 108th Congress. Is that correct?
    Dr. HORN. The House has.
    Mr. BEAUPREZ. The House has, excuse me. That is what I 
meant to say, has passed in both the 107th and 108th Congress.
    Dr. HORN. In the 107th, both years of that session of 
Congress.
    Mr. BEAUPREZ. Is the Administration changing their 
reauthorization proposals this year?
    Dr. HORN. No.
    Mr. BEAUPREZ. Same as those?
    Dr. HORN. Essentially the same. We have some additional 
child support enforcement proposals related to medical child 
support, but basically our proposals remain the same.
    Mr. BEAUPREZ. Why then the same?
    Dr. HORN. Why the same? We think that this is a good 
proposal. We think that the principles embodied in our proposal 
are also embodied in H.R. 240, and we think that it is time for 
us to move forward and get the TANF bill reauthorized.
    Mr. BEAUPREZ. Well, then the challenge apparently--assume 
for a moment, if you would--I guess you would--that the bill 
that the House has passed and the bill that we are considering 
now is adequate. The challenge seems to be to get the Senate on 
board and move the bill. I certainly hear from my constituents 
back home that one of the things that they hope and pray we get 
done in this Congress is to pass TANF reauthorization finally, 
and I understand why.
    Can you explain for me rather graphically in the time you 
have got what the States are losing and, even better than that, 
the people who very desperately need these benefits? What are 
we talking about as opposed to where we are at now, which is 
essentially a continuing resolution, something we throw around 
in Congress often; but that basically says where we are at 
yesterday is where we are at today. Nothing changes, right?
    Dr. HORN. The biggest problem by operating this program 
under a series of extensions is that the States basically are 
left in the lurch wondering what the rules for this program are 
going to be in the long term. In order to develop effective 
welfare-to-work programs, you need to have some certainty about 
what the rules of the game are because without that certainty 
it is very hard to develop those kinds of effective programs 
because you do not know whether next year, in fact, the rules 
may change. One of the big costs to the States is that they 
have this uncertainty as to what it is that they--what kinds of 
rules they are going to be operating under, so it is difficult 
for them to plan.
    There also is a missed opportunity, the longer we delay 
reauthorization, to implement a number of new flexibility 
provisions which are very important to the States. For example, 
under current law any State that does not obligate funds, all 
of its funds from 1 year to the next can carryover those funds. 
It is called unobligated balances, carryover balances. Under 
current law those funds can only be used for cash assistance in 
subsequent years. Well, this program is no longer primarily a 
cash assistance program. It is a work support program. 
Effectively what our proposal would do and what H.R. 240 would 
do as one example of enhanced State flexibility is it would 
allow States to unlock this now almost $2 billion in 
unobligated carryover funds to do the kinds of things that I 
know others on both sides of the aisle are interested in 
doing--pay for child care, pay for transportation services, 
pay----
    Mr. BEAUPREZ. There is $2 billion just laying on the table?
    Dr. HORN. There is $2 billion, and that is an under-
estimate because in States like California, where as soon as 
they obligate it down to the county level, it is counted in our 
books as obligated even though it may not be obligated and 
sitting around at the county level. There are costs to not 
getting this reauthorization done, and I think that it is both 
a cost--one big cost is that the States do not have certainty 
as to what the rules of the game are going to be, and the 
second is that they also lose out on many of the provisions 
that would enhance their flexibility. One last thing is they 
also lose out on these really good and excellent child support 
enforcement provisions, where we estimate that with a 
relatively small investment of Federal dollars, we can over the 
next 5 years essentially increase child support collections to 
about $3.5 billion.
    Mr. BEAUPREZ. The deadbeat dad problem.
    Dr. HORN. Pardon?
    Mr. BEAUPREZ. The deadbeat dad problem?
    Dr. HORN. Well, we think we need to have an evenhanded 
approach with the noncustodial parents.
    Mr. BEAUPREZ. Fair enough.
    Dr. HORN. I used to run an organization called the National 
Fatherhood Initiative, and I do not like the term ``deadbeat 
parents.''
    Mr. BEAUPREZ. That is okay. I thought we guys were the 
whole----
    Dr. HORN. There are very good provisions in child support, 
too, that would make sure that more families had money in their 
hands and those provisions are also tied up in this bill.
    Mr. BEAUPREZ. Thank you very much. I thank the chairman.
    Chairman HERGER. The gentleman is welcome. We do have a 
series of votes on the House floor at this time, so we will go 
and vote as soon as possible and return as soon as the votes 
have concluded. This hearing stands in recess.
    [Recess.]
    The Subcommittee will continue, and the gentleman from 
Washington, the Ranking Member, is recognized for 5 minutes.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. Mr. Horn, good to 
see you again.
    Dr. HORN. Good to see you.
    Mr. MCDERMOTT. I do hope we find some common ground.
    Dr. HORN. I agree.
    Mr. MCDERMOTT. According to the Administration's own 
estimates, this budget will lead to 300,000 fewer Americans 
receiving child care assistance. Now, the President in this 
bill wants us to raise up the work requirements, which means 
people are going to be out there working more, which in my 
simple understanding would mean that you are going to need more 
child care for workers. Where is that money going to come from, 
if you could tell me? Do you think that is all buried in there 
somewhere? Or do you think the States have it? Or where is the 
money going to come from, the $10 billion that we showed 
earlier?
    Dr. HORN. First of all, I think the estimates that you are 
referring to in terms of the 5 year estimates, if the child 
care development fund is not adjusted for inflation, assumes 
that there will be level funding of the child care development 
fund in each of the next 4 years. As you know, we go through a 
budgetary process each year, and the Administration has not 
announced a position that there ought to be no increases in 
child care over the next 5 years. It is just the way the 
estimate is done, assuming that there is no increase. There is 
a budgetary process we go through every year, and those 
decisions will be made at that time.
    In addition to that, it is important to keep in mind that 
one provision of the President's proposal that is also 
contained within H.R. 240 would unlock immediately, if passed, 
nearly $2 billion in funding that could be utilized for child 
care if States deemed that that is a priority for them. One of 
the benefits of getting the bill passed quickly is it would 
immediately unlock that $2 billion, which right now not a penny 
of that can be used for child care.
    Mr. MCDERMOTT. Where is that $2 billion right now you say 
is all locked up somewhere?
    Dr. HORN. It is in the unobligated carryover funds that 
States have. As you know, under TANF if you do not spend all of 
your money in a given year, you can carry that money over. The 
problem is that under current law, if you carry any of that 
money over from 1 year to the next, you can only use that money 
for cash assistance. You cannot use it for other kinds of work 
supports. The States have to report to us each year how much in 
the carryover fund they have and how much of that carryover 
fund is obligated, how much of that is unobligated, and the 
latest numbers that we have suggest that there is almost $2 
billion in unobligated carryover funds which could immediately 
become available for child care if this bill were passed.
    Mr. MCDERMOTT. Well, my understanding is that the States 
are already spending nearly all of that TANF money because they 
use a growing portion of the money on work-related services and 
antipoverty measures rather than on cash assistance. It seems 
to me like that money is gone. Do you feel you--because I want 
to ask the next witnesses whether they have any money laying 
around in their States or not that they have not been spending, 
because you are asserting that there is some money out there 
somewhere.
    When you plan a budget that says you are going to have 
300,000 more, the economy is not picking up. The jobs are not 
getting better in terms of the amounts that people are earning. 
That means it is harder for them to hire child care, good child 
care. I do not understand, because I don't think any State--I 
am going to ask the State people when they get here where they 
think they will get the money to provide child care for their 
programs. I understand this is a 50/50 deal, but it seems--or, 
no, it is not a 50/50 deal. It is one of those sort of joint 
partnerships where everybody tries to slide away from who is 
responsible for it.
    Dr. HORN. Well, first of all, let me say I agree with you 
that child care is important work support, and there is a 
provision in TANF, which no one proposes to change, that says 
that if child care is not available to a recipient, the State 
cannot sanction that family for not going to work. We do not 
propose to change that. We think child care is a necessary and 
important work support for families leaving the TANF program.
    Mr. MCDERMOTT. I see my time is almost done, so I want to 
ask you one short question. Has the National Governors' 
Association (NGA) endorsed your bill and said this is a good 
idea?
    Dr. HORN. I don't recall.
    Mr. MCDERMOTT. You don't recall?
    Dr. HORN. No.
    Mr. MCDERMOTT. Did you go out and talk to them and show 
this bill to them and say, ``What do you think, guys--and 
ladies?''
    Dr. HORN. Yes, we have had conversations with the NGA.
    Mr. MCDERMOTT. You did approach them?
    Dr. HORN. Sure.
    Mr. MCDERMOTT. You don't know what their decision was? Is 
that because they haven't decided or because I didn't want to 
hear the answer?
    Dr. HORN. I don't recall what position they have taken on 
the bill, to be honest with you.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Chairman HERGER. I thank the gentleman. The gentleman from 
Pennsylvania, Mr. English, to inquire.
    Mr. ENGLISH. Thank you, Mr. Chairman.
    Mr. Horn, I guess I am getting old or something because I 
was around here 10 years ago when we were doing welfare reform. 
I was on this Subcommittee, and, you know, the strange echo of 
some of the arguments that we heard back then based on CBO 
projections we are hearing now, that the Administration's 
proposal is inadequate. The same CBO projections turned out, as 
I understand, 10 years ago to be off by about $20 billion. In 
fact, whereas we were hit with the argument repeatedly we had 
not set enough money aside for child care even though we had 
actually put aside more than the Clinton Administration had 
asked for, it turned out we did have adequate funding for child 
care. Does not the experience that the Administration has had 
suggest that there is enough money plugged in regardless of 
what statistics are being thrown around by critics?
    Dr. HORN. I have looked at the CBO estimates that were 
released yesterday, and I think that the CBO is, unfortunately, 
repeating a mistake they made back in 1996, and that mistake is 
to assume that caseloads will stay constant over 5 years. The 
reason why CBO was so off in its estimate in 1996 concerning 
how much money in the TANF program and child care programs were 
necessary is because they assumed that over the next 5 years 
the caseloads would not decline. Well, guess what happened? 
They declined by almost 60 percent, and so that freed up a lot 
of additional money. Rather than being 13 and I have seen some 
estimates as high as $20 billion short, what really happened is 
we have $2 billion left over in unobligated balances here 7 
years later. They are making the same mistake, in my view, in 
these new estimates. They are assuming that over the next 5 
years there will be no caseload decline as a consequence of the 
new work requirements and the work participation requirements.
    Well, if it were true that the package of reforms that we 
are advocating and that are seen within H.R. 240 would result 
in no additional caseload decline, I would be against the 
proposal. It would not make any sense. The whole idea of the 
proposal that is embodied in the President's proposal as well 
as in H.R. 240 is to encourage even more people to leave 
welfare to go to work, meaning the caseloads will decline. When 
the caseloads decline, it frees up additional money that then 
does not have to be spent on cash assistance and becomes 
available for child care.
    Mr. ENGLISH. Thank you.
    Mr. Chairman, I cannot see the light so I do not know how--
oh, there we go. I am green, okay.
    Chairman HERGER. Two minutes.
    Mr. ENGLISH. I wanted to jump then, Mr. Horn, to your 
testimony with regard to child support, which I think is 
frequently one of the parts of the welfare reform story that 
really was genuinely bipartisan 10 years ago and is a 
remarkable success story. Can you please detail for us the 
Administration's proposal in this area?
    Dr. HORN. Well, I probably do not have enough time to talk 
about all of them because it is quite a large package, so let 
me talk about it conceptually. First of all, what the 
Administration proposes to do is to provide States with 
incentives to pass through more of the money that is collected 
in child support actually to families, both families who are 
currently on welfare and also those who have left, because we 
believe that we need to move to a place where child support is 
no longer a welfare cost recoupment program for the States and 
the Federal government, but really a program that provides 
ongoing financial support to families. The way to do that is to 
encourage more pass-through and also to encourage that States, 
when they pass through additional moneys, that they disregard 
those child support payments in calculating eligibility for the 
TANF program.
    At the same time, we have a package of additional 
enforcement mechanisms that would generate, we think, greater 
child support collections, and we also wanted a more evenhanded 
approach so that we could work with fathers who want to pay, 
the ones who are more, in Dr. Johnson's vernacular, ``dead 
broke'' than ``deadbeat,'' and work with them so that they can 
get employment so they can start fulfilling their financial 
obligations to their kids. Then, finally, we have some new 
proposals around medical child support, the idea being we want 
to have a system in place that ensures more kids are covered, 
not just financially but also in terms of medical insurance, if 
they, in fact, are in a situation where there is a noncustodial 
parent.
    Mr. ENGLISH. Thank you. I yield back the balance of my 
time.
    Chairman HERGER. I thank the gentleman from Pennsylvania. 
The gentleman from Illinois, Mr. Emanuel, to inquire.
    Mr. EMANUEL. Thank you, Mr. Chairman. Thank you, Mr. Horn, 
for being here. I want to pick up a little on what my colleague 
from Pennsylvania said, but having at another time in another 
life, it feels like, worked on the other side of Pennsylvania 
Avenue on the first bill that led to some of the successes and 
benchmarks that you are citing, it was principally because of a 
strategy and philosophy that dealt with eliminating the speed 
bumps on the way to moving people from dependence to 
independence--A, in child care; B, in health care assistance; 
C, transportation assistance; and then through the earned 
income tax cut and the minimum wage. It made work a more 
attractive alternative to dependency. Second, we removed the 
speed bumps that took work down below as a means of economic 
independence to dependency because it was child care, health 
care, and also basically ways of support, whether that is 
through the minimum wage or earned income tax credit.
    My problem is when you look at what the bill is that you 
are advocating, in many ways you divert from what has been a 
proven success in moving people--forget just the numeric 
reductions in the payroll. I think the biggest accomplishment 
is for the children of some of these families when they can say 
and identify all of us grew up in a culture of work and a 
philosophy of work. We knew what our parents did. We identified 
with the philosophy of work, the schedule of work. When a child 
whose parent moves from dependency to independence, they are 
part of that culture of work, and they can answer what their 
parent does at school. Unfortunately, what is wrong with this 
legislation is you depart from that road map. I will just tell 
you from my own experiences in Chicago, there are not enough 
child care slots and there are not enough child care dollars. I 
think my Mayor and our Governor do a great job.
    Second is rather than just have 1 year of transition health 
care assistance, we should be building on that 1 year because 
it was so essential because a lot of people go from--what 
parent--let me stop myself there. What parent would choose 
Medicaid, guaranteed health care for their children, versus a 
job with no health care and only 1 year? That is putting a 
parent in a horrible choice between their own economic 
independence and their children's health care, and those are 
the choices this plan gives. Rather than say only 1 year of 
Medicaid, we should actually take Medicaid to a second year, 
help these parents be good parents at work and good parents at 
home, and we are not doing that.
    The problem with this legislation is it does not take the 
lessons of the success of the last 6 years under the welfare 
program 1996 and build on them. In many ways, it contorts them 
and departs from them. I think what you want to do here and I 
think what the Democratic alternative does is on all those 
areas--child care resources and slots, health care beyond the 
first year of transitional assistance, earned income tax 
credit, minimum wage, transportation assistance, moving people 
from where they live to where the jobs are--you have abandoned 
that, that to me is what is so infuriating because it 
actually--this was the first time we all collectively--not at 
first, it went through two vetoes to get there--did the right 
thing both for the government, for the people it serves, and 
the taxpayers.
    I think every one of us--and what I want to bring up--and I 
hope that I can submit to the record, Mr. Chairman, the Joyce 
Foundation in Chicago did a six State study for 6 years on 
welfare reform--Michigan, Illinois, Indiana, Wisconsin--all 
these great States that everybody was praising--Iowa--had 
different economic groups, and so forth. What did the 
respondents who moved successfully from welfare to work say? 
The 38 percent, the biggest thing, child care dollars. This was 
while the States were flush with child care dollars, and they 
said the biggest prohibition to getting a job was not enough 
child care resources or availability of slots. Second, after 
they were up with their 1 year, they lost their health care. 
Add a second year of health care transition.
    Then third, obviously, as you well know--and if you do not, 
I will get you a subscription to the newspaper. You can pick 
the newspaper. Wages are being suppressed in this country. 
Minimum wage has not kept up. Earned income tax credit has not 
kept up. In all those areas we are not building on it. If we 
are walking away from 6 years of experimental success, and that 
is my problem. I hope you can take a look at the Joyce 
Foundation study, what the respondents who successfully have 
moved from welfare to work said they needed--not CBO, not OMB, 
not some bureaucracy in Washington, but people on the ground, 
parents who have done it right. If you haven't seen that study 
from the Joyce Foundation, I would be more than willing to 
forward it to you, and I would like to submit it into the 
record, Mr. Chairman, if that is okay.
    Chairman HERGER. Without objection.
    Mr. EMANUEL. Thank you.
    [The study was not received at time of printing.]
    Dr. HORN. Congressman, first I would say welcome to the 
Subcommittee. I have had the opportunity----
    Mr. EMANUEL. That is a good welcome after what I just said. 
[Laughter.]
    Dr. HORN. I look forward to working with you. I am a great 
admirer of the work that you did on the 1996 law, and I agree 
with you that the 1996 law did a number of very important 
things. I think that in the history of social policy in the 
20th century, the welfare reform law 1996 will go down as one 
of the great shining successes. I agree with you. There are 
some who would argue then if it is not broken, don't fix it. I 
work for a President who says if it isn't perfect, make it 
better. Also, I think we could agree that it isn't perfect. 
Now, we may disagree on how to make it better, but what we are 
trying to do is not to retreat upon a successful program but 
make it better. There are a couple of things that I would 
point----
    Mr. EMANUEL. Well, if I could say one thing--and I do not 
mean to interrupt, but I am a middle child and so I have to. I 
just don't want to make, you know, the perfect the enemy of the 
good.
    Dr. HORN. I agree with that.
    Mr. EMANUEL. If we are going to throw analogies around--my 
one concern here, though, is that I understand you think you 
can make it perfect, but in every area from health care to 
child care to wages to transportation, you are not building on 
the program of success.
    Dr. HORN. Let me point out just a couple areas where I 
think that we are, because we have seen some weaknesses. Right 
now, because of the caseload reduction credit, we basically 
have a zero work participation rate in many States. Twenty 
seven States now have a work participation rate requirement of 
5 percent or less. Twenty seven States. We ought to fix that 
because the consequence of that is that we are seeing the 
percentage of welfare recipients who are actually participating 
in work declining over the last 3 years to right now only 31 
percent of those who satisfy the current work participation 
requirements. We ought to fix that. We also think we ought to 
be having every single person who walks through the door of a 
welfare agency immediately engage with a case plan developed 
within 60 days so that we can get everybody off of welfare as 
quickly as possible. There are a number of areas I think we can 
agree on, and I look forward to working with you on that.
    Chairman HERGER. The gentleman's time has expired.
    Mr. EMANUEL. Can I just add one point, Mr. Chairman?
    Chairman HERGER. Very quickly.
    Mr. EMANUEL. Very quickly, the reason you are down on lower 
work participation is you are dealing with the hardcore cases. 
The first 6 years dealt with the easier cases, and just making 
harder requirements on work does not mean you are going to get 
better success results. Thank you, Mr. Chairman.
    Chairman HERGER. The gentlelady from Connecticut, Mrs. 
Johnson, is recognized.
    Mrs. JOHNSON. To the preceding gentleman's comment, there 
certainly is truth in the fact that you are dealing with many 
who are harder to employ. To have a zero work requirement 
result from our bill is also irrational. Now, in this new bill, 
it is my understanding that mental health and substance abuse--
time spent in mental health treatment programs and substance 
abuse programs can count as work for the 16 hours between these 
3 days of work and the full 40-hour requirement. I think that 
is important. I think if people are going to be full-time 
workers and look toward the future for full-time work and self-
sufficiency, they need to be able to count their work toward 
dealing with personal problems as real work, because it is.
    Also, my understanding is that you recognize in the bill 
the importance of people gaining knowledge of child 
development, of nutrition, of health, of financial management 
sills. I am concerned that just saying it is possible is not 
enough, that we need to be more prescriptive and require States 
to offer plans like that, programs like that so that people 
coming off welfare do have not only the opportunity but that 
obligation, because you just cannot be successful, and 
particularly in today's world, if you do not develop some 
financial management capabilities. That is one question, and 
then I am going to give you a chance to answer all these.
    Second, does this bill better tie together work training 
and career advancement know, in other words, so people are more 
clear that if I decide to get an LPN, what are the next steps? 
What are the next steps up the education ladder, up the career 
ladder, up the income ladder? Last, the President's interest in 
fatherhood really pleases me. You have done a lot of work in 
that area, both in government and out of government. We will 
not ever make a dent in this fatherhood problem if we don't 
make the fathers of women on welfare who are not working 
eligible for the work and training programs and bring them into 
these courses that the mothers must take on child development, 
financial planning, adult development. That is where we really 
want to help young people grow in an understanding of how 
relationships enrich their lives, make work lives successful, 
make parenting successful and so on. I know it would be 
expensive to treat them exactly like the women on welfare, but 
a lot of them are not employed or they are employed in the 
underground. If they are employed in the underground, it is 
almost worse because they are not paying Social Security and 
they will never get Medicare, and for whom would it be a 
reasonable decision to marry someone like that?
    Both how do we get hooked, and then how do we help them 
work off arrearages so, again, they would be eligible for a job 
in the real world and could move ahead? The fatherhood issues, 
career development issue, and then in those 40 hours making 
absolutely clear and rather compulsory, if you do not have 
something else better to do, that you do take these courses 
that you should have had in our high schools if we were 
thinking?
    Dr. HORN. Well, I will try to be brief in all three 
answers. First of all, there is always a delicate balancing act 
between the principle or the goal of State flexibility and the 
principle or the goal of, you know, what we think would be a 
good idea. I agree with you that I do think that the kinds of 
services that you listed are all very good and worthwhile 
things to do, but we put them in the category of State 
flexibility. They are things we would encourage, but not 
necessarily require them of recipients because not every 
recipient requires each one of those services.
    In terms of career advancement, the research literature is 
pretty clear that education-first strategies are less effective 
than are workforce strategies. The best strategy is one that 
combines the two, and that is precisely at the heart of what 
the President has proposed and what is also embodied in H.R. 
240. That is to say, we do not require 40 hours of work; 
neither does your bill. What it says is there are 24 hours of 
work, but you also have to fill in that other time, those other 
16 hours.
    Well, what would you fill that in with? Well, I would hope 
that most people would fill that in with additional education 
and training experiences, because how do people get better 
jobs? First of all, they establish good work histories. Someone 
who comes to you as an employer who says, ``I do not have any 
reliable work history,'' is not someone you are likely to hire. 
You want to get them into work to start to get that reliable 
work history.
    On the other hand, if you come to an employer and say, ``I 
have no skills,'' they say, ``Well, this is a skilled position. 
I am not going to hire you.'' Rather than throwing a wild party 
because we have gotten someone off of the TANF rolls because 
they have a part-time job now, stuck at low wages, unskilled, 
what the President's proposal and H.R. 240 says is we want the 
agencies to continue to work with that client to give them 
additional education and training so they can get a better job.
    Mrs. JOHNSON. Right. Good. Thank you.
    Chairman HERGER. The gentlelady's time has expired. The 
gentleman from California, Mr. Becerra, to inquire.
    Mr. BECERRA. Thank you, Mr. Chairman. Secretary Horn, thank 
you for being here. Let me see if I can delve into a bit this 
whole issue of child care. I think we all see the glaring 
numbers, but I am still trying to make sense of how we expect 
to make a great deal of progress when only one in four of the 
eligible children in this country would be serviced by this 
legislation. Explain to me, give me the 30-second sound bite of 
how it is that the Administration expects women with children, 
especially those under 5 or 6 years of age, to succeed in the 
workplace if they have got small kids and they will be 
receiving no money to help them with child care.
    Dr. HORN. I will give you the 10 second sound bite. They 
would not be required, either under current law, the 
President's proposal, or H.R. 240, to go to work if, in fact, 
there is not child care available. That is current law. We do 
not propose to change that.
    Mr. BECERRA. What they will do is they will exhaust their 
time to TANF proposals and then all of a sudden before they 
know it, they have hit the barrier, and they no longer get any 
benefits under welfare, and they still have not gotten a job. 
Their kids are a little bit older, and they still cannot get 
child care.
    Dr. HORN. I understand your concern, but I do not think 
that is the way it would work.
    Mr. BECERRA. How would it----
    Dr. HORN. First of all, if you look at the CBO estimates 
over the next 5 years, of the $8.3 billion they estimated being 
necessary, half of that is in costs related to work programs 
and half of that is in child care.
    Mr. BECERRA. No, but let's focus on the child care dollars. 
My understanding is that the President's own numbers show that 
you will be providing assistance to less children as a result 
of this proposal than you are right now, some 300,000 less; and 
as it is, we are only providing child care eligibility and 
funding for that to the States for a quarter of the 9.5 million 
children.
    Dr. HORN. Again, the 300,000 less kids being provided with 
child care is the assumption that there is level funding for 
the next 5 years in the child care development fund. Those are 
decisions that have not been made. Each of those--each year----
    Mr. BECERRA. What about the President's budget that he 
presented this past week?
    Dr. HORN. That is for 2006. It is not for 2007, 2008, 2009, 
and 2010.
    Mr. BECERRA. Are you telling us today that you are going to 
let us know that the Administration will be proposing at least 
increases equal to the cost of living over the next 5 years?
    Dr. HORN. If I told you that today, I would be the former 
Assistant Secretary tomorrow, I assure you. [Laughter.]
    Mr. BECERRA. Well, last year you did not say you would, and 
you are still the current Assistant Secretary. So----
    Dr. HORN. What I am saying is that those are decisions that 
have not been made and will be made within the context of 
future budget requests.
    Mr. BECERRA. How is it that you are coming before this 
Committee and the President has presented a budget and those 
decisions have not been made? Is there a reason why women who 
are looking for a way out of welfare, who have children, who 
are hoping to end the vicious cycle of poverty for themselves, 
have to wait longer to find out what happens in this budget?
    Dr. HORN. No, because if you pass TANF today, tomorrow 
almost $2 billion becomes available immediately that cannot be 
spent for child care today. It becomes immediately available--
--
    Mr. BECERRA. You are going back to the TANF dollars?
    Dr. HORN. The carryover, the unobligated carryover 
balances, yes.
    Mr. BECERRA. I think you answered Mr. McDermott a bit on 
this. Have you done an analysis of how much TANF money is 
actually available to these States?
    Dr. HORN. How much is available?
    Mr. BECERRA. Yes.
    Dr. HORN. Between TANF and child care over the next 5 
years, $167 billion.
    Mr. BECERRA. Okay. Now, you are saying that is free money 
that is available?
    Dr. HORN. No, no, no. I misunderstood your question.
    Mr. BECERRA. How much of the TANF money that you say that 
you can use--you said there is about $2 billion available 
there. How much of that is--have you done an analysis, first, 
of the $2 billion that you say may be available of the TANF 
cash assistance money?
    Dr. HORN. Well, under TANF, as you know, there is $16.7 
billion available----
    Mr. BECERRA. That I understand. I am just wondering if you 
done an analysis.
    Dr. HORN. Of how much of that $2 billion could be used for 
child care?
    Mr. BECERRA. Yes, child care.
    Dr. HORN. One hundred percent, if you pass this bill.
    Mr. BECERRA. I understand it could. Are the States willing 
to let it be used for that?
    Dr. HORN. Well, the States have the flexibility to decide 
how to use that money under the bill.
    Mr. BECERRA. In your analysis, did you determine that the 
States have enough money that they need for their own cash 
assistance programs, for their work-related programs, that they 
could use TANF dollars for child assistance? Did you do that 
type of analysis?
    Dr. HORN. We did not ask the States how they would use 
those unobligated balances.
    Mr. BECERRA. You are proposing to us that we consider those 
$2 billion in TANF dollars that you say are available for child 
care. You must be relying on something. There must be some 
factual basis for you to say that. Otherwise, the States are 
going to come screaming to us saying, Please, we do not have 
enough TANF money as it is, now you are talking about using the 
TANF money that we are supposed to use for work-related 
activities for all the other things we have to do for cash 
assistance to these mothers who are on welfare, and at the same 
time use it for child care. You can only use the dollars so 
many times.
    Dr. HORN. We have had lots of conversation with the States, 
including the NGA, on the issue of carryover balances. I would 
state without fear of contradiction that the States believe 
that it would be a very, very good thing to allow them to use 
those carryover balances in whatever way that the State feels 
is useful to them in service of----
    Mr. BECERRA. Mr. Secretary, I would ask you if you could 
provide us with any written analysis that has been done by your 
Department on the availability of those 2 billion TANF dollars.
    Dr. HORN. Sure, I would be happy to do that.
    Mr. BECERRA. Thank you so much. Thank you, Mr. Chairman.
    Chairman HERGER. The gentleman's time has expired. Dr. 
Horn, the President's proposal and H.R. 240, the bill 
introduced by the senior House Republicans last month, would 
require States to engage all TANF recipients with an adult in 
self-sufficiency activities as well as to develop individual 
plans for activities leading to self-sufficiency. Given that 
the work rates have fallen among the welfare recipients in 3 of 
the last 4 years, this seems to be very important. Can you talk 
a little bit more about the importance of engaging families? Is 
there evidence that States are not working to engage families 
immediately?
    Dr. HORN. First of all, I want to say that many States and 
many local welfare-to-work programs are doing the best job that 
they can, are really committed to this program. On the other 
hand, there is a reason why in its wisdom this Congress passed 
a bill in 1996 that set a work participation rate, because it 
believed that it was important for the States to focus on 
getting people into work, and one way to do that is to set a 
minimum work participation rate.
    Now, if you ask the average American what percentage of 
people on welfare are supposed to be engaged in work, the 
average American would say all of them. They do not say 50 
percent. They certainly do not say 31 percent. They think all 
of them are. The fact of the matter is that because of the 
caseload reduction credit, right now only 31 percent of those 
on TANF are satisfying the work requirements. I do not think 
that is because States, you know, are ignoring their welfare-
to-work programs. It seems to us that it is time for us to put 
a work participation rate requirement back in that is real, at 
the same time also putting a new requirement that within 60 
days every TANF recipient that walks through the door, within 
60 days has a case plan.
    Congresswoman Johnson, you and I, unfortunately, remember 
the days in child welfare when there was not a case plan for 
people in child welfare. Well, Congress fixed that. Now 
everybody has got a case plan. They often are not developed 
enough, quick enough for my taste, but they have a plan. It is 
astounding that people who go into TANF offices do not have a 
plan. How are you going to fully understand what their needs 
are, how are you going to fully understand what the 
opportunities are to engage them unless someone sits down and 
says let's develop a plan? That seems to be a minimum 
requirement, one that I think, my guess is, everybody agrees 
with. Let's put a requirement on it that says everybody ought 
to be engaged, because we don't want them sitting around 
without a plan, without someone working with them, because we 
know the time clock is ticking. We are not doing them any 
favors in just letting them stay on welfare both because if you 
are on welfare--guess what?--you are going to be poor, forever. 
Tthere are not any rich people on welfare. You are going to be 
poor. Also it is important to note that their time clock is 
ticking, and the only way to really move them quickly, 
preserving enough time on the time clock in case they need it 
in the future, is to engage them quickly.
    Chairman HERGER. Thank you very much, Dr. Horn, and we 
appreciate your testimony. With that, I would like to invite 
our next panel to join us at the table. This afternoon we will 
be hearing from Kevin McGuire, Executive Director of the Family 
Investment Administration, Maryland Department of Human 
Resources; Robert Rector, Senior Research Fellow at the 
Heritage Foundation; Dr. Ron Haskins, Senior Fellow at the 
Brookings Institution and Senior Consultant at the Annie E. 
Casey Foundation; Dr. Jeffery Johnson, President and chief 
executive officer of the National Partnership for Community 
Leadership, accompanied by Yovani Rivera; and Jason Turner, 
Director of the Center for Self-Sufficiency. Mr. McGuire to 
testify.

   STATEMENT OF KEVIN M. MCGUIRE, EXECUTIVE DIRECTOR, FAMILY 
    INVESTMENT ADMINISTRATION, MARYLAND DEPARTMENT OF HUMAN 
                 RESOURCES, BALTIMORE, MARYLAND

    Mr. MCGUIRE. Good afternoon. I am Kevin McGuire, the 
Executive Director of the Family Investment Administration at 
the Maryland Department of Human Resources. I bring greetings 
from Governor Bob Ehrlich to his friends and former colleagues 
on the Committee. I also bring a special greeting to Maryland 
Congressman Ben Cardin, a Member of the Subcommittee who has 
worked for bipartisan welfare reform both in Congress and in 
Maryland.
    I am also here to share with you the Ehrlich 
Administration's mission to engage and strengthen communities 
and families through service, innovation, and reengineering. 
Thanks to the policymaking leadership of the Congress, 
Maryland's Joint Committee on Welfare Reform, and the support 
of the Maryland General Assembly, my department has had 
unprecedented flexibility to accomplish our mutual goals. I 
certainly think Maryland is in the forefront of States with 
successful welfare reform programs.
    Due to your leadership, Maryland's Family Investment 
Program has been very effective. It is a flexible, outcome-
based model that has allowed us to devolve many of the 
operational decisions on program implementation to our local 
departments of social services. Among some of our successful 
outcomes is the decline of our cash assistance from 227,887 
recipients in January 1995 to now 65,714 recipients in January 
2005. That is an unprecedented decline and that is the lowest 
in cash assistance in our State since November 1963.
    In addition to wages, families that leave welfare for work 
also continue to receive medical assistance and food stamp 
benefits and receive refundable earned income tax credits from 
both the Federal and State governments. We found that that has 
been very successful and very helpful for making the case of 
moving from welfare to work. We also have followed TANF 
reauthorization very carefully. During repeated continuances of 
the program, we have determined for some time that, whatever 
ultimately reauthorization will be, it will include proposals 
calling for an increase in work participation rates, an 
increase in work hours, a different scope of defined work 
activities, universal engagement, and reform of the caseload 
reduction credit.
    Now, we have done this because for Maryland the stakes are 
enormous, as failure to meet the new work requirement rates and 
universal engagement requirements could subject the State to a 
potential liability for large Federal penalties. Consequently, 
we have taken a proactive approach to be prepared for what is 
likely to lie ahead. We have been making plans for new 
initiatives that will give our State a head start on some of 
these things.
    Now, we did it for a couple of reasons. Two of the biggest 
things we did is we started on a process of universal 
engagement and increased work participation, and since the 
Ehrlich Administration has been in, we have roughly--we have 
had a very low work participation rate for federally counted 
work activity. We have basically doubled it by now. At the same 
rate, we still have caseload going down and people are still 
going to work. We think that we are on the right track, but we 
just want to share with you some of the things that we want to 
do.
    To move forward, we agree with you, Chairman, that despite 
the success of the 1996 proposals, more work needs to be done. 
My staff and I have carefully reviewed the proposals in H.R. 
240, the Personal Responsibility, Work, and Family Promotion 
Act of 2005, and we think it provides a firm foundation on 
which to build our continuing efforts to meet the goals of 
welfare reform. We are especially pleased that the bill 
maintains many of the very positive and flexible features of 
the original legislation, including funding for the Temporary 
Assistance for Needy Families program, full funding, and 
provides some increase in funding for child care programs. 
Similarly, the continuation of the transitional medical 
assistance program will continue to ensure that individuals 
leaving welfare for work have important health coverage for up 
to a year after they leave the rolls.
    We have also noticed a couple of opportunities that are 
provided in the bill, some of which I will just basically touch 
on: Provision for healthy marriage initiatives. We think that 
the new provisions aimed at encouraging healthy marriages and 
two parent married families are very encouraging. We also like 
the idea of expanded State demonstration authority. We are very 
enthusiastic about the new State-flex demonstration authority, 
and we strongly support the concept that States are the 
laboratories of democracy. Maryland has recognized that the 
vast diversity of government, means tested programs, in itself, 
sometimes leads to confusion and inadvertently sets up barriers 
to program access and participation. We think having the 
flexibility will allow us to address that.
    We also like an opportunity to continue improving the food 
stamp program. While people have moved from welfare to work, we 
have done something in Maryland that was very interesting. We 
have taken care of a lot of our administrative problems in 
payment accuracy, but we have also increased the number of 
working people on food stamps while the caseload is going down. 
That is something that is pretty well to do. Some of the 
challenges? Increasing work requirements, we are considering 
replacing the recalibrated caseload reduction credit with an 
employment credit, consider providing penalty relief to States 
making steady improvement in their rates, and just one other 
thing, simply: We need a bill. I cannot go on years and years 
going to my legislature without a bill. Thank you very much.
    [The prepared statement of Mr. McGuire follows:]

 Statement of Kevin M. McGuire, Executive Director, Family Investment 
  Administration, Maryland Department of Human Resources, Baltimore, 
                                Maryland

    Good afternoon. I am Kevin McGuire, Executive Director of the 
Family Investment Administration at the Maryland Department of Human 
Resources. I bring greetings from Governor Bob Ehrlich to his friends 
and former colleagues on the committee. I also bring a special greeting 
to Maryland Congressman Ben Cardin, a member of the subcommittee who 
has worked for bipartisan welfare reform both in the Congress and in 
Maryland.
Background: Your Leadership Has Enabled Us To Do Great Things
    I am here to share with you the Ehrlich administration's mission to 
engage and strengthen communities and families through service, 
innovation and reengineering. Thanks to the policymaking leadership of 
the Congress, Maryland's Joint Committee on Welfare Reform and the 
support of the Maryland General Assembly my Department has had 
unprecedented flexibility to accomplish our mutual goals. I certainly 
think Maryland is in the forefront of states with successful welfare 
reform programs.
    Because of your leadership, Maryland's Family Investment Program 
(FIP) has been very effective. It is a flexible, outcome-based model 
that has allowed us to devolve many of the operational decisions on 
program implementation to our local departments of social services. 
Among our successful FIP outcomes is the decline of our cash welfare 
caseload from 227,887 recipients in January 1995 to 65,714 recipients 
in January 2005, a decline of 161,173 adults and children, reducing the 
caseload by 71.2%. In our last state fiscal year alone, we placed more 
than 9,000 recipients in unsubsidized employment. We have also seen 
significant increases in the average starting wage for those placed in 
jobs which is now at $8.08 an hour.
    In addition to wages, families that leave welfare for work in 
Maryland also continue to receive Medical Assistance and Food Stamp 
benefits and receive refundable Earned Income Tax Credits from both the 
Federal and State governments. They also may receive child care 
assistance and child support payments. We found that 98% of exiting 
families receive at least one of these benefits. In total, based on the 
average wage and available benefits in Maryland, we estimate that a 
family of three can experience an increase in cash and in-kind income 
from $10,416 when on cash assistance to $27,715 when working at our 
current average wage at placement.
    We are convinced that it is better for a family to be off welfare 
and working. Dr. Catherine Born of the University of Maryland School of 
Social Work in her Life After Welfare series of studies supports this 
conclusion. Dr. Born has consistently found that the majority of those 
who have left welfare did so because they found jobs, have not returned 
to welfare, and have kept their families together. She has found that a 
majority of former Maryland TANF recipients work in a job covered by 
unemployment insurance that their earnings increase over time and 
almost two-thirds of those that exit cash assistance for at least one 
month remain off the welfare rolls.
    In short, we have been enabled by your legislative policy 
leadership to develop a plan with outcomes that have silenced the early 
naysayers of welfare reform when the original legislation was being 
debated in 1996 and exceeded our own expectations.
In the Absence of TANF Reauthorization, We Have Continued to Innovate 
        and Plan
    We have instituted a new reporting mechanism, which I have adapted 
from my experience in New York called JobStat. JobStat is a better 
means of measuring productivity and improves performance outcomes. The 
unique features of JobStat include the fact that it is a management 
system, not a computer system. It is a one page statistical report that 
displays essential performance data from many reports on one page and 
is complemented by slides for visual effect. Regular JobStat meetings 
in the local departments allow key executive and local management staff 
to meet and talk about the successes and challenges of our work of 
moving individuals from welfare to employment. Each JobStat meeting is 
concluded with a summary that lists management decisions and corrective 
action strategies in a document known as the action item report. This 
report is a tasking document that remains in effect until the action or 
issue is completely resolved.
    We have followed the TANF Reauthorization debate carefully. During 
repeated continuances of the program we have determined for some time 
that, whatever ultimate Reauthorization bill comes out of the Congress, 
it will include proposals calling for an increase in work participation 
rates, an increase in work hours, a different scope of defined federal 
work activities, Universal Engagement, and reform of the caseload 
reduction credit.
    We have done this because the stakes for Maryland are enormous, as 
failure to meet the new federal work participation rates and universal 
engagement requirements could subject the state to a potential 
liability for large federal penalties. Consequently, we have taken a 
proactive approach to be prepared for what is likely to lie ahead. We 
have been making plans for new initiatives that will give our state a 
head start on the impending and plausible new requirements in an 
eventual TANF reauthorization bill. Two of these initiatives are 
already taking place.
    We have formed a work participation workgroup made up of 
representatives from my Bureau of Work Programs and our local 
departments of social services. Their charter is to continue to examine 
and implement new ways to engage our customers in work and to increase 
our federal work participation rate. We have done this since Maryland 
has historically viewed movement off welfare and to work as one of our 
key goals and our cash assistance caseload decline as a key performance 
measure of that goal. In the past, Maryland determined that the 
caseload reduction credit was enacted to recognize that helping a 
family off welfare was just as valuable as having them be on welfare 
and in a federally defined work activity. This then became a key 
element of our strategy to meet the work participation rates. We have 
determined that this element needs to be changed and we have changed. 
The effort of this workgroup has been successful. We have raised our 
rate from 9.7% in federal fiscal year 2003 to an estimated 16.3% in 
2004. This, together with our caseload reduction credit of 43.2% yields 
an effective rate of 59.9%. I want to point out that at the same time 
our participation rate in state defined activities and in federally 
defined activities for less than the required number of hours was 46% 
in 2003 and 51% in 2004. We clearly have engaged people, but not in a 
manner to have them count in the rates as currently constructed. As I 
will discuss later, this legislation offers some opportunity to better 
reflect what we are doing in the federal rates.
    We have also already begun our ``Universal Engagement'' program, 
which means that each and every client must be engaged in a work 
activity or another constructive activity within no more than thirty 
days of their case opening that will lead to independence as soon as 
possible. Through our proactive approach, we are striving to place 
Maryland in a position to be prepared for TANF reauthorization.
To Move Forward, We Need Your Continued Leadership and Assistance
    We agree with Chairman Herger that ``despite the success of the 
1996 reforms, more work needs to be done.'' My staff and I have 
carefully reviewed the proposals in H.R. 240, the ``Personal 
Responsibility, Work, and Family Promotion Act of 2005.'' Maryland 
thinks it provides a firm foundation on which to build our continuing 
efforts to meet the goals of welfare reform.
    We are especially pleased that the bill maintains many of the very 
positive and flexible features of the original legislation, including 
full funding for the Temporary Assistance for Needy Families program 
(TANF) and provides for some increase in funding for child care 
programs. Similarly, the continuation of the Transitional Medical 
Assistance program will continue to ensure that individuals leaving 
welfare for employment have important health care coverage for up to a 
year after they leave the welfare rolls.
Opportunities
    We also look forward to some of the new opportunities provided in 
this bill. There are three we find particularly interesting as we plan 
``on the ground'' for the needs of Maryland's families and its most 
vulnerable citizens.
    Healthy Marriage Initiatives. The new provisions aimed at 
encouraging healthy marriages and two-parent married families are very 
encouraging. As we have implemented welfare reform and as the TANF 
Reauthorization debate has progressed, we have been approached by many 
groups with an interest in developing healthy marriage proposals as 
part of a statewide initiative. Regrettably, there have been limited 
funds available for these. We were able to offer hope to these people 
by telling them of the funding possibilities in the various previous 
versions of TANF Reauthorization. Until now, their hopes have not been 
realized. The provisions in H.R. 240 for funding, technical assistance 
and research are welcome and long overdue.
    Expand State Demonstration Authority. My staff and I a very 
enthusiastic about the new ``state-flex'' demonstration authority. We 
strongly support the concept that the states are the ``laboratories of 
democracy.'' This is certainly supported by the ferment of activity, 
research and evaluation that went on in the states and helped guide the 
enactment of the 1996 law. Since the beginning of our welfare reform 
efforts and over the past fifteen or so years, Maryland has recognized 
that the vast diversity of government, means-tested programs, in 
itself, sometimes leads to confusion and inadvertently sets up barriers 
to program access and participation. Low-income people eligible for 
these programs are sometimes faced with a bewildering array of 
policies, requirements and benefits. Putting them all together is a 
daunting task for them and those of us who want to help them on the 
path to self-sufficiency.
    An Opportunity to Coninue Improving the Food Stamp Program. What I 
said in the previous bullet goes double or even triple for the Food 
Stamp program. I am particularly pleased to see an opening up of the 
waiver authority in the Food Stamp program. Maryland worked long and 
hard with both advocates and the American Public Human Services 
Association on the program improvement and simplifications in the Farm 
Bill. We have picked up many of the options in that legislation, 
including Simplified Reporting and the Transitional Food Stamp benefit 
for those leaving cash assistance. We have also taken almost every 
opportunity in that legislation to align cash assistance, food stamp 
and medical assistance policies. The only areas where we did not do 
this involved significant, additional costs on one or more of the 
affected programs. We welcome the opportunity to continue this effort.
Challenges
    We also look forward to meeting, and look forward to your 
assistance in meeting, the new challenges provided in this bill. While 
Maryland fully concurs with the important changes this bill makes with 
regard to the rates for participation in federally defined work 
activities, hours of participation in these activities and child care, 
we have some suggestions that should help to ensure that your 
legislative policy intent is fully realized.
    Increasing minimum work requirements. We concur with raising the 
minimum work participation requirement 5% per year beginning in federal 
fiscal year 2007 so that we will have a work participation rate of 70% 
in federal fiscal year 2010. We also appreciate very much that Maryland 
would receive a ``superachiever'' credit toward these increased rates 
because of our past accomplishments in caseload declines. However, we 
have some concerns that we ask you to address as you consider this 
legislation. These stem from the accomplishments of our program and the 
strategies I have discussed above. We have achieved a caseload decline 
of 71.2%, have good outcomes from our studies of welfare leavers, and 
yet have had a rate of participation in federally defined activities in 
single digits or the teens during all that time. We have to be doing 
some things right that are not reflected in the participation rates. 
Some suggestions we have to address this issue:
    Consider replacing the recalibrated caseload reduction credit in 
the current bill with an employment credit. Many people have expressed 
concerns about the current caseload reduction credit. Some say that it 
places too much attention on simply closing cases. Others say that it 
takes states' attention away from placement in work activities while on 
welfare. For Maryland, a recalibrated credit will, over time, become 
increasingly worthless toward achievement of the new rates. At the same 
time, we agree with those that say trying to look back to what the 
reality was in pre-welfare reform days is no longer valid. A better 
approach would be the development of an employment credit along the 
lines as has been discussed in Senate versions of TANF Reauthorization. 
This tracks the logic of the work participation better than the current 
credit. If states are to be held accountable for placing people in 
federally defined work activities on the theory that this will lead to 
employment and leaving the welfare rolls, why not give us credit 
against that strategy for really getting people to work and helping 
them get off welfare? Is it better to have someone on welfare 
performing work-like tasks in a simulated work week, or to have them 
off welfare completely doing real work in a real work week?
    Consider providing penalty releif for for states making stedy 
improvment in their rates. As I mentioned above, the TANF 
Reauthorization debate has caused us to seriously reconsider our prior 
strategies. The requirements in this bill or any bill likely to pass 
are causing and will cause Maryland to adjust its program to meet the 
challenges in the higher participation rates. We are likely to incur 
substantial costs as we continue to re-engineer our program to meet 
these new challenges. We have found from our efforts so far that this 
is not an easy task. However, there still looms the dark cloud of 
substantial penalties for failure to more quickly adapt our system 
which was based firmly on the rules and agreements made in the original 
legislation. Presently the only penalty relief a state may get is 
through the negotiation and completion of a Corrective Compliance Plan 
with the Office of Family Assistance. We think this runs counter to 
this legislation's overall desire to increase state flexibility while 
enforcing a strict accountability for results. Governor Ehrlich has 
supported a proposal that would provide in the law an exemption from 
the penalty for failure to make the minimum work participation rate if 
the state improves its minimum work participation rate by at least five 
percent for a fiscal year. We think this provides the right balance as 
we move to higher standards of achievement. We know this can be done 
because we have done it. However, it also holds our feet to the fire 
for continuous improvement in meeting the required rates.
    Requiring Welfare Recipients to Put in a Full Work Week. We concur 
that welfare recipients should participate in a simulated work week. We 
are also very appreciative of the 24/16 approach that allows up to two 
days per week for participation in needed activities to remove barriers 
to employment. We also appreciate moving from a weekly to monthly 
standard that, by itself, will improve our performance. Finally, we 
think the provision for partial credit will also help us better meet 
the goals of the legislation. However, we do have a concern here. There 
presently appears to be variation on how to interpret the regulations. 
As we have looked at other states that have high participation rates, 
there appears to be wide variation on what counts when and for how 
long. Variations are particularly evident concerning ``excused 
absences.'' Some seem to interpret the language in the statute very 
rigidly and if an hour is missed, even for the best of reasons, it does 
not count for the participant or the state. Others seem to say that, 
taking the course that the participation requirement ought to simulate 
a work week, the requirement also simulates other aspects of the real 
job market such as leave for illness, jury duty, personal reasons 
beyond the control of the participant and the like. These varieties of 
interpretation create an unlevel playing field. Indeed, our historic 
low rate may be partially due to a very conservative approach to 
counting actual hours. We suggest that the committee devise language 
that specifically allows states as they develop a simulated work week 
to have the flexibility to design that work week to reflect the work 
place. This should include reasonable, simulated ``leave'' so that 
neither the participant nor the state is placed in jeopardy of 
penalties due to unnecessarily stringent conditions provided for in a 
simulated workplace.
    Child Care. We support the committee's recognition that child care 
is an integral part of welfare reform. Participants need child care in 
order to participate in work activities while on welfare and many 
continue to need the support of affordable child care as they move off 
welfare on their path to self-sufficiency. Affordable, quality child 
care is an essential support to work. We concur with the legislation's 
emphasis on quality child care. We also support its recognition that 
increases in funding are required. However, we think the bill does not 
go far enough in providing needed funding for the quality care that it 
seeks to provide. During the debate on TANF Reauthorization in the last 
session of the Congress, Governor Ehrlich supported the amendment 
offered by Senator Snowe to the PRIDE Act, reported out by the Senate 
Finance Committee, to substantially increase child care funding. The 
Senate approved that amendment with a large majority. We urge the 
committee to consider increasing the amount of child care funding in 
H.R. 240 as adequate funding is a principal concern among many who seek 
a balanced program. Indeed, just this past week during the Maryland 
General Assembly's hearing on my Department's budget, there was 
bipartisan concern about the need for adequate funding for child care 
as part of TANF Reauthorization to provide balance to the work 
requirements. For Maryland, significant, additional child care funding 
will help our low-income families, including those still receiving cash 
assistance; but, more importantly, the increased funding will help 
those who have played by the rules and taken the first steps toward 
self-sufficiency. Governor Ehrlich has taken measures to provide funds 
for a partial thaw to a freeze we have had on new applications for 
child care assistance to low income working families. We need your 
support to help us lift that freeze completely and allow low income 
Marylanders to secure safe, quality and affordable child care.
In Conclusion, What Maryland Needs Above All Is a Bill
    Finally, I want to say that what is most important in this round of 
debate on TANF Reauthorization is that we finally get a bill. The past 
string of continuing resolutions has hindered our ability to plan for 
whatever comes out of the legislative process. Having one foot in the 
old program and another lifted moving toward an uncertain new one is a 
difficult position to hold for over two years.
    Thank you for the opportunity to share with you my thoughts on the 
reauthorization of the TANF program. We are proud of our 
accomplishments in welfare reform and are pleased with the outcomes our 
customers have achieved. We hope you will consider our suggestions to 
make a good bill even better.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. McGuire. Mr. 
Rector to testify.

 STATEMENT OF ROBERT RECTOR, SENIOR RESEARCH FELLOW, DOMESTIC 
            POLICY STUDIES, THE HERITAGE FOUNDATION

    Mr. RECTOR. Thank you so much for having me here today. I 
want to focus my testimony today on the very important issue of 
poverty, welfare, and marriage, and on the very critical 
provision of the Healthy Marriage Initiative, which is included 
in your bill and which I think is, in fact, a more important 
innovation in welfare than the 1996 welfare reform act was in 
and of itself. As you all know, one child in three in the 
United States is born out of wedlock. That is one child every 
25 seconds. As we all know and on which there is complete 
agreement, the children born and raised without a father in the 
home are dramatically more likely to suffer emotional and 
behavioral problems, to fail in school, to suffer from drug and 
alcohol abuse, to end up incarcerated and in jail. We also all 
know that Federal and State governments together, when you look 
at all the means tested spending that we have on families with 
children, Federal and State governments together spend about 
$240 billion a year on low-income families with children, and 
75 percent of that spending goes directly to single-parent 
families where there is not a father in the home.
    Similarly, 80 percent of all long-term poverty, child 
poverty in the United States occurs in broken or never-married 
families. It looks like we have got a problem here, and it 
looks like many of these problems might be solved if we could 
find a way to bring these fathers into the home and help them 
live in those homes in a condition of healthy marriage. Now, 
when we look at the issue of poverty, this first chart I 
presented here comes from the Princeton University Fragile 
Families Survey, which is a widely used survey of unmarried 
couples at the time of the child's birth. The left-hand column 
there shows the percentage of those single moms who are going 
to be poor if they remain single moms after the birth of the 
child, and it is over half of them. On the right-hand column, 
what we did, because the Fragile Families Survey has the 
father's wages in their, we just took the father's wages and 
said, What if dad got married and he stayed with the mom 
instead of wandering off someplace? The child poverty rate 
drops down to 17 percent. About two-thirds of these children 
are immediately raised out of poverty if we can get the father 
to stay there and be a contributing husband within the home. A 
dramatic, dramatic change, huge, huge implications for those 
numbers.
    Now, if we could have the next chart, which again comes 
from the Fragile Families Survey, a lot of people argue, well, 
the main reason these dads are not getting married is because 
they do not have jobs. The Fragile Families Survey shows that 
at the time of this intervention, which is before the birth or 
around conception--early, not 10 years down the road when the 
mother is on welfare, but a very early intervention--98 percent 
of these guys had jobs. Half of them are living with the mom. 
Eighty percent of them are in romantic relationships with the 
moms, and the median wage for these men is $17,500 a year. Two-
thirds of these men can support the child above poverty without 
the mother working at all. A lot of people argue, oh, well, the 
reason that they do not marry is because they need job training 
or they need employment assistance and so forth.
    We did a simulation where we said, well, let's boost the 
employment rate among these fathers. Let's boost their wages 
and things and see what effect that has simulated by regression 
analysis on the marriage rate after the child is born. In fact, 
you can see there is no change whatsoever because, in fact, 
male wages and employment are not a particularly significant 
factor in predicting marriage, mainly because all these guys 
are employed in the first place.
    Then if we could have the next chart, very importantly, 
people argue, oh, well, what you nutty people on the right are 
trying to do is force these women to marry abusive men. Okay? 
We have the Fragile Families Survey again, and this survey 
contains data which asked the question privately: Have you 
experienced from the male domestic violence in the last year? 
This is the response, and this is the population that would be 
treated under the Healthy Marriage Initiative, and it is either 
4 percent or so for the whole population; in the target group, 
the very marriageable group, it is down around 2 percent. 
Domestic abuse is virtually non-existent in this group. 
Moreover, I would say, as we all know, that most domestic abuse 
occurs in cohabiting relationships. It does not occur in 
marriage. If we could help these couples move out of unstable 
cohabiting relationships into stable marriage, we would reduce 
the already low levels of abuse. I would say finally you cannot 
use data from welfare mothers that are 30 years old and ask 
them if they ever had abuse in the last 20 years of their 
lives. They did. The question is: Are you being abused in this 
relationship with this father of your child? The answer is no. 
This is a win-win policy. It is a win for children. It is a win 
for the taxpayer. It is a win for the parents.
    [The prepared statement of Mr. Rector follows:]

  Statement of Robert Rector, Senior Research Fellow, Domestic Policy 
                    Studies, The Heritage Foundation

    My name is Robert Rector. I am a Senior Research Fellow at The 
Heritage Foundation. The views I express in this testimony are my own, 
and should not be construed as representing any official position of 
The Heritage Foundation.
Summary
    The erosion of marriage during the past four decades has had large-
scale negative effects on both children and adults: It lies at the 
heart of many of the social problems with which the government 
currently grapples. Nearly 80 percent of long term child poverty occurs 
in broken or never-married families. Each year government spends over 
$200 billion on means-tested aid to families with children; three 
quarters of this aid flows to single parent families. Children raised 
without a father in the home are more likely to experience: emotional 
and behavioral problems, school failure; drug and alcohol abuse, crime, 
and incarceration. The beneficial effects of marriage on individuals 
and society are beyond reasonable dispute, and there is a broad and 
growing consensus that government policy should promote rather than 
discourage healthy marriage.
    In response to these trends, President George W. Bush has 
proposed--as part of welfare reform reauthorization--the creation of a 
pilot program to promote healthy and stable marriage. Funding for the 
program would be small-scale: $300 million per year. This sum 
represents one penny to promote healthy marriage for every five dollars 
government currently spends to subsidize single parenthood. Moreover, 
this small investment today could result in potentially great savings 
in the future by reducing dependence on welfare and other social 
services.
    The following are important points about the healthy marriage 
initiative:

    <bullet>  The program would be focused on early intervention, 
helping young adult couples establish stable and healthy relationships 
before the conception and birth of a child.
    <bullet>  Participation in the program would be strictly voluntary.
    <bullet>  Although there is much chatter about an alleged shortage 
of marriageable males as a barrier to marriage, in reality, nearly half 
of unmarried mothers are living with the child's father at the time a 
child is born; another 23 percent are in a stable romantic relationship 
with the father. A shortage of ``marriageable men'' is not a major 
obstacle to marriage promotion.
    <bullet>  Over 95 percent of unmarried fathers worked during the 
year of the child's birth; their median annual earnings were $17,500. 
(This is higher than the mothers' earnings.) Drug and alcohol abuse 
among these fathers is rare.
    <bullet>  Marriage can have a dramatic effect in reducing child 
poverty. If poor single mothers were married to the fathers of their 
children, nearly 70 percent would be immediately lifted out of poverty.
    <bullet>  Some argue that the key to increasing marriage in low 
income communities is to provide job training to increase the wages and 
employment of fathers. One problem with this approach is that 
government job training programs generally have a very limited impact 
on employment and earnings. More importantly, data from the Fragile 
Families survey show that increasing fathers' employment and earnings 
will have only a marginal effect in increasing marriage. Improving 
attitudes and relationship skills will have a far greater impact.
    <bullet>  Domestic violence among the low income couples who would 
be targeted for the healthy marriage initiative is very rare. In fact, 
only 2 percent experience domestic violence. Critics of the healthy 
marriage initiative often cite statistics showing that a high percent 
of middle-aged welfare mothers have suffered domestic violence at some 
point in the past. These figures are irrelevant for two reasons. First, 
the healthy marriage initiative will focus on younger women around the 
time of a child's birth, not older mothers with a long history of 
welfare dependence. The domestic violence rates are very different for 
these two groups. Second, the fact a woman has experienced domestic 
violence in the past does not mean she is experiencing violence in a 
current relationship, or that most prior relationships have involved 
violence.
    <bullet>  Most domestic violence occurs in cohabitation not 
marriage; helping couples move from unstable cohabiting relationships 
into healthy marriage should reduce domestic violence.
    <bullet>  Over 100 separate evaluations show that marriage skill 
education programs, of the sort that would be used in the healthy 
marriage initiative, are effective in reducing strife, improving 
communications skills, increasing couple stability and enhancing 
marital happiness.
    <bullet>  Some argue that the healthy marriage initiative should be 
broadened to include funding for other activities such as daycare, job 
training, and birth control. The problem is that government already 
spends massively on these other activities: over $20 billion annually 
on daycare; $6.2 billion on job training and $1.7 billion on birth 
control. To allow healthy marriage funds to be diverted to these amply 
funded activities would dissipate the funding and ensure that 
relatively little was spent to actually strengthening marriage.

    Some argue that the government should not ``interfere'' in private 
decisions concerning marriage. This argument is faulty on several 
counts. First, participation in the healthy marriage program would be 
completely voluntary; opposing the marriage initiative on grounds of 
``non-interference'' really means denying low income couples access to 
information and training that they actively want, but is not available 
in low income communities. Second, the means-tested welfare system 
already ``intervenes'' against marriage by providing substantial 
financial penalties when low income couples do marry.
    Third, the government spends over $150 billion in subsidies to 
single parents each year. Much of this expenditure would have been 
avoided if the mothers were married to the fathers of their children. 
To insist that the government has an obligation to support single 
parents--and to mitigate the damage that results from the erosion of 
marriage--but should do nothing to strengthen marriage itself is 
myopic. It is like arguing that the government should pay to sustain 
polio victims in iron lung machines but should not pay for the vaccine 
to prevent polio in the first place.
The Importance of Marriage
    Today, nearly one-third of all American children are born outside 
marriage. That's one out-of-wedlock birth every 35 seconds. Of those 
born inside marriage, a great many children will experience their 
parents' divorce before they reach age 18. More than half of the 
children in the United States will spend all or part of their childhood 
in never-formed or broken families.
    The collapse of marriage is the principal cause of child poverty in 
the United States. Children raised by never-married mothers are seven 
times more likely to live in poverty than children raised by their 
biological parents in intact marriages. Overall, approximately 80 
percent of long-term child poverty in the United States occurs among 
children from broken or never-formed families.
    It is often argued that strengthening marriage would have little 
impact on child poverty because absent fathers earn too little. This is 
not true: The typical non-married father earns $17,500 per year at the 
time his child is born. Some 70 percent of poor single mothers would be 
lifted out of poverty if they were married to their children's father. 
According to data from the Princeton Fragile Families and Child Well-
being Survey--a well-known survey of couples who are unmarried at the 
time of a child's birth. If the mothers remain single and do not marry 
the fathers of their children, some 55 percent will be poor. However, 
if the mothers married the fathers, the poverty rate would drop to 17 
percent. (This analysis is based on the fathers' actual earnings in the 
year before the child's birth.) \1\
---------------------------------------------------------------------------
    \1\ For more information on this point, see Robert E. Rector, Kirk 
A. Johnson, Patrick F. Fagan, and Lauren R. Noyes, ``Increasing 
Marriage Will Dramatically Reduce Child Poverty,'' Heritage Foundation 
Center for Data Analysis Report No. CDA03-06, May 20, 2003.
---------------------------------------------------------------------------
    The growth of single-parent families has had an enormous impact on 
government. The welfare system for children is overwhelmingly a subsidy 
system for single-parent families. Some three-quarters of the aid to 
children--given through programs such as food stamps, Medicaid, public 
housing, Temporary Assistance to Needy Families (TANF), and the Earned 
Income Tax Credit--goes to single-parent families. Each year, 
government spends over $150 billion in means-tested welfare aid for 
single parents.\2\
---------------------------------------------------------------------------
    \2\ Robert Rector, ``The Size and Scope of Means-Tested Welfare 
Spending,'' testimony before the Committee on the Budget, U.S. House of 
Representatives, August 1, 2001.
---------------------------------------------------------------------------
    Growing up without a father in the home has harmful long-term 
effects on children. Compared with similar children from intact 
families, children raised in single-parent homes are more likely to 
become involved in crime, to have emotional and behavioral problems, to 
fail in school, to abuse drugs, and to end up on welfare as adults.\3\
---------------------------------------------------------------------------
    \3\ Patrick Fagan, Robert Rector, Kirk Johnson, and America 
Peterson, The Positive Effects of Marriage: A Book of Charts 
(Washington, D.C.: The Heritage Foundation, April 2002), at http://
www.heritage.org/Research/Features/Marriage/index.cfm.
---------------------------------------------------------------------------
    Finally, marriage also brings benefits to adults. Extensive 
research shows that married adults are happier, are more productive on 
the job, earn more, have better physical and mental health, and live 
longer than their unmarried counterparts. Marriage also brings safety 
to women: Mothers who have married are half has likely to suffer from 
domestic violence as are never-married mothers.\4\
---------------------------------------------------------------------------
    \4\ Robert E. Rector, Patrick F. Fagan, and Kirk A. Johnson, 
``Marriage: Still the Safest Place for Women and Children,'' Heritage 
Foundation Backgrounder No. 1732, March 9, 2004.
---------------------------------------------------------------------------
Policy Background
    Despite the overwhelming evidence of the benefits of marriage to 
families and society, the sad fact is that, for more than four decades, 
the welfare system has penalized and discouraged marriage. The U.S. 
welfare system is currently composed of more than 70 means-tested aid 
programs providing cash, food, housing, medical care, and social 
services to low-income persons. Each year, over $200 billion flows 
through this system to families with children. While it is widely 
accepted that the welfare system is biased against marriage, relatively 
few understand how this bias operates. Many erroneously believe that 
welfare programs have eligibility criteria that directly exclude 
married couples. This is not true.
    Nevertheless, welfare programs do penalize marriage and reward 
single parenthood because of the inherent design of all means-tested 
programs. In a means-tested program, benefits are reduced as non-
welfare income rises. Thus, under any means-tested system, a mother 
will receive greater benefits if she remains single than she would if 
she were married to a working husband. Welfare not only serves as a 
substitute for a husband, but it actually penalizes marriage because a 
low-income couple will experience a significant drop in combined income 
if they marry.
    For example: A typical single mother on Temporary Assistance to 
Needy Families receives a combined welfare package of various means-
tested aid benefits worth about $14,000 per year. Suppose the father of 
her children has a low-wage job paying $16,000 per year. If the mother 
and father remain unmarried, they will have a combined income of 
$30,000 ($14,000 from welfare and $16,000 from earnings). However, if 
the couple marries, the father's earnings will be counted against the 
mother's welfare eligibility. Welfare benefits will be eliminated (or 
cut dramatically), and the couple's combined income will fall 
substantially. Thus, means-tested welfare programs do not penalize 
marriage per se but, instead, implicitly penalize marriage to an 
employed man with earnings. The practical effect is to significantly 
discourage marriage among low-income couples.
    This anti-marriage discrimination is inherent in all means-tested 
aid programs, including TANF, food stamps, public housing, Medicaid, 
and the Women, Infants, and Children (WIC) food program. The only way 
to eliminate the anti-marriage bias from welfare entirely would be to 
make all mothers eligible for these programs regardless of whether they 
are married and regardless of their husbands' earnings. Structured in 
this way, the welfare system would be marriage-neutral: It would 
neither reward nor penalize marriage.
    Such across-the-board change, however, would cost tens of billions 
of dollars. A more feasible strategy would be to experiment by 
selectively reducing welfare's anti-marriage incentives to determine 
which penalties have the biggest behavioral impact. This approach is 
incorporated in the President's Healthy Marriage Initiative.
President Bush's Initiative to Promote Healthy Marriage
    In recognition of the widespread benefits of marriage to 
individuals and society, the federal welfare reform legislation enacted 
in 1996 set forth clear goals: to increase the number of two-parent 
families and to reduce out-of-wedlock childbearing. Regrettably, in the 
years since this reform, most states have done very little to advance 
these objectives directly. Out of more than $100 billion in federal 
TANF funds disbursed over the past seven years, only about $20 
million--a miniscule 0.02 percent--has been spent on promoting 
marriage.
    Recognizing this shortcoming, President Bush has sought to meet the 
original goals of welfare reform by proposing a new model program to 
promote healthy marriage as a part of welfare reauthorization. The 
proposed program would seek to increase healthy marriage by providing 
individuals and couples with:

    <bullet>  Accurate information on the value of marriage in the 
lives of men, women, and children;
    <bullet>  Marriage-skills education that will enable couples to 
reduce conflict and increase the happiness and longevity of their 
relationship; and
    <bullet>  Experimental reductions in the financial penalties 
against marriage that are currently contained in all federal welfare 
programs.

    All participation in the President's marriage program would be 
voluntary. The initiative would utilize existing marriage-skills 
education programs that have proven effective in decreasing conflict 
and increasing happiness and stability among couples. These programs 
have also been shown to be effective in reducing domestic violence.\5\ 
The pro-marriage initiative would not merely seek to increase marriage 
rates among target couples, but also would provide ongoing support to 
help at-risk couples maintain healthy marriages over time.
---------------------------------------------------------------------------
    \5\ Patrick F. Fagan, Robert W. Patterson, and Robert E. Rector, 
``Marriage and Welfare Reform: The Overwhelming Evidence That Marriage 
Education Works,'' Heritage Foundation Backgrounder No. 1606, October 
25, 2002.
---------------------------------------------------------------------------
    The plan would not create government bureaucracies to provide 
marriage training. Instead, the government would contract with private 
organizations that have successful track records in providing marriage-
skills education.
Timing and Targeting of Services
    The President's Healthy Marriage Initiative is often characterized 
as seeking to increase marriage among welfare (TANF) recipients. This 
is somewhat inaccurate. Most welfare mothers have poor relationships 
with their children's father: In many cases, the relationship 
disintegrated long ago. Attempting to promote healthy marriage in these 
situations is a bit like trying to glue Humpty-Dumpty together after he 
has fallen off the wall. Such a program would be certain to fail. By 
contrast, a well-designed marriage initiative would target women and 
men earlier in their lives when attitudes and relationships were 
initially being formed. It would also seek to strengthen existing 
marriages to reduce divorce.
    The primary focus of marriage programs would be preventative--not 
reparative. The programs would seek to prevent the isolation and 
poverty of welfare mothers by intervening at an early point before a 
pattern of broken relationships and welfare dependence had emerged. By 
fostering better life decisions and stronger relationship skills, 
marriage programs can increase child well-being and adult happiness, 
and reduce child poverty and welfare dependence.
    A serious pro-marriage initiative would target couples and 
individuals and couples in a variety of venues. The marriage initiative 
would include:

    <bullet>  Education about the value of marriage and life-skills 
planning for high school students who are at risk of out-of-wedlock 
child bearing;
    <bullet>  Pre-marital counseling programs for engaged couples and 
marriage enrichment programs for married couples. These programs have 
potential to reduce future divorce. While it would not be necessary for 
the government to broadly subsidize middle-class use of these programs, 
government funds should be used as a catalyst to promote awareness and 
make such programs more widely available;
    <bullet>  Marriage and relationship skills training for young 
unmarried adults prior to a child's conception; and,
    <bullet>  Marriage skills training for low-income married couples 
at the time of a child's birth. Childbirth places considerable strain 
on relationships and this can lead to divorce. It is possible that 
lower-income married couples could benefit from pro-marriage services 
as much or more than unmarried parents.

    Much of the discussion of marriage promotion has focused on 
unmarried couples at the ``magic moment'' of a child's birth. These 
discussions use data from the Fragile Families survey. While services 
should be offered at the magic moment of birth, it is now clear that 
this is not the optimal point of intervention. Waiting until after a 
child is born to figure out whether you want to make a permanent 
commitment to your partner is a bad strategy. Moreover, many unmarried, 
new parents are poorly prepared for either marriage or parenthood.
    There is widespread agreement, among both liberals and 
conservatives, that the best point of intervention with these young 
couples would have been prior to their child's conception, rather than 
after the child's birth. However, while the government has virtually 
guaranteed access to low-income mothers at the time of birth, contact 
with young, low-income adults at an earlier stage is commonly thought 
to be difficult or impossible. In fact, this perception may be 
erroneous. The federal government currently funds some 4,700 birth 
control clinics through the Title X program. These clinics provide 
birth control to 4.4 million low-income persons each year--most of 
which are young adult women. Many of the clientele of these clinics 
will become members of the ``fragile families'' of the future.
    In addition to birth control, it should be relatively simple for 
these clinics to offer voluntary referrals to programs providing life-
planning, marriage, and relationship training, to those who are 
interested. The goal of such programs would be to encourage young adult 
women to delay childbirth and to develop stable marital relationships 
before bringing children into the world. The potential for outreach 
through the Title X clinics may actually be greater than through 
maternity wards. Expanding healthy marriage services to cover the time 
prior to a child's conception may considerably increase the 
effectiveness of future programs.
    At present, Title X clinics do a poor job in preventing out-of-
wedlock childbearing. In part, this is because these clinics offer free 
birth control but do not provide life skill training that would help 
young adult men and women prepare for decisions concerning childbirth 
and child-rearing more wisely. Offering referrals to a broader range of 
services at Title X clinics could greatly increase their effectiveness.
Program Specifics
    The President's Healthy Marriage Initiative has been included in 
the Personal Responsibility, Work, and Family Promotion Act of 2003 
(H.R. 4) that was passed by the U.S. House of Representatives in May 
2002 and again in February 2003. The bill creates a small funding set 
aside in the TANF program for healthy marriage promotion. Funds could 
be used for a specified set of activities consistent with the 
overarching strategy of promoting healthy marriage. These activities 
would include:

    <bullet>  Public advertising campaigns on the value of marriage and 
the skills needed to increase marital stability and health;
    <bullet>  Education in high schools about the value of marriage, 
relationship skills, and budgeting; Marriage education, marriage-skills 
instruction, and relationship-skills programs--which may include 
parenting skills, financial management, conflict resolution, and job 
and career advancement for non-married pregnant women and non-married 
expectant fathers;
    <bullet>  Pre-marital education and marriage-skills training for 
engaged couples and for couples or individuals interested in marriage;
    <bullet>  Marriage-enhancement and marriage-skills training for 
married couples;
    <bullet>  Divorce-reduction programs that teach relationship 
skills;
    <bullet>  Marriage mentoring programs that use married couples as 
role models and mentors in at-risk communities; and
    <bullet>  Programs to reduce the disincentives to marriage in 
means-tested aid programs, if offered in conjunction with any of the 
above activities.
Should the Healthy Marriage Program Be Broadened?
    Much of the debate about marriage-strengthening will center on this 
list of allowable uses of the marriage funds. Opponents of the 
President's initiative will seek to broaden the list to include 
activities that have little or no link to marriage. The effort to 
broaden the program to include standard government services such as job 
training, day care, and contraceptive promotion (all of which are 
already amply funded through other programs) would dissipate the 
limited funds available and render the program meaningless.\6\
---------------------------------------------------------------------------
    \6\ Robert E. Rector, Melissa G. Pardue, and Lauren R. Noyes, 
`Marriage Plus': Sabotaging the President's Efforts to Promote Healthy 
Marriage,'' Heritage Foundation Backgrounder No. 1677, August 22, 2003.
---------------------------------------------------------------------------
Criticisms of the President's Plan
    The President's Healthy Marriage Initiative has been criticized on 
a number of grounds. Each of these criticisms is inaccurate.
    <bullet> Individuals will be forced to participate in the program. 
Critics charge that welfare mothers would be forced to participate in 
marriage education. In fact, all participation would be voluntary. 
Services would be provided only to individuals or couples interested in 
receiving them.\7\
---------------------------------------------------------------------------
    \7\ The Bush Administration has always been clear that individuals' 
participation in the program would be completely voluntary. The 
Personal Responsibility and Individual Development for Everyone (PRIDE) 
Act, introduced by Senator Grassley, contains specific language 
clarifying that point. See Section 103, p. 154 of the PRIDE 
legislation.
---------------------------------------------------------------------------
    <bullet> The program will increase domestic violence. Critics 
charge that the program would increase domestic violence by coercing or 
encouraging women to remain in dangerous relationships. In fact, 
marriage and relationship-skills training has been shown to reduce, not 
increase, domestic violence.\8\ Such programs help women steer clear of 
dangerous and counterproductive relationships.\9\Moreover, domestic 
violence is less widespread among low-income couples than is generally 
assumed. For example, three-quarters of non-married mothers are 
romantically involved with the child's father at the time of the non-
marital birth: Only 2 percent of these women have experienced domestic 
violence in their relationship with the father.\10\ In general, 
domestic violence is more common in cohabiting relationships than in 
marriage: Never-married mothers, for example, are twice as likely to 
experience domestic violence than are mothers who have married.
---------------------------------------------------------------------------
    \8\ Fagan et al., ``Marriage and Welfare Reform: The Overwhelming 
Evidence that Marriage Education Works.''
    \9\ Some critics seem to assume that marriage programs would 
encourage women to marry abusive boyfriends or would try to use 
marriage to improve an abusive relationship. No marriage program would 
do this, because all of them rest on the premise that marriage is 
inappropriate when significant physical abuse exists.
    \10\ Rector et al., ``Increasing Marriage Will Dramatically Reduce 
Child Poverty.''
---------------------------------------------------------------------------
    A very common statistic used to oppose the healthy marriage 
initiative is that some 60 percent of welfare mothers have experienced 
domestic violence. This figure is based on surveys of older welfare 
mothers and measures whether the woman has ever experienced domestic 
violence at any time in the past. By the time they reach their early 
thirties, single mothers on welfare may have been involved in ten or 
more intimate relationships. The fact that some 60 percent of these 
women have experienced domestic violence at least once is not 
surprising; however, this figure does not suggest that most TANF 
mothers are experiencing violence in their current relationships or 
that most of their prior relationships have involved violence. 
Moreover, as I have stated, older welfare mothers are not a principle 
target group of the healthy marriage initiative. The initiative would 
be a preventive strategy focused on younger unmarried couples; as 
noted, the domestic violence rate among these couples is close to zero.
    <bullet> Marriage-skills programs are ineffective or unproven. 
Critics charge that marriage-skills programs are ineffective. The facts 
show exactly the opposite: Over 100 separate evaluations of marriage 
training programs demonstrate that these programs can reduce strife, 
improve communications skills, increase stability, and enhance marital 
happiness.\11\
---------------------------------------------------------------------------
    \11\ Fagan et al., ``Marriage and Welfare Reform: The Overwhelming 
Evidence that Marriage Education Works,'' p. 7.
---------------------------------------------------------------------------
    <bullet> The program will bribe couples to marry. Critics charge 
that the marriage program will bribe low-income women to marry 
unwisely. This is not true. As noted, all means-tested welfare programs 
such as TANF, food stamps, and public housing contain significant 
financial penalties against marriage. The marriage program would 
experiment with selectively reducing these penalties against marriage.
    <bullet> The program is too expensive. The President proposed 
spending $300 million per year on his model marriage program ($200 
million in federal funds and $100 million in state funds). This sum 
represents one penny spent to promote healthy marriage for every five 
dollars spent to subsidize single parenthood.\12\ This small investment 
would also help to avert future dependence on welfare.
---------------------------------------------------------------------------
    \12\ Rector, ``The Size and Scope of Means-tested Welfare 
Spending.''
---------------------------------------------------------------------------
    <bullet> The public opposes marriage promotion. Critics claim that 
the public opposes programs to strengthen marriage. In fact, the state 
of Oklahoma has operated a marriage program similar to the President's 
proposal for several years. Most Oklahomans are familiar with this 
program; 85 percent of the state's residents support the program, and 
only 15 percent oppose it.\13\
---------------------------------------------------------------------------
    \13\ Christine A. Johnson et al., Marriage in Oklahoma, Oklahoma 
State University, Bureau for Social Research, June 2002, p. 31.
---------------------------------------------------------------------------
    <bullet> Low-income women are not interested in marriage. Critics 
charge that low-income women are not interested in marriage and 
marriage-skills training. However, at the time of their child's birth, 
more than 75 percent of non-married mothers say they are interested in 
marrying their child's father. In Oklahoma, 72 percent of women who 
have received welfare say that they are interested in receiving 
marriage-skills training.\14\
---------------------------------------------------------------------------
    \14\ Johnson, Marriage in Oklahoma, p. 35.
---------------------------------------------------------------------------
    <bullet> Low-income women have histories of abuse that will make 
marriage difficult. Some have argued that low-income women are likely 
to have experienced sexual abuse or violence in their childhoods and 
that this abuse makes in far more difficult for them to form stable 
marriages as adult.\15\ Women who have suffered childhood abuse may be 
more likely to move through a long series of unstable and transitory 
cohabitions as adults. In reality, relatively few of the women who 
would be targeted by the healthy marriage initiative will have 
experienced childhood abuse; however, to the extent they have suffered 
prior abuse, it would be important to offer services that may help them 
improve current relationships rather than simply abandoning them to a 
persistent pattern of relationship failure.
---------------------------------------------------------------------------
    \15\ See Andrew Cherlin, et al., ``The Influence of Sexual Abuse on 
Marriage and Cohabitation,'' forthcoming in the American Sociological 
Review
---------------------------------------------------------------------------
    <bullet> The shortage of ``marriageable men'' makes marriage 
unlikely for most low-income women. Critics argue that marriage is 
impractical in low-income communities because men earn too little to be 
attractive spouses. This is not true. As noted, nearly three-quarters 
of non-married mothers are cohabiting with, or are romantically 
involved with, the child's father at the time of the baby's birth. The 
median income of these non-married fathers is $17,500 per year. Some 70 
percent of poor single mothers would be lifted out of poverty if they 
married the father of their children.\16\
---------------------------------------------------------------------------
    \16\ Rector et al., ``Increasing Marriage Will Dramatically Reduce 
Child Poverty.'' Data are taken from the Fragile Families and Child 
Well-Being Study at Princeton University, at http://crcw.princeton.edu/
fragilefamilies. See also Wendy Sigle-Rushton, ``For Richer or 
Poorer,'' Center for Research on Child Well-being, Princeton 
University, Working Paper 301-17FF, 2001.
---------------------------------------------------------------------------
    <bullet> Increasing male wages through job training is the key to 
increasing marriage. Some argue that the key to getting low-income 
parents to marry is to raise the father's wages. This notion is 
inaccurate for several reasons. First, unmarried fathers already earn, 
on average, $17,500 per year at the time of their child's birth. 
Second, data from the Fragile Families Survey show that male wage rates 
have very little to do with whether or not an unmarried father marries 
the mother of his child. Instead, the most important factors in 
determining whether or not couples marry after a child's birth are the 
couples' attitudes about marriage and their relationship skills.\17\ 
These are the precise attitudes and behaviors that would be targeted 
for change in the President's Healthy Marriage Initiative.
---------------------------------------------------------------------------
    \17\ Robert Rector and Kirk A. Johnson, Ph.d., ``Roles Couples' 
Relationship Skills and Fathers' Employment in Encouraging Marriage,'' 
Report of the Center for Data Analysis, CDA04-14, The Heritage 
Foundation, December 6, 2004
---------------------------------------------------------------------------
    Third, the federal government already operates seven separate job-
training programs and spends over $6.2 billion per year on job 
training.\18\ Since the beginning of the War on Poverty, overall 
spending on job training has exceeded $257 billion.\19\ This spending 
has had no apparent effect on increasing marriage in the past: There is 
no reason to believe it would do so in the future. Fourth, most 
government training programs are ineffective in raising wage rates. For 
example, a large-scale evaluation of the Job Training Partnership Act 
(JTPA) showed that the program raised the hourly wage rates of female 
trainees by only 3.4 percent and those of male trainees by zero.\20\
---------------------------------------------------------------------------
    \18\ Vee Burke, Cash and Noncash Benefits for Persons with Limited 
Income: Eligibility Rules, Recipients and Expenditure Data, FY 1998-FY 
2000, November, 19, 2001, p. 221.
    \19\ This figure represents federal job training expenditures from 
1965 to 2000 in constant 2000 dollars
    \20\ Howard Bloom et al., National JTPA Study Overview: Title II-A 
Impacts on Earnings and Employment at 18 Months, Abt Associates Inc., 
January 1993.
---------------------------------------------------------------------------
    Finally, under H.R. 4, job training may be provided, if needed, to 
individuals participating in marriage-skills and marriage-enhancement 
programs. However, any job training must be linked to marriage-skills 
training. To add job training as a stand-alone spending category within 
a ``marriage'' funding stream would cripple any future marriage program 
by diverting substantial funds into traditional job-training activities 
that have little to do with marriage.
    <bullet> Encouraging marriage at an early age is counterproductive. 
The age at which women give birth out of wedlock is often 
underestimated. The issues of out-of-wedlock childbearing and teen 
pregnancy are generally confused: They are not the same. Most women who 
give birth outside marriage are in their early twenties. Only 10 
percent of out-of-wedlock births occur to girls under age 18; 75 
percent occur to women who are age 20 and older.
    The focus of the Healthy Marriage Initiative would be on 
encouraging couples to form stable, committed relationships and to 
marry before pregnancy and childbirth occur. In many cases, this would 
involve delaying childbearing until couples were older and more mature. 
Thus, the goals of promoting healthy marriage and of postponing 
childbearing to a mature age are harmonious and mutually supportive. 
However, simply encouraging a delay in childbearing without increasing 
the incidence of healthy marriage would have only marginal benefits and 
would not be wise policy.
    <bullet> Government should fund more pregnancy-prevention and 
contraceptive programs rather than marriage promotion. Some urge that 
marriage promotion funds should be diverted to contraceptive programs 
on the grounds that, once women have had children out of wedlock, they 
are less likely to marry in the future. But the government already 
spends over $1.7 billion per year on pregnancy prevention and 
contraceptive promotion through programs such as Medicaid, TANF, 
Adolescent Sexual Health, and Title X.\21\ Overall, current funding for 
contraception/pregnancy-prevention dwarfs the proposed funding for 
marriage promotion. Diverting limited marriage funds to even more 
contraceptive programs would clearly cripple any marriage initiative.
---------------------------------------------------------------------------
    \21\ See Melissa G. Pardue, Robert E. Rector, and Shannan Martin, 
``Government Spends $12 on Safe Sex and Contraceptives for Every $1 
Spent on Abstinence,'' Heritage Foundation Backgrounder No. 1718, 
January 14, 2004.
---------------------------------------------------------------------------
    However, as noted, the President's Healthy Marriage Initiative 
would promote the goal of preventing non-marital pregnancy in another 
broad sense. Marriage programs would encourage women to enter healthy 
marriages before becoming pregnant. In many cases, this would involve 
encouraging women to avoid pregnancy until they become more mature and 
more capable of sustaining a viable, healthy relationship. However, 
this approach would differ greatly from simply handing out 
contraceptives.
    <bullet> Promoting marriage is none of the government's business. 
There are some who argue that, while marriage is a fine institution, 
the decision to marry or not to marry is a private decision in which 
the government should not be involved.\22\ This argument is based on a 
misunderstanding of the government's current involvement in the issue 
of single-parenthood, as well a misunderstanding of the President's 
Healthy Marriage Initiative.
---------------------------------------------------------------------------
    \22\ For example, Senator Max Baucus has stated that he would 
oppose even modest funds to promote healthy marriage because ``marriage 
is not something the government should interfere with.'' Senator Max 
Baucus, ``Remarks on Welfare Reform Reauthorization,'' National 
Campaign for Jobs and Income Support, March 5, 2002.
---------------------------------------------------------------------------
    First, the government is already massively involved when marriages 
either fail to form or break apart. Each year, the government spends 
over $150 billion in subsidies to single parents. Much of this 
expenditure would have been avoided if the mothers were married to the 
fathers of their children. This cost represents government efforts to 
pick up the pieces and contain the damage when marriage fails. To 
insist that the government has an obligation to support single 
parents--and to control the damage that results from the erosion of 
marriage--but should do nothing to strengthen marriage itself is 
myopic. It is like arguing that the government should pay to sustain 
polio victims in iron lung machines but should not pay for the vaccine 
to prevent polio in the first place.
    Second, the government is already heavily (and counterproductively) 
involved in individual marriage decisions, given that government 
welfare policies discourage marriage, by penalizing low-income couples 
who do marry and by rewarding those who do not. The President's Healthy 
Marriage Initiative would take the first steps to reduce these anti-
marriage penalties.
    Third, under the President's initiative, the government would not 
``intrude'' into private matters concerning marriage, since all 
participation in the marriage promotion program would be voluntary. 
Nearly all Americans believe in the institution of marriage and hope 
for happy and long-lasting marriages for themselves and their children. 
Very few wish for a life marked by a series of acrimonious and broken 
relationships. The President's program would offer services to couples 
seeking to improve the quality of their relationships. It would provide 
couples seeking healthy and enduring marriages with skills and training 
to help them to achieve that goal. To refuse services and training to 
low-income couples who are actively seeking to improve their 
relationships because ``marriage is none of the government's business'' 
is both cruel and shortsighted.
    Finally, the government has a long-established interest in 
improving the well-being of children. For instance, the government 
funds Head Start because the program will ostensibly increase the 
ability of disadvantaged children to grow up to become happy and 
productive members of society. It is clear that healthy marriage has 
substantial, long-term, positive effects on children's development: 
Conversely, the absence of a father or the presence of strife within a 
home both have harmful effects on children. If government has a 
legitimate role in seeking to improve child wellbeing through programs 
such as Head Start, it has a far more significant role in assisting 
children by fostering healthy marriage within society.
Conclusion
    More than 40 years ago, Senator Daniel Patrick Moynihan--at that 
time, a member of President Lyndon Johnson's White House staff--wrote 
poignantly of the social ills stemming from the decline of marriage in 
the black community. Since that time, the dramatic erosion of marriage 
has afflicted the white community as well. Today, the social and 
economic ills fostered by marital collapse have exceeded Senator 
Moynihan's worst expectations.
    In response, President Bush has developed the Healthy Marriage 
Initiative: the first positive step toward strengthening the 
institution of marriage since the Moynihan report four decades ago. The 
proposal represents a strategy to increase healthy marriage--carefully 
crafted on the basis of all existing research on the topic of promoting 
and strengthening marriage.
    There is now broad bipartisan recognition that healthy marriage is 
a natural protective institution that, in most cases, promotes the 
well-being of men, women, and children: It is the foundation of a 
healthy society. Yet, for decades, government policy has remained 
indifferent or hostile to marriage. Government programs sought merely 
to pick up the pieces as marriages failed or--worse--actively 
undermined marriage. President Bush seeks to change this policy of 
indifference and hostility. There is no group that will gain more from 
this change than low-income single women, most of whom hope for a 
happy, healthy marriage in their future. President Bush seeks to 
provide young couples with the knowledge and skills to accomplish their 
dreams. The Congress would be wise to affirm their support for marriage 
by passing welfare reform reauthorization and enacting the President's 
Healthy Marriage Initiative.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Rector. Dr. Haskins to 
testify.

   STATEMENT OF RON HASKINS, PH.D., SENIOR FELLOW, BROOKINGS 
INSTITUTION, WASHINGTON, D.C., AND SENIOR CONSULTANT, ANNIE E. 
             CASEY FOUNDATION, BALTIMORE, MARYLAND

    Dr. HASKINS. Chairman Herger and Ranking Member McDermott, 
Members of the Subcommittee, thank you very much for allowing 
me to testify today. It is a great privilege to be here. I just 
want to say one word about the success of the welfare reform 
legislation. I think we tend to focus on TANF and some people 
sometimes talk about child care, but the whole range of 
programs in that legislation, which are enormous, have been 
successful and have very interesting evidence on child support. 
Wade Horn mentioned the provisions for noncitizens, which Mr. 
Becerra fought so strongly against, on SSI. I would like to 
point out to you that RAND recently completed a study that the 
SSI reforms for children over a 10 year period starting this 
year will save $22 billion because of children who left SSI, 
both when they are children and they also will be less likely 
to be on as adults. There is a lot of policy in this law in 
1996 that people really have not paid much attention to that 
have been very successful reforms. I am sorry Mr. McCrery is 
not here because Mr. McCrery was the main author of those 
reforms.
    Let me come right to the point. I think we should cut a 
deal. Three years is long enough for the States to wait. They 
have done a great job in implementing this program. It is a 
little uneven, like all programs are. Some States have done a 
great job; some States have done average; some States have, you 
know, not done a great job. I think certainly they need to know 
what the rules are going to be, and several people have already 
mentioned that.
    I think there are three major provisions that have caused 
us to have difficulty. One is the work provision, and although 
I support the Administration's work provision, I think it is a 
fine provision, if I were Governor of a State or welfare 
director of a State, I would agree to implement those. We need 
to have a deal so Republicans and Democrats both have to show 
flexibility. We are all aware that this is not necessarily a 
great time for bipartisan efforts because the two parties have 
been fairly hostile toward each other in recent years. Both 
sides need to show some flexibility, and I would show 
flexibility on the work requirement. There is nothing wrong 
with the work requirement in the 1996 law, the principle on 
which half the people on the caseload should be working. That 
is a fine principle. That is good enough. Thirty hours is good 
enough.
    The problem is the caseload reduction credit. I do not have 
time to go into it here. It was a mistake when we put it in the 
law because nobody had any idea what was going to happen to the 
rolls. CBO did not know it. Nobody predicted what would happen. 
That has basically gutted the work requirement, so fix the 
caseload reduction credit so that States have to have 50 
percent of the caseload, and then have lots of hearings and get 
them in here and find out all the tricks they are doing so we 
can get rid of some of those, embarrass them into doing it 
right. If they have half the people truly in work experience 
positions or in actual jobs, the caseloads will start going 
down again, I am quite sure, that is the first thing.
    The second thing, super waivers, a great idea. The States, 
who are supposed to be hungering for it, it is hard to find 
evidence that they really want it. I have put this question to 
many States about tell me exactly what you would do with this 
super waiver provision, and they have a hard time putting into 
words exactly what they would do that they could not already do 
under current law. Let's cut it way back and allow two or three 
or four States to have a super waiver, set up some conditions 
under which they can do it, give the Secretary the authority to 
waive whatever provisions the Congress decides to put in the 
bill. The ones in your bill are fine, and let's see if it 
actually makes any difference and the States truly can align 
their work and work support programs so that they can do a more 
efficient and effective job, so let's try that.
    Then the third thing is the money for child care. The first 
two parts are tough for Republicans. Child care is tough for 
Democrats. I doubt that any Democrat seriously believes that 
they are going to get $7 billion for child care over the next 5 
years, as in the Senate bill. A billion dollars in your bill, I 
think, at this moment, when the Congress is going to cut all 
kinds of programs, it appears, and if we are serious about it, 
we have to cut spending. There just is not going to be $7 
billion. If Democrats are insisting on $7 billion, there is not 
going to be a bill. I think it is as simple as that.
    Negotiated out, but a billion to me seems reasonable in 
your bill. Maybe Democrats can get it up a little bit, but it 
is certainly not going to be anywhere close to $7 billion. If 
both sides would show flexibility, we could do it. Now, why 
should we do this? Several reasons have already been given. 
States need to know what the rules are. They need stability. 
State innovation will be promoted, if States know what the 
rules are, and have the money, and they have the money, and 
they know they have got 5 years.
    A third thing the Democrats hope they will pay attention to 
is that money is dangling out there. It has been there for 3 
years. I bet some of you might have had a thought that if we 
had done this 3 years ago or last year that it would be less 
vulnerable now than it is, especially if we have reconciliation 
this year. TANF is likely to get a hit. Let us get that tucked 
away and pass it before we get to reconciliation in the fall. 
The next thing is the child support provisions, as Wade Horn 
pointed out, are excellence.
    Then the final thing is I totally agree with Robert 
Rector--and I really hope Members will delve into this issue--
marriage is really crucial. It is every bit as important as 
work. It is the only way that we are going to have a really big 
impact on poverty in this country now. We cannot do it with 
welfare. It has to be done through individual initiative. 
Halfway there we were, and now we need to go the rest of the 
way with marriage, and the Administration proposal is exactly 
the right one. We need hundreds of programs around the country, 
careful evaluations, and in 10 years I bet you we will figure 
out ways to get these young couples that Robert was talking 
about, that they want to be married, and they will get married. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Haskins follows:]

Statement of Ron Haskins, Ph.D., Senior Fellow, Brookings Institution, 
  Washington, D.C., and Senior Consultant, Annie E. Casey Foundation, 
                          Baltimore, Maryland

    In 1996, thanks in large part to members of this committee, 
Congress passed and President Clinton signed into law a sweeping, 
bipartisan welfare reform bill. Since that time, the welfare rolls have 
fallen by half, the employment of mothers heading families--especially 
never-married mothers--has reached an all-time high, and child poverty 
has declined substantially for the first time since the early 1970s. In 
fact, in 2000 poverty among black children reached the lowest level 
ever. Even after the recession, employment by single mothers is still 
near its historic high reached in 2000 and child poverty--including 
poverty among minority children--is still much lower than in 1996 when 
welfare reform passed. Moreover, the reforms of welfare for 
noncitizens, of child support enforcement, and of Supplemental Security 
Income for children have had their intended effects, savings taxpayers 
billions of dollars and increasing the integrity of these programs--and 
in the case of child support enforcement, helping custodial mothers 
achieve self-sufficiency. No policy has only positive effects, but on 
the whole the 1996 welfare reform law stands as one of the most 
successful pieces of social legislation ever enacted.\1\
---------------------------------------------------------------------------
    \1\ Ron Haskins, ``Welfare Reform: The Biggest Accomplishment of 
the Revolution'' in Republican Revolution Ten Years Later, edited by 
Chris Edwards (Washington: Cato, forthcoming).
---------------------------------------------------------------------------
    As is customary for reform legislation, the authors of the 1996 law 
sunset funding for several of its new programs--including Temporary 
Assistance for Needy Families (TANF) and the entitlement portion of the 
Child Care and Development Block Grant (CCDBG)--at the end of fiscal 
year 2002. Beginning late in 2001 and continuing into 2002, the Bush 
Administration worked closely with Republican members of this committee 
and with representatives of the Republican leadership in both Houses to 
fashion a reauthorization bill. That bill, the Personal Responsibility, 
Work, and Family Promotion Act, was introduced on April 9, 2002 and 
passed by the House in timely fashion on May 16. As amazing at it might 
seem, there has been virtually no further progress on reauthorization 
since that original bill passed the House in the spring of 2002. During 
the rest of the 107th Congress, which ended in 2002, the Senate was 
unable to bring a bill out of committee and the legislation died. At 
the beginning of the 108th Congress, the House again introduced and 
enacted a reauthorization bill, but again the Senate was unable to pass 
a bill. The Finance Committee did manage to get a bill out of 
committee, only to have it die on the floor before it could receive an 
up or down vote.
    Over the course of the three-year debate, many issues have 
separated the parties. These include the strength of the work 
requirement, expanded waiver authority for states to allow more 
coordination between a wide range of programs that support work 
(sometimes called the ``superwaiver'' proposal), the amount of new 
money for child care, and the provision on promoting marriage. The work 
issue has perhaps been the most controversial. Republicans are 
proposing to tighten the definition of work by restricting credit for 
education, increasing the weekly hours of required work to 40, and 
replacing the caseload reduction credit with a rolling credit that 
ensures strong work requirements no matter how much states reduce their 
caseload.
    Even though these specific work requirements turned out to be 
controversial, it is worth noting that a prominent Democratic 
organization, the Democratic Leadership Council, with support from many 
Democratic Senators including Hillary Clinton, Tom Carper, and Evan 
Bayh, supported a bill with work requirements that were nearly as 
strong as those in the House bill. In any case, it is a routine matter 
for Democrats to initiate legislation to the left, and Republicans to 
initiate legislation to the right, of positions they could support in a 
final bill. Indeed, it is conventional wisdom in Washington that 
introducing a bill at the outset of a legislative debate that 
represents your best and final offer would be bad strategy. The real 
issue is what position a party is willing to adopt at the conclusion of 
final negotiations. In the legislative context, that means the final 
position to which members of each party would agree in a House-Senate 
conference. Since the Senate has never passed a bill, no one can claim 
that Republicans have not been willing to deal. The context for dealing 
has yet to occur.
    It is to be expected that each party would blame the other for 
whatever goes wrong in Washington, but a time comes to pay less 
attention to assigning blame and more attention to finding solutions. 
That time is at hand. I fervently hope that members of this committee 
and all members of the House, the Senate, and Bush administration will 
be willing to stop blaming the other side and agree to compromise 
provisions that will permit a five-year reauthorization of this 
important program.
    It seems clear, and has for three years, that three major issues 
prevent agreement between the parties. These issues are the work 
requirement, the superwaiver, and the amount of new money for child 
care. Although the Republican initiative on marriage has gotten lots of 
press attention, it seems that much of the controversy has died down 
during the course of the debate and opposition seems to have waned. 
Even the Washington Post had kind things to say about the 
administration's marriage proposal.\2\
---------------------------------------------------------------------------
    \2\ ``The Left's Marriage Problem,'' Washington Post, April 5, 
2002, p. A22.
---------------------------------------------------------------------------
    On the work requirement, I believe the solution has been obvious 
for some time. The work requirement in current law has only one flaw, 
the caseload reduction credit. When welfare reform was enacted in 1996, 
governors wanted credit for helping families leave the rolls. Their 
proposal was to count every family that left the rolls as meeting the 
work requirement. Clay Shaw and other Republicans on this committee, 
perhaps with support from some Democrats, always held firmly to the 
position that counting all welfare leavers as meeting the work 
requirement was an unambiguously bad idea. It is the nature of welfare 
caseloads to have lots of turnover. Mothers leave and rejoin welfare 
for a host of reasons, and they were doing so long before states had 
any serious work requirements. To give states credit for this natural 
rate of turnover in the welfare caseload was to completely gut the work 
requirement. After all, a given state could have a 50 percent turnover 
in its caseload in a given year and yet experience an actual increase 
in its caseload if more people came onto the roles than left.
    But Chairman Shaw and most members of the committee agreed with the 
governors that states should get some credit against the work 
requirement for helping families leave the caseload. To avoid the 
problem of counting the natural churning in the caseload, credit was 
given for net reductions in the caseload. Consider a simplified 
example. If a state had 100 families on welfare and 50 families left 
the rolls while only 25 joined the rolls, the state's net caseload 
reduction would be 50 minus 25 divided by 100 or 25 percent. Under the 
subcommittee provision, the state would get to subtract its caseload 
reduction from the work requirement for that year. If the work 
requirement were 50 percent, the revised work requirement would be 50 
percent minus 25 percent or 25 percent. The underlying concept in this 
approach is that states should get credit for welfare exits only to the 
extent that they exceed welfare entries. After all, perhaps the major 
purpose of welfare reform is to help people leave (or avoid) welfare 
and to support themselves primarily through their own efforts.
    But after enactment of the 1996 law, a severe problem arose with 
the caseload reduction credit. Caseloads all over the nation plummeted 
as never before. Whereas the rolls of the Aid to Families with 
Dependent Children (AFDC) program had not declined for more than two 
consecutive years since 1960 and then only by a few percentage points, 
after 1994 the caseload fell every year and the national caseload 
declined by about 60 percent. Because of the caseload reduction credit, 
the typical state had no work requirement (50 percent work requirement 
minus 50 percent net caseload decline equals zero work requirement). 
Clearly, if anyone had known what a dramatic impact welfare reform and 
the good economy of the 1990s would have on caseloads, the caseload 
reduction credit would have been written differently in the 1996 law. 
Given these facts, I believe simply fixing the caseload reduction 
credit and leaving the other features of the 1996 work requirement in 
place would be sufficient. This provision should not, of course, be in 
the initial Republican bill, but I believe it would adequate as the 
final compromise provision. Here's the bottom line: as long as states 
are required to have half their caseload in a work program in which 
most of those counting toward the requirement are actually in a job and 
in which participants must work at least 30 hours per week, the work 
requirement will be more than adequate. I am not aware of any evidence 
that going beyond these characteristics of a work requirement would 
produce any benefits for welfare families or states. But going beyond 
these requirements would certainly cost states more money.
    The solution on the superwaiver provision is to drop the universal 
waiver provision and enact authority for just three to five states to 
experiment with the new flexibility provided in the House bill. As a 
concept, the superwaiver is excellent policy.\3\ But I have noticed 
that since House Republicans have been fighting to create this broad 
new waiver policy, few if any states have lobbied aggressively to 
support the policy. In addition, when I have asked state officials to 
provide examples of how they would use the waiver authority, they have 
had difficulty articulating how they would like to coordinate their 
welfare, work, training, education, food, and housing programs in ways 
that they now cannot. Perhaps some states may be able to come up with 
constructive proposals, but there is no evidence that states are 
planning to take advantage of the superwaiver provision. It's simply 
not worth fighting to give something to states that they say they want 
in the abstract, but cannot provide clear examples of how they would 
use if given the new authority. On the chance that several states will 
actually think of good ways to coordinate their programs, I think it 
good policy to allow a few states to have the expanded flexibility 
provided by the superwaiver. Such states may be able to figure out ways 
to use the superwaiver to promote efficiency by better aligning their 
work support programs. If that were to happen, Congress could debate 
whether to expand the superwaiver to additional states.
---------------------------------------------------------------------------
    \3\ Pietro S. Nivola, Jennifer L. Noyes, and Isabel V. Sawhill. 
(2004). ``Waive of the Future? Federalism and the Next Phrase of 
Welfare Reform,'' WR&B Policy Brief, no.29 (Washington: Brookings).
---------------------------------------------------------------------------
    The third and in many ways most difficult issue is the amount of 
new money for child care. Arguably this is the single provision that 
has done the most to prevent Congress from passing a bill. Last year, 
the Senate wanted at least $7.0 billion over five years in new money, 
but House Republicans were willing to provide only $1 billion. The best 
argument in support of the Democratic call for big new money is that so 
many welfare mothers have now gone to work that there is a substantial 
increase in the demand for child care. Whatever Congress decides to do 
about the problem with the work requirement is likely to intensify the 
need for child care. Even if Congress fixed only the caseload reduction 
credit, states would still have stiff new work requirements that apply 
to those on the welfare caseload and they would continue to have a very 
large number of mothers who have left the rolls for work, many of whom 
will need child care to continue working. As the need for child care 
expands, the President's budget shows that the number of child care 
slots that could be paid for with funds from the CCDBG will decline in 
the years ahead.\4\Democrats also argue that the quality of some child 
care is low. With more money, states could raise child care standards 
and perhaps improve some of the facilities that provide low quality 
care.
---------------------------------------------------------------------------
    \4\ Office of Management and Budget, ``Budget of the United States 
Government: Fiscal Year 2006,'' (Government Printing Office, 2005).
---------------------------------------------------------------------------
    Republicans respond that states have more money for child care than 
ever, most of which is federal. They have money from the CCDBG, Title 
I, Head Start, the Child and Adult Care Food Program, and many other 
smaller programs, around $25 billion in total counting the states' own 
spending. Moreover, states can use more money from the TANF block grant 
for child care, either by transferring it into the CCDBG or by spending 
it directly out of TANF. Even if states need more money for child care, 
Republicans argue that they already have more than ever and that their 
TANF caseload is smaller than ever, leaving more money to use for child 
care.
    This year there will be a new, or at least more intense, 
consideration for this committee in negotiating how much new money 
could be made available for child care. I refer, of course, to the new 
seriousness with which the Bush administration and the Congress appear 
to be approaching the federal deficit. I strongly support action to 
reduce the deficit, even if it means making painful cuts in social 
programs or raising revenues.\5\ The president's goal of cutting the 
deficit in half within five years is the very least Congress should 
accomplish. Given the enormous pressure on spending this year, it will 
be difficult to increase funding for any domestic programs. Indeed, 
many members of Congress and the Bush administration, as well as 
outside observers, are predicting that Congress will use the 
reconciliation budget procedure this year to force reductions in 
spending. If so, this committee will be required to produce many 
billions of dollars in spending cuts or revenue raisers. It is 
difficult to see how major new funding for child care is compatible 
with reconciliation. For every dollar by which this committee increases 
spending on child care, you will be required to cut an additional 
dollar above your reconciliation amount somewhere else. The $1 billion 
over five years in new child care money offered by the House for the 
last three years seems generous under the spending pressure Congress 
faces this year. In short, if there is to be a bill this year, 
Democrats and the group of Senate Republicans who supported $7 billion 
for child care are going to have to substantially reduce their demands.
---------------------------------------------------------------------------
    \5\ Ron Haskins, Alice Rivlin, and Isabel Sawhill, ``Getting to 
Balance: Three Alternative Plans,'' in Restoring Fiscal Sanity: How to 
Balance the Budget, edited by Alice Rivlin and Isabel Sawhill 
(Washington: Brookings, 2004).
---------------------------------------------------------------------------
    In summary, if Republicans back off somewhat on the work 
requirement and the superwaiver, Democrats should be willing to reduce 
their demand for additional child care money. The details of a deal 
that the majority of both Republicans and Democrats could accept could 
flow from these three main ingredients of a bipartisan compromise.
    On the other hand, if Republicans and Democrats cannot reach 
agreement this year, Republicans can use the reconciliation budget 
procedure to pass a bill that few or even no Democrats support. The 
main threat against passing a welfare reauthorization bill that does 
not have several billion dollars in new child care spending is that 
Senators supporting additional child care spending could organize a 
filibuster against the bill. A Senate filibuster can be stopped only by 
a 60-vote majority. Thus, in effect, controversial legislation can be 
passed in the Senate only if it can attract 60 votes. But a 
reconciliation bill is not subject to filibuster. The negotiations over 
TANF reauthorization should be conducted with the understanding that if 
bipartisan agreement cannot be reached by, say, July, Republicans will 
include their own version of reauthorization in the reconciliation 
bill. The Byrd Rule in the Senate may cause modest problems with this 
approach by requiring some provisions in the bill to be dropped, but 
the main TANF block grant and most other major provisions would escape 
the Byrd Rule. It is worth recalling that the 1996 welfare reform law 
was passed as part of reconciliation and most of its provisions 
survived the Byrd Rule.
    The reasons for passing a reauthorization bill this year are 
legion. I'm sure that members from both sides of the aisle would agree 
that the orderly conduct of Congressional business is preferable to 
creating programs and then keeping those administering the programs at 
the state and local level in limbo for several years while Congress 
debates the future of the program. Further, state administrators, who 
on the whole have done a commendable job of implementing welfare reform 
(and many additional provisions in the 1996 welfare reform law, 
especially child support enforcement), have now waited for three years 
to learn whether TANF funding will be continued at its present level 
and whether the programs will be substantially changed. The main 
consideration here is that the people who have implemented reform and 
oversee it on a day-to-day basis deserve to know what Congress expects 
in the future. They should not be kept waiting any longer.
    I think there is another powerful reason for enacting a 
reauthorization bill this year. In addition to fixing the work 
requirement, the most important provision in the reauthorization bill 
may be the funds to promote marriage. Ironically, the importance of 
marriage to poor and low-income Americans was brilliantly established 
long ago by one of the most implacable foes of welfare reform, the late 
Senator Daniel Patrick Moynihan. In 1965, as an Assistant Secretary in 
the Department of Labor, Moynihan wrote a report arguing that a major 
reason black Americans were not making greater social and economic 
progress was that too many black children were being reared in female-
headed families.\6\ Moynihan was particularly concerned about the 
growing number of children born to never-married parents. Since the 
Moynihan report was published, all the problems that so alarmed him 
have gotten much worse. Further, social science research has provided 
abundant evidence that proves Moynihan was right--both adults and 
children do better in married-couple families. As compared with 
children from married-couple families, children reared in female-headed 
families perform poorly in school, are less likely to graduate, are 
more likely to have babies as teenagers, are more likely to have mental 
health problems, and are less likely to be self-supporting as 
adults.\7\
---------------------------------------------------------------------------
    \6\ Daniel P. Moynihan, The Negro Family: The Case for National 
Action (Washington: U.S. Department of Labor, 1965).
    \7\ SaraMcLanahan and Gary Sandefur, Growing Up With a Single 
Parent: What Hurts, What Helps (Cambridge: Harvard University Press, 
1996); Paul Amato, ``The Impact of Family Formation Change on the 
Cognitive, Social, and Emotional Well-Being of the Next Generation,'' 
Future of Children (2005, forthcoming).
---------------------------------------------------------------------------
    Members of this committee may recall that in 1983, a commission 
sponsored by the Department of Education held that ``if an unfriendly 
power had attempted to impose on America the mediocre educational 
performance that exists today, we might well have viewed it as an act 
of war.'' \8\ That colorful claim could be applied with equal force to 
the explosion of single-parent families in the nation. The implication 
of the social science research on the long-term effects of the 
deterioration of marriage is that the nation spends additional billions 
of dollars on the excess teen pregnancy, welfare use, and poor school 
performance associated with the single-parent child rearing.
---------------------------------------------------------------------------
    \8\ National Commission on Excellence in Education, A Nation at 
Risk (Government Printing Office, 1983).
---------------------------------------------------------------------------
    This problem is particularly acute among black Americans. The rate 
of nonmarital births among blacks is about 70 percent.\9\ At least half 
of the remaining black children experience divorce. Thus, around 85 
percent of black children, compared with somewhat more than 50 percent 
of white children, spend a considerable portion of their childhood in 
single-parent families. In addition to high non-marital birth rates, a 
major cause of this problem is the severe decline in marriage rates 
among blacks. In 1950, 62 percent of black women were married, a rate 
only slightly less than the rate for white women. But by 2002, the rate 
had plummeted to just 36 percent for black women, a fall of nearly 40 
percent, and their marriage rate was almost 35 percent lower than the 
rate for white women.
---------------------------------------------------------------------------
    \9\ Stephanie J. Ventura and others, ``Nonmarital Childbearing in 
the United States, 1940-99,'' National Vital Statistics Reports 48, No. 
16 (Washington: National Center for Health Statistics, 2000).
---------------------------------------------------------------------------
    Research on parents who have babies outside marriage suggests that 
many of these young couples would actually like to be married. Sara 
McLanahan and her colleagues at Princeton have shown that about half of 
these couples live together at the time of the marriage and an 
additional 30 percent say they are in a loving relationship. Thus, 
almost 80 percent of these couples are romantically involved at the 
time of birth. Further, interviews with the mothers and fathers show 
that most of them have high ideals about the importance of marriage and 
are thinking of marriage for themselves.\10\ Yet very few of the 
couples actually marry. Given these facts, it makes sense to try to 
design programs that could help young, unmarried parents fulfill their 
desire to marry. These programs should provide couples with marriage 
education that features training in relationship skills, reducing 
family violence, financial planning, and other skills that they can use 
to sustain their relationship. Additional services should also be 
offered to the couples, especially employment services for both the 
mothers and fathers. If these programs could actually succeed in 
promoting marriage rates among these couples, the mother and father, 
the children, and society would all benefit.
---------------------------------------------------------------------------
    \10\ Sara McLanahan, ``Racial and Ethnic Differences in Marriage 
among New, Unwed Parents,'' Fragile Families Research Brief 25 
(Princeton, 2004).
---------------------------------------------------------------------------
    The Department of Health and Human Services (HHS) has already begun 
conducting research on programs designed to work with these young 
couples and help them fulfill their dream of being married. HHS will in 
all probability soon be launching a major project of this type in 
Baltimore and several other sites around the country. But given its 
sparse resources, HHS cannot possibly mount the wide range and variety 
of pro-marriage programs that are needed to help the nation find 
effective ways to help these couples move toward their goal of 
marriage. For that, we need provisions like those in the House and 
Senate TANF reauthorization bills that would provide around $1.5 
billion over 5 years to mount scores of demonstration projects around 
the nation, most involving churches and other community organizations. 
The history of social interventions shows that most of them do not 
work. For this reason, we need to implement and study many different 
types of programs in order to find the most effective approaches to 
maximizing the number of children living in married-couple families. 
The Bush administration is following this approach, but on a far too 
limited scale. Only when TANF reauthorization passes will the nation 
have adequate resources to meet the challenge of developing effective 
programs.
    The nation has waited three years for Congress to reauthorize the 
1996 welfare reform law, one of the most important and successful 
social programs of recent decades. In the interest of promoting self-
sufficiency, we should let the states get on with the task of helping 
mothers leave or avoid welfare in favor of work. Equally important, 
Congress should expand the goals of welfare reform to launch the nation 
in the relatively new direction of helping young unmarried parents 
achieve martial stability for themselves and their children. This is an 
agenda that should not wait.

                                 <F-dash>

    Chairman HERGER. Thank you, Dr. Haskins, and for all your 
past work and service in this area in this area. Dr. Johnson to 
testify.

  STATEMENT OF JEFFERY M. JOHNSON, PH.D., PRESIDENT AND CHIEF 
     EXECUTIVE OFFICER, NATIONAL PARTNERSHIP FOR COMMUNITY 
            LEADERSHIP; ACCOMPANIED BY YOVANI RIVERA

    Dr. JOHNSON. Good afternoon. Thank you, Chairman Herger and 
all the Members of the Committee, for inviting me to testify 
here on welfare reform and fatherhood. I have brought a guest 
with me, sitting to my left. His name is Mr. Yovani Rivera, and 
he is going to share a little bit about his story as a result 
of being involved in the program with the Northern Virginia 
Urban League Resource Father Program. He is, also, joined today 
by his 4 month old daughter Jahaira, and his girlfriend, Silvia 
Navarrete, who is seated in the first row directly behind us. 
What I would like to spend most of my time talking about today 
is a demonstration project called, ``Partners for Fragile 
Families (PFF),'' that was completed recently that shows us 
promise of the provisions in the bill regarding fatherhood. 
This is a particularly important time for me because this also 
is the time when my father's 80th birthday would be celebrated. 
He died 41 years ago, and I still miss him terribly, as well as 
my other siblings.
    There is much information in my prepared testimony on PFF, 
it was a 10 year, 10 city experiment created through a 
partnership between local community-based organizations and 
child support enforcement. Since 2001, 4,500, and we refer to 
them as dead-broke dads, have taken advantage of employment 
training, parenting plans, job placement and GED testing 
services. PFF sites recruited more than 6,000 fathers to 
participate in these programs. That is a point that the 
Committee should footnote because these were previously 
underground father who historically have not shown up on any 
database related to the birth of the child. The PFF projects 
were able to locate these fathers and get them into the 
program. About 4,600 fathers went through the intake system; 
3,300 were determined eligible; and 1,523 fathers enrolled in 
the total demonstration program.
    Of those that were enrolled, at intake, 29 percent were 
employed, 78 percent had less than a 12th-grade education, 68-
percent were African American, 13 percent were Hispanic, 8 
percent were Caucasian, 2 percent were Native American, and 1 
percent were Asian. Another item that I want the Committee to 
footnote is that 42 percent of them had spent time in jail or 
prison or had been convicted of a misdemeanor or a felony or 
were on probation and parole.
    Some of the services the fathers received were 68 percent 
wanted job assistance, 28 percent wanted help in improving 
their relationship with the child's mother, 64 percent wanted 
assistance in educational upgrading, so that if you get good 
jobs, and 45 percent came in the door wanting to improve their 
parenting skills. Of those services that the fathers requested 
themselves, 15 percent received assistance in housing and 
another 29 percent received assistance for substance abuse.
    Some of the milestones of PFF that I want to highlight are 
that 40 percent of the fathers that enrolled in the program 
established paternity, 28 percent who came in without child 
support orders or established child support orders, 59 percent 
of the participants are paying child support, which is above 
the national average, and 71 percent of the participants went 
from paying zero in child support to now paying an average of 
$124 a month, 3 percent got married and 48 percent of the 
participants either got full or part-time jobs.
    We have learned a great deal over the last 6 years, and 
I've worked with low-income fathers and their fragile families. 
We have learned a lot about what works and what doesn't work 
with this population. We have formed, and are continuing to 
form, unprecedented, mutual, usually beneficial partnerships 
that will shape the future for children of fragile families and 
low-income communities. With a stable public funding stream 
that supports the work of practitioners in the field, we can 
continue to do this work and so much more. These are programs 
like those of the Northern Virginia Urban League, the D.C. 
Fatherhood Initiative, and the Northern Virginia Regional 
Fatherhood Coalition who operate on shoe-string budgets and the 
good hearts of volunteers to work with young fathers like 
Yovani Rivera, who will now briefly share his own story.
    Mr. RIVERA. How are you today? I have been with the program 
since last summer. I have been with Chris Beard, who is right 
behind us, and he is helping me out a lot. He took me to 
Northern Virginia Community College to get me signed up, so I 
can take some classes so I can have a career in architecture or 
electricity, and he takes me out for lunch sometimes. All we 
talk about is school, work. He took me trying to get a better 
job, and he has helped me out. I am more responsible. I am 
planning to marry my girlfriend, Silvia, because I love my 
daughter and my girlfriend right now. I want to go to college 
and get a career so I can provide my daughter with what I 
didn't have because I grew up without my father, and I just 
want to be there for my daughter, so she can have what I didn't 
have. Thank you.
    Dr. JOHNSON. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

 Statement of Jeffery M. Johnson, Ph.D., President and Chief Executive 
Officer, National Partnership for Community Leadership, accompanied by 
                           Mr. Yovani Rivera

    Good Afternoon. I want to thank Chairman Herger and members of the 
Human Resources Subcommittee of the House Ways and Means Committee for 
this opportunity to testify on your efforts to promote responsible 
fatherhood. I am Dr. Jeffery Johnson, President and CEO of the National 
Partnership for Community Leadership, NPCL. Some of you may remember 
that I previously testified before this committee when the organization 
was known as the NationalCenter for Strategic Nonprofit Planning and 
Community Leadership, also NPCL. We have found our new name to be more 
descriptive to a broader audience of the types of community based 
empowerment efforts and activity to which we are committed. NPCL was 
always envisioned as a national partner supporting the indigenous 
leadership of communities to resolve their self defined local issues. 
On behalf of the board and staff of NPCL and the more than 3,000 local 
responsible fatherhood and family strengthening program operators and 
practitioners we have educated and trained, I applaud the continuing 
efforts of this committee to say plainly and without equivocation that 
the well being of children is our most important concern and fathers 
are an integral part of it. Mothers usually provide the mortar that 
holds most families together, but no matter the configuration of the 
family, FATHERS COUNT! Also, Mr. Chairman, on February 13th, I will be 
celebrating the birthday of my own father, The Reverend James Edward 
Johnson, who died 41 years ago. He was a father who counted to me and 
my ten siblings and we still miss him desperately.
    Let's me state here, that my testimony in support of passage of the 
Temporary Assistance to Needy Families (TANF) legislation is being 
supported by a united coalition of national and local fatherhood 
organizations, which comprises an active and goal oriented work group. 
Our members include NPCL, the National Fatherhood Initiative, the 
National Center for Fathers and Families, the Institute for Responsible 
Fatherhood and Family Revitalization, the Center on Fathers, Families, 
and Workforce Development, The National Center on Fathering, and the 
National Practitioners Network for Fathers and Families.
    If the 109th Congress is successful at passing legislation that 
will reauthorize and provide programmatic stability for Temporary 
Assistance to Needy Families (TANF); maintain the proposed child 
support distribution changes that enjoy bi-partisan support, the result 
of over a decade of talks and negotiations; while providing the first 
meaningful public support to fatherhood programs; it will be a crucial 
step towards helping low-income fathers assume emotional, nurturing, 
legal and financial responsibility for their children. This legislation 
that seeks to strengthen the relationships between and among fathers 
and families covers a complex web of interrelated factors that can, on 
a practical level, make or break brittle and weak family ties 
frequently associated with a lack of monetary resources. My testimony 
today is based on over a quarter century of work in this area and 
specifically on NPCL's work of the past six years with two national 
demonstration projects designed by state and local leadership to 
address low-income fathers in their communities. These projects, the 
Partners for Fragile Families Site Demonstration Project (PFF) and the 
Fathers at Work Initiative (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9fff9ee">[email&#160;protected]</a>), while small when compared to the need 
for such services, operated in 16 cities and provide the broadest base 
of on point data concerning the financial and emotional reengagement of 
the fathers of children presently or previously receiving cash payments 
under the TANF program.
    In the brief time I have to share with the Committee, I want to 
share some specific information on the Fathers At Work Initiative and 
the Partners for Fragile Families Site Demonstration (PPF), and allow 
my special guest, Yovani Rivera, a young father enrolled in the 
Northern Virginia Urban League Resource Father Program, a program that 
seeks to help fathers recycle themselves and become positive role 
models and productive tax paying citizens. Yovani is accompanied today 
by the mother of his four-month-old daughter, Silvia Mavarriete, who is 
seated in the front row directly behind us. Yovani and Silvia plan to 
get married.
    The Fathers-at-Work initiative was a six-city joint project of NPCL 
and Public Private/Ventures funded by the Charles Stewart Mott 
Foundation. It targeted and served older fathers, 25 years old and 
older, with a focus on fathers who had experienced significant 
encounters with the criminal justice system. It also sought to take 
advantage of the relationships that NPCL had developed with state and 
local child support enforcement leaders in support of socially and 
economically challenged dads. This project just ended and data 
collection and analysis will be forthcoming over the next year. Over a 
period of three years, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a3c3a2d">[email&#160;protected]</a>, as we affectionately called it, served over 
700 of the most chronically challenged fathers in the six sites.
    The PFF Site Demonstration was a three-year, 10 city experiment, 
created through a partnership between local community-based 
organizations and child support enforcement agencies. The goal of the 
partnership was to create a support system that would address the 
myriad of personal, relational, and financial needs faced by young (16-
25 years of age) low-income, fathers in fragile families. To help the 
young father, the PFF project sought to get the father to establish 
legal paternity, improve his education level, increase job skills, and 
pay child support.
    Since 2001, more than 4,500 ``dead-broke dads'' have taken 
advantage of employment training, parenting plans, job placement and 
GED testing services, according to the most recent findings from the 
Partnership for Fragile Families Site Demonstration project (PFF). With 
the help of these partnerships, ``fragile fathers'' are pulling 
themselves out of poverty, creating stronger relationships with their 
children, becoming productive citizens and giving back to their 
communities. Initial data confirm that while these children are faced 
with difficult domestic realities, PFF-fostered partnerships can build 
system capacity and deliver the tools necessary to strengthen families, 
fathers, and their futures.
    This ten-city demonstration project was designed to promote 
increased cooperation and informed decision-making among organizations 
that work with fragile families. PFF recognized that neither government 
nor private agencies could do this work alone. Therefore, the four key 
goals of PFF were to:

    <bullet>  Help community-based organizations and government 
agencies productively leverage their information and resources as 
partners in order to better discern and respond to the needs of 
children in fragile families;
    <bullet>  Strengthen disadvantaged, particularly fragile families, 
in the interest of children;
    <bullet>  Help support both parents in their efforts to become 
providers for their children; and
    <bullet>  Promote family-friendly income security and other social 
policies that acknowledge and encourage the contributions of both 
parents, even those parents without physical custody.

    During the conduct of the Partners for Fragile Families Site 
Demonstration Project, the PFF sites recruited 6,525 fathers. Intake 
was accomplished on 4,650. Of those going through the intake process, 
approximately 3,350 were PFF eligible, met the age requirement of 
between 16-25 years old. Those that were not PFF eligible were referred 
to alternative programs, or, in the case of the more established 
programs, served with other resources. Of the 1,523 fathers enrolled in 
the total program:

    <bullet>  29% were employed at intake;
    <bullet>  Average hourly wages at intake was $7.43;
    <bullet>  44% were between the ages of 16 and 20 years old;
    <bullet>  56% were between 21 to 25 years old;
    <bullet>  78% had less than 12th grade education;
    <bullet>  68% were African American, 13% Hispanic, 8% Caucasian, 2% 
Native American, and 1% Asian; and
    <bullet>  42% had spent time in jail or prison, or had been 
convicted of misdemeanors or felony, or on probation or parole.

    Fathers that participated in the PFF project were the most 
economically and socially challenged of the low-income fathers 
distribution. Their average income was less than $4,000 annually, when 
gainfully employed. They are chronically unemployed, hard to employ, 
and present to community-based responsible fatherhood development 
programs with trauma and multiple needs.
Services Requested by PFF Fathers
    The vast majority of PFF participants came through the doors of the 
PFF programs in crisis. Most came looking for employment, but upon 
intake and assessment they were to found to have multiple and varying 
needs. Services requested by fathers were as follows:

    <bullet>  68% wanted job assistance;
    <bullet>  42% of those employed wanted help in a better job with 
more stability;
    <bullet>  22% wanted help in creating and sustaining a relationship 
with their children;
    <bullet>  28% wanted help in improving their relationship with 
their significant other;
    <bullet>  64% requested educational assistance to increase their 
skill levels and better prepare them for employment opportunities;
    <bullet>  45% wanted to improve their parenting skills;
    <bullet>  30% wanted help with child support issues;
    <bullet>  20% wanted anger management training; and
    <bullet>  25% wanted health services.
 Services Received by PFF Fathers
    Through a collaborative case management model that agencies 
developed for the PFF project, the programs were able to meet the 
service requests of fathers coming through their doors. While 
participants requested the above-mentioned services, they received 
additional assistance identified as part of the assessment process and 
subsequent conversations with participants. Additional services 
received by PFF participants include:

    <bullet>  15% received housing assistance;
    <bullet>  29% received substance abuse training;
    <bullet>  5% received legal assistance on other than child support 
issues (Parking fines, DWI, suspension of drivers' licenses . . . 
etc.);
    <bullet>  3% mental health treatment;
    <bullet>  5% dental treatment;
    <bullet>  60% peer support;
    <bullet>  3% family and community violence;
    <bullet>  3% financial literacy;
    <bullet>  22% child custody; and
    <bullet>  13% visitation.
PFF Milestones
    As of December 2003, the PFF sites have attained the formal end of 
the conduct of the PFF Demonstration, the following milestones:

    <bullet>  40% of participants established paternity;
    <bullet>  28% of participants without orders, established child 
support orders;
    <bullet>  59% of participants are paying child support, above the 
national average;
    <bullet>  71% of participants went from paying 0 $ to paying an 
average of $124 monthly;
    <bullet>  40% of participants initiated Parenting Plans;
    <bullet>  3% of participants married;
    <bullet>  7% of participants completed their GED; and
    <bullet>  48% (of the 71% unemployed at intake) placed in full or 
part time jobs.
Future Directions for Fatherhood Programs
    We have learned a great deal over the last six years in our work 
with low-income fathers and their fragile families. We have learned a 
lot about what works and what doesn't work with this population. We 
have formed, and are continuing to form unprecedented, mutually 
beneficial partnerships that will shape the future for children of 
fragile families in low income communities by improving the manner in 
which services are delivered to their entire family. With a stable 
public funding stream, that supports the work of practitioners in the 
field, we can continue to do this work and do so much more. These are 
programs like those of the Northern Virginia Urban League, the DC 
Fatherhood Initiative, and the Northern Virginia Regional Fatherhood 
Coalition, who operate on ``shoe string'' budgets and the good hearts 
of volunteers to work with young fathers like Yovani Rivera who will 
now briefly share his own story
The Partners for Fragile Families Site Demonstration
    Beginning September 2000 and ending December 2003, The Partners for 
Fragile Families Site Demonstration (PFF) was the first national 
initiative working at the federal, state and local levels to help poor, 
single fathers pull themselves out of poverty and build stronger links 
to their children and their children's mothers. This is where we took 
``family values'' from bumper-sticker platitude to meaningful program 
action. With child well-being always at its center, PFF held that 
children are best served by two loving parents who can support their 
children. This means that programs serving low-income families must 
work together to strengthen, train, build the skill levels and assist 
each individual, mother and father, towards the goals of financial 
self-sufficiency, cooperative parenting and being productive community 
members.
    In order to assist low-income families and their biological 
children, federal, state, local and private programs operating at all 
levels, must work in concert with one another, to share information, 
resources, and the objective of child well-being. To that end, Partners 
for Fragile Families formed unprecedented partnerships among grassroots 
community-based organizations and child support enforcement agencies to 
assist young, low-income, unmarried parents--particularly underserved 
dads--so they could assume financial, emotional and legal 
responsibility for their children. The three-year, ten-city 
demonstration project was designed to promote increased cooperation and 
informed decision-making among organizations that work with fragile 
families. PFF recognized that neither government nor private agencies 
could do this work alone. Therefore, the four key goals of PFF were to:
    Help community-based organizations and government agencies 
productively leverage their information and resources as partners in 
order to better discern and respond to the needs of children in fragile 
families;
    Strengthen disadvantaged, particularly fragile families, in the 
interest of children;
    Help support both parents in their efforts to become providers for 
their children; and
    Promote family-friendly income security and other social policies 
that acknowledge and encourage the contributions of both parents, even 
those parents without physical custody.
Who did PFF Target
    There are nearly four million fathers of children on welfare, or 
``fragile fathers'' without custody, who are under-educated, unemployed 
and make so little money that they themselves are eligible for food 
stamps. Young, poor dads are often willing but unable to assume 
financial responsibility for their children. In fact, 29 percent of 
fragile dads actually manage to pay some child support, a clear 
demonstration that they are trying to do the right thing. And one study 
showed that poor, single fathers said that they saw their children once 
a week, took them to the doctor, and reported bathing, feeding, 
dressing and playing with their children. These men are not ``deadbeat 
dads,'' they are ``dead-broke dads.'' Only 27 percent of poor single 
fathers had full-time, year-round jobs in 1990. The average annual 
income of young, poor single fathers was under $10,000 in 1990 and 60 
percent of these men earned less than the individual poverty level of 
$6,800. Forty-three percent of fragile dads did not finish high school 
and had no access to employment and training services.
    PFF targeted fathers who faced many of the same challenges as 
welfare mothers. The difference is that where mothers had access to a 
variety of public assistance programs including employment training, 
fathers have not. If fathers were to successfully share the 
responsibilities of parenthood and become both self- and family-
supporting, they needed help similar to that offered to moms. The goal 
of PFF was to produce a fatherhood system that would help strengthen 
the involvement of fathers in the lives of their children.
PFT Three Year Participant Finding
    During the conduct of the Partners for Fragile Families Site 
Demonstration Project, the PFF sites recruited 6,525 fathers. Intake 
was accomplished on 4,650. Of those going through the intake process, 
approximately 3,350 were PFF eligible, met the age requirement of 
between 16-25 years old. Those that were not PFF eligible were referred 
to alternative programs, or, in the case of the more established 
programs, served with other resources. Of the 1,523 fathers enrolled in 
the program:

    <bullet>  29% were employed at intake;
    <bullet>  Average hourly wages at intake was $7.43;
    <bullet>  44% were between the ages of 16 and 20 years old;
    <bullet>  56 % were between 21 to 25 years old;
    <bullet>  78% had less than 12th grade education;
    <bullet>  68% were African American, 13% Hispanic, 8% Caucasian, 2% 
Native American, and 1% Asian;
    <bullet>  42% had contact with law enforcement processes, spent 
time in jail or prison, convicted of misdemeanors or felony, or on 
probation or parole.

    Fathers that participated in the PFF project were the most 
economically and socially challenged of the low-income fathers 
distribution. Their average income was less than $4,000 annually, when 
gainfully employed. They are chronically unemployed, hard to employ, 
and present to community-based responsible fatherhood development 
programs with trauma and multiple needs.
Services Requested by PFF Fathers
    The vast majority of PFF participants came through the doors of the 
PFF programs in crisis. Most came looking for employment, but upon 
intake and assessment they were to found to have multiple and varying 
needs. Services requested by fathers were as follows:

    <bullet>  68% wanted job assistance;
    <bullet>  42% of those employed wanted help in a better job with 
more stability;
    <bullet>  22% wanted help in creating and sustaining a relationship 
with their children;
    <bullet>  28% wanted help in improving their relationship with 
their significant other;
    <bullet>  64% requested educational assistance to increase their 
skill levels and better prepare them for employment opportunities;
    <bullet>  45% wanted to improve their parenting skills;
    <bullet>  30% wanted help with child support issues;
    <bullet>  20% wanted anger management training; and
    <bullet>  25% wanted health services.
Services Received by PFF Fathers
    Through a collaborative case management model that agencies 
developed for the PFF project, the programs were able to meet all the 
service requests of fathers coming through their doors. While 
participants requested the above-mentioned services, they received 
additional assistance identified as part of the assessment process and 
subsequent conversations with participants. Additional services 
received by PFF participants include:

    <bullet>  15% received housing assistance;
    <bullet>  29% received substance abuse training;
    <bullet>  5% received legal assistance on other than child support 
issues (Parking fines, DWI, suspension of drivers' licenses . . . 
etc.);
    <bullet>  3% mental health treatment;
    <bullet>  5% dental treatment;
    <bullet>  60% peer support;
    <bullet>  3% family and community violence;
    <bullet>  3% financial literacy;
    <bullet>  22% child custody; and
    <bullet>  13% visitation.
PFF Milestones
    As of December 2003, the formal end of the conduct of the PFF 
Demonstration, the following milestones has been attained by the PFF 
sites:

    <bullet>  40% of participants established paternity;
    <bullet>  28% of participants established child support orders;
    <bullet>  59% of participants are paying child support, above the 
national average;
    <bullet>  71% of participants went from paying 0 $ to paying an 
average of $124 monthly;
    <bullet>  40% of participants initiated Parenting Plans;
    <bullet>  3% of participants married;
    <bullet>  7% of participants completed their GED; and
    <bullet>  48% (of the 71% unemployed at intake) placed in full or 
part time jobs.

                                 <F-dash>

    Mrs. JOHNSON. [Presiding.] Mr. Turner?

    STATEMENT OF JASON A. TURNER, DIRECTOR, CENTER FOR SELF-
               SUFFICIENCY, MILWAUKEE, WISCONSIN

    Mr. TURNER. Thank you. I am going to say three things here 
today. First, we need to get the bill done--I agree with the 
others--and there is evidence that States right now, since the 
election, are abandoning the old idea that they can not have to 
worry too much about TANF because it is going to happen. 
Second, there are a couple of improvements to the bill that I 
would recommend and, third, SSI is now becoming the default Aid 
to Families with Dependent Children (AFDC) program. It is 
growing rapidly, it is out of control, and some of the lessons 
that we learned about how to reform TANF can actually be used 
constructively in analyzing the problems of the Supplemental 
Security Income (SSI) program. In my testimony, I suggest that 
there is a lot of good things going on. I have been to 10 
States working with them, consulting for HHS recently and 
bringing some of the ideas we have used in the past to New York 
City and Wisconsin to many local offices.
    Governor Mitt Romney of Massachusetts recently increased 
and expanded its work requirement to bring it into line with 
stricter Federal standards. In Atlanta, the Fulton County 
office is actually measuring the participation rate by 
caseworker and coding them red, yellow or green depending on 
whether they meet the Federal requirements. That act alone, 
that administrative act alone, you can see on Page 3 the 
results has increased the participation rate in that county 
from about 9 percent to 41 percent over a period of 14 months. 
A lot is being done, but we need to be doing a couple of other 
things that I think are important in this bill:
    Number one, Full Check sanction is the only way to really 
engage people who have decided to not participate. It is not a 
tool that is used as a punishment. It is used as a tool to 
bring people in. In New York City, when we had sent out many, 
many letters to individuals to come in, at one point, 41 
percent of the people who were supposed to participate were not 
doing so. We need to get Full Check sanction. It is in the bill 
now, but the problem is that the bill allows the States to 
obviate the provision by using the separate State program 
provision, which I won't go into detail, but that problem needs 
to be fixed. It is fixed, in Senator Talent's bill, S. 5, from 
the 108th Congress, so I would encourage you to review that. 
Secondly, the food stamp program should be aligned more closely 
to the provisions of TANF, using the simplified food stamp 
program. That provision was put into the first bill, but its 
effectiveness has been obviated by a narrow reading of the U.S. 
Department of Agriculture not allowing States to line up their 
programs. That should be clarified.
    Third, the use of data from one program to another inside 
the Agency ought to be allowed. For instance, when I was 
commissioner, I was told that information that we collected on 
drug use by Medicaid recipients could not be used to inform 
ourselves as to what drug treatment program would best be used 
next for a TANF recipient because there was a firewall. 
Similarly, new hire information is already collected by the 
Agency, and so is Social Security wage information, but it is 
not allowed or States believe they can't use it after they talk 
to their lawyers, in furthering the program of TANF. That 
should be clarified as well.
    Finally, I would like to talk about SSI. You do have a 
provision in this bill on SSI, but I think there is a larger 
issue here, which is States have a financial interest in 
pushing as many people into SSI as they can. If SSI were just 
strictly used for the truly disabled who had no opportunity to 
work whatsoever, then that would be okay. The truth of the 
matter is the high-functioning SSI population and the low-
functioning TANF population are the same people, but they are 
treated differently. Under TANF, we take those individuals, and 
we try and help them do what they can do maximize their self-
reliance. With SSI, we assume that they can do nothing, and we 
set them aside. The ways we can use the lessons of TANF in the 
SSI Program are fivefold:
    One, we should assume that applicants and recipients on 
TANF oftentimes are more capable of doing things than we think 
they are just by looking at the data. Secondly, we should 
engage them at the front door; meaning, we should help SSI 
recipients who are both applying and recently on SSI to engage 
in vocational rehabilitation as a condition of receiving 
benefits for that portion of SSI recipients most likely to be 
able to reengage in the labor force, always looking at 
activities they can succeed in and tying full benefits to that 
requirement. Finally, the administrative law judges are 
overturning an excessive number of medical determinations 
without a medical reason. They are doing it on other bases. If 
they don't have a medical reason, they are doing it on the 
basis of--I don't know what their reasons are or their 
rationale--but 34 percent of applications are initially 
approved, 66 percent are approved after appeals. That is 
obviously too far of a gap, and there needs to be an 
improvement there. I would agree that the bill is a good bill 
that the Committee has recommended. I would look to SSI as the 
next danger point for long-term dependency among former TANF or 
current TANF participants. Thank you.
    [The prepared statement of Mr. Turner follows:]

 Statement of Jason A. Turner, Director, Center for Self-Sufficiency, 
                          Milwaukee, Wisconsin

    Thank you for the opportunity to present testimony on the important 
topic of TANF reauthorization.
    I will summarize the points I will make below:

         1.  States and local programs have responded to the prospect 
        of TANF reauthorization, particularly since the re-election of 
        the President, with a greater emphasis on organizing their 
        programs around meeting prospective higher work requirements. 
        Many are making significant improvements. It is important that 
        the Congress support this momentum.
         2.  The committee bill is solid and realistic. However, there 
        are a few areas which are important additions to the bill. 
        These include the following:
           <bullet>  The Full Check sanction provision is the single 
        most important element which allows administrators to draw 
        recipients into the program, reaching full engagement. However, 
        without certain loophole closings, the existing Full Check 
        provision of the bill can be circumvented.
           <bullet>  Food Stamp work and eligibility process 
        requirements should be aligned with TANF consistent with the 
        original intent of the Simplified Food Stamp Program, but which 
        has not been applied in practice. Clarification is required.
           <bullet>  The use of New Hire data for the purpose of 
        recording job placements in TANF should be made explicit. The 
        authority for this is currently unclear.
         3.  There are an increasing number of participants who are 
        probably able to work who are entering the SSI rolls from TANF, 
        and states have a financial interest in moving them into this 
        federally funded program. However, if left unchecked, the 
        growth of SSI could result in it becoming the default 
        dependency program for many who could maintain self-reliance, 
        the role AFDC played in the past.

    Over the past two years my colleagues at the American Institute for 
Full Employment and I have been working with many state and local 
social service agencies to improve the proportion of individuals 
engaged in constructive activities leading to work. As this committee 
knows, the current federal figures show a low proportion are actively 
participating, and this alone is the most important reason for TANF 
reauthorization.
    At the same time, I am happy to report that many of the state and 
local programs with which we work have accepted the idea that greater 
efforts will be required, and have taken concrete steps to put 
themselves in the position to meet the anticipated higher TANF 
requirements coming out of reauthorization. For example Governor Mitt 
Romney of Massachusetts in January announced increased and expanded 
work requirements to ``bring it in line with stricter federal 
standards''. The Governor said ``the welfare policies that 
Massachusetts instituted in 1995 were ahead of their time. But, the 
times have changed and we now lag behind the rest of the nation'' 
(press release, 1/24/05).
    Minnesota passed updated TANF legislation which took effect this 
past July, and requires all individuals to be fully engaged before they 
receive their permanent recipient status at the end of the fourth month 
after the initial period. Thus when fully implemented, Minnesota will 
be meeting the higher federal participation rates almost by definition.
    Atlanta (Fulton County) has adopted a management technique worthy 
of adoption elsewhere. Each TANF caseworker has the participation rate 
of his or her caseload measured monthly against the current federal 
standards. Those whose overall caseload has a participation rate 
significantly below the federal minimum of 50% are coded red, those 
closer are yellow, and those meeting the requirement are green. You can 
see from the chart on the next page, that caseworkers in Atlanta 
improved their performance substantially between November 03 and 
September 04 (less red, more yellow and green).

[GRAPHIC] [TIFF OMITTED] T6658A.001

    Congress should move forward and finish the TANF reauthorization. 
Yes, some state officials will complain about the higher standards 
contained in a new law, and as a former state official I understand 
this is ``part of the job''. But when it is over they will get down to 
work, and it is important that we maintain and increase the momentum 
which is underway already.
    I would like to take a moment to make three specific suggestions. 
The first has to do with the Full Check sanction provision. This 
committee wisely included the provision in the earlier bill, and it is 
worth fighting for now and in conference. During the period I was New 
York City Human Services Commissioner under Mayor Giuliani, we suffered 
under a weak sanction law. At its peak, fully 40% of those who had been 
assigned to an activity had chosen not to participate, but instead to 
take a small reduction in their welfare check. Only by tying a check to 
a requirement to participate can we bring in many to the office so that 
we can help them.
    However, many states use the ``separate state program'' accounting 
provision to obviate certain current federal requirements. This 
circumvention should not apply to the Full Check Sanction provision 
inasmuch as it is the single most essential provision to reaching the 
federal goal of full engagement, and making work programs meaningful 
(Senator Talent's bill, S-5 from the 108th Congress, includes such a 
provision).
    Second, the Food Stamp program should be aligned more closely to 
the provisions of TANF in accordance with the Simplified Food Stamp 
program. This provision of the first TANF bill, which held out such 
promise, has been thwarted where it was attempted to be implemented by 
states due to a narrow reading by federal administrators. The intent of 
the Simplified Program was to make consistent, at state option, work 
requirements and certain eligibility processing requirements (the 
financial eligibility standards, of course, remain distinct). The 
provisions of S-5 from the 108th Congress rectify this problem, and add 
other complimentary and needed improvements:

    <bullet>  Work participation requirements can be comparable;
    <bullet>  Sanction policy for non-participation in required work 
activities can be made comparable;
    <bullet>  Food Stamp double-dipping in homeless shelters and other 
residential facilities is reduced by allowing states to send the 
payments once directly to the institution;
    <bullet>  Eliminates the ABWOD waiver.

    Third, the use of data from one program area to another is often 
not permitted, even where the information resides within the same 
agency. For instance, lawyers advised me as commissioner that I could 
not use information on outcomes from drug treatment programs obtained 
from Medicaid when determining the best placement for a welfare 
recipient going into a subsequent substance abuse program. Nor are many 
states using the critical New Hire data to reduce TANF fraud and 
improve their job retention records. These management limitations 
should be rectified through clarification in the new bill.
    Finally, SSI meets TANF at the intersection of the mildly disabled. 
Yet the same techniques we use to engage and help the mildly disabled 
under TANF are ignored by the SSI program, and TANF administrators have 
a financial incentive to place as many as possible into this program. 
SSI is becoming a default long term dependency alternative to 
individuals who may have been able to be helped through TANF self-
sufficiency programs. I will not comment on the changes proposed in the 
President's new budget, which was just released as this testimony was 
being prepared. Rather, I will speak more generally about the problems 
inherent in the interaction between TANF and SSI as it currently 
exists. The balance of my remarks are based on joint work with my 
colleague David Doddenhoff.
SSI and TANF
    The higher-functioning SSI population of applicants and recipients 
intersects with the mildly disabled TANF population. Much of what we 
have learned about how to help the mildly disabled go to work applies 
to SSI as well. However, there are pressures which are resulting in the 
expansion of SSI beyond what was intended, and if left unchecked could 
have damaging dependency effects comparable--or worse--to the old AFDC 
program.
Program growth
    In recent years the number of individuals served under the SSI 
program and the costs associated with the program have increased 
dramatically. Figure 3 depicts the total number of individuals 
receiving SSI benefits for the time period 1981-2001, and the subset of 
those individuals in the disabled category.

[GRAPHIC] [TIFF OMITTED] T6658A.002

    Data source: Social Security Administration, Social Security 
Bulletin: Annual Statistical Supplement, 2002; Table 7.A9
    Figure 3 illustrates the significant growth in the Supplemental 
Security Income program in the years between 1981 and 2001. During that 
time, the total caseload grew by 66 percent, from a base of just over 
four million recipients in 1981 to 6.7 million in 2001. The entirety of 
the growth in the SSI program over this period is attributable to an 
increase in the number of individuals qualifying under the disabled 
category. Their numbers grew from 2.3 million in 1981 to 5.3 million by 
2001, a growth factor of 230 percent, about 10 times the growth rate in 
the population in general. Only a decline in the number of aged and 
disabled individuals on the program kept the total caseload from 
ballooning even more than it did.
    This increase was not produced merely by growth in the size of the 
U.S. disability population. During the period 1983 through 1995 (but 
only this period), we have available four different measures of 
disability based on nationally representative surveys in which the 
disability questions were asked virtually every year, and were asked 
using the same wording and overall survey methodology in each year.\1\ 
Thus, year-to-year changes in the number of individuals with 
disabilities identified in these surveys should represent real changes 
in the size of the disabled population, along with a small amount of 
sampling error.
---------------------------------------------------------------------------
    \1\ There are two measures available from the National Health 
Interview Survey and two from the Current Population Survey.
---------------------------------------------------------------------------
    The trend data based on these four surveys are presented in Figure 
5. For each survey source, the data are divided between responses given 
by men and those given by women. Following Figure 5 is a listing of the 
exact question wording used to determine the results associated with 
each data series depicted in the chart.

[GRAPHIC] [TIFF OMITTED] T6658A.003

    Data source: Richard V. Burkhauser, Andrew J. Houtenville, and 
David C. Wittenburg, ``A User Guide to Current Statistics on the 
Employment of People with Disabilities,'' paper prepared for the 
Conference on ``The Persistence of Low Employment Rates of People With 
Disabilities--Causes and Policy Implications,'' October 18-19, 2001, 
Washington, D.C., Appendix Tables 1A and 1B.
     Respondents are asked if they have any of the following 
impairments: ``blindness in both eyes; other visual impairments; 
deafness in both ears; other hearing impairments; stammering and 
stuttering; other speech impairments; mental retardation; absence of 
both arms/hands one arm/hand, fingers, one or both legs, feet/toes, 
kidney, breast, muscle of extremity, tips of fingers, and/or toes; 
complete paralysis of entire body, one side of body, both legs, other 
extremity; cerebral palsy; partial paralysis one side of body, legs, 
other extremity; other complete or partial paralysis; curvature or 
other deformity of back or spine; orthopedic impairment of the back; 
spina bifida; deformity/orthopedic impairment of hand, fingers, 
shoulder(s), other upper extremity; flatfeet; clubfoot; other 
deformity/orthopedic impairment; and cleft palate.''
    National Health Interview Survey, Work Limitation. Respondents are 
asked: ``Does any impairment or health problem NOW keep [person] from 
working at a job or business? Is [person] limited in the kind OR amount 
of work [person] can do because of any impairment?''
    Current Population Survey, Work Limitation. Respondents are asked: 
``Does anyone in this household have a health problem or disability 
which prevents them from working or which limits the kind or amount of 
work they can do? [If so,] who is that? (Anyone else?)''
    Current Population Survey, Two-Period Work Limitation. Any person 
who reports that they have a work limitation in two consecutive CPS 
interviews one year apart.
    If we average the male and female disability rates in each of the 
four data series in Figure 5, we can calculate the percentage increase 
in the disabled population in the U.S. between 1983 and 1996, according 
to each series.\2\ The results are as follows:
---------------------------------------------------------------------------
    \2\ Averaging the figures for males and females gives a less 
accurate estimate than weighting by the survey proportions of males and 
females. Those proportions are not readily available, however.
---------------------------------------------------------------------------
    National Health Interview Survey, Impairment: 7.4 percent increase 
in the disabled population
    National Health Interview Survey, Work Limitation : 8.4 percent 
increase
    Current Population Survey, Work Limitation : 19.2 percent increase
    Current Population Survey, Two-Period Work Limitation : 28.3 
percent increase
    Thus, depending on which survey data one looks at, the increase in 
the actual population of disabled individuals in the United States 
between 1983 and 1995 ranged from 7.4 percent to 28.3 percent. During 
the 1983 to 1995 period, however, the SSI disabled rolls grew by just 
over 105 percent. In other words, the growth in disabled SSI recipients 
was larger than the growth in the actual disabled population by a 
factor of anywhere from four to fourteen. Furthermore, while the SSI 
rolls grew year after year during the 1983 to 1995 period, there are 
multi-year periods in the survey data in which actual disability 
populations are declining. Clearly, we cannot explain the growth in SSI 
program enrollment in any large part on the basis of growth in the 
disability rate.
What proportion of the SSI population capable of work, now or in the 
        future?
    Very few SSI recipients are engaged in paid employment while 
receiving benefits. In December of 2001, for example, only about seven 
percent of working-age, disabled SSI recipients were participating in 
any sort of paid work.\3\ This should not be surprising. Though SSI 
does provide opportunities and incentives for individuals to return to 
work, the General Accounting Office has commented that:
---------------------------------------------------------------------------
    \3\ Author calculations based on Social Security Administration, 
SSI Annual Statistical Report, Tables 22 and 28.
---------------------------------------------------------------------------
    Work incentive provisions that are complex, difficult to 
understand, and poorly implemented--impede return-to-work efforts. 
Because SSA does not promote them extensively, few beneficiaries are 
aware that work incentives exist.\4\
---------------------------------------------------------------------------
    \4\ General Accounting Office, Disability Programs Lag, p.14.
---------------------------------------------------------------------------
    What's more, there are no requirements that participants engage in 
work activities, no rehabilitation plans available through SSI to help 
them do so, and little expectation that they will.
    One result of this is that very few individuals leave SSI for work. 
While we do not have estimates of this directly from the SSI program, 
we do have them for its sister program, Social Security Disability 
Insurance. In that program, no more than 1 in 500 individuals who come 
on to the rolls ever leave for work.\5\ Because employment rates at the 
onset of disability are two and one-half times higher for SSDI 
recipients than for SSI recipients, it seems likely that exit rates due 
to employment would also be much higher for SSDI than SSI.\6\ In other 
words, SSI recipients who leave the program for work are probably much, 
much less than one percent of individuals who ever come on the program 
rolls.
---------------------------------------------------------------------------
    \5\ Ibid., p.1.
    \6\ The figure for comparative rates of employment at the onset of 
disability is drawn from United States Congressional Budget Office, 
Time-limiting Federal Disability Benefits, February 1997, p.12.
---------------------------------------------------------------------------
    An appropriate question to ask at this point, then, is, how many 
current SSI recipients could conceivably return to work if the program 
were oriented toward rehabilitation and, ultimately, employment? We are 
unaware of any study that directly answers this question with respect 
to SSI recipients. There are, however, copious data on the capacity for 
work of the disabled population in general. For example:

    <bullet>  1997 data from the Survey of Income and Program 
Participation (SIPP) show that employment rates for individuals who can 
be classified as ``disabled'' based on their answers to SIPP questions 
are employed at rates of between 63.9 percent and 82 percent, depending 
on how one defines ``disability.'' Employment rates are between 24.2 
percent and 33.2 percent for the severely disabled, again, depending on 
how one defines ``severely disabled.'' \7\
---------------------------------------------------------------------------
    \7\ John M. McNeil, ``Employment, Earnings, and Disability,'' paper 
prepared for the 75th Annual Conference of the Western Economic 
Association International, June 29-July 3, 2000, Table 1 and p.9. 
Available on-line at: http://www.census.gov/hhes/www/disable/
emperndis.pdf and http://www.census.gov/hhes/www/disable/
emperndistbl.pdf. Figures are for the 21 to 64 age group. Employment is 
defined as having worked at a job or a business any time during the 
month preceding the interview month.
---------------------------------------------------------------------------
    <bullet>  A study of comparative data from the SIPP, the Current 
Population Survey (CPS), and the National Health Interview Survey 
(NHIS) shows 1996 employment rates for individuals with a ``work 
limitation,'' which is defined differently in the three surveys, 
ranging from around 20 percent for the most severely limited 
individuals to around 40 percent for the less severely limited.\8\
---------------------------------------------------------------------------
    \8\ Richard V. Burkhauser, Andrew J. Houtenville, and David C. 
Wittenburg, ``A User Guide to Current Statistics on the Employment of 
People with Disabilities,'' paper prepared for the Conference on ``The 
Persistence of Low Employment Rates of People With Disabilities--Causes 
and Policy Implications,'' October 18-19, 2001, Washington, DC, pp.8-11 
and Exhibit 4. Figures are for the 25 to 61 age group. Employment in 
the SIPP and CPS is defined as working more than 52 hours over the 
preceding year. Employment in the NIHS is defined as having had a job 
in the previous two weeks.
---------------------------------------------------------------------------
    <bullet>  A 2000 survey commissioned by the National Organization 
on Disability found that among adults who reported any disability, only 
43 percent said that their disability rendered them unable to work. 
Thirty-two percent of individuals with disabilities said they were 
employed at the time of the survey.\9\
---------------------------------------------------------------------------
    \9\ Results available on-line at: http://www.nod.org/
content.cfm?id=1076#empl. An individual is considered disabled for 
purposes of the survey if he/she: ``Has a disability or health problem 
that prevents him or her from participating fully in work, school, or 
other activities; or reports having a physical disability, a seeing, 
hearing or speech impairment, an emotional or mental disability, or a 
learning disability; or considers himself or herself to have a 
disability or says that other people would consider him or her to be a 
person with a disability.''
---------------------------------------------------------------------------
    <bullet>  A 1989 General Accounting Office study attempted to gauge 
potential work capabilities within the disabled population by looking 
at rates of employment among individuals who had applied for SSA 
disability programs but were denied. These were individuals who 
apparently believed themselves to be disabled, but who were not 
determined so by state Disability Determination Services. Thus, their 
work effort probably reflects the upper limit of what might be expected 
among SSI and SSDI clients. The GAO study found their rate of 
employment to be 42 percent.\10\
---------------------------------------------------------------------------
    \10\ Congressional Budget Office, Time-limiting, pp.15,6. The 
reader should note that the data on which this study was based are from 
1984.
---------------------------------------------------------------------------
    <bullet>  Perhaps most to the point point, a 2001 study produced 
for the Social Security Administration's Office of Research, 
Evaluation, and Statistics estimated that about 4.4 million people not 
receiving SSI or SSDI would meet the programs' definition of disabled. 
Of that group, about 1.4 million had average earnings above the 
programs' ``substantial gainful activity'' limit. Thus, about 32 
percent of individuals (1.4/4.4) potentially eligible for SSI or SSDI 
on the basis of disabling conditions are gainfully employed.\11\
---------------------------------------------------------------------------
    \11\ Debra Dwyer, Jianting Hu, Denton R. Vaughan, and Bernard 
Wixon, Counting the Disabled: Using Survey Self-Reports to Estimate 
Medical Eligibility for Social Security's Disability Programs, ORES 
Working Paper Series Number 90, United States Social Security 
Administration, Office of Policy, Office of Research, Evaluation, and 
Statistics, Division of Economic Research, January 2001, p.29. 
Available on-line at: http://www.ssa.gov/policy/docs/workingpapers/
wp90.pdf.
---------------------------------------------------------------------------
    <bullet>  Among individuals with mental disabilities, who 
constituted the bulk of the SSI disabled caseload, we find that in 
1997, 37 percent of such individuals were employed. Even among 
individuals whose mental disability ``seriously interfered'' with 
everyday activities, 29.8 percent were employed.\12\
---------------------------------------------------------------------------
    \12\ McNeil, ``Employment, Earnings, and Disability,'' Table 2.

    One should note that estimates such as these probably understate 
the capacity for work among the disabled. These data enumerate those 
disabled individuals who are working, but not those who are also 
looking for work but have not yet found it, nor those individuals who 
would like to work and are able to but for some reason are not looking. 
In the year 2000, for example, using the definition of ``work-limited'' 
in the Current Population Survey,\13\ 25.7 percent of work-limited men 
between the ages of 25 and 61 indicated that they were working, while 
another 8.7 percent reported themselves to be looking for work (that 
is, unemployed). Among women, the comparable figures were 25 percent 
and 11 percent.\14\ NHIS data and SIPP data from earlier years show 
similar results. Thus, the proportion of the disabled population 
capable of working is clearly larger than the proportion currently 
working as detailed above.
---------------------------------------------------------------------------
    \13\ ``Does anyone in this household have a health problem or 
disability which prevents them from working or which limits the kind or 
amount of work they can do?''
    \14\ Burkhauser, Houtenville, and Wittenburg, ``A User Guide,'' 
Appendix Table 4B.
---------------------------------------------------------------------------
Subjectivity in the disability determination process, and its 
        implications
    What we learn from the foregoing review is that information on an 
individual's disability status, or even that status combined with his/
her past or present work history, may not tell us much about their 
capacity for work. According to the U.S. General Accounting Office:
    . . . information about a claimant's medical condition and 
vocational background cannot conclusively demonstrate that he or she 
cannot work. Except in the case of very severe disabilities and 
relatively minor disabilities, the current state of knowledge and 
technology does not enable the quantification of disabilities or the 
definition of categories of disability which reliably correlate an 
impairment with a particular individual's capacity to work.\15\
---------------------------------------------------------------------------
    \15\ General Accounting Office, Social Security: Disability 
programs lag, p.13.
---------------------------------------------------------------------------
    Beyond this, there is also abundant information on the subjectivity 
and variability inherent in the disability determination process. It is 
not an exaggeration to say that whether or not an individual is deemed 
disabled for purposes of the SSI program depends not just on his or her 
actual mental or physical condition; nor just on the procedures for 
assessing that condition as specified in law, administrative rule, and 
policy; but also on the policy climate in which the decision is being 
made, the particular adjudicator reviewing the application, the stage 
of the SSI application process at which the file is being considered, 
and the geographic location where the application was filed.
    This inherent subjectivity has a number of important implications. 
For our purposes, however, the most important is that there are almost 
certainly many individuals on the SSI rolls whose disabling condition 
one might reasonably question. This is not to say that these 
individuals have engaged in fraud. Though some fraud is inevitable, 
what is undoubtedly more common is that individuals with borderline 
disabling conditions, or individuals who believe themselves to be 
disabled but are not, are admitted to the SSI program due simply to 
subjectivity across disability examiners and different levels of 
application review.
    The disability determination process occurs in a series of stages 
that can take place across a number of administrative levels. The first 
step in the process occurs in the state Disability Determination 
Service. Here, state DDS personnel develop and review the claimant's 
medical evidence and make an initial determination. If the applicant is 
found ineligible for benefits, he or she has 60 days to request a 
reconsideration. The reconsideration is also conducted by DDS 
personnel, and may include new evidence.
    The next level of appeal is a de novo review before an 
Administrative Law Judge (ALJ). This review typically involves legal 
representation on the part of the claimant, and again may include new 
evidence. The ALJ's over turn a large proportion of the initial 
rejected claims, and yet ALJ's do not usually bring new medical 
evidence into their decision, nor are they for the most part trained 
medical practitioners. The Social Security Administration routinely 
reviews the accuracy of ALJ decisions using a peer review process, and 
it has recorded a substantial error rate. Beyond the subjectivity of 
the initial review process, it would appear that the ALJ process adds 
additional relaxation to eligibility standards without improving the 
quality of the medical decisions themselves. In 2001, for example, 
initial applications were approved at a 34.3 percent rate by state DDS 
offices. When rejected applications were appealed to the SSI hearings 
process, however, they were approved at a 66.4 percent rate (often 
based on precisely the same evidence).\16\
---------------------------------------------------------------------------
    \16\ Social Security Administration, Annual Report of the 
Supplemental Security Income Program, p.78, Table V.C1.
---------------------------------------------------------------------------
    Obviously, some of the wide variation in SSI allowance rates is 
attributable to factors other than error and subjectivity in the 
disability determination process. Even so, one study found that 28 
percent of individuals receiving SSI and SSDI benefits were not 
disabled, at least as ``disability'' is defined by the Social Security 
Administration for program purposes. At the same time, the study found 
a substantial number of individuals who were disabled but had been 
rejected in the programs' application process.\17\
---------------------------------------------------------------------------
    \17\ Hugo Benitez-Silva, Moshe Buchinsky, and John Rust, ``How 
Large are the Classification Errors in the Social Security Disability 
Award Process?'', unpublished manuscript, February 2003, p.3. A 
comprehensive list of factors that may affect the consistency of 
disability decision-making appears in Social Security Advisory Board, 
Disability Decision Making: Data and Materials, January 2001, pp.5,6.
---------------------------------------------------------------------------
Some reform considerations
    Though one of the assumptions of the SSI program is that 
individuals receiving benefits cannot work, the data indicate a 
substantial capacity for work among the disabled population in general. 
We have also seen the subjectivity and error inherent in the SSI 
disability determination process. Both of these findings, alongside the 
data on exploding program enrollment and costs, suggest that the 
program is ripe for reform.
    These are not the only reasons for supporting reform, however. 
Advocates for the disabled are virtually unanimous in their belief that 
individuals with disabilities want to work, rather than wanting to be 
freed from the obligation of work. While this logic is reflected in the 
Americans with Disabilities Act of 1990, SSI continues to focus on dis 
ability, rather than ability. Furthermore, advocates, disability 
researchers, and knowledgeable policymakers argue that the capacity of 
the disabled for work depends not just on the specifics of their 
medical condition, but also on a variety of other factors:
    . . . while most medical impairments influence the extent to which 
an individual is capable of engaging in gainful activity, other 
factors--vocational, psychological, economic, environmental, and 
motivational--are often considered to be more important determinants of 
work capacity.\18\
---------------------------------------------------------------------------
    \18\ General Accounting Office, Social Security: Disability 
programs lag, p.12.
---------------------------------------------------------------------------
    Again, despite this fact, SSI treats work disability as an all-or-
nothing concept based entirely on an applicant's medical condition. The 
program currently makes no effort to examine or shape any of the other 
factors cited above--vocational, psychological, economic, 
environmental, and motivational. Accordingly, departures from the SSI 
program for employment are not common.
    In consequence of the above several program changes have been 
adopted over the years to encourage the return to work among 
recipients. These have included assorted work incentives--partial 
exclusions of earnings and work-related expenses from countable income 
for program purposes, and the retention of Medicaid benefits among SSI 
recipients who return to work (in limited circumstances). More recently 
the Ticket to Work Program has provided vouchers for SSI recipients to 
use in securing work through qualified providers, although the take-up 
rate has been very low.
    The primary problem with these and related measures, however, is 
that they are largely voluntary and discretionary. There is no 
requirement or expectation that SSI adjudicators will develop a return-
to-work plan for program participants, and so they do not. There is no 
requirement or expectation that program participants themselves will 
return to work, or even participate in the Ticket to Work program, and 
so in practice, very few do. There is no requirement or expectation 
that state rehabilitation agencies will accept referrals from the SSI 
program, and so in practice, few program recipients are referred to 
those agencies, and fewer are accepted. The net result of all of this 
is that the SSI program is almost exclusively oriented toward income 
support, with very little emphasis on employment.
Lessons from TANF
    The elementary rule of TANF is that wherever possible the 
eligibility office should help an applicant find alternatives to 
program dependency through employment. The same overall objective 
should inform the SSI system, using the state vocational offices or 
private agencies as the vehicles for helping individuals explore 
employment or rehabilitation alternatives.
    It is a generally recognized principle of disability research that 
the more time that passes after the onset of a disability, the greater 
the challenges in returning a disabled individual to work. Thus, 
efforts to help individuals return to work should be most aggressively 
pursued in the early stages after application or enrollment.
    For SSI recipients a required individual rehabilitation plan should 
be adopted, which includes specific milestones and timetables. Just as 
with the TANF program, requiring participation in self-improvement 
efforts as a condition of eligibility helps individuals learn to become 
as self-reliant as possible.
    Next, there should be a vocational rehabilitation assignment or 
limited work requirement keyed to individuals of all capabilities. 
Rather than screen individuals ``in'' or ``out'', all individuals with 
limited exceptions should be expected to do something to help 
themselves develop, within their existing capabilities. We learned from 
TANF that individuals who have been deemed disabled, will work harder 
at helping themselves recover if they are obligated to participate in 
some meaningful activity.
    Then, the monitoring of individual progress on the rehabilitation 
plan should be made continuous and intensive. Individuals who fail to 
participate without just cause should have a portion of their benefits 
subjected to withholding until they comply with their plan, just as in 
TANF.
Conclusion
    Because of the success of TANF, we know much more about how to set 
up a system which brings individuals along and up the ladder of self-
reliance. We find individuals wherever they are in life, and fashion a 
self-sufficiency plan which takes their capabilities into account. We 
provide small achievable steps, while holding the recipients 
accountable merely for participation rather than for the achievement of 
a specific uniform personal outcome.
    In short, the reform goal of SSI should be to maximize personal 
self-reliance while providing a minimum level of income assurance. It 
will require a re-thinking of both policy and program administration.

                                 <F-dash>

    Mrs. JOHNSON. I thank the panel. I am going to yield, 
first, to the Ranking Member, Mr. McDermott, to question.
    Mr. MCDERMOTT. Thank you, Madam Chairman. If a welfare 
recipient works 20 hours a week, and goes to community college 
and carries a full load 20 hours, they don't qualify for cash 
benefits. Now, does that make sense to anybody on this panel? 
That doesn't count toward the work requirement. They get the 
cash money, but it doesn't count toward the work requirement. 
What sense do those kinds of rules make?
    Dr. HASKINS. I think the answer is, at least from the 
perspective of taxpayers who pay for their own college, and pay 
for their children's college, and people who are on 
scholarships, and so forth, is that welfare is not a program 
for people to attend college. Welfare is a program for people 
who are truly destitute. It is true we should help them get off 
welfare, but we have shown, repeatedly, with good evaluations 
and now with the experience of the TANF reforms, that the way 
to do that is to get them a job. We have other programs that 
support----
    Mr. MCDERMOTT. If they are working 20 hours a week----
    Dr. HASKINS. Right.
    Mr. MCDERMOTT. This bill says they have to work 24 hours or 
they don't count.
    Dr. HASKINS. I have already indicated I would be willing to 
compromise on provisions like that, but if they work 20 hours a 
week, we are already going to give them a big subsidy through 
the earned income tax credit. I would estimate in most cases, 
it would be about $2,500 a year that they would get through the 
earned income tax credit that would give them government 
support, plus, they would be eligible for food stamps, their 
kids would be covered by Medicaid. They are getting a lot of 
government support. You have to draw the line somewhere.
    Mr. MCDERMOTT. Your testimony was interesting in that you 
said that there is no evidence that you know of, besides 
changing the current caseload reduction credit, which produces 
any benefit for welfare families. What is the point of showing 
that there is 40 hours a week that everybody is actively 
involved in.
    Dr. HASKINS. The argument that the Administration usually 
makes, I think the most important argument is that in order for 
moms to get their families out of welfare or for any single 
parent that is working a low-wage job, which, overwhelmingly, 
these mothers are, about $8 an hour, they have to work long 
hours. They have to work 40 hours. They do not move up the job 
ladder very quickly. The logic of the Administration is that 
they need to prepare to work full-time when they get off 
welfare because that is the way that they are going to get 
themselves and their children out of poverty. I think that is a 
good rationale. Many Americans work 40 hours a week. It is a 
reasonable requirement, but in order to get a bill, I would be 
willing to compromise on it.
    Mr. RECTOR. Yes, I have a little contribution on that, 
Congressman. We did a study once where we looked at poor 
families with children and about two-thirds of those families 
are employed, but, on average, the adults in the family work 
only about 16 hours a week. It is about 800 hours a year. What 
we did was simulate the census and said, ``Well, let us say we 
have one adult in there that works a full year, 40 hours a 
week.'' Seventy 5 percent of those families are immediately 
lifted out of poverty; so you have to get the hours of work. 
Now, I agree with Ron on some flexibility here, but we do have 
to get more hours of work per week. We also have to get more 
recipients that are on TANF doing more activities. We could be 
a little more----
    Mr. MCDERMOTT. Let us take your example just for a second 
here. Suppose a woman works as a maid in a motel, and she works 
half-time or works so many hours, she will get health care 
benefits, but if they can cut her back about 2 hours or 4 
hours, she doesn't get any health care benefits. She has got a 
job where she can't work full time at it. What you are 
suggesting is we should now push her to go out and get a second 
job in another motel; is that fair?
    Mr. RECTOR. I have heard those stories, and I think there 
is some validity there, and I would agree with you that that 
might be a problem and that we ought to try to look at that, if 
you would agree with me that basically one of the key things we 
have to do to reduce poverty is get them to work more hours. 
There are many maybe obstacles to that, but we have to push 
that up. At 16 hours a week, they are going to stay poor. We 
have got to find ways to push them up. I think one of the ways 
of doing it, even though it may not be perfect, is to require a 
little bit longer participation in the work experience programs 
that would help get the hours up, wouldn't necessarily work in 
every case, might not work in the case that you are providing, 
but I think we could both agree that we need to have more 
people participating, we shouldn't have over half the TANF 
caseload idle, and they need to be working somewhat more hours. 
We don't have to fight to the death over----
    Mr. MCDERMOTT. Let me stop you for a second because you 
have a laid out a suggestion here. You have got two State 
people here. You have got one from Wisconsin and one from 
Maryland. Why don't these States do what the Federal government 
tells them to do? Why do you let people not reach the level 
that they are supposed to?
    Mr. MCGUIRE. Maybe I can address something. There is a 
difference between, when we engage people, and in Maryland, we 
are requiring people to be universally engaged, a 40-hour 
simulated work week, there is a difference between what we 
report to the Federal government and what actually is going on. 
We have plenty of people doing plenty of things that don't 
count.
    Mr. MCDERMOTT. What? Wait a minute. Aren't you reporting 
what is going on? You are making it up?
    Mr. MCGUIRE. We have certain requirements that don't count 
for Federal work participation. That doesn't mean people are 
not doing something. I will give you an example. If I have a 
person who is out there on a work experience assignment, and 
they need to take a day off because something is with the kid, 
I can't claim that excused day off toward work. If I wind up at 
the end of the month to make the reporting, and it is not the 
required numbers, it doesn't count. It is a standard of which 
you don't get partial credit for it, you get no credit for it. 
My suggestion is that if I am going to have a simulated work 
week, I want to recreate what goes on in a work environment as 
closely as possible, including allowing people to take things 
off, get excused hours or even earn time off, so that they 
understand that when they go into a real work environment, this 
is not something that is going to be alien them.
    Now, my experience is that people are moving off for work; 
that when you engage people, they understand what it is. 
Sometimes they need a little work, they need a little work-out 
in an environment that is a safety net that we can catch them 
if they make mistakes because I don't want people going out and 
getting fired. My experience is that people are going to work. 
They are going to work in Maryland for way above the minimum 
wage at $8 an hour, they are staying employed, they are not 
coming back, and most importantly, their families are staying 
together. What I am trying to say is that----
    Mr. MCDERMOTT. Your caseloads are still going down.
    Mr. MCGUIRE. Yes, I have an idea of universal engagement, 
where I say everybody does something, I mean that truly with 
the TANF population. Now, I have people way above what my 
Federally reported work participation rate, they are doing 
plenty of things. The problem is, is that States are 
interpreting the rules sometimes a little bit differently or 
States are allowed to do things such as having high earned 
income disregard so you wind up having people that are working 
getting credit for work participation, but I am going that is 
not TANF. That sounds like the AFDC program. I do not want to 
have people go make cash employment and wind up still on public 
assistance. I want them to make that jump to that $8dollar an 
hour job because there is a fact, you cannot get an increase in 
salary unless you already have a job. The information and the 
studies that I have from the University of Maryland School of 
Social Work shows that increases over time, and it doesn't 
increase a little bit. It's been increasing fairly well in the 
public assistance----
    Mr. MCDERMOTT. How many of those $8 dollar an hour jobs 
have----
    Mr. MCGUIRE. That is the average salary.
    Mr. MCDERMOTT. Let us take the average. How many $8 dollar 
an hour jobs have health care benefits tied to them?
    Mr. MCGUIRE. Well, we give people transitional benefits for 
Medicaid for up to a year.
    Mr. MCDERMOTT. One year.
    Mr. MCGUIRE. The children can get----
    Mr. MCDERMOTT. At the end of the year, they are just 
supposed to kind of never get sick; is that it?
    Mr. MCGUIRE. Well, one of the interesting----
    Mr. MCDERMOTT. What kind of sense is that?
    Mr. MCGUIRE. We have folks in the work environment, I don't 
know, maybe it is different for Maryland as it is for other 
States, it is relatively competitive, and people are getting 
health insurance. I am not seeing people coming back. They are 
going to work, and they are staying out there.
    Mr. MCDERMOTT. Have you got any figures to say that the 
average worker, making $8 an hour, has health care benefits? Do 
you have any figures on that?
    Mr. MCGUIRE. I will have to find some for you.
    Mr. MCDERMOTT. I would love to see some figures like that 
because I don't believe it.
    Dr. HASKINS. Mr. McDermott, there are several studies, and 
I think they show that roughly about 25 percent of people, it 
varies from study to study, but a minority, a distinct 
minority, actually have some health coverage. As you know, from 
the Medicaid program, most of the children are covered because 
of the separate Medicaid coverage for children.
    Mr. MCDERMOTT. You mean the CHIP program or whatever.
    Dr. HASKINS. No, no. Well, CHIP, too, but Medicaid, there 
are mandatory coverages under Medicaid that we cut them 
completely apart from welfare, so most of the kids are covered.
    Mr. MCDERMOTT. Then, we are cutting them off in Washington 
State. Tennessee just cut off 300,000 kids. Yes, that was 
before, and now is now, and the fact is the States are in worse 
shape, and the coverage for those kids--I listen to you, and, 
frankly, I have a lot of trouble with that because it sounds 
like you have got to choose your parents as being pretty good 
people. If your parents are kind of, you know, you want to take 
away the money. That doesn't make sense to me.
    Mrs. JOHNSON. First of all, I thank the panel for their 
input. I want to clarify a little bit about this work 
requirement that at least was in the last bill we passed. The 
work portion of it was only 24 hours. That is three full work 
days. The work portion of it didn't take effect for what would 
effectively be a quarter of a community college; so you could, 
on TANF, go to school, get the first quarter of community 
college under your belt, with day care, and tuition paid and so 
on. Then, you go to work 3 days a week. You can still go 
Tuesday and Thursday, you know. You can arrange your classes so 
you go Tuesday and Thursday, and the State can qualify that as 
work. There is flexibility to both work and bring to yourself 
the educational component that will allow you to qualify and 
advance into full-time employment. Then, Medicaid, I think the 
point you were making, Dr. Haskins was that Medicaid covers 
these children. A State may cut down their CHIP expenditures, 
but I don't think they can cut off children from Medicaid; am I 
correct or incorrect?
    Dr. HASKINS. They have to cover all children under 135 
percent of poverty, I think. I could check the rules. They have 
to cover all children under 18 up to 100 percent of poverty, 
and then they have options up to something like 185 percent of 
poverty. There are lots of different coverages----
    Mrs. JOHNSON. Anyone working----
    Dr. HASKINS. Some of them are mandatory. They cannot cut 
the kids off.
    Mrs. JOHNSON. We will get some clarification on that point, 
but if you are working two 8 hour days, you are under 100 
percent of poverty. Those kids are covered. Then, to your 
point, Mr. Turner, I thought you were very interesting saying 
Social Security has become the default welfare program. My own 
personal view of that is that we have so depleted mental health 
services for both adults and children that they are the ones 
that are now finding any place to rest they can, and SSI is one 
place to rest, and because they are a burden on the welfare 
systems and the welfare systems are not prepared to deal with 
them, they sort of encourage that movement into SSI. That is 
very destructive because, as you say, SSI does not have any 
component that helps them regain their sense of self or 
understand their capabilities.
    One of the reasons I tend to want to be more prescriptive 
is that States have got to be more serious about this group of 
welfare recipients that we are dealing with now about mental 
health treatment. Even if they are not diagnosed with a major 
mental health problem, there are lots of people out there not 
qualifying for institutional care and being ignored--
depression, all of the kinds of things that burden you when you 
really were a failure in high school, never had anybody really 
love you. These are kids that weren't in foster care, but they 
have a lot of the problems that someone who has been in 
lifelong foster care have. I am not real happy about where we 
are with requiring States to recognize mental health as 
something that the program covers. You could go to counseling 2 
days a week and get an awful lot of help, the same with 
substance abuse and the support you need after treatment. It is 
not just a 2 month treatment program. It is a continuum of 
support until you gain independence.
    What I like about the 40-hour requirement is that for the 
first time people have to think, you know, what am I going to 
do with 40 hours of my life each week? I can go to school, I 
can get in counseling, I can do this, I can do that, and States 
can even qualify participation in after-school programs as 
qualified work, taking care of your own children. I would like 
to see people in TANF be part of the professional staff. 
Obviously, you have to have a child development expert or 
somebody who is in charge of the program, but after-school 
programs need more and more adults to mentor, to help, to carry 
through. Someone with minimal reading skills, still has more 
reading skills than that 5 year old and can listen to them do 
their work.
    I think we need to be far more imaginative, creative and 
really enjoy this opportunity, but we have to be dead serious 
about their resources. If we are going to go down to people 
with younger children, that is going to cost more because it is 
vastly more expensive. I think we have to be really serious 
about that component. If we want to deal with the problems in 
SSI, we have to make this TANF a much better program for people 
with mental disabilities or with substance abuse problems.
    I just want to close by thanking Mr. Rivera for being here. 
It is very, very helpful to have you be here, way beyond what 
you might feel was the value because you are just the kind of 
young guy who, if you turn yourself around young, and only you 
can do it--nobody is doing this for you. It is nice you have 
had people helping you, but they are not doing it, you are 
doing it--and if we can help you, and help you to help others, 
your life has changed, so it is very important.
    Dr. Johnson, we could not have had testimony when Ron and I 
were first working on the first fatherhood bill because we did 
not know anything. All we had were feelings and thoughts; so 
your work and your being able to report on what the fathers 
themselves asked is very helpful to us. Frankly, if we had the 
money, we ought to just open the whole program to the fathers 
and the women on welfare so everybody got into the job 
training, the 40-hour thinking, and move forward together. I 
appreciate your being here today, and we will take very 
seriously the SSI stuff.
    It was very refreshing, Mr. McGuire, to see your 
accomplishments, and how aggressive you have been in thinking 
about what people need. Mr. Rector, you are absolutely right, 
if you can help people, but that is why we have to take more 
seriously not just marriage, but helping people learn about 
what is the normal development of a child? What is the normal 
development of an adult? We just do nothing about that.
    I look forward to working with all of you because I hear, 
Mr. McGuire, you are saying we are rather too rigid. If we 
increase the work requirements, we ought to be thinking a 
little bit broader about what it means to work and days off are 
certainly part of the work pattern. If we could do that, then 
we could actually reinstate a work requirement, but one that 
was more that States could meet in a more realistic manner, but 
still one very profitable for the young people affected. Thank 
you all for being here. It has gone on rather long. We 
appreciate your input.
    Final panel. Dr. Hansell, chief of staff, the New York City 
Human Resources Administration, Department of Social Services; 
Lisalyn Jacobs, Vice President of government Relations for 
Legal Momentum; Kathleen Curran, policy advisor to the U.S. 
Conference of Catholic Bishops; Deborah Frank, pediatrician, 
Boston Medical Center, Boston; peter Goldberg, President and 
chief executive officer of the Alliance for Children and 
Families. Thank you for your patience as we have had to vote 
this afternoon and keep you all waiting, and thank you for your 
willingness to testify before the Committee. Mr. Hansell?

  STATEMENT OF DAVID HANSELL, CHIEF OF STAFF, NEW YORK CITY, 
HUMAN RESOURCES ADMINISTRATION, DEPARTMENT OF SOCIAL SERVICES, 
                       NEW YORK, NEW YORK

    Mr. HANSELL. Thank you. Good afternoon, and thank you very 
much for giving me the opportunity to testify today on behalf 
of Mayor Michael Bloomberg and Commissioner Vern Eggleston.
    Welfare reform is a great success in New York City. In 
March 1995, there were nearly 1.2 million New York City 
residents on welfare. Today, the number of people on welfare 
has dropped by 63.5 percent to the lowest level since 1965. We 
currently have 193,000 TANF clients, 35-percent fewer than 
December 2001. To continue this progress, we have intensified 
our efforts to help all of our welfare clients, including our 
TANF clients, become employed and leave public assistance.
    Over the last 3 years, our welfare clients have found more 
than 250,000 jobs and a higher proportion of them than ever 
before are keeping those jobs. Yet, as people have moved into 
employment and as the caseload has dramatically decreased, 
those remaining have become more challenging to serve. Slightly 
more than half of our TANF caseload today has barriers to 
employment engagement, and many of them require new and more 
targeted services to achieve and maintain self-sufficiency. 
Given these realities, New York City's vision for the next 
phase of welfare reform has three overarching goals:
    First, maintaining a strong work focus, supplemented by 
education and training and providing the services necessary to 
help those remaining on public assistance achieve the same 
progress toward self-sufficiency as those who have left; 
Second, helping those who have successfully left public 
assistance to retain their foothold in the workforce; Third, 
preventing the next generation from becoming dependent on 
public assistance.
    Let me discuss our specific recommendations in each of 
these three areas. We have just implemented an exciting new 
initiative called, ``Wellness Comprehensive Assessment 
Rehabilitation and Employment'' (WeCARE). WeCARE is an 
intensive program that provides employment-focused services for 
public assistance clients with medical and mental health 
problems. WeCARE's program elements include a comprehensive 
clinical assessment to identify issues that interfere with 
employability, a comprehensive service plan for each client, 
monitoring and tracking client compliance with prescribed 
activities and services, job placement services and retention 
support, and assistance in obtaining disability benefits for 
individuals who cannot work.
    WeCARE is designed to provide the up front services that 
clients need, with the goal of ultimately moving them off TANF 
more quickly. We believe that the kinds of rehabilitative 
activities that our WeCARE program will provide, when based 
upon a clinical assessment and provided in a supervised, 
structured, and monitored fashion, should be fully credited 
toward a client's core work activities of right length of time 
they are needed. This will be essential if we are to meet 
rising TANF work participation rates.
    Supporting employment retention and preventing welfare 
recidivism will require substantially increased funding for 
child care. New York City is supporting child care for 52,500 
children in families on or transitioning off public assistance, 
as well as 54,000 children mostly from other low-income working 
families. This is a vital service if we expect these parents to 
remain in the workforce. We, also, believe that transitional 
medical assistance is an important retention support and should 
be allowed for up to 24 months after leaving TANF. Health 
insurance that allows maintenance of good preventive care and 
protection against serious and financially catastrophic illness 
is a sound investment in continued employability.
    As we take steps to keep former welfare recipients in the 
workforce, we must also focus on the next generation--those who 
may end up in a cycle of welfare and poverty without adequate 
support. The key to keeping them from needing public assistance 
is, of course, education, including the practical education 
that youth gain through exposure to work experiences. It is, 
also, important to support strong family structures and to 
reinforce the provision of financial support for children by 
all responsible parents. We sponsor programs that promote the 
responsibility of noncustodial parents for the well-being of 
their children.
    We believe that noncustodial parents, with a child on TANF, 
should be eligible for TANF services, thereby enhancing the 
ability of both parents to work and support their children 
because child support can be such an important source of 
financial assistance to TANF families, we would urge that the 
Federal government waive its share of child support collections 
for TANF families up to the level of $400 per month, if a State 
chooses to pass that support through to the family.
    Support for family strengthening is, also, an important 
prevention intervention. If Congress chooses to designate 
funding in a reauthorized TANF bill to marriage and family 
formation, we believe that States and localities should have 
broad discretion to use that funding to support locally 
designed programs to strengthen all types of families, through 
initiatives that include parenting, education and support, 
family reunification and fatherhood involvement.
    The success of welfare reform should not be measured solely 
by the reduction in caseloads, but, also, by the ability of 
people to become and remain self-sufficient. We can accomplish 
these successes by providing States and localities the 
flexibility to apply resources to meet a range of client work 
readiness needs, to support employment retention for those 
people who have succeeded in leaving welfare, and to help young 
people avoid welfare dependence in the future. We, in New York 
City, offer our assistance to the Congress in developing a 
viable, successful framework for the next critical stage of 
welfare reform. Thank you.
    [The prepared statement of Mr. Hansell follows:]

    Statement of David Hansell, Chief of Staff, New York City Human 
Resources Administration, Department of Social Services, New York, New 
                                  York

    Chairman Herger and Members of the Subcommittee:
    Good afternoon. My name is David Hansell, and I am the Chief of 
Staff at the New York City Human Resources Administration/Department of 
Social Services (HRA), the agency that administers the Temporary 
Assistance for Needy Families (TANF) program in New York City. I thank 
Chairman Herger and the Subcommittee on Human Resources for giving me 
the opportunity to submit testimony on behalf of Mayor Michael 
Bloomberg and Commissioner Verna Eggleston, offering you our 
perspective and recommendations on welfare reform reauthorization.
    Welfare reform, of which TANF is the key component, is a great 
success in New York City. In March 1995, there were nearly 1.2 million 
New York City residents on welfare, of whom 864,000 were TANF 
recipients, with the remainder in a state and city-funded program. As 
of January 2005, the total on welfare had dropped to 424,200, a 
decrease of 63.5 percent, and the lowest level since 1965. Of these, 
193,000 were TANF recipients, a decrease of 77.6 percent since March 
1995.
    When Mayor Bloomberg announced the City's proposals for TANF 
reauthorization in May 2002, he said: ``We remain committed to the 
original goals of welfare reform. First, federal public assistance 
should be temporary. If it is not, neither society nor those less 
fortunate who are receiving benefits will progress. Second, there 
should be zero tolerance for fraud, so that the few who would cheat the 
system do not discredit the many who work honorably and hard--And 
third, since requiring people to work is the best way to help them move 
to self-sufficiency, everyone who can work, should work if they want to 
receive public assistance.''
    In keeping with the Mayor's commitment, we have intensified our 
efforts to help our TANF clients enter the world of work and leave the 
world of public assistance. Over the last three years, through an 
approach matching structured employment activities and strict 
accountability, more than 250,000 jobs were obtained by our welfare 
clients, and a higher proportion of them than ever before are keeping 
these jobs. In 2004, 77% of these welfare recipients were still 
employed after 6 months on the job.
    Yet as people have moved into employment and as the caseload has 
dramatically decreased, those remaining have become more challenging to 
serve. Slightly more than half of our TANF population today has 
substantial barriers to employment--55.7 percent in December 2004 were 
individuals determined through our assessment process to be fully or 
partially unable to engage in traditional employment activities. 
Today's TANF clients, especially those experiencing serious health, 
mental health, or disability issues, need a broader range of critical 
services plus adquate time to enable them to overcome the barriers that 
prevent them from achieving and maintaining self-sufficiency.
    Given these realities, New York City's vision for the next phase of 
welfare reform has three overarching goals:

    <bullet>  Creating the necessary programs and services to help 
those remaining on public assistance achieve the same progress towards 
self-sufficiency as those who have left
    <bullet>  Helping those who have successfully left public 
assistance to retain their foothold in the workforce, and to continue 
their progress toward self-sufficiency, and
    <bullet>  Preventing the next generation from becoming dependent 
upon public assistance.

    Let me now discuss our specific recommendations in each of these 
three areas.
Flexibility to Serve Current TANF Recipients
    As I indicated, New York City remains firmly committed to the 
principles that every client has the capacity to do something, and that 
everyone who can work, should work. To those ends, we believe in 
engaging every client in activities that will help lead to their 
maximum level of self-sufficiency. We support the universal engagement 
and family self-sufficiency plan requirements of HR 240 as tools that 
would support our efforts in that regard.
    At the same time, I mentioned that we are dealing with an 
increasing number of clients with significant clinical barriers to 
self-sufficiency. We believe that employment is the appropriate goal 
for most of these clients also, but we have also learned that they 
often require a set of interventions to help them overcome employment 
barriers. Our experience has shown that most public assistance 
recipients with limitations and disabilities want to work and that, 
when given services, accommodation, and support, they can succeed in 
the workplace.
    To achieve this goal, we have just implemented an exciting new 
initiative called the Wellness, Comprehensive Assessment, 
Rehabilitation and Employment (WeCARE) program. WeCARE is a new, more 
intensive program model to provide employment-focused services for 
public assistance clients with physical and mental health challenges. 
WeCARE's program elements will include:

    <bullet>  Performing a biopsychosocial assessment that includes a 
comprehensive medical examination and identification of issues that 
interfere with employability
    <bullet>  Developing a Comprehensive Service Planthat addresses all 
the client's barriers to employment
    <bullet>  Developing a Wellness/Rehabilitation Plan for each client 
who has an untreated or unstable medical condition(s)
    <bullet>  Providing intensive case management services, as 
required, to help clients achieve the goals of the ComprehensiveService 
Plan
    <bullet>  Performing Diagnostic Vocational Evaluations, as 
clinically indicated, to assess a client's functional abilities and 
limitations
    <bullet>  Providing vocational rehabilitation services that enable 
disabled and disadvantaged individuals to attain their maximum 
vocational potential
    <bullet>  Monitoring and tracking client compliance with prescribed 
activities and services
    <bullet>  Providing job placement services and retention support
    <bullet>  Helping eligible individuals who cannot work to obtain 
disability benefits

    WeCARE is designed to provide the up-front services that clients 
need, with the goal of ultimately moving them more quickly from the 
TANF caseload either to employment or to a more appropriate disability 
benefit. For this reason, we believe that the kinds of rehabilitative 
activities that our WeCARE program will provide--when based upon a 
clinical assessment and provided in a supervised, structured, and 
monitored fashion--should be fully credited toward a client's core work 
activities for the length of time they are needed. We are pleased to 
see that HR 240 recognizes ``qualified activities'' that include 
substance abuse counseling or treatment, and rehabilitation treatment 
and services, but it does so only for strictly limited periods of time. 
We recommend that reauthorized TANF legislation give States and 
localities support for the creation of these programs, which we believe 
are necessary to enable more and more of our clients to succeed in the 
workforce and achieve financial independence.
    Because of the changing nature of the caseload and the increased 
cost associated with enhancing the employability of those who remain on 
welfare, we recommend that the overall work participation rate be 
retained at 50 percent for all recipients. Any mandated increase in the 
work participation rate will impose greater programmatic demands on 
states and localities. Therefore, any increase must be accompanied by 
substantial and proportionate increases in (1) TANF funding for 
education and training, job placement, and programs to address special 
population barriers to employment, (2) the Child Care and Development 
Block Grant (CCDBG), and (3) the Social Services Block Grant.
    Currently, for those not otherwise engaged in full-time employment, 
the City requires most participants to combine work experience with 
another activity. These clients are required to participate in 
activities for 35 hours per week, higher than the current TANF 
requirement. In most cases they are engaged in supervised work activity 
for three days a week, seven hours per day, and they are also engaged 
in a work-related activity, such as job search, training, or education, 
for two days a week, seven hours per day. The three days of work 
activity, if lunch is included, constitute 24 hours of core work 
activity. We believe that this is a rigorous and appropriate 
expectation of our TANF clients, and hope that reauthorized TANF 
legislation will accommodate it. Under local labor contracts, City 
supervisors in our work experience program are required to work 7 hours 
per day, plus one hour for lunch. We cannot require TANF clients to 
work longer hours without incurring great expense to the City.
    As we continue to help people move toward employment, the City 
supports continuation of the caseload reduction credit and/or the 
adoption of an employment credit that fully reflects all job 
placements, whether or not they result in immediate case closing. 
Credit should also be given for non-custodial parents who are not on 
public assistance but obtain employment and provide child support for a 
child receiving TANF support. Qualifying sources for employment counts 
should include client self-reported, budgeted placements, as well as 
placements identified through recognized database matches.
    Finally, I would note that New York State has just raised its 
minimum wage above the federal level, ultimately to $7.15 an hour by 
January 1, 2007. While we support the increase as providing a 
reasonable wage base for working families, we also note that it 
complicates our compliance with TANF work participation requirements 
(as is the case for other states and localities with minimum wage 
requirements above the federal level). Federal agency guidance has 
suggested that TANF recipients cannot be required to participate in 
more hours of work activity than their grants would support, using the 
higher of the federal or applicable state minimum wage as a standard. 
We estimate that at $7.15 per hour, this would preclude approximately 
28 percent of our TANF clients from participating in core work 
activities for even the 20 hours per week currently required. We 
recommend that TANF clients who are working the maximum number of hours 
permitted under a calculation based on their state's minimum wage 
should be deemed to be fully participating for TANF purposes.
Retention of Financial Independence
    During the first stage of welfare reform, New York City moved 
thousands of people into the workforce. We must protect that success by 
helping these people remain in the world of work and enhance their 
employability, and thereby the self-sufficiency of their families.
    Many people have left welfare for low-wage jobs with minimum or no 
benefits. A medical or other emergency could result in their return to 
public assistance. Others need transitional supports--child care, 
transportation, and housing--to remain in the workforce or boost 
themselves above the poverty line. We must continue the investment 
thatTANF has made in these newly productive members of the workforce, 
supporting low-income workers and helping them improve their skills so 
that they can continue to work and move their families out of poverty. 
States need more flexibility in using TANF funds to support working 
families who have left welfare.
    We offer the following specific proposals:

    <bullet>  Change the definition of ``assistance'' so that employed 
families can receive enhanced transitional support. TANF regulations 
(not statute) limit the definition of non-assistance to non-recurring, 
short-term benefits intended to deal with a specific crisis situation 
or episode of need that will not extend beyond four months. We would 
recommend a broader definition under which housing support for employed 
families, for example, would be considered non-assistance and should 
not be subject to fixed time limits. The inability to pay for housing 
can be a barrier to family and employment stability, and disruptive to 
work participation. We recommend that TANF law be reauthorized to 
permit states to subsidize housing beyond the current limitation of 
four months.
    <bullet>  Child care and transportation should be treated as non-
assistance for both working and non-working families. Child care and 
transportation enable parents to look for work, to attend training or 
educational opportunities to prepare for work, and to go to work. 
Sometimes job search, education, or training activities are full-time, 
and sometimes they are combined with each other or with work experience 
or paid employment. Whatever the combination of activities a person is 
engaged in and whether or not they are still on welfare, if they have 
low income they may well need child care and transportation assistance 
to help them work toward and enhance their self-sufficiency.
    <bullet>  Increase funding of the Child Care and Development Block 
Grant by a minimum of $6 billion over the next five years. New York 
City is supporting child care for 52,500 children in families on or 
transitioning off public assistance where a parent is engaged in work 
activities, as well as 54,000 children predominantly from other low-
income working families. This is a vital service if we expect these 
parents to remain in the workforce.
    <bullet>  Extend transitional medical assistance for the full 
duration of a reauthorized TANF program, and allow states to provide 
transitional Medicaid for up to 24 months. Ensuring continuity of 
health insurance to allow maintenance of good preventive care for 
adults and children, and protection against serious and financially 
catastrophic illness, is a sound investment in continued employability.
Preventing Future Welfare Dependence
    As we take steps to keep former welfare recipients in the 
workplace, we must also focus on the next generation--those who may end 
up in a cycle of welfare and poverty without adequate support. The key 
to keeping them from needing public assistance is, of course, 
education, including the practical education that youth gain through 
world of work experiences. There can be no long-term, long lasting 
welfare reform without education reform. The lack of an education and 
of work-related skills is a major barrier to self-sufficiency. It is 
also important to support strong family structures, and to reinforce 
the provision of financial support for children by all responsible 
parents.
    There is a need to develop new programs, such as fatherhood 
initiatives, that promote the responsibility of non-custodial parents 
in the life of their children. We support allowing non-custodial 
working parents with a child on TANF to be included in TANF work 
activities and to be eligible for TANF services. Research has shown 
that families are better able to maintain their financial independence 
when both parents are contributing. By extending TANF resources to both 
parents of children on welfare, we will enhance the ability of both 
parents to work and support their children.
    In August 2003, Mayor Bloomberg moved New York City's child support 
program back to the Human Resources Administration, thereby re-
integrating the City's TANF and child support activities. Since then, 
we have undertaken a number of efforts to ensure that non-custodial 
parents are fulfilling their responsibilities to support their children 
in harmony with TANF family self-sufficiency objectives. Because child 
support can be such an important source of financial assistance to TANF 
families, we would urge that the federal government waive its share of 
child support collections for TANF families up to the level of $400 per 
month, if a state chooses to pass the support through to the family.
    Support for family strengthening is also an important prevention 
intervention. If Congress chooses to designate funding in a 
reauthorized TANF bill to marriage and family formation, we believe 
that states and localities should have broad discretion to use that 
funding to support a range of locally-designed programs to strengthen 
all types of families, through initiatives that include parenting 
education and support, family reunification, and fatherhood 
involvement. These should include programs to encourage noncustodial 
parents to assume greater financial responsibility and involvement in 
their children's lives.
    We also recommend allowing the use of TANF funds by States and 
localities to develop, enhance or expand programs aimed at high-risk 
children and youth. As TANF administrators, we need to be in 
partnership with other service providers serving youth. These programs 
could, among other things:

    <bullet>  Address developmental issues, including pregnancy 
prevention, domestic violence prevention, and parenting and 
relationships skills that will make it less likely that youth will 
require public assistance
    <bullet>  Offer work-related experiences that introduce youth to 
the world of work and help them gain both experience and an 
understanding of the skills they need to succeed
    <bullet>  Support and expand vocational education closely linked to 
local industries that are creating jobs.
Conclusion
    The success of welfare reform should not be measured solely by the 
reduction in caseloads, but also by the ability of people to become and 
remain self-sufficient. We can accomplish these successes by providing 
states and localities the flexibility to apply resources where needed 
to meet a range of client work-readiness needs, to support employment 
retention for those who have succeeded in leaving welfare, and to help 
young people avoid welfare dependence in the future. We in New York 
City look forward to working with Congress to develop a viable, 
successful framework for the next, critical stage of welfare reform.
    Thank you.

                                 <F-dash>

    Mr. ENGLISH. [Presiding.] Thank you, Mr. Hansell. We will 
next call up Lisalyn Jacobs, Vice President for government 
Relations of Legal Momentum. Thank you so much for being here.

 STATEMENT OF LISALYN R. JACOBS, VICE PRESIDENT FOR GOVERNMENT 
                   RELATIONS, LEGAL MOMENTUM

    Ms. JACOBS. Thank you, Mr. Chair. Mr. Chairman, Ranking 
Member McDermott and Members of the Committee, thank you for 
allowing me to appear here today. I am Lisalyn Jacobs, Vice 
President for government Relations of Legal Momentum, the new 
name of the now Legal Defense and Education Fund. We are a 
leading national organization, with a 35-year history of 
advocating for women's rights and promoting gender equality. I 
come before you, as a preacher's kid, a preacher's sister and a 
person of faith. Please allow me to introduce my mother, Mrs. 
Lynette G. Jacobs. Regrettably, my father, Reverend Solomon 
Jacobs, was unable to join us, though he assures me he is 
praying for me.
    [Laughter.]
    Ms. JACOBS. I have inherited a lot from both of them, 
including a strong faith tradition, but more about that in a 
moment. Our written testimony details our concerns about a 
number of issues, including expansion of the family violence 
option and access to public benefits for immigrant victims of 
domestic violence, sexual assault and trafficking. I commend 
that to you.
    Recently, Chairman Herger has made a number of statements 
indicating that the welfare system is not working and that 
welfare recipients face a longer road to independence from 
welfare. I agree with the Chair, but I, also, submit to you 
that the Temporary Assistance for Needy Families program should 
not function merely to help families achieve independence from 
welfare. More importantly, it should function to help them 
escape from poverty.
    While the number of people receiving TANF declined by 
149,000 at the end of the year 2003, the number of people in 
poverty during that same time rose by 1.3 million. In the last 
4 years, 4.3 million more Americans fell into poverty. The 
overwhelming burden of increased poverty, however, fell on 
children and their mothers in single-parent households. We 
encourage this Subcommittee to pursue proven solutions to the 
problem of rising poverty not measures which will harm children 
and their mothers. We strongly urge this Subcommittee to pursue 
policies that invest in the education, training and work 
supports that empower women to achieve true economic security. 
In the year 2000, only 1.2 percent of single mothers with a 
college degree who worked full time lived in poverty. Less than 
8 percent of single mothers with some college working full time 
lived in poverty. This is a clear indication of what strategy 
will work best in lifting families out of poverty.
    Current law allows, but does not require, States to use 
TANF funds for marriage promotion. When TANF was enacted in 
1996, an underlying goal was to give States the flexibility to 
tailor programs to the needs of their individual TANF 
populations. To earmark funding for marriage activities, as 
H.R. 240 does, would hamstring States' abilities to provide 
their TANF population with what they truly need to gain, an 
economic foothold and would, also, undermine the basic approach 
of the TANF program.
    When the Senate Finance Committee held marriage promotion 
hearings last year, even those who supported the program and 
conceded that we don't yet know what works, Dr. Haskins said, 
``We know so little about marriage promotion programs, 
especially with poor and low-income families.'' Chairman 
Grassley added, ``There is still a great deal of uncertainty 
around the effectiveness of marriage promotion programs.''
    Mr. Chair, in these times of fiscal distress, TANF funding 
must focus exclusively on programs with a proven record of 
success. Recently, President Bush said, ``The important 
question that needs to be asked for all constituencies is 
whether or not the programs achieve a certain result.'' We 
agree, and because the currently funded marriage programs have 
not been evaluated for use with low-income, racially diverse 
families, fiscal responsibility suggests waiting for the 
results of the programs already funded before allocating more 
funding. Moreover, recent research supports the concerns that 
we and others have raised about the increased risk of violence 
poor women face. Study after study demonstrates that between 15 
and 25 percent of current welfare caseloads consist of domestic 
violence victims. Between half and two-thirds of women on 
welfare have suffered domestic violence or abuse at some point 
in their adult lives.
    As you consider additional marriage promotion funding, 
please read Andrew Cherlin's, ``Influence of Physical and 
Sexual Abuse on Marriage and Cohabitation.'' Dr. Cherlin is at 
the Johns Hopkins University. The study concludes that physical 
and sexual abuse are key reasons why many poor women choose not 
to marry. Marriage promotion programs that fail to recognize 
and respond to the traumatic and long-term effects of physical 
and sexual abuse are not only irresponsible, but will fail.
    We are, also, concerned that H.R. 240's marriage promotion 
provisions lack protections for domestic violence victims. At 
minimum, no program should qualify for marriage promotion money 
without voluntary participation provisions, collaboration with 
domestic violence experts and a guarantee that there will be no 
discrimination against single parents. Most importantly, 
addressing domestic violence should be an issue on which 
marriage promotion money can be spent because dealing with 
domestic violence is often the most important first step for a 
woman to take before moving on to consider a healthy marriage.
    As people of faith, we know that helping the poor is a 
prime mandate. Jesus said, ``If you love me, feed my sheep.'' 
When you combine the rising numbers of people in poverty with 
the fact that the TANF roles continue to decline, you know that 
we are failing to meet our basic obligation to the people in 
greatest need. Welfare reauthorization must focus on programs 
that have a proven record for lifting people from poverty, 
while not jeopardizing their well-being. Please support a 
fiscally responsible TANF bill and one that focuses on the 
child care funding and education and training opportunities 
that women and their families so desperately need. Thank you so 
much, and if I could, respectfully, request, since my oral 
remarks are mildly different, that they could be included in 
the record as well. I would appreciate that. Thank you.
    [The prepared statement of Ms. Jacobs follows:]

     Statement of Lisalyn R. Jacobs, Vice President for Government 
                       Relations, Legal Momentum

    Legal Momentum (formerly NOW Legal Defense and Education Fund) 
appreciates the opportunity to submit this testimony on the issue of 
TANF Reauthorization and building stronger families.\i\ We adhere to 
our long held belief that anti-poverty efforts must focus on 
initiatives that will empower individuals to become economically self-
sufficient and permanently free them from poverty.
---------------------------------------------------------------------------
    \i\ The authors would like to thank Shawn Chang for his invaluable 
assistance in completing this testimony.
---------------------------------------------------------------------------
    Legal Momentum is a leading national not-for-profit civil rights 
organization with a 35-year history of advocating for women's rights 
and promoting gender equality. Among Legal Momentum's major goals is 
securing economic justice for all. Throughout our history, we have used 
the power of the law to advocate for the rights of poor women. We have 
appeared before the Supreme Court of the United States in both gender 
discrimination and welfare cases, and have advocated for protection of 
reproductive and employment rights, increased access to child care, and 
reduction of domestic violence and sexual assault. In addition, we 
address welfare reform issues from the perspective of ending women's 
poverty. To this end, we have convened the Building Opportunities 
Beyond Welfare Reform Coalition (BOB Coalition), a national network of 
local, state, and national groups, including representatives of women's 
rights, civil rights, anti-poverty, anti-violence, religious and 
professional organizations.
    We appreciate the opportunity to submit this testimony to this 
Subcommittee on the reauthorization of the Temporary Assistance to 
Needy Families program. We first submitted testimony to this 
subcommittee on April 3, 2001 when it first took up the task of 
reauthorizing the Temporary Assistance for Needy Families program. Much 
has changed since April 2001 in the life of our nation. What has not 
changed, however, is the need for a compassionate safety net for our 
poorest families and work supports to enable poor families to improve 
their financial situation. What is needed is attention to the 
particular problems of women with children who are living in poverty, 
especially the issues of violence in their lives, the need for 
education and training, the need for child care, and the recognition 
that children need time and attention from their parents in order to 
thrive. In the four years since we first submitted testimony, the 
number of poor Americans has increased. Indeed, every year since 2001, 
more Americans have sunk into poverty. From 2000 until 2004, 4.3 
million additional Americans fell into poverty.\ii\ A disproportionate 
number of those in poverty are women. In fact, women represent 56% of 
the poor in this country; and 13.5% of all women in America are poor 
compared with 11.2% of men.\iii\ The overwhelming burden of increased 
poverty, however, fell on children and their mothers in single parent 
households, the very population the TANF program should be trying to 
help. We urge this subcommittee to pursue proven solutions to the 
problem of increasing poverty, not punitive measures designed to hurt 
children and their mothers.
---------------------------------------------------------------------------
    \ii\ Center on Budget and Policy Priorities, ``Census Data Show 
Poverty Increased, Income Stagnated and the Number of Uninsured Rose To 
A Record Level in 2003,'' Friday, August 27, 2004.
    \iii\ United States Census Bureau, ``We the People: Women and Men 
in the United States,'' U.S. Census Special Reports (January, 2005).
---------------------------------------------------------------------------
    Marriage Promotion is Not A Solution to Women's Poverty. We would 
like to begin our testimony by focusing on why government involvement 
in personal issues of family formation would not reduce poverty, and 
would create a dangerous precedent for the individual liberty of all 
Americans. Emphasis on marriage and family formation sidesteps the 
underlying causes of poverty, particularly the poverty of women and 
children--such as lack of job training and education, ongoing sex and 
race discrimination, violence and lack of childcare. At a time of huge 
budget deficits and high unemployment it is irresponsible to spend over 
a billion dollars on untested, unproven marriage promotion programs, 
which is what the proposed House bill would spend over the next 5 
years. Further, government involvement in highly personal decisions 
such as marriage is a departure from our most basic principles; a 
threat not just to poor women, but to all citizens who believe that 
liberty entails making fundamental personal decisions without 
governmental interference. Critically important is the fact that 
because of the prevalence of violence among women forced to turn to 
public assistance, promotion of marriage can raise particular and 
severe dangers. Nothing in the proposal before this Committee protects 
women who are victims of domestic violence from being counseled to 
marry an abuser, or, if the abuser is her husband, stay with him. 
Without meaningful protections, marriage promotion will put the lives 
of poor women at risk. Finally, the amount of money currently being 
spent on marriage promotion by the Department of Health and Human 
Services is enormous, over $100 million. We agree with President Bush, 
who in a recent budget meeting with his Cabinet stated, ``The important 
question that needs to be asked for all constituencies is whether or 
not the programs achieve a certain result.'' The programs currently 
being funded have not been reviewed or tested to see if they are useful 
or successful. Common sense dictates treading cautiously in this area 
and waiting for the results of the programs already funded before 
throwing another $1.6 billion at promotion of marriage among the poor.
    The staggering prevalence of domestic violence among women on 
welfare presents an insurmountable challenge to ``Healthy Marriage'' 
Promotion within TANF. When considering marriage promotion within the 
context of TANF, Congress must face the reality that violence is one of 
the main causes of women's poverty. Domestic violence makes women poor 
and keeps them poor. Violence is not an exception to the rule for poor 
women; it is an overwhelming reality. Study after study demonstrates 
that a large proportion of the welfare caseload (consistently between 
15% and 25%) consists of current victims of serious domestic 
violence.\iv\ Between half and two thirds of the women on welfare have 
suffered domestic violence or abuse at some time in their adult 
lives.\v\ Moreover, by an overwhelming margin, these women's abusers 
are most often the fathers of their children. For these women and their 
children, marriage is not the solution to economic insecurity. For them 
marriage could mean death or serious injury; it will almost undoubtedly 
mean economic dependence on an abuser. In the population as a whole, 
many battered women are economically dependent on their abusers; 33-46% 
of women surveyed in five studies said their partner prevented them 
from working entirely.\vi\ Those who are permitted to work fare little 
better. Ninety-six percent reported that they had experienced problems 
at work due to domestic violence, with over 70% having been harassed at 
work, 50% having lost at least three days of work a month as a result 
of the abuse, and 25% having lost at least one job due to the domestic 
violence.\vii\ Thus, battered women are overwhelmingly either 
economically dependent on the abuser or are economically unstable due 
to the abuse.
---------------------------------------------------------------------------
    \iv\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare, 12 (1997).
    \v\ See Mary Ann Allard, et al., McCormack Inst., In Harm's Way? 
Domestic Violence, AFDC Receipt and Welfare Reform in Mass., 12, 14 
(1997) (64.9% of 734 women); Ellen L. Bassuck, et al., The 
Characteristics and Needs of Sheltered Homeless and Low-Income Housed 
Mothers, 276 JAMA 640 at 12, 20 (1996) (61.0% of 220 women); William 
Curcio, Passaic County Study of AFDC Recipients in a Welfare-to-Work 
Program: A Preliminary Analysis, 12, 14 (1997) (57.3% of 846 women).
    \vi\ See United States General Accounting Office, Report to 
Congressional Committees, Domestic Violence: Prevalence and 
Implications for Employment Among Welfare Recipients, 7 (1998).
    \vii\ See Joan Zorza, Woman Battering: High Costs and the State of 
the Law, 25 Clearinghouse Rev. 421 (1991).
---------------------------------------------------------------------------
    Congress should realize that violence is most often the cause of a 
woman's decision not to marry. Anyone on this subcommittee considering 
throwing millions of dollars of taxpayer's money at untested marriage 
promotion programs should read Andrew J. Cherlin, `` The Influence of 
Physical and Sexual Abuse on Marriage and Cohabitation,'' American Soc. 
Rev. 768 (December, 2004). The authors of this study, which included 
hundreds of women in three U.S. cities, conclude that physical and 
sexual abuse are a key factor in why many poor women choose not to 
marry. Without recognizing the traumatic and long term effect physical 
and sexual abuse can have on women's attitude toward marriage, any 
program to promote marriage is doomed.
    Those who would promote marriage in every circumstance sometimes 
claim that marriage decreases domestic violence. This idea ignores many 
realities of domestic violence. Most importantly, married victims are 
less likely to report the abuse. In addition, separation and divorce 
frequently incite batterers to increase the frequency and level of 
violence.\viii\ The experience of Oklahoma, clearly the leader in 
spending public dollars for marriage promotion, is instructive. In a 
survey of Oklahoma families, referred to in testimony by the Director 
of Public Welfare in that State when testifying before Congress, it was 
discovered that almost half (44%) of the state's divorced women cited 
domestic violence as a reason for their divorce.\ix\ More than half 
(57%) of Oklahoma's divorced welfare mothers, the prime target of 
government marriage promotion efforts, cited domestic violence as a 
reason for their divorce.\x\ Oklahoma is by no means unique. Around the 
country, in survey after survey, low income women report high double 
digit domestic violence rates.
---------------------------------------------------------------------------
    \viii\ See Einat Peled, Parenting by Men Who Abuse Women: Issues 
and Dilemmas, Brit. J. Soc. Work, Feb. 2000, at 28.
    \ix\ ``Marriage in Oklahoma, 2001 Baseline Survey on Marriage and 
Divorce,'' at 16, available at http://www.okmarriage.org/pdf/
survey_report.pdf
    \x\ Private communication to NOW Legal Defense & Education Fund 
from Oklahoma official; copy available upon request.
---------------------------------------------------------------------------
    Should the government encourage women to get married or stay 
married to men who abuse them? Certainly, proponents of government 
marriage promotion do not intend this. But common sense suggests that 
this will be the inevitable result of a government ``get married and do 
not divorce'' message, especially when success is measured by 
superficial statistics such as the divorce rate. Should Congress ignore 
the role domestic abuse plays in women's decisions not to marry? 
Surely, this is precisely what will happen unless the marriage 
promotion provisions in H.R.240 contain specific protections for women 
who have been abused during their lives.
    Congress itself has repeatedly recognized that domestic violence is 
a serious national problem and has made efforts to minimize the severe 
risk to women and children from that violence, most recently by 
reauthorizing the Violence Against Women Act in 2000. But marriage 
promotion for TANF recipients ignores the reality of domestic violence. 
It ignores its pervasiveness: assertions that proponents intend to 
promote only ``healthy marriages'' lose credibility in the face of the 
reality that as many as two-thirds of TANF recipients report incidents 
of domestic violence. Surveys of low-income women in several cities 
show that two of the four main reasons for not marrying are fear of 
domestic violence and fear of a power imbalance.\xi\ Requiring marriage 
promotion programs to consult with domestic and sexual violence experts 
and child advocates on the development and implementation of policies, 
procedures, and training necessary to appropriately address domestic 
and sexual violence and child abuse issues, as was specified in last 
year's Senate Finance Committee welfare reauthorization bill (PRIDE), 
but conspicuously absent in H.R. 240, could provide some security. But 
even those safeguards do not make marriage promotion within TANF safe. 
In light of the high incidence of violence in the lives of poor women, 
the complete failure of H.R. 240 to include even the most rudimentary 
protections for domestic violence victims is a travesty; domestic 
violence is not mentioned anywhere in the legislation and, therefore, 
use of marriage promotion dollars to keep women in abusive marriages or 
to help persuade them to marry their abuser is a very real threat. 
Finally, our review of current grant applications to HHS for marriage 
promotion funds indicates that very few programs currently include any 
consideration of domestic violence issues in their applications, 
indicating that if such protections are not included in the law, they 
will not be in the programs.
---------------------------------------------------------------------------
    \xi\ Kathyrn Edin, Joint Center for Poverty Research Working 
Papers, What Do Low-Income Single Mothers Say About Marriage?, Aug. 9, 
2001, available at http://www.jcpr.org/wpfiles/edin_WP_ediforweb1-
31.pdf.
---------------------------------------------------------------------------
    Those who say that marriage promotion will only be done in 
relationships where there is no violence are not sufficiently 
knowledgeable about the dynamic of domestic violence and the very clear 
truth that most women who are victims of violence are ashamed and 
afraid and extremely unlikely to offer the reveal the violence in their 
lives to others. Many victims fear the potential consequences of 
acknowledging the abuse: the stigma of being a domestic violence 
victim; the very real possibility of losing their children to child 
welfare agencies; the possibility that disclosure of violence will 
escalate the abuse. Marriage promotion programs, no matter how 
``sensitive'' to domestic violence on paper, cannot change the fact 
that those promoting marriage will probably not know about violence in 
the relationship they are trying to make legally permanent. Thus, 
programs that push poor women into marriage with the fathers of their 
children may inadvertently legitimize abusive situations; similarly, 
programsthat discourage divorce may increase the already deep shame and 
social pressure to remain with the abuser that women who are married 
and are being abused often feel. A government message to poor women who 
are violence victims that there is something wrong with being unmarried 
will make it even more difficult for women who are trying to leave an 
abusive relationship to do so. The complexity of domestic violence and 
the danger to women who stay in or formalize abusive relationships make 
any government-sponsored marriage promotion program extremely 
problematic.
    TANF currently includes a Family Violence Option (FVO) allowing 
states to confidentially screen for domestic violence, refer to 
services, and modify or waive program requirements that would be unsafe 
or unfair to victims of domestic violence. While nearly all states have 
adopted some version of the FVO, unfortunately, not all states have 
done so. With such an overwhelming correlation between violence and 
poverty, it is both troubling and illogical that Congress would 
consider mandating marriage promotion and providing significant 
financial incentives for states to fund marriage promotion while not 
requiring states to address domestic violence through the FVO. At a 
minimum, Congress should require all states to screen for domestic 
violence, refer individuals to services, and should invest TANF dollars 
in case worker training, a study of best practices with respect to 
addressing domestic violence in TANF, and dissemination of those best 
practices to all states to help them address this very real barrier to 
economic security. It is also essential that, if indeed, money for 
marriage promotion is appropriated under TANF, that there be clear 
protections for women who are victims of violence. No program should 
get government marriage promotion money unless there is collaboration 
with domestic violence experts in developing and administering the 
program. Provisions insuring that all participation in marriage 
promotion programs will be voluntary and non-coercive are also 
essential as well as provisions that guarantee that there will be no 
discrimination against single parents. Most importantly, domestic 
violence should be an issue on which marriage promotion money can be 
spent. In so many cases, dealing with domestic violence is the most 
important first step for a woman to take before moving on to consider a 
healthy marriage.
    HHS is already spending a great deal of money on marriage 
promotion; more should not be spent unless there is some indication 
this is an effective way to combat poverty. Current law allows but does 
not require states to use Temporary Assistance to Needy Families (TANF) 
funds for marriage promotion and for initiatives aimed at decreasing 
out of wedlock births. The current House proposal (H.R. 240) includes 
significant funding for marriage promotion initiatives. Although there 
is no new TANF funding for economic support in H.R. 240, the bill 
authorizes $100 million a year in specifically dedicated federal TANF 
funding for a Marriage Promotioncompetitive grant program. States would 
be required to match the $100 million and would be allowed to use their 
basic federal TANF allocation to do so, thus potentially diverting an 
additional $100 million of TANF funds from economic support to marriage 
promotion. The bill also authorizes an additional $100 million a year 
for new TANF demonstration project funding to ``be expended primarily'' 
on ``Healthy Marriage Promotion Activities.'' Finally, the bill creates 
a fatherhood program funded at $20million a year ``to promote and 
support involved, committed, and responsible fatherhood, and to 
encourage and support healthymarriages.''
    The House bill also adds new requirements that in order to 
participate in TANF, states must have a program to ``encourage the 
formation and maintenance of healthy 2-parent married families'' and 
must set ``specific, numerical, and measurable performance objectives'' 
for promoting such families. This language suggests that in order to 
qualify for any TANF funding, states might have to set numerical goals 
for increasing the state marriage rate and reducing the state divorce 
rate.
    The Department of Health and Human Services (HHS) is already 
spending a great deal of money on marriage promotion--over $77 million 
in contracts and over $25 million in grants. Grant money has been taken 
from appropriations for the Child Support Enforcement Program ($2.4 
million),\xii\ from the Refugee Resettlement Program ($9 
million),\xiii\ from Child Welfare Programs ($14 million),\xiv\ from 
the (Native American) Social And Economic Development Strategies 
Program (SEDS) ($40 million),\xv\ from the Assets For Independence 
Demonstration Program ($16 million),\xvi\ and from the Developmental 
Disabilities Program ($3 million).\xvii\
---------------------------------------------------------------------------
    \xii\ See HHS 5/9/03 press release ``ACF Approves Child Support 
Demonstrations in Michigan and Idaho,'' available at http://
www.acf.dhhs.gov/acf_news.html); and HHS 7/4/03 press release `` ACF 
Approves Child Support Demonstration In Virginia,'' available at http:/
/www.acf.dhhs.gov/acf_news.html).
    \xiii\ 67 Fed. Reg. 45131-45136 (July 8, 2002); 68 Fed. Reg. 34617-
34726 (June 10, 2003); 68 Fed. Reg. 43142-47 (July 21, 2003).
    \xiv\ [xiv] 68 Fed. Reg 34609-34614 (June 10, 2003).
    \xv\ 67 Fed. Reg. 59736-59746 (Sept. 23, 2002); 69 Fed. Reg. 8266-
8288 (Feb. 23, 2004).
    \xvi\ http://www.acf.hhs.gov/programs/ocs/fy2003ocsfunding/
section2a.html
    \xvii\ 68 Fed. Reg. 41816-41828
---------------------------------------------------------------------------
    It is difficult to see why Congress should consider hundreds of 
millions of dollars in new funding for marriage promotion before the 
results of the Administration's evaluation projects are in. It is 
surely putting the cart before the horse to start a major new social 
program when the program's potential effects are largely unknown and 
demonstration projects to identify and evaluate the effects are just 
getting off the ground. In 2003, the Administration awarded contracts 
to several prominent national organizations to conduct large marriage 
promotion test projects with rigorous evaluation methodologies: 
Mathematica Policy Research, ($19 million over nine years for the 
Building Strong Families demonstration and random-assignment evaluation 
project; MDRC (and other secondary contractors) $38.5 million over nine 
years for the Supporting Healthy Marriages demonstration and random-
assignment evaluation project); and RTI International and the Urban 
Institute ($20.4 million over seven years for evaluation of community 
wide initiatives to promote healthy marriage).\xviii\ Until the results 
of these projects are known, Congress should not consider marriage 
promotion funding.
---------------------------------------------------------------------------
    \xviii\ See October 3, 2003 ACF press release ``ACF Announces Four 
New Projects to Study Healthy Marriage,'' available at http://
www.acf.dhhs.gov/news/press/2003/release-101003.htm; Ooms, Bouchet, & 
Parke, ``Beyond Marriage Licenses: Efforts in States to Strengthen 
Marriage and Two-Parent Families. A State by State Snapshot'', Center 
for Law and Social Policy (April 2004).
---------------------------------------------------------------------------
    HHS has also issued a ``Compendium'' of approaches for achieving 
``marriage promotion'' goals, which is a likely indicator of the 
recommendations it would make to states for spending marriage promotion 
funds were such spending to be required. This Compendium suggests that 
states consider completely unproven and coercive methods, such as 
paying a $2,000 cash bonus to poor couples who marry and reducing 
welfare payments to poor couples who choose not to marry. 
(``Strengthening Healthy Marriages: A Compendium of Approaches,'' U.S. 
Department of Health and Human Services (August 2002), available at 
http://www.acf.hhs.gov/programs/region2/index.htm.) The Compendium 
includes marriage promotion organizations that clearly should not 
receive large grants of tax dollars. Some of these organizations 
recommend reducing the divorce rate by restricting the right to 
divorce. Some teach that the husband should be the leader/breadwinner, 
and the wife the follower/homemaker. Several are for-profit commercial 
ventures which claim that they can help couples avoid divorce for a 
substantial fee. It is irresponsible for legislators to enact a program 
that threatens to divert government money intended to help the poor to 
fund the untested programs of such organizations.
    When the Senate Finance Committee held marriage promotion hearings 
last year, even those who spoke in favor of marriage conceded that we 
don't yet know what works. Ron Haskins, Senior Fellow at the Brookings 
Institute stated ``we know so little about marriage-promotion programs, 
especially with poor and low-income families.'' Theodora Ooms of the 
Center on Law and Social Policy stated, ``Given the lack of research on 
marriage related interventions, policy makers should proceed 
cautiously. . .'' Even Chairman Grassley (R-Iowa) stated, ``Do marriage 
programs effectively reduce dependence and foster a family's well-
being? We don't know. There is still a great deal of uncertainty around 
the effectiveness of marriage promotion programs.''
    With such a high degree of uncertainty around what works with 
respect to marriage promotion, with millions and millions of dollars 
already being spent on marriage promotion programs, why spend billions 
more of taxpayer dollars on these programs before the results are in on 
which may give direction to a whether such initiatives are successful 
and what types of programs work?
    As noted above, since 1996, states have been free to use TANF 
dollars to support marriage and two-parent families, although most 
states have not done so. States have instituted programs that range 
from a simple waste of public dollars to outright discrimination 
against struggling single parent families. These examples demonstrate 
the risks in pushing states to do more to promote marriage. For 
example.
    In Oklahoma, former Governor Frank Keating earmarked 10% of the 
state's TANF surplus funds to fund the $10 million Oklahoma Marriage 
initiative, which includes pre- and post-marital counseling to Oklahoma 
families, a marriage resource center, a marriage mentor program, and 
the creation of a Marriage Scholars-in-Residence.\xix\ The initiative 
also contains a specific ``religious track'' under which the state's 
religious leaders sign a marriage covenant, thereby committing 
themselves to encourage pre-marital counseling for couples in their 
house of worship. A few months after Keating made his proposal, the 
state hired a pair of ``marriage ambassadors'' with a $250,000 a year 
salary to give ``relationship rallies'' on school campuses as well as 
meeting with ministers and set up a research project. Last September 
the state spent $16,000 flying in pro-marriage speakers from around the 
country for a two-day conference. It also developed a workshop called 
Prevention and Relationship Enhancement Program (PREP) that is offered 
in schools and community centers.\xx\ Three years after Oklahoma 
implemented its marriage promotion programs, the state's divorce rate 
has remained unchanged.\xxi\
---------------------------------------------------------------------------
    \xix\ Supra Note 156.
    \xx\ Tyre, Peg. ``Oklahoma is fighting its sky-high divorce rate 
with controversial, state-funded ``marriage ambassadors.'' Newsweek, 
Feb. 18, 2002, U.S. Edition.
    \xxi\ Ross, Bobby Jr. ``Divorce rate stays steady, study shows'' 
The Daily Oklahoman (2/10/2002). Citing that for every 100 marriage 
licenses issued in 2001, the state granted 76 divorce petitions.
---------------------------------------------------------------------------
    West Virginia's state TANF plan adds a $100 marriage incentive to a 
family's benefits if there is a legal marriage in a household where 
both individuals receive welfare assistance payments. Since West 
Virginia's monthly TANF benefit for a family of three is $328, this 
$100 per month bonus makes a significant difference in economic support 
and gives children in poor married families a significant economic 
advantage over children whose poor single mothers have been unable or 
unwilling to marry.
    Programs such as those described above divert funds from direct 
support of poor families or provision of services needed to support 
employment. Programs like that in West Virginia discriminate directly 
against poor single parent families. Endorsing or increasing funding 
for such programs is bad public policy.
    The American public overwhelmingly rejects governmental involvement 
in personal decisions about when and whether to marry. According to the 
PEW Forum on Religion & Public Life opinion poll, there is broad 
opposition to government programs aimed at encouraging marriage. Nearly 
eight in ten Americans (79%) want the government to stay out of this 
area, while just 18% endorse such pro-marriage programs. While those 
with a high level of religious commitment are more likely to favor 
these programs, fully two-thirds (66%) in that category do not want the 
government to get involved.\xxii\ The Administration has tried mightily 
to sway public opinion in this area. They have paid columnists like 
Maggie Gallagher and Michael McManus thousands of dollars to write 
columns favorable to the idea of marriage promotion by the government, 
columns written with no disclosure that the columnists were on the 
government (read that taxpayer's) payroll.\xxiii\ Despite the HHS 
public relations campaign, there is no evidence that the American 
public believes that marriage promotion is a good idea.
---------------------------------------------------------------------------
    \xxii\ The PEW Research Center for the People & the Press and the 
PEW Forum on Religion & Public Life, ``American Struggle with 
Religion's Role at Home and Abroad,'' News Release, March 20, 2002. at 
3.
    \xxiii\ http://www.salon.com/news/feature/2005/01/27/mcmanus/
print.html; http://www.washingtonpost.com/ac2/wp-dyn/A36545-
2005Jan25?language=printer
---------------------------------------------------------------------------
    In addition, Americans also strongly reject any proposal that would 
divert welfare resources for the poor into marriage promotion programs. 
A recent poll conducted on behalf of the National Campaign for Jobs and 
Income Support shows that a mere five percent of those surveyed select 
marriage promotion as the number-one welfare priority for Congress, 
while fully 62% cite work support for people moving from welfare to 
good jobs as the top priority.\xxiv\ Similarly, a poll conducted for 
the Ms. Foundation found that less than three percent of Americans 
believe the principal goal of the welfare system should be to promote 
marriage and discourage out-of-wedlock birth.\xxv\ By contrast, giving 
people the skills needed to achieve self-sufficiency received the most 
support. Most recently, a survey conducted for the Annie E. Casey 
Foundation also found that proposals to promote marriage through 
welfare programs do not meet with even superficial public support. A 
solid 64% of those surveyed reject proposals to provide financial 
bonuses to mothers on welfare who marry the father of their children, 
and over 70% believe pushing people to get married is the wrong 
priority for Congress.\xxvi\
---------------------------------------------------------------------------
    \xxiv\ Peter D. Hart Research Associates. ``TANF/Welfare Survey 
Findings.'' National Campaign for Jobs and Income Support Memo, April 
12, 2002, at 1.
    \xxv\ Ms. Foundation for Women. ``Americans Say Welfare Should 
Provide Self-Sufficiency Skills, Move People Out of Poverty--Not 
Promote Marriage.'' (February 6, 2002) at 1.
    \xxvi\ Peter D. Hart Research Associates, Inc. ``Memorandum to 
Advocates for Low-Income Families.''
---------------------------------------------------------------------------
    Government coercion of poor women to marry is contrary to our 
fundamental notion of freedom. The American public overwhelmingly 
rejects governmental involvement in personal decisions about when and 
wether to marry. The Supreme Court has long recognized an individual's 
right to privacy regarding decisions to marry and reproduce as ``one of 
the basic civil rights of man, fundamental to our very existence and 
survival.'' \xxvii\ Significantly, this constitutional right equally 
protects the choice not to marry.\xxviii\ Reproductive privacy, 
initially honored as a right of marital privacy,\xxix\ has been firmly 
established as a protected right of the individual, irrespective of 
marital status.\xxx\ According to the Supreme Court, ``if the right of 
privacy means anything, it is the right of the individual, married or 
single, to be free from unwarranted governmental intrusion into matters 
so fundamentally affecting a person as the decision whether to bear or 
beget a child.\xxxi\ Furthermore, the U.S. Supreme Court has 
specifically rejected the use of the welfare system to try to influence 
the marriage decisions of a child's parents. In National Welfare Rights 
Organization v. Cahill, 411 U.S. 619 (1973), a New Jersey welfare 
provision that limited benefits to families where there were two adults 
``ceremonially married to each other'' was struck down as a violation 
of the Constitution's Equal Protection Clause. The Court held that 
penalizing children by restricting welfare benefits to them because of 
the marital decisions of their parents ``is illogical and unjust.''
---------------------------------------------------------------------------
    \xxvii\ Skinner v. Oklahoma ex rel. Williamson, 316 U.S. 535, 541 
(1942).
    \xxviii\ Loving v. Virginia, 388 U.S. 1, 12 (1967).
    \xxix\ Griswold v. Connecticut, 381 U.S. 479, 495 (1965).
    \xxx\ Eisenstadt v. Baird 405 U.S. 438, 453-54 (1972).
    \xxxi\ Id. at 453.
---------------------------------------------------------------------------
    Government programs promoting marriage may invade this right to 
privacy and may encourage the kind of differential treatment of 
children in non-marital families that the Supreme Court condemned in 
NWRO v. Cahill. They certainly pose concerns regarding voluntariness 
and coercion. It is critical that if Congress funds these programs with 
tax dollars, that they neither require nor encourage incentives for 
states to coerce low-income women into trading away their fundamental 
rights to marry or not to marry. As such, federal mandates on states to 
set numerical goals are not appropriate. There are currently no clear 
protections in the House bill with respect to voluntariness or non-
coercion. Those protections are essential, although it is hard to 
conceive of provisions that would genuinely protect voluntariness in a 
program that supplies a lifeline to desperate families in need of help 
in supporting their children. Along the same lines, states must not be 
permitted to discriminate based on marital status or family formation. 
To that end, TANF reauthorization should include language that 
prohibits states from treating equally needy families differently based 
on marital status or family formation. This will correct discriminatory 
policies and practices against married families, without swinging the 
pendulum to permit discrimination against single or cohabitating 
families.
    Marriage does not address the causes of women's poverty and is not 
a solution. Common sense tells us that two incomes are better than one 
and thus more likely to move people off of welfare. But a closer look 
at the facts shows that marriage is not the simple solution to poverty 
that it is made out to be.
    First, forming a two-parent family does not guarantee economic 
security. Forty percent of all families living in poverty are two-
parent families. Thus, two-parent families are not immune to poverty or 
the economic stresses single parent families face.
    Second, due to death and divorce, marriage does not ensure women's 
economic security. Approximately 40% of marriages end in divorce\xxxii\ 
and 12% end due to the husband's death.\xxxiii\ Among women currently 
on welfare, about 40% are married or were married at one time: 18.4% 
are married; 12.3% are separated; 8.3% are divorced; and about 1% are 
widows. A significant number of divorces and separations are due to 
domestic violence. In these cases it is futile to claim that marriage 
would provide security, economic or otherwise. Indeed, there is no 
simple causal relationship between single motherhood and poverty.
---------------------------------------------------------------------------
    \xxxii\ The National Marriage Project, Annual Report: the State of 
Our Unions: the Social Health of Marriage in America, 2000 (June 2000), 
available at http://marriage.rutgers.edu/NMPAR2000.pdf.
    \xxxiii\ United States Census Bureau, Current Population Reports, 
Series No. P20-514, Marriage Status and Living Arrangements: March 1998 
(Update) (2000), available at http://www.census.gov/prod/99pubs/p20-
514u.pdf.
---------------------------------------------------------------------------
    The reasons that women, more than men, experience an economic 
downfall outside of marriage include: primary care giving 
responsibility for children which--without attendant employment 
protections and due to lack of quality, affordable, accessible child 
care--makes unemployment or underemployment inevitable; discrimination 
in the labor market; and domestic violence. Without addressing the 
factors that keep women from being economically self-sufficient, 
marriage and family formation advocates are merely proposing to shift 
women's ``dependence'' from the welfare system to marriage. That 
certainly does not promote individual responsibility, nor is it a 
policy solution for genuine, reliable, economic security.
    On the other hand, a policy that invests in education, training and 
work supports empowers women to achieve true economic security. In 
2000, only 1.2% of single mothers with a college degree who worked 
full-time year round lived in poverty. Less than eight percent of 
single mothers with some college working full-time lived in 
poverty.\xxxiv\ This is by far the best poverty reduction statistic; a 
clear indication of what strategy will work best in lifting families 
out of poverty.
---------------------------------------------------------------------------
    \xxxiv\ Neil G. Bennett, et. al., National Center for Children in 
Poverty, Young Children in Poverty: A Statistical Update, June 17, 
1999, available at http://cpmcnet.columbia.edu/dept/nccp/99uptext.html.
---------------------------------------------------------------------------
    In fact, the approach to marriage advocated by H.R. 240 has it 
backwards. Economic security is more likely to lead to successful 
marriage than is marriage likely to lead to economic security. The 
outcomes of the Minnesota Family Investment Program (MFIP) support this 
conclusion. MFIP reached welfare-eligible single and two-parent 
families and focused on participation in employment services for long-
term welfare recipients combined with financial incentives to encourage 
and support work. These work supports include child care, medical care, 
and rewarding work by helping the family to develop enough earning 
power to survive financially without cash assistance before cutting off 
their benefits. A study comparingthe economic progress of those in the 
standard AFDC welfare program with MFIP participants found that only 
14% of AFDC recipients compared with 25% of families in the MFIP 
program were out of poverty within 2\1/4\ years and the MFIP families 
had on average $1400 more in annual income. After 36 months MFIP 
participants were 40% more likely to be married than participants in 
the standard AFDC program, and nearly 50% less likely to be divorced 
after five years. The MFIP program shows that allowing families to 
combine welfare and work, and providing work supports to help 
individuals become economically secure, are approaches that will 
strengthen marriage and reduce divorce.\xxxv\
---------------------------------------------------------------------------
    \xxxv\ Manpower Demonstration Research Corp. (MDRC), chap. 6, 
available at http://www.mdrc.org/Reports2000/MFIP/MFIP-Vol-1-Adult.pdf.
---------------------------------------------------------------------------
    Investments in education, training and work supports can both 
empower women to achieve economic security (thereby economically 
empowering couples as well) and strengthen marriages. If Congress takes 
this approach it can enable individuals to achieve their own goals, 
without invading their privacy or endangering their families.
    Work Hours Should Not Be Increased for TANF Recipients, and Job 
Training Oppertunities And Education Should Be Recognized As Work. Job 
discrimination is a factor in placement of TANF recipients in jobs that 
pay wages that can lift a family out of poverty. Many jobs in which 
women are poorly represented, such as jobs in the skilled trades, 
technology, law enforcement and the computer industry, to name just a 
few examples, pay good wages with benefits and provide opportunities 
for career advancement.
    The importance of nontraditional jobs for women is highlighted by 
the wage gap. In 1999, women earned only 72% of what men earned.\xxxvi\ 
Median weekly earnings for full-time wage and salary workers in 1999 
were $473 for women and $618 for men.\xxxvii\ Nationwide, working 
families lose $200 billion of income annually to the wage gap. This 
amounts to an average loss of more than $4,000 each for working women's 
families every year because of unequal pay, even after accounting for 
differences in education, age, location and the number of hours 
worked.\xxxviii\ The wage gap is even more pronounced for women of 
color. African-American women are paid 65% of the salaries averaged by 
white men, while Latinas receive a mere 52%.\xxxix\
---------------------------------------------------------------------------
    \xxxvi\ Nat'l Comm. on Pay Equity, ``The Wage Gap: 1999.''
    \xxxvii\ U.S. Dep't of Labor, Women's Bureau, ``20 Facts on Women 
Workers,'' (Mar. 2000), available at http://www.dol.gov/dol/wb/public/
wb_pubs/20fact00.htm
    \xxxviii\ AFL-CIO fact sheets, available at: http://www.aflcio.org/
women/equalpay.htm and http://www.aflcio.org/women/exec99.ht
    \xxxix\ Nat'l Comm. on Pay Equity, ``Advocates Take Action for Fair 
Pay,'' press release (Mar. 13, 2001).
---------------------------------------------------------------------------
    Welfare reform has further exacerbated the effects of the wage gap. 
The average disposable income of the bottom fifth of single-mother 
families increased between 1993 and 1995, but declined between 1995 and 
1997 just as welfare reform was being implemented.\xl\ For welfare 
recipients who have found jobs, occupational segregation by gender 
relegates women to low-paying jobs that provide no way out of poverty. 
One study by Mathematica Policy Research, Inc., found that 62.6 percent 
of welfare recipients were employed in female-dominated service sector 
or clerical jobs, with wages averaging $6.50 an hour.\xli\
---------------------------------------------------------------------------
    \xl\ Center on Budget and Policy Priorities, ``The Initial Impacts 
of Welfare Reform on the Incomes of Single-Mother Families,'' 9 (Aug. 
1999).
    \xli\ Rangarajan, Anu et al., ``Employment Experiences of Welfare 
Recipients Who Find Jobs: Is Targeting Possible?'' Mathematica Pol'y 
Res., Inc. (1998).
---------------------------------------------------------------------------
    Recognizing the disadvantages women face entering the workforce 
solely because of their gender, Congress should be aware of the 
benefits of nontraditional employment for women. Numerous studies have 
documented the success of nontraditional job training programs in 
placing women in higher paying jobs. For example, a study by Wider 
Opportunities for Women found that women who received training for 
nontraditional jobs earned between $8 and $9 an hour.\xlii\ By 
contrast, in 1997 the average welfare recipient moving from welfare to 
work earned between $5.60 and $6.60 an hour.\xliii\ Not only do 
nontraditional jobs provide higher entry-level wages, but they also 
provide career ladders to higher wages. For instance, an operating 
engineer could start by earning $9 per hour and eventually earn $24 per 
hour.\xliv\ Nontraditional jobs also provide women with increased 
access to a full range of benefits, such as health, family leave, sick 
leave, retirement plans, and paid vacation. Finally, nontraditional 
jobs can provide women with tremendous job satisfaction. Women in 
nontraditional jobs may gain confidence in performing physical labor 
and take pride in learning new and technical skills.
---------------------------------------------------------------------------
    \xlii\ Roberta Spalter-Roth et al., ``Welfare That Works: The 
Working Lives of AFDC Recipients, A Report to the Ford Foundation'' 
(1995), cited in Inst. for Women's Policy Research, Welfare Reform 
Network News 8 (Aug./Sept. 1997).
    \xliii\ U.S. General Accounting Office, ``Welfare Reform: States 
and Restructuring Programs to Reduce Welfare Dependence,'' 107 (June 
1998).
    \xliv\ Wider Opportunities for Women, Women and Nontraditional Work 
(June 1998) (citing U.S. Dep't of Labor, Bureau of Labor Statistics, 
and the U.S. General Accounting Office).
---------------------------------------------------------------------------
    The good news is that job availability is growing in many 
nontraditional fields, including service sector jobs in computer and 
data processing, and blue-collar jobs such as law enforcement, 
construction, and motor vehicle operation.\xlv\ At the same time, 
recent reports have detailed a shortage of workers in nontraditional 
fields.[xlvi] Due to demographic and economic changes, the traditional 
labor supply for the building industry (men between the ages of 18 and 
24) can no longer fill the demand for such jobs. Thus, for instance, 
the Home Builder's Institute has identified women as holding 
``tremendous promise for helping alleviate the labor shortage.'' 
\xlvii\ In short, significant job opportunities await women who gain 
access to training in nontraditional fields.
---------------------------------------------------------------------------
    \xlv\ U.S. Dep't of Labor, Bureau of Labor Statistics (1999) 
(projecting an average annual growth rate of 7.6% for computer and data 
processing services, and projecting that law enforcement positions will 
grow 30.8% from 1998 to 2008, that construction jobs will grow 8.4%, 
and that motor vehicle operation jobs will grow 15.6%.
    \xlvi\ Dirk Johnson, ``Facing Shortage, Building and Labor Court 
Workers,'' N.Y. Times, Mar. 13, 1999, at A1.
    \xlvii\ Home Builder's Inst., ``Nontraditional Labor: Other Sources 
of Workers'' and ``Nontraditional Labor: NAHB Women's Council and HBI 
Opening New Doors Guide,'' available at: http://www.hbi.org/ls/
index.htm
---------------------------------------------------------------------------
    The current proposal for TANF reauthorization before this 
subcommittee increases work hours but decreases flexibility for states 
to implement education and training programs that can lead to higher 
wages. Congress should instead eliminate the current restrictions on 
education and training and encourage states to implement programs that 
will lead to placement of former recipients in jobs that pay a living 
wage.
    Lack of Child Care is A Serious Barrier to Work for TANF Recipients 
And Leavers. Both state and federal law recognize the importance of 
child care to parents in welfare-to-work programs by providing parents 
with certain rights and options. Federal TANF law includes an exemption 
from sanctions if a parent cannot work due to lack of child 
care.\xlviii\ In addition, TANF requires that information about the 
sanction prohibition be given to parents so they are not coerced into 
using unsuitable care.\xlix\ In all states, Child Care Development 
Block Grant (CCDBG) money is available for TANF recipients and those 
moving off of welfare into work. Under the CCDBG, states must insure 
parental choice for families with child care subsidies.
---------------------------------------------------------------------------
    \xlviii\ 42 U.S.C. Sec. 607(e)(2) (2000); N.Y. Soc. Serv. Law 
Sec. 342(1) (2000).
    \xlix\ 45 C.F.R. Sec. 261.56 (2000); 45 C.F.R. Sec. 98.33 (2000).
---------------------------------------------------------------------------
    Despite these legal protections, however, the ``work first'' 
initiatives of some states have made the sanction protection 
ineffective. Many poor women are either sanctioned for failing to 
cooperate with work requirements when they cannot find child care for 
their children or are forced to use inadequate child care so that they 
can meet work requirements and avoid sanctions. In New York City, for 
example, a survey conducted by Legal Momentum found that 79% of 
respondents had not received written information about their child care 
rights, as mandated by the state and city's most recent policy 
directives; 95% of respondents were not informed by their caseworkers 
that they could not besanctioned if they were unable to work due to 
lack of child care; 46% of respondents were threatened with sanctions 
if they were unable to work even if the reason was lack of child 
care.\1\
---------------------------------------------------------------------------
    \1\ Roslyn Powell and Mia Cahill, Nowhere to Turn: New York City's 
Failure to Inform Parents on Public Assistance About Their Child Care 
Rights (NOW Legal Defense, 1999); Still Nowhere to Turn (forthcoming 
April, 2000)
---------------------------------------------------------------------------
    Misinformation and threats of sanctions mean that parents may be 
effectively coerced into placing their children in inappropriate child 
care arrangements in order to comply with work requirements. For 
example, in New York, TANF recipients are given only 10 days to find 
child care for their children. It is not surprising with so little time 
to find care that 89% of parents on TANF in New York City use informal 
care--in contrast to only 2% of non-TANF low income families who 
receive child care from the City. This powerfully suggests that parents 
on TANF are being pressured into using unregulated, informal care--or 
no care at all--because they wrongly fear losing their benefits.
    At the same time, more money is needed to insure that subsidies 
will get to more than a fraction of the families eligible for them. 
This is a particularly serious problem for women leaving welfare for 
work. A recent HHS study found that only 10% of those eligible for 
child care subsidies receive them.\li\ There are long waiting lists for 
child care in most states. In New York City alone, over 38,000 children 
are on waiting lists for subsidized care; in California, nearly 
200,000.\lii\ Lack of child care for welfare leavers virtually assures 
they will not be able to retain employment or that their children will 
go uncared for. In particular, in light of the acknowledged scarcity of 
quality care for very young children, the proposal to raise the work 
requirement hours for women with infants and toddlers that is contained 
in H.R. 240 isunconscionable. The work hours for single parents with 
pre-school age children should not be raised.
---------------------------------------------------------------------------
    \li\ U.S. Dept. of Health and Human Services, Access to Child Care 
for Low Income Working Families, www.acf.dhhs.gov/programs/ccb/reports/
ccreport.htm
    \lii\ Child Care, Inc., A Child Care Primer, Key Facts About Child 
Care and Early Education Services in New York City, 2000, i.
---------------------------------------------------------------------------
    Domestic Violence Is A Factor in the Lives of Many Poor Women and 
the Needs of Violence Victims Must Be Better Addressed in the TANF 
Program. As discussed above, domestic violence is a prevalent factor in 
the lives of TANF recipients and, in turn, can pose a significant 
barrier when an individual tries to leave welfare for work. Many 
abusers actively sabotage their partners' job or job prospects by 
verbally abusing their partners before interviews, by inflicting 
injuries before important work events or by refusing child care at the 
last minute.\liii\ They may stalk, harass or even assault their 
partners at their work placements or new jobs.\liv\ In addition, 
individuals experiencing domestic violence may need to take time during 
business hours to seek legal, medical or other assistance. 
Unfortunately, unless the underlying violence is addressed, individuals 
who do succeed in leaving welfare may end up losing their new jobs 
because of the violence. Studies indicate that up to one-half of 
employees who have experienced domestic violence have lost a job due to 
that violence.\lv\ For example, in a recent Wisconsin study of current 
and former welfare recipients who had experienced domestic violence, 
30% had lost a job due to violence and 58.7% were threatened so much 
that they were afraid to work or go to school.\lvi\
---------------------------------------------------------------------------
    \iii\ See U.S. Gen. Acct. Office, Domestic Violence Prevalence and 
Implications For Employment Among Welfare Recipients 7 (Nov. 
1998);Thomas Moore and Vicky Selkowe, Institute for Wisconsin's Future, 
Domestic Violence Victims in Transition from Welfare to Work: Barriers 
to Self-Sufficiency and the W-2 Response 6 (1999); Jody Raphael, Taylor 
Institute, Prisoners of Abuse: Domestic Violence and Welfare Receipt 6-
10 (1996).
    \liv\ Studies indicate that between 35 and 56% of employed battered 
women surveyed were harassed at work by their abusive partner. See U.S. 
Gen. Acct. Office, Domestic Violence Prevalence and Implications For 
Employment Among Welfare Recipients 19 (Nov. 1998) (summarizing the 
results of 3 studies).
    \lv\ See U.S. Gen. Acct. Office, supra note 8, at 19.
    \lvi\ Moore & Selkowe, supra note 7, at 5-6.
---------------------------------------------------------------------------
    In 1996, Congress recognized that the new welfare work requirements 
and time limits might unfairly penalize families attempting to leave 
violent relationships when it attached the Wellstone/Murray Amendment 
to the TANF statute. This amendment, popularly known as the Family 
Violence Option (FVO), permits States to provide temporary waivers of 
TANF program requirements.\lvii\ The goal of the FVO is to permit 
individuals to engage in activities other than work that will help them 
escape from violence in the long run, such as attending counseling or 
seeking legal assistance, and to give extra time to families to become 
self-sufficient so that they are not forced to rely on batterers for 
financial assistance. Specifically, a state that adopts the FVO must 
create a mechanism to screen for domestic violence; refer recipients 
who screen for domestic violence to services; and may waive any TANF 
requirement that ``would make it more difficult for individuals 
receiving assistance... to escape domestic violence or unfairly 
penalize such individuals.'' \lviii\
---------------------------------------------------------------------------
    \lvii\ 42 U.S.C. Sec. 602 (a)(7).
    \lviii\ Id.
---------------------------------------------------------------------------
    Since 1996, a majority of states have adopted the FVO or have made 
some provision for domestic violence in their state policies or 
procedures.\lix\ Unfortunately, implementation of the FVO continues to 
lag. Experience with the FVO has indicated that caseworker training is 
desperately needed so that caseworkers will understand how to talk to 
women who are victims of violence and that better screening techniques 
are needed. A mandatory FVO would both add violence protection for 
women who are victims and also enable oversight of the way in which the 
FVO is implemented.
---------------------------------------------------------------------------
    \lix\ See generally, Jody Raphael and Sheila Haennicke, Taylor 
Institute, Keeping Battered Women Safe Through the Welfare-to-Work 
Journey: How Are We Doing? A Report on the Implementation of Policies 
for Battered Women in State Temporary Assistance for Needy Families 
(TANF) Programs 4 (1999)
---------------------------------------------------------------------------
    Acess to Public Benefits for Immigrant Victims of Domestic 
Violence, Sexual Assault and Trafficking. Like many other immigrants 
who entered the country after August 22, 1996, immigrant victims of 
domestic violence, sexual assault, trafficking, and other crimes, face 
restrictions to essential safety net services, including TANF. These 
services are critical in assisting victims' escape from family 
violence. Although current laws make allowances for some of these 
women, gaping holes in eligibility remain.
    We know that the level of economic resources available to an abused 
woman is the best indicator of whether a victim permanently escapes 
domestic violence. Many immigrants who are victims of domestic 
violence, sexual assault, and trafficking are economically, culturally, 
and socially isolated. They are more likely to have limited English-
speaking skills, lack education or employment skills, and be totally 
dependent on their abuser for support. In fact, many immigrant victims 
stay trapped in violent and abusive relationships for years because 
there is no way for them to support themselves or their children 
economically. Without access to public benefits, too many immigrant 
victims of crimes against women cannot adequately feed, clothe, or care 
for their children. These crime victims and their children often lack 
health care or live in substandard housing, and some even become 
homeless.
    To remedy these problems, we support inclusion of the Women 
Immigrant Safe Harbor (WISH) Act in TANF Reauthorization. WISH would 
ensure that no five-year bar to accessing services will apply to cases 
of immigrant victims of domestic violence, trafficking, and sexual 
assault and would provide direct access to public benefits for these 
victims. Additionally, WISH would ensure that all immigrant victims of 
violence would have the full protection of VAWA confidentiality 
provisions and would be able to start violence-free and self-sufficient 
lives for themselves and for their children.
    Mothers' Care Giving Is Work and Does Have Value. The idea that a 
mothers' care giving work has no value is central to the welfare reform 
debate. It is repeated over and over again that reform aims to move 
recipients ``from welfare to work,'' as if only mothers with paid 
employment are working. Rising employment for TANF recipients is said 
to show success in inculcating the work ethic, as if recipient mothers 
have been idling away their time in activities with no social value. 
This notion that mothers' care giving work is valueless is false and 
pernicious.\lx\
---------------------------------------------------------------------------
    \lx\ Fathers also give care, but even when fathers are present, 
mothers still typically perform the bulk of the care giving work. Ann 
Crittenden, The Price of Motherhood at 24-25 (2001).
---------------------------------------------------------------------------
    As indicated in the discussion of child care, mothers who receive 
public assistance and former recipients of assistance are likely to be 
single and more likely than other low income women to have small 
children.\lxi\ It is outrageous to claim that these women caring for 
their pre-school children have no exposure to a work ethic. Mothers 
were well acquainted with ``24-7'' eons before there were dot coms and 
e-commerce. Mothers have been obligated to work from the first instant 
of a child's life long before ``work first'' became a slogan for 
denying women the opportunity to participate in education and training 
programs.
---------------------------------------------------------------------------
    \lxi\ See n. 20, supra.
---------------------------------------------------------------------------
    Perhaps mothers' care giving work is ignored and dismissed because 
it is not paid, and therefore is not included in our Gross National 
(Domestic) Product. But our economicsystem's failure to properly 
account for unpaid care giving should not blind us to care giving's 
fundamental importance. Indeed, probably never before in human history 
has care giving been more important or essential to social and economic 
well being. Today, human capital is an even more important component of 
a nation's riches then natural capital or physical capital. The quality 
of early care is one of the most important determinants of human 
intellectual and emotional development. Care and guidance of the young 
child lays the essential groundwork for the formation of knowledge and 
skills. Where valuing of care has been done, the value has been found 
to be high. In Canada, the 1996 census for the first time measured 
unpaid care giving work done at home. The value placed on that work--
two thirds of which was done by women--came to between $221 and 324 
billion.\lxii\ Those advocating this valuation stated that they did not 
expect actual payment, but their goal was to have this work ``counted 
and recognized when formulating public policy.'' Policy debates in the 
United States must also start counting and recognizing the valuable 
work that all mothers--including poor single mothers--perform when they 
care for their young children.
---------------------------------------------------------------------------
    \lxii\ Robin Harvey, ``Women Want Value Placed on Unpaid Work in 
the Home,'' TORONTO STAR (February 5, 1998) B5, available 1998 WL 
17792562.
---------------------------------------------------------------------------
    Indeed the dollar cost to the nation of providing quality care for 
poor young children while their mother works outside the home is 
potentially greater than the cost of income maintenance for that mother 
to care for her own child. Child care monthly reimbursement rates under 
the CCDBG, uniformly seen as inadequate, are still higher for a single 
infant in a licensed care facility in 40 states than is the monthly 
income maintenance grant for a family of 3 under TANF in those 
states.\lxiii\
---------------------------------------------------------------------------
    \lxiii\ National Child Care Information Center, Child Care and 
Development Block Grant (HHS, March 1998), 63-67; compare with GREEN 
BOOK, n. 4, supra, Table 7-10, pp. 389-390.
---------------------------------------------------------------------------
    While it is important that TANF maintain a focus on providing 
pathways to good jobs for poor families, it is also important that the 
value of the work done by women caring for young children be recognized 
and valued. Particularly in the absence of affordable child care for 
very young children, Congress should ask the question whether it might 
not be better, more moral and, indeed, more economical, to allow poor 
women who wish to do so to care for their young children in their own 
homes rather than insisting that the only valuable work to be performed 
is that which is done outside the home.\lxiv\ At a minimum, however, 
the work requirements for single parents with young pre-school children 
should not be raised from what they currently are under the TANF 
program and efforts to do so under H.R. 240 should be rejected.
---------------------------------------------------------------------------
    \lxiv\ For an excellent portrait of a welfare ``success story,'' 
and the enormous costs to both children and mothers when working 
outside the home is the paramount goal, see Katherine Boo, ``After 
Welfare,'' The New Yorker (April 9, 2000), pp. 93-107.

---------------------------------------------------------------------------
                                 <F-dash>

    Mr. ENGLISH. Certainly, that is by unanimous consent. The 
Chair will now recognize Kathleen Curran, policy advisor for 
the U.S. Conference of Catholic Bishops. Welcome.

   STATEMENT OF KATHLEEN A. CURRAN, POLICY ADVISOR, THE U.S. 
                 CONFERENCE OF CATHOLIC BISHOPS

    Ms. CURRAN. Thank you very much. I want to thank Chairman 
Herger, and the Ranking Member, Mr. McDermott, and all of the 
Committee Members for the opportunity to be here today to share 
with you the views of the Bishops Conference on TANF 
reauthorization.
    The Conference views TANF reauthorization as both an 
opportunity and a challenge to sharpen our Nation's focus on 
the persistent problem of poverty and the tragedy of so many 
families living without dignity and hope. The moral measure of 
our society is how we treat the least among us, and the goals 
of national welfare policy should be to reduce poverty and to 
improve the lives of our children.
    In a recent statement, A Place at the Table, the bishops 
observed that in order to address poverty effectively, four 
institutions in our society must work together according to 
their respective roles and responsibilities: First, families 
and individuals must work for and respect their own dignity and 
rights and those of others. Community organizations and faith-
based institutions have a role to play in helping families make 
good choices and assisting them with material needs. The 
private sector contributes to the common good through 
production and the creation of jobs. Finally, government. 
Government serves the common good by providing a safety net for 
the vulnerable and addressing problems that are beyond the 
capacity of the individual or communities to address.
    One problem I see in the poverty debate sometimes and in 
the TANF debate is that many focus on just one of these 
institutions and ignore the important roles of the others. We 
believe all four are essential to effectively address poverty. 
The Bishops Conference have developed criteria for welfare 
reform, which I would like to share with you now, and they are 
based upon both Catholic social doctrine and our church's 
experience in serving the poor among us. The criteria call for 
welfare policies that will protect human life and human 
dignity, strengthen family life, encourage and reward work, 
preserve a safety net for the vulnerable, build public-private 
partnerships working to overcome poverty and invest in human 
dignity.
    With those criteria in mind, TANF policy should seek to 
reduce poverty through a three part strategy of supporting 
work, strengthening family life and marriage and sustaining the 
needy and vulnerable among us, especially our children, and, of 
course, we need to ensure adequate resources to accomplish 
these goals. My written testimony goes into more detail in each 
of these three areas, but I will just make a few points right 
now. First, the conference agrees that TANF should support and 
encourage efforts by recipients to work. Work is the ordinary 
means by which individuals support themselves and their 
families and contribute to the common good.
    The TANF program should provide participants with the 
support they need to get and keep productive work, with wages 
and benefits, so they and their families can leave welfare and 
poverty behind for good. In this area, we urge Congress to 
consider giving States more flexibility to consider serious 
efforts of education and job training toward the work 
requirements, for example, by letting education and training 
count for more than the current 12 months allowed under the 
law. We, also, urge you to make sure that working parents have 
access to safe, affordable child care at the hours that they 
need it for different shifts that they might work.
    Second, on marriage. The Catholic community has 
consistently affirmed the vital importance of marriage for 
raising children. Children do better economically, emotionally 
and spiritually when raised by both parents in the context of a 
stable, healthy marriage. Our Nation should make appropriate 
efforts to support healthy marriages by assisting single 
parents considering marriage and helping married parents stay 
together.
    Unfortunately, domestic violence, destructive behavior, and 
the widespread tragedy of divorce are realities for far too 
many families, leaving many single parents struggling to 
support children on their own. It is essential to do three 
things: to develop appropriate policies and programs to support 
and strengthen marriage; to assist and protect families 
threatened by domestic violence; and to enable all parents, 
married or single, to meet the needs of their families.
    Third, on the eligibility of legal immigrants for public 
benefits, the Bishops Conference has long advocated for the 
availability of basic necessities to all those in need, 
regardless of their race, creed, ethnic origin or nationality. 
Immigrants who come here and play by the rules, and work and 
pay taxes and make significant contributions to our economy 
with their labor, when they are in need, as a matter of 
justice, they should have access to the public programs, 
especially the children in the families who are paying taxes. 
They should have access to the public programs in need. In 
conclusion, I would just like to say that welfare policy should 
not be a choice between encouraging greater individual 
responsibility or greater social responsibility. Both are 
necessary to help families overcome poverty.
    Welfare policy should not be a choice between investing, on 
the one hand, in work, child care or education and training or, 
on the other hand, recognizing the importance of healthy 
marriages and responsible parenthood. Both are necessary to 
improve children's lives. Children's lives and their hope for 
the future are enhanced or diminished by the choices of their 
parents and by the policies of their government. Thank you very 
much for the opportunity today to share the Bishops' views. We 
are grateful for the Subcommittee's hard work over the last 3 
years on TANF reauthorization, and we hope our comments prove 
helpful as you return to the task this year.
    [The prepared statement of Ms. Curran follows:]

Statement of Kathleen A. Curran, Policy Advisor, The U.S. Conference of 
                            Catholic Bishops

    Chairman Herger and Members of the Subcommittee, my name is 
Kathleen A. Curran and I am a policy advisor on health and welfare 
issues with the United States Conference of Catholic Bishops. I welcome 
this opportunity to share with you the views of the Bishop's Conference 
as you consider proposals for reauthorization of the Temporary 
Assistance for Needy Families block grant program (TANF). This 
testimony reflects the criteria for welfare reform adopted by the 
Administrative Committee of the Conference.
    When considering proposals for TANF reauthorization, the Bishops' 
Conference turns to both Catholic social doctrine and experience in 
serving the poor. The Bishops are guided by consistent Catholic moral 
principles and traditional values: respect for human life and dignity; 
the importance of family and the value of work; an option for the poor 
and the call to participation; and the principles of subsidiarity and 
solidarity.
    The Bishops' Conference also draws upon the Church's experience 
living with, serving, and welcoming as members the poor among us. The 
poor are our neighbors and our parishioners. The Catholic community is 
the largest nongovernmental provider of human services to poor 
families. We meet the poor in our soup kitchens, shelters and Catholic 
Charities agencies. The Catholic community has lived with the realities 
of welfare reform, encouraging and helping people to make the 
transition from welfare to work. Some are moving ahead and we welcome 
and celebrate their progress. But we also live with those who are left 
behind, who turn to our parishes, eat in our soup kitchens, sleep in 
our shelters and ask for our help. Refining our policy to help ``the 
least of this'' is the unfinished task for our nation, pledged to 
Aliberty and justice for all.
    As the Bishops wrote in their statement, A Place at the Table, our 
efforts to serve and stand with the poor recognize and build on the 
essential roles and responsibilities of four institutions. Families and 
individuals must work for and respect their own dignity and rights and 
those of others. Community organizations and faith-based institutions 
help families by helping them make good choices, assisting with 
material needs and working to overcome discrimination and injustice. 
The private sector--the marketplace and institutions of business, labor 
and commerce--contributes to the common good through production and the 
creation of jobs, and should do so in a way that reflects our society's 
values and priorities. A key measure of the marketplace is whether it 
provides decent work and wages, especially for those on the margins of 
economic life. Finally, government has an essential role and 
responsibility in serving the common good, providing a safety net for 
the vulnerable, helping to overcome injustice and addressing problems 
beyond the capacity of individual or community efforts. One problem in 
the poverty debate is that many focus on one of these institutions and 
ignore the importance of the others.
    With these themes and our everyday experiences in mind, our 
Conference applies six principles, first articulated by the 
Administrative Board of the Bishops Conference in 1995, in evaluating 
proposals for changes during TANF reauthorization. The Conference urges 
lawmakers to enact policies that:
    Protect human life and human dignity: A fundamental criterion for 
all public policy, including welfare policy, is respect for human life 
and human dignity. Our nation must protect the lives and dignity of all 
children, both born and unborn, and develop policies that safeguard 
children and discourage inappropriate or morally destructive behavior.
    Strengthen family life: Welfare policy should affirm the importance 
of marriage, strong intact families, personal responsibility, self-
discipline, sacrifice and basic morality. It should help mothers and 
fathers meet the social, economic, educational and moral needs of their 
children. Our society should strive to keep marriages strong and 
families together, and, when that is not possible, to keep both mothers 
and fathers involved in the lives of their children in a healthy and 
constructive manner.
    Encourage and reward work: Work is the means by which individuals 
support themselves and their families, and participate in Gods 
creation, express their dignity, and contribute to the common good of 
society. Those who can work, should work. The challenge is to ensure 
that our nations policies support productive work with wages and 
benefits that permit a family to live in dignity.
    Preserve a safety net for the vulnerable: Society has a 
responsibility to help meet the needs of those who cannot care for 
themselves, who cannot work or whose work is caring for young children 
or disabled family members. Our policies should help and sustain the 
most vulnerable among us, enhancing the ability of all children, 
including immigrant children, to grow into productive adults. Legal 
immigrants should be eligible for benefits on the same terms as 
citizens, and the children of undocumented persons should not be left 
without help.
    Build public/private partnerships to overcome poverty: Overcoming 
poverty and dependency requires creative, responsive and effective 
actions in both the public and private sectors. Our nation must bring 
together the roles and responsibilities of the federal and state 
governments, private entities, and faith-based institutions and 
community organizations in fighting poverty. While the active role of 
states and of faith-based and community groups is crucial, their 
efforts cannot replace the essential responsibility of the federal 
government, on behalf of our entire society, to establish just public 
policy and to commit sufficient national resources to insure that the 
basic needs of the American people are met.
    Invest in human dignity: The commitment and effort of individuals 
seeking to leave welfare for work, poverty for self-sufficiency, must 
be met by continued public commitment to provide jobs, training, 
education, child care, health care, transportation and other supports 
necessary to make that transition successfully and to help families 
live in dignity.
    In pursuing these principles, the Bishops' Conference believes 
welfare policy should not be a choice between encouraging greater 
responsibility or promoting greater social responsibility B both are 
necessary to help families overcome poverty. Welfare policy should not 
be a choice between investing in work, child care, and education and 
training, or recognizing the importance of healthy marriages and 
responsible parenthood B both are necessary to improve childrens lives. 
Childrens lives and their hope for the future are enhanced or 
diminished by the choices of their parents and the policies of their 
government. Reauthorization is an opportunity to improve TANF to 
encourage wise choices by their families and wise investments by our 
nation in decent work, child care, and education and training.
    In considering how to amend TANF, Congress must keep in mind the 
real families, real individuals, and real children whose lives will be 
deeply affected by the changes that will be made in TANF. TANF 
reauthorization is both an opportunity and a challenge. Congress must 
sharpen its focus on the persistent problem of poverty and the tragedy 
of so many families living without dignity and hope in our nation. The 
goals of national welfare policy should be to reduce poverty in this, 
the most prosperous of nations, and to improve the lives of our 
children.
    To accomplish this, TANF policy should seek to reduce poverty 
through a three-part strategy of (1) supporting work, (2) strengthening 
family life and marriage, and (3) sustaining the needy and vulnerable 
among us, especially our children, and it should ensure adequate 
resources to accomplish these goals. The Bishops' Conference is 
grateful that over the past two years Congress has remained committed 
to maintaining the current TANF block grant funding level, and we urge 
you to continue that commitment.
    The Bishops' Conference advocates several specific policy 
directions in each of these three areas, some of which have been 
included in bills considered by this subcommittee over the past two 
years.
Supporting Work
    The Bishops' Conference strongly supports continuing the emphasis 
of TANF on work. Work is the ordinary means by which individuals 
support themselves and their families and contribute to the common 
good. Our nations policies should support productive work with wages 
and benefits that permit families to leave welfare and poverty behind 
and to live in dignity and self-sufficiency. Many who leave welfare, 
even those who leave for jobs, are still living in poverty. The TANF 
program must be improved to provide participants with the support they 
need to get, and keep, a job that will take them out of poverty. 
Policies that would continue the work-first focus of TANF while 
supporting family life include:
    Expanding the definition of work: TANF recipients need more than 
just any job B they need a pathway out of poverty, and for many that 
means access to education and job training, and in some cases, 
treatment for substance abuse or mental or physical disability, as well 
as a job. Serious efforts at education, job training or overcoming 
addiction are hard work and should be recognized as such. States should 
have greater flexibility to count genuine job training, vocational and 
post-secondary education as work. Currently, states may only allow 
individuals to count such activities as work for 12 months; the 
Bishops' Conference supports increasing that to 24 months. The 
Conference also supports allowing states to count serious treatment for 
substance abuse, mental or physical disabilities, and domestic violence 
toward core work requirements, for a length of time sufficient to 
complete effective treatment programs.
    Sensible and fair work requirements: Under TANF, states are 
evaluated on the basis of the proportion of families receiving TANF who 
are engaged in work activities (the work participation rate) for a 
minimum number of hours per week. The caseload reduction credit rewards 
states for reducing their caseloads with a reduction in the work 
participation rate they must satisfy. Many of the proposals considered 
over the past two years have called for increases in the work 
participation rate, the minimum weekly work requirement, or both, as 
well as changes in the caseload reduction credit.
    The combined effect of any changes in these policies should not 
unfairly burden either states or families on TANF. Our welfare policy 
should have sensible and fair work requirements that will allow parents 
on welfare to meet their obligations to their families while working. 
The Congress should also be wary of limiting state flexibility by 
imposing ``one size fits all'' rules that would hinder states' ability 
to continue or create programs that will effectively help TANF families 
move from welfare to achieving self-sufficiency through work.
    The Bishops' Conference has previously expressed our deep concerns 
about bills that have come before the House of Representatives that 
would both increase the work participation rate for all states to 70% 
and raise the minimum weekly work requirement to 40 hours--for all 
parents, including those with children under six years old. We would 
urge Congress to maintain the current weekly hours requirement, and to 
continue to require fewer hours of parents with young children. The 
Conference also suggests that Congress consider replacing the caseload 
reduction credit with a mechanism that rewards states for placing TANF 
recipients in stable jobs with adequate wages. Finally, any increase in 
the work participation rate should focus on encouraging states to 
improve their own current efforts, instead of imposing a uniform 
requirement on all states.
    Work supports: child care, Medicaid and food stamps: Finding and 
paying for adequate child care can be one of the biggest challenges 
facing parents trying to move from welfare to work. The problem is 
exacerbated for parents who work at times when child care is 
particularly hard to find. All working parents, including those who 
must work weekend or night shifts, must have access to safe, affordable 
child care at the times they need it by increasing funding for federal 
child care assistance.
    As welfare recipients make the transition from cash assistance to 
relying on their wages alone, access to noncash benefits such as food 
stamps and Medicaid can mean the difference between success or failure, 
hunger and illness or progress. The law should ensure that those 
leaving welfare automatically receive transitional Medicaid and food 
stamps for a full year after they leave TANF.
    Because of our concern that parents struggling to leave welfare 
receive these and other work supports, the Bishops' Conference has 
expressed concern with two aspects of bills previously approved by the 
Subcommittee: the provisions to allow some states to block grant food 
stamps, and to all Cabinet agencies to grant cross-departmental waivers 
in several programs. We urge you to reconsider these proposals to make 
sure that families leaving welfare are guaranteed access to the 
supporting benefits they need, such as food stamps for example, to 
successfully leave welfare behind.
Strengthening Family Life and Marriage
    The Catholic community has consistently affirmed the vital 
importance of marriage for raising children. Children do better 
economically, emotionally, and spiritually when raised by both parents 
in the context of a stable, healthy marriage. Our nation should make 
appropriate efforts to encourage abstinence before marriage, to assist 
single parents considering marriage and to help married parents to stay 
together. Unfortunately domestic violence, destructive behavior and the 
widespread tragedy of divorce are realities for far too many families, 
leaving many single parents struggling to support children on their 
own. These families deserve our help, too.
    It is essential to provide the resources necessary to enable all 
parents, married or single, to meet the needs of their families; to 
develop appropriate policies to support and strengthen marriage; and to 
assist and protect families threatened by domestic violence.
    Remove barriers and disincentives to two-parent families. Many 
states continue to implement policies that make it harder for two-
parent families to qualify for and receive TANF assistance. For 
example, two-parent families may be forced to wait longer for benefits 
to begin than single-parent families, or be disqualified because of the 
parents recent work history, even if the familys income is below the 
poverty level. Congress should require states to discontinue policies 
that act as a disincentive to marriage. Congress should also end the 
separate, more stringent work participation rate requirements for two-
parent families in TANF itself. The Conference was grateful that the 
bills previously approved by this Subcommittee encouraged states to 
treat two-parent families equitably.
    Help States Do More to Support Effective Marriage Programs: States 
should be encouraged to assist low-income married couples who would 
benefit from marital counseling or marriage-skills programs. The 
Conference supports efforts to provide new funding, in addition to the 
block grant, for grants to states to help low-income parents who are 
married, or who seek to marry, gain access to services they otherwise 
might not be able to afford, such as marriage counseling, relationship 
skills classes, premarital counseling and marriage preparation, 
marriage-skills classes. While many groups and faith-based 
organizations, including our Church, sponsor a range of marriage-
support programs, there is still much to learn about what strategies 
are most effective in addressing specific problems. Research and 
demonstration programs can help to identify and share effective and 
appropriate marriage and family formation programs. The Conference was 
pleased that several reauthorization proposals, including bills 
previously approved by the Subcommittee, would create funding for these 
purposes.
    Involve non-custodial fathers in their childrens lives. When 
parents are not married, our welfare policy should encourage the active 
presence of both parents in the lives of their children. Most often, 
that means keeping non-custodial fathers involved with their children. 
As with marriage-support programs, TANF should assist states to 
identify and support effective fatherhood programs that help fathers 
develop the economic and emotional capacity to support their children. 
The law should be also amended so that child support paid by non-
custodial fathers actually goes to support their children on TANF. This 
is another area where, the Conference is pleased to note, the bill 
approved by the Subcommittee last Congress took promising steps 
forward.
Sustaining the Needy and Vulnerable
    Restore benefit eligibility to legal immigrants: The 1996 welfare 
reform law treated legal immigrants harshly, categorically barring them 
from public benefits programs. The Bishops' Conference has worked to 
change the law, and are grateful for improvements that have restored 
eligibility for some legal immigrants. But most legal immigrants are 
still ineligible for public benefits such as food stamps, Medicaid and 
TANF unless they have been here for more than five years. The Bishops 
Conference has long advocated for the availability of basic necessities 
to all those in need, regardless of their race, creed, ethnic origin, 
or nationality. Legal immigrants pay taxes and make significant 
contributions to our economy with their labor. As a matter of justice, 
when people are in need, especially children, they should have access 
to the public programs supported by their family's taxes.
    End state family cap laws: The U.S. Conference of Catholic Bishops 
has long opposed policies that restrict or deny additional cash 
benefits when a TANF familys size increases because of the birth of a 
baby. The Conference is deeply concerned about their impact on the 
well-being of children, both born and unborn. We urge Congress to amend 
TANF to ban state family cap policies on both pro-life and pro-family 
principles. States should not be allowed to tell women they will pay 
for their abortions, but will not help them support new children. 
Policies that penalize families for having a new child by denying them 
additional TANF resources cannot be seen as pro-family or pro-life
    Allow TANF recipients to care for young children and disabled 
family members: Young children, the sick and the disabled are among our 
societys most vulnerable members. Their well-being often depends upon 
the ability of parents and family members to take care of them on a 
full-time basis. Under current law those same parents and family 
members may be forced to work outside the home or face the loss of the 
cash assistance their family needs to survive. Congress should amend 
the law so states have the option of using federal funds to continue 
cash assistance to full-time care givers for children under six or 
seriously ill or disabled family members.
    Ameliorate harsh sanction policies: It is not easy to develop 
welfare policy that ensures assistance for the needy without enabling 
the dependency of those who can and should support themselves. We must 
continue to demand responsibility and hard work from all those who can 
work, but we cannot abandon those among us who cannot help themselves, 
or who, with a little more time, patience and assistance would be able 
to help themselves and their families. The nation's goal must be to 
ensure that no one falls through the cracks of federal or state 
bureaucracies. To that end, the Bishops' Conference urges Congress to 
take a careful look at TANF sanction polices, and to consider requiring 
states to provide clear, understandable information to all recipients 
on what is required of them and the sanctions they face if they violate 
those requirements; to identify and work with families at risk of 
sanctions; to end full-family sanctions for a first violation; and to 
restore benefits immediately when a violation has been remedied by 
positive action by a recipient.
    Thank you for the opportunity to share the Bishops Conferences 
principles and policies on TANF reauthorization. As a nation we must 
strive to create an effective and flexible system of accountability and 
incentives for both individuals and states, a system that empowers a 
partnership of government agencies, community groups and recipients to 
meet the needs of individual families and to give them the tools they 
need to leave poverty and government assistance. The moral measure of 
our society is how we treat At the least among us.. The Bishops 
Conference is grateful for the Subcommittee's hard work and efforts 
over the past two years to address TANF reauthorization, and we hope 
our comments prove helpful as you take up the task again this year. The 
Bishops Conference looks forward to working with this Subcommittee and 
Congress on the moral imperative of overcoming poverty in our land.

                                 <F-dash>

    Mr. ENGLISH. Thank you. The Chair will now recognize Dr. 
Deborah Frank, pediatrician of Boston Medical Center. Thank you 
for joining us.

   STATEMENT OF DEBORAH A. FRANK, M.D., PEDIATRICIAN, BOSTON 
             MEDICAL CENTER, BOSTON, MASSACHUSETTS

    Dr. FRANK. Thank you for having me. I am a pediatric 
clinician. Yesterday, our program treated, within the past day-
and-a-half, about 20 malnourished children, and it is to those 
children that I dedicate this testimony. I am, also, one of the 
principal investigators of the Children's Sentinel Nutritional 
Assessment Program or C-SNAP, which has been monitoring the 
well-being of very young children under the age of three since 
1998 around the country. I imagine that you don't spend a lot 
of time reading medical journals, but before you vote on H.R. 
240, you need to know the published and peer-reviewed medical 
evidence, suggesting that this measure entails unintended, but 
grave risks, for the health of your youngest constituents.
    Our research has found that little children in working poor 
families and those with stable TANF benefits already suffer 
unacceptable levels of food insecurity, but that this health 
risk increases 50 percent for children under three and families 
who experience welfare sanction, whether full family or 
partial, including simply having a child subject to the family 
tax. Now, why are we so worried about ``food insecurity''? 
Well, because food insecurity is a serious health problem. 
Inadequate nutrition impairs the body's ability to heal and 
decreases immune function, causing anyone, but particularly 
children who are already immunologically immature, to be more 
susceptible to illness.
    It is important to notice that you don't have to have 
reported hunger to have an effect on health. After considering 
a lot of family background characteristics, we have found that 
young children in food-insecure families, whether or not they 
are TANF participants, are 30-percent more likely than their 
peers in food-secure families to be hospitalized before the age 
of three. As you would expect, what they tend to be 
hospitalized for are severe respiratory and gastrointestinal 
infections. Those of you who, as parents or grandparents, have 
sat long hours by the bed of a hospitalized baby or child can 
readily imagine the suffering that this entails for parents and 
their children.
    Food insecurity during the period of most rapid growth of 
body and brain in the early life, also, has lasting effects, 
even if the family's economic situation eventually improves to 
the point where they are no longer food insecure. Children are 
not only at risk for increased infections, but persistent and 
lasting deficits in cognitive development and for behavioral 
and emotional problems that impede their future success in 
school and their later productivity as adults in the workforce.
    Now, if what I have just told you is true for otherwise 
normal young children, what about kids who are chronically ill? 
That doesn't have to be chronically ill enough to qualify for 
SSI, but children with things like asthma, sickle cell, things 
that require a lot of active management to keep the child 
functioning. Seventy 5 percent, about one in four children on 
welfare, as 1998, were chronically ill. Seventy 5 percent of 
children who are chronically ill find the child's illness is a 
substantial barrier to finding and keeping a job. Yesterday, I 
saw a malnourished child whose mother came to clinic because he 
wasn't doing well, and he had asthma and food allergies, but 
she was told she would lose her job if she came, and she was 
told that Protective Service would be called if she didn't 
come. That is an impossible choice.
    Also, chronically ill children who experience hardship such 
as food insecurity are much more likely than other chronically 
ill kids to have to be hospitalized, and that has been shown 
longitudinally. We, actually, had a child die in our hospital, 
a little girl who became septic while left in the care of an 
older child, an adolescent. It was perfectly legal. Her mother 
tried to comply with welfare reform. I anticipate that the 
increased work requirements in H.R. 240 will lead to similar, 
preventable tragedies, but also a lot less dramatic 
deteriorations in the well-being of infants and children.
    I think H.R. 240, as proposed, is a treatment that has an 
unacceptable risk-benefit ratio. It may help some families, but 
will hurt many more. If there is a medical treatment which 
possibly helps some people and, predictably, irreversibly 
injured others, we would be very careful as doctors as to 
evaluate each person individually before instituting the 
therapy. We would, then, follow up to make sure that the ones 
that we had administered the therapy to were doing okay.
    I cannot imagine that the distinguished Members of this 
Committee really intend to make America's babies hungrier and 
sicker; you know now the medical data that suggests that if you 
pass a bill that triggers a sanctions epidemic by having 
unrealistic work requirements, hungrier and sicker children 
will incur more health care costs in the short term and be less 
likely in the long term to succeed in school and participate in 
the future workforce. The lives of these children are in your 
hands as much as if you stood over them with a surgical 
scalpel. I urge you, as we always tell our new doctors, first 
of all, do no harm. Thank you.
    [The prepared statement of Dr. Frank follows:]

   Statement of Deborah A. Frank, M.D., Pediatrician, Boston Medical 
                     Center, Boston, Massachusetts

    Distinguished chairman and members of the committee, I am here 
today on behalf of my young patients and my colleagues. I am one of 
many pediatric clinicians who daily treat sick and hungry children in 
America. I am also one of the Principal Investigators with other 
pediatric researchers in the Children's Sentinel Nutrition Assessment 
Program (C-SNAP) initially funded by a grant from the W.K. Kellogg 
Foundation and other private donors. Since 1998 we have monitored the 
impact of current public policies and economic conditions on the 
nutritional and health status of low income children less than 3 years 
old in six medical institutions serving Baltimore, Boston, Little Rock, 
Los Angeles, Minneapolis and Washington DC. As busy policy makers you 
probably do not have time to peruse the pediatric and nutrition 
journals, but before you vote on H.R. 240, the Personal Responsibility, 
Work, and Family Promotion Act of 2005, you need to know that the 
medical evidence suggests that this measure entails unintended but 
grave risks to the health of your youngest constituents. The special 
needs of infants, toddlers, and chronically ill children are not, as 
far as I know, reflected in any of the non-medical evaluations of 
welfare reform to which the committee website refers. I would like to 
dedicate this testimony to the children I treat for malnutrition at 
BostonMedicalCenter, many of whom are from families who have 
experienced welfare sanctions.
    We and researchers in other disciplines have found that, except for 
white, non-Hispanics, the number of American children who experience 
food insecurity has increased since the start of the 21st century. As 
you know, food insecurity is defined by the federal government as 
limited or uncertain availability of nutritionally adequate safe foods 
or limited or uncertain ability to acquire acceptable foods in socially 
acceptable ways. While we have found that little children in working 
poor families and those with stable TANF benefits experience 
unacceptable levels of food insecurity, it is particularly concerning 
that this health risk is increased a further 50% for young children in 
families who experienced welfare sanctions, whether full family or 
partial, including simply having a child subject to the child exclusion 
(family cap) provision. Even without sanctions, the risk of food 
insecurity is increased 37% for families whose benefits are reduced for 
purely administrative reasons. Dr. John Cook and the rest of our C-SNAP 
team initially published this finding in an article in the 2002 
Archives of Pediatric and Adolescent Medicine (information on accessing 
this article appears at the end of this testimony). These data were 
based on results from 2,718 children evaluated from August 1998-
December 2000. We more recently reassessed these findings among 4,430 
infants and toddlers seen through mid-2004 and the magnitude of 
increased risk was identical.
    Why are we as pediatricians so deeply concerned about increasing 
``food insecurity'' among these families whose welfare benefits are 
sanctioned or reduced? Because food insecurity is a serious health 
problem!Food insecure children are prone to the infection-malnutrition 
cycle increasing their risk of severe illness and hospitalization. A 
lack of essential nutrients impairs the body's ability to heal and 
decreases immune function causing a child to be more susceptible to 
illness. With any acute illness, most children lose weight and need, 
after recovery, to eat more than usual to regain lost weight and resume 
normal weight gain. Because food insecure families cannot provide the 
extra food children require to regain weight after an illness, the 
child becomes more malnourished and more susceptible to the next 
infection. It is this infection-malnutrition cycle which in settings 
without adequate medical care leads to the death of malnourished 
children. In this country the cycle often manifests in preventable 
recurrent illness and a need for costly therapeutic health resources.
    It is important to note that food insecurity even in the absence of 
outright hunger injures children's health. C-SNAP data show that young 
children in food insecure households with hunger are 2.3 times more 
likely to be in fair or poor health than children in food secure 
households. Children in food insecure households without hunger are 
still 1.7 times more likely to be in fair or poor health than children 
in food secure households. We have consistently found that after 
considering background family characteristics, young children in food 
insecure families (whether or not they have a history of TANF 
participation) are 30% more likely than their peers in food secure 
families to be hospitalized before the age of 3 years. As would be 
expected from the physiology of food insecurity that I just outlined, 
these children from food insecure families are more likely than their 
peers to be hospitalized for severe respiratory and gastrointestinal 
infections. Those of you who as parents or grandparents have sat long 
hours by the bed of a hospitalized baby or child can readily imagine 
the suffering this entails for parents and their children. What you may 
not realize is how very expensive such excess hospitalizations are for 
us all as taxpayers--the average cost of a brief 3-4 day pediatric 
hospitalization is more than $11,000.
    Food insecurity during the period of most rapid growth of body and 
brain in early life can also have lasting effects, even if the 
families' economic situation eventually improves to the point where 
they are no longer food insecure. Children in food insecure households 
are at increased risk not only for short term infections but for 
persistent deficits in cognitive development, and behavioral and 
emotional problems that can impede their future success in school and 
their later productivity as adults in the workforce.
    Paradoxically, food insecurity may also place older children at 
risk for being overweight or obese.  In order to prevent hunger, food 
insecure families often sacrifice the quality of the food they eat to 
get enough quantity to prevent the sensation of hunger, particularly in 
their children. Low nutrient quality cheap foods with high calories and 
fat content will prevent a child from experiencing painful pangs of 
hunger, but they do not protect the child from nutrient deficiencies 
that put the child at risk for being overweight.
    While I reflect pediatricians' special concerns about infants and 
toddlers, other colleagues have reported deeply troubling data about 
the potential impact of increased work requirements on caregivers of 
chronically ill children of any age. Families on welfare are more 
likely than other poor families to have children with chronic illness. 
These children miss more days of school and have more scheduled and 
urgent doctor visits, emergency department visits and hospitalizations 
than other children. Their home medical regimens require substantial 
parental involvement to keep them healthy. When chronically ill 
children get sick, their primary caregivers have the experience and 
expertise to care for them. The primary caregivers know their complete 
medical histories, are able to recognize subtle early signs of illness, 
know how their illness episode should be managed at home and when to 
seek urgent medical care. Substitute caregivers will likely not have 
the necessary experience, expertise or inclination to care for these 
children when they are ill.
    Low-income families whose children are chronically ill face 
substantial challenges in finding appropriate day care for their 
children. In a study of current and former welfare recipients with 
chronically ill children, my colleague Dr. Lauren Smith found that 40% 
of current welfare recipients had difficulty finding appropriate child 
care because of their child's condition and 34% indicate that 
difficulty in finding adequate day care for their children is a 
substantial barrier to employment. She and her co-authors have also 
found that 60% of current recipients and 80% of former recipients have 
missed work due to their child's illness, and 75% of these parents 
report that their child's illness is a substantial barrier to finding 
and keeping a job. Her team also found that over time, chronically ill 
children experiencing household hardships, such as food insecurity, 
utility disconnections and housing problems were found to have 
increases in subsequent emergency department visits and 
hospitalizations.
    I am aware of a distressing case from Boston Medical Center where I 
work of a chronically ill little girl who died while in the care of an 
adolescent sibling while her mother was out of the home trying to work 
to avoid welfare sanctions. I anticipate that the proposed increased 
work requirements in bill H.R. 240 will lead to other similar 
preventable tragedies as well as less obvious but serious deterioration 
in the well-being of infants, toddlers, and chronically ill children. 
These particularly vulnerable children would then consume even more 
medical resources, experience further preventable disability, and 
experience more difficulties functioning in school and in the 
workplace.
    Knowing this medical information, you can understand why 
pediatricians around the country are so gravely concerned about the 
prospect of inflicting food insecurity upon more families with young 
and chronically ill children via mandated full-family sanctions if 
parents cannot meet the more stringent work requirements outlined in 
H.R. 240.
    To use a medical analogy, H.R. 240 proposes a ``treatment'' for 
America's most impoverished families that has an unacceptable risk 
benefit profile. Requiring more families to participate in work 
activities and imposing longer work hours may result in mitigating 
deprivation for a few children whose parents are lucky enough to 
succeed in finding and keeping adequately paid work. However, many more 
families, particularly those with young or chronically ill children, or 
with parents burdened with poor mental and physical health, cognitive 
impairments, or sequelae of physical and sexual abuse will lose all 
income for their survival needs. The side effects of H.R. 240's 
increased and unrealistic work requirements are predictably the 
exposure of more families and children to mandated full family 
sanctions and thus to food insecurity, ill health, and excess 
hospitalizations.
    If there was a medical treatment, which possibly helped some 
patients and predictably and possibly irreversibly injured others, we 
as physicians would be bound to do an extremely careful and 
individualized assessment of each patient before applying the 
treatment. If the treatment were to be applied, we would use the lowest 
possible dose, and closely follow up and monitor those who received the 
treatment to try to reverse it if harm emerged. I would urge you to 
take a similarly thoughtful approach to issues of welfare reform, with 
avoidance of unrealistic work requirements on families suffering 
barriers to meaningful employment, particularly those with young or 
chronically ill children. Clearly full family sanctions should be 
avoided, since our data show even partial sanctions, like the family 
cap, have adverse effects on young children. Just as a hazardous cancer 
treatment must first be reviewed by a tumor board before being 
undertaken, any proposed sanctions could be reviewed by a third party 
and a sanction avoidance plan devised to help families to overcome 
barriers to compliance. If a family does experience sanctions, repeated 
follow-up and assessment of the safety and well being of affected 
families and their children should be mandatory.
    In closing, I cannot imagine that the distinguished members of this 
committee really intend to make America's babies hungrier and sicker. 
You now know the medical data that demonstrate declining welfare 
caseloads do not automatically indicate an improvement in the well-
being of American children. On the contrary, families who leave welfare 
because of sanctions or who have their benefits reduced before they 
have reached family stability are more likely to have hungry, sick 
children.
    H.R. 240 will inevitably increase the number of children exposed to 
sanctions. If you pass a bill that triggers a ``sanctions epidemic,'' 
hungrier and sicker children will incur more health care costs in the 
short term and be less likely in the long term to succeed in school and 
participate productively in the future workforce. The lives of these 
children are in your hands as much as if you stood over them with a 
surgical scalpel, and I urge you, as we always urge new doctors, 
``primo no nocere!'' (First do no harm!).

                                 <F-dash>

    Mr. ENGLISH. Thank you. The Chair will now recognize Mr. 
Peter Goldberg, President and chief executive officer of The 
Alliance for Children and Families. Welcome.

  STATEMENT OF PETER GOLDBERG, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, THE ALLIANCE FOR CHILDREN AND FAMILIES

    Mr. GOLDBERG. Thank you, Mr. Chairman and, Mr. McDermott. 
Thank you very much. I am here today on behalf of The Alliance 
for Children and Families, a nonprofit Membership association, 
representing 320 child and family serving organizations in 
North America. Our Member organizations provide an array of 
community-based programs and services for all generations and 
serve close to 8 million people each year in more than 6,700 
communities.
    The debate over the reauthorization of TANF has been 
extensive in recent years and proposed reforms to the current 
welfare system have been widely discussed. At this point, we 
hope we do not lose sight of the ultimate goal of welfare 
reform, moving children and families out of poverty. Central to 
our testimony today is the notion that TANF must continue to 
protect the well-being of children while transitioning their 
parents into the workforce. It is quite clear from the research 
in the field that family economic success is critically 
important to the well-being of children, that the more families 
we are able to move out of poverty, the more likely it is they 
can contribute to child well-being.
    Therefore, the workforce development aspects of TANF are a 
means to a very important end, but not an end in and of 
themselves, and we trust that our testimony reflects our utmost 
concern for child well-being. In 2002, The Alliance for 
Children and Families partnered with the Community Service 
Society of New York to publish ``Faces of Change,'' which 
provides the personal experiences of welfare reform in America 
from over 200 former welfare recipients, detailing their 
experiences in six primary areas: employment, child care, 
public benefits, health care, job training and transportation.
    Based on that analysis, we believe that the following five 
topics and strategies need to be incorporated in discussions 
that lead to the framing of meaningful welfare reform 
reauthorization. First, the establishment of a system of worker 
supports, particularly adequate child care options. As the 
testimonies of working and nonworking participants in our study 
reveal, finding jobs, sustaining employment and advancing in 
the labor market do not occur in a vacuum. These goals are 
mediated by the level of family and work supports that may or 
may not be in place to meet vital needs such as child care and 
transportation. The vast majority of transitioning workers and 
TANF recipients do not have these supports readily available to 
them.
    We recommend preserving and increasing funding for the 
Child Care and Development Block grant to ensure that working 
families have access to safe and reliable child care. We must 
recognize that child care is an essential ingredient critical 
to helping parents get and keep the jobs they need to lift 
themselves out of poverty and, thus, improve their potential to 
realize long-term self-sufficiency and well-being for their 
children.
    Second, choosing between parenting and wages, and this is 
just such a profound issue. Given the low wages, poor benefits 
and limited opportunities in the labor market, many 
participants in our study were faced with the choice between 
meeting their parental responsibilities and working. Although 
all parents have difficulty balancing work and family, those 
working low-wage jobs are less able than more affluent parents 
to rely on employer-based provisions, such as vacation and sick 
leave, to cover time missed to care for a sick child or manage 
a day care conflict without the fear of a loss of income or a 
loss of job. We believe that promoting a family friendly work 
environment should be a national priority, offering tax 
incentives to employers who offer flexible work schedules for 
parents, on-site day care, health benefits and other forms of 
family leave would be beneficial to all employees, but would 
provide critical assistance and support the transitional 
workers struggling to balance work and family life.
    Third, emphasizing education and job skills training. TANF 
recipients often discover that participating in educational and 
vocational training programs that would best prepare them for 
the workforce means they cannot meet TANF's work requirements. 
As a result, they must either give up their education or rely 
on family and other sources of help, such as student financial 
aid to complete their studies or training programs. We 
recommend giving States more flexibility to determine which 
activities count toward mandatory work requirements, especially 
allowing full-time college attendance and permitting recipients 
to participate in vocational education for up to 24 months.
    Fourth, is reducing barriers to employment. Many of the 
unemployed individuals participating in our study had to 
contend with multiple barriers, which limit their education and 
work experience. These hardest-to-serve families with something 
barriers increasingly make up the bulk of welfare recipients 
remaining on caseloads. To overcome their multiple barriers, 
this group needs to be differentiated so at the appropriate 
time an array of supports can be tailored and made accessible 
to them. Any determination about TANF must reconsider or must 
consider varied strategies that address the needs of 
individuals with multiple barriers and ensure a TANF safety net 
for these families.
    Fifth and finally, improving accessibility of jobs. 
Transportation is one of the main challenges facing lower 
income people, including those making the transition from 
welfare to work. Without a vehicle, many jobs and child care 
centers are inaccessible, especially in rural areas or 
locations where there is no reliable public transportation. 
Many workers may not have the credit or employment history to 
qualify for traditional car loans. Innovative programs to 
provide loans to purchase a car, such as Ways to Work, one of 
our affiliates and other programs that help transitioning 
workers gain access to private transportation provide an 
effective strategy to help families manage the competing 
demands of work and family, as well as promoting self-
sufficiency. Thank you.
    [The prepared statement of Mr. Goldberg follows:]

Statement of Peter Goldberg, President and Chief Executive Officer, The 
                   Alliance for Children and Families

    Mr. Chairman, distinguished members of the Subcommittee, I am 
testifying here today on behalf of the Alliance for Children and 
Families, a nonprofit membership association representing 320 child and 
family serving organizations in North America. Our member organizations 
provide an array of community-based programs and services to all 
generations, and serve close to 8 million people each year in more than 
6,700 communities. Motivated by a vision of a healthy society and 
strong communities for all children and families, the Alliance's 
mission is to strengthen the capacities of North America's nonprofit 
child and family serving organizations to serve and to advocate for 
children, families and communities.
    By holding this hearing, the Subcommittee has taken up a timely 
topic that merits our collective attention. Debate over the 
reauthorization of Temporary Assistance for Needy Families has been 
extensive over the past years, and proposed reforms to the current 
welfare system have been widely discussed. I understand that HR 240, 
the TANF reauthorization bill introduced in the 109th Congress is very 
similar to HR 4 which was passed by the House by a vote of 230-192 in 
February of 2003. Contentious disagreements still remain but it is 
necessary to muster the political will to tackle this important 
unfinished business.
    In the past years since 2002, the Alliance for Children and 
Families partnered with the Community Service Society of New York to 
publish important and innovative research on the experience of 
individuals affected by welfare reform. Faces of Change: Personal 
Experiences of Welfare Reform in America contains first-hand accounts 
from over 200 former welfare recipients detailing their experience in 
six primary areas: employment, child care, public benefits, health 
care, job training, and transportation. Based on the trends identified 
in the Faces of Change testimonies, the Alliance believes that the 
following major topics need to be addressed in discussions that lead to 
the framing of meaningful welfare reform reauthorization:
    Reducing Barriers to Employment--Many of the unemployed individuals 
participating in the Faces of Change study had to contend with a 
significant single barrier or multiple barriers to work. These barriers 
ranged from chronic health problems to drug addiction, mental health 
limitations to domestic abuse, limited education and work experience. 
These ``hardest to serve'' families with significant barriers 
increasingly make up the bulk of welfare recipients remaining on 
caseloads. To overcome their multiple barriers, this group needs more 
time and access to an extensive array of supports. Any discussion of 
TANF reform must consider strategies that address the needs of 
individuals with multiple barriers and that ensure a TANF safety net 
for these families.
    Improving Accessibility to Jobs--Transportation is one of the main 
challenges facing lower income people, including those making the 
transition from welfare to work. Without a vehicle, many jobs are 
inaccessible, especially in rural areas, or locations where there is no 
reliable public transportation. Access to a car was deemed an important 
factor in the group of success stories collected through the Faces of 
Change study. Innovative programs that provide loans to purchase a car, 
such as Ways to Work, an affiliate organization created by the 
Alliance, and other programs that help transitioning workers gain 
access to private transportation are likely to be an effective strategy 
to help families manage the competing demands of work and family as 
well as promoting self-sufficiency.
    Emphasizing Education and Job Skills Training--Individuals engaged 
full-time in job training or education programs. While limited space is 
available in job readiness programs through TANF, individuals who are 
pursuing educational classes or vocational training have often been 
terminated from receiving TANF assistance. As a result they must rely 
on family and other sources of help such as student financial aid to 
complete their studies or training programs, thereby decreasing their 
potential for self-sufficiency after they graduate.
    Choosing Between Parenting and Wages--Given the low wages, poor 
benefits, and limited opportunities in the labor market, many 
participants in Faces of Change were faced with a choice between 
meeting their parental responsibilities or working. Although all 
parents have difficulty balancing work and family, most parents are 
able to rely on employer-based provisions such as vacation and sick 
leave to cover time missed to care for a sick child or a daycare 
conflict without fear of a loss of income or loss of job. Parents who 
participated in Faces of Change frequently acknowledged their limited 
employment options, and identified clearly the trade-offs that working 
in certain jobs present for their families. Many transitioning workers 
accept unfavorable employment and pursue jobs with long hours and/or 
work multiple jobs to compensate for absences due to familial 
obligations.
    Establish System of Worker Support, Particularly Adequate Child 
Care Options--As the testimonies of working and nonworking participants 
reveal, finding jobs, sustaining employment, and advancing in the labor 
market do not occur in a vacuum. These goals are mediated by the level 
of family and worker supports that may or may not be in place to meet 
such vital needs such as child care, transportation, and health care. 
The vast majority of transitioning workers and TANF recipients do not 
have these supports readily available to them. The need for child care 
assistance and greater access to quality child care programs is a 
monumental barrier to securing and sustaining full-time employment. 
Increasing the available funding for the Child Care and Development 
Block Grant would increase the ability of families to access 
affordable, quality child care--increasing their potential to realize 
self-sufficiency.
Recommendations
    The Alliance for Children and Families recommends incorporating the 
following policies and strategies into welfare reform reauthorization 
legislation:
    Increase significantly funding for the Child Care and Development 
Block Grant, recognizing that child care is an essential work support. 
Without subsidized, accessible childcare services, the employment 
efforts of TANF recipients are undermined. Ensuring safe and reliable 
child care to working families is essential so parents can get and keep 
the jobs they need to lift them out of poverty.
    Give states more flexibility to determine what counts as meeting 
the work requirement, especially allowing full-time college attendance 
and permitting recipients to participate in vocational education for up 
to 24 months, instead of the current 12 month maximum.
    Adopt a ``balanced work first'' approach that acknowledges that the 
current standardized system of job readiness with an emphasis on 
immediate employment is not appropriate for the majority of welfare 
recipients. This would require a reevaluation of the definition of work 
to include activities such as job training and post-secondary education 
and an easing of the federal work participation requirements for 
individuals facing multiple barriers to employment.
    Make it a national goal to promote a family-friendly work 
environment. Provide tax incentives to employers who offer flexible 
work scheduling for families, on-site daycare, health care, and other 
provisions and forms of leave. TANF funds can be used in various ways 
to provide these incentives to employers who hire TANF recipients.
    Ask the states to keep track of their former recipients and provide 
follow-up job assistance, supports, and assessments to ensure that the 
workers and their families are on the path to leaving poverty, not just 
off the welfare rolls.
    Increase support for innovative programs, such as Ways to Work that 
provide car loans to parents transitioning from welfare to work who are 
unable to qualify for traditional loans but must have a car for job 
and/or child care accessibility.
    Establish new temporary waivers that ``stop the clock'' for 
recipients who cannot meet work or looking-for-work mandates due to 
chronic physical and mental health conditions of recipients and their 
children; childcare, domestic violence, housing or transportation 
emergencies; or when unemployment is high or when available jobs 
require advanced skills that the welfare recipient does not possess.
Conclusion
    On behalf of the Alliance's 320 nonprofit child and family serving 
agencies and more than 50 Ways to Work programs nationwide, I can tell 
you from experience that the nonprofit sector takes very seriously our 
mission to provide supports and services to all people in need. Through 
job training provision, increasing availability of private 
transportation to working families, and supporting families through 
community-based programs and services, the Alliance stands ready to be 
a full partner with you, the state, and our communities to enact 
effective, responsible reforms to the welfare system to ensure self-
sufficiency and dignity for individuals and families receiving TANF.
    The Alliance for Children and Families would welcome the continuing 
opportunity to share the voices of America's service providers with the 
Subcommittee as it further explores welfare reform reauthorization 
proposals.
    I would like to thank the Subcommittee for giving me the 
opportunity to testify, and would be happy to answer any questions at 
this time

                                 <F-dash>

    Mr. ENGLISH. Thank you very much. Again, I would like to 
thank this panel. I have a couple of questions, and then I 
would like to yield to my colleague, Mr. McDermott, as well. 
Going over the testimony, in preparing for this, I noted that, 
in 2003, Rebecca Blank, one of President Clinton's former 
economic advisers, co-authored a study that looked at changes 
in family income over the 1990s. The report found that incomes 
increased the most among poor children's families following 
welfare reform. It, also, found that contrary to the dire 
predictions that this Subcommittee heard from reform opponents 
at the time, sanctions for failure to work and meaningful time 
limits on benefits were associated with higher income gains, 
and here I quote, ``States with strict or moderate penalties 
for not working consistently show higher income gains among 
poor children throughout the income distribution than do States 
with lenient penalties.''
    This is perhaps surprising, since many had predicted that 
strong penalties would lead to greater impoverishment among 
those who lose their eligibility for welfare, but are unable to 
replace benefits with earnings. Instead, it is the more lenient 
States with softer penalties where children's income seemed to 
grow the least. Now, Dr. Frank, as I was listening to your 
testimony, this seems inconsistent with the findings you report 
from your study. If you could, I would, also, like you to 
explain an aspect of your study, in which you note that your--
and here I have a quote--``Your sample is not random or 
nationally representative and the extent to which these 
findings can be generalized is limited.'' Given that, how much 
weight can we apply to your study?
    Dr. FRANK. Well, let us start with that first question, 
which is a very good one. It is what is called a sentinel 
sample, which means that when you are looking for a serious 
problem, like bioterrorism or drug overdose, you don't go door 
to door, you sit where those problems are likely most to show 
up, and that is exactly what we did, which is we sat in 
hospital settings and emergency rooms where children are most 
likely to show up who are in difficulties. You cannot do a 
calculation fully, but we found, in fact, that our sample is 
very similar to low-income children, in general, when we look 
at the demographics compared to the census. You are right, it 
is a sentinel sample, the same way you monitor for anthrax. You 
don't go door to door. You sit in the ER, and you see what 
shows up.
    Mr. ENGLISH. I realize that, and, also, I used to be an 
internal auditor, and I, also, understood sampling and how it 
can be useful statistically. Let me jump to your July 2002 
report says, and I quote, ``The sample is not random or 
nationally representative, and the extent to which these 
findings,'' I had mentioned that. Further, ``possible selection 
bias and the lack of a specified a priori temporal sequencing 
of events, longitudinal data and random assignment of children 
to different benefit categories preclude drawing inferences 
about causal relationships.'' Isn't that a something point?
    Dr. FRANK. Well, the problem is that nobody is--you are 
right. It is not a perfect study, but why has the Federal 
government not been looking at what happened to babies when 
they got cut off welfare? The Manpower thing, for example, only 
looked at kids in pre-school and older. In fact, you don't know 
because you don't look. I agree that there needs to be better 
work done, nationally representative, but it hasn't been, and 
you are going to go forward without any data, except this, 
which is imperfect, but if it was anthrax cases I was 
reporting, you would take it pretty seriously.
    Mr. ENGLISH. Mr. Goldberg, I noted your suggestion that 
``immediate employment is not appropriate for the majority of 
welfare recipients.'' If I could, I would like to insert into 
the record a copy of the National Evaluation of Welfare to Work 
Strategies, which found that work or work in combination with 
education and training is the most promising path to 
independence and financial stability for welfare recipients. Do 
you have a comment on that study?
    Mr. GOLDBERG. I can't recall the study off the top of my 
head, but I think that I would just only comment there that 
while we really do promote and applaud increases in earnings 
potential and employment, I just keep picturing back to so many 
low-income women that we have met in our agencies who are just 
struggling to balance those competing demands of being a 
responsible worker, climbing up the scale of wages and the 
employment ladder, at the same time trying to fulfill on the 
demands of being the good parent who faces the needs of a child 
who is ill or a day care provider who doesn't show up and those 
kinds of things. My only point there is that, while income, and 
earnings, and employment are so preciously important to this 
entire thing, the balancing act that has to be placed to enable 
a low-income parent to meet those twin demands of increasing 
income and being a good parent are profound.
    Mr. ENGLISH. Thank you. I have a couple more questions, but 
I would like now to yield to my colleague, Mr. McDermott, to 
inquire.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. I want to thank all 
the Members of this panel. I am a little puzzled about how to 
extract from you what I want. This bill that we are 
considering, is it going to make it better for you? Is it going 
to make it better for the people that you are representing?
    Ms. CURRAN. No.
    Mr. GOLDBERG. No, I think----
    Mr. MCDERMOTT. Do the Bishops endorse it?
    Ms. CURRAN. The Bishops, we haven't taken a position on 
240. We did not support the bill last time mostly because of 
concerns over the combined effect of the work requirements, the 
three prongs of the work requirements--how food stamps would be 
treated and a couple other issues.
    Mr. MCDERMOTT. As I look at it, I keep asking myself, if 
you put people off welfare, and you wind up with 700,000 more 
children in poverty, how is that considered a success? What is 
the success that is being measured--just getting people off 
welfare; is that the----
    Mr. GOLDBERG. No, sir. No, sir. At least in our estimation, 
it really has to do with a more comprehensive set of child 
well-being indicators, that we are able to enable low-income 
people who are struggling to make that move from public 
assistance to the world of work to also be good parents. This 
is still a very important issue. Family economic success is 
linked to having a good home, to a certain extent, but not 
totally, and we have to build in those supports with 
employability that enable these parents to succeed as parents, 
as well as just income earners.
    Mr. MCDERMOTT. The use of the money that is put in here for 
marriage promotion, you would like to see it more open, to be 
used for a variety of things?
    Mr. GOLDBERG. I think so. I represent an organization that 
does a lot of family counseling. What is family counseling? 
Family counseling, in some ways, can be marriage promotion, but 
we approach it with the view in mind of what is best--our 
counselors would view it in mind of what is best for that 
family and what is best for those children.
    Mr. MCDERMOTT. Under the bill, $300 million is set aside 
each year for this marriage-promotion business. Are the States 
interpreting that as if you are dealing with abused situations 
or whatever is going on in a situation or mental illness? Is 
that all part of marriage promotion? Can money be used for 
that?
    Ms. JACOBS. Mr. Ranking Member, marriage promotion is 
currently something that States can pursue under the way that 
TANF is set up at the moment. It was an option under TANF. I 
think it is fairly instructive that probably only about seven 
States have chosen to do it because, for the reasons that have 
been discussed today, States do not have the money. States are 
focused on the kinds of programs that they know are successful 
and will help to get folks from welfare to work or to education 
or other things.
    You were asking where--I think there were a number of 
people asking where the $2 billion was that Dr. Horn was 
talking about. I can't claim to have an answer to that 
question, utility I can tell you that the illegitimacy bonus 
has been identified as a source where one could find this $1.5 
billion for marriage promotion. I think everybody fairly 
readily acknowledges that there needs to be more child care 
funding, for instance, and that that is a known support which 
will help people make a good transition.
    Part of what I was discussing earlier was this whole 
incidence of domestic violence. Poor women, as that Hopkins 
study will demonstrate--I am happy to make it available to the 
Committee--poor women are victimized as children when they 
witness violence in their homes. Sometimes they are victimized 
as victims themselves. They grow older and sometimes do not 
make wise decisions about the partners they have, and they are 
victimized at that point as well, and that has dire impacts on 
their, but perhaps it is a reflection of sanity. They make 
choices based on the violence they have experienced in their 
past or in their present about whether or not they wish to get 
married, and it is a very dangerous thing for the government, 
however well-intentioned, to decide that they want to encourage 
people to get married because they are not aware of the past 
violence, sexual and intimate partner violence and violence 
people may have witnessed. They are not aware of that level of 
violence.
    I listened to Robert Rector sort of talking about the low 
incidence of violence and the fact that the folks at Princeton 
had asked women about whether or not they were domestic 
violence victims. If you read the Cherlin study, you will note 
that it took women a long time to disclose about whether or not 
they were victims of domestic violence because it is a very 
intimate and personal thing. The fact that they chose not to 
tell the researchers, with whom I am going to guess they 
interacted perhaps once, is in no way reflective of the 
violence that folks have suffered and the danger that would be 
visited upon some of these folks if people, however well-
intentioned, pursued this kind of programming without 
coordinating with folks who work on domestic violence and with 
domestic violence advocates on a daily basis in trying to 
pursue this in the most wise manner possible.
    Dr. FRANK. I was just going to say that the devastating 
effects of exposure to violence start very young and that we 
have found that exposure to violence increases suicidal 
ideation in children as young as nine. We are talking about, 
again, the mental health of the next generation if we force 
people to stay in situations where they are exposed, and the 
fact that they get to adulthood very traumatized is also 
absolute here.
    Ms. CURRAN. I may be the lone voice on the panel, but I do 
just want to say that the Bishops Conference does believe that 
it is appropriate to help low-income families struggling, 
either couples trying to decide whether to get married or 
couples who are married, to help them to build healthy 
marriages because that is important for the well-being of 
themselves, and their children, and our society. We absolutely 
agree that domestic violence is a terrible problem and that any 
program just be sensitive to the concerns of domestic violence, 
must have the appropriate resources to counsel people who are 
victims of domestic violence, know the signs so they can figure 
out when violence might be about to occur and, in fact, prevent 
those marriages from happening.
    I just want to reiterate what I said in my opening remarks, 
which is we don't see this as a help between helping strengthen 
families and marriage and providing work supports, and cash 
benefits, and other TANF benefits. We think we need to address 
both of these things and are very pleased that the basic block 
grant has remained steady. We hope that that will continue, 
that commitment to that level of funding, and I think 
additional----
    Mr. MCDERMOTT. You wouldn't like it to go up?
    Ms. CURRAN. We would love to go--yes.
    [Laughter.]
    We do believe in miracles, so we would ask for it to go up.
    [Laughter.]
    An appropriate amount of money targeted to helping low-
income families get the kinds of counseling and assistance that 
they can't get because they can't pay for it--middle-income 
families can--I think is appropriate, if done well.
    Mr. ENGLISH. The gentlemen's time has expired, but, 
fortunately, the line of questioning he opened up was what I 
was going to pursue.
    Ms. Curran, I noted in your testimony your support for 
marriage promotion efforts included in H.R. 240. Do you want to 
any further elaborate on why you think those efforts are 
important?
    Ms. CURRAN. I go into it a little bit more in the 
testimony. As I said, I think I would just reiterate that we 
need to help folks on TANF on all of the different areas that 
their families are struggling. We need to help them support 
their families and strengthen their families. We need to help 
them get out of poverty, and I think healthy marriage is part 
of that. It is important for the well-being of the economic, 
and the emotional, and the spiritual well-being of the children 
and families. I think it is appropriate. Low-income families 
can get assistance in how to be a better parent through 
programs, and I think it is appropriate that they get 
assistance in learning how to be a better marriage partner, 
which will help them to be a better parent and help them to 
support their children.
    Mr. ENGLISH. On that point, Ms. Jacobs, I am very grateful 
to you for your focus on domestic violence in your testimony. 
My wife serves on the board of one of our local domestic 
violence shelters, and I admire the work that is done there 
with extremely limited resources. In their case, they have had 
to struggle with some of the State budget cuts in Pennsylvania. 
An earlier witness noted that domestic violence is more likely 
to occur among couples that are cohabitating than married 
couples. I realize it is difficult to generalize, comparing 
couples that way, but do you agree with that assessment?
    Ms. JACOBS. I think you are taking me all the way back to 
my days of statistics because we are dealing with questions of, 
you know, on the one hand causality and sort of correlation and 
things of that nature. I think that part of what you are 
looking at--and I would have to look at that particular study, 
and I would be happy to--part of the problem is that there is a 
self-selecting process there. Again, what you will see in that 
Hopkins study is that women who are victimized as adults by 
intimate partner violence make a decision not to marry. They 
are not in the cadre of people who marry. Sometimes the folks 
who get married are more stable. In the Hopkins study, you will 
see there are a vast majority, there were probably maybe about 
40 percent of the people who were in the study who were 
married, and there was a much lower incidence of violence.
    I don't think that one could assume that marriage is some 
sort of amazing, you know, if you will, you touch it with a 
magic wand. You are not married today. You are in an abusive 
situation, and you get married tomorrow and that stops. That, I 
think when that kind of data is put forward in a way that is 
not sufficiently unpacked is the impression that you are left 
with, but it is an erroneous one. I think there is a different 
question of causality there that needs to be explored.
    Mr. ENGLISH. I think that is a point very well made. I 
guess, finally, I would like to say I think your basic point 
that may be consistent with the flexibility we have tried to 
introduce into the welfare system under TANF, if we can use 
this reauthorization to promote better linkages between welfare 
services and access to domestic violence services, I think that 
could have a very substantial benefit.
    Ms. JACOBS. That would be tremendous. As you may be aware, 
the Violence Against Women Act is due to be reauthorized later 
this year, and we would look forward to working with you on 
that as well.
    Mr. ENGLISH. Very good, and I look forward----
    Ms. JACOBS. This commercial has been brought to you by----
    [Laughter.]
    Mr. ENGLISH. I look forward to working with you, and I am 
grateful for your time. I want to thank all of the panel 
Members for bringing their expertise and their perspective to 
this debate, which will be very helpful. I thank, also, the 
distinguished Ranking Member of the Subcommittee, the gentleman 
whom I know is going to make a big contribution to this debate 
on reauthorization as well. I want to thank all of you, and I 
will yield to the gentlemen.
    Mr. MCDERMOTT. I just want to ask unanimous consent to put 
into the record testimony from a number of groups, my State and 
others, who have submitted testimony, but did not have the 
opportunity to come and testify today.
    Mr. ENGLISH. By unanimous consent, that will be included in 
the record.
    Mr. MCDERMOTT. Thank you.
    Mr. ENGLISH. I thank the gentlemen.
    [The information was not received at time of printing.]
    I thank you all for coming. This hearing is adjourned.
    [Whereupon, at 4:47 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

Statement of Andrew Robert Klein, Ph.D., Advocates for Human Potential, 
                      Inc., Sudbury, Massachusetts

    H.R. 240, ``The Personal Responsibility, Work, and Family Promotion 
Act of 2005'' seeks to promote laudable goals. However, it will not, 
cannot achieve those goals. To the extent it succeeds to encourage 
``family formation and healthy marriage,'' it will fail to make these 
families' lives better, it will make things worse. It will increase the 
suffering and victimization of tens of thousands of poor women and 
their children. It will endanger lives.
    I am talking about the tens of thousands of poor women and their 
children who disproportionately receive temporary cash assistance to 
support themselves, not because they lack a spouse but because they 
have a spouse or partner who is abusive. A significant proportion of 
women and children on TANF rely on TANF to help them escape their 
abuse.
    Leaving abusive relationships is almost always tremendously 
difficult for abused women. It takes incredible courage and fortitude. 
It can be extremely risky, even lethal for abused women and their 
children. The majority of domestic homicides, including the murder of 
the abused women's children, occur when women attempt to leave their 
abusers.
    Abused women should be encouraged and assisted in that effort, not 
pushed back for more abuse. That is why there are over 1,600 domestic 
violence shelters in every state of the nation. The shelters, and 
related services, help abused women and their children safely leave, so 
they are not faced with the horrible dilemma, remain and suffer or be 
forced to fight back as best they can.
    And it's working. The homicide of male intimates by their female 
partners has plummeted over the last several decades, way below the 
national decline in all homicides during the same period. According to 
the Justice Department Bureau of Justice Statistics, from 1976 to 2002, 
the number of men murdered by their partners dropped 71%. It is easier 
for women to flee their abusers, not fight back.
    Unfortunately, the homicide of women by their male intimate 
partners has not fallen as dramatically, declining far less than the 
overall decline in the rate for non-domestic homicides. The number of 
women killed by their partners declined between 1976 and 2002 by only 
25%.
    The reason we haven't been as successful in regard to reduction in 
the homicides of women by their male intimate partners is because we 
have failed to appreciate the true danger and intransigence of abusers.
    The kind of positive things envisioned by this Act, the promotion 
of anger management, communication skills, conflict resolution, budget 
counseling, etc. are not remedies for domestic violence. To think that 
several thousand women and their children are killed every year and 
tens of thousands hospitalized by their intimate partners because of 
inadequate financial management and temper tantrums tragically 
trivializes their deaths.
    Domestic violence is not about relationships, good or bad, 
sanctified by marriage vows or not. It is about abusers and their use 
of violence. Domestic violence is instrumental, not accidental 
violence; purposeful, not incidental violence; premeditated, not 
spontaneous violence. Abusers do not strike their partners because they 
are out of control. They strike their partners to maintain control over 
them, humiliate and debase them, isolate them, or punish them for 
asserting their independence.
    Bank robbers do not rob banks because they have relationship 
problems with the banks or an inability to control their anger over 
capitalism. They rob banks because, as Willie Sutton aptly explained, 
that is where the money is. The same applies to abusers and why they 
abuse.
    The studies are clear. Domestic violence cannot be wished away as 
much as we would like it to be by a 26 week anger management program or 
the like, no matter how well-intentioned. Batterers cannot become 
nurturing parents after completing a 52-week batterer intervention 
program.
    To improve the outcomes for children as specified in the Act, we 
must nurture the relationship and circumstances between the child and 
the non-abusive parent. Studies demonstrate that the adverse effects of 
children being exposed to domestic violence can be mitigated by the 
existence of a strong, nurturing non-abusive parent.\1\
---------------------------------------------------------------------------
    \1\ Schecter, S. & Edelson, J. (2000). Domestic Violence and 
Children: Creating a Public Response, New York, NY: Center on Crime, 
Communities & Culture of the Open Society Institute, 2000.
---------------------------------------------------------------------------
    The goal should be safety and security for the non-abusive parent 
and children, not marriage formation. Marriage, marked by spousal 
abuse, is a dangerous sham. The research is clear that it will promote 
the opposite effects in children the Act desires. It will increase 
juvenile delinquency, school failure, adult criminality and all the 
other problems associated with being raised in families with an abusive 
parent.
    Earlier, we said domestic violence did not have to do with 
relationships. That may sound counter-intuitive. It involves intimate 
couples, therefore it must be about relationships. Right?
    Wrong. Because the fact is that research conclusively demonstrates 
that if deprived of his victim, the abuser will go on to abuse another. 
It has little to do with the victim, or the quality of the 
relationship; it has all to do with the abuser.
    Massachusetts was the first state in the union to computerized its 
domestic violence registry. As a result, it was able to track a very 
large sample of more than a thousand abusers who had restraining orders 
taken out against them in 1992 for the next six years. It found that 
one quarter of those restrained in 1992 went on to have as many as 
eight new court orders taken out against them by as many different 
victims.\2\
---------------------------------------------------------------------------
    \2\ Adams, S. (December 1999). Serial Batterers: Probation Research 
Bulletin. Boston, MA: Office of the Commissioner of Probation.
---------------------------------------------------------------------------
    A more recent state study followed over 2,000 charged with 
violating a court restraining order in 1998 through 2004. It found that 
43% had more than one victim. 16% had three or more victims.\3\
---------------------------------------------------------------------------
    \3\ Bocko, S., Cicchetti, C., Lempicki, L. & Powell, A. (November 
2004). Restraining Order Violators, Corrective Programming and 
Recidivism. Boston, MA: Office of the Commissioner of Probation.
---------------------------------------------------------------------------
    A study I am currently completing in collaboration with the 
American Probation and Parole Association, funded by the National 
Institute of Justice, documents that these findings are not unique to 
Massachusetts. We found among the 40% of offenders on probation for 
domestic violence who were arrested for re-abuse, the only difference 
between these abusers who repeatedly abused the same woman or went on 
to abuse different women was the available of the initial victim.\4\
---------------------------------------------------------------------------
    \4\ Klein, A., Wilson, D., Crowe, A. (2005 Draft). Evaluation of 
Rhode Island's Specialized Domestic Violence Probation Supervision 
Unit. Lexington, KY: American Probation and Parole Association & BOTEC 
Analysis Corporation.
---------------------------------------------------------------------------
    Who are these abusers?
    Study after study refute the assumptions underlying this Act. 
Abusers are not otherwise like every other person except they happen to 
have some cognitive and skill deficiencies and poor relationships with 
their partners.
    Again, the research is clear. The vast majority of abusers, 
identified as abusers by their partners or the criminal justice system, 
sport extensive criminal records for a wide variety of crimes of 
violence, substance abuse, drunk driving, as well as other crimes.
    In 1990, when I was a probation officer in the Quincy Court in 
Massachusetts, I looked at the 664 men who had restraining orders taken 
out against them by their female partners. At the time, it was one of 
the first studies to think to examine the prior criminal careers of 
abusers. Although these men were brought to court by their wives and 
girlfriends, not the police, 80% had prior criminal histories, 
averaging 13 criminal complaints that had resulted in half a dozen 
different court arraignments. Almost half had prior assaults, mostly 
against men. 54% had prior arrests for drunk driving and drug abuse.\5\
---------------------------------------------------------------------------
    \5\ Klein, A. ( 1996). Re-Abuse in a population of court-restrained 
male batterers. In E. Buzawa & C. Buzawa (Eds.) Do Arrests and 
Restraining Orders Work?: Thousand Oaks, CA: Sage,192-214.
---------------------------------------------------------------------------
    And my research was just the first. Study after study has followed 
confirming these findings. Most recently, a study of 1,982 domestic 
violence misdemeanor cases filed in the Toledo, Ohio Municipal Court 
between April 2000 and March 2001 documented that 89% had a prior 
history of at least one arrest. More than a quarter, 26.4%, had at 
least one prior violent felony offense and half had at least one non-
violent felony charge on their record.\6\
---------------------------------------------------------------------------
    \6\ Ventura, L. & Davis, G. (October 2004). Domestic Violence: 
Court Case Conviction and Recidivism in Toledo. Toledo, OH: Urban 
Affairs Center, University of Toledo.
---------------------------------------------------------------------------
    These men have records like criminals, behave like criminals, and 
recidivate like criminals. To the extent this Act includes these 
abusers, it would more aptly be named the ``Criminal Offender/Victim 
Marriage and Father Promotion Act.''
    Further, their crimes of domestic violence are not isolated 
incidents, but part of chronic criminal campaigns. This too is widely 
documented. A study in Lincoln, Nebraska, for example, reveals that of 
1,217 domestic violence arrests in 2002, 16 percent involved the same 
abuser arrested multiple times, including 8 who were arrested four or 
more times that year for domestic violence.\7\ Similarly, I just 
collaborated with the Rhode Island Supreme Court's Domestic Violence 
Unit on an analysis of 18,000 domestic violence incident reports filed 
by police from 2002-2004 in that state. Just shy of 20% of the reported 
abusers, almost 3,000, were cited multiple times--up to 13 times--
generally within a 12 month period or less.\8\
---------------------------------------------------------------------------
    \7\ LMEF-Family Violence Council 2002 Domestic Violence Report 
(2003). Lincoln, NB: Family Violence Council.
    \8\ Dubois, J. & Klein, A. (2005). Rhode Island Domestic Violence 
Recidivists, 2002-2004, Wakefield, RI: Domestic Violence Training and 
Monitoring Unit, R.I. Supreme Court.
---------------------------------------------------------------------------
    Research is also clear about something else. Anger management, 
batterer treatment, probation supervision is only marginally effective 
at best in stopping abusers and their effect is limited to low risk 
abusers to begin with. A recent meta-analysis of all batterer treatment 
research with any claim of scientific reliability concludes these 
programs have minuscule if any treatment effect.\9\
---------------------------------------------------------------------------
    \9\ Babcock, J., Green, C., & Robie, C. (In press). Does Batterer's 
Treatment Work? A Meta-analytic review of Domestic Violence Outcome 
Research, Journal of Family Psychology, 13, 46-59.
---------------------------------------------------------------------------
    The same recent Massachusetts study cited earlier found that the 
results of anger management were even less encouraging. The research 
revealed that the re-abuse rates for those who completed the anger 
management programs, generally 12 to 20 week programs, were not 
statistically significantly lower from those who were assigned anger 
management but failed to complete the program!
    And the majority of offenders (55.7%) who completed anger 
management were arrested for a subsequent crime, 42.6% for a violent 
crime. Eighteen percent were arrested for a violation of their 
restraining order.\10\
---------------------------------------------------------------------------
    \10\ Bocko, S. (2004). Op. cit. 7.
---------------------------------------------------------------------------
    Nor is there any evidence that these programs make abusive fathers 
better, even safe parents.
    That is why the Justice Department's Office of Violence Against 
Women, under the leadership of Diane Stuart, a former shelter director, 
won't fund these programs. A recent study based on victim assessments 
of their partners' participation in state-mandated batterer programs 
found these programs did not improve batterers as fathers, their 
relationships with their children or their children's mothers.\11\
---------------------------------------------------------------------------
    \11\ Klein, A. (2004). Victim Views of Batterer Intervention 
Programs. Waltham, MA: BOTEC Analysis Corporation (Study commissioned 
by the Rhode Island Justice Commission.)
---------------------------------------------------------------------------
    Other studies have found that arrests, restraining orders, 
prosecution, intensive supervision, even short term incarceration fail 
to deter a significant portion of abusers.\12\ As mentioned, our 
current evaluation for the National Institute of Justice of Rhode 
Islands model domestic violence probation supervision program has found 
a 38% re-arrest rate specifically for domestic violence within 18 
months, almost 60% for all crimes despite intensive supervision.\13\
---------------------------------------------------------------------------
    \12\ See, Klein, A. (2004). The Criminal Justice Response to 
Domestic Violence. Belmont, CA: Thomson Learning/Wadsworth.
    \13\ The specialized program does significantly reduce re-abuse and 
all other arrests among lower risk abusers representing 52% of the 
domestic violence caseload.
---------------------------------------------------------------------------
    That is why over half of the states, including Iowa and Montana, 
have amended their criminal domestic violence laws to enhance 
penalties, making repeat simple misdemeanor domestic assaults felonies 
with minimum mandatory sentences of up to five years in prison.\14\
---------------------------------------------------------------------------
    \14\ See, e.g., Mississippi Code Ann. Sec. 97-3-7(30); Minnesota 
Stat. Ann. Sec. 609.2242.
---------------------------------------------------------------------------
    If all these efforts don't stop abusers, do we really expect 
marriage and fatherhood promotion programs to protect their victims?
    Congress has done so much to stop domestic violence, including 
passage and funding of VAWA, community oriented policing; enactment of 
federal firearm prohibitions for court-restrained or convicted domestic 
assaulters, inclusion of the Family Violence Option for TANF 
recipients. To abruptly reverse course at this time would be a huge 
mistake.
    I am currently completing an evaluation of the RI Family Violence 
Option Advocacy Program. As a result of universal screening for 
domestic violence completed by that state's Department of Human 
Services, state officials have waived child support requirements for 
hundreds of recipients deemed to be victims of domestic violence. It is 
not that state officials don't care about collecting child support 
reimbursement from abusers, they don't demand the women to cooperate in 
its collection because they realize it is too dangerous to ask them to 
do so.
    Are these the same abusers we want to focus on to promote family 
formation and healthy marriages?
    The money proposed to support this Act should go for increased 
prosecution of chronic abusers, more transitional housing programs for 
victims and their families who are forced to flee their abusers and for 
better TANF screening and service programs for victims of family 
violence and their children.
    Thank you.

                                 <F-dash>

   Statement of Lisa Maatz, American Association of University Women
Introduction
    Enacted in 1996, the Personal Responsibility and Work Opportunity 
Reconciliation Act dramatically altered the way the federal government 
provides financial assistance to needy families. This act created 
Temporary Assistance for Needy Families (TANF), which limited 
assistance to 60 months and required recipients to work. TANF, however, 
failed to contain sufficient provisions for education and job training. 
As Congress reauthorizes the 1996 act, AAUW believes that welfare 
programs should end the cycle of poverty and promote self-sufficiency 
through the proven methods of education and job training to help ensure 
that women are not locked into low-wage, low-benefit jobs.
    The success of current law must be based on the number of people no 
longer living in poverty--not on the number of people no longer 
receiving assistance. Current law seeks only to reduce the number of 
people on welfare by promoting job search and early employment rather 
than increasing earnings for welfare recipients through education and 
job training. By failing to provide roads to permanent self-
sufficiency, the law has failed to significantly lift women and 
families out of poverty.

    <bullet>  While welfare rolls dropped 22 percent between 1995 and 
1997, poverty among families headed by single mothers dropped by only 5 
percent.\1\
---------------------------------------------------------------------------
    \1\ Carnevale, A.P. and Reich, K. (2000). A Piece of the Puzzle: 
How States Can Use Education to Make Work Pay for Welfare Recipients. 
p. 14. Princeton: Education Testing Service.
---------------------------------------------------------------------------
    <bullet>  In 1999, 28 percent of TANF recipients worked for 
substandard pay while still qualifying for aid, compared to just 8 
percent in 1994.\2\
---------------------------------------------------------------------------
    \2\ Patel, N. (2001). Workforce Development: Employment Retention 
and Advancement Under TANF. Nov. 28, 2001. http://www.clasp.org/pubs/
jobseducation/technical%20paper.pdf.
---------------------------------------------------------------------------
    <bullet>  People leaving welfare earn about $6.61 an hour\3\ or 
$8,000 to $12,000 annually.\4\
---------------------------------------------------------------------------
    \3\ Carnevale 13.
    \4\ Patel.

    As a result of the drastic increase in families working without a 
significant increase in earnings, working poverty has replaced welfare. 
Further, while poverty has declined overall, statistics show that poor 
people are poorer and more working families are living in poverty.\5\ 
Of the 2.1 million adults who left welfare between 1995 and 1997, 29 
percent had returned by 1997.\6\
---------------------------------------------------------------------------
    \5\ Boushey, H. and Gundersen, B. (2001). When Work Just Isn't 
Enough: Measuring Hardships Faced by Families After Moving From Welfare 
to Work. Nov. 28, 2001. http://www.epinet.org.
    \6\ Carnevale 14.
---------------------------------------------------------------------------
    During the 108th Congress, the House completed action on the 
Personal Responsibility, Work, and Family Promotion Act of 2003 (H.R. 
4) to reauthorize the Personal Responsibility and Work Opportunity Act 
(PRWORA--PL 104-193). AAUW opposed H.R. 4 because it lacked the 
necessary access to education and training, increased work requirements 
without providing adequate childcare provisions, included $300 per year 
for experimental marriage programs, and reauthorized $50 million in 
funding for abstinence-only education programs. AAUW has reservations 
about the welfare reform proposal introduced January 4, 2005 by Rep. 
Deborah Pryce (R-OH), the Personal Responsibility, Work, and Family 
Promotion Act of 2005 (H.R. 240) but we remain hopeful that 
improvements can be made before its consideration by the full House.
Education and Training: The Proven Path Out of Poverty
    The focus on work first and the federally-imposed limitations on 
how states can use their TANF funds have shaped the way states 
implemented current law. The law does not allow welfare recipients 
adequate time to attain a degree or worthwhile job training and 
arbitrarily tells states how many welfare recipients can be in such 
programs at any given time. TANF gives states limited options in 
helping welfare recipients find and retain jobs that pay a livable wage 
and get families out of poverty and off welfare permanently. These 
limitations on states have resulted in significant declines in welfare 
recipients engaged in education and training--2.7 percent in 1999, down 
from 5.8 percent in 1996.\7\ In fact, in 1999, 44 percent of adults 
receiving TANF benefits reported having less than a high school 
diploma.\8\ AAUW believes that education and training must complement 
work to best serve the needs of the local job market and individuals 
with varying levels of work experience.
---------------------------------------------------------------------------
    \7\ Strawn, J., Greenberg, M., and Savner, S. (2001). Improving 
Employment Outcomes Under TANF. Retrieved Nov. 28, 2001. http://
www.clasp.org/pubs/jobseducation/BlankHaskinsFebruaryFinal.htm.
    \8\ Zedlewski, S. (2001). Do Families on Welfare in the Post TANF 
Era Differ From Their Pre TANF Counterparts? October 9, 2001. http://
newfederalism.urban.org/pdf/discussion01-03.pdf
---------------------------------------------------------------------------
    Because statistics prove that educational access is inextricably 
linked to economic security (see below), AAUW believes that women and 
girls must have access to education and job training to achieve 
economic security. Only by improving their employability through 
education and job training can women attain jobs that pay a livable 
wage and stay off public assistance permanently. States must also have 
the flexibility to target recipients with job search, education, and 
job and skills training to respond to the needs of the local labor 
markets. Education and training programs must not be viewed as separate 
from work but as part of a continuum of activities that result in work.
    Education and training make a critical difference in employability, 
earnings, and job retention. Single female heads of households with a 
high school diploma are 60 percent more likely to have jobs than those 
without a high school diploma or GED, and those with an associate's 
degree are 95 percent more likely to be employed.\9\ In 1999 average 
earnings for someone with a high school diploma was 50 percent higher 
than those with no diploma.\10\ Further, the U.S. Bureau of Labor 
Statistics found that people in jobs requiring the least education will 
experience the lowest professional growth over the next 10 years, while 
the jobs requiring at least an associate's degree will experience a job 
growth rate of 31 percent.
---------------------------------------------------------------------------
    \9\ Buck, E. (2001). The Impact of Postsecondary Education on 
Poverty, Employment and Labor Force Participation Among Single Female 
Heads of Household With Children. San Diego, CA: San Diego State 
University.
    \10\ Trends in College Pricing. (2001). Washington, DC: The College 
Board.
---------------------------------------------------------------------------
    To increase earning potential, women should also be trained in 
nontraditional jobs--defined as employment in which women comprise 25 
percent or less of total workers. Women make up the majority of low-
wage workers, 57.5 percent of employees earning $5.15 to $6.14 an hour, 
and part-time workers. In contrast, women working in nontraditional 
jobs can earn between $8 and $9 an hour. For example, the average 
yearly income for auto mechanics and repair persons, a nontraditional 
field, is $26,718, whereas the median annual salary for full-time 
workers in service occupations, traditionally female jobs, is just over 
$15,000.
The Inescapable Link Between Violence and Women's Poverty
    Survivors of violence must overcome many hurdles to escape abuse 
and access needed services. Unfortunately, poverty is among the most 
formidable barrier of all. There is an undeniable link between poverty 
and violence against women. In fact, as many as 60 percent of women 
receiving welfare have been victims of domestic violence as adults 
(compared to 22 percent of women in the general population), and as 
many as 30% reported abuse within the last year.\11\
---------------------------------------------------------------------------
    \11\ NOW Legal Defense and Education Fund. ``Welfare and Poverty: 
Domestic and Sexual Violence,'' http://www.nowldef.org/html/issues/wel/
violence.shtml.
---------------------------------------------------------------------------
    The Family Violence Option (FVO) is an important provision that 
gives states the option to flex program requirements for victims of 
domestic violence when those requirements could put them and/or their 
families in danger. The FVO is a crucial tool for helping poor women 
achieve economic self-sufficiency by proactively addressing violence in 
their lives. However, not all states have adopted this critical option, 
and implementation is uneven. TANF reauthorization should require 
states to uniformly implement the FVO and provide incentives designed 
to ensure successful implementation.
TANF Reauthorization Proposals
    AAUW believes the following changes must be made during 
reauthorization of the Personal Responsibility and Work Opportunity 
Reconciliation Act:
    <bullet>  Eliminate the 12-month limit on vocational education or 
job training.
    <bullet>  Eliminate the 30 percent cap on the number of families 
participating in vocational education or on teen parents pursuing a 
high school diploma in a state's caseload that can be counted toward 
federal work participation rates.
    <bullet>  Allow education leading to a diploma, GED, certificate, 
associate's degree, bachelor's degree, or postsecondary degree to count 
toward federal work participation rates.
    <bullet>  Extend the Family Violence Option (FVO) to all 50 states.
Conclusion
    Despite some signs of improvement in last year's labor market, 
wages still fell, job growth lagged, and unemployment spells remained 
long. With the nation in a recession, people must be given the option 
of improving their employability through gaining new skills and 
advancing their education without the threat of losing federal 
assistance. In this way women and families can achieve self-sufficiency 
and get off welfare permanently.

                                 <F-dash>

      Statement of Laura W. Murphy, American Civil Liberties Union

    The ACLU is a nationwide, non-partisan organization of nearly 
400,000 members, dedicated to protecting the individual liberties and 
rights guaranteed by the Constitution and laws of the United States. 
Through its Women's Rights Project and Reproductive Freedom Project, 
the ACLU has long focused on the needs of women, especially those low-
income women and women of color who make up the majority of adult 
recipients of Temporary Assistance for Needy Families (TANF). In 
addition, through its Immigrants Rights Project, the ACLU has committed 
itself to preserving the rights of immigrants--a group treated 
particularly harshly under the TANF program. We believe that 
reauthorization must ensure that TANF operates fairly and offers 
meaningful paths out of poverty for families. We appreciate the 
opportunity to submit this statement for the record to the Subcommittee 
on Human Resources describing the changes necessary to guarantee that 
the TANF program operates effectively and consistently with 
constitutional principles.

TANF MUST NOT ARBITRARILY DENY ASSISTANCE TO DISFAVORED GROUPS OF NEEDY 
                              INDIVIDUALS

    The purpose of TANF is to provide assistance to needy families and 
children and to promote job preparation and work.\1\ Yet the program 
provides assistance only to some needy families while arbitrarily 
denying benefits to others equally in need.
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. 601(a).
---------------------------------------------------------------------------
Legal Immigrants and Their Children
    Perhaps the most egregious provision of the Personal Responsibility 
and Work Opportunity Reconciliation Act of 1996 (PRWORA) was its bar on 
immigrant eligibility for many federal programs. PRWORA prohibited most 
legal immigrants from receiving Food Stamps and Supplemental Security 
Income (SSI) until they had worked in the U.S. for at least ten years. 
It barred new immigrants from receiving TANF, Medicaid, or assistance 
from the Child Health Insurance Program for five years, and states were 
given the option of extending that bar. Thus, legal immigrants were 
deprived of the very services their tax dollars support. Even when 
these time-bars expire, new ``sponsor deeming'' rules created by PRWORA 
continue to render most legal immigrants ineligible for federal 
assistance. Even more harshly, ``unqualified'' immigrants, which 
include not only undocumented aliens but also other groups permitted to 
remain in the United States without permanent residence, were flatly 
barred from receiving any federal public benefits at all. While some 
minor adjustments have been made to these discriminatory rules since 
1996, as a result of PRWORA most immigrants continue to be denied the 
federal benefits extended to other similarly needy individuals.
    Not only is the law cruelly discriminatory in its treatment of 
immigrants, it has hurt many citizens as well. According to the Urban 
Institute, 78% percent of children with immigrant parents are 
themselves eligible for welfare assistance.\2\ Because of confusion or 
fear, many non-citizen parents do not seek the benefits for which their 
citizen children are eligible, and thus these children do not receive 
the vital services they need for survival.\3\ Reauthorizing legislation 
should permit legal immigrants to receive public assistance, repeal 
PRWORA's deeming rules, and require states to perform outreach to non-
citizen-headed families, informing them of their children's eligibility 
for benefits.
---------------------------------------------------------------------------
    \2\ See Randy Capps, Urban Institute, Hardship Among Children of 
Immigrants: Findings from the 1999 National Survey of American's 
Families, (2001).
    \3\ See generally Michael Fix and Wendy Zimmerman, Urban Institute, 
All Under One Roof: Mixed-Status Families in an Era of Reform (1999).
---------------------------------------------------------------------------
Drug Offenders Who Have Paid Their Debt to Society
    Federal law currently prohibits individuals who have been convicted 
of a drug-related felony from receiving TANF or Food Stamps. Even when 
a person has completed a prison sentence or a drug treatment program 
and is making every effort to turn her life around, she is still 
ineligible for federal aid. The intent of PRWORA was to promote 
personal responsibility, but permanent denial of federal assistance 
erects new barriers that prevent people who have previously made 
mistakes from taking responsibility for their lives and starting fresh 
to become productive citizens. Reauthorization should remedy this 
discrimination.
Children Born Into Needy Families
    For the first time, PRWORA allowed states to refuse to provide 
benefits to a child conceived and born while a parent was receiving 
TANF assistance. When reauthorized, TANF should prohibit such child 
exclusion rules (also known as family caps) as these exclusions 
discriminate against children based on the circumstances of their birth 
and punish the child for the poverty of his or her parents. Such a 
policy is akin to laws that denied children benefits because their 
parents were not married or because their parents were not legal 
residents, laws which have been held unconstitutional because of their 
basic unfairness to the child.\4\ The child exclusion is no less cruel 
and is in tension with fundamental principles of equal protection. In 
addition, child exclusion laws interfere with a woman's fundamental 
right to bear a child. By withholding dollars from newborns (and thus 
reducing the total income available to TANF families), the exclusion 
creates a government incentive for TANF recipients to end their 
pregnancies. A law designed to aid needy families should not turn its 
back on poor children, leaving them to swell the ranks of children in 
poverty in this country.
---------------------------------------------------------------------------
    \4\ See, e.g., Plyler v. Doe, 457 U.S. 202 (1982) (``Even if the 
State found it expedient to control the conduct of adults by acting 
against their children, legislation directing the onus of a parent's 
misconduct against his children does not comport with fundamental 
conceptions of justice.''); see also Weber v. Aetna Casualty & Surety, 
406 U.S. 164 (1972).
---------------------------------------------------------------------------

 TANF REAUTHORIZATION MUST PROTECT AGAINST DISCRIMINATION AND PROMOTE 
                           EQUAL OPPORTUNITY

    Since PRWORA, states have too often failed to provide services to 
all TANF applicants and recipients without discrimination. Reports 
indicate that TANF recipients of color face barriers in moving from 
welfare to self-sufficiency because they receive fewer supportive 
services and are more likely to be sanctioned for non-compliance with 
program rules than their white counterparts. States also have often 
failed to accommodate the needs of recipients with limited English 
proficiency, disabilities, and other barriers to employment. In 
addition, states have tended to push women into low-paying, 
traditionally female jobs rather than training them for higher wage, 
nontraditional work.
End Discrimination Against Racial and Ethnic Minorities
    Studies show that people of color receive harsher treatment than 
white TANF recipients under welfare reform. Researchers have found that 
TANF recipients of color are less likely than white TANF recipients to 
be referred to important services such as educational programs, 
transportation assistance, and child care and are less likely to access 
vital work supports such as Medicaid and Food Stamps.\5\ As a result, 
recipients of color have been less likely to leave welfare for work 
than white recipients.\6\ In addition, higher percentages of black 
recipients have been disqualified from TANF because of punitive 
sanctions than white participants.\7\ Finally, welfare recipients in 
many states have reported discriminatory and insulting treatment by 
both caseworkers and employers based on their race, ethnicity, or 
gender.\8\
---------------------------------------------------------------------------
    \5\ Bonnie Thornon Dill et al., Racial, Ethnic and Gender 
Disparities in Access to Jobs, Education and Training Under Welfare 
Reform at 16 (2004); Applied Research Center, Race and Recession: A 
Special Report Examining How Changes in the Economy Affect People of 
Color at 15-16 (2002); W.K. Kellogg Foundation, Racial and Ethnic 
Disparities in TANF: Barriers to the Viability of Low Income Families 
(2001); Susan T. Gooden, ``All Things Not Being Equal: Differences in 
Caseworker Support Toward Black and White Welfare Clients,'' Harvard 
Journal of African American Public Policy, Vol. 4 (1998).
    \6\ Dill, supra note 5 at 5 (2004); Elizabeth Lower-Basch, 
``Leavers'' and Diversion Studies: Preliminary Analysis of Racial 
Differences in Caseload Trends and Leaver Outcomes, Office of Assistant 
Secretary for Planning and Evaluation, U.S. Department of Health and 
Human Services (2000); Sarah Karp, ``Minorities Off Welfare Get Few 
Jobs,'' Chicago Reporter, January 2000.
    \7\ Lower-Basch, supra note 6.
    \8\ Applied Research Center, Race and Recession: A Special Report 
Examining How Changes in the Economy Affect People of Color at 13 
(2002); Equal Rights Advocates, The Broken Promise: Welfare Reform Two 
Years Later (San Francisco, CA: 2000); Urban Justice Center, Human 
Rights Project, Assessing the Intersection of Race and Welfare Reform 
for New York City Households (New York City Welfare Reform and Human 
Rights Documentation Project, 2001); Rebecca Gordon, Cruel and Unusual: 
How Welfare ``Reform'' Punishes Poor People (Applied Research Center, 
2001).
---------------------------------------------------------------------------
    This kind of discrimination cannot be tolerated, as racially 
disparate treatment shuts down opportunities for women of color and 
their children and creates a two-tiered welfare system that traps 
African-American and Hispanic families in poverty. To address these 
racial disparities, at a minimum, reauthorizing legislation must 
clarify that labor and civil rights laws protect TANF recipients. 
Further, states should be required to set out procedures for handling 
civil rights complaints in the state plans required for receipt of TANF 
funds.
    The only true method of measuring progress in civil rights 
compliance within TANF, however, is data collection. Without this 
information it is difficult to identify parity problems and patterns in 
states' administration of the TANF program. States must be required to 
collect data by race and ethnicity reflecting diversion of potential 
applicants, benefits and services provided to recipients, sanction 
rates, and recipient outcomes. States should also be required to 
aggregate information to detect racial disparities and to take 
meaningful action to address these disparities. Just as the No Child 
Left Behind Act holds schools accountable for improving the performance 
of students of all races, so should TANF reauthorization hold state 
welfare programs accountable for helping welfare recipients of all 
races move out of poverty and reward those states that achieve 
equitable outcomes.
Accommodate Recipients with Special Needs
    Many states have failed to make TANF programs accessible to 
individuals with special needs, including those who speak little or no 
English and those with disabilities. Reauthorization must require that 
states provide interpreters and materials in languages other than 
English, and that states accurately assess the disability status of 
applicants and recipients and take any disability into account in 
imposing program requirements. Before attempting to find job placements 
for TANF applicants, states should be required to conduct an initial 
assessment of each individual in order to determine what support 
services may be necessary to address any employment barriers, such as 
limited English proficiency, domestic violence, disability, mental 
illness, or substance abuse, that may exist. States' current failure to 
conduct such assessments and to take special needs into account often 
leads to inappropriate sanctions reducing or eliminating a family's 
benefit and thrusting the family into a dire situation.
    While recipients facing these barriers may be less likely to find 
employment and leave the TANF rolls prior to the five-year federal time 
limit, under PRWORA, states are only permitted to exempt 20 percent of 
their average monthly caseload from the time limit. This arbitrary cap 
ignores the fact that far more than 20 percent of caseloads may face 
substantial barriers to employment and self-sufficiency. Thus, without 
accommodation of their special needs, many recipients facing 
significant barriers to employment are likely to be left without 
support when they reach the five-year lifetime limit on receipt of 
benefits. Reauthorization should permit states to accommodate TANF 
recipients with special needs by abolishing the 20 percent cap on the 
hardship exemption.
Open Doors to Opportunity for Women
    Many jobs held by TANF recipients, the vast majority of whom are 
women, will never lift a family out of poverty because the wages from 
these jobs are simply insufficient to support recipients' families. 
Studies indicate that caseworkers typically steer TANF recipients into 
jobs traditionally held by women, which generally pay the lowest wages 
and that low-income single mothers primarily work in traditionally 
female occupations.\9\ In contrast, nontraditional jobs for women, such 
as carpentry, drafting, electrical work, firefighting, or driving a 
taxi or bus, pay a sustainable wage. Such occupational segregation is a 
primary cause of the wage gap between men and women. Indeed, poverty 
rates for single mothers would fall by half if they received wages 
equal to those received by men with similar qualifications. \10\ 
Nontraditional jobs also are more likely to provide opportunity for 
advancement and benefits such as health insurance and sick leave. TANF 
recipients should be given these opportunities to support their 
families and achieve independence.
---------------------------------------------------------------------------
    \9\ See Institute for Women's Policy Research, A Report to the NOW 
Legal Defense and Education Fund, Working First But Working Poor: The 
Need for Education and Training Following Welfare Reform, Executive 
Summary (October 2001); Janice Peterson et al., Life After Welfare 
Reform: Low-Income Single Parent Families Pre- and Post-TANF (Research-
in-Brief) (May 22, 2002).
    \10\ Institute for Women's Policy Research, Equal Pay for Working 
Women (Research--in-Brief) (June 1999).
---------------------------------------------------------------------------
    Access to education and training, however, is both effective and 
essential for TANF recipients to move out of low-wage, gender-
segregated jobs into this higher-wage employment with career 
advancement potential.\11\ Yet PRWORA limited the education and 
training that could be counted toward federal work participation 
requirements and set quotas on the percentage of recipients who could 
engage in certain education and training programs. As a result, the 
percentage of TANF recipients engaged in education or training has 
fallen dramatically since PRWORA.\12\ Taking the wrong lesson from 
welfare reform, H.R. 240 further restricts states' flexibility to 
implement education and training programs for recipients, while 
simultaneously increasing the hours recipients are required to work, 
thus increasing the likelihood that recipients will be pushed into 
dead-end, low-wage, ``women's jobs.'' This is the wrong choice for 
women and their families. Reauthorizing legislation should instead 
eliminate arbitrary restrictions on the length of time that TANF 
participants may participate in education and training and expand the 
types of educational programs in which recipients may permissibly 
engage. It should also stop the clock for recipients in education and 
training programs, so that choices regarding education and training are 
not artificially restricted by the five-year lifetime limit. Finally, 
reauthorization should ensure that all programs that provide funding 
for education and training, including TANF, encourage women's access to 
training for non-traditional jobs and include safeguards eliminating 
gender discrimination.
---------------------------------------------------------------------------
    \11\ See Dill, supra note 5, at 23-26 (2004).
    \12\ Center for Law and Social Policy, Improving Employment 
Outcomes Under TANF (2001).
---------------------------------------------------------------------------

 TANF REAUTHORIZATION MUST PROTECT THE RELIGIOUS FREEDOM OF RECIPIENTS

    The ``charitable choice'' language adopted in PRWORA allows federal 
funds to flow directly to religious organizations, thus permitting 
government-sponsored religion in violation of the First Amendment. 
Although the Supreme Court has allowed religiously affiliated 
organizations to provide government-funded services in a secular 
manner, it has never allowed religious institutions themselves to 
receive direct government aid. Unless the statute is amended through 
reauthorization, this provision may allow sectarian religious 
organizations, including houses of worship, to contract with a state to 
administer a welfare program (by determining eligibility, giving out 
monthly checks, providing counseling, etc.) in an environment replete 
with religious symbols and activity. In such a setting, recipients 
undoubtedly will be threatened with religious discrimination and can 
reasonably interpret the relationship between the state TANF agency and 
the religious organization as government endorsement of a particular 
religion.
    TANF recipients do not concede their First Amendment rights simply 
because they are in need of assistance. Yet religious organizations 
administering TANF programs will potentially discourage recipients from 
exercising their own religious beliefs, because, from a religious 
institution's perspective, a recipient's right to express his or her 
religious beliefs may endanger the effectiveness of the social service 
program, particularly in a group setting. Recipients' rights to 
exercise their own religions, however, are protected by the Free 
Exercise Clause of the First Amendment.
    The ``charitable choice'' provision also threatens to undermine the 
fundamental civil rights principle--now more than 60 years old--that 
federal dollars should not fund employment discrimination. TANF 
provides that a religious organization's receipt of TANF funds does not 
restrict it from preferring members of its own religion in employment. 
Allowing federal funds to go to organizations that discriminate based 
on religion would be a sharp break with a long civil rights history. 
The ``real life'' impact this could have on individuals cannot be 
overstated. Applicants for jobs with federally funded religious TANF 
administrators may have to answer such questions as: What is your 
religion? Are you married or divorced? Was your marriage annulled? Is 
your spouse the same race as you? What does your church teach about 
sexual orientation? Such questions have no place in the federally 
funded workplace. Reauthorization must make clear that religious 
providers cannot engage in religious employment discrimination with 
TANF funds or include sectarian worship, instruction, or 
proselytization in a program funded by TANF.

  TANF REAUTHORIZATION MUST NOT ENDANGER THE LIVES OF YOUNG PEOPLE BY 
    REQUIRING EDUCATION PROGRAMS TO FOCUS EXCLUSIVELY ON ABSTINENCE

    While discussion of abstinence is an important component of any 
educational program about human sexuality, programs such as those 
authorized under PRWORA, which focus exclusively on abstinence, 
endanger young people's health by censoring other valuable information 
that can help young people make responsible and safe decisions about 
sexual activity and reproduction. Moreover, these programs create a 
hostile environment for lesbian and gay youth, and dangerously entangle 
the government with religion, as a successful court challenge by the 
ACLU in Louisiana shows.
    Under PRWORA, federally funded programs must offer curricula that 
have as their ``exclusive purpose'' teaching the benefits of 
abstinence. Programs may not provide adolescents with any information 
that is inconsistent with this message in the same setting as the 
abstinence program. Consequently, programs funded under PRWORA may not 
advocate contraceptive use or teach contraceptive methods except to 
emphasize their failure rates. This constitutes a gag order that 
censors the transmission of vitally needed information. These programs 
thus infringe on constitutional rights of free expression by censoring 
the transmission of vitally needed information about human sexuality 
and reproduction, either omitting any mention of topics such as 
contraception, abortion, homosexuality, and AIDS or presenting these 
subjects in a nonscientific, inaccurate fashion.
    A growing body of evidence shows that most abstinence-only programs 
do not help teens delay having sex. As an independent, federally-funded 
evaluation of the abstinence-only education programs authorized under 
PWORA concluded, there is ``no definitive research [linking] the 
abstinence education legislation with'' the downward trend in ``the 
percentage of teens reporting that they have had sex.'' \13\ More 
troubling, some programs show evidence of increasing risk-taking 
behaviors among sexually active teens.\14\ On the other hand, evidence 
shows that comprehensive programs that provide information about 
abstinence and effective use of contraception can help delay the start 
of sexual activity and increase condom use among sexually active 
teens.\15\
---------------------------------------------------------------------------
    \13\ Barbara Devaney et al., Mathematica Policy Research, Inc., The 
Evaluation of Abstinence Education Programs Funded Under Title V 
Section 510: Interim Report 1 (2002).
    \14\ See Peter S. Bearman & Hannah Bruckner, Columbia Univ. Inst. 
for Social & Econ. Theory & Research, Promising the Future: Virginity 
Pledges as they Affect Transition to First Intercourse 35 (2000).
    \15\ See Douglas Kirby, The Nat'l Campaign to Prevent Teen 
Pregnancy, Emerging Answers: Research Findings on Programs to Reduce 
Teen Pregnancy, Summary 16 (2001).
---------------------------------------------------------------------------
    Abstinence-only programs also entangle the government with 
religion. Many abstinence-only curricula contain religious 
prescriptions for proper behavior and values, in violation of First 
Amendment guarantees. A popular abstinence-only curriculum called ``Sex 
Respect,'' for example, was originally designed for parochial school 
use and retains strong religious undertones, citing religious 
publications as its reference sources. This is an inappropriate and 
unnecessary entanglement of government with religion. In 2002, the ACLU 
challenged the use of taxpayer dollars to support religious activities 
in the Louisiana Governor's Program (GPA) on Abstinence, a program 
funded under PRWORA. A federal district court found that GPA funds were 
being used to convey religious messages and advance religion, in 
violation of the Constitution's requirement of separation of church and 
state.
    Reauthorizing legislation should eliminate or significantly reduce 
funding for abstinence-only-unless-married education and should instead 
appropriate funds for comprehensive sexuality education that would both 
teach abstinence and provide young people with the tools necessary to 
make responsible choices about sexual activity and reproduction.

  TANF REAUTHORIZATION MUST PROTECT THE DUE PROCESS RIGHTS OF PROGRAM 
                              PARTICIPANTS

    PRWORA demanded personal responsibility from TANF applicants and 
recipients as a key to accessing benefits. As administrators of the 
TANF program, states have a corresponding public obligation to treat 
applicants and recipients fairly. Since PRWORA was enacted, too often 
the broad discretion granted the states and the emphasis on caseload 
reduction above all else have eclipsed the commitment to fairness. The 
result has been arbitrary and inconsistent treatment of applicants and 
recipients; widespread misinformation about program requirements; and 
an absence of meaningful review of administrative decisions. Such due 
process failures have a serious impact on low-income parents as they 
simultaneously attempt to negotiate program requirements, fulfill work 
obligations, and raise their children and can push families out of the 
social safety net and into dire need. The next wave of welfare reform 
must hold states accountable for providing procedural fairness to 
applicants and recipients.
Provide Complete and Accurate Information to Recipients
    PRWORA communicated a clear message to states: reduce your welfare 
rolls. Heeding this message, many states adopted TANF programs that 
emphasized ``diverting'' potential applicants by dissuading them from 
filing applications. Reports from advocates and court cases demonstrate 
that in some states, one result of this emphasis on diversion was a 
widespread failure to provide individuals seeking assistance with 
accurate, complete information about the assistance available and the 
requirements for obtaining it.\16\ Some programs mislead individuals 
regarding the effects of the federal time limit on their benefits, fail 
to provide individuals with information about child care assistance, 
and fail to inform recipients that they cannot be sanctioned for a 
failure to comply with work requirements based an inability to find 
appropriate child care.\17\ In one woman's account, ``One social worker 
told a friend of mine, ?It's not our responsibility to tell you [about 
these programs]. If you ask me about a program, I have to tell you. But 
if you don't ask me [then I won't tell you.]'' \18\ A failure to 
provide information means that families often do not gain access to the 
support they need to move toward independence.
---------------------------------------------------------------------------
    \16\ E.g., Reynolds v. Giuliani, 35 F. Supp. 2d 331 (S.D.N.Y. 
1999).
    \17\ The Association of the Bar of the City of New York, Committee 
on Social Welfare Law, Welfare Reform in New York City: The Measure of 
Success, 56 The Record 322, 331-332 (Summer 2001).
    \18\ See Doris Y. Ng and Ana J. Matosantos, Equal Rights Advocates, 
The Broken Promise: Welfare Reform Two Years Later (2000).
---------------------------------------------------------------------------
    Reauthorization must make explicit that TANF applicants and 
recipients have a right to receive accurate information about available 
benefits and eligibility requirements from the moment they seek 
assistance. States should be required to set out their methods of 
providing comprehensive and accurate information in their state plans 
and held accountable for failures to abide by these plans.
    In addition, reauthorization should encourage states to provide 
complete and accurate information by making clear that poverty 
reduction, rather than caseload reduction, is the goal of TANF. One 
method of doing this is by measuring states' performance by and 
allotting bonuses based on success in reducing poverty. If states are 
held accountable for their success in moving applicants and recipients 
out of poverty, rather than just off the rolls, they will have new 
incentives to provide applicants and recipients with good information.
End Arbitrary and Inconsistent Program Practices
    PRWORA sought to maximize state flexibility and experimentation by 
providing welfare monies through block grants with comparatively few 
restraints on the design of state programs for distributing these funds 
to needy families. This new flexibility radically increased states' 
discretion in administering TANF programs. In most instances, TANF also 
meant that caseworkers and individual administrators exercised far more 
discretion. Such a broad grant of discretion increases the potential 
for arbitrary, inconsistent, and discriminatory treatment of TANF 
applicants and recipients. And indeed, advocates and researchers report 
numerous examples of such problems under TANF. For example, advocates 
in Wisconsin report that the degree of supportive services offered to 
recipients and the leniency shown when rules are violated varies 
significantly from region to region and caseworker to caseworker.\19\ 
When the decision whether to provide particular information or access 
to particular programs lies entirely within a caseworker's discretion, 
the potential for differential treatment for recipients and applicants 
of different races or ethnicities (discussed above) is also magnified.
---------------------------------------------------------------------------
    \19\ See Welfare Law Center, Due Process and Fundamental Fairness 
in the Aftermath of Welfare Reform, Welfare News (September 1998).
---------------------------------------------------------------------------
    Arbitrary and inconsistent treatment results in real harm to poor 
families, causing applicants to be denied benefits or recipients to 
lose benefits without cause. Bureaucratic whim should not cause 
families to go hungry or lose their housing. Reauthorization must 
balance the flexibility created by TANF with basic requirements that 
states administer their programs according to consistent, written rules 
regarding eligibility, sanctioning, provision of supportive services, 
and screening for barriers to employment that all individual 
administrators or caseworkers are obligated to follow. States that fail 
to follow their own rules (or to ensure that private, county, or city 
administrators follow state rules) should be subject to penalty.
Provide Fair Notice and Hearings
    Fundamental fairness requires that recipients be given notice of 
the rules governing their behavior before they can be held liable for 
violating them. Fundamental fairness also demands that TANF recipients 
whose benefits are being reduced or cut off be given written notice of 
the reasons for this action prior to the reduction or termination, as 
well as a meaningful opportunity to contest the adverse action. Such 
procedural safeguards aid in accurate decisionmaking, as they help 
ensure that states will not base sanctions or other benefit reductions 
on erroneous information. They also help protect needy families from 
losing benefits and being thrust into dire financial circumstances as 
the result of errors, misunderstandings, or misinterpretations of 
program rules.
    TANF reauthorization should require that as a condition of receipt 
of funds states institute essential procedural safeguards, including 
provision of clear and adequate notice (with appropriate modifications 
for limited English proficiency recipients or disabled recipients) of 
an adverse action and provision of an opportunity to challenge such 
actions through a fair hearing prior to the discontinuation of 
benefits.
End Full Family Sanctions
    Under PRWORA, many states have taken the option of punishing adult 
TANF recipients' failure to comply with program and work requirements 
through termination of all cash assistance to the family, including 
assistance allotted to children. Punishing individuals for the actions 
of others outside of their control violates core due process 
principles, and the violation is even more egregious when the 
individuals being punished are children. Reauthorizing legislation must 
reject H.R. 240's proposal to make full family sanctions mandatory and 
instead forbid states from instituting full family sanctions.

TANF REAUTHORIZATION MUST NOT ALLOW WAIVER OF CRUCIAL PROTECTIONS UNDER 
                              FEDERAL LAW

    Various reauthorization proposals include a demonstration project 
provision, referred to as a ``superwaiver,'' that would grant broad 
discretion to federal cabinet secretaries to allow states to waive a 
host of statutory and regulatory requirements relating to programs 
serving low-income individuals. Granting such authority to the 
Executive without Congressional oversight or any means for independent 
evaluation greatly undermines the separation of powers between the 
Legislative and Executive branches of government because the Executive 
could freely waive laws enacted by Congress.
    While the language of such superwaiver provisions is vague, we 
believe the superwaiver poses serious dangers to a broad cross-section 
of federal programs and the people they serve. It would allow the 
transfer of substantial resources from one program to another, 
undermining congressional appropriations. For example, the Secretary of 
Education could waive any rules related to federal education funding, 
including formulas that direct resources to low-income children. More 
significantly, the superwaiver could permit the elimination of 
important protections for people served by federal programs (i.e. 
public housing programs, programs for the homeless, food stamp 
programs, adult education programs, child care and development 
programs, etc.), with no opportunity for input or oversight on the part 
of affected communities.
    In conclusion, while welfare caseloads have fallen precipitously 
since passage of the Personal Responsibility and Work Opportunity 
Reconciliation Act (PRWORA) of 1996, poverty rates have steadily risen 
in recent years. The most current Census data show the largest jump in 
child poverty in a decade and women's poverty increasing at a faster 
rate than men's. In addition, a growing proportion of poor people are 
living in extreme poverty, with incomes of less than half of poverty 
level--more than at any time since 1975.\20\ In recent years, 
employment rates for single mothers, the group primarily served by 
TANF, have also fallen, with black single mothers faring the worst.\21\ 
TANF reauthorization must focus on changing these trends by lifting 
women and children out of poverty, rather than simply shuttling them 
off the welfare rolls. Making the changes outlined above will help 
ensure that states address themselves to the problem of poverty and do 
so in a way that respects the fundamental rights of those they serve.
---------------------------------------------------------------------------
    \20\ See Center on Budget and Policy Priorities, Census Data Show 
Poverty Increased, Income Stagnated, and the Number of Uninsured Rose 
to a Record Level in 2003 (August 27, 2004); National Women's Law 
Center, NWLC Analysis of New Census Data Finds Poverty of Women and 
Children Increases for Third Straight Year (August 26, 2004).
    \21\ See Center on Budget and Policy Priorities, Employment Rates 
for Single Mothers Fell Substantially During Recent Period of Labor 
Market Weakness (June 22, 2004).
---------------------------------------------------------------------------
    Thank you for the opportunity to provide this written statement for 
the hearing record on welfare reform.

                                 <F-dash>

Statement of Jon Hobbs, American Institute for Full Employment, Klamath 
                             Falls, Oregon
    My name is Deborah Chassman, and I am providing comments on behalf 
of the American Institute for Full Employment (AIFE), on the work and 
self-sufficiency provisions contained in the House TANF reauthorization 
legislation. As a consultant to the American Institute for Full 
Employment, I am frequently called upon to advise and assist states to 
operate programs that are more effective in moving individuals toward 
self-sufficiency. In addition to consulting activities with AIFE, I 
work directly with state and local governments, assisting them to plan, 
implement, and refine welfare reform initiatives. I also teach a 
seminar in Welfare Law and Policy at the George Mason University Law 
School.
    The American Institute for Full Employment firmly believes that, 
with the right kinds of help, most adults can provide for their 
families without welfare cash assistance. AIFE supports programs that 
encourage employment and assist individuals to attain the work-related 
skills that they need to obtain and retain unsubsidized jobs in our 
economy.
    AIFE's experience working with states reinforces the findings in 
the evaluation literature that direct work activities are successful in 
moving individuals from welfare to self-sufficiency. Frequently what 
welfare clients lack is familiarity with the basic requirements of the 
world of work. These individuals cannot obtain jobs because they do not 
know how to conduct themselves at job interviews or to describe the 
personal strengths and abilities they would utilize to perform well if 
hired; they cannot retain jobs because they are not familiar with the 
basic rules of workplace behavior. Short workshops providing a job 
readiness curriculum can familiarize individuals with the basic skills 
employers are seeking in new hires. A daily or weekly combination of 
job readiness training and actual work experience can provide 
individuals with all the necessary skills they need to obtain jobs. 
Additional assistance can be provided, where needed, through case 
management and mentoring, to assist new workers to retain their 
employment. And educational advancements can be supported by state 
welfare agencies and employers once a job is obtained.
    AIFE is not opposed to providing job specific training. But in most 
cases, this training does not require years of education. In fact, the 
JOBS Plus subsidized work program we assisted the state of Oregon to 
implement, was a successful on-the-job training program, where the 
training period and the subsidy generally lasted only four to six 
months. During this period, employers provided some direct training but 
also, where needed, sponsored individuals attending skill-specific 
training on a part-time basis. Even though Oregon selected individuals 
for subsidized positions who were unable to obtain jobs without the 
subsidy, over 80% of the subsidized workers obtained good unsubsidized 
jobs either with their subsidized employer or another local business.
    AIFE is now in the process of assisting the state of Hawaii to 
institute a similar subsidized work program and employer response has 
been extremely encouraging. They are listing good jobs with Hawaii's 
Supporting Employment Empowerment (SEE) program and have expressed 
willingness to hire and train individuals who lack previous work 
experience.
    AIFE reviewed a New York City program that contained requirements 
very similar to the work requirements proposed by the legislation 
introduced in the House of Representatives. Participants in New York 
City were required to combine training and/or education with actual 
work. New York City's 35 hour a week participation design permitted 
contractors to utilize different models to combine work experience and 
classroom training or education. Although the most usual model was a 
mix of three days a week of work experience and two days a week of 
classroom training, New York permitted providers to vary the exact 
structure as long as the program basically maintained the same 
relationship between work and training hours, and a contextual mix of 
training and work or work experience. Whatever the exact design of the 
mixed training/work experience model, workers interviewed by AIFE felt 
that it was important to direct both the training and the work 
experience toward the individual's chosen employment area.
    Both the Oregon and the New York City programs recognize the 
importance of contextual learning, particularly valuable for the TANF 
population. The combination of skill-specific training with actual work 
in the area of the training is a very powerful design mechanism. 
Contextual training, as was provided in the New York program is an 
excellent tool for assisting individuals to obtain good jobs and the 
time limited nature of TANF makes such programs quite sensible. TANF is 
a program that limits benefits to only 60 months in the whole lifetime 
of the individual. Even if permitted, this does not provide enough time 
for most high school drop-outs to obtain the remedial education they 
need to enter a post-secondary program and to complete a college 
degree. However, TANF does permit states to continue to provide 
individuals with educational and training assistance once they leave 
welfare, and AIFE supports state action to do this.
    Moreover, although I as a part-time educator am reluctant to admit 
this, many individuals on welfare do not benefit very much from non-
contextual basic education programs provided prior to beginning 
employment. One reason why this is so is few individuals who lack basic 
educational skills are able to achieve GED certificates. A University 
study I reviewed reported that in one state only 6 percent of welfare 
clients who entered a basic education program with very low skills 
passed the GED, while about 30 percent of those who entered without a 
high school diploma but strong reading and math skills were able to 
pass the exam. Based on these findings, the University study indicated 
that a key policy question was whether some TANF participants would be 
more productive in activities other than basic education.
    MDRC reported overall GED achievement of only 16.5 percent over a 
five-year period in the NEWWS evaluation sites, and noted that those 
who achieved this credential were likely to be individuals who entered 
the program with literacy skills at or close to the high school level. 
Furthermore, both MDRC and the above cited University study question 
whether obtaining a GED increases employment and earnings. It appears 
that employment and earnings gains are only achieved if an individual 
receives vocational training after passing the GED and, unfortunately, 
very few welfare participants complete this sequence.
    AIFE also supports the requirements in the legislation for more 
immediate work entry. In fact, ideally individuals should test the 
labor market before they become dependent on welfare. Thus, AIFE 
supports state efforts to provide employment assistance services to 
divert work-ready applicants from welfare, and we have encouraged 
states to establish up-front work programs that individuals enter when 
they first apply for TANF. Diversion programs can provide individuals 
with jobs and prevent dependence on welfare.
    New York City's diversion program utilized vendors under contract 
with the City to provide employment-related services to applicants, and 
applicants had to participate in the program to become eligible for 
TANF.
    We are currently assisting the state of Hawaii to implement their 
work diversion program. In Hawaii individuals applying for TANF are 
first sent to register with an employment provider. They spend up to 
four months in a 32 hour saturation program receiving work readiness 
training, and assistance with job search. Very short-term contextual 
computer skill training is being added to the curriculum, because many 
individuals have no familiarity at all with computer functions, and 
Hawaii's contractor believes it will be able to widen the scope of 
available jobs if individuals are able to demonstrate basic keyboard 
competency. Individuals who do not quickly obtain an unsubsidized job 
are placed in subsidized work or in short-term work experience 
assignments to prepare them for employment.
    Some individuals obtain full-time employment during the four month 
period and are earning enough so that they never enter into the TANF 
cash program. These families can obtain assistance from Hawaii with 
child care and health care. Individuals who obtain only part-time 
employment or are unable to obtain unsubsidized work during the four 
months are entered into the time-limited TANF program and immediately 
placed with a ``First to Work'' employment counselor to continue to 
pursue self-sufficiency activities. Hawaii believes that the lack of 
success in the four months of up-front employment-related activities 
provides counselors with valuable assessment information, and that the 
up-front program will make counselors better able to design activities 
that support employment entry.
    Although Hawaii has embraced the diversion program, the state has 
expressed concern that it will not receive full credit for families 
which it diverts from TANF. For example, although individuals 
participate full-time in the New York City and Hawaii diversion 
programs, since they are not welfare recipients neither jurisdiction 
can claim their participation to help them meet TANF work participation 
requirements. This is because the family will never be entered into the 
TANF program and so will not directly show up as a family that has left 
the caseload. AIFE hopes that reauthorization legislation will provide 
incentives for other states to join Hawaii in sponsoring up-front work 
diversion, by finding a way to more fully credit states for diverting 
individuals and their families from dependence on welfare.
    Although AIFE supports strong work requirements, we are concerned 
that the difficulty in obtaining full-time work participation for 70% 
of all recipients may produce perverse incentives. For example, under 
the current program, 23 states have created ``separate state programs'' 
using maintenance of effort (MOE) rather than TANF money to pay two-
parent families, to avoid the extremely difficult to meet 90% two-
parent work participation requirements.
    In addition, states also provide benefits under separate state 
programs to other populations which are difficult to serve to avoid 
time limits and work participation requirements for these hard-to-serve 
groups. For the most part the states then ignore individuals placed in 
such programs, recognizing that they are more costly to serve and that 
if served the success rate will probably be less robust than for more 
work-ready welfare recipients. The trend to shunt aside hard-to-serve 
population is likely to intensify with a 70% all-family participation 
requirement. Yet it is the hard-to-serve clients who most need the 
services that states can provide. AIFE would like to see 
reauthorization legislation eliminate disincentives to serve those who 
most need help and instead offer incentives for states to provide 
services to those who need them most.
    Our reviews of state programs provide support for the House 
provision requiring states to implement full-family sanctions. We have 
been struck by the frustration of workers in partial sanction states, 
who find themselves unable to assist so-called ``happily sanctioned'' 
adults to obtain employment services. While forcing their families to 
live on sanction-reduced grants, partial sanctions make it easy for 
these individuals to avoid work participation. But how do the children 
fare when the family has less money for food and rent; and what happens 
to the children when the five years that the family can receive welfare 
benefits runs out, and their parents still lack work skills and work 
experience?
    In our reviews we have seen no instance where states deliberately 
utilize full family sanctions harshly, to penalize clients for failure 
to participate. Rather, the workers we have interviewed in full-family 
sanction states advise that they use such sanctions as useful tools to 
motivate individuals to comply with participation requirements. 
Although full-family sanctions can be used effectively to motivate 
participation in self-sufficiency activities, workers in full-family 
sanction states do point out that full-family sanctions that they are 
required to continue for a minimum number of months limit their ability 
to immediately return to work participation activities individuals who 
have become willing to comply. Welfare clients like the rest of us are 
rational economic actors and so are unlikely to resume compliance when 
doing so will not restore their family's benefits.
    In summary the American Institute for Full Employment supports many 
of the work-related provisions in the pending legislation, since they 
encourage work and self-sufficiency.

                                 <F-dash>

 Statement of Lori Valencia Greene, American Psychological Association

    The American Psychological Association (APA) maintain that in order 
for welfare reform efforts to be successful, critically needed mental 
health and substance abuse services must be readily available and 
accessible to help women to overcome barriers to work and achieve 
economic self-Sufficiency.
    Since enactment of the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996 (PRWORA), there have been dramatic decreases 
in the numbers of families who receive Temporary Assistance to Needy 
Families (TANF) block grant funds. However, women who face multiple 
barriers to obtaining and maintaining employment have been the least 
likely to achieve economic self-sufficiency. According to the 2000 
University of Michigan's Women's Employment Study, barriers to 
employment for these women include mental health and/or substance abuse 
problems, the lack of a high school diploma, transportation 
difficulties, health concerns (theirs and/or their children's), and 
domestic violence. Following are some of APA's most significant 
recommendations for provisions to be included in TANF reauthorization 
legislation:
1. Provide screening and treatment for mental health and substance 
        abuse problem.
    Rationale: Mental health and substance abuse problems represent 
significant obstacles to employment and economic self-sufficiency for 
women receiving TANF benefits. TANF clients with mental health 
problems, if not identified and treated, are more likely to continue to 
require public assistance over a long period of time. A 1998 Department 
of Health and Human Services (DHHS) study reports national estimates of 
up to 28% of TANF clients with mental health problems, and state and 
local estimates of up to 39%. Major depression is the most common 
mental health problem among TANF clients, followed by posttraumatic 
stress disorder (PTSD) and generalized anxiety. Mental health and 
substance abuse problems can affect employment directly through 
absenteeism, illness, injury, reduced capacity, and lost productivity, 
or indirectly through lowered self esteem and self concept. TANF 
recipients may be especially reluctant to disclose mental health and 
substance abuse problems for fear they will lose their children, their 
TANF benefits, or both.
    Recommendation: States should develop a plan to ensure that 
standards and procedures are in place to address the needs of 
individuals who face barriers to work such as, but not limited to, a 
mental health problem (including learning disabilities), substance 
abuse problem, physical impairment, and/or have been subjected to 
domestic or sexual violence. The state plan must ensure that:

    <bullet>  Trained caseworkers or qualified professionals conduct a 
preliminary screening and assessment of each TANF client. If the client 
is identified as experiencing a barrier to work, the caseworker or 
professional must refer, at the client's option, the client and her 
family for appropriate mental health or substance abuse treatment, 
counseling, vocational rehabilitation, and/or job training. Such 
services must be individualized and appropriate for families, gender-
specific, and culturally competent. Support services, such as child 
care and transportation, must also be offered to help ensure 
accessibility to the other services.
    <bullet>  For those clients for whom treatment or services are 
unavailable, the five-year benefits clock must stop until the treatment 
or services are available.
    <bullet>  The caseworker or qualified professional assigned to the 
client's case must collaborate with employment case managers, with the 
client's consent, to ensure that the client receives integrated, 
comprehensive services.

    2. Repeal the lifetime ban on cash assistance and food stamps for 
individuals convicted of a state or federal felony offense involving 
the use or sale of drugs.
    Rationale: This ban undermines the efforts of mothers to overcome 
addiction, develop essential marketable skills, become more productive 
members of their communities, attain economic self-sufficiency, and 
provide a safe and healthy environment for their children. As women 
return to their communities, it is counterproductive to endanger their 
access to food, housing, and clothing for themselves and their children 
while they are trying to enter or complete substance abuse treatment 
programs or maintain recovery for addiction.
    Recommendation: The ban should be repealed so that women with 
substance abuse problems can be referred for treatment and obtain vital 
TANF and food stamps.
3. Urge states to adopt the Family Violence Option (FVO)
    Rationale: The FVO allows states to screen recipients for domestic 
violence victimization, provide referrals to specialized services, and 
provide good cause waivers from the five-year lifetime limit on TANF 
assistance and mandatory work requirements. Only 36 states and the 
District of Columbia have adopted all or part of the option, and two 
states have authorized at the county level. Women who have experienced 
intimate violence, either as children or in their adult lives, 
frequently suffer from low self esteem, PTSD, substance abuse, and 
homelessness. They are more likely to be unemployed and exhibit high 
rates of job turnover. Failure to identify and address issues of 
violence leaves victims at greater risk both for more violence and for 
long-term poverty. Because disclosing violence in their lives is risky 
for low-income women, accurate assessment of the prevalence of violence 
is difficult to obtain. A report for DHHS provides estimates that up to 
65% of TANF clients have experienced intimate violence in their lives.
    Recommendation: DHHS should create incentives for states to adopt 
the FVO. In addition, states should provide exemptions to, and 
extensions of, time limits to all women identified as victims of past, 
recent, and/or current abuse.
4. Include mandatory state and federal data collection, evaluation, and 
        reporting provisions of referrals and services, especially 
        those regarding mental health and/or substance abuse.
    Rationale: Although there have been studies of how individual 
states have addressed the needs of TANF clients with substance abuse 
and/or mental health problems, states do not routinely report this 
information. Therefore, it is difficult to determine whether or not 
TANF clients are receiving the necessary services to overcome barriers 
to economic self-sufficiency.
    Recommendation: The reauthorization of TANF should include state 
and federal mandatory data collection, evaluation, and reporting 
provisions for referrals and services, especially those regarding 
mental health and substance abuse. The DHHS Secretary should:

    <bullet>  review programs receiving funding from the TANF block 
grant or funded with maintenance of efforts funds to determine the 
amount of funds spent on services, including, but not limited to, 
mental health services, substance abuse treatment, domestic violence 
counseling, and rehabilitation for people with physical disabilities; 
and
    <bullet>  Evaluate the process of referral, such as, but not 
limited to, whether recipients received referrals and services, and how 
such services affected their economic status.

                                 <F-dash>

 Statement of Douglas W. Nelson, Annie E. Casey Foundation, Baltimore, 
                                Maryland
    Thank you for this opportunity to submit written testimony to the 
Human Resources Subcommittee of the Committee on Ways and Means of the 
U.S. House of Representatives, regarding the ``Personal Responsibility, 
Work, and Family Promotion Act of 2005'' (H.R. 240), which would 
reauthorize the Temporary Assistance for Needy Families (TANF) block 
grant.
    I am Douglas W. Nelson, President of the Annie E. Casey Foundation 
of Baltimore, Maryland, a national philanthropy devoted to improving 
the circumstances and life outcomes for disadvantaged children and 
families. This testimony is submitted on behalf of the Casey Foundation 
and a consortium of other national funders interested in the well-being 
of the nation's children and families and how TANF can contribute to 
their well-being.
    Our testimony focuses narrowly on one provision of H.R. 240: 
section 116(a)(1)(a), which would authorize $10 million annually for 
the Bureau of the Census to:

          implement or enhance a longitudinal survey of program 
        participation, . . . to allow for the assessment of the 
        outcomes of continued welfare reform on the economic and child 
        well-being of low-income families with children, . . . and, to 
        the extent possible, shall provide State representative 
        samples. The content of the survey should include such 
        information as may be necessary to examine the issues of out-
        of-wedlock childbearing, marriage, welfare dependency and 
        compliance with work requirements, the beginning and ending of 
        spells of assistance, work, earnings and employment stability, 
        and the well-being of children. (emphasis added)

    Under H.R. 240, the overarching goal of TANF would be to increase 
the flexibility of states in operating a program designed to improve 
child well-being. We applaud that goal and believe that better state-
level data on TANF and other devolved safety net programs are needed, 
both for managing the programs and for monitoring their consequences 
and outcomes, especially with regard to the well-being of our nation's 
most vulnerable children and families. Yet H.R. 240 would devote the 
$10 million not for data useful to all of the states administering 
fifty TANF programs with widely varying policies, characteristics, and 
environments, but rather to a research survey designed for analysis at 
the national level, with state-representative samples in only a dozen 
or so of the largest states.
    As national philanthropies, we believe in and are working toward 
the promising possibility of a ``joint funding'' opportunity between 
our institutions and the federal government regarding the child well-
being survey provisions of H.R. 240. Specifically, we think that timely 
and reliable state-level data would be so valuable that if the bill 
were to provide funding for a state-level cross-sectional survey on 
child and family well-being we would be prepared to commit in excess of 
$1 million annually in the analysis and dissemination of the data under 
section 116(a)(1)(a), as part of a significant private/public 
partnership.
    The survey we propose would allow the provision and dissemination 
of important data and information relative to the implications of TANF 
for the well-being of children and families in each and every state, 
rather than just the dozen or so feasible in the current provision. As 
representatives of several of the nation's largest private 
philanthropies, we approach this issue from the perspective of wanting 
to ensure that state policy-makers have the tools they need to 
implement, manage and monitor key elements of TANF and other health and 
social programs that have devolved to the state level. Our 
organizations invest many millions of dollars annually in this effort, 
and we want it to be as effective as possible.
    A state-level cross-sectional survey would ensure sample sizes of 
at least 2,000 households with children in each and every state, 
providing states with an invaluable resource to everyone concerned 
about the well-being of children and families. By contrast, under the 
current provision, sample sizes in more than half the states would be 
so small as to preclude state-level analyses on low-income children and 
families. Only a handful of states--California, Texas, New York, 
Florida, and Illinois--would have sample sizes close to 2,000 or 
larger. Disproportionately represented among the states with inadequate 
sample sizes under SIPP would be the nation's less-populated and 
relatively rural states, including Alabama, Alaska, Arkansas, Hawaii, 
Idaho, Iowa, Kansas, Louisiana, Maine, Mississippi, Montana, Nebraska, 
Nevada, New Hampshire, New Mexico, North Dakota, Oklahoma, Oregon, 
South Dakota, Utah, Vermont, West Virginia, and Wyoming. Moreover, data 
from a cross-sectional survey would be available to state policy-makers 
on a far more timely basis than those of a national longitudinal study, 
a matter of months instead of years.
    We do recognize the value of a national-level longitudinal survey--
one that would provide national scholars and think tank researchers 
with very detailed data for a few states and the nation as a whole. 
Better national data on TANF and other devolved safety net programs are 
unquestionably important, both for managing the programs and for 
evaluating their consequences and outcomes, especially with regard to 
the well-being of disadvantaged children and families. The ideal 
situation would be to make resources available to support both types of 
surveys. If, however, funds are available for only one, we believe it 
is critically important to ensure that hard-pressed policy-makers, TANF 
administrators, the media, and the public in all fifty states have 
timely and reliable state-specific data to inform their on-going 
management and monitoring of TANF and related programs. This point is 
further reinforced to the extent that additional federal-to-state 
devolution of health and social programs affecting child and family 
well-being occurs. As program responsibility devolves, so should the 
data.
    Just one example will show how important state level data is to 
furthering the goals of this legislation. H.R. 240 contains numerous 
provisions intended to encourage and facilitate the formation and 
sustenance of healthy marriages and intact two-parent families, as well 
as the avoidance of non-marital and teenage pregnancies, as important 
ways to improve the well-being of children. Recognizing that we lack 
reliable data about how best to achieve those goals, the proposed bill 
would encourage states to adopt a variety of different approaches and 
initiatives. Yet, the national level survey funded under H.R. 240 would 
be virtually worthless in helping state TANF administrators to either 
manage their healthy marriage and family formation programs or to 
assess the degree to which their efforts are succeeding. By definition, 
a national-level survey cannot provide state-specific outcome data on 
this or any other aspect of the TANF program the way a state-level 
survey can.
    That is why we are prepared to step up and jointly fund this effort 
and to discuss with you what such a jointly funded program would look 
like. We are willing to make this $1 million commitment because we 
believe in the critical importance of state-specific data designed to 
help state-level TANF managers and policy-makers.
    We hope that this analysis is helpful to you. Our effort is to 
inform you of pertinent facts and the results of different outcomes. We 
are mindful of the federal lobbying restrictions on private foundations 
and express no opinion on the merits of any particular bill. We do 
believe, however, the exception for jointly funded projects--at 
Sec. 53.4945-2(a)(3)--provides us an opportunity to testify on this 
important issue.
    If you or your staff have any questions or wish to discuss this 
further, please do not hesitate to contact any of us at your 
convenience. Again, thank you for this opportunity to submit testimony 
on this important matter.

                                 <F-dash>

     Statement of Deborah A. Frank, Boston Medical Center, Boston, 
                             Massachusetts
    Distinguished chairman and members of the committee, I write on 
behalf of my young patients and my colleagues. I am one of many 
pediatric clinicians who daily treat sick and hungry children in 
America. I am also one of the Principal Investigators with other 
pediatric researchers in the Children's Sentinel Nutrition Assessment 
Program (C-SNAP) initially funded by a grant from the W.K. Kellogg 
Foundation and other private donors. Since 1998 we have monitored the 
impact of current public policies and economic conditions on the 
nutritional and health status of low income children less than 3 years 
old in six medical institutions serving Baltimore, Boston, Little Rock, 
Los Angeles, Minneapolis and Washington DC. As busy policy makers you 
probably do not have time to peruse the pediatric and nutrition 
journals, but before you vote on H.R. 240, the Personal Responsibility, 
Work, and Family Promotion Act of 2005, you need to know that the 
medical evidence suggests that this measure entails unintended but 
grave risks to the health of your youngest constituents. The special 
needs of infants, toddlers, and chronically ill children are not, as 
far as I know, reflected in any of the non-medical evaluations of 
welfare reform to which the committee web site refers. I would like to 
dedicate this testimony to the children I treat for malnutrition at 
Boston Medical Center, many of whom are from families who have 
experienced welfare sanctions.
    We and researchers in other disciplines have found that, except for 
white, non-Hispanics, the number of American children who experience 
food insecurity has increased since the start of the 21st century. As 
you know, food insecurity is defined by the federal government as 
limited or uncertain availability of nutritionally adequate safe foods 
or limited or uncertain ability to acquire acceptable foods in socially 
acceptable ways. While we have found that little children in working 
poor families and those with stable TANF benefits experience 
unacceptable levels of food insecurity, it is particularly concerning 
that this health risk is increased a further 50% for young children in 
families who experienced welfare sanctions, whether full family or 
partial, including simply having a child subject to the child exclusion 
(family cap) provision. Even without sanctions, the risk of food 
insecurity is increased 37% for families whose benefits are reduced for 
purely administrative reasons. Dr. John Cook and the rest of our C-SNAP 
team initially published this finding in an article in the 2002 
Archives of Pediatric and Adolescent Medicine, which I would request to 
insert in the record. These data were based on results from 2,718 
children evaluated from August 1998-December 2000. We more recently 
reassessed these findings among 4,430 infants and toddlers seen through 
mid-2004 and the magnitude of increased risk was identical.
    Why are we as pediatricians so deeply concerned about increasing 
``food insecurity'' among these families whose welfare benefits are 
sanctioned or reduced? Because food insecurity is a serious health 
problem! Food insecure children are prone to the infection-malnutrition 
cycle increasing their risk of severe illness and hospitalization. A 
lack of essential nutrients impairs the body's ability to heal and 
decreases immune function causing a child to be more susceptible to 
illness. With any acute illness, most children lose weight and need, 
after recovery, to eat more than usual to regain lost weight and resume 
normal weight gain. Because food insecure families cannot provide the 
extra food children require to regain weight after an illness, the 
child becomes more malnourished and more susceptible to the next 
infection. It is this infection-malnutrition cycle which in settings 
without adequate medical care leads to the death of malnourished 
children. In this country the cycle often manifests in preventable 
recurrent illness and a need for costly therapeutic health resources.
    It is important to note that food insecurity even in the absence of 
outright hunger injures children's health. C-SNAP data show that young 
children in food insecure households with hunger are 2.3 times more 
likely to be in fair or poor health than children in food secure 
households. Children in food insecure households without hunger are 
still 1.7 times more likely to be in fair or poor health than children 
in food secure households. We have consistently found that after 
considering background family characteristics, young children in food 
insecure families (whether or not they have a history of TANF 
participation) are 30% more likely than their peers in food secure 
families to be hospitalized before the age of 3 years. As would be 
expected from the physiology of food insecurity that I just outlined, 
these children from food insecure families are more likely than their 
peers to be hospitalized for severe respiratory and gastrointestinal 
infections. Those of you who as parents or grandparents have sat long 
hours by the bed of a hospitalized baby or child can readily imagine 
the suffering this entails for parents and their children. What you may 
not realize is how very expensive such excess hospitalizations are for 
us all as taxpayers--the average cost of a brief 3-4 day pediatric 
hospitalization is more than $11,000.
    Food insecurity during the period of most rapid growth of body and 
brain in early life can also have lasting effects, even if the 
families' economic situation eventually improves to the point where 
they are no longer food insecure. Children in food insecure households 
are at increased risk not only for short term infections but for 
persistent deficits in cognitive development, and behavioral and 
emotional problems that can impede their future success in school and 
their later productivity as adults in the workforce.
    Paradoxically, food insecurity may also place older children at 
risk for being overweight or obese.  In order to prevent hunger, food 
insecure families often sacrifice the quality of the food they eat to 
get enough quantity to prevent the sensation of hunger, particularly in 
their children. Low nutrient quality cheap foods with high calories and 
fat content will prevent a child from experiencing painful pangs of 
hunger, but they do not protect the child from nutrient deficiencies 
that put the child at risk for being overweight.
    While I reflect pediatricians' special concerns about infants and 
toddlers, other colleagues have reported deeply troubling data about 
the potential impact of increased work requirements on caregivers of 
chronically ill children of any age. Families on welfare are more 
likely than other poor families to have children with chronic illness. 
These children miss more days of school and have more scheduled and 
urgent doctor visits, emergency department visits and hospitalizations 
than other children. Their home medical regimens require substantial 
parental involvement to keep them healthy. When chronically ill 
children get sick, their primary caregivers have the experience and 
expertise to care for them. The primary caregivers know their complete 
medical histories, are able to recognize subtle early signs of illness, 
know how their illness episode should be managed at home and when to 
seek urgent medical care. Substitute caregivers will likely not have 
the necessary experience, expertise or inclination to care for these 
children when they are ill.
    Low-income families whose children are chronically ill face 
substantial challenges in finding appropriate day care for their 
children. In a study of current and former welfare recipients with 
chronically ill children, my colleague Dr. Lauren Smith found that 40% 
of current welfare recipients had difficulty finding appropriate child 
care because of their child's condition and 34% indicate that 
difficulty in finding adequate day care for their children is a 
substantial barrier to employment. She and her co-authors have also 
found that 60% of current recipients and 80% of former recipients have 
missed work due to their child's illness, and 75% of these parents 
report that their child's illness is a substantial barrier to finding 
and keeping a job. Her team also found that over time, chronically ill 
children experiencing household hardships, such as food insecurity, 
utility disconnections and housing problems were found to have 
increases in subsequent emergency department visits and 
hospitalizations.
    I am aware of a distressing case from Boston Medical Center where I 
work of a chronically ill little girl who died while in the care of an 
adolescent sibling while her mother was out of the home trying to work 
to avoid welfare sanctions. I anticipate that the proposed increased 
work requirements in bill H.R. 240 will lead to other similar 
preventable tragedies as well as less obvious but serious deterioration 
in the well-being of infants, toddlers, and chronically ill children. 
These particularly vulnerable children would then consume even more 
medical resources, experience further preventable disability, and 
experience more difficulties functioning in school and in the 
workplace.
    Knowing this medical information, you can understand why 
pediatricians around the country are so gravely concerned about the 
prospect of inflicting food insecurity upon more families with young 
and chronically ill children via mandated full-family sanctions if 
parents cannot meet the more stringent work requirements outlined in 
H.R. 240.
    To use a medical analogy, H.R. 240 proposes a ``treatment'' for 
America's most impoverished families that has an unacceptable risk 
benefit profile. Requiring more families to participate in work 
activities and imposing longer work hours may result in mitigating 
deprivation for a few children whose parents are lucky enough to 
succeed in finding and keeping adequately paid work. However, many more 
families, particularly those with young or chronically ill children, or 
with parents burdened with poor mental and physical health, cognitive 
impairments, or sequelae of physical and sexual abuse will lose all 
income for their survival needs. The side effects of H.R. 240's 
increased and unrealistic work requirements are predictably the 
exposure of more families and children to mandated full family 
sanctions and thus to food insecurity, ill health, and excess 
hospitalizations.
    If there was a medical treatment, which possibly helped some 
patients and predictably and possibly irreversibly injured others, we 
as physicians would be bound to do an extremely careful and 
individualized assessment of each patient before applying the 
treatment. If the treatment were to be applied, we would use the lowest 
possible dose, and closely follow up and monitor those who received the 
treatment to try to reverse it if harm emerged. I would urge you to 
take a similarly thoughtful approach to issues of welfare reform, with 
avoidance of unrealistic work requirements on families suffering 
barriers to meaningful employment, particularly those with young or 
chronically ill children. Clearly full family sanctions should be 
avoided, since our data show even partial sanctions, like the family 
cap, have adverse effects on young children. Just as a hazardous cancer 
treatment must first be reviewed by a tumor board before being 
undertaken, any proposed sanctions could be reviewed by a third party 
and a sanction avoidance plan devised to help families to overcome 
barriers to compliance. If a family does experience sanctions, repeated 
follow-up and assessment of the safety and well being of affected 
families and their children should be mandatory.
    In closing, I cannot imagine that the distinguished members of this 
committee really intend to make America's babies hungrier and sicker. 
You now know the medical data that demonstrate declining welfare 
caseloads do not automatically indicate an improvement in the well-
being of American children. On the contrary, families who leave welfare 
because of sanctions or who have their benefits reduced before they 
have reached family stability are more likely to have hungry, sick 
children.
    H.R. 240 will inevitably increase the number of children exposed to 
sanctions. If you pass a bill that triggers a ``sanctions epidemic,'' 
hungrier and sicker children will incur more health care costs in the 
short term and be less likely in the long term to succeed in school and 
participate productively in the future workforce. The lives of these 
children are in your hands as much as if you stood over them with a 
surgical scalpel, and I urge you, as we always urge new doctors, 
``primo no nocere!'' (First do no harm!).

                                 <F-dash>

          Statement of Fred Burg, West Long Branch, New Jersey

    Honorable Chair and Members of the Committee:
    I submit this statement on behalf of no specific individual or 
entity other than myself but please recognize that what I say below 
affects many people in the same or similar situation. All of what I say 
below is based on personal experience.
    The situation is one of being a father with two great children and 
an ex-wife. My concerns have nothing to do with them but with a system 
that works fine most of the time. But when it doesn't work, it is very 
hard to fix. As is said, ``the devil's in the details.''
    I live in New Jersey but would suspect that the issues I address 
are not local to the Garden State. As a result of my divorce, I have a 
child support order to fulfill; my alimony obligation no longer exists 
since my ex-wife was remarried about five years ago. However, my 
comments relate to the process surrounding both child support and 
alimony. I have worked with my New Jersey legislators with regard to 
some of these issues and they have introduced legislation to address 
them. In doing so, I worked with the New Jersey Office of Legislative 
Services (OLS). I was told that they believe they are constrained in 
what they can do because of Federal statutes. Therefore, I have also 
worked with Congressman Holt and Former Senator Toricelli on this in 
2002. At the time, the opportunity to effect changes was fleeting and 
passed before anything could be done. Therefore, I appreciate the 
opportunity to provide these comments at this time to get the details 
right.
    As a result of looking at the web site of the Ways and Means 
Committee, I have directed my comments against H.R. 3734 and P.L. 104-
193. My comments are nevertheless applicable to whatever appropriate 
legislation is being considered that addresses the issues concerning 
the process of wage garnishments to cover support obligations. In H.R. 
3734, the corresponding legislation is found in Title III.
    The details I speak of fall into the following categories:
1. Wage Garnishment Process Between Obligor's Employer and a State 
        Disbursement Agency:
    When a wage garnishment is set up between an obligor's employer and 
a state disbursement agency, one would expect that the process should 
operate correctly. In fact, I count on it and appreciate being relieved 
of the burden of having to remember to send a check to the state 
disbursement agency and from dealing with my ex-wife if she doesn't 
receive the check.
    But it is not inconceivable that something might go awry between 
the obligor's employer and the state disbursement agency. It happened 
to me not once but twice (what are the odds). All I knew at the time 
was that my paycheck was garnished for the correct amount and I was 
counting on my employer and the state disbursement agency to make sure 
that the funds got to the right place. I had no proof that this 
actually happened. It turns out that both times the check from my 
employer to the state disbursement agency was unduly delayed. In turn, 
the state disbursement agency came after me.
    Since Title III of H.R. 3734 describes a process in which a wage 
garnishment can be set up between an obligor's employer and a state 
disbursement agency to ensure payment of a child support obligation, I 
am asking that the legislation contain wording that removes an obligor 
from any responsibility of ensuring that the process of sending funds 
is actually working and from being called on to pay twice when it is 
not working. What can an obligor do to make the process work, 
especially if they don't even know it's broken? Even if an obligor 
wanted to, it would be too late to affect some of the penalties that a 
state disbursement agency can invoke for late payments. Further, the 
``stock'' answer of ``pay it twice and sort out the details later'' is 
not feasible--for one thing, an obligor may not be in a very good 
financial position to pay it twice.
    Specifically, the wording should suspend the ability of a state 
disbursement agency to invoke any and all penalties of an obligor 
(e.g., those listed in Subtitle G of Title III of H.R. 3734) or even 
suggesting there are arrearages while a valid wage garnishment is in 
place and funds have been flowing from an obligor's employer to the 
state disbursement agency. It should be the responsibility of the state 
disbursement agency to deal with the obligor's employer to determine 
the problem and fix it. It should be required to inform the obligor 
that such a problem exists and to let him/her know that the state 
disbursement agency is working with the obligor's employer to fix it 
but that no further action is needed by the obligor. Of course, the 
state disbursement agency should also inform the obligor when the 
problem is resolved.
    I have heard it said that an employer and employee/obligor may be 
in ``cahoots'' to thwart a child support obligation--this being a 
reason for not removing the obligation from an obligor even when a 
valid wage garnishment is in place. I can't speak to that. I worked for 
a very large corporation which would not do that and I wouldn't have 
known how to begin to enter into such subterfuge even if I had wanted 
to. However, that is penalizing many of us because of the few bad 
apples. There is already language in Title III of H.R. 3734 (see 
Section 313) that penalizes an employer for not providing information 
about new employees to the State Directory of New Hires. I would ask 
that those penalties be widened to cover any cases where an employer 
purposely works to thwart the process of providing validly garnished 
funds based on a court support order to the state disbursement agency. 
Do not penalize the rest of us when the process breaks.
    Since the flow of funds between an obligor's employer and a state 
disbursement agency may very well be across state lines and/or involve 
employees of the U.S. government, I feel this is an appropriate concern 
to be addressed by Federal legislation.
2. Interactions Between a State Disbursement Agency and Credit Bureaus:
    There are several areas under this heading that must be addressed. 
In dealing with the NJ OLS, this was an area that it felt particularly 
constrained to legislate because of the national nature of Credit 
Bureaus.
(A) Reporting Arrearages to a Credit Bureau:
    Reporting obligor's arrearages is one of the penalties that can be 
invoked per Subtitle G of Title III of H.R. 3734 (see Section 367). I 
have no problem with this but again the devil is in the details.
    As already mentioned, all penalties for non-payment of a child 
support order should be suspended if a valid garnishment is in place. 
However, a state disbursement agency needs to put in place some 
additional details to make this work in practice. For example, is a 
warning issued to the obligor? Is the warning one-time or on a per non-
payment basis?
    In the case of New Jersey, its state disbursement agency instituted 
a policy that an obligor got one warning--period. In my case, the 
warning, which I did not even recognize as such, came when the account 
was first being set up and neither my employer nor I could send funds 
directly to the state before the account was established. In the 
interim (a period of about 2-3 months), I sent checks directly to my 
ex-wife. My ex-wife did inform the state disbursement agency that she 
had received the checks and there were no arrearages. However, 
according to the state disbursement agency, the warning that it sent me 
during this establishment period was my one and only ``lifetime'' 
warning. Therefore, when the process problems mentioned earlier 
occurred, they immediately informed the credit bureaus that I was in 
arrears of child support.
    Therefore, I would ask that wording be added to Section 367 to 
protect against this type of event. The wording could state that a 
state disbursement agency must inform an obligor that it will report 
arrearages to a credit bureau and provide due process for contesting 
this. Further, such informing must occur on each instance of arrearage. 
It would be satisfactory if arrearages occurring over several 
consecutive payments were treated as one occurrence. In my case, the 
two occurrences of a problem happened years apart, yet I had used up my 
one ``lifetime'' warning even before the first occurrence!
(B) Other Interactions Between a State Disbursement Agency and a Credit 
        Bureau:
    Section 352 of H.R. 3734 also provides the ability for the head of 
a state disbursement agency (or his/her designate) to obtain a credit 
report about the obligor from a credit bureau. Again, I have no 
problems with this but the devil is in the details.
    Let me mention that a state disbursement agency may also make an 
enquiry of an obligor's account at a credit bureau. That is, they may 
look at the account for various purposes. In my case, the state 
disbursement agency looked at my account in an attempt to remove its 
report of arrearages as noted above. This just compounded the problem. 
I recall the head of the agency telling me he had good news and bad 
news: the good news was that he had seen the erroneous report of 
arrearages and was going to send a letter to the credit bureau to 
remove that since there were no arrearages; the bad news was that in 
looking at my credit account, the very action had created an entry that 
a ``state disbursement agency was looking at the account.'' In 
interacting with both the state disbursement agency and the credit 
bureau, they both attempted to downplay this by saying the enquiry 
would ``only'' remain on my account for three years, that it was for my 
protection, and that I could put an explanation in the record. However, 
the damage was done. There was now an entry on my credit report with a 
warning that ``there are accounts listed that contain adverse 
information which may be interpreted negatively by a credit grantor.'' 
Listed there was the state disbursement agency based on just looking at 
my account in an attempt to ascertain and correct its problems as 
already described.
    Therefore, I would ask that any interactions, other than the 
reporting of arrearages, between a state disbursement agency and a 
credit bureau be prohibited from being added to an obligor's credit 
report. At a minimum, they should not be visible to others who look at 
the account. Further, the state disbursement agency must inform the 
obligor ahead of time of each instance, including the reason, of any 
interactions between it and a credit bureau to give the obligor an 
opportunity to contest the need for such interaction.
3. Termination of Support Obligation:
    At some point in time, an obligor's support obligation will be 
terminated. In the case of child support, this occurs at emancipation 
of the child. I am not going to talk about the events that result in 
emancipation but just say that it does occur.
    However, it is noted that Section 362 of H.R. 3734 does not require 
a variation of pay cycles to meet a support obligation of a Federal 
employee. States recognize this also. In doing so, an employer may 
continue to operate its payroll system on its regular cycle and forward 
funds to the state disbursement agency when the payroll system normally 
runs. So, for example, a monthly paid obligor has a month worth of 
obligations garnished when the payroll system runs even if the support 
order is on a weekly basis. Usually, the support order stipulates that 
the funds are due ahead of time (e.g., funds for the month of February 
are due on February 1 and, therefore, the garnishment occurs when the 
obligor is paid for January).
    The problem here is that the child may be emancipated in February, 
say February 3. By the time a state disbursement agency has ``turned 
off'' the garnishment, the January funds for February have already been 
sent to the obligee. Further, additional pay cycles may pass before the 
garnishment is ``turned off.'' The latter issue (additional pay cycles 
passing) may be addressable if the state disbursement agency agrees to 
freeze the account; it may not be so addressable. In the mean time, an 
obligor has paid support for an emancipated child. One may argue that 
the obligor should not have a problem supporting a child even beyond 
emancipation. That is true but it should be the choice of the obligor 
to do so.
    The issue to be addressed is the payment of funds for a child that 
has been emancipated. If emancipation occurs, say, February 3, then 25 
days of support have been paid based on the garnishment in place on 
January 31 that are not owned. If there is another child for whom 
support is being paid, then the 25 days of support paid for the 
emancipated child should go as a credit for the unemancipated child and 
the obligor should have a method to recover any excess funds directly 
from the state disbursement agency. But even this is not to be taken 
for granted since the state disbursement agency may say that it does 
not ``pro-rate'' support. I feel this to be unreasonable.
    What if the emancipated child was the last child? The state 
disbursement agency has already sent a check to the obligee. In my 
case, they tell me they are not a bank; once the funds are sent to my 
ex-wife, they have no funds to reimburse me for any overpayment. They 
even go further as to suggest that they do not pro-rate support anyway, 
as mentioned. Even if my child was emancipated on February 3, they 
consider that the funds were payable for the entire month. If the pay 
cycle is on a weekly basis and the support order is also on a weekly 
basis, this may not be so bad. But the longer the pay cycle is relative 
to the support order, the more ``exposure'' an obligor has to 
overpayment once a child is emancipated.
    Therefore, the solution is simple. If overpayment has occurred as 
described above and such overpayment can be credited to support of an 
unemancipated child, then this should be done. Recovery of any excess 
due to the former garnishment (based on the now emancipated child) 
still being in place can and should be handled between the state 
disbursement agency and the obligor but pro-rating of the support must 
be required. If overpayment can not be credited against an 
unemancipated child because there are no longer such children, then it 
becomes the requirement of the obligee, who may no longer live in the 
same state as the obligor, to make such a refund to the obligor. Any 
and all penalties, (e.g., withholding of licenses, reporting to credit 
bureaus, etc.) mentioned in Sections 367-370 of H.R. 3734 with respect 
to an obligor should now be applicable to an obligee in this instance.
    In a related scenario, there may be several state disbursement 
agencies involved in a garnishment if a family has moved across state 
boundaries. For example, an order is entered in NJ; after a time, the 
custodial parent moves with the children to Pennsylvania while the non-
custodial parent moves to NY. For some amount of time, there may be a 
garnishment in NJ based on the original order while NY sets up its own 
garnishment. Hopefully, this will work out and I recognize there is 
language in Section 322 of H.R. 3734 that deals with multiple state 
disbursement agencies for the same obligor and child. However, this is 
leaving it to chance and, as demonstrated, the devil is in the details. 
Further, the obligor has multiple wage garnishments in place for the 
same child and may not be able to afford such. I would not count on 
multiple state disbursement agencies working cooperatively to quickly 
resolve this. Therefore, the same crediting process and obligee refund 
requirement as stated above should apply to this scenario as well. 
Other language to require the applicable state disbursement agencies to 
resolve the overpayment in an expedited process would be useful.
4. Time Frame For Responding to State Disbursement Agency Notices:
    Although this may seem minor, the consequences are very 
significant.
    In various parts of H.R. 3734, there are time periods that apply 
for various actions. For example, there is a 30-day period to contest a 
triennial (or more frequent) Cost of Living Adjustment (Section 351). 
There is also a period of ``at least 10 days'' for notice that a state 
disbursement agency must inform an obligor of requesting a credit 
report (Section 352). I am not aware of any reason for why one period 
should be different than the other but do recognize the benefit of 
providing guidance to the states by specifying some number.
    The problem is with specifying a number that is too small. Imagine 
coming home from a two-week vacation and opening mail saying you have 
10 days to respond to this notice and it is dated the day after you 
left for vacation. Therefore, I would suggest that all notices provide 
a response period of at least 30 days. The chances of most people 
taking vacation for such a lengthy time are quite small compared to the 
chances of taking 10 day vacations (and even those are shrinking in 
this work climate, which is another subject for another day for Human 
Resources). But this almost occurred to me--I received a notice with a 
10-day response period from my state disbursement agency about two days 
before leaving on a 17-day vacation.

                                 <F-dash>

              Statement of Yonce Shelton, Call to Renewal

    Mr. Chairman and Members of the Committee,
    Call to Renewal (CTR) is a national network of churches, faith-
based organizations, and individuals working to overcome poverty in 
America. Through local, regional and national partnerships with groups 
from across the theological and political spectrum, CTR convenes the 
broadest table of Christians focused on anti-poverty efforts. CTR is 
the only national faith-based organization addressing poverty-related 
public policy whose coalition brings together Evangelicals, Catholics, 
Mainline Protestants, Historic Black Churches, Peace Churches and Asian 
and Hispanic Churches. We network churches and faith-based 
organizations into a movement and provide a national public policy 
voice.
    We acknowledge that the causes of poverty are complex. They include 
economic inequality, lack of opportunity, and institutional racism; as 
well as irresponsible personal choices and the breakdown of families 
and communities. The solutions to overcome poverty are equally complex. 
They include employment at a living family income (an appropriate mix 
of increased wages, low-income tax credits, healthcare, housing, 
nutrition, educational opportunity, and child care), safe 
neighborhoods, strengthening families, and renewing an ethic of 
personal and community responsibility.
    The 1996 Personal Responsibility and Work Opportunity 
Reconciliation Act has had an important impact in reducing the number 
of people on welfare through requiring employment. A significant number 
of former welfare recipients are now working. Yet far too many, 
especially children, remain in poverty. As the debate regarding 
reauthorization of TANF continues, there are several areas where we 
urge Congress to focus.
    Most importantly, we urge a conceptual shift to view TANF and 
related programs through the eyes of poverty reduction rather than 
simply welfare reduction. Too many of those who have moved to work 
remain below the poverty line. We believe that people who are 
responsibly trying to work should be able to support themselves and 
their families. The objective for the next period should focus not only 
on caseload reduction, but also on reducing the number of families 
living in poverty and increasing the number of self-sufficient 
families.
    We strongly urge that an explicit goal of reducing poverty be made 
part of the legislative purposes of TANF reauthorization. While there 
is serious debate and difference about how best to reduce poverty, a 
genuine bi-partisan commitment to that goal would significantly help to 
reduce the partisanship and offer the hope of finding common ground 
that puts the interests of those who are poor foremost in the 
legislation. The reauthorization priorities should be framed with this 
in mind.
    Our specific recommendations toward that objective include:
    1.  Fund TANF at adequate levels with increases for inflation. The 
1996 Act funded annual block grants to the states at a fixed $16.5 
billion per year. It should be obvious that $16.5 billion in 2005 is 
not what it was in 1996, and certainly not what it will be by 2010. 
Although continuing flat funding is actually a significant cut in 
funding, we recognize the current fiscal constraints of the federal 
government. Therefore, we ask simply that funding for the TANF block 
grant not be reduced. Further, we urge that this amount not be reduced 
in the name of deficit reduction. The costs of deficit reduction should 
not be borne by the poor, who are not to blame and can least afford it.
    2.  Increased work supports and outreach efforts. Many of those who 
have moved from welfare to work have ended in the lowest paying jobs, 
often at or near the minimum wage. Their ability to remain employed and 
move out of poverty requires several important work supports.
       a.  Child Care. Access to safe and affordable child care is one 
of the major problems facing low-income workers. To increase the work 
requirements and hours at work per week without increasing the 
availability and affordability of child care simply will not work. An 
array of services and resources should be funded, ranging from improved 
facilities to better training for child care workers to an increased 
capacity for specialized needs. The ability for states to spend TANF 
funds directly on child care should be maintained along with adequately 
funding the Child Care and Development Block Grant. $1 billion in 
additional funds, as approved by the House last year, is not sufficient 
to meet needs. Even though the national deficit is growing and the 
president has made its reduction a priority, failing to provide for 
child care needs is not the right way to do this. The discussion about 
funding levels should begin closer to the $6billion amount approved as 
an amendment during last year's full Senate debate. Only 1 in 7 
children eligible for child care currently receive the assistance they 
deserve. Further, the number of children in poverty has risen over the 
past year to 12.9 million. This should set child care funding apart 
from the usual budgetary constraint arguments for reduction. Minimum 
national standards for facilities and staff should also be established 
to ensure the health and safety of children. This is in the best 
interests of those women who are moving from welfare to work, but 
perhaps even more importantly, in the best interests of their children.
       b.  Health insurance. While improvements have been made in past 
years, efforts to increase the number of low-income families with 
access to health insurance should be strengthened. Increased outreach 
to enroll children in the Children's Health Insurance Program is 
essential. Eligibility standards for Medicaid coverage should be eased, 
and states should be encouraged to simplify enrollment procedures.
       c.  Transportation. Access to adequate transportation between 
home, childcare, and work is often a major barrier to employment. 
States should be encouraged to use flexibility in developing such 
programs as discounted bus fares, loans for car ownership, automobile 
restoration programs, and providing special bus service to places of 
employment.
    3.  Work Hours. The current 30 hours per week work requirement 
should be maintained. Proposals to increase the requirement to 40 hours 
per week are not realistic. The states have stated that an increase in 
work hours is a requirement they do not want and cannot handle. 
Increasing such a requirement would probably force workers into 
``workfare'' type jobs, which often require workers to take dead-end 
jobs instead of pursuing education and training. This approach will not 
help build the skills necessary to develop productive members of the 
labor force and foster stable work patterns.
    4.  Time limits. While the five-year lifetime assistance limit may 
have aided in moving people from welfare to work, the reauthorization 
process should re-examine it and allow for greater flexibility by the 
states.
       a.  Low-income workers. People who are working in compliance 
with program rules while continuing to receive some amount of 
assistance to supplement low earnings should not be subject to the time 
limit.
       b.  Allow post-secondary education and training and care giving. 
Efforts to improve an individual's employment skills through obtaining 
education or vocational training should be permitted to count toward 
meeting the work requirement. The ``work first'' requirement often 
meant that persons had to choose between receiving assistance or 
improving their skills and employability. Such initiative toward 
employment should be rewarded rather than penalized. For people trying 
to escape poverty, serious efforts to prepare for work or enhance 
training and knowledge that can lead to greater self-sufficiency should 
be recognized and supported rather than penalized. We encourage the 
Committee to consider proposals such as Maine's ``Parents as Scholars'' 
program supported by Senator Snowe. This type of effort improves access 
to formative education, thereby helping people escape poverty.
       c.  Waivers in areas of high unemployment. States should be 
required to suspend the practice of limiting benefits when unemployment 
reaches a certain threshold. People who have been successfully employed 
and are laid off due to economic conditions should not be denied 
assistance because of an artificial time limit.
       d.  Limit sanctions. Sanctions for non-compliance with program 
rules should be more carefully monitored by the Department to ensure 
their fairness. Sanctioning an entire family, for example, due to the 
failure of one member to meet a requirement should not occur.
    5.  Restore TANF and other benefits to legal immigrants. Immigrants 
legally in the United States following the 1996 law are ineligible for 
most forms of assistance. New legislation should reinstate eligibility 
for legal immigrants to major assistance programs, particularly TANF 
benefits, food stamps and Medicaid. Many legal immigrants in the 
country today work hard and pay taxes, and should be entitled to 
assistance when in need.
    6.  Address barriers to unemployment for those remaining on 
welfare. Many of those still on welfare rolls face barriers to 
employment, including domestic violence, substance abuse, or mental 
illness and disability. States should be required to develop and fund 
programs that assist people in overcoming these barriers.
    7.  Programs to strengthen marriage. Our personal experience and 
multiple studies indicate that children raised in single parent 
households are more likely to be in poverty. The evidence increasingly 
shows that one of the most effective ways out of poverty is a stable 
marriage. We therefore encourage initiatives to develop programs 
designed to reduce single parenthood, promote responsible fatherhood, 
and strengthen marriage. pilot programs in various states should be 
carefully examined to assess their success and the ability to replicate 
them. We also support the elimination of provisions that discriminate 
against married parents through stricter work requirements, exclusion 
from some programs, or other means. It is true that healthy marriages 
are good for economic stability, and it is also true that economic 
stability is good for healthy marriages. We urge the Committee to find 
ways to do both.
    8.  Continue and strengthen the charitable choice provision. Call 
to Renewal has supported partnerships between faith-based organizations 
and government in overcoming poverty. We believe that government at all 
levels--local, state, and federal--has an important role in developing, 
promoting and implementing public policies to reduce poverty. As part 
of that role, government and faith-based organizations should develop 
partnerships that empower or fund the successful programs of both 
religious and secular nonprofit organizations in ways that do not 
violate the First Amendment. We believe the ``charitable choice'' 
provision in the 1996 law should be maintained, with several changes.
       a.  Religious organizations seeking government funding should be 
required to establish a separate tax-exempt non-profit organization. In 
the years since the passage of the original charitable choice 
legislation, Call to Renewal has advised religious organizations 
considering applying for government funding that it would be prudent 
for them to form a separate organization. We urge this provision be 
added in the final version of the reauthorization legislation.
       b.  Protect the integrity of religious organizations and the 
religious freedom of individuals receiving assistance. Debate in 
Congress on the President's faith-based initiative led to suggested 
changes in the 1996 provision that should be adopted here. Individuals 
seeking assistance must have clear access to alternative religious or 
non-religious programs. Programs freely chosen by individuals using 
vouchers can include religious activities, while any religious 
activities in directly funded programs must be separately funded and 
voluntary. Social services and religious activities must be kept 
separate, so that public funding is for public purposes.

    In addition to TANF, we urge Congress to support working families 
by applying the framework of a ``living family income'' to approach 
social policy. Living family income is not just about minimum wage or 
living wage--it's about income and the supplements families need to be 
economically stable. Working families should not be poor--if people 
play by the rules they should not lack economic stability. Political 
leaders should recognize this and work toward common ground solutions 
that honor work, family, security, fairness. Fostering a living family 
income includes striving to:

    <bullet>  Make work work, so that it provides a true pathway out of 
poverty;
    <bullet>  Make work pay, so that families can earn benefits and 
build assets;Help families make good decisions through better financial 
and consumer education; Make neighborhood and community markets work to 
promote choice and competition;
    <bullet>  Help families to help themselves through savings, assets 
and home ownership; and
    <bullet>  Protect families from fraudulent stripping of their 
savings, assets, homes, reputation and dignity.

    Reducing poverty, rewarding work, and promoting individual 
responsibility for all our people are biblically rooted and morally 
compelling goals. We urge the Committee to approach the issue of TANF 
reauthorization with that clarity of purpose. We look forward to a 
continuing dialogue with you, and stand ready to assist in whatever 
ways we can.

                                 <F-dash>

              Statement of Jenifer Zeigler, Cato Institute
    My name is Jenifer Zeigler and I am a welfare policy analyst at the 
Cato Institute. I want to thank the committee for allowing me to submit 
testimony on welfare reform reauthorization proposals. In this 
statement I will summarize my findings outlined in greater detail in 
Cato Policy Analysis no. 529, ``Implementing Welfare Reform: A State 
Report Card,'' (available at http://www.cato.org/pubs/pas/pa529.pdf) 
and address current reauthorization proposals.
    In summary, Congress should:

    <bullet>  look to the states and evaluate how welfare reform has 
worked and how it can improve;
    <bullet>  reauthorize the Personal Responsibility and Work 
Opportunity Reconciliation Act;
    <bullet>  strengthen welfare reform's work requirements;
    <bullet>  avoid federal funding of private charities;
    <bullet>  avoid federal marriage programs; and
    <bullet>  ultimately, replace welfare with private charity.

    In the early 1990s, welfare caseloads were at an historic high and 
out-of-wedlock births were skyrocketing. States decided to take action 
and applied for waivers from the federal welfare program, seeking 
flexibility to serve their neediest citizens in a different way. Based 
on success at the state level, Congress recognized it was time to 
overhaul welfare on the federal level. Looking to the states for 
examples of successful reform, in 1996 the Personal Responsibility and 
Work Opportunity Reconciliation Act (PRWORA) was signed into law, and 
the nation waited to see if welfare reform would truly ``end welfare as 
we know it.'' Block grant funding and administrative devolution gave 
the states a chance to move beyond pilot programs and prove that they 
could transition people off welfare more efficiently and effectively 
than the federal government. As a result, caseloads have dropped by 
more than half.
    Since 2002, Congress has been debating the reauthorization of 
PRWORA, and there are a variety of perspectives on the direction 
welfare reform should now take. Once again, the federal government 
needs to look to the states to see what has worked, and what has not. 
``Implementing Welfare Reform: A State Report Card'' emphasizes the 
positive policy choices made by states regarding welfare reform 
implementation--choices that encourage personal responsibility and 
self-sufficiency.
    Strong structural reforms in a state's welfare system--including 
time limits, sanctions, and narrow definitions of work activity--lay 
the foundation for successful reorganization. Pilot programs, waivers, 
and the flexible guidelines of the block grant system allow states to 
experiment with programs and make policy decisions that best serve 
their citizens. It is important for Congress to review and compare the 
structural reforms that states have implemented and the quantitative 
results those programs have produced.
Looking at Where WE Have Been
    Welfare reform has allowed states the flexibility to spend money 
and implement programs that will help recipients escape welfare's 
``cycle of dependence.'' The idea behind welfare reform was to provide 
recipients with job experience for a better transition into the job 
market, rather than to give them cash handouts for doing nothing. With 
job skills and an incentive to hurry off the rolls (time limits), 
families have been leaving welfare in record numbers.
    The report card grades each state on program and performance 
measures. It is just as important to evaluate the programs a state has 
instituted (structural reforms) as it is the results of those reforms 
(quantitative results). It is necessary that states reduce caseloads 
and poverty rates, but if they are not establishing sound welfare 
policies that will sustain self-sufficiency, many recipients will never 
completely escape the system.
    The states with the highest grade ranked in the top third of the 
states in both structural reforms and quantitative measures. Those 
states recognized that it is important to reduce rolls and rates in the 
short term (high quantitative results score) as well as prepare for the 
long term by implementing strong work policies, time limits, sanctions, 
and family caps (high structural reforms score).
    It is not surprising to see Wisconsin receive an ``A'' (along with 
Idaho, Ohio, and Wyoming), since much of PRWORA was modeled on the 
Wisconsin Works (W2) system, one of the first innovations in state 
welfare reform in the 1990s. Seven states earn a ``B,'' there are 20 
``C'' states, and 11 ``D'' grades. Nine states receive failing grades 
for their implementation of welfare reform. The jurisdictions receiving 
``F''s are the District of Columbia, Maine, Missouri, Nebraska, New 
Hampshire, North Dakota, Rhode Island, Utah, and Vermont (which 
received the lowest of the failing grades, including the lowest grade 
on implementation of structural reforms required for a successful state 
welfare program).
Structural Reform
Family Caps
    PRWORA authorized states to impose a family cap, which would deny 
increased TANF benefits to women on welfare who have additional 
children. Twenty-three states have established such caps.\1\ Family 
caps show recipients that welfare is a temporary safety net, not a 
subsidy for a life of dependency. If a family is not making it on its 
own, creating another mouth to feed is not the path to self-
sufficiency.
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, TANF Fifth Annual 
Report to Congress, February 2003, sec. II, ``Trends in Caseloads and 
Expenditures,'' p. II-5.
---------------------------------------------------------------------------
    Because a family cap is an elective policy, states can decide 
whether or how best to implement it. Family cap policies vary from 
states that do not give any cash increase for an additional child, to 
states that do not halt incremental cash adjustments, but reduce the 
level, to states that technically have a family cap policy, but rather 
than reduce the incremented benefit, issue payment in the form of a 
voucher or to a third party payee.
Teens at Home
    PRWORA requires unmarried mothers under the age of 18 to remain in 
school and live with an adult. That was a priority in welfare reform 
since, by the early 1990s, half of unwed teen mothers would go on 
welfare within one year of the birth of their first child and an 
additional 25 percent are on welfare within five years.\2\ Nearly 55 
percent of welfare expenditures are attributable to families that begin 
with a teen birth.\3\
---------------------------------------------------------------------------
    \2\ G. Adams and R. C. Williams, Sources of Support for Adolescent 
Mothers (Washington: Congressional Budget Office, 1990), pp. 49-51.
    \3\ Richard Wertheimer and Kristin Moore, ``Childbearing by Teens: 
Links to Welfare Reform,'' Urban Institute, New Federalism Issues and 
Options for the States, Series A, no. A-24, August 1998.
---------------------------------------------------------------------------
    High school dropouts are roughly three times more likely to end up 
in poverty than are those who obtain at least a high school 
education.\4\ If dropouts do find jobs, their wages are likely to be 
low. Wages for high school dropouts have declined (in inflation-
adjusted terms) by 23 percent during the past 30 years.\5\ And the 
economic impact is intergenerational. Children whose parents have not 
completed high school are far more likely to live in poverty than 
children whose parents are more educated. Simply put, more education 
equals less poverty.\6\
---------------------------------------------------------------------------
    \4\ U.S. Census Bureau, unpublished tabulations from the Survey of 
Income and Program Participation, 2000, http://www.census.gov/hhes/
poverty/povdynam/pov93t5.html.
    \5\ Lawrence Mishel, Jared Bernstein, and John Schmitt, The State 
of WorkingAmerica, 2000-2001 (Ithaca, NY: Cornell University Press, 
2001), p. 153.
    \6\ Uri Bronfenbrenner et al., The State of Americans (New York: 
Free Press, 1996), pp. 176-77.
---------------------------------------------------------------------------
    TANF allows high school attendance to fulfill the work requirement 
for minor teen mothers, who are supposed to remain in a parent's home 
while finishing school. All states are required to implement this 
policy, but the specific guidelines are at the discretion of the each 
state. Unfortunately, many states have created broad definitions and 
extensive exceptions that make the federal law ineffective. Examples 
include 17 states that exempt a teen who has lived away from her family 
for a year or is ``successfully living on her own.'' \7\ Just how 
``successful'' is a teenager living on her own if she has an out-of-
wedlock pregnancy and needs welfare assistance?
---------------------------------------------------------------------------
    \7\ Sources: State Policy Documentation Project, ``Minor Living 
Arrangement: Eligibility and Exemptions,'' February 1999, www.spdp.org/
mla/laexempt.htm; and 07 Alaska Administrative Code 45.227 ``Assistance 
to a Minor Parent,'' 2003.
---------------------------------------------------------------------------
Work Policy
    Getting a job as a solution to poverty may seem like common sense. 
Granted, not every job pays a wage that will catapult a family into the 
middle class. However, every job provides job experience, and that 
leads to a better job. Maybe today's minimum-wage, service industry 
employee is not on a track for management. But he is showing that he is 
a reliable worker who can learn and perform duties, something a future 
employer will value.
    PRWORA's addition of work requirements to TANF benefits was one of 
the most substantial changes to the welfare system. Work experience is 
the most effective way to move recipients off of welfare and into the 
job market, and at a lower cost than education or job-training 
programs.\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Health and Human Services, ``HHS Releases 
Evaluation of Welfare-to-Work Strategies,'' November 7, 2001. The press 
release summarizes 26 separate studies. A complete list of those 
studies can be found at aspe.hhs.gov/hsp/NEWWS.
---------------------------------------------------------------------------
    By 2002, half of each state's eligible caseload had to be engaged 
in ``work-related'' activities at least 30 hours per week. The 
Department of Health and Human Services (HHS) divides jobs that qualify 
for work participation credit into 14 categories for reporting 
purposes. Of those allowable work activity categories under TANF, only 
half are activities in which the recipient is actually working: 
subsidized and unsubsidized employment (public and private), community 
service, on-the-job training, and work experience. Unfortunately, 
states permit too much participation under the remaining activities: 
job search, job skills training, adult basic education/English as a 
Second Language (ESL) classes, education directly related to 
employment, and vocational training. These should not be considered 
actual work activities because they are educational and do not provide 
actual work experience.
    Additionally, caseload-reduction credits essentially released 
states from their participation rate obligations. Without credits, only 
three states would have met their single-parent participation 
requirements. Through credits, 19 states were able to reduce their work 
requirement to zero. Absent waivers, exemptions, and credits, the 
national participation rate for recipients in actual work activities is 
less than 30 percent.\9\
---------------------------------------------------------------------------
    \9\ U.S. Department of Heath and Human Services, ``Temporary 
Assistance for Needy Families Program Information Memorandum,'' TANF-
ACF-IM-2004-03, December 27, 2004.
---------------------------------------------------------------------------
    States have made it very hard on themselves by not striving to meet 
the work requirement guidelines, regardless of credits. With weakened 
economies and tighter budgets, states must scramble to figure out how 
to create jobs for welfare recipients to meet work requirements, and 
how to fund the administrative oversight such regulations require.
Diversion
    Since PRWORA eliminated the welfare entitlement, states have been 
free to put conditions on the receipt of benefits. Thirty-four states 
and the District of Columbia have used this authority to establish 
diversion programs that prevent potential welfare recipients, 
particularly those considered able to work or who have another 
potential source of income, from ever entering the system.\10\
---------------------------------------------------------------------------
    \10\ Kathleen A. Maloy et al., ``A Description and Assessment of 
State Approaches to Diversion Programs and Activities under Welfare 
Reform,'' GeorgeWashingtonUniversityCenter for Health Policy Research, 
August 1998, Table I-1.
---------------------------------------------------------------------------
    Generally, diversion programs fall into one of three categories. 
Most common are diversion programs that provide ``lump sum payments'' 
in lieu of welfare benefits.\11\ Those programs assist families facing 
an immediate financial crisis or short-term need. The family is given a 
single cash payment in the hope that the immediate problem can be taken 
care of without the need to go on welfare. In fact, a family is usually 
precluded from going on welfare for a period of time, after accepting a 
diversion payment.
---------------------------------------------------------------------------
    \11\ Although more states have authorized lump sum payments than 
any other type of diversion program, the U.S. Department of Health and 
Human Services reports that those programs are rarely used in practice. 
Kathleen Maloy et al., ``Diversion as a Work-Oriented Welfare Reform 
Strategy and Its Effect on Access to Medicaid: An Examination of the 
Experience of Five Local Communities,'' U.S. Department of Health and 
Human Services, Office of the Assistant Secretary for Planning and 
Evaluation, March 1999, pp. 8-9. Utah, Virginia, and Montana appear to 
have the most extensive experience with the concept.
---------------------------------------------------------------------------
    Most states do not restrict how lump sum payments may be used; they 
have been used to pay off back debts, as well as for childcare, car 
repairs, medical bills, rent, clothing, and utility bills. Recipients 
may also use lump sum payments toward work-related expenses, such as 
purchasing tools, uniforms, and business licenses. A few states 
restrict the use of lump sum payments to job-related needs, although 
that definition can be interpreted broadly. For example, even moving 
expenses for a new job may qualify.\12\
---------------------------------------------------------------------------
    \12\ U.S. Department of Health and Human Services, Office of the 
Assistant Secretary for Planning and Evaluation, ``A Description and 
Assessment of State Approaches to Diversion Programs and Activities,'' 
August 1998, chap. 2, http://aspe.hhs.gov/hsp/isp/diverzn/chpttwo.htm.
---------------------------------------------------------------------------
    Another common diversion approach is a ``mandatory applicant job 
search,'' used by 27 states. Under this approach, welfare applicants 
are required to seek employment before they become eligible for 
benefits. In most cases, the state will assist with the job search by 
providing job contacts and leads, access to a ``resource room'' where 
applicants can prepare resumes and conduct job searches, or classes in 
job search skills. The state may also provide childcare and 
transportation assistance.
    Finally, eight states have programs designed to encourage welfare 
applicants to use ``alternative resources'' before receiving TANF 
benefits. Those programs generally do not have specific guidelines but 
amount to caseworkers encouraging would-be applicants to seek help from 
family, private charity, or other government programs.\13\ Even in 
states with alternative resource referral programs, this approach is 
the least used, possibly because it is poorly understood by potential 
recipients and requires extensive caseworker involvement.
---------------------------------------------------------------------------
    \13\ Ibid., chap. 3, http://aspe.hhs.gov/hsp/isp/diverzn/
chptthree.htm.
---------------------------------------------------------------------------
    In Utah and Virginia, the states that have the most extensive 
diversion-tracking information, between 81 and 85 percent of those 
initially diverted do not subsequently reapply for TANF.\14\ HHS should 
consider a method of awarding states credit for participating in 
diversion programs. If states are being rewarded for moving recipients 
off the roles, then they should similarly be encouraged to keep people 
from ever entering the system.
---------------------------------------------------------------------------
    \14\ U.S. Department of Health and Human Services, Office of the 
Assistant Secretary for Planning and Evaluation, ``A Description and 
Assessment of State Approaches to Diversion Programs and Activities,'' 
August 1998, chap. 2, http://aspe.hhs.gov/hsp/isp/diverzn/chpttwo.htm.
---------------------------------------------------------------------------
Time Limits
    Before welfare reform, pride and self-determination were the main 
forces driving recipients off welfare. Unfortunately, many were 
comfortable with the lifestyle that welfare benefits provided and saw 
no need to work their way out of the system. They had been told welfare 
benefits were an entitlement, and with no end in sight, some dependents 
made welfare a way of life.
    In an effort to deter such ``career recipients,'' PRWORA set limits 
to how long someone can receive welfare. The federal TANF program 
imposes a lifetime limit of 60 months (5 years). States can reduce that 
period or continue to support recipients after that time with their 
Maintenance of Effort (MOE) money or other state funds. Because 
caseloads include on-again-off-again recipients, many are just now 
reaching the overall five-year moratorium on aid. As recipients begin 
to hit the federal time limit, states are struggling with the decision 
to kick families off the rolls or continue benefits out of scarce state 
funds. Eighteen states have been spared the dilemma as they were 
granted waivers before PRWORA that allow for the exclusion of all or 
part of their caseloads from time limits. Many states have implemented 
categorical exemptions for various recipients, choosing to continue 
funding with their own money.\15\
---------------------------------------------------------------------------
    \15\ Forty-six states have put in place exemptions for parents or 
caretakers of children with disabilities and others caring for a 
disabled family member. Forty-two states exempt women in cases of 
domestic abuse, and 26 states exempt elderly recipients. Other states 
grant exemptions for individuals making a ``good-faith'' effort to find 
work (23 states), parents with young children (22 states), recipients 
engaged in ``work activities'' (22 states), recipients enrolled in 
educational or training programs (21 states), and families in areas of 
high unemployment (19 states). General Accounting Office, ``Welfare 
Reform: With TANF Flexibility States Vary in How They Implement Work 
Requirements and Time Limits,'' pp. 16-18.
---------------------------------------------------------------------------
Sanctions
    Obviously, it is not enough for states to just promulgate new 
welfare policies--those policies must be enforced. If welfare 
recipients fail to meet work requirements or violate other areas of a 
state's welfare policy, penalties must be imposed. Modest sanctions 
tend to deduct only the adult portion of the TANF benefit, sparing any 
children in the household and thereby only minimally reducing the 
benefit. States with the most stringent sanctions withhold the entire 
TANF benefit upon the first violation. Then there are sanction policies 
that fall along the spectrum, allowing multiple violations as benefits 
are gradually reduced or withheld.\16\
---------------------------------------------------------------------------
    \16\ General Accounting Office, ``Welfare Reform: State Sanction 
Policies and Number of Families Affected,'' March 2000, pp. 44-47.
---------------------------------------------------------------------------
    Michael New, postdoctoral fellow at the Harvard-MIT data center, 
evaluated the effectiveness of sanctions in a Cato Institute Policy 
Analysis entitled ``Welfare Reform That Works.'' New found that a 
state's sanction policy could affect caseload decline by as much as 20 
percent, through both the indirect effect of encouraging recipients off 
the rolls and the direct effect of ending their eligibility.\17\ Not 
only is there a relationship between state sanction policy and caseload 
decline, New found, but that relationship is constant over several 
years.\18\
---------------------------------------------------------------------------
    \17\ Michael New, ``Welfare Reform That Works: Explaining the 
Welfare Caseload Decline, 1996-2000,'' Cato Institute Policy Analysis 
no. 435, May 7, 2002, p. 8.
    \18\ Ibid., p. 6.
---------------------------------------------------------------------------
    Sanctions are not successful because they throw recipients off 
welfare; rather they serve as a threat of actual consequences for 
failing to meet requirements or reaching time limits. Only about six 
percent of those leaving welfare have done so due to sanction 
enforcement.\19\ However, there is a wide variation among states as to 
the percentage of their caseloads affected by sanctions. For example, 
in an average month in 1998, almost 30 percent of case closures in 
North Carolina were due to sanctions, while less than 1 percent of 
closures in California, Oklahoma, and Nebraska were related to 
sanctions.\20\
---------------------------------------------------------------------------
    \19\ An additional 16 percent have left as a result of ``state 
policies,'' which could include time limits or other administrative 
regulations. U.S. Department of Health and Human Services, 
``Characteristics and Financial Circumstances of TANF Recipients, FY 
1998,'' http://www.acf.hhs.gov/programs/opre/characteristics/fy98/
sum.htm.
    \20\ General Accounting Office, ``Welfare Reform: State Sanction 
Policies and Number of Families Affected,'' pp. 52-53.
---------------------------------------------------------------------------
Quantitative Results
Caseload Reductions
    The greatest decline in welfare rolls occurred in the first two 
years following the enactment of welfare reform. Caseloads began to 
level out in most states by 1998, and some states that experienced the 
most significant initial declines began to see caseloads inch back up. 
New Mexico, for example, reduced its rolls by almost half in the first 
two years following reform, and then had a nearly 25 percent increase 
in 1999. Delaware, Tennessee, and Wisconsin also saw their caseloads 
increase after initial declines.\21\ As the economy began to slow in 
2001 and 2002, the era of declining caseloads came to a close. In 2002, 
26 states experienced higher caseloads than the year before, although 
all state caseloads remained significantly below prereform levels.\22\
---------------------------------------------------------------------------
    \21\ U.S. Department of Health and Human Services, TANF Fifth 
Annual Report to Congress, sec. II, ``Trends in Caseloads and 
Expenditures,'' Table 2:2:c, p. II-34.
    \22\ U.S. Department of Health and Human Services, ``Change in TANF 
Caseloads''; U.S. Department of Health and Human Services, ``TANF: 
Average Monthly Number of Recipients--Fiscal Year 2001,'' February 
2002, http://www.acf.dhhs.gov/news/stats/recipientsL.htm; and U.S. 
Department of Health and Human Services, ``TANF Total Number of 
Families and Recipients January-March 2002,'' November 2002, http://
www.acf.dhhs.gov/news/stats/jan-mar2002_rev.htm.
---------------------------------------------------------------------------
Poverty Rate and Child Poverty Rate
    Poverty rates mirrored the success of caseload reductions as 
national poverty rates declined every year after reform until 2001. 
Even though 2002's slow economy caused a minor uptick in poverty rates, 
they continue to remain well below prereform rates.\23\ Most 
significant, poverty rates declined for women, children, and 
minorities, groups that were thought to be most at risk. Many critics 
of welfare reform issued dire predictions, forecasting at the time 
PRWORA was passed that more than a million children would be thrown 
into poverty.\24\ Instead, child poverty rates declined from 20.5 
percent in 1996 to 16.2 percent in 2000, the lowest level in more than 
20 years.\25\
---------------------------------------------------------------------------
    \23\ U.S. Census Bureau, ``Poverty in the United States: 2002,'' 
September 2003, p. 1-3, http://www.census.gov/prod/2003pubs/p60-
222.pdf.
    \24\ See, for example, Sheila Zedlewski, ``Potential Effects of 
Congressional Welfare Reform Legislation on Family Incomes,'' Urban 
Institute, 1996, http://www.urban.org/url.cfm?ID=406622.
    \25\ U.S. Census Bureau, ``Poverty Status of People by Age, Race, 
and Hispanic Origin: 1959-2000,'' www.census.gov/hhes/poverty/histpov/
hstpov3.html.
---------------------------------------------------------------------------
Teen Birth Rate
    For many women, having a child out of wedlock leads to a lifetime 
of poverty. Once on welfare, single mothers often find it very 
difficult to escape. Although the average recipient remains on welfare 
for less than two years,\26\ by the early 1990s almost 40 percent of 
all never-married mothers on welfare remained on the rolls for 10 years 
or longer.\27\
---------------------------------------------------------------------------
    \26\ U.S. Department of Health and Human Services, Indicators of 
Welfare Dependence: Annual Report to Congress 2004, June 2004. p. II-
31.
    \27\ Barbara DaFoe Whitehead, ``Dan Quayle Was Right,'' Atlantic 
Monthly, April 1993, pp. 47-84.
---------------------------------------------------------------------------
    Teen mothers now account for roughly 29 percent of all out-of-
wedlock births. That figure, however, may understate the severity of 
the problem. Women who give birth out of wedlock as teens frequently go 
on to have additional children out of wedlock. More than a third of all 
out-of-wedlock births to mothers aged twenty and over are to women who 
had their first child as unwed teenager.\28\
---------------------------------------------------------------------------
    \28\ Elizabeth Terry-Humen et al., ``Births Outside of Marriage: 
Perceptions vs. Reality,'' Child Trends Research Brief, Washington, 
April 2001, p. 2.
---------------------------------------------------------------------------
    Teenage birth rates peaked nationally at 61.8 in 1991 and have 
fallen by 27 percent in the past decade.\29\ It is essential that 
states continue to reduce teenage pregnancy if there is to be any hope 
of ending welfare dependence. If states can dissuade young women from 
giving birth out of wedlock in their teenage years, more women will 
complete school and have a better chance for a self-sufficient future. 
Reduction in births to teenagers is an important measure because it 
shows whether states are laying the groundwork to break the cycle of 
welfare dependence.
---------------------------------------------------------------------------
    \29\ ``Revised Birth and Fertility Rates for the 1990s and New 
Rates for Hispanic Populations, 2000 and 2001: United States,'' 
National Vital Statistics Reports 51, no. 12 (August 4, 2003): 4.
---------------------------------------------------------------------------
Looking at Where We Are Going
    The greatest result welfare reform could produce would be the 
elimination of the welfare system. Colonial America had only a modest 
government safety net. Churches, charities, and the community--known as 
``civil society''--took the lead in providing assistance to those in 
need. These entities had the freedom to distinguish between the 
``deserving'' and ``undeserving'' poor. The deserving poor included 
those who, although normally self-sufficient, had experienced temporary 
setbacks due to sickness, accident, or loss of employment during a 
recession. The deserving poor also included those incapable of self-
sufficiency, such as the elderly and orphans. The undeserving poor were 
those who could be self-sufficient but elected not to work, or who made 
poor choices that were an obstacle to employment.\30\
---------------------------------------------------------------------------
    \30\ Marvin Olasky, The Tragedy of American Compassion (Washington: 
Regnery, 1992), pp. 6-24.
---------------------------------------------------------------------------
    Early U.S. welfare law was modeled after English Poor Law. That law 
established four basic principles for government charity: (1) care for 
the poor was a public responsibility; (2) care for the poor was a local 
matter; (3) public relief was denied to individuals who could be cared 
for by their families; and (4) children of the poor could be 
apprenticed to farmers and artisans who would care for them in exchange 
for work.\31\ As with civil society's assistance, the themes were 
personal responsibility and self-sufficiency. If you were able-bodied, 
you should be working. If you could not work, then assistance was best 
delivered on the local level to ensure effectiveness and 
accountability.
---------------------------------------------------------------------------
    \31\ Michael B. Katz, In the Shadow of the Poor House: A Social 
History of Welfare in America (New York: Basic Books, 1986), pp. 13-14.
---------------------------------------------------------------------------
    Unfortunately, the United States did not maintain its modest safety 
net. Politicians learned that the promise of social programs wins 
elections, and the economic repercussions of such programs are for the 
next president to worry about. As each president attempted to shower 
more ``compassion'' on those in need, the number of needy continued to 
rise. For many, the satisfaction of earning a salary was vanquished by 
the temptation to draw a check for doing nothing.
    Welfare reform is a step in the right direction, attempting to 
reverse the growth of a federal welfare state that had been expanding 
for decades. PRWORA removed the entitlement to cash assistance and now 
sends the message that welfare is meant to be temporary, not a way of 
life. As welfare administration continues to devolve from the federal 
government to the states, and eventually to more local levels, 
communities will effectively assume responsibility for the welfare 
system. Those localities, held accountable by local residents and 
voters, will begin to find innovative ways to meet the needs of the 
poor, using charitable organizations and encouraging civil-society 
solutions rather than relying on government.
Corrupting Charity
    Just because something is a good idea does not mean it should be a 
government program. In the case of faith-based organizations, 
government involvement can easily kill the very entity it is trying to 
nurture. During the past decade, the federal government has recognized 
the successful results that come from social services delivered by 
civil society, including religious organizations. It is the charity's 
autonomy and flexibility that allows for its success, yet these 
characteristics are threatened by the red tape and liability that come 
with government funding.
    Many faith-based organizations lack the manpower, financial 
resources, and technical knowledge to deal with mountains of paperwork, 
much less sorting out all of the new rules and regulations.\32\ 
Religious entities succeed because of their focus on the individuals 
they are serving; their strength lies in their care for others, not 
their careful reading of the Federal Register.
---------------------------------------------------------------------------
    \32\ The average church in the United States has a congregation of 
only 75 members. Less than 1 percent of churches have congregations of 
more than 900, and less than 10 percent have congregations exceeding 
250 people. The average annual church budget is only $55,000. Mark 
Chaves, ``Religious Congregations and Welfare Reform,'' Social Science 
and Modern Society 38 (January-February 2001): 26.
---------------------------------------------------------------------------
    Faith-based initiative money is certainly a temptation for those 
serving the needy. If they are serving many now, how many more could 
they serve with more funding? Unfortunately, federal funding is not 
reliable, and faith-based organizations are susceptible to mission 
creep--following the subsidies and rewriting their mission to fit 
whatever grant is popular that year.\33\ Essentially, through funding, 
the government can kill a successful charity, forcing it to change from 
whatever service it was successfully offering or to shut down due to 
lack of funding. Faith-based organizations are crucial members of civil 
society that need to replace the federal welfare system, not be 
dependent on it.
---------------------------------------------------------------------------
    \33\ Stanley Carlson-Thies, ``Faith-Based Institutions Cooperating 
with Public Welfare: The Promise of the Charitable Choice Provision,'' 
in Welfare Reform and Faith-Based Organizations, ed. D. Davis and B 
Hankins (Houston, TX: Baylor University, 1999), p. 38.
---------------------------------------------------------------------------
Federal Marriage Programs
    Another area where Congress should resist the urge to ``do good'' 
is the marriage initiative. We all agree that marriage is a good idea. 
Social science shows that marriage is good for society. But as I 
previously mentioned, not every good idea should be federally funded. 
Often what is good for society needs to be promoted privately, not 
forced onto society by the government.
    Additionally, promoting marriage as a solution to poverty is an 
insult to those who are struggling to escape poverty. Who, exactly, are 
these women supposed to marry? In areas of high poverty (and 
accompanying crime and unemployment), there are relatively few 
marriageable men.\34\ Studies show that the fathers of children born 
out of wedlock are not men who will lift single mothers out of 
poverty--more than a third lacked a high school diploma, 28 percent 
were unemployed, and another 20 percent had incomes of less than $6,000 
per year. In addition, roughly 38 percent had criminal records.\35\
---------------------------------------------------------------------------
    \34\ Kathryn Edin, ``Few Good Men: Why Poor Mothers Don't Marry or 
Remarry,'' American Prospect, June 2, 2000.
    \35\ Sara McLanahan et al., ``The Fragile Families and Child Well-
Being National Baseline Report,'' Princeton University, 2001; and Irwin 
Garfinkle et al., Fathers under Fire: The Revolution in Child-Support 
Payments (New York: Russell Sage Foundation, 1998).
---------------------------------------------------------------------------
    If Congress wants to encourage marriage, it should start by 
removing the disincentives to marriage. The current welfare system, as 
well as our tax code, erect barriers to marriage by reducing benefits 
and/or increasing tax liability if a couple weds. Before the government 
starts spending new money on incentives, it should fix current programs 
to reflect its pro-marriage agenda. Additionally, research shows that 
financial difficulty is one of the leading causes of divorce. Congress 
should focus its resources on encouraging a dynamic economy, through 
lower taxes and less regulation of business. Job security, higher 
wages, and a lighter tax burden would go a long way toward securing 
marital stability.
Conclusion
    Congress needs once again to look to the states and evaluate what 
has worked under welfare reform. We need to keep moving in the 
direction of devolution and innovation, placing more control in the 
hands of local government and encouraging civil society to play a 
bigger role in helping the neediest members of the community. Congress 
can help the states with their own dependency problem by weaning states 
off federal funding. Without the strings that come with federal 
dollars, states would have even greater flexibility to be innovative 
and efficient. Partnering with local nonprofits and community 
organizations, states could encourage a shift in the safety net back to 
civil society, where it belongs.

                                 <F-dash>

                                        Center for Community Change
                                               Washington, DC 20007
                                                  February 24, 2005
Subcommittee on Human Resources of the
Committee on Ways and Means
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Herger and members of the Subcommittee:

    We, the undersigned organizations and individuals, write to submit 
the following statement for the record of the hearing on 
reauthorization of the Temporary Assistance to Needy Families (TANF) 
program, held February 10, 2005. We urge the Subcommittee on Human 
Resources to focus on the plight of the roughly 36 million Americans 
living in poverty as it considers proposals to reauthorize welfare 
reform.
    Reducing poverty should be the standard by which we measure the 
success of the welfare reforms of the mid-1990s. Unfortunately, by this 
measure, we still have considerable work to do. The number of poor 
Americans has climbed steadily in recent years, and we are now 
essentially back where we started in 1996, when 36.5 million people 
were poor.
    We should also focus on the economic well-being of our children 
when evaluating the success of TANF. Sadly, the number of children in 
poverty increased to nearly 13 million in 2003, and the number of 
children in extreme poverty (in families with incomes of one-half of 
the poverty level or lower) grew at almost twice the rate of increase 
for child poverty overall from 2002 to 2003 (11.5 percent compared to 
6.0 percent). Rising poverty, particularly the growth in extreme child 
poverty, is evidence of the inherent failure of the TANF program to 
help protect low-income families from the hardships of the last 
recession, and represents a collapse of the social safety net in 
general.
    The primary conceit of welfare reform was that a job, any job, 
would lift workers and their families out of poverty. The economic 
downturn in recent years has revealed the fundamental shortsightedness 
of this theory. The employment boom of the late 1990s is officially 
over. Our nation has come out of the recession of 2001 with a jobless 
recovery that has left 12 million people unemployed or underemployed.
    Even for those people fortunate enough to have work, a job does not 
guarantee the most basic standard of living for workers and their 
families: almost three out of four poor children lived in families with 
full-time year-round workers in 2003.
    In the debate over TANF reauthorization, many policymakers have 
avoided looking at what is really happening to families struggling to 
make ends meet instead focusing on reports of declining TANF caseloads. 
But caseload decline should not be our measure of success.
    To determine whether we're meeting our goals and develop a 
meaningful reauthorization response, lawmakers must do some additional 
accounting of program results.
    Why is the TANF caseload declining while poverty is rising? Why are 
so many working families still living below the poverty line? With 
child poverty on the rise, does it really make sense to cut funding for 
proven programs like quality child care, nutrition assistance, health 
insurance, and other critical work supports?
    These questions and others will not be answered by partisan finger 
pointing. Nor will the answers be found in technical debates about work 
hours and participation rates. Instead, we need to use the opportunity 
provided by TANF reauthorization to examine the entire range of work 
and family supports needed by all who call this nation home.
    Right now, we see one in ten families falling into poverty because 
our safety net is inadequate and unraveling. America must live up to 
its promise and provide a comprehensive net of diverse services so that 
hard-working, tax-paying families can bounce back when they suffer a 
temporary financial set-back.
            Sincerely,
                                              Sean Thomas-Breitfeld
    [Other signatories:]
    American Friends Service; Committee Americans for Democratic 
Action; Legal Momentum; National Association of Social Workers; 
National Partnership for Women & Families; National Welfare Engine; 
NETWORK, a National Catholic Social Justice Lobby; 9to5, National 
Association of Working Women; Stop Family Violence; Welfare Law Center; 
Wider Opportunities for Women; YWCA USA; American Federation of 
Government Employees Local 1151, NY; Canal Human and Economic 
Development Association; Center for Civil Justice, MI; Colorado Women's 
Agenda; Connecticut Nonprofit Human Services Cabinet; Food Bank Council 
of Michigan; Legal Assistance Resource Center of Connecticut; Missouri 
Association for Social Welfare; Office of Kentucky Legal Services 
Programs; Oregon Food Bank; Progressive Leadership Alliance of Nevada; 
Protecting Arizona's Family Coalition; Protestants for the Common Good, 
IL; Rhode Island Parents for Progress; Tennessee Health Care Campaign; 
The Advocacy for the Poor, Inc., NC; The Partnership for the Homeless, 
NY; West Midwest Justice Committee, Sisters of Mercy of the Americas, 
MI; West Virginia Chapter of the National Association of Social 
Workers; YMCA Neighborhood Place, Puna, HI; YWCA, McKeesport, PA; Wendy 
Alfsen, CA; Ruth Almen, MI; Natalie Ambrose, CA; Neil Amos, CA; Lee 
Anderson, WA; Maggie Bagon, OR; Zachariah Baker, NY; Roxann Barnard, 
OK; Susan Barrow, NY; Sara Barwinski, MO; Teresa Bathgate, MD; Kristine 
Beirne, NJ; Eileen Bell, WV; Mary Bennett, IL; Liana Berger, NY; Nancy 
Berlin, CA; Tanya Blair, OK; Joseph Blaszak, MI; Jeff Boldt, WI; 
Cassidy Boulan, MI; John Bouman, IL; Robert Bowen, NY; Lila Braine, NY; 
Nancy Brandt, IL; Ruth Brandwein, NY; Deana Brickles, IA; Ginny Britt, 
NC; Kristin Brown, NY; Johnnie Brown, MO; Shirley Bryant, MD; Nancy 
Burton, TX; Debra Burton-Ibarra, TX; Melanie Bush, TX; Nadine Byrd, OK; 
Stuart Campbell, TX; Janice Carson, OH; Merrrill A. Carter, CO; Cat 
Chen, CA; Bonnie Clark, OK; Terry Cluse-Tolar, OH; Barbara Coates, CA; 
Michel Coconis, OH; Linda Cohen, MA; John Colgan, IL; Sister Faith 
Colligan, NY; Jean Colman, WA; John Cook, MD; Mimma Cook, WA; Deborah 
Cooper, CA; Holly Copeland-Lasley, IL; Laura Corbett, CA; Julia Covert, 
OR; Sarah Craft, DC; Bruce Davidson, NJ; Alysia Davis, GA; Adiel 
DePano, CA; Ron Deutsch, NY; Karen Donahue, MI; Evelyn Dortch, WV; 
Jessica Dreistadt, PA; Linda Drye, VA; Ora Dugar, DC; Katherine Dutton; 
Maria Echavarria, CA; Dumar Echols, NY; Stanley Eder, CA; Marilu Eder, 
CA; Roseanna Ellis, OK; Scarlett Emerson; Maurice Emsellem, CA; Robert 
Evans, MI; Daniel Ezenyilimba, NY; Patricia Fero, WI; John Flick, CA; 
Antonio Flores, CA; Katherine Franger, CA; Henry Freedman, NY; Barbara 
Fuller, CA; Cassandra Garrison, OR; Frances Geteles, NY; Jan Gilbert, 
NV; Pat Gowens, WI; Ed Graham, CA; Rachel Gragg, DC; Jennifer Grayson, 
DC; Lana Greene, WA; Lynn Greenwood, DC; Sarah Gripper, IL; Sarah 
Grisham, NM; Mark Hallinan, NY; Robin Hanke, CT; Dixie Hanson, CA; Jim 
Harlin, NM; Emma Hartwell and family, WA; Cora Hayes, VA; Roy Hayter, 
CA; Janet Hayter, CA; Katy Heins, OH; Eve Hershcopf, CA; Virginia 
Hevern, MN; Mike Hodge, TN; Noelle Holcomb; Erika Horino, DC; Rebecca 
Hoven, DC; Denise Howington, VA; Lacinda, Hummel, IL; Terry Hunn, MO; 
Eva Imhoff, OK; Elizabeth Ironhawk, OK; Zarina Jackson, OR; Rochelle 
Jackson, PA; James James, CA; Kathryn Jeffrey, WA; Brock Johnson, AR; 
Cindy Johnston, MO; Rose Karasti, IL; Kelci Karl, WA; Crystal Karr, MO; 
Patti Ann Kasper, MN; Sheila Katz, CA; Jan Kay, IL; John Kefalas, CO; 
Terry Kiely, NJ; Rea Kleeman, MO; Frank X. Kleshinski, PA; Jeanne 
Koster, SD; Billye Kouns, TX; Frank La Pietra, MO; Walter Langley, OK; 
Terese Lawinski, NY; Carmah Lawler, CO; Robert Levine, NY; Barbara 
Liles, CA; Donna Lindsey, CA; Sheila Long, OK; Mayzabeth Lopez, NY; 
Camella Martian, CA; Amanda McCall, OK; Nina McCoy; Wayne McCroskey, 
OR; Jane McNichol, CT; Natalia Mejia, CA; Pemala Mejia, CA; Linda 
Meric, CO; Heidi Millen, NY; J. Robert Miller, TX; Mary-Margaret 
Miller, NY; Marti Miracle, OH; Dianna Moore, MO; Tirso Moreno, FL; 
Maria Muentes, NY; Suzette Murrell, DC; Meara Nigro, NJ; Shannon North; 
Carlotta Oberzut, IL; Patti O'Callaghan, IN; Sarah Osmer, DC; Alyssa 
Pakulski, MI; Rev. Carolyn R. Palmer, OR; Lecia Papadopoulos, CO; 
Bettina Pearl, PA; Lillah Pedi, CA; Jeffrey Perkins, MO; Bich Ha Pham, 
NY; William Pittz, WA; Brian Polejes, CA; Wendy Pollack, IL; Beth 
Poteet, WA; Sean Power, WA; Riley Price, OR; Amanda Pyron, MD; Myra 
Radinsky, MO; Stephen Radinsky, MO; Judi Rath; Sunni Reed, CA; Anita 
Rees, CA; Betsy Rice, MI; Roberta Richardson, FL; Mark Rochon, CA; 
Judith Rodriguez, NC; Rachel Rogness, MN; Mary Lou Rosales, AZ; Amy 
Samelson, CA; Terri Sammarco, FL; Tyletha Samuels, NY; Sierra Sanchez, 
CA; Ann Sand; Lois Schoenhorn, CT; Macie Schriner, MI; Nadine Schrodt, 
MO; Deborah Schwartz, MA; Robert Schwartz, NY; Lillian Scott, TN; 
Shirley Seibert, DE; Laurie Sheridan, MA; Jill Shinn, MO; Jill A. 
Shuey, NY; Melissa Silver; Brenan Smith, IL; Renee Sneitzer, IA; Peter 
Snoad, MA; Lois Snyder, IL; Derrick Span, DC; Rose Spears, OR; Susan 
Spector, CA; Marguerite Spencer, MO; Judith Stadtman, NH; Schaunel 
Steinnagel, PA; Sharifa Stewart; Susan Stouffer, CA; Kristine Stroad 
Moore, WA; Nancy Strohl, CA; C.S. Sullivan; Kaleema Annie Sumareh, MI; 
Riki Summers, WV; Edie Swihart; Mary Switzer, NJ; Marilyn Thomas, MO; 
Vincent G Thomas, IL; George Thompson, OH; Bill Tibbitts, UT; Robbie 
Tibbs-Visnicky, TN; Allan Timke, IL; Jane Tondettar, NJ; Richard 
Troxell, TX; Royce Truex, CA; Dan Vachon, NH; Jane VanSant, MO; Kim 
McCoy Wade, CA; Kevin Walsh, NY; Michelle Webb, NJ; Leslie Weinberg, 
CT; Irene Weiser, NY; Janet Williams, CA; Leslie Wolfe, DC; Theresa 
Wood, WI; Robert Wordlaw, IL; Cynthia Young, MO; Jeanette Young; 
Phyllis Zoon, NJ

                                 <F-dash>

 Statement of Heather Boushey, Center for Economic and Policy Research

    Chairman Herger, thank you for calling a February 10, 2005, hearing 
of the House Ways and Means Subcommittee on Human Resources on the 
important and timely subject of reauthorization for the welfare reform 
law. Your leadership in promoting dialogue on this crucial policy topic 
is appreciated.
    As a labor market economist with the Center for Economic and Policy 
Research and formerly with the Economic Policy Institute, I have 
extensively researched how the labor market combines with government 
policies to affect low-income working women, precisely that segment of 
the population most impacted by welfare reform. Most recently, my work 
has focused on the central role that public work supports, especially 
child care subsidies and Medicaid, play in the lives of women seeking 
to retain jobs and become self-sufficient.
    This research has real implications for how we as a nation think 
about work supports, which continue to be an essential component of 
welfare reform. Wages have not risen for low-income workers over the 
last several years even as health costs are rising rapidly, making it 
harder for families to become self-sufficient. If work supports quit 
too early on these families, many of which are headed by single 
mothers, the research tells us that they are far more likely to fall 
out of the workforce and, quite possibly, return to welfare programs.
    I will touch on two issues during my testimony. First, the lack of 
sustained job creation has lowered the economic well-being of low-
income families in the labor market. Although the low-wage labor market 
was robust when welfare reform passed in the mid-1990s, this is no 
longer the case and it is increasingly difficult for low-wage workers 
to support their families. Critically, it has become more difficult for 
them to access employer-provided health insurance for their children.
    Second, the lack of sustained work supports--health insurance and 
child care--limits the chances that mothers will be able to stay 
employed. If welfare is meant to be structured in a way that allows 
mothers to transition to work, then sufficient subsidies for child care 
is an essential part of the program. Otherwise, many mothers will find 
it impossible to balance their work and family responsibilities and 
will fall out of the workforce.
    A factual issue must also be addressed. The latest numbers show 
that there were 1.3 million more people in poverty in 2003 and the 
poverty rate, which rose by 0.4 percentage points in 2003, now stands 
at 12.5 percent--increasing for the third year in a row. If the welfare 
roles are shrinking, it is not because low-income families are doing 
better economically. Rather, it appears that many are losing welfare 
without the promise of better outcomes in the private sector.
Recession
    The recession of the early 2000s has been hard on working families, 
and especially low-income and welfare families. Since the mid-1990s 
when welfare reform was enacted, former welfare recipients found jobs 
in a small number of industries, many of which saw higher job gains and 
stronger wage growth than the economy overall in the late 1990s. 
However, during the economic recession of 2001 and the recent recovery, 
these same industries have not performed as well. Over the recovery, of 
the eight private-sector industries with a high proportion of former 
welfare recipients, three have seen greater job losses than the private 
sector overall. Wage growth has been slower than the average for the 
private sector overall for workers in retail trade, food services and 
drinking places, temporary help, nursing and residential care, and 
child day care services.
    With jobs scare and wage growth slow to negative in the industries 
that former welfare recipients found employment in, increasing work 
hour requirements above the existing 30 hours would not create jobs, 
but make life harder for those already struggling to find a job. 
Mandating more work hours from the people hardest hit from the 
recession would not help to increase employment; rather, what welfare 
reform needs is robust job growth.
Work Supports
    Mothers on welfare and other low-income mothers are often eligible 
for Medicaid and child care subsidies, but as they move up the job 
ladder, they lose eligibility. Losing Medicaid subsidies has a 
significant effect on employment: Mothers who move from Medicaid to no 
employer-provided health insurance are nine times more likely to drop 
out of the labor market than are mothers who leave Medicaid and gain 
employer-provided health insurance.
    Few mothers have made the transition from Medicaid to employer-
provided health insurance. Between the beginning of 1997 and the end of 
1998, 41.5 percent of those on Medicaid left the program but less than 
one third of those who left (27.7 percent) gained employer-provided 
health insurance. Similarly, between the beginning of 2002 and the end 
of 2003, 37.2 percent of those on Medicaid left the program, but fewer 
than a quarter (23.4 percent) of those who left gained employer-
provided health insurance.
    The problem is not necessarily that Medicaid leavers lacked 
employment, but that they did not find jobs that offered employer-
provided health insurance. Among mothers who left Medicaid in the late 
1990s, the share moving from a job without employer-provided health 
insurance to one with insurance was just under one third (28.7 
percent). This rate fell by 14.0 percentage points, down to 14.7 
percent, by the early 2000s. This significant decline in the rate of 
finding a new job with insurance was unique to mothers who had been on 
Medicaid and left. There was not a comparable decline in the share of 
mothers overall who moved from a job without employer-provided health 
insurance to one offering insurance. In the late 1990s, one-in-five 
(18.3 percent) of all mothers made this transition. In the early 2000s, 
this share fell only slightly (by 1.6 percentage points) to 16.7 
percent.
    Access to safe and affordable child care is also critical for 
working mothers. Mothers who have stable child care are more likely to 
stay employed and are able to focus on their jobs, knowing that their 
children are well-cared for while they are at work. Thus, child care is 
an important part of the TANF program.
    <bullet>  Most mothers of young children work outside the home and 
most use child care. In 2002, over half of mothers of children under 
the age of six were employed--over three-quarters working more than 30 
hours per week--and nearly all--over 90 percent--reported using some 
kind of child care.
    <bullet>  Child care, especially formal day care, which often 
provides more educational activities than other kinds of care, is 
expensive. Mothers in lower-income households spend a much higher share 
of their total income on child care than do higher-income households. 
In 2002, mothers at the bottom 40th percentile or below who paid for 
formal daycare spend an average of 16 percent of their total income on 
child care, compared to only 6 percent among mothers in the highest 
quintile.
    <bullet>  Many families rely on informal child care arrangements. 
Among working mothers who use child care, about one-third rely on 
relatives and another one-third use a formal day care setting. However, 
working mothers who use formal day care tend to be wealthier and better 
educated than other mothers, indicating that those who rely on informal 
care may be doing so not out of choice, but of necessity. Mothers in 
lower-income households use parental care more and are less likely to 
use formal day care centers.
    <bullet>  Child care assistance is critical for families struggling 
with the high cost of child care. Between 1997 and 2002, more working 
mothers received assistance with child care payments, including 
government assistance. Working mothers in the bottom 40th percentile of 
households received more government child care assistance in 2002, 
compared to 1997. Even so, research has found that many children 
eligible for child care subsidies do not receive them. Only about 15 
percent of children eligible for federal child care assistance actually 
receive any funds.
    <bullet>  Child care is an issue that all working mother struggle 
with, however, for lower income mothers, the problems are even worse. 
H.R. 4 from the 108th Congress, as passed by the House of 
Representatives, would have added only an additional $2 billion to the 
currently allocated $4.8 billion for child care subsidies. This might 
sound like a great deal of money, but it represents less than 0.005 
percent of the total budget. It means that in 2002, the average subsidy 
for each child under age 15 living in poverty was a little over $700 
for the year. Including additional resources for child care in the TANF 
reauthorization bill would be an investment that would pay off by 
enabling low-income working mothers to stay off welfare and those 
currently receiving TANF to move toward self-sufficiency.

    Thank you again for the opportunity to provide testimony, Mr. 
Chairman. I hope that you will be informed about the importance of work 
supports as you work with your colleagues on TANF reauthorization. I 
would be happy to provide more information to any Members working on 
this issue.

                                 <F-dash>

  Statement of Joseph T. Jones, Jr., Center for Fathers, Families and 
               Workforce Development, Baltimore, Maryland

    Thank you for giving me the opportunity to provide comment for the 
record. My name is Joe Jones. I am President and CEO for the Center for 
Fathers, Families and Workforce Development (CFWD) a community based 
nonprofit organization established in 1999 that provides workforce 
development, responsible fatherhood and family services to the 
residents of Baltimore City.
    Twelve years ago when I began my work with low-income fathers in 
Baltimore City there were few resources to support responsible 
fatherhood. My fledgling staff and I worked tirelessly, threading 
together services to meet the diverse and challenging needs of the low-
income father population. Together, with the men we engaged, the 
program became a success. With the achievements of the fathers as a 
soapbox we told any and everyone about the importance of involving 
fathers in the lives of their children and families. Men's Services 
like their counterparts in other low-income communities helped fathers 
become models for their children, breadwinners, and responsible 
citizens. By doing this we increased attention not just for our 
programs but also for low-income fathers and families across the 
nation.
    Men's Services operated as a part of the Baltimore City Healthy 
Start maternal and child health program. I created Men's Services 
because too many children in my community lived under circumstances 
that would predispose them to poverty and broken families. Our work 
with low-income fathers was somewhat on the periphery not necessarily 
receiving the level of resources needed to help fathers contribute to 
the development of their unborn and infant children. While there was a 
firm belief that our work helped fathers and improved child outcomes 
this belief did not result in increased resources.
    However, in 1996 with the enactment of Welfare Reform much of that 
changed. The sweeping changes brought to the Aid to Families with 
Dependent Children's Program allowed low-income fathers to be engaged 
by the social welfare system. With that engagement came funding from 
both private and public resources. Foundations across the country 
partnered with government and community organizations to create 
responsible fatherhood programs. Practitioners on all levels formed 
associations to share best practices and advocate on behalf of low-
income fathers and their families. During this time a fledgling field 
gained momentum and stability. With few resources the field of 
responsible fatherhood took on complex issues such as domestic violence 
and child support.
    After welfare reform there were a number of legislative proposals 
that would have provided public funding for responsible fatherhood 
programs, while none were realized the support from both sides of the 
aisle reflected our nation's general concern with fatherless 
households. However, concern has not meant increased resources and most 
foundations have disinvested from this work, the most notable exception 
is the Annie E. Casey Foundation, the Harry and Jeanette Weinberg 
Foundation and other small community and family foundations.
    Almost immediately after the enactment of Welfare Reform, the 
reauthorization conversation began and with it the focus on marriage. 
Although responsible fatherhood still figured prominently it shared the 
stage with marriage. Many on opposites of the ideological spectrum 
offered the two as competing interests; however, I hold firmly that the 
two are natural compliments. Study after study has shown that when both 
parents are actively involved in a child's life children fare much, 
much better. And we all know that those outcomes are the best when the 
parents are married.
    But is it just marriage that helps children? Or is it the benefits 
children get when parents are married and work together on their 
behalf. I believe its marriage and being active in a child's life. 
Active means changing diapers, reading bedtime stories, helping with 
homework, providing financially and supporting emotionally. In short, 
being responsible. So, in order for parents, no matter the income, 
cultural background or social standing to have a prosperous healthy 
marriage the man must be a responsible father. Men who understand and 
are able to fulfill their roles as fathers will also be able to be good 
partners. My experience has been that many of the men we serve have a 
strong desire to be good fathers and good partners. But, simply, don't 
know how. Many have never had their own fathers in lives and have been 
raised in homes without a fathering example.
    Prior to welfare reform men were ignored by social policy and the 
consequences are evident in the number of children who live in poverty, 
increased incarceration rates, and uncollected child support. So in the 
next evolution of Welfare Reform we must take the opportunity to 
``marry'' responsible fatherhood and marriage. Bringing the two 
together is in the best interest of low-income families, children and 
communities. It is my firm belief that the field of responsible 
fatherhood can contribute to the creation of healthy marriages; 
however, it requires resources, resources that are currently 
unavailable.
    Currently, there is legislation in both the House of 
Representatives and the Senate that would reauthorize the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996. Each 
contains authorized funding for responsible fatherhood. This is not 
enough. We must ensure that low-income fathers have the opportunity to 
support their families and become viable potential marriage partners 
and co-parents, I urge you to appropriate funding for responsible 
fatherhood.
    Providing a funding stream for responsible fatherhood will provide 
low-income children with access to a breadwinner, nurturer and 
provider. Moreover, it will create the opportunity for men to not only 
accept the obligations of fatherhood but also the commitment of 
marriage, this in the long term will benefit low-income children and 
families.
                                 <F-dash>

 Statement of Vicki Anne Turetsky, Mark H. Greenberg, Nisha Patel, and 
           Hedieh Rahmanou, Center for Law and Social Policy

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to submit written testimony. The 
Center for Law and Social Policy (CLASP) is a nonprofit organization 
engaged in research, analysis, technical assistance, and advocacy on a 
range of issues affecting low-income families. Since 1996, we have 
closely followed implementation of the Personal Responsibility and Work 
Opportunity Reconciliation Act. This submission will discuss work-
related provisions in Temporary Assistance for Needy Families (TANF) 
reauthorization, with particular attention to H.R. 240, the Personal 
Responsibility, Work and Family Promotion Act of 2005.
The Context for Reauthorization
    H.R. 240, is very similar to bills previously approved by the House 
in 2002 and 2003. However, in the three years since the Subcommittee 
first acted in 2002, there have been significant developments affecting 
the context for reauthorization.
    Starting in the mid-1990s, there was a historically unprecedented 
increase in employment among single parents. The growth began before 
enactment of the 1996 welfare law, but continued after that time. The 
employment rate for single mothers grew from 57.3 percent in 1993 to 
63.5 percent in 1996, and then rose to 73 percent by 2001.\1\ Many 
factors likely contributed to this employment growth, including the 
strong economy, state and federal welfare reforms, the large expansion 
of the Earned Income Tax Credit in 1993, increased child care spending, 
increases in the minimum wage in 1996 and 1997, broadening of access to 
health care outside of welfare, and a stronger child support 
enforcement system.
---------------------------------------------------------------------------
    \1\ Burke, V. et al. (December 2004). Children in Poverty: 
Profiles, Trends, and Issues. Table A-3. Washington, DC: Congressional 
Research Service.
---------------------------------------------------------------------------
    During this period, both the TANF assistance caseload and the 
nation's child poverty rate fell. Welfare caseloads fell from 5 million 
in 1994 to 4.4 million by the time the 1996 law was enacted, and then 
to 2 million by 2001. Child poverty fell from 22.7 percent in 1993 to 
16.2 percent in 2000. Welfare participation fell much more than did 
child poverty, with the share of poor children receiving assistance 
falling from 62 percent in 1994 to 35 percent in 2001.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Health and Human Services. (2004). 
Indicators of Welfare Dependence: Annual Report to Congress, Table TANF 
2. Washington, DC: Author. Available at: http://aspe.hhs.gov/hsp/
indicators04/
---------------------------------------------------------------------------
    Numerous studies found that most families leaving welfare (in the 
range of 50 to 60 percent) were working, but typically in low-wage jobs 
without access to benefits, such as employer-sponsored health insurance 
and paid vacation/sick leave.\3\ The families still receiving 
assistance were a heterogeneous group, but generally had more serious 
barriers to employment (e.g., health and mental health issues, domestic 
violence, substance abuse, limited English proficiency, severe basic 
skills deficits) than those who had left assistance. And, some of the 
families that left welfare without finding employment were among those 
with the most severe barriers to employment, with weaker work 
histories, less education, and higher rates of disabilities.
---------------------------------------------------------------------------
    \3\ Richer, E. et al. (November 2001). Frequently Asked Questions 
about Working Welfare Leavers. Washington, DC: Center for Law and 
Social Policy. Available at: http://www.clasp.org/publications/
faq_about_working_welfare.pdf
---------------------------------------------------------------------------
    During this early period, declining welfare caseloads freed up 
resources for states. States were able to use TANF funds to broaden 
services for working families outside the traditional welfare system. 
In the first years after enactment of the law, the single biggest 
redirection of TANF funds was to increase child care for working 
families. In 2000, states committed $4 billion of TANF funds to child 
care.\4\
---------------------------------------------------------------------------
    \4\ Administration for Children and Families. (2001). Fiscal Year 
2000 TANF Financial Data. Washington, DC: U.S. Department of Health and 
Human Services. Available at: http://www.acf.dhhs.gov/programs/ofs/
data/tanf-2000.html
---------------------------------------------------------------------------
    Thus, there was much that was positive in the early TANF 
experience, but there were also areas of clear concern. There had been 
a dramatic growth in employment and decline in child poverty, but many 
of the families who had left welfare for work were still poor, and many 
of the families with the most significant barriers had left welfare 
without finding work.
    During the last three years, several key indicators have become 
less positive. The economy entered into a recession, after which 
initial job growth was slow. States entered into a period of large 
budget deficits, placing strains on TANF funds and other state 
resources, and forcing cutbacks in child care and other services. The 
pressures resulting from the economy and state budget crises are 
apparent in indicators of employment, child poverty, and welfare 
caseloads.
    Since 2001, employment has declined among single and married 
mothers. Employment among single mothers fell from 73 percent in 2001 
to 69.7 percent in 2004. Employment among married mothers showed a 
similar decline (from 68 percent to 65.3 percent) during the same 
period. Single mothers are still more likely to be employed than 
married mothers and much more likely to be employed than before the 
1996 law.\5\ Since the recession, the industries most likely to employ 
welfare recipients and large proportions of single mothers have either 
lost jobs or are experiencing slower job-growth.\6\ Thus, there is 
little reason to attribute the downturn-related decline in employment 
to state TANF performance. The decline in employment during this period 
has meant that a smaller share of families leaving welfare is employed: 
The Urban Institute has reported that employment among welfare leavers 
fell from 50 percent in 1999 to 42 percent in 2002.\7\ Similarly, the 
share of families engaged in employment for enough hours to meet the 
work rates dropped from 22.3 percent in 2001 to 18.0 percent in 2003 
(while the share of families participating in other activities remained 
relatively unchanged).
---------------------------------------------------------------------------
    \5\ Burke, V. et al. (December 2004). Children in Poverty: 
Profiles, Trends, and Issues. Table A-3. Washington, DC: Congressional 
Research Service.
    \6\ Boushey, H., and Rosnick, D. (April 2004). For Welfare Reform 
to Work, Jobs Must be Available. Washington, DC: Center for Economic 
and Policy Research. Available at: http://www.cepr.net/labor_markets/
welfarejobshit-2004april01.htm
    \7\ Loprest, P. (August 2003). Fewer Welfare Leavers Employed in 
Weak Economy, Snapshots of America's Families III, No. 5. Washington, 
DC: The Urban Institute. Available at: http://www.urban.org/
url.cfm?ID=310837
---------------------------------------------------------------------------
    The decline in employment has not resulted in increased welfare 
caseloads. Instead, the nation's welfare caseload has declined, while 
child poverty has risen. Between 2001 and the 2003, the number of 
families receiving assistance (including those in separate state 
programs) rose in 31 states, but the national caseload fell by 0.5 
percent.\8\ This caseload decline occurred despite the fact that child 
poverty increased from 16.2 percent in 2000 to 17.6 percent in 2003.\9\ 
The fact that employment has fallen and child poverty has increased 
while TANF caseloads have remained flat or declining raises significant 
concerns that the program has not been sufficiently responsive to 
increased needs. The share of poor children receiving TANF assistance 
has continued to fall, dropping to 33 percent in 2002.\10\
---------------------------------------------------------------------------
    \8\ Falk, G. (March 2004). Caseload Trends. Washington, DC: 
Congressional Research Service.
    \9\ U.S. Census Bureau. (August 2004). Income, Poverty, and Health 
Insurance Coverage in the United States: 2003 (P60-226). Table 3. 
Washington, DC: Author. Available at: http://www.census.gov/prod/
2004pubs/p60-226.pdf
    \10\ U.S. Department of Health and Human Services. (2004). 
Indicators of Welfare Dependence: Annual Report to Congress, Table TANF 
2. Washington, DC: Author. Available at: http://aspe.hhs.gov/hsp/
indicators04/
---------------------------------------------------------------------------
    The share of families without welfare or work has grown. Research 
from the Urban Institute indicates that the share of all families that 
have left welfare, but are not employed, do not have an employed 
partner, and are not receiving income from Supplemental Security Income 
(SSI) rose between 1999 and 2002, from 10 percent to 14 percent.\11\
---------------------------------------------------------------------------
    \11\ Loprest, P. (August 2003). Disconnected Welfare Leavers Face 
Serious Risk. Snapshots of America's Families III, No. 7. Washington, 
DC: The Urban Institute. Available at: http://www.urban.org/
url.cfm?ID=310839
---------------------------------------------------------------------------
    For the last three years, state spending levels have exceeded 
annual block grants, and state reserves have fallen sharply. As long as 
welfare caseloads were falling rapidly, TANF was, in effect, a source 
for ``new'' funds each year. Once caseload decline slowed or stopped, 
states have increasingly faced the pressures resulting from a block 
grant set at mid-1990s funding levels and not adjusted for inflation. 
In each of the last three years, states' use of TANF funds has exceeded 
their basic block grants, and states have increasingly resorted to 
drawing down carryover (reserve) funds to pay for current services. In 
Fiscal Year 2003, states used $1.8 billion more than they received. 
Between the end of 2002 and the end of 2003, the amount of carryover 
TANF funds dropped by one-third, to $3.9 billion. This represented the 
lowest level for carry-over funds since 1997, the first year of TANF 
implementation.\12\ Some states now have no carryover funds, andfor 
most states, the amount of carry-over funds represents less than one-
quarter of the state's annual block grant funding level.
---------------------------------------------------------------------------
    \12\ Greenberg, M. and Rahmanou, H. (February 2005). TANF Spending 
in 2003. Washington, DC: Center for Law and Social Policy. Available 
at: http://www.clasp.org/publications/fy2003_tanf_spending.pdf
---------------------------------------------------------------------------
    The number of families receiving child assistance has fallen. The 
Administration estimates that the number of children receiving subsidy 
assistance was 2.5 million in 2003, and will fall to 2.3 million 2005. 
Federal child care funding has been flat since 2002, and the use of 
TANF for child care peaked in 2000, and has now stayed at or near $3.5 
billion for the last three years.\13\ Child care curtailments have 
particularly hurt working families not receiving welfare: In April 
2003, the GAO reported that, since January 2001, nearly half the states 
(23) had made policy changes that reduce the availability of child care 
subsidies for low-income working families, and 11 states were proposing 
policy changes to decrease child care funding.\14\
---------------------------------------------------------------------------
    \13\ Matthews, H. & Ewen, D. (2005). President's Budget Projects 
300,000 Low-Income Children to Lose Child Care By 2010. Washington, DC: 
Center for Law and Social Policy. Available at: http://www.clasp.org/
publications/cc_2006_budget.pdf
    \14\ U.S. General Accounting Office. (2003). Child Care: Recent 
State Policy Changes Affecting the Availability of Assistance for Low-
Income Families. Washington, DC: Author. Available at: http://
www.gao.gov/new.items/d03588.pdf
---------------------------------------------------------------------------
Implications for Reauthorization
    As the above discussion outlines, there has been dramatic growth in 
single parent employment since 1996, but much of the employment has 
been in low wage jobs without employer provided benefits. Many families 
still receiving assistance have serious employment barriers, and a 
group of families with serious barriers is now not in work and not 
receiving welfare. A well-functioning TANF program would assist needy 
families while connecting those who are able to work with sustainable 
employment: however, there are clear indications that the current 
program makes it difficult for needy families to receive assistance, 
and serves a steadily declining share of poor children. The expansion 
of supports for working families outside welfare has been a critical 
contributor to the employment growth, but those supports are 
increasingly at risk because TANF and child care funding have remained 
flat. The sharp decline in reserve funds underscores that at current 
funding levels, states will find it difficult or impossible to sustain 
current service levels over the coming years.
    In this context, CLASP has urged that the work-related provisions 
of reauthorization focus on efforts to improve job quality, encourage a 
stronger focus on employment retention and advancement, expand child 
care and other supports for working families outside welfare, and 
ensure that states have incentives to work with, rather than terminate 
assistance to, families with the most serious employment barriers.
    Much of the reauthorization debate has centered around the 
mechanics of the participation rate calculation for families receiving 
TANF assistance. Based on the experience since 1996, there is little 
reason to believe that this should have been the central issue in 
reauthorization: a large share of TANF resources is now used for 
families outside the traditional welfare system, and participation 
rates measure engagement in activities among families receiving 
assistance, not the effectiveness of programs in promoting employment.
    In the following paragraphs, we address key work-related provisions 
of H.R. 240, and recommend modifications. We share the belief that 
promoting and supporting work should be central to state welfare reform 
efforts, but believe that several provisions of H.R. 240 will make it 
harder for states to run effective programs to connect families with 
jobs, and will encourage states to terminate assistance to families 
rather than working with them to help them find sustainable employment.
    On a number of key provisions, the approach taken by the Senate 
Finance Committee in 2003, and the child care amendment adopted on the 
Senate floor in 2004, represent more reasonable, balanced approaches. 
While we continue to urge improvements in the Senate bill, we think the 
Senate provisions reflect efforts to be responsive to the principal 
goals of the Administration's proposal, while still allowing states 
significant flexibility in designing effective work programs.
    We also urge the Subcommittee to give serious consideration to the 
provisions of H.R. 751, the Work, Family and Opportuity Act, introduced 
by Rep. McDermott.
    Reauthorization should encourage states to focus on employment and 
job quality, and should not reward caseload reduction in itself. H.R. 
240's caseload reduction credit creates incentives to terminate 
assistance rather than help families find jobs. We recommend replacing 
it with an employment-based credit.
    The ultimate goal of the work provisions of any TANF bill should be 
to improve employment outcomes. While participation rates measure the 
share of families involved in activities while receiving assistance, 
they do not capture the outcome of greatest concern: the number of 
families getting jobs and earning enough that they no longer need 
assistance.
    CLASP has urged that states be given the option to be held 
accountable for employment outcomes in lieu of participation rates, so 
that they can be measured based on outcomes, not process. Last year, a 
bipartisan group of Senators (Alexander, Voinovich, Carper, and Nelson 
(of Nebraska)) proposed an amendment to allow up to ten states to be 
accountable for outcomes relating to employment; success in activities 
designed to improve employment and related outcomes; job retention; 
entry earnings and earnings gains; and child well-being. H.R. 751 would 
allow states to be accountable for improvements in job entries and jobs 
with higher earnings. We recommend that the Subcommittee consider 
approaches such as these.
    In the participation rate structure, it is important that a state 
not be disadvantaged when a family gets a job and leaves welfare. This 
can happen under current rules, because as long as the parent is 
receiving assistance and participating in an activity, the family 
counts toward the rates, but if the parent gets a job and leaves 
assistance, the family stops counting.
    Under current law, rates are adjusted downward by a caseload 
reduction credit, in which the state's required rate is reduced by the 
number of percentage points reflecting the percentage decline in the 
state's caseload since 1995 for reasons other than changes in 
eligibility rules. The current structure has been criticized for 
lowering effective participation rates to zero for many states. The 
other problem, however, is that it rewards a states if its caseload 
falls, whether or not families are working, and even if the decline 
occurred simply because the state has made it harder to receive 
assistance.
    H.R. 240 would not address this underlying problem, but would 
provide for continuing modification of the ``base year'' for the 
caseload reduction credit, so that states only get ``credit'' for 
recent caseload declines. Thus, there would be a strong incentive to 
cut caseloads, whether or not families entered or sustained employment. 
Moreover, under the Subcommittee's ``superachiever'' credit, a group of 
states are arbitrarily rewarded for having had large caseload declines 
between 1995 and 2001, without regard to employment or other outcomes.
    In 2002, the Administration recommended eliminating the caseload 
reduction credit, and providing instead that families leaving 
assistance due to employment could count as participants for 90 days. 
The 2003 Senate Finance bill used an ``employment credit'' instead of a 
caseload reduction credit, providing adjustments based on the numbers 
of families leaving assistance due to employment, the number leaving 
with higher earnings, the number of families working after receiving 
diversion assistance, and the number of families receiving TANF-funded 
child care and transportation benefits. H.R. 751 also provides for an 
employment credit.
    A credit or adjustor for employment would communicate the 
importance of focusing on whether families leaving assistance are 
working, and communicate to states that the goal is the promotion of 
employment, not simply cutting caseloads.
    Raising the number of hours needed to count as a participant to 40 
will make it harder for states to run effective programs to connect 
families with employment. It would be better to maintain current law 
hourly requirements.
    Under current law, single parents with children under age 6 can 
count toward TANF participation rates through 20 hours a week of 
countable activities; all other families must meet a 30 hour 
requirement. H.R. 240 would raise the requirement to 40 hours for all 
families. The 2003 Senate Finance bill would raise the requirements to 
24 hours for single parents with children under six, 34 for other 
single-parent families, and 39 hours for two-parent families. H.R. 751 
would maintain the hourly requirements of current law.
    In our view, it is unfortunate that much time over the last three 
years has been devoted to arguments about the ``right'' number of hours 
to require for participation, because there is no evidence that 
increasing hours of participation beyond current law requirements would 
lead to more effective programs. The welfare-to-work research 
consistently finds that the most effective programs provide a mixed 
menu of activities, combining job search, training, and other work-
related activities, but these programs do not typically combine 
multiple activities for the same individual at the same time.\15\ None 
of the highest-impact programs routinely imposed 40-hour requirements. 
Nothing in the research suggests that restructuring programs to make 
them require 40 hours instead of 30 hours would make them more 
effective.
---------------------------------------------------------------------------
    \15\ Martinson, K., & Strawn, J. ( May 2002). Built to Last: Why 
Skills Matter for Long-Run Success in Welfare Reform. Washington, DC: 
Center for Law and Social Policy and the National Council of State 
Directors of Adult Education. Available at: http://www.clasp.org/
publications/BTL_report.pdf; Michalopoulos, C., Schwartz, C., with 
Adams-Ciardullo, D. (August 2000). National Evaluation of Welfare-to-
Work Strategies, What Works Best for Whom: Impacts of 20 Welfare-to-
Work Programs by Subgroup. New York: Manpower Demonstration Research 
Corporation. Available at: http://aspe.hhs.gov/hsp/NEWWS/synthesis-
es00/index.htm; Strawn, J., Greenberg, M., & Savner, S. (February 
2001). Improving Employment Outcomes Under TANF. Washington, DC: Center 
for Law and Social Policy. Available at: http://www.clasp.org/
publications/improving_employment_outcomes_under_tanf.pdf
---------------------------------------------------------------------------
    Moreover, raising the hourly requirement to 40 runs the risk of 
resulting in less effective programs, for three reasons. First, it 
creates the danger that program administrators will need to shift their 
focus from efforts to promote employment to efforts to ``manage'' 40 
hours of participation. Second, the need to generate activities, even 
low-cost ones, and pay attendant child care costs, will force a 
misallocation of scarce resources at a time when states are struggling 
to sustain current services. Third, many observers have recognized the 
need to do more to engage families with the most serious employment 
barriers. These families are likely to have the greatest difficulties 
in meeting 40-hour requirements. If any individual who has difficulty 
consistently participating at a 40-hour level will become a ``drag'' on 
the state's ability to meet participation rates, there will be an 
increased risk that such families are sanctioned and terminated from 
assistance rather than provided needed assistance to move toward 
employment.
    While the Senate's approach to hours is more moderate, the best 
resolution here would be to maintain current law. Every state would be 
free to increase hourly requirements if it wished to do so. But, there 
is no reason to compel all states to adopt an approach that has no 
basis in research, and that is contrary to the best judgment of many 
program administrators.
    The list of countable activities should give states flexibility to 
make their own judgments about effective ways to promote employment. 
States should be free to use education and training and barrier removal 
activities, and not be complelled to use unpaid work experience.
    H.R. 240 sharply limits the activities that can count toward the 
first 24 hours of participation each week. After a three to four month 
period, the only activities that could count for adults would be 
unsubsidized or subsidized work, or unpaid work experience or community 
service. Thus, the bill would make it impossible to count being in 
full-time education or training for more than four months, and would 
impose similar restrictions on participation in barrier removal and 
rehabilitative services. Given the costs of subsidized employment, the 
bill would, in effect, create strong pressure on states to use unpaid 
work experience or community service for those individuals unable to 
get unsubsidized jobs within four months.
    The H.R. 240 approach is not consistent with relevant research 
findings. There is encouraging non-experimental evidence from 
transitional jobs programs that provide highly structured, paid 
subsidized employment experiences for individuals with multiple 
employment barriers,\16\ and other research suggests favorable impacts 
for on-the-job training programs.\17\ However, the available research 
has not suggested strong effects on employment and earnings for unpaid 
work experience programs. There is only limited recent research on the 
employment impacts of unpaid work experience; however, in a review of 
research conducted in the 1980s, the Manpower Demonstration Research 
Corporation (MDRC) concluded, ``there is little evidence that unpaid 
work experience leads to consistent employment or earnings effects.'' 
\18\
---------------------------------------------------------------------------
    \16\ Kirby, G. et al. (April 2002). Transitional Jobs: Stepping 
Stones to Unsubsidized Employment. Princeton, NJ: Mathematica Policy 
Research.
    \17\ Orr, L. et al. (1996). Does Training for the Disadvantaged 
Work? Evidence from the National JTPA Study Washington, DC: Urban 
Institute Press; Plimpton, L. and Nightingale, D. S. Welfare Employment 
Programs: Impacts and Cost-Effectiveness of Employment and Training 
Activities, unpublished paper; U.S. Department of Labor. (January 
1995). What's Working (and what's not). Washington, DC.
    \18\ Thomas, B., Butler, D., and Long, D. (September 1993). Unpaid 
Work Experience for Welfare Recipients: Findings and Lessons from MDRC 
Research.. New York: Manpower Demonstration Research Corporation,
---------------------------------------------------------------------------
    From the welfare-to-work research, the clearest guidance is that 
states should avoid the extremes of focusing exclusively on job search 
or on adult basic education unconnected to employment. Instead, the 
most effective welfare-to-work programs use a ``mixed strategy''--
focusing on employment; including job search, education, job skills 
training among program activities; and structuring activities on an 
individualized basis.\19\ There is clear evidence that a strong skills 
training component can lead to improved employment outcomes, and that 
postsecondary education is increasingly crucial in efforts to improve 
earnings.\20\
---------------------------------------------------------------------------
    \19\ See, for example, Gueron, J. & Hamilton, G. (April 2002). The 
Role of Education and Training in Welfare Reform. Policy Brief No. 20. 
Washington, DC: The Brookings Institution. Available at: http://
www.brookings.edu/dybdocroot/wrb/publications/pb/pb20.htm; Martinson, 
K., & Strawn, J. (April 2003). Built to Last: Why Skills Matter for 
Long-Run Success in Welfare Reform. Washington, DC: Center for Law and 
Social Policy. Available at: http://www.clasp.org/publications/
BTL_report.pdf; Mathur, A. et al. (May 2004). From Jobs to Careers: How 
California Community College Credentials Pay Off for Welfare 
Participants. Washington, DC: Center for Law and Social Policy. 
Available at: http://www.clasp.org/publications/Jobs_Careers.pdf
    \20\ From Jobs to Careers: How California Community College 
Credentials Pay Off for Welfare Participants. Washington, DC: Center 
for Law and Social Policy; see also, Duke, A. ``Provide Post-Secondary 
Education and Training to Low-Income Parents.'' in McNichol, L. & 
Springer, J. (December 2004). State Policies to Assist Working Poor 
Families. Washington, DC: Center on Budget and Policy Priorities. 
Available at: http://www.cbpp.org/12-10-04sfp.pdf
---------------------------------------------------------------------------
    The approach taken in the 2003 Senate Finance bill was more 
balanced than that in H.R. 240, though still restrictive in certain 
ways. The 2003 Finance bill maintained the current law 12-month 
restriction on counting vocational educational training toward core 
participation hours, while creating a new option for states to count 
participants in postsecondary education under certain circumstances. 
The Finance bill also allowed participation in certain rehabilitative 
services to count for up to six months, which while less restrictive 
than H.R. 240, still prevents individualized determinations of when 
additional time is needed.
    H.R. 751 would also broaden the countability of a set of 
activities, allowing for increased participation in education and 
training, and counting up to 18 months in rehabilitative services, if 
the last 12 months are combined with work.
    Our principal recommendation here is that federal law should not 
seek to narrowly restrict which activities can and cannot count toward 
participation rates. In the TANF fiscal structure, a state has no 
incentive to place individuals in activities unless the state believes 
the activities are likely to be effective, and state perspectives on 
effective activities will continue to evolve over time based on 
research and experience. Thus, we hope that the final bill does not 
compel states to use unpaid work experience, does not restrict the 
ability of states to use education and training, and allows for 
individualized determinations about participation in rehabilitative and 
barrier removal activities.
    Reauthorization should provide states with enough child care 
funding to sustain current service levels, meet new work requirements, 
and make progress in addressing access and quality in the next five 
years. The current House bill would accomplish none of these goals. We 
recommend increasing child care funding.
    In the initial years after enactment of the 1996 welfare law, 
states made dramatic progress in expanding child care assistance for 
low-income families, for two principal reasons: First, the 1996 law 
provided for steadily increasing amounts of dedicated child care 
funding through 2002. Second, when TANF caseloads declined, states were 
able to redirect TANF funding to child care. In 2000, states redirected 
$4 billion in TANF funds to child care, an amount larger than the 
entire child care block grant. However, child care funding through TANF 
has fallen to about $3.5 billion in each of the last three years, and 
it is doubtful that states will be able to sustain this funding level, 
in light of the fact that states are currently spending TANF funds at a 
level above their block grants and drawing down reserve funds to pay 
for current service levels.
    It has been suggested that reauthorization could ``unlock'' as much 
as $2 billion in unobligated prior-year TANF funds, which can currently 
only be used for ``assistance,'' but which could be used for any 
allowable TANF purpose under the pending bill. We support the proposal 
to broaden allowable uses of reserve funds, but enacting this proposal 
will not free up significant new resources for child care, for two 
reasons:
    First, the vast majority of states can already effectively use 
their unobligated funds for child care by rearranging how current and 
carryover funds are spent (i.e., spend prior year funds for assistance 
to free up current year funds to spend for child care. Based on 2003 
spending data, forty-seven states could already, in effect, spend every 
penny of their unobligated funds on child care this year, but if they 
did so, they would have no reserve funds for the future. The remaining 
four states could, in effect, spend all of their carryover funds for 
child care within two or three years, if they wished to exhaust their 
reserve funds.
    Second, as noted above, for the last three years, states have spent 
more for TANF-funded benefits and services than they have received in 
their annual block grants, and have drawn down prior year funds to help 
pay for current service levels. This strategy cannot be sustained 
indefinitely; reserves for most states are likely to be depleted within 
a few years unless states make significant cuts in current levels of 
services. Thus, most states cannot simply use reserve funds to expand 
child care services without creating deeper deficits for future years.
    When child care funding was expanding, it resulted in dramatic 
improvements in the availability of child care assistance for low-
income families. The number of children receiving child care assistance 
grew from about 1 million in 1996 to an estimated 2.5 million in 2003. 
For many states, a key part of the strategy to promote work and reduce 
the numbers of families receiving TANF assistance was expansion of 
child care outside welfare. In recent years, as child care funding has 
been flat or declining, it has become increasingly difficult or 
impossible to provide continued access for working families that are 
not receiving or leaving TANF assistance. The Administration now 
estimates that the number of children receiving child care will fall to 
2.3 million in 2005, and will further fall to 2 million by 2009.
    The Administration has proposed no increase in mandatory child care 
funding for the next five years; H.R. 240 provides for $1 billion; last 
year, the Senate voted, 78-20, to provide for $7 billion in child care 
funding over five years. H.R. 751 would increase mandatory funding by 
$11 billion over five years. How do these amounts compare to need?
    Congressional Budget Office (CBO) staff has preliminarily estimated 
that $4.8 billion in total funding (federal and state) would be needed 
to sustain 2005 service levels over the next five years. CBO has also 
estimated that the combined work and child care costs of meeting the 
House work requirements through increased participation would be $8.3 
billion. After allowing for overlap, the resulting preliminary estimate 
is that the additional cost of sustaining current service levels and 
paying for the work and child care costs would be $12.5 billion. Even 
this figure would not provide for access to child care for additional 
working families outside welfare or for expanding quality investments.
    We understand the difficulties in urging additional child care 
funding at a time when there is a need to address the federal deficit. 
However, child care funding is an essential support for work and a 
crucial way of addressing the well-being and developmental needs of 
children in working families. Providing for increased funding will be 
crucial to sustain progress in the coming years.
    Reauthorization should ensure that states have incentives to work 
with families with serious employment barriers, rather than incentives 
to cut off assistance to these families. Accordingly, the Bill should 
build safegaurds into the sanction process, and not mandate full-family 
sanctions.
    Under federal law, states must reduce or terminate assistance when 
a family does not comply with program rules without good cause. There 
are essentially no safeguards in current federal law beyond a provision 
saying that states may not terminate assistance to a single parent of a 
child under six who fails to participate due to lack of needed child 
care. While sanctions have not been the principal reason for caseload 
decline, it is also clear that they are used very extensively in some 
states. Research confirms that families with the most barriers to 
employment and the most difficulty succeeding in the labor market are 
the most likely to be sanctioned. Moreover, families who leave the 
caseload due to sanctions are less likely to be employed and more 
likely to return to welfare than families who leave for other 
reasons.\21\ Testimony submitted to this Committee by Dr. Deborah Frank 
of the C-SNAP project describes the harm that can occur to children in 
sanctioned families.\22\
---------------------------------------------------------------------------
    \21\ See: Pavetti, L. et al. (April 2004). The Use of TANF Work-
Oriented Sanctions in Illinois, New Jersey, and South Carolina. 
Washington, DC: Mathematica Policy Research. Available at: http://
aspe.hhs.gov/hsp/TANF-Sanctions04/; Wu, C. et al. (June 2004) How Do 
Welfare Sanctions Work? Institute for Research on Poverty. Discussion 
Paper No. 1282-04. Madison, WI: Institute of Research on Poverty. 
Available at: Available at: http://www.ssc.wisc.edu/irp/pubs/
dp128204.pdf; For a summary of earlier research, see: Goldberg, H. & 
Schott, L. (October 2000). A Compliance-Oriented Approach to Sanctions 
in State and CountyTANF Programs. Washington, DC: Center on Budget and 
Policy Priorities. Available at: http://www.cbpp.org/10-1-00sliip.htm.
    \22\ See Statement of Dr. Deborah A. Frank, Boston Medical Center 
(February 10, 2005) available at: http://waysandmeans.house.gov/
hearings.asp?formmode=printfriendly&id=2498
---------------------------------------------------------------------------
    H.R. 240 would require all states to use full-family sanctions 
(i.e., terminate all TANF assistance for failing to meet program 
requirements). We urge the Subcommittee to drop this provision. There 
is no research evidence that programs that cut off all assistance are 
more effective in moving families to employment or economic 
independence, and, as noted, there is clear evidence of potential harm. 
Moreover, in the context of high participation rates and scarce 
resources, there is considerable risk that when a parent with 
employment barriers is unable to meet program requirements, states will 
perceive a much stronger incentive to terminate assistance than to 
actively work with the family to resolve barriers to participation.
    The 2003 Senate Finance bill did not mandate full-family sanctions. 
It contained a provision requiring that, prior to imposing sanctions, 
states should, to the extent determined appropriate, review the 
family's plan and make a good faith effort to consult with the family. 
A provision such as this, and additional safeguards, could help 
communicate that the goal of federal policy is to work with families to 
promote employment, not simply terminate assistance. H.R. 751 would not 
require full-family sanctions, and would provide for new safeguards in 
the sanction process.
Conclusion
    While we urge a number of changes in the Subcommittee bill, we 
share the view that it is important for Congress to resolve outstanding 
issues and complete TANF reauthorization. During the last three years, 
there has been a significant cost to the uncertainty and instability 
resulting from lack of reauthorization and repeated short-term 
extensions. We urge the Subcommittee to work for enactment of a final 
bill that is responsive to the need for state flexibility and that 
addresses issues of better jobs, employment retention and advancement, 
helping families with the most serious barriers, and providing adequate 
resources to help working families both on and outside welfare.

                                 <F-dash>

   Statement of Molly K. Olson, Center for Parental Responsibility, 
                          Roseville, Minnesota

    This written testimony is a BUDGET SAVINGS IDEA applicable to 
federal Title IV welfare reform, with a potential to save taxpayers 
nationwide as much as $88 billion a year.
    The Title IV-D program is unnecessarily costing taxpayers (federal, 
state, local) as much as $88 billion in direct and indirect costs 
because of the misapplication of federal law resulting in an overreach 
of authority by the state's IV-D agency, under the direction of the 
Federal Office of Child Support Enforcement (OCSE), a division of the 
U.S. Department of Health and Human Services (DHHS), which take their 
instruction from Congress and the President.
    Title IV-D of the Social Security Act is a federal program that 
states are mandated to implement if they voluntarily participate in and 
want federal funding for Title IV-A (TANF). Title IV-D is a federal 
program that is administered by the state or a local agency within the 
state. All Title IV programs are meant for the needy and most 
vulnerable families. We need to continue to protect this class and 
promote independence from government.
    My concerns are particular to Minnesota, but the issues are 
identical in all other states that implement their IV-D program void of 
any eligibility standards and means testing.
    ISSUE: The OCSE has directed the state IV-D agencies to exceed 
their authority through their unwarranted practices, which are contrary 
to congressional intent, defying the purpose of the Title IV program, 
and unnecessarily costing taxpayers billions. This program must be 
restrained to protect the public purse and protect the privacy and 
independence of our families. The program has become over-inclusive 
because of the misapplication of the law, creating an excessive burden 
to the taxpayers. The program is violating individual rights because of 
an unlawful overreach of IV-D authority into private domestic relations 
matters, which are reserved to the states. Absent a determination of 
financial need prior to approval of the IV-D application, there is no 
pecuniary or protectable interest for the government to provide Title 
IV-D services.
    LAW/RULE: A change or clarification of the law or regulation, or a 
clarification to the states from the OSCE are needed to restore the 
program to its intended purpose and stop unwarranted government 
intrusion of the Title IV-D program into non-needy families nationwide. 
According to the congressional record Title IV-D requires:

    1.  First, Title IV as a whole, is limited to ``needy'' families 
who have become ``dependent'' on the government for financial support.
    2.  Title IV-D requires an ``absent parent'' and a ``needy'' 
family. The congressional record indicates the definition of the term 
``absent parent,'' for the purpose of Title IV, includes those parents 
who were not at all involved with their children, who abandoned the 
family to public assistance, and who are not fulfilling their 
responsibility to raise the children, thereby resulting in a ``needy'' 
family.
    3.  The congressional intent of Title IV-D clearly limits the class 
of IV-D recipients to two:
       a.  those on welfare, then IV-D becomes a cost recovery program, 
to save taxpayer money by collecting money through IV-D to reimburse 
the IV-A agency, and
       b.  those at risk of falling on welfare (former and never 
welfare recipients), to protect those who would become ``needy'' if 
they don't receive their support payment privately, to ensure payments 
as a cost avoidance measure.

    Currently, loving, involved, responsible, regular paying non-
custodial parents (good parents) are unnecessarily falling under the 
control of the government IV-D program even when their children are 
fully taken care of and at no risk of becoming part of a ``needy'' 
deprived family. Private domestic relations family matters are being 
unnecessarily drawn into the IV-D program even when: 1) there is no 
support problem and the non custodial parent has a history of 
consistently paying, and 2) the custodial parent (IV-D applicant) is 
financially well off (earning as much as $100,000 a year) and has never 
been on public assistance, is not likely to ever need public 
assistance, and could afford to take care of all collection privately--
so in effect, self-sufficient and even affluent people are using IV-D 
services because they get the services free or substantially subsidized 
by the taxpayer. State and local agencies encourage ALL divorced people 
to participate in the IV-D program regardless of need or circumstance, 
because the MORE people that are in the program, the MORE federal 
funding the state/local agency receives. The IV-D agency is growing on 
the backs of good people who have no need for the government program, 
but who are encouraged (even erroneously ordered) to use it, just 
because it is available. Larger IV-D agencies may be good for the 
agency, but it is not good for our families, and it does not promote 
efficient government.
    Unfortunately, nationwide, the practices under IV-D have exceeded 
the law and defeat the purpose of the program, using scare public 
resources to provide services to a class Congress did not intend to 
serve. Testimony, as far back as 1997, has warned of this problem 
created by perverse incentives to the states.

       Responsible Public Servants Warned Congress of the Problem

             Ms. Frye, Chief, Office of Child Support in CA

    She states:
    ``As we understand it, the proposal goes far beyond the 
Congressional intent to develop an incentive system that rewards good 
outcomes and in fact encourages states to recruit middle class 
families, never dependent on public assistance and never likely to be 
so, into their programs in order to maximize federal child support 
incentives''. She goes on to say, ``And my colleagues across the 
country have already informed me how I can win at this system; recruit 
the middle class, bring those higher orders into your system and that 
way you will be able to benefit like some of the other states from the 
cap removal on the never-welfare population''.
    As an ``agent'' of the federal government, for the purpose of 
delivering IV-D services, the Minnesota State Department of Human 
Services shows their misunderstanding of the program, as they falsely 
inform our state legislators and judicial officers that IV-D is an 
``entitlement'' program. The MN DHS has also declared to the other 
branches of government that: 1) IV-D is a stand alone program, and 2) 
that the federal government requires the state to provide all the IV-D 
services to anyone and everyone who applies. The U.S. Supreme Court 
decision, Blessing v Freestone, made it clear that IV-D is NOT an 
``entitlement'' program.

              Title IV-D is NOT an ``entitlement'' Program

                           U.S. Supreme Court

               Blessing v Freestone, 520 U.S. 329 (1997)

    ``Title IV-D was not intended to benefit individual children and 
custodial parents, and therefore it does not constitute a federal 
right. Far from creating an individual entitlement to services, the 
standard is simply a yardstick for the Secretary to measure the system-
wide performance of the State's Title IV-D program. Thus, the Secretary 
must look to the aggregate services provided by the State, not whether 
the need of any particular person have been satisfied . . . As such, it 
does not give rise to individual rights.''

 The intended beneficiary of the IV-D program is not an individual, it 
                           is the government.

    TITLE IV-D PROGRAM IMPLEMENTATION: The state and federal OCSE is 
mis-interpreting 42 USC 654 (4)(A)(ii), and using the phrase ``any 
other child'' to swallow up every child in the country, when an IV-D 
application is filled out. Because of the federal incentives to the 
state, the local IV-D agencies are encouraging everyone to apply. 
Currently, there are only two criteria for an applicant to enter the 
IV-D program and receive IV-D services. In Minnesota and other states, 
the two step need determination assessment process for IV-D services is 
limited to: 1) did one parent fill out an application and sign it, and 
2) are the two parents living in different households. Subsequently, 
even the upper middle class are being added to the program, absent a 
finding of financial need. There is nothing on the congressional record 
to support this over-inclusive eligibility standard--or lack thereof. 
Serving the affluent is contrary to congressional intent of Title IV 
and outside the scope of Title IV-D, which is to provide services to 
financially ``needy'' families only,

which is clear limitation of all Title IV programs. This over-inclusive 
practice leads to a violation of many individual rights because the 
loving, involved, responsible, regular paying non-applicant parent is 
not provided an opportunity to object to the delivery of IV-D services 
in their private domestic relations case.
    The IV-D program was designed to recapture money from legal 
``deadbeats,'' not dads who involuntarily moved out, but relocated down 
the block so they could stay involved and see the children 3-4 days a 
week and maintain a strong record of regular support. However, once 
under the snares of the administrative IV-D agency, all non custodial 
parents find they have no individual rights and are assumed to be 
deadbeats, which increases conflict between the parents, which 
negatively impacts the children. The stated goal of the state IV-D 
system is to ``maximize federal funding.'' It's not about the children. 
The system doesn't have the best interest of children in mind, because 
the state is primarily after their own financial interest--that is, the 
federal funding. Loving, involved, responsible, regular paying dads do 
have their children's best interest in mind, and these efforts are 
often thwarted and discounted by the IV-D agency. Many non-needy 
middle-class custodial parents ignorantly sign up for full IV-D 
services just for the wage-withholding service, because they are misled 
to do so by the local IV-D agency and told ``IV-D is the easiest form 
of wage-withholding.'' With modern technology, private domestic 
relations cases have many private banking options for wage-withholding 
and direct deposit, and all divorced people do not need the IV-D 
program.
    The state IV-D agency and the federal OCSE are misinterpreting 42 
USC 654(4)(A)(ii), 45 CFR 302.33, and 45 CFR 303.2 to mean the federal 
government requires the states to ``provide'' full IV-D services to 
anyone and everyone who applies regardless of need or circumstance. On 
its face, the regulation merely states the services ``must be made 
available.'' Clearly ``made available'' is very different than 
``provide.'' A ballpark is ``made available'' to everyone, but that 
doesn't mean everyone is ``provided'' entry on the day of a game or a 
seat of their choice, unless they meet certain requirements.
    By allowing everyone and anyone into the IV-D program, when they 
simply fill out an application, we are creating a welfare program for 
the affluent. The IV-D program is making self-sufficient people 
dependent on the government, contrary to our welfare program 
objectives. This defies logic and common sense, and is unsupported by 
the record. (see attachment, with statement from GAO report).
    Wade Horn, Assistant Secretary, Administration for Children and 
Families, U.S. DHHS provided testimony to the U.S. House Ways and Means 
Committee on February 10, 2005 (before the subcommittee on Human 
Resources). In his testimony, he indicated that the purpose of ``these 
programs'' (referring to Title IV programs) is ``to improve the lives 
of families who otherwise would become dependent on welfare.'' As many 
as 40-60% of all current IV-D cases nationwide would not be eligible 
for services using the congressional purpose to limit the program to 
applicants: 1) on welfare, and 2) at risk of falling on welfare. Mr. 
Horn further testified that the next steps are to make ``economic 
independence within the reach of America's neediest families.'' People 
earning $80,000-$100,000 a year do not fit that focus or achieve the 
goals established by Congress for the IV-D program. Providing services 
to this class of people must stop or the whole system will eventually 
crash and go bankrupt (see attachment, with statement by former 
Secretary DHHS).
    Congress may not be opposed to providing IV-D welfare service 
funding to the wealthy. However, if the states are opposed to this 
practice and want to limit IV-D services to the ``needy,'' consistent 
with congressional intent, it seems that Congress should make it clear 
that the states are allowed to limit IV-D services based on an 
assessment of ``need'' and be assured they can do this without being in 
violation of any federal law, regulation, or the State Plan.
    Is this a federal question or a state question? The Minnesota 
Department of Human Services claims the authority to determine who is 
provided IV-D services is ``a federal issue'' further claiming ``the 
feds make us do it'' (i.e. provide IV-D to the wealthy families who are 
receiving their support with no problem, but apply for IV-D). If 
providing IV-D services to the non-needy and even affluent families is 
not a federal requirement, but rather, a choice the state can make or 
not make, and still be in compliance with IV-D, this must be made clear 
throughout the entire IV-D system nationwide.
    CONCLUSION/SOLUTION/WHAT CONGRESS CAN DO: Minnesota citizens and 
state legislators want to change state law to clarify that IV-D 
services are limited to those ``needy'' families Congress intended to 
serve: 1) those on welfare, and 2) those at risk of falling on welfare 
if they don't receive their private support payments. State taxpayers 
nationwide need to know the delivery of IV-D services must be limited 
to ``needy'' families. The MN DHS claims the Federal government WILL 
NOT ALLOW MINNESOTA to limit IV-D services to needy families, and that 
the state must provide services to everyone and anyone who applies. 
This means Minnesota (and all other states) are providing IV-D welfare 
services to the non-needy, who have never been on public assistance, 
display no evidence they are ever likely to need public assistance, and 
have never experienced a support collection problem. To provide clarity 
to the states, if this is not the position of Congress, please dispel 
the notion that the Secretary of DHHS can require that the states 
``must provide'' services to the non-needy who are outside the scope of 
the purpose of the Title IV-D program and beyond the stated intent of 
Congress.
    BOTTOM LINE: Minnesota has wide bi-partisan support for a deficit 
reducing measure that would limit the non-public assistance IV-D 
services to the ``needy.'' We are assured other states would follow. 
The Minnesota state legislative body is seeking documentation from the 
federal government that would ensure:
    1) Minnesota will not be out of compliance with the Title IV-D 
State Plan or federal law, if we enacted a state law that would limit 
IV-D services as Congress intended to: 1) those on welfare, and 2) 
those at risk of falling on welfare if they didn't receive their 
support privately.
    Please help solve this problem of the over-reach of authority by 
the IV-D agency, resulting in unwarrated intrusion by the government, 
impacting the privacy rights of non-needy families, and causing an 
excess burden to taxpayers at all levels: federal, state, and local. I 
represent a 100% volunteer organization, and we have no paid lobbyists, 
and ``we the people'' need your help. We have been seeking an answer 
from Congress on this issue for more than two years; 201 Minnnesota 
legislators are waiting for a response. The awareness of this 
misapplication of the IV-D program is spreading over the internet and 
emails are being forwarded nationwide to expose the problem.
    WE WANT OUR FAMILY AUTONOMY BACK. We expect fiscal responsibility 
with our tax dollars. Congress and federal and state agencies are 
charged with the task of allocating limited funds across a range of 
needy families. Private domestic relations matters should remain 
private absent a compelling state interest. When there is no pecuniary 
interest for the government, nor a need to invoke parens patriae powers 
to protect the child, the government should not be involved in the 
family. Putting loving, involved, responsible, regular paying non-
custodial parents and high earning custodial parents into the Title IV-
D program unnecessarily increases conflict, destroys what little is 
left of the fractured family, thereby harming children, and is nothing 
short of a fraud upon the taxpayer. We have 7 people on our research 
team with 38 years of cumulative experience researching Title IV-D. We 
would appreciate the opportunity to share more of our research with 
you, and answer any questions at anytime.
                               __________

             The GAO has already figured out this problem.

             Why has this report has been largely ignored?

    June 13, 1995 ``Opportunity to Reduce Federal and State Costs''

                       Report # GAO/T-HEHS-95-181

           By Jane L. Ross, Director, Income Security Issues

    ``. . . many non-AFDC clients may not be within the population the 
Congress envisioned serving.'' p. 6
    According to the Bureau of Census 1991 data, ``about 65% of these 
reported incomes, excluding any child support received, exceeding 150% 
of the federal poverty level.'' p. 6
    ``. . . about 45 percent reported incomes exceeding 200 percent of 
the poverty level and 27% reported incomes exceeding 300 percent.'' p. 
6
    ``. . . the rate at which child support services are being 
subsidized appear inappropriate for a population that Congress may not 
have originally envisioned serving.'' p. 5-6
    ``The non-AFDC child support program . . . many are not within the 
low-income population to which Congress envisioned providing child 
support enforcement services.'' p. 3

            The U.S. DHHS has made a strong policy statement

Why has OSCE policy changed to require that a full range of services be 
                      provided to all applicants?

   U.S. Supreme Court Case--Blessing v Freestone, 520 U.S. 329 (1997)

      Silver's Reply Brief (page 5) to the Eleventh Circuit Court

    Policy Statement From Donna Shalala, U.S. Secretary DHHS:
    ``. . . a guarantee . . . of the full range of . . . child support 
enforcement services . . . for all individual cases . . . would 
bankrupt IV-D agencies across the country.''

                                 <F-dash>

     Statement of Leslie R. Wolfe, Center for Women Policy Studies

    Thank you for the opportunity to submit this testimony on the 
reauthorization of the Temporary Assistance for Needy Families (TANF) 
Act. The Center for Women Policy Studies was founded in 1972 as the 
nation's first feminist policy analysis and research institution. From 
the start, the Center has focused its research and analyses on social 
and economic policies that support moving women from poverty to 
economic self-sufficiency and independence, whether the concern has 
been creating equal credit opportunity, as it was in the early years, 
ending violence against women, ensuring educational equity or reducing 
poverty by reforming welfare.
    Since 1988, a major focus of the Center's welfare reform efforts 
has been on the issue of postsecondary education as an effective route 
to economic self-sufficiency for a large percentage of women now 
receiving TANF, formerly Aid to Families with Dependent Children 
(AFDC). We operate on certain premises when it comes to ending poverty 
for women and their children. First, we believe that our goal must NOT 
be just one of moving women from welfare to work, but instead, we must 
look for policy options that put a dent into women's poverty over the 
long term. Real welfare reform should offer women an effective and 
permanent route out of poverty to economic independence. We have 
evidence that, for many women, that route is through postsecondary 
education. A college education has always been a route for people to 
achieve economic self-sufficiency and social mobility--witness the 
success of the GI bill, which brought scores of men into college and 
the middle class after World War II. This path to a life of economic 
independence should be available to low income women and their 
children; they need no less.
    Today, a college education is required more often than not to 
succeed in our economy (Carnevale and Desrochers, 2002). But, you ask, 
if college is a realistic and affordable option for state and federal 
policymakers to consider. The answer is yes. Fully 59 percent of women 
receiving public assistance are high school graduates or have earned 
GEDs, or have attended some college (Loprest and Zedlewski, 1999). Many 
of the women are ready and eager to earn a two- or four-year college 
degree.
    The importance of postsecondary education in poverty reduction 
cannot be overestimated. Among people living below the federal poverty 
level, one third (33 percent) have a high school diploma and only 9.3 
percent have a college degree (U.S. Department of Commerce, Census 
Bureau, 2001). In fact, even one year of postsecondary education makes 
a difference for women of all racial and ethnic backgrounds. The 
poverty rate for African American women with one year of postsecondary 
education is 21 percent--less than half of the poverty rate (51 
percent) for those who have completed 12 years of school. Among 
Latinas, the change is equally dramatic, as poverty rates drop from 41 
to 18.6 percent with one year of postsecondary education. And the 
poverty rates for white women with one year of postsecondary education 
drop from 22 to 13 percent (Census Bureau Population Survey, as cited 
in Sherman, 1990).
    While there is a paucity of research on the impact of postsecondary 
education on welfare recipients (Mayfield, 2001), there is growing and 
persuasive evidence that this population group benefits greatly from 
college. An earlier study of women on welfare who graduated from 
Massachusetts colleges showed that most found mid-level professional 
jobs and 79 percent earned between $20,000 and $35,000 a year--incomes 
that meant that economic self-sufficiency had become a reality (Kates, 
1991).
    More recent studies of former TANF recipients who obtained college 
degrees in Maine, California, Maryland and Washington show workers who 
substantially increased their earning power, were employed in salaried 
positions rather than as hourly workers, and reported such benefits as 
health insurance, paid sick and vacation leave, life insurance, 
disability insurance and compensatory time (Smith, Deprez, and Butler, 
2002; Mathur, Reichle, Wiseley, and Strawn, 2002; Family Welfare 
Research and Training Group, 2002; Karier, 1998).
    It is significant to note that the entire family wins from a 
woman's postsecondary education experience. We know that postsecondary 
education not only increases women's income and job security, it also 
improves their self-esteem, gives them greater self-confidence and 
feelings of well being, increases their children's educational 
ambitions, enriches their personal and family lives and improves their 
parenting (Gittell, Gross, and Holdaway, 1993; Kates, 1999, 1991; Kahn 
and Polakow, 2000; Center for Women Policy Studies, 2001; Lewis, 
Schacher, and Simon, 2002; Smith, Deprez, and Butler, 2002).
    Now more than ever, welfare recipients need postsecondary education 
to obtain the skills needed to compete for jobs that pay a living wage. 
If the goal of TANF really is to move women from welfare to work, then 
all of us must confront the growing scarcity of jobs in the low skill 
sector of the labor market in which most former welfare recipients 
work. Nationally, these low skill industries were hit harder by the 
2001 recession than the average industry, and have not performed as 
well as other industries during the recent recovery (Boushey and 
Rosnick, 2004). Indeed, while employment opportunities for low income 
and poorly educated women have always been meager, now they are even 
worse. And women who leave the welfare rolls for these low paying, 
dead-end jobs likely still will earn wages that are below the federal 
poverty line. Hence, we simply will move women from the ranks of the 
welfare poor to the working poor--with little provision for their 
children--a future generation of American workers.
    States have long recognized the importance of postsecondary 
education in helping women break the cycle of poverty and move into 
economic independence. Like TANF, the Family Support Act of 1988 was 
designed as a welfare reform law that would make welfare a temporary 
system. But unlike TANF, the Family Support Act explicitly promoted 
education and training for long term economic self-sufficiency. Under 
the law's Job Opportunities and Basic Skills (JOBS) program, states 
could offer postsecondary education to welfare recipients as a job 
training option and also could adopt a two-year or four-year college 
option.
    Every state took advantage of this option. Two thirds of the states 
allowed AFDC recipients to pursue four-year college degrees and some 
states even developed strategies to actively encourage recipients to 
enroll in college; the remaining states permitted recipients the choice 
of a two-year degree (Gittell, Vandersall, Holdaway, and Newman, 1996). 
This short-lived federal program and the college option came to an end 
with the passage of the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996, which brought about TANF.
    As we know, the final TANF implementation regulations promulgated 
by the U.S. Department of Health and Human Services (DHHS) in April of 
1999 left states the flexibility and discretion to define each of the 
work activities allowed. Indeed, the state level policy makers and 
their constituents--again in their great wisdom--recognized the 
importance of postsecondary education to low income women striving for 
self-sufficiency, as 49 states and the District of Columbia currently 
allow some form of postsecondary education for TANF recipients. Of 
these, 11 states count postsecondary education as a work activity for 
12 months; 15 states count it as a work activity for 24 months; and 19 
states and the District of Columbia count it as a work activity for 
longer than 24 months. It is important to note that the majority of the 
states require that TANF recipients' education be linked directly to 
employment and self-sufficiency (Center for Women Policy Studies, 
2002).
    The TANF reauthorization bill introduced in January as the Personal 
Responsibility, Work and Family Promotion Act of 2005 (H.R. 240) 
ignores the TANF experiences of policy leaders in these states that 
have resoundingly rejected any attempts to bar welfare recipients from 
college campuses.
    This Congress now finds that TANF has been a success and resulted 
in a dramatic increase in employment of current and former welfare 
recipients. But, let us remind you that these changes have occurred in 
an environment where the college option has been in place since the 
late 1980s in most states, with the exception of some initial confusion 
about access to postsecondary education after the passage of TANF in 
1996. In fact, Maine's successful Parents As Scholars (PAS) program has 
served as a model, as at least four other states--Iowa, New Mexico, 
Vermont, and Wyoming--and the District of Columbia use their 
Maintenance of Effort (MOE) funds to provide relatively supportive 
environments for TANF recipients who are enrolled in postsecondary 
education programs (Center for Women Policy Studies, 2002). 
Additionally, in 2003 Senator Olympia Snowe (R-ME) introduced the PAS 
model at the federal level in an amendment to the Senate's welfare 
reform bill and in the ``Pathways to Self-Sufficiency Act''--
unfortunately, the Act did not pass.
    Whether policy makers seek to reform welfare in order to cut 
government spending for the poor and quiet taxpayers' concerns, or to 
move women from welfare to economic self-sufficiency and to strengthen 
their families, providing TANF recipients with access to higher 
education achieves both objectives.
    Therefore, we urge you not to repeal the states' flexibility to 
allow TANF recipients access to postsecondary education by limiting 
their ability to include education and training activities as 
``countable hours'' to only four months once every two years, and by 
increasing their work participation requirements from 50 to 70 percent. 
Instead, we urge you to follow the lead of the majority of states that 
already allow postsecondary education to count as work, specifically 
those states that allow education and training activities to count for 
up to 48 months. We commend Senators Carl Levin (D-MI) and James 
Jeffords (I-VT) for their initiative (S. 141) to allow up to 24 months 
of vocational educational training to be counted as work activity, and 
recommend that Congress expand upon their colleagues' effort and extend 
the limit for all educational and training activities to 48 months.
    We can only hope and trust that the members of Congress will 
reconsider the destructive nature of the proposed policy, which would 
curtail participation in postsecondary education for TANF recipients 
and deny millions of women and children the ``American dream'' of 
economic prosperity.
    Thank you.

                             Sources Cited

     Boushey, H. & Rosnick, D. (2004). For welfare reform to work, jobs 
must be available. Washington, DC: Center for Economic and Policy 
Research.
     Carnevale, A.P., & Desrochers, D.M. (2002). The missing middle: 
Aligning education and the knowledge economy. Washington, DC: U.S. 
Department of Education, Office of Vocational and Adult Education. 
Retrieved June 25, 2004 from the World Wide Web: http://www.ed.gov/
about/offices/list/ovae/pi/hs/carnevale.doc.
     Center for Women Policy Studies. (2002). From poverty to self-
sufficiency: The role of postsecondary education in welfare reform. 
Washington, DC: Author.
     Center for Women Policy Studies. (2001). ``Clipping our wings '': 
The impact of welfare reform on the college aspirations of low income 
women. Washington, DC: Author.
     Family Welfare Research and Training Group. (2002). The Impact 
2000 Project: Final report. Baltimore, MD: School of Social Work, 
University of Maryland.
     Gittell, M., Gross, J., & Holdaway, J. (1993). Building human 
capital: The impact of postsecondary education on AFDC recipients in 
five states. New York: Howard Samuels State Management and Policy 
Center of City University of New York.
     Gittell, M., Vandersall, K., Holdaway, J., & Newman, K. (1996). 
Creating social capital at CUNY: A comparison of higher education 
programs for AFDC recipients. New York: Howard Samuels State Management 
and Policy Center of City University of New York.
     Kahn, P. & Polakow, V. (2000). Struggling to stay in school: 
Obstacles to postsecondary education under the welfare-to-work 
restrictions in Michigan. Ann Arbor, MI: Center for the Education of 
Women, University of Michigan.
     Karier, T. (1998). Welfare graduates: College and financial 
independence. Annandale-on-Hudson, NY: The Jerome Levy Economics 
Institute.
     Kates, E. (1999). Public assistance and workforce development: The 
growing divide. Waltham, MA: Welfare Education Training Access 
Coalition and Heller School, Brandeis University.
     Kates. E. (1991). Transforming rhetoric into choice: Access to 
higher education for low-income women. In Wolfe, L.R. (Ed). Women, 
work, and school: Occupational segregation and the role of education. 
Boulder, CO: Westview Press.
     Lewis, M., Schacher, S., & Simon P. (Eds). (2002). Empowering 
lives through education: Women and men overcoming welfare. Oakland, CA: 
Workforce Development/CalWORKS & EOPS/CARE Programs at Laney College.
     Loprest, P. & Zedlewski, S. (1999). Current and former welfare 
recipients: How do they differ? Washington, DC: The Urban Institute.
    Mathur, A., Reichle, J., Wiseley, C., & Strawn, J. (2002). 
Credentials count: How California's community colleges help parents 
move from welfare to self-sufficiency. California Community Colleges 
Chancellor's Office. Washington, DC: Center for Law and Social Policy.
     Mayfield, J. (2001). Fulltime higher education under TANF: Other 
states practices and policy options for Washington. Olympia, WA: 
Washington State Institute for Public Policy.
     Sherman, A. (1990). College access and the JOBS program. 
Washington, DC: Center for Law and Social Policy.
    Smith, R.J., Deprez, L. & Butler, S.S. (2002). Parents as scholars: 
Education works. Augusta, ME: Alliance for Family Success.
     U.S. Department of Commerce, Census Bureau. (2001). Years of 
school completed by people 25 years old and over, by age, race, 
household relationship and poverty status: 2000. Current Population 
Survey, March Supplement. Available at:http://www.census.gov/hhes.

                                 <F-dash>

Statement of Robert E. Wordlaw and Rose Karasti, Chicago Jobs Council, 
                           Chicago, Illinois
    The Chicago Jobs Council (CJC) and its 100+ members; community-
based organizations, advocates, and concerned individuals, work to 
ensure access to employment and career advancement opportunities for 
people in poverty. We submit this testimony on TANF reauthorization and 
the importance of education and skills training to employment and 
family success.
    CJC has a twenty-four year history of advocacy and collaboration 
with the Mayor's Office in Chicago; with Illinois' Departments of Human 
Services, Employment Security, and Commerce and Economic Opportunity; 
with legislators at the state and federal level, and with state and 
national partners like Women Employed and The Workforce Alliance, to 
shape policies and programs that promote local labor market employment 
for low-income individuals. CJC believes that living wage employment is 
the quintessential anti-poverty strategy. The pathway to family-
sustaining jobs must be paved with education and training opportunities 
throughout one's lifetime which prepare workers for real employment 
opportunities in a changing labor market. When the traditional 
educational system fails to engage or prepare young people for careers, 
particularly in poor communities, or cannot accommodate the needs of 
special populations, other avenues to skills development are essential 
and must be available.
    In 1996 and again in 2002, federal decision-makers purported to be 
interested in family well-being and family independence when they 
passed welfare legislation which tied government assistance for needy 
families to work mandates and marriage goals. The success of the new 
Temporary Assistance for Needy Families (TANF) program has largely been 
measured by caseload reduction and earnings growth among single heads 
of household. By these measures Illinois is ranked near the top among 
states. But Illinois' huge reduction in caseload does not mean families 
who left the rolls have jobs to sustain them. In fact, the fourth 
annual report of the Illinois Families Study documents that 43% of this 
sample population of TANF recipients is neither working nor receiving 
TANF.\1\ Another Illinois study of the TANF caseload revealed that only 
30% found or retained thirty or more hours of work.\2\ And what do we 
know about wages? Ninety percent of those working live below the 
federal poverty level. Only six percent have good jobs (jobs that pay 
$8 or more/hr., offer benefits, and are day shift and not temporary or 
seasonal).\3\
---------------------------------------------------------------------------
    \1\ Lewis, Dan A., Laura B. Amsden, Emily Collins. 2004. The Two 
Worlds of Welfare Reform in Illinois. Illinois Families Study, Fourth 
Annual Report. University Consortium on Welfare Reform. July.
    \2\ Fraker, Thomas, Kirby, Gretchen, Kovac, Martha, Pavetti, 
LaDonna. 2003. ``Families on TANF in Illinois: Employment Assets and 
Liabilities'' Washington, D.C. Mathematica Policy Research, Inc. June.
    \3\ Ibid.
---------------------------------------------------------------------------
    Indeed, there is an urgency to take welfare reform to a next stage. 
Previous proposals from the Bush Administration and House Republicans, 
however, undermine the most effective state strategies to transition 
individuals from welfare to work and to keep them working. Moreover, 
the legislation ignores the reams of research which identifies the 
characteristics and needs of the remaining TANF and low-income 
population, and the realities of state and local economies. The House 
of Representatives must do better and prevail in passage of welfare 
legislation that ensures basic family well-being and promotes real 
employment success. The remainder of our testimony will provide details 
on the TANF population's workforce potential, the importance and 
benefit of education and skills training, and the misguided mandate for 
a 40 hour work requirement.
Disadvantaged Workers and the Labor Market
    The Aspen Institute reports that the projected growth of the 
native-born workforce over the next 20 years will be zero percent, and 
that immigrants must fill this worker void. In this same period, the 
projected gains of workers with post-high school education will be 4% 
compared to the previous growth level of 19% for the last 20 years.\4\ 
Yet, by 2013, more than 80% of the new jobs created in the United 
States will require some postsecondary education.\5\ Understanding 
these trends is essential to recognizing that we can have a skilled 
worker shortage at the same time as a national unemployment rate of 
5.2% and an Illinois unemployment rate of 5.8 %.\6\ States like 
Illinois have learned that adherence to a ``work first'' TANF program 
and work incentives like childcare and an earnings disregard program, 
cannot alone produce employment. Advances in technology, the changing 
labor market, the economic recession and slow recovery dictate what 
jobs are available. In Illinois, our state longitudinal study of TANF 
families reveals that the number of individuals in the sample 
population currently working is 48%, down from the 54% peak in the 
fourth quarter of 2001.\7\ In our state, nearly 1.4 million individuals 
and 484,000 children live below the poverty level.\8\
---------------------------------------------------------------------------
    \4\ The Aspen Institute Domestic Strategy Group. 2002. Grow Faster 
Together. Or Grow Slowly Apart: How Will America Work in the 21st 
Century?
    \5\ Center for Workforce Preparation. Rising to the Challenge: 
Business Voices on the Public Workforce Development System. Spring 
2003.
    \6\ Illinois Department of Employment Security statistic, January 
2005.
    \7\ Lewis et al. 2004.
    \8\ United States Bureau of the Census. Census 2003.
---------------------------------------------------------------------------
    Researchers Julie Strawn and Karin Martinson contend that those who 
remain on TANF, those who leave TANF without finding employment, and 
those who leave TANF and return to the rolls have low education and 
skill levels.\9\ In fact, research conducted by the Center for the 
Study of Adult Learning and Literacy revealed that 76% of TANF 
recipients tested in the lowest two levels of literacy and 35% scored 
in the lowest level.\10\ In Illinois, 44% of the TANF caseload lacks a 
high school diploma.\11\ The authors of the United States Department of 
Health and Human Services 2001 report Indicators of Welfare Dependence 
write, ``individuals with less than a high school education have the 
lowest amount of human capital and are at the greatest risk of becoming 
poor, despite their work effort. '' \12\
---------------------------------------------------------------------------
    \9\ Martinson, Karin, and Julie Strawn. 2002. ``Built to Last: Why 
Skills Matter for Long-Run Success in Welfare Reform.'' Washington, 
D.C.: Center for Law and Social Policy and the National Council of 
State Directors of Adult Education. May.
    \10\ Levenson, Alec R., Elaine Reardon, and Stefanie R. Schmidt. 
1999. ``Welfare, Jobs and Basic Skills: The Employment Prospects of 
Welfare Recipients in the Most Populous U.S. Counties.'' NCSALL Reports 
#10B. Boston: National Center for the Study of Adult Learning and 
Literacy. April.
    \11\ Fraker et al. 2003
    \12\ U. S. Department of Health and Human Services. 2001. 
Indicators of Welfare Dependence: Annual Report to Congress. CJC 
underline.
---------------------------------------------------------------------------
    Welfare research attests to welfare recipients' desire to work. 
It's skills that are needed. In the midst of a slow-growing economy and 
in the face of increasing competency levels demanded by vital employers 
in local and national economies, it falls to policy-makers to craft 
legislation that prepares TANF recipients to join the skilled workforce 
and ensure work supports like child care, transportation, medical 
insurance, and affordable housing to guarantee family and job 
stability. House Resolution 240 ignores the research and the 
recommendations of groups like the Welfare to Work Partnership, the 
National Governors' Association, The Workforce Alliance, and the 
Chicago Jobs Council when it promotes higher participation rates, 
narrower definitions of work activity, arbitrary restrictions on 
education and training, and the continuing exclusion of immigrants from 
TANF services.
A House TANF bill must:

    <bullet>  encourage a ``mixed strategy'' approach to family 
independence that combines education and work,
    <bullet>  include a broad definition of allowable work activities 
to satisfy work requirements and prepare all job-seekers to meet local 
labor demands, and
    <bullet>  invest substantially in work supports to realize lasting 
family and program success.
Skills Training Does Work
    In 2002 the Workforce Alliance published Skills Training Works: 
Examining the Evidence. This document challenges interpretations of the 
research frequently used to defend a work first (and only) policy and 
discusses research policy-makers may also find informative. Authors of 
this report contend that a more comprehensive look at existing 
research, including the three government-sponsored studies often cited, 
show that: 1) training programs serving low-income adults document 
earnings impacts of 10 to 156% beyond what similar job seekers gained 
without training or with job search services only, 2) low-income 
participants in skills training programs are more likely to access jobs 
with greater employer-provided benefits than non-participants, and 3) 
those who graduate from training programs work more regularly than they 
did prior to training, and more consistently than those who do not 
receive training.\13\ In fact, 60 % of the California Greater Avenues 
to Independence (GAIN) evaluation participants from its most successful 
site, Riverside County, received education and training prior to 
entering the labor market.\14\ And the most successful site in the 
National Evaluation of Welfare-to-Work Strategies (NEWWS) study, 
Portland JOBS, engaged almost half of their participants in education 
and training activities achieving significant acquisition rates of 
trade licenses or certificates, and post-secondary education 
credentials in addition to GED attainment.\15\
---------------------------------------------------------------------------
    \13\ Smith, Whitney, Jenny Wittner, Robin Spence, and Andy Van 
Kleunen. 2002. Skills Training Works: Examining the Evidence. The 
Workforce Alliance. September.
    \14\ Ibid.
    \15\ Hamilton, Gayle, Stephen Freedman, Lisa Gennetian, Charles 
Michalopoulos, Johanna Walter, Diana Adams-Ciardullo, Anna Gassman-
Pines. 2001. National Evaluation of Welfare-to-Work Strategies. 
Washington, D.C. Manpower Demonstration Resource Corporation for the U. 
S. Department of Health and Human Services and the U. S. Department of 
Education.
---------------------------------------------------------------------------
    Communities with a vision for their workforce and commitment to the 
most disadvantaged job seekers have developed other successful 
education and training programs. Research on transitional jobs 
programs, which combine support, vocational training, and work and 
target hard-to-place populations, show strong results. Eighty-one to 94 
percent of program completers have been placed in unsubsidized 
jobs.\16\ And ``bridge'' programs, like those at Chicago's Westside 
Technological Institute and the Instituto del Progreso Latino, create 
education and training pathways linking individuals with low literacy 
or English proficiency to basic skills, vocational training and 
advanced certification programs.\17\
---------------------------------------------------------------------------
    \16\ Hill, Heather, Gretchen Kirby, and LaDonna Pavetti. 2001. 
``Transitional Jobs Programs: Stepping Stones to Unsubsidized 
Employment.'' Mathematica Policy Research, Inc.
    \17\ Braza, Mark. 2001. ``Employment Outcomes of Chicago 
Manufacturing Technology Bridge Graduates.'' Submitted to the Great 
Cities Institute, University of Illinois, Chicago. January.
---------------------------------------------------------------------------
    Education and skills training is a proven anti-poverty strategy. 
The U. S. Census Bureau reported that every level of educational 
attainment produces earnings gains of $2000 to $45,000 dollars.\18\ 
Additionally, research demonstrates that ``the higher a family's 
income, the better children will do on ability measures and achievement 
scores and the more likely they are to finish high school.'' \19\ Even 
if our only interest is reducing family dependence on government 
assistance, we are frugal to make education and skills training 
available to TANF recipients. But if we keenly understand that job 
skills are essential to family well-being and community economies then 
a commitment to policies that provide opportunities and resources for 
education and skills training is wise, far-sighted, and financially 
responsible. With increases in participation rates and work hours, even 
narrower restrictions on allowable work activities, and unrealistic 
limits on education and skills training H. R. 240 forces states to 
dismantle welfare-to-work strategies of greatest impact.
---------------------------------------------------------------------------
    \18\ Day, Jennifer Cheeseman and Eric C. Newburger. 2002. ``The Big 
Payoff: Educational Attainment and Synthetic Estimates of Work-Life 
Earnings.'' Current Population Reports. U. S. Census Bureau. July.
    \19\ Lyter, Deanna. 2002. citing Mary C. Corcoran, 1995. ``Rags to 
Riches: Poverty and Mobility in the United States.'' Annual Review of 
Sociology 21:237-267 and Greg J. Duncan, W. Jean Yeung, Jeanne Brooks-
Gunn, and Judith R. Smith. 1998. ``How Much Does Childhood Poverty 
Affect the Life Chances of Children?'' American Sociological Review 63 
(June): 406-423. ``Education and Job Training Build Strong Families.'' 
IWPR Publication # B238. Institute for Women's Policy Research. April.
---------------------------------------------------------------------------
A House TANF bill must:

    <bullet>  eliminate arbitrary time limits on education and training 
activities,
    <bullet>  eliminate the 30% cap on the number of recipients engaged 
in education and skills training,
    <bullet>  allow a broad range of education and skills training to 
count as work activities, and
    <bullet>  offer incentives and rewards to states which develop 
transitional jobs programs and skills training for low-income job 
seekers targeted to labor market needs and higher wage placements.
Misguided Mandates
    The Center for Law and Social Policy has determined that 40 states 
currently allow postsecondary training or education services that would 
not be countable under H.R. 4, a previous welfare bill similar to the 
recently proposed H.R. 240.\20\ Additionally, it is expected that 
states will have to cut these most innovative and effective services 
and redirect resources to create and monitor ten additional hours of 
activity for the 52% of TANF recipients who were engaged in work-
related activities that would not meet the new federal threshold.\21\ 
The increased work requirement, in addition to higher participation 
rates, place families with significant barriers to work far down the 
priority list for state services and renders them targets of diversion, 
sanction, termination, and destitution. A study of TANF applicants in 
Illinois revealed that 35% of those who could not comply with work 
requirements were not working, not living with an employed adult, and 
not receiving TANF benefits.\22\ These are families that need our 
services and our commitment most.
---------------------------------------------------------------------------
    \20\ Center for Law and Social Policy. 2002. ``Forty States Likely 
to Cut Access to Postsecondary Training or Education Under House-Passed 
Bill.'' Washington, D.C. June.
    \21\ The National Governors Association and the American Public 
Human Services Association. 2002. Welfare Reform Reauthorization: State 
Impact of Proposed Changes in Work Requirements, April 2002 Survey 
Results. Washington, D.C. April.
    \22\ Maximus, Inc. 2002. Illinois TANF Applicant Study. Reston, VA. 
Prepared for the State of Illinois Department of Human Services. May.
---------------------------------------------------------------------------
    Administration-backed proposals like H.R. 240 purport flexibility 
and an awareness of the need for barrier remediation with allowances of 
16 hours per week for other activities and a 3 month time frame for 
job-related education and training. The Chicago Jobs Council completed 
a simple analysis of Workforce Investment Act (WIA) certified training 
programs in three Illinois cities: Dixon, Aurora, and Chicago, to shed 
some light on the misconceptions upon which these mandates are 
built.\23\ Welfare recipients and other low-income job seekers in these 
Illinois cities cannot readily get the education and training they need 
in hours outside the proposed 24 hours of priority work activity or 
within a 3 month time frame recommended by the House bill. Our findings 
show:
---------------------------------------------------------------------------
    \23\ Review of IDES data, 2003.
---------------------------------------------------------------------------
1) Few 3-month(or less) training programs are available.
    In Dixon only 14% of the training programs available could be 
completed in three months or less. In Aurora, a mere 5.7% could be 
completed in 3 months or less. In Chicago less than half (49.3%) could 
be completed within that time frame. It is important to note that those 
that require less than three months to complete are often one-week 
courses that will not provide adequate training leading toward family-
sustaining employment.
2) Even fewer training programs are accessible to low-skilled TANF 
        recipients.
    Of 120 WIA-certified training programs in Aurora and Dixon, none 
would accept a welfare recipient with a 6th grade proficiency level in 
reading. In Chicago, only 9% of training programs would accept someone 
with a 6th grade proficiency level in reading, and only 33% would 
accept someone with 9th grade reading ability. As previously stated, 
three, or even six months, of remedial education will not be all that 
is needed for low-skilled TANF recipients to secure and advance in 
employment.
3) Low-wage jobs don't accommodate education/training schedules.
    Most training programs in Dixon and Aurora offer part-time study 
options. In Chicago, however, nearly half (40%) of training programs do 
not offer part-time hours. It is important to note that working welfare 
recipients are most often employed in low-wage service industry jobs 
that do not offer consistent hours or the flexibility required to 
engage in a defined part-time training program. Service industry 
employees are increasingly dependent on a schedule that may change 
weekly, both in days worked and the number and sequence of hours 
employers demand for round-the-clock, peak season, profit-making 
operations.\24\ While many low-income workers would be interested in 
combining work and training in order to make a better life for their 
families, it is not always possible to do so.
---------------------------------------------------------------------------
    \24\ Lambert, Susan, Waxman, E, Haley-Lock, A. 2002. ``Against the 
Odds: A Study of Instability in Lower-Skilled Jobs.'' Working Paper of 
the Project on he Public Economy of Work. University of Chicago. 
January.
---------------------------------------------------------------------------
    In 2003, U. S. Department of Health and Human Services Secretary 
Tommy Thompson testified before the Senate Finance Committee that the 
next phase of welfare reform must ``help more welfare recipients 
achieve independence through work, promote strong families, empower 
States to seek new and imaginative solutions to help welfare recipients 
achieve independence, and show compassion to those in need.'' \25\ H. 
R. 240's mandates for more work hours, arbitrary restrictions on 
education and skills training, and unrealistic and uninformed work/
advancement/parenting expectations for low-skilled job seekers 
jeopardize the successes of states and welfare reform, and deny poor 
families access to living-wage work and greater family well-being.
---------------------------------------------------------------------------
    \25\ Thompson, Tommy. 2003. Statement before the Committee on 
Finance, United States Senate, by Tommy Thompson, Secretary, Department 
of Health and Human Services, on ``Welfare Reform: Building on 
Success.'' March.I77A House TANF bill must:

    <bullet>  maintain current work hour requirements,
    <bullet>  include a broad definition of allowable work activities 
to satisfy work requirements and prepare all job-seekers, including 
immigrants, to meet local labor demands,
    <bullet>  encourage a ``mixed strategy'' approach to family 
independence that combines education and work,
    <bullet>  eliminate arbitrary time limits and the cap on education 
and training activities,
    <bullet>  offer incentives and rewards to states which develop 
transitional jobs programs, ``bridge'' programs, and skills training 
for low-income job seekers targeted to labor market needs and higher 
wage placements, and
    <bullet>  invest substantially in work supports (child care, 
transportation, medical insurance, food stamps, affordable housing) to 
realize lasting family and program success.

                                 <F-dash>

          Statement of Carolyn Wylie, Children's Defense Fund

    Mr. Chairman and Members of the Subcommittee:
    The Children's Defense Fund (CDF) appreciates the opportunity to 
submit this testimony on H.R. 240. CDF is a private, non-profit 
organization with a more than 30 year history of advocating for 
children, particularly poor and minority children and those with 
disabilities. The mission of CDF is to Leave No Child Behind and to 
ensure that every child has a Healthy Start, a Head Start, a Fair 
Start, a Safe Start, and a Moral Start in life as well as successful 
passage to adulthood with the help of caring families and communities.
    The issue of welfare reform is of vital interest to CDF because of 
its importance as a social safety net for millions of American families 
with children. We believe Temporary Assistance to Needy Families (TANF) 
can be a potent force for enhancing child well-being in the lives of 
the millions of children who are currently living in poverty in America 
today. However, research clearly demonstrates that the best way to 
achieve this goal is through significant investments in work supports 
such as childcare, job training and education, and screening and 
treatment for barriers to employment. Therefore, we support:

    <bullet>  Increasing funding for child care so that all eligible 
families receive the child care for which they are eligible.
    <bullet>  Setting work requirements that allow maximum flexibility 
to achieve the job skills and training necessary to find and maintain 
well-paying jobs, and differentiates work hours for families with 
children under 6 years of age.
    <bullet>  Allowing states to use TANF funds to assist all legal 
immigrant families regardless of when they came into the state.
    <bullet>  Requiring states to uniformly screen for barriers to work 
and assess child well-being.
    <bullet>  Refraining from adopting a superwaiver policy as a way to 
achieve flexibility. Adopting sanctioning policies that acknowledge 
families' good faith efforts to meet requirements.
    <bullet>  Using the funds in the TANF block grant to meet the 
employment, child care and educational needs of families, rather than 
using it for unproven family formation and marriage promotion programs.

    We oppose diverting funding for essential services proven to lift 
families out poverty and utilizing those funds for untested marriage 
promotion initiatives.
Child Care/CCDBG
    For millions of parents, receiving child care assistance is 
essential for staying employed. For families receiving TANF benefits, 
child care assistance is critical in making the transition from welfare 
to employment. In order to effectively support these families and to 
help them remain in the workforce, the Child Care Development Block 
Grant (CCDBG) must be adequately funded to provide reliable, 
affordable, safe, high-quality care for children. Nationally, only one 
out of every seven eligible children is receiving child care 
assistance. It is extremely difficult for low-income parents to find 
child care options that are affordable and flexible enough to 
accommodate their employment. Thus, it is essential for states to have 
adequate federal funding to fulfill this crucial need and to meet the 
underlying purposes of this legislation--moving families from welfare 
into work, helping them to stay employed and improving child well-
being.
    However, H.R. 240 adds only $1 billion in additional mandatory 
child care funding over the next five years and to $2.4 billion in 
discretionary funding, which is subject to the appropriations process. 
The mandatory funding is particularly low given that last year there 
was bipartisan support for the Senate Snowe/Dodd amendment which 
provided an additional $6 billion in mandatory child care funding. In 
fact the Senate vote was 78 to 20 including the support of 31 
Republican senators. Because the discretionary child care program must 
compete on an annual basis for increasingly scarce federal money it is 
at risk of not being fully funded. Overall, the funding falls short of 
what is needed to ensure that states can meet the needs of both welfare 
recipients making the transition to work and low-income working 
families who are not receiving welfare.
    The Congressional Budget Office (CBO) has estimated that it would 
require $4.5 billion in child care funding over five years simply to 
compensate for the effects of inflation on the major child care funding 
streams and avoid a reduction in child care services. In addition, the 
CBO also estimated that the additional cost to states of meeting the 
work requirements in H.R. 240 would reach $2.9 billion in 2010 and 
total $8.3 billion over the 2006-2010 period.\1\ The current bill does 
not address the growing costs of child care related to inflation, nor 
the proposed cost increases in work requirements.
---------------------------------------------------------------------------
    \1\ Congressional Budget Office, Letter to the Honorable Jim 
McDermott regarding the potential additional costs that states could 
incur to implement the work participation requirements specified in 
H.R. 240 for those receiving Temporary Assistance for Needy Families 
(TANF). February 9, 2005.
---------------------------------------------------------------------------
    Most states have already reduced child care assistance for working 
families over the past few years due to tight budgets and the depletion 
or exhaustion of many states' surplus TANF funds. Both the Office of 
Management and Budget (OMB) and the CBO project that overall TANF 
spending by states will decrease over the next five years because 
states have been relying on the ever decreasing TANF reserves 
accumulated in prior years.\2\ According to the Government 
Accountability Office (GAO), states have already taken a variety of 
actions affecting their child care programs such as reducing income 
eligibility limits, instituting waiting lists, increasing the co-
payments for low-income families, reducing provider payments, and 
reducing funding dedicated to improving the quality of childcare.\3\
---------------------------------------------------------------------------
    \2\ Fremstad, S. State Fiscal Relief Funds Do Not Address the Need 
for Substantial Increases in Child Care Funding. Center on Budget and 
Policy Priorities, July 28, 2003.
    \3\ General Accounting Office, ``CHILD CARE: Recent State Policy 
Changes Affecting the Availability of Assistance for Low-Income 
Families,'' GAO-03-588, May 2003.
---------------------------------------------------------------------------
    By imposing increased work requirements, without adequate child 
care funding, states will be forced to make even deeper cuts in child 
care programs that will have profound effects on low-income families. 
These effects will be as extreme for many families as forcing them to 
choose between leaving their jobs and leaving their children in unsafe 
environments. It is unacceptable to put families in that position--we 
must not force families to make a choice between employment and the 
safety or well-being of their children. Federal policy should safeguard 
both the long-term self-sufficiency and employment of parents and the 
well-being of their children. Work requirements become punitive and 
counterproductive when there is inadequate child care funding to assist 
families in meeting those requirements, especially for single parents 
with children under six who are required by H.R. 240 to double their 
hours worked from twenty to forty hours per week.
    One change H.R. 240 makes is to give states authority to transfer 
more TANF funds to CCDBG, up to 50 percent from the current level of 30 
percent. This change will not help fill the gap created by inadequately 
funding this bill. Allowing states to transfer more money from an 
already inadequate source of funds will not fulfill the need for more 
child care funding. In fact, states can already spend TANF funds 
directly on child care and this bill reduces the barriers to direct 
expenditures. Currently, when states spend TANF money directly on child 
care for non-recipient families those funds are counted as TANF 
assistance with all the limitations associated with TANF. This bill 
removes that restriction by clarifying that TANF funds spent directly 
on child care do not count as TANF assistance. Because this bill will 
allow states to freely and directly spend TANF funds on child care, the 
ability to transfer more TANF funds to CCDBG is not an opportunity for 
more child care funding but is really just another empty promise for 
our children.
    Despite the $1 billion increase in mandatory child care funding in 
H.R. 240, hundreds of thousands of children in working families would 
lose access to child care because added work requirements will only 
increase the need. Ironically, low-income working families not 
receiving TANF but rely on support from CCDBG may be forced to turn to 
TANF because of the overall lack of child care funding.
Work Requirements
Hours/Week and Participation Rates
    H.R. 240 proposes to increase work requirements for families now 
required to work 30 hours per week to 40 hours per week. Single parents 
with children under six now required to work 20 hours per week would 
also be required to work 40 hours. Families must fulfill at least 24 of 
the 40 hours per week by engaging in one of the specified direct work 
activities and 16hours in other state defined activities. This bill 
also makes the participation rate uniform for all families and 
increases it by 5% each year from 50% currently up to 70% for fiscal 
year 2010 and for each year thereafter. These requirements raise 
serious concerns as the welfare policies proven to improve child well-
being are those that raise income and promote work by making work pay. 
Mandating across the board increases in work hours without commensurate 
increases in work supports simply increases the burden on families 
without providing them the necessary tools to meet the requirements.
    Research has shown that children do best when welfare to work 
programs provide a mix of services including cash supplements, job 
training and placement services, and supports like child care, job 
retention services, and transportation assistance.\4\ Helping parents 
overcome barriers can increase their chances of earning their way out 
of poverty and achieving greater independence. Increasing work 
requirements without adequate supports or services will not benefit 
parents, children, or society and will ultimately undermine the goal of 
moving people from welfare to work. CDF urges Congress not to increase 
work requirements to 40 hours, particularly without a significant 
increase in work supports.
---------------------------------------------------------------------------
    \4\ Hamilton, G., et al. (2001) ``Impacts of the Well-Being of All 
Children.'' How Effective Are Different Welfare-to-Work Approaches? 
Five-Year Adult and Child Impacts for Eleven Programs. Washington, 
D.C.: Department of Health and Human Services, Administration for 
Children and Families; Brooks-Gunn, J., Han, W., and Waldfogel, J. 
(2002) ``Maternal Employment and Child Cognitive Outcomes in the First 
Three Years of Life: The NICHD Study of Early Child Care.'' Child 
Development 73(4): 1052-1072.
---------------------------------------------------------------------------
    We are particularly concerned that under H.R. 240 single parents 
with children under six will no longer have a reduced work requirement. 
Recent research shows negative effects when mothers work during their 
child's first year of life, including lower Bracken School Readiness 
scores.\5\ In addition, negative effects for children are more 
pronounced when mothers worked 30 hours or more per week.\6\ Therefore, 
the proposed increase in work requirements poses significant risks to 
young children, especially when coupled with inadequate child care 
funding in the bill. Unless parents are able to find affordable, 
quality child care, single-mothers with young children will likely be 
forced to make difficult choices between working and obtaining quality 
care for their children.
---------------------------------------------------------------------------
    \5\ Brooks-Gunn, J., Han, W., and Waldfogel, J. (2002) ``Maternal 
Employment and Child Cognitive Outcomes in the First Three Years of 
Life: The NICHD Study of Early Child Care.'' Child Development 73(4): 
1052-1072; Morris, P., Duncan, G.J., and Clark-Kauffman, E.(2003) 
``Child well-being in an era of welfare reform: The sensitivity of 
transitions in development to policy change.'' New York, NY: Manpower 
Demonstration Research Corporation; Paxson, C., and Waldfogel, J. 
(2002) ``Work, Welfare, and Child Maltreatment.'' Journal of Labor 
Economics 20(3): 435-474.
    \6\ Brooks-Gunn and Waldfogel, 2002
---------------------------------------------------------------------------
Work Activities that Count Toward Federal Work Participation Rate
    States have used the flexibility provided by the caseload reduction 
credit and waiver provisions of current law to engage individuals with 
disabilities, mental impairments, substance abuse problems and other 
challenges in a set of rehabilitative activities that help move these 
individuals towards work and greater independence. H.R. 240 would limit 
states' ability to help families in this way.
    H.R. 240 only enables states to count rehabilitative activities 
towards the work requirements for three months. After three months, 
such activities count only if the person first engages in 24 hours of 
core work activities, defined as: subsidized or unsubsidized public or 
private employment, supervised work experience, supervised community 
experience, and on-the-job training. Many individuals with 
disabilities, mental impairments and substance abuse problems, 
especially those with multiple challenges, are unlikely to be to 
participate in 24 hours of core work activities after only three months 
of rehabilitative services. Unless states are provided more flexibility 
in determining what activities count towards the participation rate, it 
will be difficult for them to provide needed services.
    For example, the Vermont Vocational Rehabilitation Agency, working 
in conjunction with the state's TANF agency, recently assisted 109 
recipients with disabilities in achieving successful employment 
(defined as stable employment for 90 days). Less than 10 of these 109 
TANF recipients achieved successful employment within 3 months. Thus, 
if H.R. 240 were in effect, Vermont would have risked penalties 
offering these individuals services beyond three months and more than 
more than 100 of the 109 TANF recipients would have been unlikely to 
receive the services they needed to become successfully employed.
    Similarly, drug and alcohol treatment programs that serve women 
with children, including women receiving TANF assistance, frequently 
require more than three months of services. Successful programs often 
combine job training, parenting classes, education, and life skills 
training in their substance abuse treatment plans. These programs also 
include employment as part of the treatment plan to the extent a 
particular individual is ready to engage in work. Allowing individuals 
time to complete treatment is critical. An Oregon study showed that 
those who completed drug treatment received wages 65 percent higher 
than those who did not.
    The goal should be to help parents with disabilities, mental 
impairments, substance abuse problems and other challenges, obtain the 
help they need--for however long they need, as determined by the state 
and local agencies working together--to help them successfully move 
from welfare to work. Allowing states to receive credit for only a 
limited number of months of rehabilitative services will mean that some 
parents do not get the intensive help they need to succeed.
    CDF is also quite concerned that many of the families who are 
unable to obtain the services they need will end up in the child 
welfare system. Those families at greatest risk have challenges such as 
disabilities, mental impairments or problems with substance abuse.
    To truly help families move towards work and greater independence 
and to avoid harm to children, we encourage you to adopt the approach 
proposed by Senators Smith (R-OR) and Jeffords (I-VT) in the Pathways 
to Independence Act (S. 456).
Immigrant Eligibility
    Despite continuing bipartisan support in Congress for restoring 
legal immigrants' access to benefits, this bill retains its 
discriminatory restrictions on their eligibility for TANF programs. In 
2004, the Senate Finance Committee passed reauthorization bill had 
strong bipartisan support and provided states with the option of using 
TANF funds to assist legal immigrant families regardless of entry date. 
Proponents of this bill have repeatedly stated their intention to 
provide states flexibility in structuring their TANF programs, yet it 
is denying states the most basic flexibility to structure its program 
as it chooses by giving all its residents equal access to benefits. We 
urge you to restore benefits to all legal immigrants or to at least 
allow states the option to use TANF funds to assist legal immigrant 
families in their states regardless of entry date.
Waivers
    H.R.240 includes a proposal to establish a new, broad authority for 
the executive branch to grant states waivers of statutory and 
regulatory requirements for specified programs in order to create new 
demonstration projects to coordinate multiple public assistance, 
workforce development and other service delivery programs. Although we 
support the goal of improving coordination of low-income programs and 
making them more accessible, we disagree that this ``superwaiver'' is 
the most sensible or safe mechanism to achieve that goal. There are 
multiple risks involved in giving this authority to the executive 
branch and to states.
    One important risk of the ``superwaiver'' is that it would allow 
the executive branch and the states to make fundamental changes to the 
structure of low-income programs, including how funds are spent by 
these programs, without the input of Congress and outside of the normal 
legislative process. The ``superwaiver'' lacks the protections to 
prevent alterations in programs that could have far-reaching, 
detrimental consequences for the low-income population, especially 
children. Another risk is that the ``superwaiver'' could be used to 
undercut Congressional requirements about the level of state investment 
in federal-state programs.
    Superwaivers take away Congressional power, especially the power of 
authorizing committees like Ways and Means, by letting the 
Administration change the rules of programs on its own. The overall 
funding for low-income programs could decline because states could use 
``superwaivers'' to shift federal resources into areas previously 
funded with state resources thus allowing states to withdraw their 
funds from low-income programs. This supplantation could have dramatic 
ripple effects for low-income families and children.
    The ``superwaiver'' goes far beyond what is needed to address 
coordination problems among various low-income programs and we strongly 
urge you to seek other approaches that will not put low-income programs 
at risk.
Screening for Barriers to Employment
    H.R. 240 eliminates the current law requirement for states to 
conduct initial assessments of recipients' skills, prior work 
experience, and employability and makes those assessments optional for 
states. The approach proposed by the Senate Finance Committee in 2003 
and 2004 would strengthen current law by adding screening for 
employment barriers and assessments of child well-being to the 
currently required initial assessments to allow a better understanding 
of the needs and capabilities of each family to help move them to self-
sufficiency. However, H.R. 240 takes a step in the opposite direction 
by making initial assessments optional. Personal assessments and 
screening are important tools to identify barriers in order to 
ascertain the best way to assist recipients achieve employability and, 
eventually, self-sufficiency. Without identifying existing barriers, it 
can be difficult if not impossible to identify the obstacles that a 
recipient is facing and to help them overcome those challenges. CDF 
strongly urges you to not only retain the current assessment 
requirement but to add screening for barriers.
Sanctions and Protections
    H.R. 240 includes punitive sanctions that reduce state flexibility, 
are overly harsh, and punish children. States are required to sanction 
families for failure to meet work requirements and to terminate all 
assistance to families, including their children, when parents do not 
meet program requirements, even if states would rather not adopt such 
harsh full-family sanction policies. Based on the current proposal to 
raise work requirements for all families without a commensurate 
increase in work supports such as child care, training, education, job 
placement, and transportation, it is possible that many families who 
are facing barriers to work will not be able to meet the work 
requirements.
    Research has shown that a large proportion of families that have 
been sanctioned face significant barriers to employment such as health 
problems and low basic skill levels or substance abuse problems.\7\ In 
fact one large study found that children in families that had been 
sanctioned generally had higher rates of serious behavioral and 
emotional problems than children in other TANF families.\8\ Therefore, 
families may face these arbitrary and harsh sanction policies without 
states having the option to adopt less stringent policies or the option 
of providing additional services. Families that lose TANF assistance as 
a result of sanctions or time limits are more likely to experience 
hardship than other welfare leavers.\9\ State-level studies have found 
that families who lose cash assistance due to sanctions or time limits 
face serious material hardships including problems securing housing and 
food. One national survey found that mothers who left welfare after 
being sanctioned were more than three times as likely to have 
experienced material hardship--homelessness or eviction, hunger, or 
moving in with others--as mothers of infants who stayed on welfare.\10\ 
When researchers looked at the relationship between hunger and 
sanctioning, they found that sanctioned mothers were more than six 
times as likely as mothers staying on welfare to have experienced 
hunger.\11\ These studies show that sanction policies can lead to real 
hardship for many low-income parents and children.
---------------------------------------------------------------------------
    \7\ Pavetti, L. Review of Sanction Policies and Research Studies, 
Mathematica Policy Research, Inc., March 2003.
    \8\ Chase-Lansdale, L., Levine-Coley, R., Lohman, B.J., and 
Pittman, L.D. ``Welfare Reform: What About the Children?'' 2002.
    \9\ Reichman, N.E., Teitler, J.O., and Curtis, M.A. ``Hardships 
Among Sanctioned Leavers, Non-Sanctioned Leavers, and TANF Stayers.'' 
Center for Research on Child Wellbeing, Working Paper #03-17-FF, 
December 2003; Cook, J., Frank, D., Berkowitz, C., Black, M., Casey, 
P., Cutts, D., Meyers, A., Zaldivar, N., Skalicky, A., Levenson, S., 
and Heeren, T. 2002. ``Welfare Reform and the Health of Young Children: 
A Sentinel Survey in Six United States Cities,'' Archives of Pediatric 
and Adolescent Medicine 156(7).
    \10\ Cook, et al., 2002.
    \11\ Reichman, et al., 2003.
---------------------------------------------------------------------------
    CDF urges you to reconsider these sanction policies and to instead 
adopt safeguards for families making good faith efforts to meet the 
requirements. The Feingold, Kennedy, and Landrieu Fair Treatment and 
Due Process Act of 2003 (S. 770) would have helped to ensure fair and 
non-discriminatory treatment for applicants and clients of state TANF 
programs. Among other provisions, this proposal would have enhanced 
sanction notification and due process protections for clients and 
improved access for translation services.
Family Formation and Marriage Promotion
    This bill proposes directing spending of up to $1.6 billion federal 
and state money on marriage promotion at the same time efforts to 
increase funding for basic income supports with proven effectiveness 
such as transitional jobs and childcare have been opposed, defeated, or 
underfunded on the grounds that they are not necessary and that there 
are not enough funds available. Any funds available should be spent on 
proven programs that will most directly benefit children.
    On May 13, 2004 CDF submitted testimony on the impact on children 
of proposed federal marriage initiatives to the Senate Committee on 
Commerce, Subcommittee on Science, Technology and Space title ``Social 
Science Data on the Impact of Marriage and Divorce on Children\12\'' We 
believe that on its own, marriage is unlikely to pull substantial 
numbers of people out of poverty. In fact, research suggests that 
marriage has limited utility in this regard. Even if all fathers not 
currently living with their children and their children's mother were 
reunited, the overall child poverty rate would still be two-thirds of 
what they are now.\13\ Marriage, while potentially economically 
beneficial, would not end the majority of child poverty.
---------------------------------------------------------------------------
    \12\ http://www.childrensdefense.org/familyincome/welfare/
testimony_on_marriage_initiatives.pdf
    \13\ Hernandez, D.J. (1993). America's Children. New York: Russell 
Sage Foundation
---------------------------------------------------------------------------
    Therefore, prior to spending large sums of money on unproven, 
potentially unsafe marriage promotion programs that have not been 
rigorously evaluated, Congress should invest in programs that will 
increase the economic and educational status of Americans living 
poverty. The Administration and Congress assert that the over-arching 
purpose of marriage promotion programs is to improve the well-being of 
American children who are living in poverty. Given that it is clear 
that marriage promotion is not the most consistent and proven direct 
path to reach this goal, we urge you to ensure that adequate 
investments have been made to meet the employment, child care and 
education needs of single parents before investing scarce federal 
resources in this unproven method.
Conclusion
    TANF provides a vital social safety net for millions of people 
living in poverty, especially for the growing number of children in 
poverty. Extensive research demonstrates that children in low-income 
families are at risk for low cognitive achievement, behavioral 
problems, and health problems.\14\ TANF policies can lead to positive 
effects for children when they increase family income and are combined 
with adequate work supports. One recent study finds that positive 
effects for elementary school children that are more pronounced when 
programs have generous earnings supplement policies and work support 
programs than programs without them.\15\ Other research shows positive 
effects for preschool and early school-age children in programs with 
work supports, but only in programs that increased both employment and 
income.\16\ Reforms with work mandates but few supports, including few 
wage and childcare subsidies for working mothers, appear to be 
significantly less beneficial than programs with work supports.\17\ In 
addition, reforms with positive effects on children tend to operate 
more through changes outside the family--such as in quality child care 
and after-school programs.\18\ Thus, child outcomes improve when family 
income increases, when children are placed in high-quality child care 
programs, and when adequate work supports accompany employment.
---------------------------------------------------------------------------
    \14\ Brooks-Gunn, Jeanne, Greg J. Duncan. 1997. ``The Effects of 
Poverty on Children.'' Children and Poverty 7(2): 55-71; Yeung, W. 
Jean, Miriam R. Linver, and Jeanne Brooks-Gunn. 2002. ``How Money 
Matters for Young Children's Development: Parental Investment and 
Family Processes.'' Child Development 73(6): 1861-1879.
    \15\ Morris, et al., 2003.
    \16\ Morris, Pamela A., Aletha C. Huston, Greg J. Duncan, Danielle 
A. Crosby, and Johannes M. Bos. 2001. ``How Welfare and Work Policies 
Affect Children: A Synthesis of Research.'' New York, NY: Manpower 
Demonstration Research Corporation
    \17\ Duncan, Greg, and P. Lindsay Chase-Lansdale. 2001. ``Welfare 
Reform and Child Well-being.'' JCPR Working Papers 217, Northwestern 
University/University of Chicago Joint Center for Poverty Research
    \18\ Duncan and Chase-Lansdale, 2001.
---------------------------------------------------------------------------
    CDF supports:

    <bullet>  Increasing funding for child care so that all eligible 
families receive the child care for which they are eligible.
    <bullet>  Setting work requirements that allow maximum flexibility 
to achieve the job skills and training necessary to find and maintain 
well-paying jobs, and that differentiate work hours for families with 
children under 6 years of age.
    <bullet>  Allowing states to use TANF funds to assist all legal 
immigrant families regardless of when they came into the county.
    <bullet>  Requiring states to uniformly screen for barriers to work 
and assess child well-being.
    <bullet>  Refraining from adopting a ``superwaiver'' policy that 
creates substantive risks for families.
    <bullet>  Adopting sanction policies that acknowledge families' 
good faith efforts to meet requirements and give states demonstration 
with sanction policies.
    <bullet>  Using the funds in the TANF block grant to meet the 
employment, child care and educational needs of families, rather 
diverting them for unproven family formation and marriage promotion 
programs.

                                 <F-dash>

Statement of Sharon McDonald, Consortium for Citizens with Disabilities

    The Consortium for Citizens with Disabilities (CCD) is a coalition 
of approximately 100 national consumer, advocacy, provider and 
professional organizations headquartered in Washington, DC. We work 
together to advocate for national public policy that ensures the self 
determination, independence, empowerment, integration and inclusion of 
children and adults with disabilities in all aspects of society. The 
CCD TANF Task Force seeks to ensure that families that include persons 
with disabilities are afforded equal opportunities and appropriate 
accommodations under the Temporary Assistance for Needy Families block 
grant.
    We believe that many individuals with disabilities receiving TANF, 
or those parents caring for a child with a disability, can successfully 
move from welfare to work if the appropriate supports and policies are 
in place. In a report issued in 2001, the National Council on 
Disability stated: `` `Every American should have the opportunity to 
participate fully in society and engage in productive work. 
Unfortunately, millions of Americans with disabilities are locked out 
of the workplace because they are denied the tools and access necessary 
for success.' President George W. Bush, New Freedom Initiative at p. 
18, (Feb. 2001), www.whitehouse.gov/news/freedominitiative/
freedominitiative.html. For many people with disabilities, TANF, if 
appropriately designed, could provide the tools and access needed to 
unlock doors to opportunity, productivity, and economic self-
sufficiency.'' \1\
---------------------------------------------------------------------------
    \1\ National Council on Disability, TANF and Disability, Importance 
of Supports for Families with Disabilities in Welfare Reform, March 14, 
2003, available at: http://www.ncd.gov/newsroom/
publications.familysupports.html.
---------------------------------------------------------------------------
    It is important for federal and state policy makers to recognize 
how many people now receiving services through state TANF programs have 
disabilities. The General Accounting Office found that 44 percent of 
parents receiving TANF had at least one physical or mental health 
impairment, three times higher than the rate of such impairments among 
adults not receiving TANF benefits.\2\ This confirmed earlier findings 
from the Urban Institute and others.\3\
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Welfare Reform: Former TANF 
Recipients with Impairments Less Likely to be Employed and More Likely 
to Receive Federal Supports, (GAO-03-210), December 2002, available at 
http://www.gao.gov.
    \3\ Sheila R. Zedlewski, Work Activity and Obstacles to Work Among 
TANF Recipients, Urban Institute, Series B, No. B-2, September 1999, 
http://www.urban.org/UploadedPDF/anf_b2.pdf. For a discussion of 
numerous studies that have reported on the status of parents with 
disabilities in state TANF programs, see Eileen P. Sweeney, Recent 
Studies Indicate that Many Parents Who are Current or Former Welfare 
Recipients Have Disabilities or Other Medical Conditions, Center on 
Budget and Policy Priorities, February 2000, http://www.cbpp.org/2-29-
00.htm. See also, Heidi Goldberg, Improving TANF Program Outcomes for 
Families with Barriers to Employment, Center on Budget and Policy 
Priorities, January 2002, http://www.cbpp.org/1-22-02tanf3.htm.
---------------------------------------------------------------------------
    Studies show that parents on TANF have mental impairments such as 
severe depression, general anxiety disorder, post-traumatic stress 
disorder, learning disabilities, and mental retardation, as well as 
physical impairments and brain injuries. These impairments can make it 
difficult for a parent to work or to understand and comply with state 
rules. Many families have multiple barriers to work, one or more of 
which is a disability or health condition.\4\ In many instances, 
parents would like to work but will need intensive supports and 
services if they are to succeed. Some examples of these supports 
include training and education designed to take into account the 
person's disability, counseling, substance abuse treatment, on-the-job 
supports, child care and transportation. For some, full-time work may 
be the long-term goal, but there will need to be numerous smaller steps 
taken over time before such a goal can be reached. For others, part-
time work in a supportive setting may be the ultimate goal.
---------------------------------------------------------------------------
    \4\ Sandra Danziger, Mary Corcoran, Sheldon Danziger, et al., 
Barriers to Employment of Welfare Recipients, University of Michigan 
Poverty Research and Training Center, February 2000, http://
www.ssw.umich.edu/poverty/pubs.html.
---------------------------------------------------------------------------
    Some states are taking positive steps to assist people with 
disabilities in their TANF programs. A number of states, including 
Iowa, Utah, Oregon, Tennessee, Vermont, and some counties in Colorado, 
have developed partnerships to address the needs of individuals with 
disabilities and help move them from welfare to work. Such partnerships 
often include TANF agencies, vocational rehabilitation, workforce 
investment, and local business and community groups. To adequately help 
families that include a person with a disability requires a great 
amount of flexibility in developing the programs that help individuals 
with disabilities achieve self-sufficiency.
    Under current law, states have the flexibility--either due to a 
waiver or the caseload reduction credit--to ensure that a parent with a 
disability, including a substance abuse problem, receives the 
rehabilitative services she needs in order to move towards work. In 
recent years, more states have used this flexibility as they became 
aware that some parents require more specialized help to successfully 
enter the workforce and maintain employment.
    Under H.R. 240, the amount of time states could count 
rehabilitative services as meeting the full work requirement would be 
capped at three months. Under this proposal, after three months, states 
could count the hours an individual participated in rehabilitative 
services as meeting the work requirements only if the individual also 
completed 24 hours of countable work activities each week. Many parents 
with disabilities will be unable to meet the 24 hour threshold of 
countable work activities despite their best efforts and the commitment 
of states.
    These restrictions are likely to be counter-productive for many 
families who will require more time to successfully prepare to enter 
the workforce and will likely discourage states from designing programs 
that meet the needs of those with the most severe barriers.
    The CCD TANF Task Force recommends that Congress take the following 
steps to ensure that parents with disabilities and parents caring for 
children with disabilities are able not only to fully benefit from the 
TANF program but also are not harmed by policies that fail to take into 
account the impact of their disabilities on their ability to comply 
with program rules:
    1. Allow states to count participation in rehabilitative services 
as meeting work requirement for more than three months if the TANF 
recipient is progressively increasing participation in core work 
activities.
    We urge the Committee to consider adopting provisions similar to 
that of an amendment co-sponsored by Senators Smith, Jeffords, Chafee, 
Collins, Rockefeller and Landrieu in the 108th Congress that would have 
amended provisions in the Personal Responsibility and Individual 
Development for Everyone (PRIDE) Act. PRIDE was the TANF 
reauthorization proposal approved by the Senate Finance Committee in 
the last Congress. Due to other unrelated issues, this amendment was 
not considered. We urge both Houses to consider it and include it in 
their TANF reauthorization legislation in 2005.
    The Senate's PRIDE Act would have allowed states to count 
rehabilitative services as a work activity for up to six months, as 
long as some core work activity is combined with the rehabilitation 
services during the second three-month period. The proposed amendment 
would have extended this to allow states the option of counting 
individuals participating in rehabilitative services beyond six months, 
as long as the individual also continues to participate in at least 
one-half of the required core work activity hours.
    Extending rehabilitation services beyond six months would allow 
states to create a progression of work activity combined with 
rehabilitative services over time that will assist in moving a family 
from welfare to work at a pace that will lead to success for a family 
that includes a person with a disability. The amendment also encourages 
states to develop collaborative relationships with other governmental 
and private agencies with expertise in disability determination or 
designing appropriate service plans for people with disabilities.
    As noted earlier, the House bill only permits states to count three 
months of participation in rehabilitative services as work activity. We 
prefer the Senate Finance Committee's creation of a base period of six 
months, although that too is inadequate to address the needs of some 
individuals with disabilities including substance abuse. We urge both 
the House and Senate Committees to include in your legislation the 
provisions in the Smith-Jeffords amendment. The progression of 
increased work included in the amendment addresses the concern that 
TANF recipients in a pragmatic way that can result in more people with 
disabilities successfully moving off of TANF without the need to re-
cycle back onto TANF due to unsuccessful work attempts.
    2. Allow states to count as a work activity the time that the adult 
in the TANF family spends caring for a child with a disability or an 
adult relative with a disability.
    There are also children with disabilities in TANF families. The 
General Accounting Office reports that fifteen percent of families on 
TANF include a child with a disability; and eight percent of families 
on TANF include both a child and an adult with a disability. In 
contrast, only 3% of children in the general population have a 
disability and 1% of the families include both a child and an adult 
with a disability.\5\ The Manpower Demonstration Research Corporation 
(MDRC), studying TANF recipient families in four urban counties--Los 
Angeles, CA, Philadelphia, PA, Miami-Dade, FL, and Cuyahoga County, OH 
(Cleveland)--found that one-fourth of non-employed mothers receiving 
TANF had a child with an illness or disability that limited the 
mothers' ability to work or attend school.\6\
---------------------------------------------------------------------------
    \5\ U.S. General Accounting Office, Welfare Reform: Outcomes for 
TANF Recipients with Impairments, (GAO-02-884), July 2002, available 
at: http://www.gao.gov.
    \6\ Denise Polit, Andrew London, and John Martinez, The Health of 
Poor Urban Women: Findings from the Project on Devolution and Urban 
Change, Manpower Demonstration Research Corporation, May 2001, http://
www.mdrc.org/Reports2001/UC-HealthrReport-FullRpt2001.pdf. See also, 
Barbara W. LeRoy, Donna M. Johnson, Sharonlyn Harrison, Open Road or 
Blind Alley? Welfare Reform, Mothers and Children with Disabilities, 
Skillman Center for Children, Wayne State University, Occasional Paper 
Series 2000, No. 4, November 2000, http://
www.skillmancenter.culma.wayne.edu/OP%202000-4.pdf.
---------------------------------------------------------------------------
    It is very difficult to find safe, accessible, and appropriate 
child care for a child with a disability. This is often the case 
regardless of the family's income. In addition, the nature of some 
children's disabilities and health conditions means that parents are 
called from work regularly to assist a school with the child or to take 
the child to medical appointments--jeopardizing their ability to retain 
employment. Other TANF recipients are providing care for an adult 
relative who depends on them for that care. They face a serious dilemma 
when they are told they must work away from home but leave an elderly 
parent or other relative with a disability without the care they need 
to continue to live in the community.
    At the same time, there are many parents who are providing care to 
a family member with a disability who would like to maintain as much 
employment as they can or secure the training they will need to gain 
employment when they are no longer needed in the home to care for their 
family member.
    The Family and Community Protection Act (S. 6), introduced in the 
Senate, includes a provision that would allow states to receive work 
credit for the time that a parent spends caring for a child with a 
disability or adult relative, if the state has determined that that is 
the most appropriate way to secure needed care. The provision 
specifically states that it does not prevent a state from designing a 
plan with the parent that combines some amount of in-home care as work 
activity with other activities that will help the parent prepare to 
enter the workforce at a time that is appropriate in meeting the needs 
of the child or adult relative with a disability.
    In order to count such care, the state must determine that the 
child or adult has a significant physical or mental impairment or 
combination of impairments that has been verified through ``a medically 
acceptable clinical or laboratory diagnostic technique.'' The state 
must further find that, as a result of that impairment, the child or 
adult needs ``substantial ongoing care'' and that the TANF recipient is 
the most appropriate person to provide that care. Due to the caretaking 
responsibilities, the state must determine that the recipient is not 
able to participate fully in other work activities. In addition, the 
state will be required to conduct regular, periodic evaluations of the 
recipient's family to determine whether there is a continuing need for 
care provided by the recipient and include regular updates on this in 
the recipient's self-sufficiency plan.
    Providing work credit fits nicely into the concepts of universal 
engagement and of helping families to get the individualized plans they 
need so that they ultimately succeed. As it allows the state the 
flexibility necessary to tailor a plan that can evolve with the 
changing needs of the family, it can help facilitate the development of 
a family-centered helping relationship that may be non-existent when 
families are simply ``exempted'' and, perhaps, forgotten on the 
caseload rolls.
    3. Include provisions that protect families with barriers from 
unneccessary and inappropiate sanctioning.
    The 1996 law requires states to impose sanctions where a parent 
``refuses'' to comply with a state work requirement. Unfortunately, 
many of those who are being sanctioned cannot comply--they are not 
refusing to comply; they simply cannot because of a disability or other 
barrier, or may not even understand what is being required of them. 
Efforts to increase the number of hours of required work activity and 
states' overall work participation rates are likely to harm these same 
families. Without strong protections against inappropriate sanctioning, 
it is likely that the number of inappropriate sanctions will increase. 
Sanctions in TANF are associated with negative health consequences for 
very young children. Toddlers and infants (36 months and younger) have 
greater odds of experiencing food insecurity and hospitalizations if 
their family's welfare benefits have been terminated or reduced due to 
sanctions compared to those in welfare families whose benefits have not 
been reduced. Children in sanctioned families have a nearly 30% higher 
risk of hospitalization and a 50% higher risk of food insecurity than 
similar children in families who benefits had not been reduced.\10\ 
States should be required to have procedures that review a family's 
circumstances prior to the imposition of a sanction; determine whether 
additional assessments are needed (and secure them); determine whether 
there are services and supports the family needs before work can be 
required and whether modifications are needed to the requirements so 
that the family is better able to comply. Many states, including Maine, 
Tennessee, Iowa, Virginia, and Vermont, already do this.
---------------------------------------------------------------------------
    \10\ These findings are part of the Children's Sentinel Nutrition 
Assessment Program (C-SNAP), a joint effort of a number of medical 
institutions. The research on sanctions was conducted in six cities: 
Baltimore, Boston, Little Rock, Los Angeles, Minneapolis, and 
Washington, D.C. For more information, see http://dcc2.bumc.bu.edu/
csnappublic/Fact%20Sheet%2071402.htm.
---------------------------------------------------------------------------
    Finally, in closing, we have two additional concerns. First, we are 
very concerned that Congress not take any action that will result in 
less TANF funds being made available to states in the future. For 
states to think creatively about how best to assist a person with a 
disability or other significant barrier to successfully move to work, 
states are going to need the resources that will allow them to provide 
the person with whatever services and supports the person needs. Any 
actions which reduce the amount of the TANF block grant will mostly 
likely undermine the ability of states to assist people who require 
more intensive supports in order to work.
    Second, we are very concerned that proposals to increase the number 
of work activities per week required of parents and to increase states' 
work participation rates will increase the negative outcomes for people 
with disabilities in TANF-funded programs. Even under current law, many 
people with disabilities cannot meet the work rules. Any increase in 
the work requirement will onlycreate a new, even more insurmountable 
barrier. The TANF law should be designed to allow states to encourage 
parents to work for as many hours as they can, recognizing that the 
goal should always be independence and that, for some families, that 
goal will be reached by degree and, for a smaller number, will never 
mean they are meeting the full state work requirement. Independence--
not failure--should be the basis for all federal public policy 
including TANF reauthorization.
    The members of the Consortium for Citizens with Disabilities TANF 
Task Force concur with the findings of the National Council on 
Disability that ``[f]or many people with disabilities, TANF, if 
appropriately designed, could provide the tools and access needed to 
unlock doors to opportunity, productivity, and economic self-
sufficiency.'' \11\ We appreciate your attention to our concerns. We 
look forward to the opportunity to work with the Committee to address 
these essential questions in TANF reauthorization.
---------------------------------------------------------------------------
    \11\ National Council on Disability, March 14, 2003

---------------------------------------------------------------------------
                                 <F-dash>

 Statement of Frank J. Mecca, County Welfare Directors Association of 
                   California, Sacramento, California

    Thank you for the opportunity to submit testimony for the record 
nregarding Temporary Assistance to Needy Families (TANF) proposals 
being considered by the Subcommittee on Human Resources. The County 
Welfare Directors Association of California (CWDA) has been actively 
involved in the TANF reauthorization discussion over the past four 
years. We appreciate your comments regarding the success of welfare 
reform to date, and agree with the need to fully reauthorize TANF 
during the current session. This testimony sets forth our key 
priorities for TANF reauthorization and comments on some of the 
proposals contained in vehicles being considered by the subcommittee.
    The 58 counties that administer California's TANF program are proud 
of the job that we have done in implementing the 1996 federal welfare 
reform law and our authorizing state statutes. We have formed strong 
public-private partnerships at the local level, bringing together 
employers, community- and faith-based organizations, and the other 
local and state agencies that serve our participants. We have changed 
an entire culture, moving our staff from check-writers who adhere to 
strict processes into counselors who assist clients in moving from 
welfare to work. The way in which we use our state and federal funding 
has shifted from a focus on cash aid to a focus on supportive services 
such as child care, transportation, and skills training. Instead of 
speaking of ``entitlements,'' we speak of ``self-sufficiency.''
    Certainly, you are aware of the massive caseload reductions that 
have occurred in states across the nation since welfare hit its peak in 
the mid-1990s. The story is much the same in California; despite some 
caseload increases during the recent recession, our welfare rolls are 
still a fraction of what they used to be. A majority of those who are 
on the rolls are engaged in some activity, including a mix of work, 
education, training, and treatment. In California, we are also in the 
process of ensuring that every required participant has a welfare-to-
work plan in place.
    Despite these successes, our program faces numerous challenges. For 
California counties, as with states and counties across the country, 
one major challenge is to address and remedy the problems of families 
that are a long way from being ready to maintain stable employment and 
move off welfare, the ``multiple barrier'' families. Many of these 
families are engaged in work or other activities, but for less than the 
required number of hours. We have discovered over the past few years 
that many of these families include a disabled adult or child, a victim 
of domestic abuse, or in other situations that render them exempt from 
participation under California rules and who we believe should be 
exempt under the federal rules as well. This does not mean that we stop 
working with these families to get them engaged in appropriate 
activities; it is a recognition that the barriers for some are so great 
that expecting 32, 35, or 40 hours of work from them is unrealistic.
    Another major challenge is to assist displaced or underemployed 
workers who lost their jobs during the recent recession. In many areas 
of the state, unemployment rates soared during the past few years. A 
substantial percentage of those who recently entered the TANF program, 
or returned to the program after leaving due to employment, already 
have marketable skills but need temporary assistance, possible 
retraining, and supportive services to boost them back into the 
workforce.
    Your H.R. 240 and the Administration's proposal highlight child 
well being and strengthening of families as the over-all goal of TANF 
Reauthorization, a goal that we firmly endorse. Several policies 
adopted in California's CalWorks program exemplify those principles and 
serve as the framework for numerous ``family friendly'' programs and 
services provided by the counties.
    In addition, H.R. 240 improves flexibility in use of TANF funds, by 
allowing states to:

    <bullet>  spend prior-year funds carried over for non-assistance 
needs, as well as cash assistance;
    <bullet>  provide support services to non-working families, without 
counting it as assistance;
    <bullet>  encourage equitable treatment of two-parent families; and
    <bullet>  count some treatment activities as participation for a 
limited period of time.
FUNDING
    We appreciate your understanding that child care funding is a 
critical element of welfare reform, and recognize that the amount of 
funding contained in H.R. 240 represents an increase over last year's 
H.R. 4. It is vital to increase funding for child care services, in 
addition to preserving or increasing the funding available for all TANF 
purposes. CWDA supports additional funds for child care and encourages 
the creation of annual inflationary increases for the overall block 
grant.
    Funding for incentive programs and new initiatives, such as the 
healthy marriage and responsible fatherhood initiatives contained in 
H.R. 240, should not be carved out or set aside from the TANF block 
grant, but should be separately provided.
    CWDA also supports restoring federal benefits to immigrants who are 
lawfully present in the country.
FLEXIBILIITY
    Preserving the flexibility provided by the TANF law, the hallmark 
of California's welfare reform program, is critical. Our program has 
creatively and responsibly used the flexibility allowed under federal 
law to provide assistance and supportive services over a longer period 
of time, while making work pay more than welfare alone, in order to 
foster employment stability and long-term family self-sufficiency. We 
have enacted an earned income disregard that reflects the generally 
higher cost of living in the state and a ``child safety net'' that 
continues a reduced, child-only grant when parents reach their 60-month 
lifetime limit on aid. In addition to providing a basic level of 
subsistence for children, this safety net also enables counties to keep 
in touch with parents and provide additional services to support their 
work participation--an advantage that many states have recognized.
PERFORMANCE IMPROVEMENT INCENTIVES
    Nearly every TANF proposal would increase state participation rate 
requirements over time. We support the drive to take welfare reform to 
the next level and to hold states accountable for their performance. A 
increase in the participation rate requirement should be coupled with 
provisions that promote improvement over time by holding penalties in 
abeyance as long as states are making progress each year toward the 
required work participation rate. This would be consistent with the 
Employment Achievement Bonus contained in H.R. 240, which would replace 
the current high performance bonus.
EMPLOYMENT CREDIT
    We recommend that states receive credit for the numbers of 
recipients placed in full or part-time employment and those engaged in 
activities leading to work. Specifically, we support a credit structure 
that contains some or all of the following elements:

    <bullet>  Bases credit on the number of families employed while on 
assistance and after leaving assistance.
    <bullet>  Provides a larger credit for higher earnings and partial 
credit for part-time work.
    <bullet>  Gives states credit for using TANF funds directly for 
child care and transportation subsidies to working families.
    <bullet>  Enables states to receive credit for diverted individuals 
who are later employed.

    Rather than rewarding states for the number who leave the rolls for 
work, as with the existing caseload reduction credit, an employment 
credit would reward progress toward meeting participation rates. It 
would recognize job entry efforts of states such as California, where 
many families with an employed adult remain on assistance because of 
low wages and high cost of living. Partial credits for part-time 
engagement recognizes that for many multiple-needs families, part-time 
work coupled with other activities that meet their assessed needs is 
appropriate.
    As with the performance improvement incentives outlined above, the 
creation of a data-driven employment credit would be consistent with 
the Employment Achievement Bonus proposed in H.R. 240.
UNIVERSAL ENGAGEMENT WITHIN 60 DAYS
    H.R. 240 would require every family with a ``work eligible'' 
individual to have a family self-sufficiency plan in place within 60 
days of program entry. We appreciate the addition of a 12-month phase-
in period for those on aid at the time that the reauthorization 
legislation is enacted. However, we are concerned that this approach, 
coupled with a narrower definition of work that no longer specifically 
includes job search, may require revision of our ``work first'' 
approach that engages participants in an upfront test of the labor 
market.
    California already has enacted universal engagement requirements 
that we believe preserve the work first approach undertaken in our 
state. Specifically, counties are required to develop a welfare-to-work 
plan for every work eligible individual within 90 days of their entry 
into the program. If job search activities are initiated within the 
first 30 days after they enter the program, however, the 90-day period 
begins after the period of job search is completed. Those participants 
who find full-time work during that time are not required to develop a 
plan, enabling the counties to focus their efforts on those for whom an 
upfront test of the labor market is not successful.
    Counties have been working to implement these recently requirements 
since late 2004. In order to minimize disruption to clients and enable 
the effects of the state statute to be realized, we respectfully 
request that H.R. 240 be amended to allow states with universal 
engagement requirements already in place to meet the universal 
engagement requirement for TANF purposes.
    This is appropriate because our current approach allows a 
significant percentage of participants to secure unsubsidized 
employment within their first few weeks on aid. An initial, intensive 
period job search instructs recipients on the preparation of resumes 
and job applications and requires them to apply or interview for 
certain numbers of jobs each week. By the end of this period, those who 
are readily employable typically have found a job, and those who 
haven't found work are assessed further to determine what is holding 
them back. At that point, counties work to identify an individualized 
mix of activities that will move these participants into the workforce, 
and toward unsubsidized employment, as quickly as possible.
UNIVERSAL ENGAGEMENT PENALTIES
    We cannot support separate penalties for any of the process-based 
requirements under the TANF law, including the universal engagement 
provisions. Universal engagement should be treated the same as other 
elements of the TANF program that are incorporated into each state's 
federally required TANF plan, none of which have separate penalties. 
States should only face penalties for the primary outcome measure--work 
participation rates. The process-based elements of the program, 
including universal engagement, serve to assist states in meeting the 
work participation rate. If a state fails to sufficiency engage 
families, or to implement other processes required under the TANF law, 
it is likely to fall short of its work participation rate and thus face 
the substantial penalties that already exist.
WORK PARTICIPATION REQUIREMENTS
    We support efforts to increase participation in work and work 
activities; however, these efforts must maintain maximum flexibility 
for states and counties, recognizing the unique needs of families 
receiving TANF and the need to tailor services to meet those needs. 
Specifically, we believe that the federal law should set clear outcome 
expectations, and allow the states to determine the best means of 
meeting those goals.
    The proposed combination of phasing up the state participation rate 
to 70 percent, requiring 40 hours weekly of work and work-related 
activities, and generally limiting the activities that count toward the 
24 hours of work gives states less flexibility than under the current 
program. CWDA strongly recommends that states be allowed to retain 
their current minimum of work hours and the discretion to determine the 
mix of direct work and other activities that individuals need to 
perform. Job search and vocational education should remain a part of 
the definition of work.
    Eliminating separate work requirements for one and two-parent 
families supports the goal of stabilizing families and improving child 
well being, and it will simplify the tracking, case management, and 
reporting of the work participation requirements. Consistent with our 
recommendations above, we recommend that the current single-parent 
hours and work participation rate be used for both single-parent and 
two-parent families.
    We are concerned that in order to step up to more than 50 percent 
participation, and to meet he proposed 24/16 hour minimums, we would 
have to drop some of the support services that we now provide to 
working TANF families and to many less job-ready families. Without 
additional funding, case management staff and service resources would 
be drawn away from the current programs.
    California's existing 32-hour-per-week requirement for one-parent 
families engages recipients in the workforce with a mix of work, 
education, training, or treatment that is determined by the county in 
consultation with each participant. Although some participants work 
less than the federal weekly hours requirement, California's program 
allows working recipients to continue receiving a reduced grant and 
supportive services during and after their time on aid. Research on the 
Minnesota Family Investment Program, after which California's program 
is patterned, shows that a longer period of assistance, coupled with an 
emphasis on work and the provision of services to the family, leads to 
better outcomes for children and families.\1\
---------------------------------------------------------------------------
    \1\ Virginia Knox, Cynthia Miller, Lisa A. Gennetian (September 
2000). Reforming Welfare and Rewarding Work: A Summary of the Final 
Report on the Minnesota Family Investment Program. Manpower 
Demonstration Research Corporation and Minnesota Department of Human 
Services. Available online at http://www.mdrc.org
---------------------------------------------------------------------------
40-HOUR WORK WEEK
    We have significant concerns regarding the proposed increase to a 
40-hour work week. This represents a doubling of the requirement for 
single parents with a child under six, who represent about half of 
California's caseload. Many of the working parents on our caseload 
would have to take on multiple jobs or find other allowable work 
activities to meet a 40-hour-per-week requirement. Additionally, many 
large corporations, retail establishments, and small-business owners 
prefer to hire employees at less than 40 hours per week. A 40-hour 
requirement would thus make welfare recipients less competitive with 
respect to their non-welfare counterparts. For example, a welfare 
recipient who secured a job providing 30 hours a week, and did not have 
a need for substance abuse or mental health treatment or any other 
support or educational activity would have to find 10 hours of some 
other allowable work activity to fulfill the 40-hour total. Juggling 
this activity with their work schedule would make them more likely to 
miss work, jeopardizing their job and making them a less attractive 
hire than a person who was not receiving cash aid.
    More than 400 businesses, chambers of commerce, workforce experts 
and community leaders from across California signed on to a letter sent 
to members of the House and Senate in May 2003 urging the preservation 
of the existing work week. These organizations and individuals 
recognized that business owners expect their employees to be at work on 
time and complete their job duties without distractions or delays 
caused by scheduling conflicts, transportation difficulties, or other 
concerns.\2\
---------------------------------------------------------------------------
    \2\ Complete sign-on letter is available at http://www.cwda.org/
downloads/TANF-Letter.PDF.
---------------------------------------------------------------------------
COUNTABLE ACTIVITIES
    All current work activities, including job search and time-limited 
vocational education, should continue to count as work participation. 
For example, we have found that an upfront test of the labor market 
through a period of assisted job search is the best way to determine 
who is employable and who needs more in-depth services and training in 
order to find a job. Supportive services (ranging from child care and 
transportation to substance abuse and mental health treatment) are 
needed by most of the working TANF families and almost all of the 
families with severe or multiple barriers to employment.
    We appreciate your willingness to count barrier reduction 
activities toward the 40-hour requirement for three months in a 24-
month period. In recognition of the ongoing need for treatment to 
address many mental health and substance abuse issues and all-too-
common learning disabilities among our client population, we urge you 
to consider a counting these activities for a longer period of time. 
For example, states could be given the opportunity to extend the three-
month period for an additional three months if it is consistent with 
the individual's assessed needs and family self sufficiency plan.
    It is important to remember that many of those who remain on aid 
have little or no experience in the workforce. These adults do not know 
how to deal with the trials of daily life, let alone the requirements 
of TANF. They may have limited education or training, learning 
disabilities, poor English skills, mental illness, substance abuse 
problems, criminal records or current legal issues. Typically there is 
no reliable way to get from their homes to training programs, child 
care, or a job. They need a full range of basic supportive services.
    Over the past several years, counties have started creative 
programs, such as multidisciplinary clinical evaluation and treatment 
teams stationed at their welfare offices, specialized training for case 
workers in spotting potential barriers to employment and talking with 
the recipients about these issues, and intensive training in life 
skills that many of us would consider very basic, but that our 
recipients never learned. It has taken time to learn from the results 
of these attempts, to refine our approach, and to help our staff learn 
to use the tools they have been given to work with these extremely 
challenging recipients. We ask only that the federal TANF law support 
us in these efforts and support our clients in their efforts to gain 
these important skills and move into the workforce.
VOCATIONAL EDUCATION
    We have strong concerns regarding the proposed elimination of 
vocational education as a primary work activity, with a very narrow 
exception allowing work-related education or training to count as a 
primary activity for not more than three months in a 24-month period 
(four months under limited circumstances) to permit program completion. 
Many higher wage jobs require vocational training that lasts longer 
than four months, and many training programs are not available on a 
part-time basis. If a training program does happen to be available 
part-time, it would likely conflict with the part-time work schedule 
set by a person's employer.
    Stricter limitations on vocational training will create 
difficulties for employers and disadvantage TANF participants. 
Businesses seek out employees who are ready to work and have the skills 
to succeed. Employers want to hire workers who already have the skills 
or can complete the vocational education program within a short period 
of hiring. They will not hire a welfare recipient who has to complete 
needed skills education on a part-time basis over a year or longer.
    Restricting TANF recipients' access to vocational training will, 
for this significant pool of workers, result in a labor force that is 
less skilled and less desirable, both as potential hires and as 
candidates for career advancement. Therefore, we urge you to at least 
maintain the current ability of states to count up to 12 months of 
vocational training as participation. This will give employers a 
broader labor pool from which to choose and will enable TANF 
participants to compete for skilled jobs with the potential for 
advancement.
CHILD CARE
    Any change to work requirements would create significantly higher 
demand for supportive services, especially child care. The estimated 
additional child care costs in California due to the proposals 
contained in past House reauthorization vehicles ranged from $300 
million to half a billion dollars annually. The state already commits 
$3.2 billion each year, about half state and half federal funds, to 
child care subsidies for current and former welfare recipients and the 
working poor.
    If child care demand increases significantly, we will be unable to 
meet that demand and also provide the kind of case management and 
supportive services that will be needed to get recipients engaged in 
work and work activities. We are very concerned that some of the 
creative county-run programs that have made welfare reform a success 
would have to significantly scale back or even end as resources shift 
to more child care and monitoring of expanded work participation. For 
this reason, we encourage you to provide as much additional TANF 
funding for child care as possible in the final reauthorization 
legislation.
CONCLUSION
    The bottom line is: Let states decide the best way to put people to 
work, based on the research in the field and the successes they have 
already achieved. Replace the caseload reduction credit with a credit 
that better reflects how states and counties put people to work, while 
maintaining the current work week. Recognize the significant barriers 
that so many of our TANF families face, and let us work with them--on 
an individualized basis--to help them progress. Preserve at least the 
current funding level and provide new funds for any extra demands that 
the reauthorized program imposes, particulary child care. Provide 
states with incentives to improve over time, and the flexibility to 
achieve that improvement.
    Thank you again for the opportunity to present our views on TANF 
reauthorization. My colleagues and I were pleased to be part of the 
first stage of welfare reform and we are confident about moving 
California's program into the second stage with new TANF legislation. 
We remain ready to assist you as reauthorization legislation moves 
through the process.

                                 <F-dash>

     Statement of Esta Soler, Family Violence Prevention Fund, San 
                         Francisco, California

    As Congress considers reauthorization of the nation's welfare 
program, Temporary Assistance for Needy Families (TANF) it is 
imperative that any welfare bill consider the particular and often 
urgent needs of welfare recipients who are victims of domestic 
violence. Research demonstrates that domestic violence is prevalent 
among TANF recipients and that TANF is vital in helping women to escape 
abuse. Congress must ensure that TANF reauthorization address domestic 
violence and enhance the safety and self-sufficiency of all TANF 
recipients. Given the high numbers of TANF recipients who are victims 
of abuse, it is imperative that the TANF program make safety a primary 
concern and provide families, whatever their structure, the economic 
resources and options they need to provide for the well-being of all 
family members. In order to responsibly serve all welfare recipients, 
and particularly those who are victims of violence, Congress should:

    <bullet>  Support education and training for TANF recipients;
    <bullet>  Improve and expand the Family Violence Option; and
    <bullet>  Oppose programs that encourage women to get married as a 
means of escaping poverty.
High Rates of Domestic Violence among TANF Recipients
    Congress should not consider any new TANF policies, including the 
proposed marriage promotion program, without serious attention to the 
prevalence of domestic violence in the lives of TANF recipients. 
Violence is not an exception to the rule for poor women; it is a 
reality. Studies consistently show that at least 50 to 60 percent of 
women receiving welfare have experienced physical abuse by an intimate 
partner at some point during their adult lives, compared to 22 percent 
of the general population.\1\ One study of two California counties, 
Kern and Stanislaus, found that welfare recipients had lifetime abuse 
rates of 80 percent and 83 percent, respectively.\2\ Young mothers, 
many of whom are welfare recipients,\3\ are particularly at risk for 
domestic and sexual violence, with one study finding that 26 percent of 
new mothers between the ages of 13 and 17 experienced such violence in 
the three months after the birth of their children.\4\
---------------------------------------------------------------------------
    \1\ Tolman, Richard and Jody Raphael. 2000. A Review of the 
Research on Welfare and Domestic Violence, Journal of Social Issues 
56(4): 655-682. See also Lawrence, Sharmila. 2002. Domestic Violence 
and Welfare Policy: Research Findings That Can Inform Policies on 
Marriage and Child Well-Being. Research Forum on Children, Families, 
and the New Federalism. National Center for Children in Poverty, Issue 
Brief. See also Lyon E. 2000. Welfare, Poverty and Abused Women: New 
Research and Its Implications. Policy and Practice Paper #10. Building 
Comprehensive Solutions to Domestic Violence. National Resource Center 
on Domestic Violence. Harrisburg, PA.
    \2\ Meisel, Joan; Daniel Chandler; and Beth Menees Rienzi. 2003. 
Domestic Violence Prevalence and Effects on Employment in Two 
California TANF Populations. California Institute of Mental Health.
    \3\ Acs, Gregory and Heather Koball. 2003. TANF and the Status of 
Teen Mothers under Age 18. The Urban Institute. Series A, No. A-62. 
Washington, DC.
    \4\ Allen Guttmacher Institute. 1999. ``Nearly 10% of Teenage 
Mothers Experience Violence While Pregnant.'' Family Planning 
Perspectives. 31(2): 106+.
---------------------------------------------------------------------------
    A recent study of Oklahoma, the leader in state spending on 
marriage promotion, found high rates of domestic violence and marital 
conflict among low-income populations in the state. The study found 
that 47 percent of divorced Oklahomans who had received government 
assistance\i\ cited domestic violence as a reason for their divorce, 
compared to only 17 percent of those who had never received government 
assistance. In addition, 70 percent of those who had received 
assistance cited ``too much conflict'' as the reason for their divorce, 
compared to 54 percent of those who had never received assistance.\5\ 
Oklahoma is not unique; women who receive welfare consistently report 
high rates of domestic violence. This alarming data illustrates the 
need for TANF programs to be responsive and responsible in dealing with 
the violence in the lives of TANF recipients.
---------------------------------------------------------------------------
    \i\ The Oklahoma study defined low-income Oklahomans as those who 
had received Food Stamps, Medicaid, or Temporary Assistance for Needy 
Families.
    \5\ Johnson, Christine; Scott Stanley; Norval Glenn, et. al. 2003. 
Marriage in Oklahoma: 2001 Baseline Statewide Survey on Marriage and 
Divorce. Bureau for Social Research, Oklahoma State University.
---------------------------------------------------------------------------
    Domestic violence contributes to women's poverty and it also can 
create serious obstacles that prevent women, many of whom are mothers, 
from achieving safety and self-sufficiency. In addition to domestic 
violence, many welfare recipients face other barriers to employment: 
access to educational and job training opportunities; lack of child 
care; housing instability; lack of transportation; mental and physical 
health problems; disabilities; and substance abuse.\6,7\ Given this 
reality, battered women who receive TANF should have access to a broad 
range of supportive services to address the violence in their lives and 
the barriers to safety that they may face. Ensuring these critical 
services, rather than promoting marriage, should be lawmakers' 
priority.
---------------------------------------------------------------------------
    \6\ Danziger, Sandra; Mary Corcoran, Sheldon Danziger, et al. 2000. 
Barriers to the Employment of Welfare Recipients. University of 
Michigan.
    \7\ Pearson, J., E.A. Griswold, and N. Thoennes. 2001. ``Balancing 
Safety and Self-Sufficiency: Lessons from Serving Victims of Domestic 
Violence for Child Support and Public Assistance Agencies.'' Violence 
Against Women. 7:176-192.
---------------------------------------------------------------------------
Marriage Does Not Address the Root Causes of Women's Poverty
    Common sense suggests that two incomes are better than one and that 
getting married is likely to move some people off of welfare. But a 
closer look shows that marriage is anything but a panacea to poverty. 
Forming a two-parent family does not guarantee greater economic 
security; in fact, 40 percent of families living in poverty are two-
parent families.\8\
---------------------------------------------------------------------------
    \8\ Proctor, Bernadette D and Joseph Dalaker. 2003. Poverty in the 
United States: 2002. Current Population Reports. U.S. Census Bureau.
---------------------------------------------------------------------------
    In addition, because of death and divorce, getting married does not 
ensure that women will achieve economic security. Approximately 40 
percent of marriages end in divorce and 12 percent end due to the 
husband's death.\9\ Among women currently on welfare, about 40 percent 
are married or were married at one time; 18.4 percent are married; 12.3 
percent are separated; 8.3 percent are divorced; and about 1 percent 
are widows;\10\ as the Oklahoma study found, a significant number of 
divorces and separations are due to domestic violence. Given this, 
there is no indication that marriage alone would provide security, 
economic or otherwise, for families on welfare. Marriage promotion 
programs hold little hope of improving the economic situation of 
families who receive welfare unless they address the factors that keep 
women from being economically self-sufficient--child care 
responsibilities, lack of education and job training, and domestic 
violence.
---------------------------------------------------------------------------
    \9\ The National Marriage Project, Annual Report: the State of Our 
Unions: the Social Health of Marriage in America, 2000 (June 2000), 
available at http://marriage.rutgers.edu/NMPAR2000.pdf.
    \10\ United States Census Bureau, Current Population Reports, 
Series No. P20-514, Marriage Status and Living Arrangements: March 1998 
(Update) (2000), available at http://www.census.gov/prod/99pubs/p20-
514u.pdf.
---------------------------------------------------------------------------
    Proponents of marriage promotion suggest that marriage leads to 
greater economic security, but a study of the Minnesota Family 
Investment Program (MFIP) suggest the reverse of this causal order. The 
study finds that economic security improves the likelihood that a 
marriage will be successful. The MFIP reached single and two-parent 
low-income families and provided employment services and financial 
incentives to encourage and support work. Supports included providing 
child care and health care while rewarding work by increasing earned-
income disregards, allowing families to retain more of their income 
while still receiving TANF benefits, and ensuring that working always 
resulted in more income than not working.
    A study comparing the economic progress of those in the standard 
Aid to Families with Dependent Children \ii\ (AFDC) welfare program 
with MFIP participants found that 14 percent of AFDC recipients--
compared to 25 percent of families in the MFIP program--were out of 
poverty within 2\1/4\ years and the MFIP families had on average $1400 
more in annual income. After 36 months, MFIP participants were 40 
percent more likely to be married than participants in the standard 
AFDC program, and nearly 50 percent less likely to be divorced after 
five years. The experience of the MFIP program shows that allowing 
families to combine welfare and work, and providing work supports to 
help individuals become economically secure will strengthen marriage 
and reduce divorce.\11\
---------------------------------------------------------------------------
    \ii\ The study began in 1996, before the federal TANF law was 
passed. At the time, the Minnesota welfare program was still known as 
AFDC.
    \11\ Manpower Demonstration Research Corporation. 2000. Reforming 
Welfare and Rewarding Work: Final Report on the Minnesota Family 
Investment Program available at http://www.mdrc.org/Reports2000/MFIP/
MFIP-Vol-1-Adult.pdf.
---------------------------------------------------------------------------
Nor Does Marriage Reduce Domestic Violence
    Proponents of marriage promotion often argue that marriage and 
domestic violence have an inverse relationship--that marriage causes a 
decrease in domestic violence. Data to support this claim includes 
Bureau of Justice Statistics (BJS) data drawn from the National Crime 
Victimization Survey (NCVS).
    The NCVS tracks rates of domestic violence for three groups: never 
married, married, and divorced or separated women. Between 1993 and 
1998, the rates of domestic violence in these three groups were as 
follows: 11.3 percent for never married women; 2.6 percent for married 
women; and 31.9 percent for divorced or separated women.\12\ Some 
proponents of marriage promotion argue that these numbers indicate a 
casual relationship between marriage and reduced rates of domestic 
violence because the domestic violence rates for married women are 
lowest. However, this misrepresents the NCVS data. First, these 
statistics indicate only correlation, not causation. There are many 
factors beyond marital status that affect domestic violence rates. For 
example, the age cohorts of women who fall into these three groups--
never married, married, and divorced or separated--must be taken into 
consideration. Young women age 16 to 24 are particularly at risk for 
domestic violence and this group is highly represented in the never 
married category, which has an 11.3 percent reported rate of domestic 
violence.\13\
---------------------------------------------------------------------------
    \12\ Rennison, Callie Marie and Sarah Welchans. 2000. Intimate 
Partner Violence. U.S. Department of Justice Bureau of Justice 
Statistics. Washington, DC. http://www.ojp.usdoj.gov/bjs/pub/pdf/
ipv.pdf.
    \13\ Ibid.
---------------------------------------------------------------------------
    Second, as the BJS states: ``Because the NCVS reflects a 
respondent's martial status at the time of the interview, it is not 
possible to determine whether a person was separated or divorced at the 
time of the victimization or whether the separation or divorce followed 
the violence.'' \14\ In other words, there is no way to know whether 
the 31.9 percent of divorced or separated women were victims of 
violence during or after marriage. Without this information, it is 
impossible to conclude that rates of domestic violence are actually 
lower for married women. In fact, it is far more likely that many 
divorces were prompted by violence or that violence and abuse 
contributed to the divorce.
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
    Finally, it is widely accepted that reporting rates for domestic 
violence are low across the board,\15\ and it should be expected that 
married women who are experiencing violence would be less likely to 
report, given that they often have more at stake, such as children, 
family, and financial considerations. Thus, we reject the argument that 
there is a casual relationship between marriage and reduced rates of 
domestic violence.
---------------------------------------------------------------------------
    \15\ National Research Council. 1996. Understanding Violence 
Against Women. National Academy Press. Washington, DC.
---------------------------------------------------------------------------
Women Who Have Experienced Violence are Less Likely to Marry
    New findings drawn from a federally-funded study by Johns Hopkins 
University highlight the importance of addressing the reality of 
violence in the lives of TANF recipients and focusing on preventing 
violence before it starts; these strategies are essential to improving 
the health and safety of low-income women and their families. The study 
found that women who have been victims of domestic and sexual violence 
are less likely than other women to be married or in long-term 
relationships. More than half of the low-income women studied (52 
percent) said they had been physically or sexually abused at some time 
in their lives, and 24 percent had been sexually abused before reaching 
age 18. Forty-two percent of women in the study who did not report past 
abuse were married, compared to 22 percent of the women who did report 
past abuse.\16\
---------------------------------------------------------------------------
    \16\ Cherlin, Andrew J; Linda M. Burton; Tera R. Hurt; and Diane M. 
Purvin. 2004. ``The Influence of Physical and Sexual Abuse on Marriage 
and Cohabitation.'' American Sociological Review. 69(768-789).
---------------------------------------------------------------------------
    As the study's authors state: ``If we are concerned about the 
decline in stable, long-term unions among the poor and near-poor, then 
we may need to consider measures that would directly reduce the high 
levels of physical and sexual abuse that women must bear.'' \17\ The 
study's findings underscore the fact that proposed marriage promotion 
programs will not meet the needs of women receiving TANF who have 
experienced violence. In fact, marriage promotion programs may be 
counter-productive, as many of the women in the study reported that 
they were taking a conscious break from romantic relationships to 
recover, focus on raising their children and on improving their 
education and personal development. These women would be better served 
by programs that address the history of violence in their lives, and 
provide the child care and educational opportunities that can support 
employment and self-sufficiency.
---------------------------------------------------------------------------
    \17\ Ibid.
---------------------------------------------------------------------------
Employment May Endanger Some Victims of Domestic Violence
    Most battered women work or want to work if they can do so 
safely.\18\ In fact, many women use welfare and work as a way to escape 
an abusive relationship.\19\ But abusive partners often see women's 
employment as a threat because it gives her greater independence and 
her own income. Abusive partners often sabotage women's efforts to 
become more financially self-sufficient by preventing them from 
working, attending interviews, or studying. For example, abusers start 
fights or inflict visible injuries before key events, threaten to 
kidnap the children, or fail to provide promised child care or 
transportation.\20\ Some abusive partners try to stop women from 
working by calling them frequently during the day or coming to their 
place of work unannounced. Research indicates that about 50 percent of 
battered women who are employed are harassed at work by their abusive 
partners.\21\
---------------------------------------------------------------------------
    \18\ Lyon E. 2000. ``Welfare, Poverty and Abused Women: New 
Research and Its Implications.'' Policy and Practice Paper #10. 
Building Comprehensive Solutions to Domestic Violence. National 
Resource Center on Domestic Violence. Harrisburg, PA.
    \19\ Ibid.
    \20\ Raphael, Jody. 2000. ``Domestic Violence as a Welfare-to-Work 
Barrier: Research and Theoretical Issues.'' Pp. 443-456 in Sourcebook 
on Violence Against Women, edited by Claire Renzetti, J. Edelson, and 
R.K. Bergen. Sage, Thousand Oaks, CA.
    \21\ Domestic Violence: Prevalence and Implications for Employment 
Among Welfare Recipients. 1998. General Accounting Office: Report to 
Congressional Committees. Washington, DC.
---------------------------------------------------------------------------
    According to a General Accountability Office report, while victims 
of domestic violence are employed at the same rates as women who are 
not, domestic violence victims experience different patterns of work, 
with more spells of unemployment and job turnover.\22\ Battered women 
actually tend to hold more jobs than other women, but are employed for 
fewer total months.\23\ Both caseworkers and welfare recipients report 
that women who experience domestic violence have a more difficult time 
maintaining employment. In fact, working often makes these women's 
lives more dangerous because many abusers feel threatened when their 
partners are working. Five separate studies indicate that anywhere from 
16 to 60 percent of women surveyed were discouraged from working by 
their abusive partners, while 34 to 46 percent were actually prevented 
from working. The research indicates that women do want to work, but 
their efforts at sustained employment are disrupted by the abuse that 
they face.\24,25\
---------------------------------------------------------------------------
    \22\ Ibid.
    \23\ Lyon E. 2000. ``Welfare, Poverty and Abused Women: New 
Research and Its Implications.'' Policy and Practice Paper #10. 
Building Comprehensive Solutions to Domestic Violence. National 
Resource Center on Domestic Violence. Harrisburg, PA.
    \24\ Domestic Violence: Prevalence and Implications for Employment 
Among Welfare Recipients. 1998. General Accounting Office: Report to 
Congressional Committees. Washington, DC.
    \25\ Lyon E. 2000. ``Welfare, Poverty and Abused Women: New 
Research and Its Implications.'' Policy and Practice Paper #10. 
Building Comprehensive Solutions to Domestic Violence. National 
Resource Center on Domestic Violence. Harrisburg, PA.
---------------------------------------------------------------------------
    When it is safe to do so, the TANF program can and should play a 
vital role in supporting battered women who are seeking to overcome 
barriers so they can find or maintain work and become economically 
self-sufficient. What we know about victims of domestic violence who 
receive welfare suggests that, rather than promoting marriage, which 
may endanger battered women and their children, the TANF program should 
support education and training for welfare recipients, including those 
who are victims of violence who can participate without risk. Many 
women use welfare and work as a way out of abusive relationships. 
Quality education and training programs can substantially increase 
recipients' chances of securing employment that will lift them out of 
poverty. Research clearly shows the need for greater supports as these 
women strive to find the sustained employment that may help them leave 
their abusive partners, thereby achieving both safety and self-
sufficiency.
    Marriage Promotion Programs may be Dangerous for Battered Women and 
their Children
    Marriage promotion programs raise myriad concerns about the health 
and safety of battered women and their children that must not be 
ignored. Given the economic vulnerability of many welfare recipients, 
particularly battered women, the decision to participate in a marriage 
promotion program may not be fully informed or optional. By 
stigmatizing single parents, stigmatizing divorce, or encouraging women 
to believe that they are harming their children if they leave their 
partners, these programs make it more difficult for some women to leave 
violent relationships or encourage them, intentionally or not, to 
remain with abusive partners.
    In addition, participation in marriage promotion programs may be, 
or may be perceived to be, linked to the receipt of TANF benefits and 
other services. There is little doubt that financial incentives to 
marry or stay married would encourage women to remain in abusive 
relationships. For example, West Virginia's TANF program has offered a 
$100 incentive if the parents in a household receiving welfare get 
married,\iii\ and the U.S. Department of Health and Human Services' own 
compilation of model programs for states that are developing marriage 
promotion programs suggests a $2,000 cash bonus for couples who 
marry.\26\
---------------------------------------------------------------------------
    \iii\ This program is discontinued effective August 2004.
    \26\ Strengthening Healthy Marriages: A Compendium of Approaches. 
2002. The Department of Health and Human Services: Administration for 
Children and Families. Washington, DC.
---------------------------------------------------------------------------
    No one should be pushed into making a decision that could adversely 
affect his or her safety and health. But the proposed TANF law actually 
requires states to set numerical performance goals for marriage 
promotion programs in their state plans. This would pressure states 
officials to encourage women to marry, thereby making it likely that 
individuals will be coerced or pressured into marriages that may not be 
healthy or safe.
    Finally, marriage promotion programs are not a good investment of 
TANF funds. Scarce public funds should not be diverted from desperately 
needed economic supports, such as child care and job training, into 
questionable programs that are unlikely to help reduce poverty or 
increase the safety and well-being of recipients and their families. 
Precious TANF funds should not be spent to promote potentially 
dangerous marriages; they should be used for the supports and services 
that will help to lift all families, including battered women and their 
children, out of poverty.
Marriage Promotion Programs May Not Improve Child Outcomes
    Marriage promotion programs, which have been touted as a way to 
improve outcomes for children, may in fact have the opposite effect. 
Battered women are not the only victims of abuse; their children are 
affected as well. In a national survey of more than 6,000 American 
families, 50 percent of the men who frequently assaulted their wives 
also frequently abused their children.\27\ Experts estimate that 3.3 to 
10 million children witness domestic violence each year and research 
demonstrates that exposure to violence can have serious negative 
effects on children's development.\28\
---------------------------------------------------------------------------
    \27\ Strauss, Murray A., Gelles Richard J., and Smith, Christine. 
1990. Physical Violence in American Families; Risk Factors and 
Adaptations to Violence in 8,145 Families. New Brunswick: Transaction 
Publishers.
    \28\ Lawrence, Sharmila. 2002. Domestic Violence and Welfare 
Policy: Research Findings That Can Inform Policies on Marriage and 
Child Well-Being. Research Forum on Children, Families, and the New 
Federalism. National Center for Children in Poverty, Issue Brief.
---------------------------------------------------------------------------
    In fact, new findings drawn from the 25-year Simmons Longitudinal 
Study, one of the longest-running and most respected mental health 
studies ever conducted, show that growing up in a traditional two-
parent marriage may not be beneficial for children if the marriage has 
conflict or abuse. At the annual meeting of the National Society for 
Social Work and Research in January 2004, researchers running the 
Simmons study of nearly 400 Massachusetts residents reported that 
family conflict and violence take ``a heavy toll'' on the mental health 
of children. The researchers said it affects them even more than 
marital disruption, divorce or separation.\29\
---------------------------------------------------------------------------
    \29\ Unpublished Research. Simmons Longitudinal Study. Simmons 
School of Social Work. Boston, MA. http://www.simmons.edu/ssw/sls/
---------------------------------------------------------------------------
    Researchers found that males exposed to family conflict and 
violence over the years were significantly more likely than other males 
to have suicidal thoughts, be depressed, have emotional and behavioral 
problems, be drug dependent, or have post-traumatic stress disorder. 
Girls from violent homes had higher rates of alcohol problems and lower 
grades when they graduated from high school than girls who did not 
experience conflict or violence in their homes.\30\ These findings show 
that growing up in a violent home can take a terrible toll on children 
and teens, and can cause serious, long-lasting harm.
---------------------------------------------------------------------------
    \30\ Ibid.
---------------------------------------------------------------------------
    According to the American Psychological Association, recent 
research utilizing more sophisticated methodology than previous studies 
shows that, while children of divorced parents overall have more 
adjustment problems than children of intact families, the differences 
between these two groups is smaller and less pronounced than previously 
believed. Recent results from a 20-year longitudinal study found that 
78 percent of children of divorce feel that they are better off or not 
harmed because of their parents' divorce and 50 percent of those 
studied reported that their relationship with their father grew 
stronger after the divorce, even though most lived with their 
mothers.\31\
---------------------------------------------------------------------------
    \31\ Ahrons, Constance. 2004. We're Still Family: What Grown 
Children Have to Say About Their Parents' Divorce.'' New York, NY. 
Harper Collins.
---------------------------------------------------------------------------
    In fact, the majority of children of divorce fall within the normal 
range of adjustment on standardized measures and research indicates 
that marital conflict rather than divorce or post-divorce conflict is a 
more important predictor of child adjustment. For example, children in 
high-conflict marriages are more likely to experience behavioral and 
academic problems including, but not limited to, disobedience, 
aggression, delinquency, poor self-esteem, antisocial behaviors, and 
depression. Young adults who experienced a high level of marital 
conflict during childhood are more likely to experience depression and 
psychological disorders than young adults from low-conflict 
families.\32\ This evidence suggests that the relationship between 
divorce and child outcomes is more about the conditions that led to the 
divorce than the divorce itself.
---------------------------------------------------------------------------
    \32\ American Psychological Association. An Overview of the 
Psychological Literature on the Effects of Divorce on Children. May 
2004.
---------------------------------------------------------------------------
    A new study from Cornell University finds that growing up with a 
single parent does not have a negative effect on the behavior or 
educational performance of children. The study looked at 1,500 12- and 
13-year-old children from white, black and Hispanic families. 
Researchers found that the most important factors in determining child 
outcomes were the mother's level of education, income level, and the 
quality of the home environment, not the mother's marital status.\33\
---------------------------------------------------------------------------
    \33\ Ricciuti, Henry. 2004. ``Single Parenthood, Achievement, and 
Problem Behavior in White, Black, and Hispanic Children.'' The Journal 
of Educational Research. (97)4: 196-207
---------------------------------------------------------------------------
    The research on child outcomes suggests that marriage promotion 
programs may actually endanger children who grow up in violent homes 
and negatively affect their development by encouraging women to remain 
in violent relationships. Two-parent families are not ideal when there 
is violence or abuse; in fact, this kind of household can be damaging 
or dangerous for women and children who experience or witness violence.
Education and Training Promote Safety and Self-Sufficiency
    Rather than focusing on a potentially dangerous marriage promotion 
program that may not lift women out of poverty or improve child 
outcomes, Congress should strengthen existing provisions to support 
women who receive TANF. TANF programs should support education and 
training opportunities that will help recipients find and keep well-
paying jobs, with appropriate measures to protect victims of violence. 
There is a direct link between educational attainment and economic 
well-being. In 2000, only 1.2 percent of single mothers with a college 
degree who worked full-time year round lived in poverty. Less than 
eight percent of single mothers with some college working full-time 
lived in poverty.\34\ Clearly, education, not marriage, is the best and 
most direct strategy for lifting families out of poverty.
---------------------------------------------------------------------------
    \34\ Neil G. Bennett, et. al., National Center for Children in 
Poverty, Young Children in Poverty: A Statistical Update, June 17, 
1999, available at http://cpmcnet.columbia.edu/dept/nccp/99uptext.html.
---------------------------------------------------------------------------
    When parents have access to education, children also benefit. For 
example, among children whose parents work full-time and year-round: 72 
percent of children whose parents do not hold a high school degree live 
in low-income families, compared to 42 percent of children whose 
parents have a high school degree, and only 16 percent of children 
whose parents have at least some college.\35\ Parents who have 
educational opportunities beyond high school have drastically improved 
economic outcomes and are better able to provide for their children.
---------------------------------------------------------------------------
    \35\ The Effects of Parental Education on Income. 2003. The 
National Center for Children in Poverty. New York, NY.
---------------------------------------------------------------------------
    In addition, Congress must understand that any increase in required 
work hours or state work participation rates will have a negative 
affect on education and training programs and may in fact prevent women 
from finding well-paying jobs. In welfare reauthorization, Congress 
must recognize that welfare recipients achieve greater economic 
security when they are given the opportunity to gain new skills and 
knowledge. Investments in education, training and work supports can 
both empower women to achieve economic security (which empowers 
families and couples as well) and strengthen marriages.
Strenghthening the Family Violence Option Will Improve Safety
    While most women who experience domestic violence want to work if 
possible, some may need help or extra time to find or keep work that 
will lead to self-sufficiency. In addition to strengthening education 
and training programs, the Family Violence Option (FVO) should be 
expanded to include all 50 states and to require each state to certify 
that it has trained caseworkers who can screen individuals for domestic 
and sexual violence, or that it will contract with domestic violence 
experts who will conduct the screenings. All states should be required 
to give oral and written notice to individuals who have been 
sanctioned\iv\ or are at risk of being sanctioned that welfare program 
requirements may be waived if domestic or sexual violence has 
contributed to their non-compliance. Congress should also fund 
demonstration projects to develop and disseminate best practices in 
addressing domestic and sexual violence as a barrier to economic 
security.
---------------------------------------------------------------------------
    \iv\ TANF recipients may face a reduction or elimination of cash 
benefits, known as sanctions, for failing to comply with TANF program 
requirements.
---------------------------------------------------------------------------
    While the FVO is not mandatory, 33 states and the District of 
Columbia have adopted it. Eleven other states have equivalent policies 
that enable violence victims to get waivers from some or all TANF 
requirements. Six states--Idaho, Indiana, Mississippi, Oklahoma, 
Virginia and Wisconsin--have no FVO or equivalent policies.
    Currently, the FVO allows states to: screen for and identify 
victims of domestic violence; refer victims of domestic violence to 
appropriate services; grant ``good cause'' waivers to domestic violence 
victims when TANF requirements are harmful or unsafe; and protect the 
confidentiality of domestic violence victims and their children. In 
addition, the FVO exempts states from TANF requirements when excusing 
domestic violence victims who fail to meet TANF requirements results in 
a state's failure to meet its TANF work participation and/or 60-month 
limit requirements. Congress should both strengthen and expand the FVO 
in the next reauthorization of the TANF program.
Congress Should Support Safety and Self-Sufficiency for All TANF 
        Recipients
    Given the large numbers of TANF recipients who are victims of 
domestic violence, Congress must address violence as a primary concern 
in the lives of women and children who receive welfare. Welfare and 
work are powerful tools in helping battered women leave abusive 
relationships, particularly when women have access to supportive 
services such as education, job training, mental health services, and 
child care. In contrast, marriage promotion programs run the risk of 
endangering battered women and their children and do not address the 
root causes of poverty for families on welfare.
    Welfare reauthorization must focus on meaningful and gainful 
employment; recipients must be allowed to gain the education and 
training skills necessary to finding well-paying jobs; and barriers to 
employment such as domestic violence must be reasonably and responsibly 
addressed. In contrast, the marriage promotion initiative that Congress 
may include in the TANF program has not been shown to reduce poverty, 
and it poses a threat to the safety of battered women and their 
children. Rather than supporting an untested and potentially dangerous 
marriage promotion program, TANF reauthorization should help families 
on welfare who are experiencing domestic violence while supporting the 
safety and self-sufficiency of all TANF recipients.

                                 <F-dash>

 Statement of Joseph Mendez, Goodwill Industries of Sacramento Valley, 
                      Inc., Sacramento, California

    Goodwill Industries is a network of 207 community-based, autonomous 
member organizations that serves people with workplace disadvantages 
and disabilities by providing job training and employment services, as 
well as job placement opportunities and post-employment support. 
Established in 1902 by the Rev. Edgar J. Helms, a Methodist minister, 
Goodwill helps people overcome barriers to employment and become 
independent, tax-paying members of their communities.
    Goodwill's mission is to provide employment, training, and support 
services to increase the employability, retention and earnings of 
individuals with barriers to employment. As a community leader, 
Goodwill provides workforce development through innovative, quality 
programs designed to reduce poverty in our community. Goodwill is 
dedicated to the ideal of strengthening our families and community 
through the power of work. To fund our mission, we collect donated 
clothing and household goods to sell in our retail stores. These stores 
are in essence, ``economic engines'', creating revenues and jobs that 
enable Goodwill to serve our communities. Nearly 85 percent of these 
revenues are channeled into job training and placement programs and 
other critical community services to in excess of 600,000 persons a 
year. The only barrier to Goodwill serving more individuals is access 
to capital to increase their market penetration.
    To implement this mission, Goodwill is consistently striving to 
meet the changing workforce development needs of our community. As a 
result of welfare reform, in addition to serving individuals with 
disabilities we expanded our mission to serve individuals with other 
barriers to employment. These barriers include welfare dependency, 
limited academics, little, if any, work experience, substance abuse, 
and lack of English proficiency. Often times, these individuals have 
childcare, transportation, housing, financial, and domestic abuse 
issues, which create additional barriers.
    We knew, based on our experience and expertise, that in order to 
effectively assist individuals with these barriers, we needed to 
develop a variety of vocational training programs. Some of the programs 
needed to provide the industry specific job skills, or hard skills that 
are needed in our community. Other programs were specifically designed 
to address the life or soft skills that often prevent otherwise 
qualified individuals from successfully maintaining employment. Many 
entry-level employees lose their jobs because of a lack of work ethic 
and decision-making skills that prevent them from solving their 
childcare, transportation, and personal issues.
    Congress partnered with Goodwills in Florida and Louisiana by 
authorizing a capitalization demonstration project in the 1996 Welfare 
Reform Authorization bill. These projects were tremendously successful 
in meeting their targets in placing the hardest to serve. The 
capitalization strategy is a viable tool that Congress could use to 
allow business model non-profits to meet these needs in a broader, more 
immediate, and self-sustaining fashion. This program was designed to 
serve ``hard to serve'' Welfare to work individuals through 
individualized job placement assistance and intensive job retention 
services. By definition, ``hard to serve'' individuals are those with 
academic levels below 5th grade, substance abuse issues, or a 
demonstrated inability to maintain employment. As all of our programs, 
this program recognizes that the ``one size fits all'' approach to 
workforce development services is likely to fail. Goodwill recognizes 
that employment issues vary in different communities.
    While the project was a success in its placement of thousands of 
former welfare recipients in employment, it failed in its secondary 
mission--to convince the Department of Health and Human Services that 
there is a more efficient way to provide human services--through a 
capitalization model. BuildingGOODWILL, a consortium of 13 Goodwill 
around the country, including Goodwill Industries of the Sacramento 
Valley, was formed to demonstrate the capitalization model on a larger 
scale. BuildingGOODWILL has spent the last 3 years educating members of 
Congress about this approach, and was included in Section 119 of the 
Senate Finance Committee's version of H.R. 4. Chairman Grassley is 
including our program in his new Chairman's mark, and Senator Santorum 
has included our program in Section 229 of his S. 6. We are confident 
that the Congress will reauthorize welfare reform during the 109th 
Congress. Chairman Herger has recently praised Senator Santorum's bill 
as ``legislation that will help improve the program for families''.
    Nationally, over the last 100 years, Goodwill Industries has helped 
nearly 6 million people earn a living and support their families. 
Goodwill is a unique community organization that utilizes a business 
model approach allowing us to be good stewards of the resources that 
are given to us, in order to provide effective workforce development 
programs. Capitalization money would allow Goodwills to use the 
resources and revenues from their retail operations to fund these and 
additional programs.

                                 <F-dash>

Statement of Amy Correia, Iowa Coalition Against Domestic Violence, Des 
                              Moines, Iowa

    Thank you for providing this opportunity to comment on the proposal 
before the U.S. House of Representatives to reauthorize the Temporary 
Assistance to Needy Families program. The Iowa Coalition Against 
Domestic Violence (ICADV) is a state-wide advocacy and technical 
assistance provider representing its 33 member domestic violence 
programs in Iowa. In FY 2000, 2,099 women and 2,358 children were 
sheltered by Iowa's domestic violence shelters, and 18,300 domestic 
abuse victims received services from Iowa's victim service agencies.
    A study of Iowa's domestic violence programs, conducted in 1998, 
found that over half of women residing in an emergency domestic abuse 
shelter received welfare benefits. Additionally, poverty 
disproportionately affects female-headed households in Iowa. Forty-five 
percent of female-headed households with children under the age of 18 
live in poverty (as reported in the Iowa Department of Economic 
Development's Consolidated Plan, submitted to the U.S. Department of 
Housing and Urban Development in 1995).
    Our experience with women seeking shelter and other services tells 
us that domestic violence and poverty are interconnected. Many women 
apply for welfare benefits as a lifeline to safety for themselves and 
their children.
    During October 2001 and April 2003, I visited with low-income women 
(some current and others past recipients of welfare benefits) in six 
communities across Eastern Iowa to assess what they need to achieve 
economic security. A few of their stories follow:
    A young woman with one child told me of her dreams of becoming a 
psychologist. Her welfare-to-work case manager told her that she 
couldn't pursue a 4-year college degree while on welfare. To meet her 
welfare requirements, she works at a low-wage job in the local shopping 
mall, spending two hours round-trip on the bus, and as a result has 
only a few hours with her daughter in the evening before bed-time.
    A mother with a young child was sanctioned off of welfare benefits 
because she lost her job when her car broke down (she lives in a town 
with limited public transportation). She left numerous messages for her 
welfare caseworker to explain the situation. This worker never returned 
her phone calls, and she received a letter in the mail telling her that 
she was being cut from benefits for not complying with the work 
requirement. She is reapplying for benefits.
    Another mother lost critical support benefits (Medicaid and Food 
Stamps) when she financed a car worth more than the allowable ceiling 
to ensure that she would have reliable transportation to get to a job 
where she earns only $800 a month.
    In response to a question about suggestions for changing the way 
welfare programs are run, one focus group participant said ``Too much 
politics--get more ideas from the community.''This statement is even 
more powerful given the stalemate over welfare reauthorization that the 
U.S. Congress has experienced since 2002.
    All of the women expressed the desire to work. Critical to their 
success at work are supportive services, including transportation, 
childcare, Food Stamps, and medical insurance. The eligibility levels 
and funds available for these supportive services should be expanded 
and increased. Many ideas were generated during focus group 
conversations about transportation, including: providing a fund for car 
repairs; a welfare recipient that worked a certain # of hours of work a 
week could be eligible for a certain dollar amount for car repair/
costs; and car dealerships should be offered incentives to donating 
cars to welfare recipients.
    Childcare is another topic of concern. H.R. 240 does not address 
the fact that current childcare funding levels prevent 6 out of every 7 
children from getting the childcare assistance for which they are 
eligible. Parents will have difficulty increasing their economic 
stability if affordable childcare is not available. Low-wage jobs 
(under $11/hour) do not pay enough so that parents can afford childcare 
in the private market. Childcare subsidies are a critical support that 
increases the well-being of children and the success of parents at 
work.
    All of the women with whom I spoke believe that increasing 
opportunities for job training and education is critical to their 
success. Most felt they could get a minimum wage job, but that the 
income from these jobs would not go far in supporting their families. 
While most of the women with whom I spoke believe that more emphasis 
should be placed on job-training and education for higher wage jobs, 
H.R. 240 essentially shuts the door to better education and training 
opportunities for low-skilled parents. This flies in the face of logic, 
as according to 1993 Census data, a woman with a high school diploma 
earned on average of $19,168/year, while a woman with a Bachelor of 
Arts degree earned on average of $32,291/year. Educational attainment 
is the one proven method for improving a family's economic stability, 
and welfare assistance programs should not block these efforts.
    The women with whom I spoke have complicated histories, which 
include domestic violence, substance abuse, mental health and physical 
disability issues. While all want to work, some may need more time to 
meet requirements than is currently allowed. It is critical that the 
welfare program allow recipients time to address life issues that 
impede their success at work and their family's well-being. Research 
studies document the high incidence of domestic abuse within the TANF 
population--30% of TANF recipients report current abuse and more than 
50% report abuse at some time in their adulthood. The Family Violence 
Option should be expanded so that every state has policies and programs 
in place to address the safety and self-sufficiency of its welfare 
caseload.
    Regarding marriage promotion policies, ICADV is concerned that any 
efforts to promote marriage through the welfare office may be 
detrimental to abused women.
    On June 4, 2002 two survivors of domestic violence met with Senator 
Charles Grassley (R-Iowa) via conference call to discuss welfare 
reauthorization. The two survivors prepared a written statement in 
advance of that meeting, and read this statement during the conference 
call. The text of this statement follows:
    ``We as survivors of domestic violence feel that the idea of 
promoting marriage to the father of your child or children is a short-
sighted solution for a difficult and varied amount of social, 
economical, and religious problems. More needs to be researched and 
developed to bring about the types of change and results that this bill 
is proposing to accomplish.
    ``Although we agree with your idea that strengthening families will 
bring about a change in welfare, we do also believe as survivors of 
domestic violence that women are going to be forced into more violence 
situations and have more detrimental effects on family relationships--
financially, emotionally and physically, thus tearing down the family 
structure. So, we feel this would defeat the purpose of your proposal, 
therefore putting us back to square one''
    Many women leave abusive relationships after years of blaming 
themselves for the abuse and trying to make it stop through a variety 
of avenues, including couples counseling and/or conflict management 
classes. Marriage promotion programs may have the negative effect of 
encouraging women to stay in abusive relationships, or could be used by 
an abuser to coerce their partner into staying in the relationship. The 
potential impact of these policies on abused women should be further 
analyzed before implementation.
    Given the complexity of policy and program issues that marriage 
promotion strategies raise, we strongly recommend that any legislation 
reauthorizing welfare that includes marriage promotion require 
consultation and collaboration with domestic violence coalitions in 
states to ensure that domestic violence issues are appropriately 
addressed. Such consultation should be conduced at every phase of the 
design, implementation and evaluation of these programs. Such steps 
will address the safety and well-being of all children and families.
    ICADV's work with battered immigrant women leads us to also urge an 
expansion of welfare benefits for immigrant families. While immigrant 
women make up a small percentage of women in poverty and victims of 
domestic violence, as a group they are facing some of the most 
insurmountable barriers to safety. States should be able to provide 
services to qualified immigrant families prior to the current 5-year 
residency requirement.
    Thank you for your consideration of our comments. Please feel free 
to contact ICADV with any questions or further input.

                                 <F-dash>

     Statement of Margot Bean, National Child Support Enforcement 
Association, and New York State Division of Child Support Enforcement, 
                            Albany, New York

    Chairman Herger and distinguished members of the Committee:
    My name is Margot Bean. I am the Deputy Commissioner and IV-D 
Director of the New York State Division of Child Support Enforcement, 
and the President of the National Child Support Enforcement Association 
(NCSEA). I am submitting this written statement on behalf of NCSEA. 
NCSEA is a membership organization representing the child support 
community, consisting of a workforce of over 60,000 public and private 
child support professionals. Our membership is vitally concerned with 
welfare reform reauthorization, particularly those provisions that 
affect the child support enforcement program.
    NCSEA commends this Committee for the work you continue to do to 
improve the lives of children and families. Your efforts to craft 
effective child support provisions in welfare reform have kept many 
children and families from sinking into poverty when parents separate 
or never marry, and have helped states to administer effective child 
support programs. There are always ways to make the child support 
program stronger and more effective and thus I would like to take this 
opportunity to comment on several proposals under consideration, as 
well as some further enhancements that you can make.
Simplify Rules for Distributing Child Support Collections
    Welfare reform reauthorization provides an opportunity to simplify 
child support distribution rules and to increase the amount of child 
support going to families. NCSEA strongly supports distribution reform. 
We believe that providing additional support for families who are 
attempting to reach self-sufficiency is critical. The current rules are 
complex, costly to administer, and difficult to explain to families, 
thus undermining the effectiveness of the nation's child support 
program. Simplifying the rules for distributing child support 
collections would bring more efficiency and flexibility to child 
support programs, while providing more child support for former welfare 
mothers making the transition from welfare to work.
    NCSEA commends the House for its long-standing efforts to simplify 
the child support distribution rules, beginning with the Child Support 
Distribution Act of 2000. However, we believe that the proposal for 
changing the distribution rules that is set forth in the Senate welfare 
reform reauthorization bill is a more effective approach. In fact, the 
Senate provisions are modeled after the original House legislation that 
was approved by the members of the House in 2000 by a vote of 408 to 
18.
    The rules originally proposed in the House bill and now contained 
in the Senate version of welfare reform reauthorization have been 
thoroughly scrutinized and evaluated and have broad support from both 
state child support professionals and advocates for families. The 
Senate bill sets forth distribution rules that are simple and 
equitable. Families assign their rights to support only for the period 
that they receive assistance. Child support collections follow the 
status of the case: the family's arrears are paid first when the family 
is off welfare; the state's arrears are paid first when the family 
receives assistance. Former welfare families receive all of their 
arrears, no matter how collected, before the state is reimbursed for 
arrears owed to the state. Under this proposal, the pre-welfare 
assignment and the state's priority for federal tax offset collections 
are gone. These rules are easy to explain, easy to follow, and easy to 
program.
    The state options in the Senate bill also provide the flexibility 
that states need to make an orderly transition to these new rules, 
taking into account states' different funding structures, their various 
budget situations, and timing for reprogramming computers, as well as 
their differing decisions about how best to support low-income 
families. If adopted, these options will also unite the welfare and 
child support programs squarely behind self-sufficiency, and will 
likely improve coordination between the two agencies. The perception of 
the child support program in the community will also improve, as it 
will be seen as a vehicle to help low-income mothers and fathers work 
together for the benefit of their children, rather than an arm of the 
government seeking to recoup money for the state.
    The current House bill, however, reduces state flexibility andcould 
create counter-productive incentives for non-cooperation by custodial 
parents and non-payment by noncustodial parents while the family 
receives assistance. This is because the options in this proposal would 
require states to distribute arrears collections based on when 
collections are made, as opposed to when the arrears accrued. This 
would represent a major paradigm shift for the child support program. 
Under the current House proposal, the state's assignment would end once 
the family leaves assistance. As a result, a custodial parent receiving 
public assistance could be paid twice: once with welfare benefits, and 
once with the child support that accrues while on welfare but is paid 
when off welfare. At the same time, the government would be required to 
keep money owed to families before they even applied for assistance. 
The proposal in the House bill would require costly system programming 
changes that would exceed the costs of implementing the proposal in the 
Senate bill, because it would fundamentally change how automated 
systems process collections.
    In the short run, the Senate approach will likely reduce retained 
collections for state and federal governments at a difficult budgetary 
time, but it is important to look at cost savings in other areas in the 
long run. Any proper analysis for changing the distribution rules must 
look not only at possible decreased reimbursement for state and federal 
TANF costs, but also at the dysfunctions of the current system that 
waste valuable caseworker time and consume expensive computer 
resources. A more efficient child support program can do a better job 
of establishing paternity, collecting support, and modifying orders to 
be consistent with parents' ability to pay, because staff that 
currently deal with account adjustments can be re-deployed to these 
more productive activities.
    If the full set of options contained in the Senate bill is adopted, 
we also expect that more welfare mothers will cooperate with child 
support enforcement, and more fathers will pay support if both parents 
see it going to the family instead of the state. Finally, welfare 
prevention is much more cost effective than welfare cost recovery. The 
real benefit from distribution rules that are designed to encourage 
families to become or remain self-sufficient is in money saved, not in 
money recovered. Rarely does child support recoup the full amount of 
the TANF benefit. Anything that we can do to reduce welfare dependency 
while providing for the financial needs of low-income families in other 
ways is sound fiscal policy.
Support Responsible Fatherhood Programs
    NCSEA supports the provisions of the House bill to promote and 
support responsible fatherhood. This committee broke new ground when it 
passed responsible fatherhood legislation as part of the Child Support 
Distribution Act of 2000. Unquestionably, responsible father 
involvement has a significant and positive impact on child well-being. 
Children growing up without a responsible father in their lives are 
more likely to be poor, to drop out of school, to end up in foster care 
or juvenile justice facilities, to bear their own children out-of-
wedlock, and to be under-employed as adults. Research and our own 
experience with the in-hospital paternity program tell us that about 80 
percent of fathers are romantically involved with the mother at the 
time of the child's birth. However, a few years later, all but 25 
percent drift away. A job and the ability to provide financial support 
are critical to keeping these connections.
    Research also suggests that fathers who regularly pay child support 
are more likely to make an emotional commitment to their children--in 
other words, the heart follows the money. Effective child support 
enforcement is therefore one way to promote responsible father 
involvement. In addition, child support agencies can serve as a gateway 
to responsible fatherhood programs.
Oppose Annual Fee on Families
    NCSEA believes that imposing an annual service fee of $25 on 
families who have never received welfare assistance places an unequal 
burden on such families and is contrary to public policy to encourage 
families to remain self-sufficient. Many families who have never 
received assistance are indistinguishable from families who receive or 
have received assistance. Never-assistance families include those who 
have been diverted from welfare and receive child care or other 
services from TANF that do not qualify as TANF ``assistance'' and other 
low-wage earning families who choose to remain self-sufficient to the 
extent possible.
    A low wage-earning single parent who is barely keeping his or her 
family afloat, but who has avoided going on welfare, needs child 
support services just as much as a former TANF family. Nearly 80 
percent of families in the state child support programs have incomes 
below 250 percent of poverty. Families should be encouraged, not 
discouraged, to participate in the child support program. Yet the $25 
annual fee proposal would impose an additional charge on working poor 
families who have so far been successful in remaining self-sufficient.
    In addition, the cost to states for implementing this fee will be a 
greater burden than the income that will be realized. The $25 fee would 
count as program income, and as such, the state would keep 34 percent 
of the $25 fee, or $8.50, and the federal government would get the 
remaining $16.50. The collection of this fee would require states to 
modify their automated system programming, including the financial 
programming, one of the most complex parts of the state child support 
automated systems. The $8.50 paid to the state would be offset by the 
state's collection costs and the start-up costs of reprogramming 
automated systems to accommodate this fee. Because the federal 
government shares in these collections and reprogramming costs at the 
federal financial participation rate of 66 percent, the net benefit to 
the federal government would also be negligible, if any.
Expansion of Enforcement Tools
    Oppose federizing the multi-state financial instution levy process. 
The Personal Responsibility and Work Opportunity Reconciliation Act of 
1996 (PRWORA) required each state to establish a process for 
identifying and seizing the financial assets of child support obligors 
held in financial institutions. In addition, the Child Support 
Performance and Incentive Act of 1998 authorized the federal Office of 
Child Support Enforcement (OCSE) to conduct data matches with financial 
institutions that do business in more than one state. The data match 
results are passed to the state child support agencies who then 
determine whether it is appropriate to levy the identified asset and, 
if so, take the necessary measures. This model--data matches conducted 
at the federal level but enforcement taking place at the state level--
is also consistent with the approach so successfully used with employee 
new hire reporting and payroll withholding.
    State IV-D agencies use a lien/levy process to seize financial 
assets identified through the multi-state financial institution data 
match program. This program has been a successful child support 
enforcement tool. Some multi-state financial institutions, however, 
refuse to honor levies issued from states in which the institutions do 
not conduct business. Financial institutions have also raised concerns 
about the lack of uniformity in the current state-based process and the 
resulting effort on their part to comply with diverse requirements. 
Legislation that is currently before the Senate proposes to resolve 
these problems by federalizing the levy process.
    On February 11, 2005, NCSEA approved a resolution opposing the 
proposal to federalize the multi-state financial institution levy 
process and instead supporting a proposal that maintains enforcement at 
the state level, while requiring greater standardization of levy 
procedures and forms. NCSEA believes that this proposal strikes a 
balance between making the levy process more uniform and easier to 
follow for financial institutions and allowing states flexibility in 
developing many of the implementation details.
    Lower threshold for passport denial program. NCSEA supports 
lowering the arrears threshold for the passport denial program from 
$5,000 to $2,500. NCSEA believes that lowering the threshold will 
result in an increase in child support collections for children and 
families. The passport denial program has been a cost-effective tool 
for difficult cases involving self-employed obligors with sources of 
income that have not been reached through income withholding.
    Use tax refund intercept program to collect past-due child support 
on behalf of children who are not mminors. The tax refund intercept 
program has been an effective enforcement tool for collecting past-due 
child support debts. Unfortunately, not all debts can be collected 
before children reach the age of majority. NCSEA supports the expansion 
of the tax refund intercept program to include the collection of all 
past-due child support debts regardless of the child's age.
    Garnishment of lonfshore and harbor workers benefits. NCSEA has 
long supported enforcement strategies that improve the ability to 
collect child support. Although NCSEA has not taken a position on this 
specific provision, it is consistent with our support for withholding 
child support from income whenever possible.
    Improve interstate enforcement. NCSEA supports requiring each state 
to enact the 2001 version of the Uniform Interstate Family Support Act 
(UIFSA). In the 1996 federal welfare reform law, Congress required all 
states to adopt UIFSA. This mandate has greatly improved interstate 
child support enforcement. In 2001, the National Commissioners on 
Uniform State Laws adopted certain amendments to address issues that 
have arisen in case law or in implementation of the Act. These include 
how to determine the controlling order and arrears amounts when there 
are multiple orders, clarifying jurisdiction over modification cases, 
clarifying rules on choice of law on interest rates and duration of 
support, and more direction regarding international cases. NCSEA 
believes that these revisions will further improve interstate 
enforcement. NCSEA also supports the provisions that were in last 
year's Senate version of the welfare reform reauthorization bill, H.R. 
4, amending the Full Faith and Credit for Child Support Orders Act so 
that it is consistent with the 2001 version of UIFSA. Such amendments 
are necessary to maintain consistency between federal law and UIFSA.
Other Provisions
    Disclosure of IRS data. Increasingly, State IV-D agencies are 
contracting with other entities to obtain greater efficiencies in the 
collection of child support. These highly specialized contractors are 
providing Title IV-D child support enforcement services under the 
contractual oversight of the State IV-D agencies. NCSEA supports 
authorizing the Treasury Department to disclose certain tax return data 
to these highly specialized State IV-D agency contractors for the 
purpose of providing Title IV-D child support enforcement services, but 
only if these companies are performing under a state contract and 
``standing in the state's shoes.'' NCSEA also supports authorizing the 
Treasury Department to disclose certain tax return data to tribal IV-D 
agencies and their highly specialized contractors for the same purpose.
    Technical correction to definition of ``corrective action year''. 
NCSEA supports technical improvements to the audit and penalty statute 
that clarifies that states are entitled to formal notice and an 
opportunity to fix child support problems before a penalty is imposed 
on TANF funds.
    Report on undistributed child support payments. State IV-D agencies 
are actively working with OCSE to understand and address issues 
regarding undistributed collections. Therefore, NCSEA believes that 
there is no need for congressional intervention at this time.
    We ask you to build on the success of PRWORA by continuing to 
strengthen our nation's child support enforcement program. On behalf of 
NCSEA, thank you for your leadership and for your continued support of 
our important work to assist children and families.

                                 <F-dash>

 Statement of Garrett Murphy, National Coalition for Literacy, Albany, 
  New York, and National Council of State Directors of Adult Education

    Mr. Chairman and Members of the Committee, my name is Garrett 
Murphy and I represent the National Coalition for Literacy, a 
nationwide group of associations having a stake in the advancement of 
adult literacy in the nation. I also act as a policy consultant for one 
of the Coalition's most prominent members, the National Council of 
State Directors of Adult Education--the officials responsible for the 
administration of Federal adult education funds in the States and 
Outlying Areas.
    I would like to set forth, on behalf of the Coalition, three 
recommendations for changes to H.R. 240, the Personal Responsibility, 
Work, and Family Promotion Act of 2005.
I. Our first recommendation is to remove adult education from the 
        provisions oc Section 601--Program Coordination Demonstration 
        Projects.
    Justification: The Coalition recognizes that a number of 
protections of program integrity have been written into Section 601 of 
HR240. These include the exclusion from waiver authority any provisions 
of law relating to purposes or goals of a program, maintenance of 
effort requirements, and administrative provisions of the Adult 
Education and Family Literacy Act. These protections also disallow any 
waiver of any funding restriction or limitation provided in an 
appropriations Act, and transfer of funds from one appropriations 
account to another. Nevertheless, we are very concerned that Section 
601 gives a Governor--or perhaps a person administering an adult 
education program who does not report to the Governor--the ability to 
alter application procedures, reporting requirements, performance 
standards, and program and individual eligibility requirements of local 
programs. We realize that there are also safeguards that call for the 
Secretary's approval of proposed projects. However there are a number 
of inadvertent effects that would negatively affect State's operations 
and management.
    First, performance standards are the result of intensive 
negotiations with the U.S. Department of Education; changing them might 
result in a State's not qualifying for the incentive funds built into 
the Workforce Incentive Act. Changing them would also require re-
negotiating with all the local programs receiving assistance because 
the State's target is a summation of all the local targets. A change in 
program eligibility standards also appears to us to threaten our 
compliance with the ``direct and equitable'' provisions in adult 
education legislation whereby all not-for-profit agencies--public and 
private--have a right to compete for funds and must receive the same 
application.
    Second, individual eligibility standards are laid out in the 
definition of adult education in Section 203 of the Workforce 
Investment Act. Spending adult education dollars on individuals not 
authorized under the Act would appear to us to in effect ``waive a 
funding restriction applicable to a program authorized under an Act 
which is not an appropriations Act'' [Sec601(d)(2)(H)]. Of course, 
individual eligibility standards could also be altered by restricting 
eligibility to only some of the permissible categories, e.g. serving 
only high school equivalency candidates or only persons with limited 
proficiency in English. This would require major changes in the State's 
plan as well as the need to renegotiate targets with all local programs 
to serve only the restricted set of permissible individuals.
    Overall including adult education in these Program Coordination 
Demonstration Requirements appears to be very disruptive. Coordinated 
adult education services can be better obtained through more 
traditional cooperative planning and performance.
II. Oursecond recommendation is to amend the legislation to increase 
        allowable period for education and training beyond the 4 months 
        on case-by-case basis allowed in H. R. 240 for such activity. 
        The kinds of programming that have proved most effective in 
        helping clients obtain employment, remain on the job, and 
        quality for advancement is rarely accomplishable in such 
        alimited time frame.
    Justification:A nationwide study entitled Built to Last: Why Skills 
Matter for Long-Run Success in Welfare Reform found that ``the most 
successful welfare-to-work programs--those that increased earnings and 
employment on a sustained basis--are those that provide a range of 
services, including job search but also education and training. 
Recipients typically participated in just one activity at a time.'' I 
personally talked to some of the officials responsible for programs 
that the study found most effective and found that while education was 
provided simultaneously with training in a few cases, the majority of 
the programs provided basic education or English as a second language 
first--transitioning into job training or directly to work as their 
skills allowed. The education portion of the combined program was not 
education in isolation--the kind of education that led to the severe 
downgrading of the role of adult education in the transition from the 
JOBS program to TANF. In these programs each candidate was assessed to 
determine what educational skills would be needed to function 
successfully in training or employment and how much time would be 
needed to meet the entrance criteria. Progress toward mastering those 
skills was constantly monitored. Whether the transition at the end of 
the education phase was to training or directly to employment, the 
education, training, and employment activities were complementary 
components of a single plan.
    At a time when the percentage of recipients involved in work 
nationwide is actually declining, this auspicious model offers a 
genuine route to long-term employment and self-sufficiency. But time 
periods of 6 months to a year are often needed before individuals can 
transition successfully into training or employment, particularly those 
with low levels of literacy. H.R. 240 wisely requires family self-
sufficiency plans that specify appropriate activities that lead to 
self-sufficiency. Limiting the education/training component to a 
maximum of 4 months in any 24-month period with the expectation that an 
individual will be job-ready in that time frame may confound the very 
purpose of the family self-sufficiency plan.
III. Our third recommendation is that the family self-sufficiency 
        plans--as called for by HR240--clearly accommodate 
        transportation and child care needs of those individuals whose 
        self-sufficiency plans call for education to be provided 
        concurrently with work, in the weekly hours over and above 
        those devoted to direct work activities.:
    Justification: This recommendation is put forward to assist those 
individuals who may need education or training but for whom a prolonged 
separation from the workforce is deemed inadvisable and who are, 
therefore, working. The proposed legislation wisely accommodates these 
individuals by permitting them to enroll in education and/or training 
for as long as needed in the hours over and above the 24 weekly hour 
minimum that must be devoted to work activity. Difficulties in securing 
necessary support services--particularly transportation and child-
care--hinder greater use of this opportunity for working clients, often 
constraining the opportunity to advance in education and qualify for 
better paying work.
    One potentially successful model could be similar to the 21st 
Century Community Learning Center program of the Department of 
Education. In that model education of adults, and child-care and 
remedial education for children, occur at the same site and on the same 
schedule. Traveling to the same site also simplifies transportation for 
both children and adults.
    I thank you on behalf of the National Coalition for Literacy and 
the National Council of State Directors of Adult Education for this 
opportunity to present our recommendations to the Committee.

                                 <F-dash>

         Statement of Helen Blank, National Women's Law Center
    The National Women's Law Center welcomes the opportunity to submit 
this written testimony on the child care needs of low-income working 
families.
    Welfare reform was passed in 1996 with the promise that new work 
requirements paired with increased funding for work supports would 
enable families to move off welfare and gain self-sufficiency. Child 
care assistance was seen as a crucial part of this strategy. This 
recognizes the reality that working parents live with every day: 
parents cannot get and keep a job if they do not have a safe, reliable 
caregiver for their child while they work. As a result, states made 
child care assistance a central part of their efforts to move families 
from welfare to work, and federal and state spending on child care 
increased significantly throughout the late 1990s.
    Child care assistance, both for families receiving TANF and other 
low-income families, is essential to ensure that welfare reform is 
about more than moving families off welfare but rather about helping 
families succeed in supporting themselves. During the late 1990s, an 
increasing number of families had access to this critical support that 
enabled them to improve their lives. With assistance, parents could 
afford reliable child care, which increased the chances that they could 
get and keep a job and gain a stable financial footing while ensuring 
the well-being of their children.
    Studies demonstrate that child care assistance can make a real 
difference in families' ability to work and succeed. An analysis of 
data from the 1990s shows that single mothers who receive child care 
assistance are 40 percent more likely to remain employed after two 
years than those who do not receive assistance in paying for child 
care\1\ Former welfare recipients with young children are 82 percent 
more likely to be employed after two years if they receive child care 
assistance.\2\ Another study found that 28 percent of families leaving 
welfare who did not receive child care assistance within three months 
of leaving returned to welfare, while only 19 percent of those who did 
receive child care assistance returned to welfare\3\
---------------------------------------------------------------------------
    \1\ Heather Boushey, ``Staying Employed After Welfare: Work 
Supports and Job Quality Vital to Employment Tenure and Wage Growth'' 
(Economic Policy Institute Briefing Paper), Washington, DC: Economic 
Policy Institute 10 (2002).
    \2\ Heather Boushey, ``Staying Employed After Welfare: Work 
Supports and Job Quality Vital to Employment Tenure and Wage Growth'' 
(Economic Policy Institute Briefing Paper), Washington, DC: Economic 
Policy Institute 12 (2002).
    \3\ Pamela Loprest, Use of Government Benefits Increases among 
Families Leaving Welfare (Snapshots of America's Families III Series, 
No. 6), Washington, DC: Urban Institute (2003).
---------------------------------------------------------------------------
    Unfortunately, due to stagnant federal funding and state cutbacks, 
child care supports have steadily eroded over the past several years, 
leaving families with less access to assistance as well as reduced 
levels of assistance. Federal funding for the Child Care and 
Development Block Grant (CCDBG), has not only failed to keep pace with 
inflation, but has actually declined over the past several years, from 
$4.817 billion in FY 2002\4\ to $4.799 billion in FY 2005. At the same 
time, the amount of Temporary Assistance for Needy Families (TANF) 
block grant funding used for child care has declined. The total amount 
of TANF funds that states chose to transfer to the CCDBG or use for 
child care directly within the TANF block grant dropped from a peak of 
nearly $4 billion in FY 2000 to $3.5 billion in FY 2003 (the most 
recent year for which data are available) \5\ These funding trends, 
combined with state budget deficits, resulted in cuts to child care 
programs in many states. States have lowered eligibility limits for 
child care assistance, frozen reimbursement rates for providers serving 
families who receive assistance, required parents to pay more toward 
the cost of care, and reduced funding for quality improvement 
initiatives, including efforts to boost child care teachers' education 
levels and compensation.
---------------------------------------------------------------------------
    \4\ See U.S. Department of Health & Human Services, FY 2003 
President's Budget for HHS 83, 92 (2002), at http://www.hhs.gov/budget/
pdf/hhs2003bib.pdf (last visited Jun. 28, 2004). This amount includes 
$2.1 billion in discretionary funding and $2.717 billion in mandatory 
(entitlement) funding. Id.
    \5\ Mark Greenberg and Hedieh Rahmanou, TANF Spending in 2003, 
CLASP, January 18, 2005, p. 6. Available at http://www.clasp.org/
publications/fy2003-tanf-spending.pdf (last visited Jan. 27, 2005).
---------------------------------------------------------------------------
    A September 2004 report by the National Women's LawCenter found 
that:

    <bullet>  Between 2001 and 2004, the income eligibility cutoff for 
a family to qualify for child care assistance declined as a percentage 
of the poverty level in about three-fifths of the states.
    <bullet>  In 2004, a family earning just above 150 percent of 
poverty ($23,500 a year for a family of three) would not even qualify 
for child care assistance in 13 states. In Missouri, a family of three 
earning over $17,800 a year would not qualify for help.
    <bullet>  In about half the states, a family with an income at 150 
percent of poverty saw their copayments increase as a percent of income 
between 2001 and 2004 if they were receiving child care assistance, or 
was no longer even eligible for help. The copayments for a family of 
three at 150 percent of poverty with one child in care go as high as 22 
percent of income ($423 a month) in Oregon and 19 percent of income 
($368 a month) in Arkansas.
    <bullet>  Even if a family is eligible for help, they may not 
receive assistance. Nearly half the states, lacking sufficient funds to 
serve all families who qualify, place families on waiting lists or in 
some cases turn them away without even taking their names. In some 
states, the waiting lists are quite long. There were over 46,000 
children on the waiting list in Florida, almost 36,000 families in 
Georgia, 26,500 children in Texas, nearly 25,000 children in North 
Carolina, about 23,000 children in Tennessee, and over 16,000 children 
in Massachusetts as of early 2004.
    <bullet>  States must pay adequate reimbursement rates to child 
care providers if families receiving assistance are to be able to 
choose among good options for child care. Yet nearly three-quarters of 
states fail to set rates at the level recommended in federal 
regulations. Some rates are particularly low--Michigan still bases its 
rates on 1996 prices, and Missouri sets its rates for infant care based 
on 1998 prices while its remaining rates are based on 1991 levels.\6\
---------------------------------------------------------------------------
    \6\ Karen Schulman and Helen Blank, ``Child Care Assistance 
Policies 2001-2004: Families Struggling to Move Forward, States Going 
Backward'' (National Women's Law Center Issue Brief), Washington, DC: 
National Women's Law Center 2-4 (2004)

    The Center surveyed approximately 200 parents and providers across 
the U.S. to better understand the effect of these cutbacks. It is clear 
that in making cuts to their child care programs, states have 
frustrated families' efforts to move ahead. Instead of supporting 
hardworking families, the system actually discourages them from 
working. Families who manage to struggle their way out of poverty find 
themselves suddenly deprived of supports that helped them move forward. 
Families who desperately want to avoid becoming dependent on welfare 
---------------------------------------------------------------------------
are stymied by a system that they feel is rigged against them.

    <bullet>  A parent in Rockville, Maryland expressed her concerns 
that she would be forced to return to welfare without assistance. She 
wrote, ``. . . I have two boys in need of childcare. If I do not 
receive childcare within the next upcoming weeks, I will have no other 
choice but to resign from my job--This cut will put me back to the 
welfare line. Please, I've worked hard to stay off welfare. I do not 
wish to return to that road.''
    <bullet>  A provider in Muncie, Indiana told of a case in which she 
had a parent ``literally standing in front of the admission desk in 
tears saying, ?I can't afford to work.' The provider, discussing the 
state's very low income cutoff for child care assistance, went on to 
say, ``It pays to be on welfare now and it does not pay to get off 
welfare. The minute you rise above 127 percent of poverty there's no 
help, no help. . . . Nobody qualifies for assistance now who's working. 
I don't know how it got to this point; it's not a pretty picture. We're 
back where we were before welfare reform started. This is not just 
pushing them in the wrong direction, it's forcing them in the wrong 
direction. You cannot survive if you're working at a low-paying job. 
Your choice is, cut back hours and try to qualify for welfare.''
    <bullet>  A provider in Ohio described how families struggled to 
afford the higher copayments the state had imposed: ``Families are 
really struggling right now . . . A copay of $15 a month went up to $95 
or $100 a month. Just that in itself, they couldn't afford to pay. They 
have to make a decision whether to put food on the table, pay their 
mortgage, get gas for the car, or whether to pay a copayment for child 
care. You know, they don't have enough money to pay for all those 
things, so they've had to make incredibly difficult choices.''

    The cuts to child care programs have serious impacts on children as 
well. Without access to child care assistance, families cannot get the 
reliable child care that children need for a sense of stability, much 
less the strong early learning experiences children need to prepare 
them for school. Families that lose assistance often are forced to move 
their children from programs that they have grown to love. Even if 
families are able to continue receiving assistance, high copayments and 
low rates make it difficult to access the quality child care that helps 
their children thrive. State cuts in provider reimbursement rates, 
quality initiatives, and other areas also deprive providers of the 
resources they need to offer enriching care that promotes children's 
development. Children lose out when their child care providers cannot 
pay wages that are high enough to attract and retain well-qualified 
staff, buy new playground equipment, or even purchase books, crayons, 
and other materials. While state policy makers increasingly emphasize 
the importance of school readiness, they are cutting the child care 
investments that are crucial to ensure low-income children have access 
to the high quality care that would help them prepare for school.

    <bullet>  When a mother of three in Piqua, Ohio lost her child care 
assistance due to a reduction in the state's eligibility cutoff, she 
could no longer use paid child care. She explained, ``I have a good job 
and make decent money. But, obviously, I can't afford day care and I 
don't know who can.'' Instead, her daughter's father was watching three 
children, a 7-year-old, a 4-year-old, and a 3-month-old. He owned a bar 
and had to change his work hours in order to take care of the children; 
he now cannot open his bar until 4 p.m., which cuts into his business. 
The children went along with him on deliveries and ``are in and out of 
the car all day.'' The mother said, ``It would not even be worth it to 
work if I had to pay for day care. It is not more than I make but I own 
my house and I have bills and I have a car payment. I know some people 
look at it, well you shouldn't have three kids, but I know they are my 
responsibility and I've had to do what I've had to do. I don't 
understand why welfare can help people who don't work, but when you 
want to do something for yourself and you've worked since you were 14 
years old and they don't want to help you do nothing.'' She wishes she 
could send all her children to child care ``because it is much more 
structured and they learn more . . .''
    <bullet>  In South Carolina, a mother who was a prep cook at a 
restaurant had her 3-year-old son at a child care center until she lost 
her subsidy. Now the mother brings her son to work, where he has to 
stay until dinnertime. The management is pressuring the mother to find 
another arrangement and may end up letting her go.
    <bullet>  A provider in Muncie, Indiana talked about a 4-year-old 
boy left to care for himself. His mother lost her child care assistance 
because she received a raise of 50 cents an hour and without subsidies, 
she could no longer afford the provider's center. One ``bitterly cold 
day in the winter,'' when ``(n)ot a human or animal should've been 
outside,'' the 4-year-old was found wandering outside after being left 
alone while his mother went to work. When the driver of a city bus 
spotted the boy, the boy told the driver his name and the name of the 
center he had attended. The driver brought the boy to the center. The 
provider pointed to this as an example of how ``(r)eally good parents, 
when they're pushed into a corner, can make really bad decisions.''
    <bullet>  One Georgia parent on the waiting list for child care 
reported that she was leaving her infant and school-age child with 
their grandmother even though their grandmother had a disability and 
was in a wheelchair. She was not able to change the baby's diaper until 
the 8-year-old came home from school. But the children's mother had no 
other options. A center director in Laurel Hills, South Carolina 
discussed a family whose 2-year-old child was staying with a 92-year-
old grandparent because they could not afford anything else.
    <bullet>  A provider in Roseburg, Oregon talked about one child in 
her center who had been making progress before he was taken out. The 
provider described the child as ``headstrong, difficult,'' but ``with 
consistency he was getting better, following rules and listening 
better. He was really improving.'' But when the child's mother's work 
hours were cut, she had to take him out of care. The provider said that 
this was ``sad because he was improving so much from the structure 
every day.'' Since his mother could not get child care help while 
working so few hours, she had quit her job and turned to welfare.

    Parents trying to work and their children are not the only ones 
hurt by state child care cuts. Child care providers, who are 
essentially small business owners, also bear the brunt of these cuts. 
In several states, child care providers have been simultaneously hit by 
lowered eligibility cutoffs that reduce the number of families they can 
enroll, frozen reimbursement rates that fail to keep pace with 
inflation over several years, and higher parent copayments that 
providers have great difficulty collecting from cash-strapped families. 
This only exacerbates the situation for child care providers who are 
already operating on very tight margins. When states scale back 
eligibility criteria or increase parent copayments some child care 
centers serving low-income children see their enrollment drastically 
decrease. And some are forced to close their doors.

    <bullet>  A director of a center in South Carolina said that after 
putting it off as long as possible, the center was getting ready to 
scale back on staff because they could no longer afford the current 
staff levels and enrollment had not gone back up as they had hoped. The 
center was licensed for 40 children ages 2 to 4, but enrollment had 
dropped to just 24 children. The decline in enrollment can be at least 
partially explained by subsidy cuts. When she first became director, 
about 90 percent of her children were receiving subsidies, and at the 
time of the interview only one child was.
    <bullet>  A director of a child care center in Alabama said she was 
upset that she did not have the resources to keep up the building or 
buy supplies or even take the steps needed to meet safety requirements 
for licensing. The center was licensed for nearly 200 children, and had 
150 children enrolled until relatively recently, but was down to only 
about 70 children--the lowest enrollment in eight years.
    <bullet>  Just in a 10-mile radius in Anoka County, Minnesota alone 
four centers went out of business due to a lack of enrollment, which 
resulted from the poor economy and parents pulling their children out 
as they lost assistance. One center that closed had operated for 12 
years. It was run by the school district and served 55 children, 
including many new immigrants and children who were learning English as 
a second language. Most of the children in the program were receiving 
assistance. Another center that closed had been located in a church. A 
third center was located in a nursing home and served families that 
spoke eight different languages. The center served a mix of families 
with subsidies and private-paying families.
    <bullet>  A provider in Cave Junction, Oregon was about to close 
down her center after operating it for 11 years. It was the only center 
in the rural part of southern Oregon. She had previously closed the 
center, but reopened it after four months because the parents kept 
calling her and begging her to do so. Yet she could not continue to 
operate because she could not afford to pay the staff she needed. She 
explained that while her program met state ratio requirements, ``I feel 
like I'm warehousing children and I always said that if that happened 
I'd close.'' Ninety percent of the children she served were receiving 
child care assistance, and the remainder of the children just missed 
the cutoff. The provider said that the reimbursement rates in her area, 
which were below those in the rest of the state, were ``way too low.'' 
The provider said families, both with and without assistance, had a 
hard time paying for care. She spoke of families who came to her crying 
and saying, ``I don't know what to do, I pay you or I have heat.'' At 
Christmastime, families say, ``It's you or Christmas.'' One of the 
mothers she had served could not go to her job because it did not pay 
her enough for her child care. The provider sometimes traded with 
parents rather than receiving payment in cash. ``I get paid in 
chicken,'' she laughed. She went on to explain how she came to her 
decision to close her center: ``I always told myself I'd try to give 
other people's kids the care I'd want for my own kids. What I'm doing 
now isn't fair to the kids, and it isn't fair to me. . . . So I'm 
stopping.''

    Child care providers make enormous personal sacrifices to keep 
their programs going in the face of cuts. Not only do they accept lower 
wages than their qualifications would merit, but they also take money 
out of their own pockets to purchase supplies, take on additional 
responsibilities when the program cannot afford to hire more staff, and 
in some cases use up their own savings to cover their program's debt.
    These providers are constantly faced with moral dilemmas as they 
try to balance their responsibilities to their staff, parents, and 
children. They often feel they are letting down one or more of these 
groups. Many providers feel an obligation to serve low-income children 
receiving subsidies, but they also feel an obligation to pay their 
staff decent salaries, which is next to impossible to do with very low 
state reimbursement rates. Accepting more children with subsidies at 
such low rates can also make it hard to even keep their programs 
operating for the other children they serve that depend on them. While 
providers may want to improve the quality of their programs so they can 
offer better care for the children they serve, quality improvements 
cost money, and could require them to increase how much they charge 
parents. Yet parents can barely afford care as it is. State child care 
cuts essentially pass off the responsibility for making the difficult 
tradeoffs on to providers.

    <bullet>  A provider in the Des Moines area of Iowa said that state 
reimbursement rates for subsidized child care, which had not been 
increased since 1998, were $72 a week lower than the private-pay rate 
for infants, $65 a week lower for two-year-olds, and $39 a week lower 
for preschoolers.
    <bullet>  An Oregon provider said she charged $660 a month for 
infant care, but the state rate for infant care in her region was only 
$455 a month; she charged $616 a month for preschoolers, while the rate 
paid by the state for this age group was only $435 a month.
    <bullet>  A provider in Ohio discussed the hard work of her 
underpaid staff: ``Even though I just got to pay teachers $8.50 an 
hour, you have a two-year degree and you still have to clean your own 
classroom, clean your own toilet and buy your own supplies for your 
classroom. And you're very stressed when you leave your job because the 
children have no support systems and you're dealing with difficult 
problems and then you try to meet your payments and pay your bills and 
you get into a car that is not working. . . . While the kids nap, as a 
teacher, you're looking for clothes for a kid that doesn't have any, 
you're making lesson plans, scrubbing toilets and calling parents and 
at the same time, you also have to worry about the kids.'' She also 
talked about her own burden: ``We're a nonprofit, so I'm not making 
anything. I weed the flower beds, I write my own grants, I water the 
plants and I clean the birdcages. I don't make a big salary but my desk 
is also filled with paperwork and I also have to be in the classroom to 
see what the teachers and kids need.''
    <bullet>  A provider running several centers in Georgia said his 
program continued to serve children receiving subsidies despite low 
rates. Georgia had only given one $5-a-week increase in rates over the 
past eight years. The last increase in rates had been in 2000, and they 
had had no increases in the four years prior to that. Yet the program 
saw it as part of its mission to serve children receiving subsidies--to 
give children the nurturing they need to succeed. The provider said, 
``That's what we believe, what we do, and have been doing it for over 
10 years.'' The centers serve children with special needs, including 
children who are in wheelchairs, children with asthma, children who are 
hearing impaired, and children with diabetes. However, they do not 
receive additional funding to serve these children. The provider said 
that they aim to continually challenge each child and to ``give them 
the will to and want to learn.'' Many of the children the program 
served came from difficult circumstances. He explained, ``We feed them 
extra food on Fridays.''

    The National Women's Law Center urges the Committee to reject the 
President's proposed budget for the Child Care Development Block Grant 
that would result in over 300,000 fewer children receiving child care 
help by 2009 and instead significantly increase funding for child care 
over the next five years in the TANF reauthorization. Parents need help 
more than ever so they can get and hold onto a job that supports their 
families. Over the past several years, median incomes have been 
stagnant while the number of families in poverty as well, as the number 
of families without health insurance, have increased. Child care 
funding has been on hold, leaving many families' lives on hold as well. 
Without additional investments in child care, many more families will 
be left without the good quality care parents need to keep a job and 
that children need to promote their successful development. Families 
who desperately want to work and move ahead, and want their children to 
move ahead, will instead find themselves falling further behind.

                                 <F-dash>

   Statement of Sherri A. Salvione, New York State Coalition Against 
                  Domestic Violence, Albany, New York

Introduction
Domestic Violence Issues Recommendations.
    <bullet>  The Use of Family Violence Option Waivers Should be 
Continued and States Should be Required To Use the Federal Standard 
When Deciding Whether or Not to Grant Domestic Violence Waivers
    <bullet>  TANF Funding Should be Increased in Order to Ensure that 
the Needs of Women Who Are Abused Are Met
    <bullet>  States Should be Required to Adopt Clear and Expansive 
Policies Regarding Time Limit Exceptions for Domestic Violence Victims
    <bullet>  Require States to Implement Procedures to Screen for 
Domestic and Sexual Violence Throughout the Application and Re-
certification Process
    <bullet>  States Should be Required to Implement Procedures to 
Ensure that Victims of Domestic and Sexual Violence are not Sanctioned 
for Non-compliance with Program Requirements
    <bullet>  Continue to Enforce and Require that States Ensure that 
Domestic and Sexual Violence Services and Waivers are Completely 
Voluntary and Confidential
    <bullet>  Fatherhood and Marriage Initiative Programs Must Work 
with Licensed Domestic Violence Programs In Order to Effectively 
Address the Issues of Domestic Violence Within Such Programs
    <bullet>  Require States to Solicit Regular Input from Statewide 
Domestic Violence Advocacy Organizations, Local Domestic Violence 
Programs and Survivors and Develop Processes to Ensure HHS Receives 
Similar Ongoing Input
General TANF Recommendations
    <bullet>  Introduce New Evaluative Measures
    <bullet>  Protect and Increase--Don't Decrease--TANF Funding
    <bullet>  Support Families In Obtaining Real Economic Security 
Promote Access to Services
    <bullet>  Strengthen Charitable Choice Protections
    <bullet>  Ban All Discrimination in the TANF Program
INTRODUCTION
    The New York State Coalition Against Domestic Violence (NYSCADV) is 
pleased to summit recommendations for TANF Reauthorization. The purpose 
of these comments is to provide the Ways and Means Subcommittee on 
Human Resources with a better understanding of how TANF has impacted 
women who are abused and their children in New York State
    The New York State Coalition Against Domestic Violence (NYSCADV) is 
the only statewide, non-profit organization in New York State whose 
primary goal is the elimination of domestic violence. Since its 
inception in 1978, the Coalition has been a driving force behind 
support for the development of hundreds of programs throughout New York 
State that provide services to women who are abused and their children. 
Coalition members include domestic violence programs, shelters, safe 
homes projects, advocacy and counseling projects, as well as other 
community agencies and individuals who share our goal of eradicating 
domestic violence through advocacy, education, public awareness and 
program development.
    The relationship between domestic violence, welfare and employment 
is well documented in research. For many women, domestic violence and 
poverty are interconnected. Research has shown that women who are 
abused receiving welfare have a variety of interests and needs that are 
complex and highly variable (Lyon, 2000, Tolman and Raphael, 2000 and 
Raphael, 2001). Thus, individualized assessment and responses to women 
who are abused are necessary to address their poverty and employment 
options. Some women who are abused face extreme circumstances and will 
need special supports and considerations, such as additional advocacy 
and services, or short--or long--term waivers/exceptions from welfare 
program requirements. Others may not need these options and only want 
to be provided the same services as any standard welfare recipient.
    In response to these various needs most states, including New York, 
have chosen to adopt the federal welfare Family Violence Option (FVO) 
within their TANF programs (Raphael and Haennicke, 1999). New York 
States' implementation of the FVO provides temporary waivers to victims 
of domestic violence from TANF program requirements, such as work 
requirements, child support cooperation etc., if complying with such 
program requirements would make it more difficult for the victim to 
escape domestic violence or put her at further risk (NY Social Services 
Law <bullet> 349-a). The FVO is implemented in New York by domestic 
violence liaisons, who receive a four-day training from domestic 
violence experts and are either employees of the local social service 
districts or are contracted out to approved domestic violence programs. 
Once applicants for TANF indicate that a partner has abused them, they 
are referred to the domestic violence liaison. The domestic violence 
liaison assesses the credibility of the need of a waiver for a victim, 
assesses the need for waivers and refers the victim to supportive 
services within the community (18 NYCRR 369.2).
    While the NYSCADV and other domestic violence advocates provided 
input to the crafting of the FVO in New York, it has not been an 
overall success dues to implementation problems. The New York State 
implementation of the FVO has not substantially addressed women's 
safety or provided an effective response to the complex needs of 
domestic violence victims within the TANF system (See ``Dangerous 
Indifference, New York City's Failure to Implement the Family Violence 
Option'', A Joint Project of the NOW Legal Defense and Education Fund, 
The Legal Aid Society, Civil Division, The Women, Welfare and Abuse 
Task Force and The Urban Justice Center). The statistics on the number 
of waivers granted by the FVO in New York are quite low compared to 
what the above research tells us about the number of TANF recipients 
that are women who are abused (Of 7,386 individuals who indicated 
current danger due to domestic violence, only 3,628 were granted 
waivers). The low number of reported waivers may demonstrate the need 
for improved implementation of the Family Violence Option. New York 
State is currently using a reduced definition of the Federal FVO 
eligibility criteria for waivers that can be granted under the FVO. 
This coupled with the fact that research has shown that many women who 
are abused are not only interested in receiving waivers but also want 
more supportive services, for example, child care assistance, 
transportation assistance and housing assistance, has left many women 
who are abused trapped by their abuse and poverty in New York State 
(Lein, et. al, 2000).
    The following recommendations reflect the NYSCADV experience over 
the past nine years while working with welfare reform and economic 
justice issues for women who are abused. The recommendations focus 
specifically on the FVO but also incorporate overall recommendations 
for TANF reauthorization. Women who are abused are impacted by all 
welfare policies and the adoption of these recommendations would 
enhance the safety and self-sufficiency of women who are abused and 
ensure that the specific and complex needs of women who are abused are 
more effectively addressed.
DOMESTIC VIOLENCE ISSUES RECOMMENDATIONS
The Use of Family Violence Option Waivers Should Be Continued And 
        States Should Be Required To Use the Federal Standard When 
        Deciding Whether or Not to Grant Domestic Violence Waivers.
    <bullet>  States should be permitted to continue to waive, without 
time limit, any state or federal program requirement for so long as 
necessary in any case in which the requirement makes it difficult for 
the individual receiving assistance to address his or her domestic or 
sexual violence issues, unfairly penalizes the individual or makes the 
individual unsafe (See 45 CFR Sec. 260.52(c)).
    <bullet>  States that have adopted the federal Family Violence 
Option should be required to use the above federal standard when 
assessing whether or not to grant a domestic violence waiver. Currently 
in New York State, waivers are only permitted if compliance with such 
requirements would make it more difficult for the individual or the 
individual's children to escape from domestic violence, or subject the 
individual, or the individual's children to further risk of domestic 
violence (New York Social Services Law 349-a (5)). Consequently, 
individuals in New York State that have successfully escaped an abusive 
partner and are not currently at risk of abuse are not eligible for a 
domestic violence waiver, despite the fact that the individual may 
still be struggling to address the emotional and physical consequences 
of the abusive partner, and these issues may make it impossible for 
such individual to comply with certain program requirements.
TANF Funding Should Be Increased In Order to Ensure That the Needs of 
        Women who are abused Are Met
    <bullet>  Many states, including New York, use TANF surplus or 
Maintenance of Effort funds to expand services, protections and 
supports to domestic violence victims. These programs are critical in 
order to ensure that the complex needs of domestic and sexual violence 
victims are being met. For example, New York State has used TANF 
surplus money to support domestic violence service providers in 
providing non-residential services to TANF eligible women who are 
abused and their children. This program has been successful and women 
who are abused would benefit from expansion of this program. In New 
York, decisions about the use of these TANF funds are best left to the 
State, rather than to the localities.
    <bullet>  Domestic violence programs traditionally provide a 
variety of job training services. Federal guidelines are needed to 
assure availability of and flexibility for TANF funds for compensation 
to domestic violence programs for these TANF-related services.
States Should Be Required to Adopt Clear and Expansive Policies 
        Regaurding Time Limit Exception for Domestic Violence Victims.
    <bullet>  Require States to extend time limits to domestic violence 
victims based on the current federal definition of when such extensions 
are allowable. Currently, federal law allows states to extend time 
limits to domestic violence victims based on the need for continued 
assistance due to current or past domestic violence or the risk of 
further domestic violence. [45 CFR <bullet> 260.59 (2)(i)] The federal 
regulations encourage states to ``give victims the assurance they need 
that: (1) they will not be cut off when they reach the federal time 
limit if they still need assistance; and (2) they will be able to 
return for assistance if the need recurs (64 Fed. Reg. 17746).
    <bullet>  Require States to provide clear policies and procedures 
to allow a domestic violence victim to ``restart benefits'' when a 
victim experiences abuse, is at risk of further abuse or addressing 
consequences of previous abuse after she has exhausted her time on 
benefits. States should allow victims of domestic and sexual violence 
to stop the clock while they are receiving benefits if they are 
experiencing abuse, are at risk of further abuse or are addressing 
issues related to the domestic or sexual violence they have experienced 
in their lives. In New York, a victim of domestic violence is only 
eligible for a time limit waiver if, at the end of the allowable time 
on TANF funds, she is unable to work or participate in a training 
program due to a medically verifiable physical or mental disability 
caused by domestic violence that is expected to last three months or 
more (New York Social Services Law <bullet> 349-a (5)). New York States 
adoption of such a limited definition of who can receive a time limit 
exception excludes numerous women who are abused who may not be able to 
show that they cannot work but may need time to achieve safety and 
start a new life.
Require States To Implement Procedures To Screen For Domestic And 
        Sexual Violence Throughtout The Application And Re-
        Certification Process.
    <bullet>  Coordinate or contract with appropriate domestic violence 
coalitions, sexual assault coalitions or domestic violence and sexual 
assault programs in the development and implementation of policies, 
procedures and programs to address domestic and sexual violence in the 
lives of TANF clients. Currently, in New York all applicants and all 
recipients for domestic violence are screened for domestic violence 
through a universal screening form. If an applicant or recipient 
identifies affirmatively then they are referred to the Domestic 
Violence Liaison. However, individuals have frequently reported not 
being screened for domestic violence as well as being unsure why 
questions regarding domestic violence are asked in the first place. As 
such, they may not voluntarily indicate that they are victims of 
domestic violence.
States Should Be Required To Implement Procedures To Ensure That 
        Victims Of Domestic And Sexual Violence Are Not Sanctioned For 
        Non-Compliance With Program Requirements.
    <bullet>  Before imposing any sanctions for non-compliance with 
program requirements, states should implement standards and procedures 
for reviewing such cases and ensuring that the individual's non-
compliance is unrelated to efforts to deal with domestic violence or 
sexual violence issues. As a result of the inappropriate implementation 
of the screening process in New York State, recipients have found 
themselves being sanctioned for non-compliance with certain program 
requirements that could have been addressed through a FVO waiver.
Continue To Enforce And Require That States Ensure That Domestic And 
        Sexual Violence Services, And Waivers, Are Completely Voluntary 
        And Confidential.
    <bullet>  Domestic violence services must be voluntary. Disclosure 
of domestic violence on a screening form should not create a mandate 
for services. HHS regulatory language concerning service plans wrongly 
establishes this premise. It is especially egregious when women 
identify domestic violence on the screening form, but do not request or 
are denied waivers, but are mandated to domestic violence services 
anyway. This has occurred in New York.
    <bullet>  Confidentiality of records remains a serious concern for 
victims of domestic violence. Access to domestic violence information 
in individuals' temporary assistance records should not be universally 
available with local social services districts. Only the domestic 
violence liaison should have access to this information.
Fatherhood and Marriage Initative Programs Must Work With Licensed 
        Domestic Violence Programs In Order to Effectively Address the 
        Issues of Domestic Violence
    <bullet>  States and programs that receive federal funds to 
implement fatherhood and/or marriage initiative programs that are 
designed to promote paternal involvement in poor families or strengthen 
families must be required to work in collaboration with licensed 
domestic violence programs. In conjunction with licensed domestic 
violence programs, fatherhood and/or marriage initiative programs must 
be required to provide training in domestic violence to all staff and 
document how domestic violence issues will be addressed in the program 
design and implementation. Programs should not, for example, recommend 
unsupervised visitation where a temporary or regular order of 
protection has been issued. Without such policies in place, these 
programs could make it more difficult for an individual to leave an 
abusive partner, may encourage or preserve unhealthy or unsafe 
relationships, or endanger children and women's lives and well-being.
Require States To Solicit Input From Statewide Domestic Violence 
        Advocacy Organizationd, Domestic Violence Programs And 
        Survivirs, And Develop Processes To Ensure HHS Receives Similar 
        Ongoing Input.
GENERAL TANF RECOMMENDATIONS:
Introduce New Evaluative Measures.
    <bullet>  The focus of TANF should be shifted from reducing the 
welfare caseloads rolls to reducing poverty. Evaluative measures under 
TANF should be expanded to include reductions in child poverty and 
improved economic circumstances for working families. Specifically, 
TANF should focus on:
    a) supporting caregivers for: a child who is under age 6, an 
elderly or disabled family member or child under court supervision.
    b) promoting education and training for jobs that pay a living wage
    c) safeguarding access to Medicaid, Food stamps, child care and 
other work supports
    d) mandating access to services that address employment barriers 
such as mental illness, physical disability, substance abuse, and 
domestic and sexual violence
Protect And Increase, Don't Decrease, TANF Funding.
    <bullet>  The problem of poverty has not been solved even though 
temporary assistance caseloads have been reduced. In fact, with severe 
fiscal pressures at the local, state and federal levels, it is unlikely 
that the caseload will remain as low as it is. New York State is in 
serious economic trouble. State allocations for non-profits providing 
social services have been severely cut for several years. Social 
services programs that serve TANF families are being forced to layoff 
staff and close their doors at a time when New Yorkers need more 
services. Hence, New York needs more, not less, money to help move poor 
families out of poverty by funding the supportive services that 
families need to find good work and training programs, work supports 
and services for those with barriers to employment.
    <bullet>  As part of TANF reauthorization, and in tandem with an 
overall increase in TANF funding, states should be required to:
    a) Maintain state funding of TANF-related programs and state 
Maintenance of Effort (MOE) requirements in tandem with any across-the-
board increase in federal TANF funding. This is especially important to 
ensure continuous funding for existing essential services such as 
domestic violence, transportation, child-care, etc. Preference should 
be given toward strengthening existing programs rather than creating 
additional programs.
    b) ``Open up'' TANF by providing income supplements, education and 
training and other supports to low-income families, regardless of 
whether they have received TANF funding in the past or are currently 
working in low wage jobs, thereby eliminating the artificial 
distinction between the ``welfare'' poor and the ``working'' poor.
    c) Use TANF funds in ways the supplement, not supplant, existing 
federal, state or other funding.
    d) Provide better reporting on their use of TANF and state MOE 
funds in sufficient detail so that even states in which localities 
(such as counties) have broad authority over TANF spending, the TANF 
funding decisions are transparent to the state and federal policymakers 
and the public.
    e) Provide information on how welfare leavers are faring regarding 
housing, employment, health care, etc., and the extent to which TANF 
programs help parents find jobs and reduce poverty rates.
    f) Prioritize improving access to existing work supports such as 
Food Stamps and Medicaid/SCHIP.
    g) Require States to authorize funding for work related materials 
and services.
Support Families In Obtaining Real Economic Security
    <bullet>  Reauthorization of TANF should focus on providing 
opportunities for all-low income families, including low-wage workers, 
unemployed parents, and immigrants. Elements of the law should stress 
positive incentives, assets and programs that have worked to help get 
people employed, retain their employment, and provide supplemental 
income and supports to achieve economic security.
    a) Time Limits
    <bullet>  Eliminate or modify time limits. It is clear the five-
year lifetime limit on assistance is insufficient to assist individuals 
in finding meaningful, long-term employment with a livable wage. Even 
though there has been a dramatic drop in the caseload, the status and 
well-being of welfare leavers is unclear and many people who remain on 
the caseload have significant barriers to employment. Furthermore, the 
current fiscal climate will make it harder for everyone on welfare to 
find and keep a job. These vital adjustments to the time limits should 
also factor in the needs of individuals currently leaving temporary 
assistance because of the 60-month time limit by reintegrating them 
into the program.
    <bullet>  The time limit clock should be stopped for individuals in 
compliance with program requirements (for instance, engaged in a work 
activity), residing in a domestic violence shelter or with barriers to 
employment
    <bullet>  A ban on time limits shorter than 5 years
    <bullet>  The elimination of the 20% cap
    b) Make work pay
    <bullet>  Increased wages, wage supplements and other supports 
should reflect family size and geographic location with a goal to lift 
individuals and families out of poverty.
    <bullet>  Increase the federal minimum wage
    <bullet>  Expand the federal earned income tax credit by making it 
more sensitive to family size
    <bullet>  Make the federal child and dependent care credit 
refundable
    <bullet>  Instead of ``workfare'', provide alternative programs for 
publicly funded jobs to meet community needs while also providing work, 
benefits and on-the-job training to welfare recipients
    c) Redefine work to include education, care giving and 
participation in services. For purposes of recipients meeting work 
requirements, as well as states meeting work participation rates, the 
definition of ``work activity'' should be expanded to include:
    <bullet>  fulltime care for a child who is under age 6, an elderly 
or disabled family member or child under court supervision
    <bullet>  vocational training, eliminating the current arbitrary 12 
month limit
    <bullet>  education, including elementary and secondary education, 
literacy, ESL, GED, and higher education (four year and graduate)
    <bullet>  voluntary participation in activities designed to address 
domestic or sexual violence, mental illness, substance abuse, or 
disability
    d) The elimination of the current 20% cap on educational and 
training placements so that TANF recipients can access needed training 
and educational programs. Education and training has been demonstrated 
to be integral to promoting long-term self-sufficiency.
    e) Clarify that labor and civil rights laws apply to TANF 
recipients. TANF participants should be entitled to the same 
protections under civil rights and labor laws as other individuals.
    f) Increase Benefit Levels
    g) There should be a floor on benefit levels.
    h) Require states to develop an index reflecting the real cost of 
living for low-income families and use it to set benefit levels based 
on real need and cost.
Promote Access to Services
    <bullet>  A federal requirement that applications for assistance 
will be accepted unconditionally and immediately. States may not refuse 
to accept an application for assistance nor give an individual reason 
to believe that the state would not unconditionally, immediately accept 
an application.
    <bullet>  Individuals must be given an opportunity to appeal any 
adverse decision.
    <bullet>  Limit sanctions.
    a) Require all states to adopt sanction procedures that ensure that 
barriers are not preventing compliance
    b) Where there is no licensed childcare for school age as well as 
pre-school children, sanctions should not apply. Current law should 
thus be strengthened to mandate sanction protection when quality 
childcare is unavailable for either pre-school or school age children, 
and to prohibit full family sanctions.
    c) Prior to imposition of any sanctions for non-compliance, trained 
caseworkers (or, at the individual's option, qualified professionals) 
will screen individuals for domestic and sexual violence, mental 
illness, disability and substance abuse barriers. If one of these 
problems is identified, the state must provide information on community 
resources for the individual but may not mandate participation. States 
must waive any program requirement that unfairly penalizes an 
individual addressing one of these barriers, or makes an individual 
unsafe.
    d) Modify child support requirements. Sanctions should not be 
imposed for failing to pursue child support and child support that is 
received should be passed through to the family and disregarded in 
determining eligibility for benefits, except when the child support 
amount exceeds the cash benefit amount.
Strenghthen Charitable Choice Protections.
    <bullet>  Current protections should be maintained and new 
protections should be added so that religious providers may not engage 
in religious employment discrimination with TANF funds or include 
sectarian worship, instruction or proselytization in a program funded 
by TANF.
Ban All Discrimination In The TANF Program.
    <bullet>  States should ensure equitable treatment of families and 
not discriminate among families based on marital status or applicant/
recipient status. This is important because administration officials 
have advocated preference for married families in the allocation of 
benefits.
    <bullet>  Restore immigrant eligibility. One of the most egregious 
features of the 1996 act was the denial of benefits to legal 
immigrants.
    <bullet>  Other types of discrimination by states should also be 
outlawed. For example, states should not be permitted to deny benefits 
to children because they are born into families receiving welfare or 
deny benefits to minor parents who are not in school or living with an 
adult
References
    Lein, L. S. Jacquet, C. Lewis, P. Cole, & B. Williams. 2001. With 
the best of intentions: Family violence option and abused women's 
needs. Violence Against Women, 7: 193-210.
    Lyon, E. 2000. Welfare, Poverty, and Abused Women: New Research and 
Its Implications. Policy and Practice Paper #10, Building Comprehensive 
Solutions to Domestic Violence. (Harrisburg, PA; National Resource 
Center on Domestic Violence).
    Raphael, J. 2000. Saving Bernice. Boston: Northeastern University 
Press.
    Raphael, J. & S. Haennicke. 1999. Keeping Battered Women Safe 
Through the Welfare-to-Work Journey: How Are We Doing?Chicago, IL: 
Taylor Institute.
    Tolman, R. & J. Raphael. 2000. A Review of Research on Welfare and 
Domestic Violence. Journal of Social Issues. 24.

                                 <F-dash>

   Statement of Robert Doar, New York State Office of Temporary and 
                Disability Assistance, Albany, New York
    Thank you for the opportunity to provide input as Congress 
considers reauthorizing the Temporary Assistance to Needy Families 
(TANF) block grant program. There is little doubt that the landmark 
1996 federal welfare reform legislation has been an unqualified 
success, despite the predictions of many to the contrary. However, 
states have labored for the last two years under the uncertainties of 
stop-gap continuing resolutions to fund TANF. This puts undue burdens 
on us. New York and other states need enactment of a multi-year 
reauthorization bill that gives us the fiscal and programmatic 
certainty we need to build on the significant progress made over the 
past eight years.
    Before federal welfare reform, New York Governor George Pataki was 
among the most vocal national leaders declaring that the responsibility 
for making welfare reform work rests outside Washington. Beginning in 
1995, Governor Pataki set out to reform a welfare system that had 
trapped hundreds of thousands of New Yorkers in hopeless dependence. 
The commonsense reforms we enacted assure that able-bodied adults work 
or seek work in exchange for assistance and that government in turn 
rewards their efforts. Armed with federal welfare reform authority, 
Governor Pataki saw to it that New York City and the State's other 57 
local social services districts undertook aggressive and innovative 
programs based on this ``require work/reward work'' philosophy. These 
changes empowered people to leave welfare, kept in place a safety net 
for those who are disabled, and helped detect and deter those who 
attempt to defraud the system. New York's old, dysfunctional welfare 
system, which frustrated initiative and kept people separated from work 
and almost wholly dependent on government support, is gone.
    In its place, New York, under Governor Pataki, has developed a 
system based on work, along with an unprecedented array of supports for 
low-income workers and their families. These supports include a 
generous earnings disregard, the nation's largest state Earned Income 
Tax Credit and Child and Dependent Care Credit, sizable investments in 
child care and an aggressive and successful child support enforcement 
program. These investments, made possible by TANF, have helped families 
go to work and keep a hold on their newfound self-sufficiency so they 
can establish a firm foundation for future advancement. Today, New York 
provides supports and programs to those trying to leave assistance, as 
well as to those who have left welfare behind and are trying to make 
better lives for their families. This on-going support is essential in 
order to allow people to remain off of welfare and build economic 
independence.
    The welfare changes enacted in New York since 1995 have had a 
profoundly positive effect on the lives of most low-income New Yorkers. 
New York State's welfare rolls have plummeted by more than one million 
recipients; the work rate of New York's single mothers has risen 
dramatically; the State's child support collections have increased to 
record levels; food insecurity and hunger as measured by USDA have 
steadily decreased; and the poverty rate of children living with single 
mothers in New York State has fallen to its lowest level since the 
1970s.
    These are impressive accomplishments, indeed. But our work is not 
finished and your reauthorization of TANF is vital to New York. Stable 
multi-year funding is necessary for New York and other states if we are 
to maintain and build upon these achievements. Among the issues that we 
feel must be addressed are the following:

    <bullet>  Level funding at least at the current $16.5 billion 
level;
    <bullet>  Maintenance of the current state by state allocation of 
funds;
    <bullet>  Increased child care funding;
    <bullet>  maintenance of the original transfer authority from TANF 
to the child care and development fund (CCDF) and the social services 
block grant (SSBG);
    <bullet>  State flexibility related to the hours and definition of 
allowable work activities to future participation rates, and partial 
credits for less-than-required work hours;
    <bullet>  Adequate funding and broad flexibility to test marriage, 
fatherhood, and family formation initiatives;
    <bullet>  Freedom from unnecessary and burdensome reporting 
requirements; and
    <bullet>  Child support reforms related to distribution rules in 
order to provide more income directly to families.

    FUNDING: States must receive at least the current base level 
funding of $16.5 million in the TANF Block Grant and current state by 
state allocations of funding must remain unchanged.
    The TANF block grant has eroded in real value since 1996. What's 
more, spending patterns under TANF over the last eight years have moved 
steadily away from direct cash assistance and towards supporting the 
working poor through job retention efforts, wage supplements and 
support services. To date, the debate over future TANF funding has 
often centered inappropriately on per-recipient costs as determined by 
dividing total available TANF dollars by the remaining caseload. This 
ignores the reality of post--assistance TANF spending. As an example, 
in New York alone, more than one million low-wage working families with 
children receive a state EITC, which is made possible by TANF. 
Similarly, many working families receive child care assistance as a 
result of our transfer of TANF funds to the Child Care & Developmental 
Fund (CCDF).
    Increasing TANF funds would allow New York and the other states to 
meet their cash assistance obligations and continue to help welfare 
leavers and other poor working families retain employment. With the 
decline in the purchasing power of the dollar since 1996, we are 
reaching a point that will require the scaling-back of many programs. 
Consequently, any effort to reduce TANF block grant funding from the 
current $16.5 billion level or to change the current state by state 
allocation would jeopardize New York's ability to fund critical post-
assistance supports and benefits that stabilize working families in 
employment and keep them from returning to welfare caseloads.
    CHILD CARE FUNDING AND TRANSFER AUTHORITY: States need additional 
child care funding in order to meet increased work participation rates 
and to serve working poor families. New York supports the need for 
additional child care funding at the level proposed in last year's 
Snowe-Dodd Amendment in the Senate. We also support maintaining maximum 
transfer authority from TANF at the current 30%.
    A significant amount of child care funding in New York goes to 
working poor families, many of whom have transitioned off welfare or 
would be at risk of losing employment without child care. The 
anticipated increase in the percentage of TANF families required to be 
attached to the labor force, and the anticipated increase in the 
mandated number of hours per week in a work activity, will require 
additional child care funding. Without additional funding to cover 
these new requirements, we would be forced to curtail subsidies for 
low-income working families and thereby threaten their hard-earned 
financial viability. Last year's Senate-passed $7 billion child care 
amendment would have supported an additional 70,000 children of New 
York's working families in child care arrangements. Without additional 
funds, New York will have to make extremely difficult decisions about 
the extent of its supports for working families.
    Maintaining the transfer authority from TANF to CCDF and the Social 
Services Block grant (SSBG) at 30% continues the tradition of state 
flexibility, which has been a hallmark of the original TANF 
legislation. In addition, the amount of the SSBG has been the subject 
of congressional debate and adjustment for many years. The TANF to SSBG 
transfer authority cap has varied over the years, which makes long-term 
planning difficult at best. Maintaining the original TANF transfer 
authority--a maximum of 10% to SSBG and a total maximum transfer of 30% 
to CCDF and SSBG--is the best outcome for New York.
    FLEXIBILITY IN MEETING WORK PARTICIPATION RATES AND PARTIAL CREDIT: 
States must have maximum flexibility to meet increased federal work 
participation rates and to define what qualifies toward the number of 
hours participants must work weekly.
    The mandatory TANF work-participation rate will likely increase 
over time, as will the number of work hours required of participants. 
New York will be able to deal successfully with an increased work 
participation rate only if reasonable flexibility is maintained. Overly 
prescriptive definitions of what constitutes allowable work activities 
will eliminate the very flexibility that has allowed New York and other 
states to move families off welfare and into employment. Those 
remaining on TANF caseloads often have multiple barriers to employment 
that require individually tailored interventions, which--in some 
cases--will preclude their fulfilling hourly requirements beyond the 
current thirty hours weekly. A final TANF bill should allow states 
flexibility in determining what constitutes allowable work activities 
and include partial work participation credit along the lines outlined 
in S.6.
    States, while maintaining a strong commitment to a work-first 
approach, are still best equipped to determine particular employability 
plans, including the types of activities or combinations of activities 
assigned to meet work participation rates. If such flexibility is 
compromised, we fear that the focus of welfare reform will shiftfrom 
moving people off assistance and into real jobs to a numbers game 
focused more on keeping people busy while they are on welfare.
    CREDIT FOR CASELOAD REDUCTION/JOB PLACEMENT & WORK DIVERSION: 
States should be given the option of utilizing a caseload reduction 
credit or an employment placement credit as a way to meet work 
participation rates.
    The House Bill [H.R. 240] contains a revised caseload reduction 
credit (CRC), as well as a ``super achiever'' credit for states whose 
caseloads declined by more than 60% from 1995-2001. Conversely, S.6 
replaces the current caseload reduction credit with an employment 
credit based on the number of families who are employed after leaving 
cash assistance, with an option to also count those diverted to 
employment through the provision of short term benefits that enabled 
them to work. The Senate employment credit is capped so that in FY 08 
the states' nominal 70% work participation rate could not be reduced to 
an effective level less than 50%. In keeping with the flexibility 
offered under the TANF block grant approach, states should have the 
option to choose whichever approach is most beneficial in meeting 
increased federal work participation rates.
FATHERHOOD AND FAMILY FORMATION: Adequate funding and broad flexibility 
        to test various initiatives to address the needs of poor 
        fathers is essential.
    The need to direct attention and resources to low income fathers is 
an issue that gets too little attention.
    In New York, we consider fatherhood and family-formation 
initiatives to be the constituent elements of the next, progressive 
phase of welfare reform--strengthening family ties and promoting 
marriage where reasonable and voluntary. In order to move to this next 
level, states need adequate funding that does not require them to 
diminish their current focus on low-income working families. We fully 
support proposals for reconfiguring some of the TANF performance bonus 
funds into a flexible funding stream that will support initiatives in 
this area. We are particularly supportive of the provisions contained 
in S.6 which provides $75 million annually for states to test a variety 
of direct programs and media-based efforts to promote economic 
stability among non-custodial fathers and more social and emotional 
interaction by fathers with their children.
    At the end of the day, it takes two contributing parents to attain 
and maintain self-sufficiency. This involves both parents contributing 
economically as well as of their time and resources to their children. 
The data is clear: only 8.4% of children in two-parent families live in 
poverty; for divorced parents and never married parents the percentages 
of children living in poverty jump respectively to 31.3% and 64.1%.
    Putting mothers to work and providing child care and other generous 
work supports has been one successful part of the equation under 
Governor Pataki's welfare reform initiatives. But in and of itself, it 
is not sufficient to promote stable families and economic advancement. 
Addressing the needs of fathers is the current missing ingredient of 
constructive family policy that can lead to better outcomes for 
children.
    Both federal and state initiatives have focused on providing low-
income mothers with encouragement, family supports, employment services 
and work incentives to enable them to transition from welfare to work. 
Without these interventions for fathers, there is limited hope for 
further reductions in child poverty or the involvement of both parents 
in a child's life as a way to enhance social and emotional well-being.
    The respected Fragile Families Study found that fathers have noble 
intentions at the time of their children's birth: 86% of unwed fathers 
planned to support their partner and child financially in the future. 
But despite best intentions, too many of these fathers are currently a 
drag on resources rather than a contributor. They are often unemployed 
or underemployed, unable to pay obligated child support because of 
limited income. They frequently have substance abuse problems and/or 
criminal records. The fathers often lack the skills for long-term 
relationship building, and are undesirable as marriage partners.
    For these reasons, I want to add my voice, and that of Governor 
Pataki, to those who support the provisions in HR 240 and S. 6 that 
amends TANF goal 4 ``to encourage responsible fatherhood.'' In fact, 
Governor Pataki is already advancing policies in New York State to 
strengthen families, this year proposing an initiative known as 
Strengthening Families through Stronger Fathers. This unique Fatherhood 
Initiative is the first of its kind nationwide. It will create a 
greatly enhanced State Earned Income Tax Credit (EITC) for young, 
working, non-custodial parents who are current in paying child support. 
This new EITC will reward those fathers already working by augmenting 
their wages. It will provide a substantial work incentive for those not 
working or working only intermittently. Most important, it will 
encourage greater involvement by fathers who may have avoided contact 
with their children due to their limited resources.
    Other components of this fatherhood initiative include:

    <bullet>  A five-site demonstration establishing intensive work 
programs and parent education for unemployed young fathers who have 
support orders in place or have had paternity established for their 
child;
    <bullet>  Suspension of the enforcement of child support arrears 
owed to the state by non-custodial parents if the non-custodial parent 
marries the mother of the children for whom he owes child support; and
    <bullet>  Increased power for judges, including child support 
magistrates, to order unemployed or under-employed non-custodial 
parents into employment programs when such programs are available.

    As you develop the language of the TANF reauthorization bill and 
ultimately set appropriation levels, I urge you to include substantial 
and separate resources over and above the actual TANF Block Grant 
(using a portion of high performance bonus funds) to support proposed 
fatherhood Initiatives. With new federal financing, New York can 
quickly build upon and expand our efforts to reach young fathers and 
stabilize poor families.
    REPORTING & ACCOUNTABILITY: It is vital that states not be saddled 
with additional and unnecessarily burdensome reporting requirements.
    States have clearly demonstrated their ability to reform and 
innovate while still maintaining program integrity. For instance, as 
states implemented various food stamp simplification options available 
under the 2002 Farm Bill, they not only increased access for various 
populations, but reduced the national average Food Stamp Program error 
rate to its lowest level in 20+ years of the Food Stamp Quality Control 
(FSQC) program. Similarly in TANF, by removing quality control (QC) and 
going to a single audit that measures success based on outcomes, states 
experienced large caseload reductions, increases in working recipients 
and reductions in client dependency, without increasing payment error 
rates. As an example, in New York when QC-like reviews were done on 
TANF in 2002 and 2003 in the state's largest social service districts, 
payment errors were more than 25% lower than under the old AFDC 
program. A potential return to increased and burdensome federal 
oversight that resurrects QC-like processes in federal programs will 
impinge on state flexibility and result in process becoming more 
important than outcomes.
    CHILD SUPPORT DISTRIBUTION RULES: The federal government should 
share in the cost of distributing additional child support to TANF 
families.
    Both the proposed House Bill and S.6laddress the distribution of 
child support to TANF families. The House language requires the federal 
government to waive its share of a pass-through increase, up to $50 
monthly or $100 monthly pass through for TANF families who have 
received benefits for less than five years. The Senate language, which 
we support, goes further by requiring the federal government to waive 
its share of a pass-through increase for TANF families that have 
received benefits for less than 5 years up to a higher level and 
differentiated it so that families with two or more children could 
receive even a higher pass-through. Without the waiver of the federal 
share along the lines proposed by both houses, it is unlikely that New 
York could afford to increase its current $50 monthly pass-through to 
TANF families.
CONCLUSION
    I want to thank Chairman Herger and the members of the Human 
Resources Subcommittee of the House Ways and Means Committee for the 
opportunity to submit these comments for the record. We in New 
YorkState stand ready to assist you and to provide any additional 
insight you may deem appropriate, based on our experience in 
successfully administering TANF to serve a diverse population of needy 
individuals and families.

                                 <F-dash>

 Statement of Daniel W. Dishno, Occupational Training Institute of the 
   Foothill-De Azna Community College District, Cupertino, California

    I am writing to you concerning the inclusion of educational options 
in any legislation proposed in the reauthorization of TANF. Clearly 
education and job skills training is the surest route to self-
sufficiency for welfare moms and dads. I agree that strong families 
need strong supports such as marriage strengthening. Strong families 
mean a strong nation. Surely you can agree that providing a strong 
education component also increases the likelihood that strong families 
will result from good legislation.
    I work daily with TANF parents struggling to become educated so 
they can gain enough skills to support their families. These parents 
know that in order to support their children, they will need to work in 
jobs that can pay enough to help them leave the welfare system behind. 
Research has concluded that gaining skills from an educational system 
such as a community college provides the path to move out of poverty 
and government dependency (``Breaking Through: Helping Low-Skilled 
Adults Enter and Succeed in College and Careers'', November 2004, 
Charles Stewart Mott Foundation and ``Opening Doors Support Success 
Services That May Help Low-Income Students Succeed in Community 
College'', MDRC, November 2004).
    Reauthorizing TANF to be a more successful program is an 
opportunity that you can address through legislation that is positive 
and beneficial. Education is a major component in helping impoverished 
citizens become successful taxpayers and contributors to society.
    Thank you,

                                 <F-dash>

 Statement of Maggie Bagon, Oregon Human Rights Coalition, North Bend, 
                                 Oregon
    I feel compelled to submit testimony for several reasons.

1. I am a former Welfare Recipient.
2.  I am now a Social Service Provider who works with people receiving 
public assistance.
3.  I am a taxpayer and am concerned about what my taxes are NOT being 
spent on.

    Prior to the Personal Work and Responsibility Act being signed into 
law by then President Clinton I was a welfare recipient. I had left my 
physically abusive husband who had tried to kill me by strangulation. 
Even with a restraining order I would get calls at all hours of the 
night, I would be followed and harassed continuously. I did not have 
any family support and my ex did not pay child support. He was able to 
do this because his parent's supported him financially. For those 
reasons I moved to Montana where I had friends that would give me 
emotional support. The job market was less than booming and most jobs 
for a person without a college degree were seasonal; therefore I relied 
on Public Assistance for a good part of the year. I knew that even 
though the money was minimal at least my children would have food, a 
place to stay, and medical care.
    After four years of counseling and with the encouragement of my 
worker I enrolled in college where After five years of going to school, 
raising children and working part-time, I obtained my Bachelor Degree 
in Social Work. The old law allowed me to be successful in a long-term 
way. Since obtaining my degree I have never had to apply for any kind 
of benefit program.
    I cannot imagine having to deal with the same kind of traumatic 
experiences under the current laws let alone the even more rigid laws 
being proposed. I feel that the current proposal is punishing women for 
being poor and unmarried. It seems to me that we should be creating 
laws that help people out of poverty rather that just ``getting off 
welfare.
    I worked with long-term recipients in the state of Montana for 
almost two years and found that many families had two parents and 
almost all of the families had multiple barriers, including mental 
illness, development disabilities, learning disabilities, drug and 
alcohol problems, disabled children, and learning disabilities. Many of 
these families had two parents. I know that there is a stereotype 
around the image of the ``Welfare Queen'' but as a first-hand witness I 
can testify that this is myth rather than fact.
    Here in Oregon where I am a member of the Oregon Family Services 
Commission we have found that at least one third of the people who are 
no longer receiving benefits are still living in poverty. We have also 
found that a disproportionate number of welfare mothers are having 
their children removed from their home. Many of these instances are due 
to the parents losing their financial benefits.
    I am asking that the committee look at a plan that would benefit 
everyone by ending the disease of poverty, rather than punishing its 
victims.

                                 <F-dash>

                                                    Palomar College
                                       San Marcos, California 92064
                                                  February 15, 2005
Ways and Means Committee Members:

    I am writing to express my support for TANF reauthorization. As the 
Counselor for TANF/CalWORKs participants at Palomar College, I can 
attest to the success of students allowed to continue their educations 
while on welfare.
    I have personally seen hundreds of students become self sufficient 
through education and leave the welfare ranks. These students, 
primarily single parents, have no way to earn enough money to support 
their families without an education. Most work while in school and are 
not looking for handouts. They just need temporary help so that they 
can provide a future for their children.
    TANF reauthorization and continued education benefits help all of 
us. The student, their children, and society by providing a means for 
the student and their family to contribute to society by working. The 
role model that their children see is the one that they will emulate. 
One that has their parent seeking and education and fining employment 
that pays enough for them to no longer rely on public assistance.
    There are no drawbacks to continued support and education for those 
wishing to be self sufficient. Reauthorization still has limits. It 
just will give participants an opportunity to pull themselves out of a 
no win situation.
    I wholeheartedly support TANF reauthorization. I've witnessed too 
much success to see the benefits of TANF fall by the wayside and not 
speak out Please do not pull the lifeline from those that honestly want 
to be self sufficient.
            Sincerely,
                                            Brenda Ann Wright, M.A.
                                                          Counselor
                                                           CalWORKs

                                 <F-dash>

            Statement of Carolynn Race, Presbyterian Church

A CALL TO POVERTY REDUCTION IN THE CONTEXT OF REAUTHORIZATION OF 
        TEMPORARY ASSISTANCE TO NEEDY FAMILIES
    As people of faith and religious commitment, we have always been 
called to stand with and seek justice for those who are vulnerable or 
living in poverty. This is central to our religious traditions, sacred 
texts, and teachings. We share a conviction, therefore, that TANF 
reauthorization should focus on poverty reduction, not caseload 
reduction.
    People are more than the sum of their economic activities. TANF 
must provide more than economic incentives and disincentives; and, as a 
people, we must overcome biased assumptions that feed negative social 
stereotypes about those living in poverty. The ultimate success of TANF 
depends upon finding not only a common ground of policies, but a common 
spirit about the need to pursue them for all.
    The outpouring of generosity that has followed recent disasters has 
refreshed our nation's concept of the Common Good. Although there is a 
risk that some essential government programs to help low-income people 
will receive reduced funding in order that resources can be diverted to 
pay for other essential services, it is our belief that the government 
has both the capacity and the responsibility to develop just public 
policy and provide sufficient resources to maintain a basic safety net 
for the protection of people in need that will be available at all 
times. The government and non-profit and religious communities must 
work together in order to reduce poverty and increase self-sufficiency. 
Charity can supplement, but it cannot and should not replace the role 
of government.
    In the robust economy of the late 1990s, TANF--combined with the 
increased availability of jobs--significantly reduced the number of 
people on the welfare rolls throughout the nation. There is, however, 
unfinished business with regard to those who have left the rolls. Many 
have gotten jobs that do not provide a family-sustaining wage. At the 
same time, many have lost the supportive services that are essential to 
maintaining their households, so that they are often poorer than they 
were on welfare. TANF must continue to provide work supports for people 
moving into the workforce but earning low wages. Congress should 
provide more funds for TANF to ensure its ability to act as both a work 
support program and a safety net for those for whom work is not an 
option. A strong and reliable safety net is more essential than ever at 
times of disaster.
    We recognize the benefit to the entire community of helping people 
move from welfare to work when possible and appropriate. Acknowledging 
current economic realities, however, we believe that TANF 
reauthorization must be undertaken in the context of current economic 
issues, including large state deficits, unemployment, and inadequate 
wages. There are also important family issues such as strengthening 
families to assure that children are raised in a healthy home 
environment, caring for a disabled child or family member, the 
availability of affordable, high quality child care and the economic 
value of care-giving in the home. It is important to acknowledge that, 
according to the most recent data from the federal Office of Family 
Assistance, 73 percent of the TANF caseload is children whose well-
being depends on that of their parents.
    Reducing poverty will depend on addressing these concerns along 
with a range of related issues such as safe and affordable housing, 
reliable child care, equitable wages, education and training, and 
access to transportation and health care. Meeting these basic human 
needs would benefit the whole community by giving all people the 
opportunity to reach their potentials.
PRINCIPLES
    For TANF to be effective in reducing poverty, it should meet the 
following principles. It must:
    1. Ensure that poverty reduction is a central goal. All TANF 
policies must work together to enable recipients and their families to 
leave poverty and achieve self-sufficiency. For example, cash benefits 
combined with wages and supportive services must be sufficient to allow 
each family to meet its basic needs.
    2. Provide sufficient federal and state funding. Funding for TANF 
should at a minimum be indexed to the rate of inflation. Continuation 
of state maintenance of effort should be required.
    3. Acknowledge the dignity of work, eliminate barriers to 
employment and provide training and education necessary for unskilled 
workers to get and hold jobs. Participation in post-secondary education 
should count as work. Supportive services provided should include child 
care, transportation, and ancillary services to make participation 
possible and reasonable.
    4. Continue and encourage public/private partnerships to train 
workers and help them find jobs. If public jobs are created, they 
should lead to family-sustaining wages, comply with workplace 
protection laws, and not displace current workers. States should 
provide means by which employment programs can be evaluated at the 
local level for effectiveness and fairness.
    5. Allow TANF recipients to retain a substantial portion of wage 
earnings and assets before losing cash, housing, health, child-care, 
food assistance or other benefits. In no case should former TANF 
recipients receive less in combined benefits and income as a result of 
working than they received while they were on TANF.
    6. Be available to all people in need. Documented immigrants should 
have access to the same benefits that are available to citizens. Those 
who receive benefits should receive them according to their needs and 
for as long as the need exists.
    7. Not impose time limits on people who are complying with the 
rules of the program. It is the state's responsibility to assure access 
to counseling, legal assistance, and information eligibility for child 
support, job training and placement, medical care, affordable housing, 
food programs, and education.
    8. Acknowledge the responsibility of both parents and government to 
provide for the well-being of children. TANF should insure that 
children benefit from the active and healthy participation of parents--
whether custodial or not--in their lives. The barriers to participation 
by married parents in federal programs should be removed. There should 
be no family caps and no full-family sanctions. Children should benefit 
from successful state efforts to collect child support assistance from 
non-custodial parents through increasing the amount of collected child 
support that children receive. In addition, funding for quality child 
care should be increased significantly.
    9. Address the needs of individuals with special situations. People 
who have been victims of domestic violence, sexual assault or stalking 
must be protected and have their privacy maintained. Some with 
disabling conditions may need extended periods of time to become 
employable; and it must be recognized that some people cannot or should 
not work under any circumstances.
    10. Uphold and affirm every person's value, whether employed or 
not. In compassion, we recognize that a small proportion of people on 
TANF may never be in a position to work outside the home. Exemptions 
should be offered for people with serious physical or mental illness, 
disabling conditions, or responsibilities as caregivers who work at 
home. States should have the option to use federal funds to help 
families to cope with multiple barriers to employment.

                        ENDORSING ORGANIZATIONS

American Baptist Churches USA; American Friends Service Committee; 
Bread for the World Call to Renewal; Central Conference of American 
Rabbis; Christian Church (Disciples of Christ) in the United States and 
Canada; Church Women United; Evangelical Lutheran Church in America; 
Friends Committee on National Legislation; Greek Orthodox Archdiocese 
of America; Jewish Council for Public Affairs; Korean Presbyterian 
Church in America; McAuley Institute; Mennonite Central Committee U.S.; 
National Advocacy Center of the Sisters of the Good Shepherd; National 
Council of Churches; NETWORK, A National Catholic Social Justice Lobby; 
Patriarchal Parishes of the Russian Orthodox Church in the U.S.; 
Presbyterian Church (USA); Reformed Church in America; Syrian Orthodox 
Church of Antioch; The Episcopal Church, USA; Ukrainian Orthodox Church 
of USA, Western Eparchy; Union of American Hebrew Congregations; United 
Church of Christ Justice and Witness Ministries; United Methodist 
Church, General Board of Church and Society; Unitarian Universalist 
Association of Congregations; Unitarian Universalist Service Committee; 
Unitarian Universalists for a Just Economic Community; Women of Reform 
Judaism

                                 <F-dash>

                                         Presbytery of Philadelphia
                                             Philadelphia, PA 19103
                                                  February 15, 2005
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, DC 20515

Dear Representatives:

    The Presbytery of Philadelphia passed a resolution about TANF 
legislation in September 2003, because one of the goals, which has been 
agreed upon by our churches, is to work towards programs for children 
and families at risk, and TANF legislation is decisive to the lives of 
such families, as they work to escape impoverishment. The Presbytery of 
Philadelphia is the collective decision making body of the 
approximately 145 churches of the Presbyterian Church (USA), which are 
located in Bucks, Delaware, Montgomery, and Philadelphia Counties of 
Pennsylvania. I attach a copy of the resolution, requesting that your 
committee take these stipulations from citizens under serious 
consideration, as you consider crafting legislation to reauthorize 
TANF. Our churches continue to be active in advocacy and educational 
efforts related to TANF.

1.  Expand opportunities for education and training for TANF recipients 
. . .
2.  Increase federal child care funding by at least $5.5 billion . . .
3.  Maintain the current work hour requirement of 30 hours per week and 
20 hours per week for parents of pre-school children . . .
4.  Restore benefits to documented immigrants . . .
5.  Require the states to conduct pre-sanction reviews . . .
6.  Include an overall stated goal of helping families to overcome 
        poverty.

    Current realities continue to underline the value of these faith-
based suggestions for TANF legislation. For example, nationwide, only 
one eligible child in four receives child care assistance from all 
government funding sources combined, and many studies of TANF's 
effectiveness cite the lack of reliable child care as the greatest 
barrier to employment. Ms. Heather Boushey's paper for the Economic 
Policy Briefing Institute (2002) found that former welfare recipients 
with young children are 82 percent more likely to be employed after two 
years if they receive child care assistance. Despite gubernatorial 
efforts to strengthen child care programs, Pennsylvania joins other 
states that continues to struggle to have available adequate child care 
assistance, with growing waiting lists and increasingly stringent 
financial requirements. The President's 2006 budget proposal recommends 
stagnant federal funding for child care, which by the proposal's own 
numbers, equates with a cut of 300,000 children receiving child care 
assistance by 2009. A reasonable, national cost of child care has been 
estimated at about $11 billion for quality child care programs. Without 
a suitable increase in child care funding for TANF recipients and 
parents recently re-entering the workforce, situations will only get 
worse. Parents will be at increased risk of returning to welfare cash 
assistance, from employment, and children will be at increased risk of 
inadequate, unsafe, or low quality child care, a poor investment in our 
future. Federal child care funding requires an increase of at least 
$5.5 billion. ``Whosoever welcomes one such child in my name welcomes 
me, and whoever welcomes me welcomes not me but the one who sent me'' 
(Mark 9:37).
    Work requirements for TANF recipients, beyond the current 30 hour 
work week, ignore issues such as the lack of affordable housing, the 
multiple issues facing high poverty neighborhoods, and the need of many 
families to have work supports, such as to education and training, 
child care, transportation, and even housing costs. The federal minimum 
wage stands at $5.15, and the hourly wage someone must earn in order to 
spend not more than 30% of income on a two-bedroom rental is $15.37. 
While families struggle to afford housing, federal TANF policies do not 
necessarily provide for the ability to overcome other stressors of 
grave magnitude, including the search for affordable, accessible health 
care for the family, equitable education for children, and food 
security. In faith, let us claim our position to seize a holistic 
vision of how to address the many needs confronting people, rather than 
just talking about work. ``Since there will never cease to be some in 
need on the earth, I therefore command you, Open your hand to the poor 
and needy neighbor in your land'' (Deuteronomy 15:11).
    Every Sunday within the Presbytery of Philadelphia, worship is held 
among our churches in at least seven languages. Please restore TANF 
benefits to documented immigrants. ``The alien who resides with you 
shall be to you as the citizen among you; you shall love the alien as 
yourself, for you were aliens in the land of Egypt: I am the LORD your 
God'' (Leviticus 19:34).
    In conclusion, for people of faith in the Presbytery of 
Philadelphia, the focus of the reauthorization of TANF needs to be 
clearly about the ending of poverty for families and children at-risk. 
Our times demand this. Even if TANF caseloads have been decreasing, the 
poverty rate in the United States has been increasing over the past few 
years. In 2003, nearly 36 million people in the United States lived 
below the poverty line--4.3 million more than in 2000. In 2003, nearly 
13 million children lived in poverty--17.6 percent of all people under 
18 in the United States. The number of children in extreme poverty, 
with household incomes less than half of the poverty line, exceeds 5 
million. Further, it needs to be noted that in many counties of 
Pennsylvania, TANF caseloads are experiencing a reversal of trends and 
growing. ``May the king defend the cause of the poor of the people, 
give deliverance to the needy, and crush the oppressor'' (Psalm 72:4).
    Thank you for giving serious attention to the voices that raise 
these concerns.
            Sincerely,
                                           Schaunel Lynn Steinnagel
                               __________
Rev. Schaunel Steinnagel
Hunger Action Enabler
Building Healthy Communities Committee Proposes Presbytery Resolution 
        on TANF
(Temporary Assistance for Needy Families)
    Whereas the Goal Committee of the Presbytery known as Building 
Healthy Communities (BHC) has as its mandate ``to plan and implement 
congregation-based and community-based programs for children and 
families at risk,'' and BHC has determined that TANF (``Temporary 
Assistance for Needy Families'') is one of the most important areas of 
legislation to ensure that families and children at risk, in our 
neighborhoods and across the country, are able to access the resources 
they need to find a way out of poverty;
Be it resolved, that--
    The Presbytery of Philadelphia supports federal welfare legislation 
for our country, which--
    1. Expands opportunities for education and training for TANF 
recipients, so that skills needed for better wages can be obtained;
    2. Increases federal child care funding by at least $5.5 billion as 
requested in the TANF Reauthorization Bill of the 2002 Senate Finance 
Committee and proposed by the PCUSA Washington office;
    3. Maintains the current work hour requirement of 30 hours per week 
and 20 hours per week for parents of pre-school children as opposed to 
increasing the required number of hours to 40 as proposed by the House 
of Representatives;
    4. Restores benefits to documented immigrants, who may often work 
at extremely low wage jobs but are tax payers;
    5. Requires the states to conduct pre-sanction reviews and/or make 
personal contacts with families, to assess personal and structural 
barriers, impacting the ability of TANF recipients to work, prior to 
the imposition of sanctions.
    6. Includes an overall stated goal of helping families to overcome 
poverty.
    The Presbytery of Philadelphia instructs the Stated Clerk of the 
Presbytery to send a copy of this resolution to both United States 
Senators from Pennsylvania, Senator Rick Santorum and Senator Arlen 
Specter, asking for their votes in support of the Presbytery's
    stance on the Senate Bill. Furthermore, we ask the Stated Clerk to 
send the resolution to the churches of the Presbytery, and we ask 
churches to consider supportive and educational activities, which may 
include the following:

    <bullet>  Sharing the above resolution with members;
    <bullet>  Studying the legislation under the leadership of the 
Session;
    <bullet>  Utilizing the curriculum Hunger No More (on domestic and 
world hunger), available from our denomination;
    <bullet>  Participating in an Offering of Letters on the topic of 
TANF, so that church members may write their feelings to their 
legislators (especially Senators Santorum and Specter, in addition to 
their Representative in the House);
    <bullet>  Writing, phoning, or e-mailing legislators (for e-mail, 
potentially utilizing the ``Urgent Actions'' section of the 
Presbyterian Church's Washington Office website, www.pcusa.org/
washington);
    <bullet>  Participating in additional activities in support of the 
resolution, as will be developed by Building Healthy Communities.

                                 <F-dash>

 Statement of Mark Elliott, Public/Private Ventures, New York, New York
    Thank you for the opportunity to submit comments on the welfare 
reform reauthorization currently before the House. Public/Private 
Ventures (P/PV) is a national nonprofit organization that seeks to 
improve the effectiveness of social policies and programs. We design, 
test and study initiatives that increase opportunities for residents of 
low-income communities. In 2000, P/PV began an evaluation of The 
Fathers at Work Initiative, a national demonstration sponsored by the 
Charles Stuart Mott Foundation. Fathers at Work was designed to help 
young noncustodial fathers achieve three principal goals: increased 
employment and earnings; greater involvement in their children's lives; 
and more substantial financial support of their children. The 
Initiative was designed and implemented in partnership with local child 
support enforcement agencies.
    Nearly 11 million fathers do not live with their children, and two 
thirds of these fathers pay no formal child support.\1\ Many of them 
are derided as ``deadbeat dads''--men who have the ability to support 
their children, but simply refuse to do so. However, about 2.8 million 
noncustodial fathers are poor themselves and have limited capacity to 
provide financial support for their children. In 1997, of the 2.5 
million low-income fathers who did not pay child support, 30 percent 
were incarcerated and just 7 percent had any education beyond high 
school. Not surprisingly, employment rates and earnings for these men 
were low--only 43 percent had worked over the previous 12 months and 
average annual earnings were just over $5,600.\2\ While society has 
every right to expect low-income noncustodial fathers to do their best 
to support their children, until these men have higher earnings, the 
amount they can reasonably be expected to pay will remain modest. 
Furthermore, the rapid increase in the nation's incarceration rate has 
profound implications for many low-income fathers and their families. 
An estimated two million children have at least one parent who is 
incarcerated.\3\
---------------------------------------------------------------------------
    \1\ Sorensen and Zibman, Poor Dads Who Do Not Pay Child Support: 
Deadbeats or Disadvantaged? Series B, No B-30, The Urban Institute, 
April 2001.
    \2\ Sorensen and Zibman, Ibid. Employment rates and earnings are 
only for men who were not institutionalized.
    \3\ Child Welfare League of America, http://www.cwla.org/programs/
incarcerated/
---------------------------------------------------------------------------
COMPREHENSIVE PROGRAM INTERVENTIONS ADDRESS BARRIERS
    Fathers at Work supports is designed to increase labor market 
participation, earnings and parental engagement among low-income 
fathers under age 30 and assist them in managing their child support 
obligations and reintegrating into local communities from parole or 
probation. Fathers at Work programs were launched in six sites located 
in five states: California, Illinois, New York, Pennsylvania and 
Virginia. These include Center for Employment Opportunities (CEO) in 
New York City; Impact Services in Philadelphia, PA; Rubicon Programs, 
Inc. in Richmond, CA; STRIVE (Support and Training Result in Valuable 
Employees) in Chicago, IL; Total Action Against Poverty (TAP) in 
Virginia; and Vocational Foundation, Inc. (VFI) in New York City. Two 
of these sites, CEO and Impact, were engaged to exclusively serve ex-
offenders.
    Over 1,000 participants enrolled in the Fathers at Work Initiative 
from 2001 through 2004. The typical participant faces significant 
barriers to work opportunities that will enable him to provide for his 
family.\4\
---------------------------------------------------------------------------
    \4\ Statistical data cited in this statement are for a sample of 
573 participants who enrolled from 2001 through 2003 and completed both 
a baseline and 12-month follow-up survey, unless otherwise noted.

    <bullet>  Fewer than half possess a high school degree or general 
equivalency diploma;
    <bullet>  Fourteen percent of participants had never worked full 
time;
    <bullet>  Nearly a third had never held a full time job for six 
months or more; and
    <bullet>  Over two thirds of participants report that they know two 
or fewer people that can help them find a job.

    At some point in their lives:

    <bullet>  One third have been homeless;
    <bullet>  Two thirds have been incarcerated, and three fourths have 
been convicted of a crime and face the labor market with a criminal 
record.

    And yet:

    <bullet>  Seventy-seven percent say they want to spend more time 
with their children.
    <bullet>  Many express the desire to not only be involved in their 
children's lives but also to be role models for their children. As one 
participant stated:

    I wanted to do the opposite of everything my father did, you know, 
which means be there for my son and not on the street, right . . . And 
what I mean by that, you know, getting up for work, letting your kids 
see you do all these positive things that's supposed to be done in 
life, you know, not get up and see your parents fighting over drugs. 
No, I want to raise my child.\[5]\
---------------------------------------------------------------------------
    \5\ ``Hareem'', Fathers at Work participant, in Kotloff, Lauren, 
Leaving the Streets, Public/Private Ventures, 2005.
---------------------------------------------------------------------------
    Programs like Fathers at Work match substantial interventions with 
the motivation of these young men to help them overcome barriers and 
build more secure futures for their children.
    To help young fathers secure employment and become more involved in 
their children's lives, programs provided a wide variety of services:

    <bullet>  Two to four weeks of job readiness training;
    <bullet>  Occupational skills training;
    <bullet>  Paid transitional employment;
    <bullet>  Individualized job placement;
    <bullet>  Employment retention support services; training in 
fatherhood skills development;
    <bullet>  sponsored family outings and recreational activities for 
fathers and kids; and
    <bullet>  peer support networks and discussion groups.
CHILD SUPPORT ENFORCEMENT PARTNERSHIPS PAY OFF
    As a central initial step, each Fathers at Work organization 
established a memorandum of understanding with the relevant child 
support enforcement agency to provide the support and cooperation 
necessary for successful program implementation. Each organization 
obtained the child support enforcement agency's commitment to provide 
paternity, payment and other data necessary for program evaluation. 
More significantly, each sought to increase fathers' cooperation with 
child support enforcement and reduce related barriers to employment. 
Many low-income men are not known to the system and have a great fear 
of it. They are much more likely to trust and work with a community-
based organization. Noncustodial parents benefit by understanding their 
obligations and taking the necessary steps to establish appropriate 
orders. When child support agencies can be flexible and provide a human 
face for their services, men's fears can be alleviated and formal 
payments rise.
    These partnerships have ``paid off'' for the fathers, families and 
child support agencies. Child support agencies in the Fathers at Work 
Initiative have shown enthusiasm for working with participants who 
demonstrate a commitment to finding gainful employment and paying child 
support. Child support enforcement partners have:

    <bullet>  Provided participants with information about the child 
support system in a non-threatening environment, encouraging 
participation in the formal child support system;
    <bullet>  Modified child support orders to take into consideration 
fathers' employment circumstances, putting payments within reach of 
very low-income fathers;
    <bullet>  Built efficiencies into interactions with the child 
support system, by, for example, bundling multiple petitions to courts 
into a single process, thereby reducing the time a father may have to 
take away from employment or job search in order to handle child 
support enforement issues; and
    <bullet>  Easing enforcement mechanisms that have unintended 
negative consequences on employment prospects for low-income 
noncustodial fathers, such as driver's license suspension, professional 
license suspension, freezing bank accounts, placing liens on property 
and incarceration.

    At the same time, child support payments increased among Fathers at 
Work participants:

    <bullet>  The average total payments made by participants with a 
child support order increased from $233 in the six months prior to 
enrolling in Fathers at Work to $407 in the six months after enrolling; 
and
    <bullet>  For participants required to make a payment during both 
the six months prior to enrolling and in months seven through 12 after 
enrolling, total payments more than doubled, from $301 to $617.

    Fathers at Work participants initially expressed reluctance to pay 
child support. They were concerned that they would not have enough to 
live on after making payments. They also understood that the 
government, instead of their children, often keeps child support. These 
concerns can be addressed through partnerships between community-based 
fatherhood programs and child support agencies. The importance of such 
partnerships is evident in the words of participants:
    ``They allowed me to make a payment arrangement so I could still 
pay my bills and take care of the things I needed to do with my life 
while still dealing with my child support issue. Because that's a big 
issue in a lot of people's lives to where they figure, well, if I'm 
gonna work a full-time job and they're gonna take 65 percent of my 
check, why should I even work, forget it.'' \6\
---------------------------------------------------------------------------
    \6\ Focus Group Participant, October 31, 2001
---------------------------------------------------------------------------
PARTICIPANTS' EMPLOYMENT AND EARNING INCREASED
    While changes in the participants' circumstances cannot be 
attributed exclusively to program services, low-income noncustodial 
fathers who were not recently incarcerated did improve their 
circumstances one year after enrolling in Fathers at Work:

    <bullet>  The average number of months worked in the previous year 
increased from seven to eight;
    <bullet>  The percentage of fathers who did not work at all in the 
previous year dropped from 11% to 9%;
    <bullet>  Mean annual earnings from work increased from $11,700 to 
$13,111; and
    <bullet>  Median annual earnings from work increased from $8,840 to 
$10,181.
STRIKING GAINS AMONG REENTRY POPULATION
    Two sites exclusively served men who had recently been 
incarcerated. While one would expect to see increases in employment and 
earnings among this group post-release, the gains they achieved are 
particularly noteworthy. One year after enrollment in the program:

    <bullet>  The percentage of ex-offenders who did not work at all in 
the previous year dropped from 66 percent to 14 percent;
    <bullet>  The average number of months worked in the previous year 
increased from one to eight;
    <bullet>  Mean annual earnings from work for the recently 
incarcerated more than tripled, from $5,038 to $16,767; and
    <bullet>  Median annual earnings from work more than quadrupled, 
from $3,250 to $14,408.

    For these ex-offenders, child support payments more than tripled 
among men with a child support order:

    <bullet>  The average for payments made during the six months after 
enrolling in Fathers at Work was $389, compared to just $100 in the six 
months prior to enrolling.
CONCLUSION
    The Fathers at Work Initiative has demonstrated that low-income 
noncustodial fathers can benefit from the collaborations formed by 
employment programs and child support enforcement agencies. These 
gains, however, would not be possible without investments in employment 
program interventions that are substantial enough to begin to tackle 
the tremendous barriers to legitimate employment that these men face. 
We support the Subcommittee's efforts to provide new funding for 
fatherhood programs and to increase the amount of child support paid 
directly to these fathers' children.
    Thank you again for the opportunity to comment on this important 
issue and for your attention to employment programs that help low-
income noncustodial fathers build better futures for their families.
RESEARCH METHODOLOGY
    Public/PrivateVentures is conducting an analysis of the Fathers at 
Work Initiative with data from a variety of sources, including site-
reported enrollment and job placement data, survey data, administrative 
and agency data, as well as ethnographic research.
    All Fathers at Work participants agreed to complete two surveys. 
The baseline survey details fathers' circumstances in the year prior to 
enrolling in Fathers at Work, while the 12-month follow-up survey 
provides information on their experiences in the year after they join 
the program. Key measures available in these survey data include 
current and past employment, income and financial resources, formal and 
informal child support, as well as contact and engagement with 
nonresident children and their caretakers.
    The cooperation of state and local agencies has allowed us to make 
use of a variety of administrative data to follow fathers' progress in 
the year after they enroll in Fathers at Work. Each of the local child 
support enforcement agencies with whom our program sites collaborate 
agreed to provide administrative data on fathers' involvement in the 
formal child support system, including information on fathers' 
engagement with the child support system, monthly support obligations, 
back payments due and full payment histories. Additionally, for fathers 
who participate at one of the two Fathers at Work program sites serving 
ex-offenders exclusively, state criminal justice agencies provide 
administrative data that allow us to analyze recidivism during the year 
following participants' program entry.
    The Fathers at Work evaluation has also included an in depth 
interview study, allowing us to examine the experiences of twenty-seven 
fathers from three Fathers at Work sites in greater detail. These men 
completed between two and four in-person interviews with ethnographers, 
in which they shared their experiences with issues related to 
employment, fatherhood and child support. These experiences and lessons 
are featured in the newly released report, Leaving the Street: Young 
Fathers Move from Hustling to Legitimate Work, which can be found on P/
PV's web site at http://www.ppv.org/ppv/publications/assets/
181_publication.pdf.

                                 <F-dash>

  Statement of George Gonos, State University of New York at Potsdam, 
                           Potsdam, New York

    Last year, the Merwin Rural Services Institute at the State 
University of New York at Potsdam released a research report entitled 
``The Welfare-to-Work transition in the North Country.'' This report is 
the result of research carried out by myself and four student 
assistants. The findings that follow are excerpted from that report. I 
respectfully request that you include these comments in the official 
hearing record.
    This report was supported by grants from The Merwin Rural Services 
Institute and The Walker Fellowship Program, and by a Research and 
Creative Endeavors grant from the Office of Research and Sponsored 
Programs, SUNY-Potsdam. None of the supporting organizations are 
responsible for the specific content of this report. The views 
expressed are those of the authors and should not be attributed to 
MRSI, The Walker Foundation, or the Office of Research and Sponsored 
Programs.
Findings (Excerpts)
Employment
    For those working, the most common occupation in our sample, as for 
TANF leavers nationwide, is low-wage service work, in retail stores and 
nursing homes, and in food service, child care, and janitorial work. 
Local government is a frequent employer also, in schools, social 
service agencies, senior citizen homes, and health centers. Only 13% of 
our respondents reported doing construction, factory, agricultural 
work, or other ``labor.'' [Q.50, N=71]
Pay rates
    More important than employment per se is the quality of jobs that 
welfare participants find. Most pay minimum or near-minimum wage and 
few offer opportunities for advancement.

    <bullet>  Of 28 respondents that were currently working and 
reported to us their hourly wage, 43% of these earn minimum wage 
($5.15) or less.
    <bullet>  Another 50% of those currently working reported making 
between minimum wage and $7 per hour.
    <bullet>  Only two were earning over $7.00 per hour (both of these 
in Franklin). [Q.56, N=28]
    <bullet>  Nurses aides, an occupation many aim for, make $6.85 per 
hour.
    <bullet>  Counselors in St. Lawrence County estimated the ``living 
wage'' in this area to be $10 per hour, which few participants in the 
welfare-to-work transition now earn.

    These findings are consistent with the national picture, which 
shows that the majority of TANF leavers earn a wage only slightly above 
the minimum. The median wage of employed leavers is $6.61. As compared 
to the North Country, however, a greater proportion of leavers 
nationally (about 25%) earn over $8.
    Does employment help individuals financially? The majority (61%) of 
respondents who were currently working reported that there are times 
they don't have enough money for necessities. This was only a little 
less frequently than those currently without a job, 70% of whom 
reported the same. [Q.39, N=45] Similarly, those currently working were 
only slightly less likely to use a food bank (57%, compared to 63% for 
those not working). [Q.41, N=54]
Job Benefits
    When it comes to job-related benefits, the picture is not good. Of 
those currently working, only two (of 14 answering this question) 
reported receiving health benefits from their employer; and only one a 
pension or retirement plan. This closely reflects national trends. Only 
17% in our sample reported having employer-paid health insurance on 
either their current or their last job. [Q.61, N=29] The most 
frequently reported job benefits were free or reduced cost meals [N=6] 
and store discounts [N=9].
Job Turnover
    As discussed below, the structure of government subsidized job 
programs sometimes contributes to the problem of job turnover. Under 
program rules for ``Job Creation'' or OJT there is no obligation for 
employers to retain workers after government subsidies have run out, 
and most times they don't.
    Due to the transitory nature of jobs, a continuing job search is 
necessary even after obtaining employment. Proof of a job search is 
required for TANF recipients. But a job search is difficult to conduct 
in addition to other responsibilities, especially without 
transportation. Phone calls to employers are mostly unreturned. As one 
participant noted, increasing the work requirement to 40 hours will 
make the job search even more difficult.
Opportunities for advancement
    Two-thirds of all those currently working--and half of those in the 
Franklin sample--felt they were ``receiving real training or learning 
new skills'' on the job. Yet, less than a third (30%) of these 
respondents believed that there was any chance for advancement or 
promotion at their job. [Q.62, N=33]
    Having more education did not improve this picture. In fact, those 
having a high school degree or more were somewhat less likely to see 
any chance for advancement or promotion on their job. [Q.64, N=46, 
includes some respondents not currently working] Perhaps they view 
things more realistically.
    ``Dead-end'' jobs and irregular employment create heavy demands on 
social service programs to help welfare leavers stay employed and find 
better jobs with higher wages than those they first enter. This may be 
seen as one of the main deficiencies of the ``Work First'' approach 
that moves individuals into employment of any kind with little prior 
training or longer term planning. The absence of career ladders in the 
available occupations limits the future possibility of leavers 
attaining self-sufficiency.
    In the common types of employment available to welfare leavers 
there are no job ladders and few opportunities for individuals to 
advance beyond the entry-level jobs they have obtained. One man in our 
sample was performing maintenance and security work in a public school. 
``There was advancement to custodian but they are cutting these jobs 
out, so I guess there isn't any advancement anymore,'' he said. 
Individuals who are working are better off than when they were on 
welfare, but the long-term success of ``Work First'' remains uncertain 
for most.
    There is concern among both researchers and participants about how 
welfare leavers will manage after their eligibility for transitional 
benefits runs out. More than one of our survey respondents stated the 
opinion that cash assistance is cut off too soon after an individual 
begins to work.
    Subsidized Employment--Workfare, OJT and Job Creation
``Job Creation''
    The Work Experience Program (WEP), known as ``workfare,'' assigns 
participants to work at a non-profit or government agency in exchange 
for welfare benefits and an opportunity to demonstrate a proper work 
ethic, acquire skills, and build a resume.
    WEP employers in St. Lawrence County include local libraries, 
colleges, public and parochial schools, churches, and community and 
government agencies, including the Department of Social Services 
itself. For example, workfare participants performed maintenance at 
nursing homes, sorted clothes at the Salvation Army, cleaned sidewalks 
and streets, and helped with charity work for the American Red Cross, 
where the welfare recipient was told, ``There's no money for hiring.'' 
A total of 56 different agencies participated during the year ending 
September 2002. This totaled 57,386 work hours (down from 69,360 the 
year before).
    Calculated at minimum wage ``paid'' to workfare participants in 
TANF cash assistance this represents savings of $295,538 for 
participating agencies. But if the labor costs is based instead on a 
``living wage'' of $10.50 per hour, workfare participants provided well 
over half a million dollars ($602,553) in uncompensated labor to county 
agencies in FY 2002.
    There is much resentment among participants about having to work 
without a paycheck.
    Some participants complain bitterly that they receive so little in 
cash.
``Job Creation''
    ``Job creation'' is a federally subsidized program that pays an 
individual minimum wage ($5.15 per hour) to work for a local business. 
The individual is technically an employee of the county, which pays the 
wage, provides medical insurance through Medicaid, and carries workers' 
compensation insurance.
    In St. Lawrence and Franklin Counties, 23 employers utilized these 
workers in the year ending September 2002. This represented 10,748 work 
hours, down from 15,519 the previous year. Among the profit and non-
profit organizations acting as employers were Potsdam-Canton Hospital, 
Family Dollar, Merrimac, Inc., St. Vincent De Paul, and Village of 
Canton.
    An administrator estimates that about one-quarter of participants 
in the Job Creation program are transferred to the employer's payroll 
after 6 months. They may also be set up for another 6 months on the 
county payroll.
``On-the-Job Training'' (OJT)
    The OJT program provides wage subsidies to employers in the private 
sector. Federal funds diverted from welfare payments are paid to 
participating employers, who use the money to pay the participants' 
wages. In this program the individual is an employee of the business 
for which he or she works, and is paid at the prevailing wage for the 
position filled.
    The employer is reimbursed for ``costs associated with training'' 
defined as up to 50% of the employee's wages for six months. In certain 
cases, when workers are considered ``high risk,'' DSS pays the full 
wage.
    According to the program documentation:
    ``Training programs are designed to enable eligible individuals to 
learn a skill for a particular occupation--The goal of OJT is to 
develop a worker's skills to the point where unsubsidized employment 
and job retention result.''
    But the actual results may not live up to this description. To 
qualify for the program employers must have an actual job opportunity. 
No promise of a permanent position, however, is required. According to 
DSS staff and participants, some employers do take advantage of OJT.
    In St. Lawrence County, 72 private employers utilized OJT in the 
year ending Sept. 2002, representing a total of 36,901 work hours, and 
$247,997 in subsidized wages. The employers included: Big Lots, Family 
Dollar, Community Nursing Home, Cornell Laundry, Gilden Activewear, 
Grant's Plumbing and Heating, McDonald's, ARC/Seaway Industries, Mohawk 
Indian Housing Corp, Penski Staffing, St. Regis Nursing Home, 
Stauffer's Farm and Wal-Mart.
    Wages for workers in the OJT program tend to be low:

    <bullet>  Of 72 employers, only 14 paid these workers $8.00 or more 
per hour.
    <bullet>  Only five of the employers (BOCES, Harmer Construction, 
Massena Memorial Hospital, Riches Auto, and Stauffer's Farm) paid these 
workers $10 or more per hour.
    <bullet>  In the year ending September 2001, Wal-Mart employed 6 
welfare recipients and collected $13,678 in wage subsidies, and 
probably also received tax credits (see below). The wages of these 
workers ranged from $5.75 to $6.25 per hour.

    The Job Creation and WEP programs operate essentially as free 
``temp agencies'' for employers. And the OJT program is a handsomely 
subsidized one. Though it is said to be over 50%, there are 
unfortunately no hard data on the proportion of OJT or Job Creation 
workers who achieve unsubsidized employment with the employers with 
which they are placed. Follow-up research is called for on this issue.
    Counselors said that some employers do take advantage of these 
programs. For instance, after time has expired for a ``workfare'' 
employee, they will want to switch the work to the OJT program, or 
switch to OJT after Job Creation, in order to continue receiving 
subsidies. Thus, a large proportion of work provided to TANF-leavers in 
St. Lawrence County, apparently larger than many other districts in New 
York State, has been subsidized. This appears to be changing, however, 
as funds for the OJT and Job Creation programs have been cut back. It 
remains to be seen if employers will offer the same amount of jobs if 
they are not receiving public subsidies.
Tax credits
    Apparently, only the largest employers (e.g., Wal-Mart, Dollar 
General) take advantage of tax credits. For smaller employers, the 
paper work is usually too overwhelming, with too little benefit.
Food
    The low income of welfare-to-work families does affect their diet 
and their ability to eat as they believe they should. In response to 
the question, ``In the last 30 days, did you ever eat less than you 
felt you should because there wasn't enough money for food?'' almost 
one-quarter (23%) of respondents answered yes. Those with less than a 
high-school education were about twice as likely to answer ``yes'' than 
those with a high-school degree or better. Women and men answered 
``yes'' to this question in the same proportions. [Q. 42, N=56]
    Respondents were also asked to indicate which of the following 
statements ``best describes the food situation in your household.'' 
Their responses are reported below [Q.43, N=57]:

    (1)  We always have enough to eat and the kinds of food we want--26 
(45.6%)
    (2)  We have enough to eat but not always the kinds of food we 
want--23 (40.4%)
    (3)  Sometimes we don't have enough to eat--7 (12.3%)
    (4)  Often we don't have enough to eat--1 (1.8%) Again, education 
seems to be related.

    While almost a quarter (24%) of those without a high school degree 
say they ``sometimes'' or ``often'' don't have enough to eat, only 2% 
(one respondent) among the high school grads said this. [N=54]
Education and training
    Nearly half (46%) of all respondents, and a majority of women 
(61%), said there were not enough opportunities for them to obtain job 
training or higher education. [Q53, N=59]
    Which is more important to you right now, working or getting the 
training and education you need for a better job?'' (Q.65) In response 
to this question, a majority chose ``working.'' The relative importance 
placed on education and training varied by sex, age, and county of 
residence:

    <bullet>  Women were more likely than men to say that education and 
training were more important. (Forty percent of women said education 
and training were more important compared to 28.5 % of men.) [N=56]
    <bullet>  Younger respondents (those under 30) were more likely to 
say that education and training were more important. (Forty-two percent 
of those under 30 years old said education and training were more 
important compared with 30% of older respondents.) [N=56]
    <bullet>  Respondents in Franklin county were more likely than 
those in St. Lawrence to say that education and training were more 
important. (Forty-four percent of Franklin county residents said 
education and training were more important compared to 31% of St. 
Lawrence residents.) [N=57]
    <bullet>  Those currently without a job were more likely (63%) to 
say training and education are more important. Perhaps work reinforces 
the idea that work is most important.

    Overall, lack of education is more frequently reported than either 
lack of experience or lack of skills as the toughest barrier to 
overcome. Those with less than a high school education are more likely 
to see lack of education as a barrier. [Q.69, N=69] To expand the 
opportunities for education and training, the 12-month limit on 
education and training would have to be extended. The state and federal 
governments would have to be more flexible with the ``work first'' 
approach.
Mental health
    Mental health problems are the most frequently cited type of 
medical issues. Overall, 38% of respondents reported that they had been 
treated for mental health problems such as depression. [Q.46, N=74]

    <bullet>  Women (45%) were more likely to report having been 
treated for mental health problems than men (31.5%), and also slightly 
more likely to report that it affected their ability to get a job. 
[N=57]
    <bullet>  Those with less than a high school degree were more 
likely (52%) to report mental health issues than those with a high 
school degree or better (33%). [N=56]
Transportation and child care
    Transportation and childcare are among the least available services 
in the North Country. Transportation and childcare were cited as the 
principal barriers to job retention by those with children, and the 
second most frequently cited obstacles identified by single 
individuals. Like many other rural areas, the North Country offers 
little or no public transportation.
Transportation
    As other studies of the welfare-to-work transition in rural areas 
suggest, ownership of a reliable vehicle is crucial for individuals to 
ensure success. Still, less than half of those receiving assistance 
have a driver's license, and many fewer than that own a car. The most 
common form of transportation available to our respondents was that 
provided by a friend or relative. [Q.19, N=77]
    Transportation was the most frequently cited ``barrier'' to leaving 
welfare assistance our respondents reported. [Q.12] One-quarter (25%) 
of our respondents told us they cannot count on transportation when 
they need it [Q.21, N=67], and over one-third (36%) said they had 
missed work or classes because transportation was not available. [Q.23, 
N=70]
    Women (30%) were somewhat more likely than men (19%) to report 
problems with transportation (``can't count on it'') [Q.21, N=53], and 
to have missed work or classes due to transportation. [Q.23, N=55]
    Our data show that those having a valid driver's license are almost 
twice as likely to be currently working as those without one. [42% and 
24%, respectively, N=73]
Childcare
    The most common form of childcare for these young children is 
informal; that is, a friend, neighbor, relative, or older sister or 
brother. [Q.27, N=47] Only about 13% report using a formal day care 
provider. The relatively few formal childcare providers existing in the 
North Country generally do not provide service to welfare-to-work 
mothers.
    Almost a third (31%) of our respondents said that childcare was not 
always available when they needed it. [Q.29, N=45] As a result, more 
than one-quarter (28%) have missed work or classes because they did not 
have childcare [Q.31, N=46] Like rural families elsewhere, North 
Country welfare-to-work families find it especially difficult to find 
infant care, or childcare for nighttime employment.
    As mentioned above, however, no registered day care centers will 
take DSS clients. One reason, counselors say, is that childcare 
providers must wait 6-8 weeks after starting to receive payment. Each 
provider must fill out a lengthy application form that passes through 
many hands. But even though childcare providers must file ``tons of 
paperwork'' to get approved, they are still often unreliable.
Analysis and Recommendations
    Following below are two sets of recommendations, the first staying 
more or less within the boundaries defined by the current approach to 
``welfare reform,'' the second taking a wider approach to possible 
change. They are not inconsistent with each other.
Welfare program reforms
    The following proposals specifically address the situation in the 
North Country, and lie within the parameters of the current welfare 
programs.

    <bullet>  EXPAND QUALITY CHILDCARE AND CHILD CAREJOBS: FORM AN 
EMPLOYMENT CONSORTIUM: Build a consortium of North Country employers, 
One Stop and social service administrators, community college and BOCES 
staff, and union representatives to identify labor market needs for 
which welfare participants can be prepared through employer-specific or 
occupation-specific training programs. Expand the currently successful 
programs, e.g., for Certified Nurses Assistants, and use these examples 
as models. The consortium should focus special attention on 
strengthening and building job ladders in fields like nursing, 
information technology, and maintenance work. Further, it might 
consider creating within the One Stop Center a free public hiring hall 
or labor exchange for workers and employers to fill short term 
openings.
    <bullet>  INCREASE SUPPORT FOR TRAINING AND EDUCATION: Lobby to 
allow welfare-to-work participants to ``count'' as ``work hours'' the 
time spent in approved education and training programs, without any 
restrictions. North Country participants are practically screaming that 
the emphasis on ``work first'' at low or no pay is punitive and 
unproductive. They are right. The mix between work and human capital 
development needs to be more balanced. Research indicates that the most 
successful transition programs combine the ``human capital'' approach 
with the ``work first'' orientation, providing a mix of skill-building 
services and employment. There is no reason why qualified recipients 
can not work toward a two-year or four--year degree without time 
limitations.
    <bullet>  CREATE REAL PUBLIC SECTOR JOBS: The current ``Job 
Creation'' program is a misnomer. Along with the so-called OJT program, 
it is simply a subsidy for local employers (most often large employers) 
that typically offer welfare participants only short-term, low-paid 
work. The same resources can be used to create real public jobs serving 
our towns and counties that offer workers the realistic possibility of 
supporting their families, rather than just resume items and some 
short-term cash.
    <bullet>  SET UP A TRANSPORTATION DEPOT A specially assigned DSS 
staffperson can recruit community volunteers (through churches, etc.) 
to provide regular transportation to and from work for participants 
without carsand reimburse them for mileage. Again, linking community 
people with welfare participants helps reintegrate welfare-to-work 
participants into the community and provides moral support from 
community members.
    <bullet>  TRACK RESULTS OVER TIME: At least a sample of ``leavers'' 
(ex-participants) needs to be followed or tracked over a longer period 
of time, for two reasons. First, this would help determine what kind of 
post-employment supports and services are most needed to ensure 
success. Secondly, we need better data on the longer-term outcomes of 
the current welfare-to-work programs, since very little research of 
this scope has been conducted.
    <bullet>  ENHANCE TRANSITIONAL BENEFITS: All studies indicate that 
for welfare-to-work participants to be able to make a successful 
transition to employment, continuing support services, including 
childcare, Food Stamps, Medicaid, housing, even drug and alcohol 
counseling, must be made easier to access. Cash and other forms of 
assistance need to be maintained longer into the employment phase. Some 
analysts propose to ``open up TANF'' to provide supports such as child 
care, transportation, etc. to all qualified low-income families, 
regardless of whether they have ever applied for or received 
``welfare'' assistance. This would eliminate the artificial distinction 
between the ``welfare poor'' and the ``working poor'' and recognize 
that the low-wage labor market is the actual source of problems for 
all.

    The final bullet above, regarding the need for continuing subsidies 
for welfare recipients after they obtain jobs, brings out clearly the 
contradiction that the state welfare-to-work programs mandated by 
federal legislation (PRORA) are up against: namely, that current 
compensation rates at the lower or entry level of the labor market are 
nowhere near high enough to support an individual, no less a family. 
Even presuming that steady employment is found for the able-bodied 
welfare population, a substantial gap still exists between their 
earnings potential and the actual cost of living. Hence the need for 
continuing government subsidies (in the form of ``transitional 
benefits,'' e.g., Medicaid, Food Stamps, child care, housing, etc.) 
even after employment. If we are not simply going to reduce caseloads 
by abandoning families to poverty, the current approach requires a 
permanent government bureaucracy funded by taxpayers to keep working 
people (and their low-road employers) afloat. Even putting aside the 
prohibitive cost to taxpayers, this creates a high level of resentment, 
as expressed by participants throughout our survey, over forever 
needing ``help,'' and remaining a ``second class citizen.''
    This outcome clearly contradicts the goal of the program. As noted 
at the beginning of this report, the stated goal of welfare reform is 
self-sufficiency for recipients, yet jobs in the low wage labor market 
do not pay enough to sustain self-sufficiency. As a result, the ``work 
first'' policy may be moving people off welfare rolls, but not out of 
poverty. Thus, several of our interviewees (including both recipients 
and administrators) said they believed that welfare reform ``as we know 
it'' is simply increasing the number of ``working poor'' families in 
the North Country.
Labor market reforms
    Begin with a realization that current national policy, expressed in 
PWRORA and many other initiatives, not only tolerates but also in some 
ways actively encourages low-wage work and the persistence of high 
poverty levels. Current policy generally serves private corporate 
interests by promoting capital accumulation via exploitation of a 
growing class of poor working families, in the U.S. and globally. 
Therefore, in order to ``end welfare as we know it,'' we must reform 
the labor market and change the wage structure. Rather than pushing 
individuals off assistance and into a low-wage labor market, policy 
must be directed toward pulling low-wage workers up into work that pays 
a living wage, taking advantage of the huge reservoir of natural talent 
and energy of people in the North Country and throughout the U.S.
    To truly consummate the effort to bring an ``end to welfare as we 
know it,'' this report supports the implementation of policies to make 
work pay enough to render self-sufficiency possible through employment 
rather than through public transfer payments funded by taxpayers. A 
cumbersome patchwork of services, such as those that make up the 
current social service menu, can never substitute for a fair and 
equitable economy. We would contend that there is currently enough 
wealth produced by the U.S. economy to allow a ``living wage'' level of 
compensation for all; but its distribution is skewed. Among developed 
nations, the U.S. has the highest degree of wage inequality.
    Certainly the problem of the population rendered ``unemployable'' 
by mental or physical disabilities will be raised. Yet, this population 
is in some part a result of current policy, which provides meager 
incentives or rewards for work, and consistently batters those at or 
near the bottom of the ladder. Indeed, certain research suggests that 
the main difference between successful welfare-to-work participants and 
those with insurmountable ``barriers'' is simply the lack of continuous 
employment.
    Labor market reform, as opposed to welfare reform, would ``raise 
the floor'' create a more equitable wage structure. Here is a sampling 
of the policy measures it would entail:

    <bullet>  Substantially raise the minimum wage, to make it a living 
wage, and tying it to the cost of living.
    <bullet>  Provide universal health care, helping make it possible 
to leave welfare without assistance. Implement a truly progressive tax 
policy, replacing the current one that favors corporations and the 
rich. Today, those who live by a paycheck carry a disproportionate 
share of the tax burden.
    <bullet>  Design a national child care policy.
    <bullet>  Guarantee equal legal protection and wage parity for all 
workers, including part-time and contingent workers, and immigrants.
    <bullet>  Increase support for public higher education and job 
training. Millions of Americans are denied needed education because of 
its unaffordability.
    <bullet>  End the discrimination against non-metro areas in the 
process of economic development.
    <bullet>  Reform labor law to improve the environment for union 
organizing, and to prevent pervasive employer violations. Tens of 
millions of American workers who express the desire for union 
affiliation never get the chance to vote for it.
    <bullet>  Promote global ``fair trade'' agreements containing labor 
standards, a policy that would help improve conditions for working 
people worldwide, including the U.S.

                                 <F-dash>

 Statement of Sheryl Cates, Texas Council on Family Violence, Austin, 
                                 Texas

    The Texas Council on Family Violence (TCFV) appreciates this 
opportunity to submit testimony on the issue of TANF Reauthorization 
and promoting healthy, safe families. TCFV is the statewide family 
violence coalition whose members include family violence service 
providers, supportive organizations, survivors of family violence and 
other concerned individuals. TCFV works to end violence against women 
through partnerships, advocacy and direct services for women, children 
and men. Each year, more than 80 family violence programs throughout 
Texas serve thousands of women and children.
    Victims often times have left their homes, their assets and their 
support systems in order to be safe and to create a life free of 
violence for their children. A snapshot survey of family violence 
shelter residents in Texas revealed that up to 87% of residents were 
income eligible for TANF at the time of their shelter stay.\1\ For this 
reason, TCFV has followed welfare reform and the TANF Reauthorization 
process to ensure that legislation takes into account the significant 
population of victims of family violence within the TANF program. 
Research has shown that a large proportion of welfare recipients 
(consistently between 15% and 25%) consists of current victims of 
serious domestic violence.\2\ Our priority within TANF Reauthorization 
is to ensure victim safety while maintaining a system of assistance 
meets the immediate needs of families and provides services and 
opportunities to empower individuals to become economically self-
sufficient and permanently free them from poverty and violence.
---------------------------------------------------------------------------
    \1\ Texas Council on Family Violence, Women in Need of Public 
Assistance: Snapshot Survey. (2003).
    \2\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare, 12 (1997)
---------------------------------------------------------------------------
    Because as victim advocates we hold the safety of women and 
children paramount, we have concerns with the absence of any attention 
towards family violence victims within the Promotion of Family 
Formation and Healthy Marriage provisions of HR 240. The Texas Council 
on Family Violence has had discussions with various state agencies 
working regarding marriage promotion initiatives, submitted oral 
testimony before the Texas State Legislature, and participated in six 
regional summits around the state on these initiatives. Marriage 
proponents, though well intentioned, are often times not aware of 
safety concerns for victims of family violence and are not equipped to 
handle disclosures of violence. For this reason, it is critical to 
include protective language in statute and funding proposals and 
require partnerships between marriage promotion coalitions and family 
violence experts. We have found coalitions and agencies throughout 
Texas to be receptive to information concerning family violence. 
Collaboration with family violence experts will help to create 
curricula, trainings and public messaging that does not endanger, 
entrap or stigmatize victims.
    Through authorizing funds on untested, unproven marriage promotion 
programs without addressing issues of family violence, HR 240 could put 
the lives of women and children in danger. Provisions to require 
marriage promotion programs to consult with domestic and sexual 
violence experts and child advocates on the development and 
implementation of policies, procedures, and training necessary to 
appropriately address domestic and sexual violence and child abuse 
issues, included in last year's Senate Finance Committee welfare 
reauthorization bill (PRIDE), could provide some security. We urge 
Congress, if proceeding with implementation of a marriage promotion 
initiative, to include the following protective concepts:

    <bullet>  voluntary participation without the threat of penalty for 
nonparticipation,
    <bullet>  no discrimination against children or families due to the 
marital status of the parent,
    <bullet>  inclusion of family violence issues in any family 
formation initiatives funded,
    <bullet>  no requirement of states to spend welfare program funds 
or other money on marriage promotion programs, and
    <bullet>  careful evaluation of family formation initiatives with 
particular attention to unintended negative consequences.

    Through our work as an agency since 1978 to end family violence, we 
know that issue of poverty is paramount in lives and minds of victims, 
influencing their decisions and capacity to flee a violent situation 
with their children. To this end, the security that TANF cash 
assistance and TANF services such as employment preparation and 
childcare can provide, though temporary, is powerful tool for many 
victims of abuse to escape violent situations and achieve safety and 
independence from the violence. We urge Congress to remain fully 
cognizant of the safety concerns for victims of family violence and 
their children and to responsibly address these concerns within TANF 
Reauthorization.
    Thank you for this opportunity to share our comments.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
